MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”), as amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
CONTENTS

Executive Summary	3
  Oversight Activities of SIGTARP	                                          8
  SIGTARP Recommendations 	                                                11
  Report Organization	                                                     11

Section 1
THE OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR THE
TROUBLED ASSET RELIEF PROGRAM	                                            13
  SIGTARP Creation and Statutory Authority	                               15
  SIGTARP Oversight Activities Since the October 2012 Quarterly Report	   15
  The SIGTARP Organization	                                               33

Section 2
TARP OVERVIEW	                                                             35
  TARP Funds Update	                                                       37
  Financial Overview of TARP	                                              41
  Housing Support Programs	                                                51
  Financial Institution Support Programs	                                  75
  Asset Support Programs	                                                 122
  Automotive Industry Support Programs	                                   138

Section 3
TAXPAYERS CONTINUE TO OWN 74% OF GMAC (REBRANDED AS
ALLY FINANCIAL INC.) FROM THE TARP BAILOUTS	                           147
  Introduction	149
  GMAC Expands From Autos to Subprime Mortgages
  Prior to the TARP Bailout	                                           150
  Treasury’s Multiple TARP Bailouts of GMAC Resulted in Taxpayers
  Owning an Increasing Percentage of GMAC	                             152
  Ally’s Auto Financing and Banking Business	                          156
  Taxpayer Bailouts Did Not Resolve Mortgage Liabilities	              158
  Ally Still Owes Taxpayers $14.6 Billion and Treasury Has No Concrete
  TARP Exit Plan for Ally That Balances Repayment to Taxpayers with
  Ally’s Financial Stability	                                          161

Section 4
TARP OPERATIONS AND ADMINISTRATION	                                       165
  TARP Administrative and Program Expenditures	                           167
  Current Contractors and Financial Agents	                               168

Section 5
SIGTARP RECOMMENDATIONS	                                                  179
  Recommendations Regarding Excessive Executive Compensation	             181

  Endnotes	204
APPENDICES
A.	 Glossary	226
B.	 Acronyms and Abbreviations	                                         230
C.	 Reporting Requirements	                                             233
D.	 Transaction Detail	                                                 237
E.	 Debt Agreements, Equity Agreements, and Dividend/Interest Payments	 327
F.	 Cross-Reference of Report to the Inspector General Act of 1978	     332
G.	 Public Announcements of Audits	                                     333
H.	 Key Oversight Reports and Testimony	                                334
I.	 Peer Review Results	                                                336
J.	 Organizational Chart 	                                              337
EXECUTIVE SUMMARY
4   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                                QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   5




Four years after the passage of the TARP bailout, critical questions remain. Does
moral hazard still exist? Is our financial system still vulnerable to companies
that were considered “too big to fail?” Do taxpayers have a stronger, more stable
financial system that is less prone to crisis – one in which the U.S. Government
need not intervene to rescue a failing institution – as an owner or a shareholder
– or else risk financial collapse? These are the questions that come to mind as
we watch AIG’s latest television commercial, “Thank You America – Bring On
Tomorrow,” because taxpayers need and deserve lasting change arising out of the
2008 financial crisis.
    While there have been significant reforms to our financial system over the
past four years, more change is needed to address the root causes of the financial
crisis and the resulting bailout, including vulnerabilities to highly interconnected
institutions, and past failures in risk management. Financial institutions,
regulators, and Treasury have a benefit that was missing during the financial
crisis: the benefit of time … time to shore up existing strengths and to minimize
vulnerabilities.
    There are lessons to be learned from the 2008 financial crisis and TARP. And
as history has a way of repeating itself, we must take those lessons learned and
put into place the changes that will bring a safer tomorrow – a future in which the
flaws and excesses of corporate America do not create an undertow for families and
small businesses.
   One of the most important lessons of TARP and the financial crisis is
that our financial system remains vulnerable to companies that can be
deemed “too interconnected to fail.” In 2008, we learned that our financial
system was akin to a house of cards, with a foundation built on businesses that
were “too big to fail.” But these businesses were not only too big to fail, in and of
themselves, they also were highly interconnected. If one were to fall, the house of
cards could collapse.
    When the crisis hit, regulators were ill-prepared to protect taxpayers because
they had failed to appreciate the interconnected nature of our financial system,
and the resulting threats to American jobs, retirement plans, mortgages, and loans.
Thus, Treasury and regulators turned to TARP.
    These same financial institutions continue to form the foundation of our
economy. They continue to be dangerously interconnected. And, in fact, they have
only gotten bigger in the past four years.i In 2012, the Federal Reserve Bank of
Dallas reported that the biggest banks have grown larger still because of artificial
advantages, particularly the widespread belief that the Government will step in to
rescue the creditors of the biggest institutions if necessary – a belief underscored
by TARP.
    Whether Dodd-Frank’s newly created resolution authority will ultimately be
successful in ending “too big to fail” will depend on the actions taken by regulators


i According to Federal Reserve data, as of September 30, 2012, the top five banking institutions (all TARP recipients) held $8.7 trillion
 in assets, equal to approximately 55% of our nation’s gross domestic product. By comparison, before the financial crisis, these
 institutions held $6.1 trillion in assets, equal to 43% of GDP.
6   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           and Treasury. Notwithstanding the passage of Dodd-Frank, the FRB Dallas reports
                                           that the sheer size of these institutions – and the presumed guarantee of
                                           Government support in time of crisis – have provided a “significant edge – perhaps
                                           a percentage point or more – in the cost of raising funds.” In other words, cheaper
                                           credit translates into greater profit.
                                               After Dodd-Frank, credit rating agencies began including the prospect of
                                           Government support in determining credit ratings. In 2011, Moody’s downgraded
                                           three institutions citing a decrease in the probability that the Government
                                           would support them, while stating that the probability of support for highly
                                           interconnected institutions was very high. Recently, a Moody’s official stated that
                                           Government support was receding.
                                               It is too early to tell whether full implementation of Dodd-Frank will ameliorate
                                           the need for taxpayers to bail out companies if there is a future crisis. Even without
                                           the failure of any one of these institutions, we have learned that their near failure
                                           or significant distress could cause ripple effects for families and businesses. Despite
                                           TARP and other Federal efforts preventing the failure of these institutions, much of
                                           Americans’ household wealth evaporated. Treasury Secretary Timothy F. Geithner
                                           testified before Congress that there was a “threat of contagion” caused by the
                                           interconnectedness of major firms.ii Given this continued “threat of contagion”
                                           to our financial system, Treasury and regulators should take this opportunity to
                                           protect taxpayers from the possibility of any future financial crisis.
                                               Through Dodd-Frank, Congress significantly reformed the regulators’ authority
                                           to hold “systemically important” institutions to higher standards. However, it
                                           remains unclear how regulators will use that authority, and to what degree. The
                                           determination of which non-bank institutions are considered systemic also remains
                                           unclear. In addition, companies previously described as systemic, such as AIG,
                                           have gone without financial regulation for years. Despite the fact that the identity
                                           of banks that will be subject to higher standards has been known for two years,
                                           the standards for these companies are far from final. Regulators have moved more
                                           slowly than expected, due in part to strong lobbying efforts against change.
                                               Treasury and regulators must provide incentives to the largest, most
                                           interconnected institutions to minimize both their complexity and their
                                           interconnectedness. Treasury and regulators should send clear signals to the
                                           financial industry about levels of complexity and interconnectedness that will not
                                           be accepted. Treasury and regulators must set the standards through increased
                                           capital and liquidity requirements to absorb losses, as well as tighter margin
                                           standards. Treasury and regulators should limit risk through constraints on
                                           leverage. And companies, in turn, must do their part.
                                              Companies must engage in effective risk management, and
                                           regulators must supervise this risk management. According to Treasury, the
                                           biggest failure in our financial system was that it allowed large institutions to take
                                           on leverage without constraint.iii Leverage — debt or derivatives used to increase
                                           return — has risk because it can multiply gains and losses. Large interconnected
                                           ii	 Testimony of Treasury Secretary Timothy F. Geithner, House Financial Services Committee, September 23, 2009.
                                           iii	 Testimony of Treasury Secretary Timothy F. Geithner, House Financial Services Committee, September 23, 2009.
                                                                                                                      QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   7




financial institutions had woefully inadequate risk management policies, which
allowed problems to intensify.iv Financial institutions made risky subprime
mortgages, which they then sliced, diced, and repackaged into complex mortgage
derivatives to be sold to each other and to other investors. These companies and
investors were heavily dependent on inflated credit ratings. Institutions bought
these long-term illiquid securities with short-term funding that froze in 2008,
causing severe liquidity crises. Treasury asked Congress to approve TARP because
these illiquid mortgage assets had, in essence, choked off credit.v
    Insufficient attention was placed on counterparty risk, with many of the
companies believing they were “fully hedged” with zero risk exposure. Companies
developed elaborate methods of hedging, including buying insurance-like
protection against the default of these investments (called credit default swaps).
Companies hedged through offsetting trades that bet on the increase and decrease
in the value of the security. These hedges, many of which did not fully protect
against exposure, provided a false sense of protection that led to decreased risk
management and decreased market discipline.
    The financial system was opaque, impeding an understanding of the true
exposure to risk by institutions, rating agencies, investors, creditors, and regulators.
Products such as credit default swaps went unregulated. Offsetting trades occurred
on the over-the-counter market – a market that, unlike the New York Stock
Exchange or other exchanges, has no transparency. With no effective curbs on risk,
executives often ignored risk, with many receiving extraordinary pay based on how
many mortgages they created, while at the same time transferring their risk in the
ultimate success of the mortgages. In short, Wall Street cared more about dollars
than sense. And yet, we must ask ourselves: Has anything changed?
    In 2008, the U.S. Government assured the world that it would use TARP and
access to the Federal Reserve’s discount window to prevent the failure of any major
financial institution. But in so doing, it encouraged future high-risk behavior by
insulating the risk-takers from the consequences of failure. This concept – known
as moral hazard – is alive and well. A 2012 study by Federal Reserve economists
found that large TARP banks have actually increased the number of loans that
could be considered “risky,” which “may reflect the conflicting influences of
Government ownership on bank behavior.” Fannie Mae and Freddie Mac also
operated with an implicit Government guarantee, which led to lower borrowing
costs that enabled them to take on significant leverage. According to Treasury, these
entities “were a core part of what went wrong with our system.”vi Dodd-Frank did
not address Fannie Mae and Freddie Mac.
    Financial institutions must practice discipline and responsibility by reforming
risk management and corporate governance. Companies cannot write off risk
management believing that their exposure is removed by hedging. Companies must
understand their exposure to risk, including conducting heightened reviews of
counterparty risk.
iv	Testimony of Treasury Secretary Henry Paulson, Financial Crisis Inquiry Commission, May 6, 2010.
v	Testimony of Treasury Secretary Henry Paulson, Senate Committee on Banking, Housing, and Urban Affairs, September 23,
   2008.
vi	Testimony of Treasury Secretary Timothy F. Geithner, Senate banking Committee, June 18, 2009.
8   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               Recent scandals such as JPMorgan’s “London whale” and LIBOR manipulation
                                           have shown that excessive risk-taking continues unchecked by executives and
                                           boards of directors. Companies should make a deeper assessment of their assets.
                                           Assets carry different amounts of risk; collateral for some loans may be stronger
                                           than others. In determining the amount of TARP funds to invest in a bank,
                                           Treasury used the total risk-weighted assets, rather than total assets. Executives and
                                           boards must better understand, monitor, and manage risk.
                                               We learned from the crisis that we cannot expect companies to constrain excess
                                           risk-taking on their own initiative. Regulators therefore must protect hardworking
                                           Americans by setting constraints on leverage.vii Given their interconnectedness,
                                           risk at one institution (Lehman Brothers, for example) can shock our entire system.
                                           Our regulators must require “strong shock absorbers,” as described by Treasury
                                           Secretary Geithner.viii
                                               Bank examiners must increase their supervision of risk management at all
                                           banks, and the supervision of companies that pose a risk to our financial system
                                           must be even stronger. Regulators can use information from on-site examiners,
                                           Federal Reserve stress tests, and plans called “living wills” (submitted by these
                                           companies) to determine areas of risk. While regulators are still going through the
                                           process to write rules establishing these standards, other rules have not yet been
                                           written.
                                               Treasury and regulators should set strong capital requirements and liquidity
                                           cushions to absorb shock; longer-term funding to prevent a liquidity crisis; strong
                                           rules regarding leverage; and constraints on specific products or lines of business
                                           that hide true exposure to risk.
                                               In the wake of the 2008 financial crisis, we realized that change was necessary.
                                           There has been meaningful change to our financial system. But there is much
                                           more to be done. Americans need and deserve a financial system with regulation
                                           that encourages growth, but that minimizes susceptibility to current risks – and one
                                           that is flexible enough to protect against emerging risks. Treasury and regulators
                                           must have courage and steely resolve to enact change as they are up against Wall
                                           Street executives who simply wish to return to “business as usual,” with no public
                                           memory of the bailout or the lasting impact to the American taxpayer. Enduring
                                           progress will not be easy, but it can, and must, be achieved.




                                           OVERSIGHT ACTIVITIES OF SIGTARP
                                           Through TARP, the American taxpayers became investors in hundreds of financial
                                           institutions, the auto industry, and certain markets for asset-backed securities, and
                                           the Office of the Special Inspector General for the Troubled Asset Relief Program
                                           (“SIGTARP”) is the only agency charged solely with a mission to advance economic
                                           stability through transparency, coordinated oversight, and robust enforcement.

                                           vii	 Testimony of Treasury Secretary Timothy F. Geithner, House Financial Services Committee, September 23, 2009.
                                           viii	Testimony of Treasury Secretary Timothy F. Geithner, Senate Banking Committee, June 18, 2009.
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   9




    In addition to bringing transparency to lessons of the financial crisis and
TARP, this past quarter SIGTARP brought transparency and oversight to 2012 pay
packages approved by Treasury for the top 25 employees at AIG, General Motors,
and Ally Financial Inc. (formerly GMAC). Treasury approved pay packages (cash
salary and stock) of at least $1 million for all but one of these Wall Street top
employees. With Treasury’s approval, there has been little curbing of excessive
pay: 23% of the 69 top 25 employees were paid in cash and stock of $5 million
or more; 30% of these top employees were paid in cash and stock between $3
million to $5 million. Accordingly, 53% were paid in cash and stock of $3 million
or more. Breaking down these excessive pay packages, Treasury approved cash
salaries of $500,000 or more for 70% of the top 25 employees of these three
TARP recipients. Treasury also appears to have moved away from tying individual
compensation to long-term company success in the 2012 compensation awards.
Nearly 50% (34 employees of the 69 top 25 employees) did not receive long-term
restricted stock in their pay packages, a strong shift from a key guideline aimed at
reducing excessive risk. SIGTARP again made recommendations to Treasury to
improve its process to set pay.
    One enduring legacy of TARP is criminal activity associated with the program.
SIGTARP is a highly sophisticated white-collar criminal law enforcement agency
that investigates crime related to TARP and actively supports the prosecution of
individuals it investigates. SIGTARP’s investigations are staffed with Federal agents,
attorneys, investigators, and analysts, and are conducted in partnership with other
law enforcement agencies to leverage resources throughout the Government.
Over this quarter, SIGTARP partnered with President Obama’s Financial Fraud
Enforcement Task Force, various U.S. Attorney’s Offices, the Consumer Financial
Protection Bureau, and the Securities and Exchange Commission, among others,
to aggressively pursue violations involving TARP.
    SIGTARP’s investigations have resulted in criminal charges against 119
individuals (as of January 10, 2013), including 82 senior officers (CEOs, owners,
founders, or senior executives) of their organizations. Eighty-three of those
defendants have been criminally convicted. These convictions carry severe
consequences and 35 defendants have been sentenced to prison, while others are
awaiting sentencing. SIGTARP also actively supports civil actions for violations
of the law that it investigates with its law enforcement partners. SIGTARP’s
investigations have resulted in civil cases against 58 individuals (including 44
senior officers) and 47 entities (in some instances an individual will face both
criminal and civil charges). Along with jail time, SIGTARP and its law enforcement
partners ensure that criminals and those charged in civil lawsuits pay for their
crimes. SIGTARP’s investigations have resulted in court orders for the return of
$4.15 billion to victims or the Government.
    Although much of SIGTARP’s investigative activity remains confidential, over
the past quarter there have been significant public developments in several of
SIGTARP’s investigations with its law enforcement partners, set forth in more
detail in Section 1, including:
10   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            •	 The U.S. Attorney for the Southern District of New York filed a civil mortgage
                                               fraud lawsuit alleging that TARP recipient Bank of America Corporation
                                               and its predecessors, Countrywide Financial Corporation and Countrywide
                                               Home Loans, Inc. (“Countrywide”), used a process known as the “Hustle”
                                               that was intentionally designed to process loans at high speed and without
                                               quality checkpoints to defraud Fannie Mae and Freddie Mac into buying
                                               thousands of fraudulent or defective loans on which the borrowers subsequently
                                               defaulted causing over $1 billion in losses and countless foreclosures. The
                                               misrepresentations allegedly made by Bank of America occurred before and
                                               during the time taxpayers invested $45 billion in TARP funds in the bank.
                                            •	 The Securities and Exchange Commission filed a civil fraud lawsuit against
                                               three executives of TARP applicant Bank of the Commonwealth alleging that
                                               they understated millions of dollars in losses and masked the true health of the
                                               bank’s loan portfolio at the height of the financial crisis.
                                            •	 Guilty pleas by several individuals, including two senior officers (CEO and Vice
                                               President) of a mortgage originator to a fraud scheme involving making false
                                               representations about their company’s financial well-being to obtain funding
                                               from TARP recipient BNC National Bank (BNC), resulting in losses of $27
                                               million to BNC, exceeding the money the bank received through TARP.
                                            •	 Guilty plea by in-house counsel to TARP applicant FirstCity Bank to bank
                                               fraud, in a case where FirstCity’s CEO and its Vice President previously pled
                                               guilty in a multi-million dollar fraud spanning several years leading up to the
                                               bank’s failure.
                                            •	 Guilty plea by the owner of an auto repair business to bank fraud in a scheme
                                               that caused three banks to lose more than $2 million, including TARP recipients
                                               U.S. Bank and First Community Bank.
                                            •	 Guilty plea by three senior officers (CFO, Executive Vice President, and COO)
                                               of a debt collection agency to wire and bank fraud and money laundering in a
                                               multi-million dollar scheme that defrauded TARP recipient Webster Bank.
                                            •	 Conviction after a two-week trial of an attorney for conspiring to obstruct a
                                               Securities and Exchange Commission investigation into a Ponzi scheme by a
                                               financial advisor. The owner of the financial advisor previously pled guilty to the
                                               Ponzi scheme and convincing investors to invest in companies backed by TARP.
                                            •	 Guilty plea by an individual who ran a Ponzi scheme that defrauded TARP
                                               recipients F&M Bank, U.S. Bank, and Fifth Third Bank.
                                            •	 The Consumer Financial Protection Bureau filed a complaint to halt an alleged
                                               scam targeting struggling homeowners seeking mortgage modification, alleging
                                               that the company falsely told homeowners it could, for a fee, assist them in
                                               obtaining benefits from government programs including TARP housing program
                                               HAMP, without providing homeowners any meaningful help.
                                            •	 Sentencing of the operator of a company for fraud against distressed
                                               homeowners in which the operator falsely advertised a TARP program to
                                               implement his fraud.
                                            •	 Court order that three individuals, including the owner of a company, return
                                               money to victims of a mortgage modification fraud where they collected upfront
                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   11




   fees from homeowners using false promises that the homeowner would receive
   a modification through Federal programs referred to as the “Obama Plan,”
   money-back guarantees, and overstated claims of success.

    SIGTARP will carry out its critical mission until the Government has sold or
transferred all assets and terminated all insurance contracts under TARP. As of
December 31, 2012, there were 338 institutions still in TARP, including 46 banks
and AIG, for which Treasury holds only warrants to purchase stock. Treasury does
not consider these 47 institutions to be in TARP. The Government has contracts or
guarantees for TARP programs that last as long as 2020.




SIGTARP RECOMMENDATIONS
One of SIGTARP’s oversight responsibilities is to provide recommendations
to Treasury and Federal banking regulators to facilitate effective oversight and
transparency and to prevent fraud, waste, and abuse related to TARP. Section 5 of
this report, “SIGTARP Recommendations,” provides updates on all of SIGTARP’s
114 recommendations, including SIGTARP’s latest recommendations to Treasury
on its process to approve pay packages for top 25 employees at General Motors,
AIG, and Ally Financial Inc. (formerly GMAC).




REPORT ORGANIZATION
The report is organized as follows:

•	 Section 1 discusses SIGTARP’s actions to fulfill its mission of advancing
   economic stability through transparency, coordinated oversight, and robust
   enforcement.
•	 Section 2 details how Treasury has spent TARP funds and contains an
   explanation or update of each program.
•	 Section 3 discusses GMAC (rebranded as Ally Financial Inc.), which remains in
   TARP as one of the largest TARP investments.
•	 Section 4 describes the operations and administration of the Office of Financial
   Stability, the office within Treasury that manages TARP.
•	 Section 5 discusses SIGTARP’s recommendations.

    The report also includes numerous appendices containing, among other things,
figures and tables detailing all TARP investments through December 31, 2012,
except where otherwise noted.
12   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
              THE OFFICE OF THE SPECIAL
SECT IO N 1   INSPECTOR GENERAL FOR THE
              TROUBLED ASSET RELIEF PROGRAM
14   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   15




SIGTARP CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief
Program (“SIGTARP”) was created by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) as amended by the Special Inspector General
for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”). Under EESA
and the SIGTARP Act, SIGTARP has the responsibility, among other things, to
conduct, supervise, and coordinate audits and investigations of the purchase,
management, and sale of assets under the Troubled Asset Relief Program (“TARP”)
or as deemed appropriate by the Special Inspector General. SIGTARP is required
to report quarterly to Congress to describe SIGTARP’s activities and to provide
certain information about TARP over that preceding quarter. EESA gives SIGTARP
the authorities listed in Section 6 of the Inspector General Act of 1978, including
the power to obtain documents and other information from Federal agencies and
to subpoena reports, documents, and other information from persons or entities
outside the Government.
    Under the authorizing provisions of EESA, SIGTARP is to carry out its duties
until the Government has sold or transferred all assets and terminated all insurance
contracts acquired under TARP. In other words, SIGTARP will remain “on watch”
as long as TARP assets remain outstanding.




SIGTARP OVERSIGHT ACTIVITIES SINCE THE
OCTOBER 2012 QUARTERLY REPORT
SIGTARP continues to fulfill its oversight role on multiple parallel tracks:
investigating allegations of fraud, waste, and abuse related to TARP; conducting
oversight over various aspects of TARP and TARP-related programs and activities
through 20 published audits and evaluations, and 114 recommendations as of
January 30, 2013, and promoting transparency in TARP and the Government’s
response to the financial crisis as it relates to TARP.

SIGTARP Investigations Activity
SIGTARP is a white-collar law enforcement agency. As of January 10, 2013,
SIGTARP had more than 150 ongoing criminal and civil investigations, many in
partnership with other law enforcement agencies in order to leverage resources
throughout the Government. SIGTARP takes its law enforcement mandate
seriously, working hard to deliver the accountability the American people demand
and deserve. SIGTARP’s investigations have delivered substantial results, including:

•	 criminal chargesi against 119 individuals, including 82 senior officers (CEOs,
   owners, founders, or senior executives) of their organizations

i Federal indictments and other charging documents are only charges and not evidence of guilt. A defendant is presumed innocent until
 and unless proven guilty.
16   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            •	 criminal convictions of 83 defendants
                                            •	 prison sentences for 35 defendants (others are awaiting sentencing)
                                            •	 civil cases against 58 individuals (including 44 senior officers) and 47 entities
                                               (in some instances an individual will face both criminal and civil charges)
                                            •	 orders of restitution and forfeiture and civil judgments entered for $4.15 billion.
                                               This includes restitution orders entered for $3.7 billion, forfeiture orders
                                               entered for $170.4 million, and civil judgments and other orders entered for
                                               $281.9 million. Although the ultimate recovery of these amounts is not known,
                                               SIGTARP has already assisted in the recovery of $160.9 million
                                            •	 savings of $553 million in TARP funds that SIGTARP prevented from going to
                                               the now-failed Colonial Bank

                                                SIGTARP investigates white-collar fraud related to TARP. These investiga-
                                            tions include, for example, accounting fraud, securities fraud, insider trading, bank
                                            fraud, mortgage fraud, mortgage modification fraud, false statements, obstruction
                                            of justice, money laundering, and tax crimes. Although the majority of SIGTARP’s
                                            investigative activity remains confidential, over the past quarter there have been
                                            significant public developments in several SIGTARP investigations.

                                            Bank of America
                                            On October 24, 2012, the U.S. Attorney for the Southern District of New York
                                            filed a civil mortgage fraud lawsuit against Bank of America Corporation (“Bank
                                            of America”) and its predecessors, Countrywide Financial Corporation and
                                            Countrywide Home Loans, Inc. (collectively, “Countrywide”). The complaint
                                            alleges that the banks caused U.S. taxpayers losses through the sale of toxic
                                            mortgage loans to the Federal National Mortgage Association (“Fannie Mae”) and
                                            the Federal Home Loan Mortgage Corporation (“Freddie Mac”). The complaint
                                            seeks civil penalties and damages of more than $1 billion.
                                                Fannie Mae and Freddie Mac are government sponsored entities (“GSEs”) that
                                            were chartered by Congress to provide liquidity and stability to the U.S. housing
                                            and mortgage markets. To fulfill their mission, the GSEs purchase single-family
                                            residential mortgages from lenders and pool them into mortgage-backed securities
                                            (which they subsequently sell to investors) or hold the mortgages in their invest-
                                            ment portfolios. To ensure that they purchase investment quality mortgages, the
                                            GSEs rely on representations and warranties by the lenders that the loans sold to
                                            the GSEs comply with certain underwriting standards.
                                                According to the complaint, for many years Countrywide, on its own and as
                                            part of Bank of America, was the largest provider of residential mortgage loans to
                                            the GSEs. The complaint alleges that in 2007, Countrywide allegedly created a
                                            new loan origination program called the “Hustle” to increase the speed at which
                                            it originated and sold loans to the GSEs. According to the complaint, around this
                                            same time, mortgage default rates were increasing throughout the country and,
                                            in response, the GSEs began to tighten their loan purchasing requirements to
                                            reduce risk. Under the Hustle, Countrywide executives allegedly eliminated certain
                                            internal quality control processes and fraud prevention measures that had been
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   17




in place to ensure that its loans were sound. Countrywide executives allegedly
ignored repeated warnings that the quality of loans originated under the Hustle
would suffer. The complaint alleges Bank of America acquired Countrywide in July
2008, but the Hustle program continued unabated at Bank of America through
2009. According to the complaint the Hustle program was never disclosed to the
GSEs. As a result of the Hustle, the complaint alleges that Countrywide and later,
Bank of America, funneled loans to the GSEs while misrepresenting to the GSEs
that the loans were investment-quality loans that complied with GSE underwriting
requirements. After the Hustle loans defaulted, Countrywide and Bank of America
allegedly refused to repurchase Hustle loans or reimburse the GSEs for losses
incurred on those loans, even where the GSEs identified loans containing material
defects or fraudulent misrepresentations.
    Bank of America received a total of $45 billion, in three infusions, in TARP
funds in 2008 and 2009. Bank of America repaid the $45 billion TARP investment
in full on December 9, 2009.
    The case is being investigated by SIGTARP, the Commercial Litigation Branch
of the U.S. Department of Justice’s Civil Division, the U.S. Attorney’s Office for the
Southern District of New York, and the Federal Housing Finance Agency Office of
Inspector General (“FHFA OIG”).

American Mortgage Specialists
On October 19, 2012, Scott N. Powers, chief executive officer and president, and
David E. McMaster, vice president of lending operations, at American Mortgage
Specialists (“AMS”), pled guilty in the U.S. District Court for the District of
North Dakota to conspiracy to commit bank fraud and wire fraud for defrauding
TARP recipient BNC National Bank (“BNC”) of approximately $27 million. On
November 29, 2012, Lauretta Horton, director of accounting at AMS, pled guilty
to her role in the scheme and David Kaufman, an outside auditor, pled guilty to
obstructing the Government’s investigation into the fraud perpetrated against BNC.
    AMS was an Arizona company that originated residential mortgage loans and
sold the loans to institutional investors. AMS obtained funding for these loans by
selling participation interests in the loans to financial institutions, including BNC.
BNC’s holding company received approximately $20 million in TARP funds in
January 2009, and the holding company subsequently injected $18 million of the
TARP funds into BNC. BNC incurred approximately $27 million in losses as a
result of the fraud, which exceeded the amount of TARP funds received by BNC.
In addition, BNC has failed to make any of its required TARP dividend payments to
the U.S. Department of Treasury (“Treasury”).
    BNC entered into a loan participation agreement with AMS in 2006 to pro-
vide funding for loans originated by AMS. Under the agreement, when AMS loans
were subsequently sold to investors, AMS was required to send “pay down” emails
to BNC notifying the bank of the sales and to repay BNC for the funds the bank
provided for the loans sold. BNC used the “pay down” information to monitor
which loans had been (and had not been) sold to investors. AMS was also required
18   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            to repurchase any loans funded by BNC if the loans were not sold by the loan
                                            maturity date.
                                                Powers and McMaster admitted to devising and executing a scheme to defraud
                                            BNC of the funds provided to AMS for loan origination purposes. AMS began to
                                            experience cash shortages in October 2007. Powers and McMaster admitted that
                                            without additional funding from BNC, AMS would have been forced to terminate
                                            its operations. To enable AMS to continue receiving funding from BNC, Powers
                                            and McMaster admitted to submitting false loan “pay down” information to BNC.
                                            In particular, Powers and McMaster orchestrated a “lapping” scheme by causing
                                            employees to delay notification to BNC of loan sales in order to use funding
                                            provided by BNC for new loans to repay BNC for loans sold earlier. In addition,
                                            Powers, McMaster, and Horton admitted to providing BNC materially false
                                            information about AMS’s operations and financial condition, including failing
                                            to disclose that AMS was suffering a cash shortage and was making payments
                                            to the IRS for back payroll taxes. As part of the scheme, Horton and McMaster
                                            admitted to submitting false financial statements that disguised the IRS payments
                                            under “marketing” and “advertising” expenses as well as to inflating current cash
                                            amounts. Powers and McMaster further admitted to using BNC funds to (i) pay
                                            for the operations of AMS, (ii) provide hundreds of thousands of dollars in personal
                                            benefits to Powers and McMaster in the form of salary, bonuses, and payment of
                                            personal expenses, and (iii) make hundreds of thousands of dollars of personal
                                            loans to Powers and McMaster that were paid off using additional funds diverted
                                            from BNC.
                                                Kaufman, a certified public accountant and external independent auditor
                                            for AMS, admitted to falsifying AMS’s audited financial statements to prevent
                                            BNC from discovering the true extent of AMS’s tax liabilities and terminating its
                                            relationship with AMS. Kaufman further admitted to lying to Federal agents of
                                            SIGTARP and FHFA OIG and Federal prosecutors regarding his falsification of
                                            AMS’s financial statements.
                                                Sentencing for Powers and McMaster is scheduled for April 15, 2013, and
                                            sentencing for Horton and Kaufman is scheduled for May 6, 2013. Powers faces a
                                            maximum of 30 years in prison and a $54 million fine; McMaster faces five years
                                            in prison and a $54 million fine; Kaufman faces 10 years in prison and a $250,000
                                            fine; and Horton faces five years in prison and a $250,000 fine.
                                                The case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            District of North Dakota, and FHFA OIG.

                                            David Tamman and John Farahi (New Point Financial Services, Inc.)
                                            On November 13, 2012, after a two-week criminal trial in the U.S. District for
                                            the Central District of California, attorney David Tamman was convicted of 10
                                            counts relating to a $20 million Ponzi scheme perpetrated by his client, New Point
                                            Financial Services, Inc., and its owner, John Farahi.
                                                As previously reported, in June 2012, Farahi pled guilty to running a Ponzi
                                            scheme through New Point from 2005 through 2009. Farahi admitted to convinc-
                                            ing potential investors to invest in the corporate bonds of companies backed by
                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   19




TARP and other Government programs. Many of the defrauded investors were
members of the Iranian-Jewish community who listened to Farahi’s daily Farsi-
language investment radio show. Farahi admitted that he used investor money to
support his lavish lifestyle, to make payments to previous New Point investors in
order to perpetuate the Ponzi scheme, and to finance and cover trading losses on
speculative options trades. Facing massive trading losses at the end of 2008, Farahi
borrowed millions of dollars from TARP recipients Bank of America and U.S. Bank
(and other banks) by providing false financial information to these banks.
    Tamman was convicted of conspiring with Farahi to obstruct the Securities and
Exchange Commission’s (“SEC”) investigation into Farahi’s illegal Ponzi scheme
by (i) altering, creating, and backdating documents to make it falsely appear to the
SEC that Farahi and New Point had made all the necessary disclosures to investors
and that Farahi had properly transferred investor funds to his personal accounts
and (ii) aiding and abetting Farahi in providing misleading and evasive testimony
under oath to the SEC. Tamman was also convicted of being an accessory after the
fact to Farahi’s mail and securities fraud crimes.
    At his sentencing on February 11, 2013, Tamman faces a maximum penalty of
up to 190 years in prison. Farahi, who pled guilty to mail fraud, loan fraud, illegally
selling unregistered securities, and conspiring with Tamman to obstruct the SEC’s
investigation, is scheduled to be sentenced on March 18, 2013. He faces a maxi-
mum penalty of 75 years in prison, a fine of up to $1.75 million, and restitution.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Central District of California, and the Federal Bureau of Investigation (“FBI”).

The Bank of the Commonwealth
On January 9, 2013, the SEC filed a civil complaint against three former executives
of The Bank of the Commonwealth (“BOC”) for their roles in understating millions
of dollars in losses and masking the true health of the bank’s loan portfolio at the
height of the financial crisis. The SEC’s complaint charges Edward J. Woodard,
former chief executive officer, president and board chairman; Cynthia A. Sabol,
former chief financial officer; and, Stephen G. Fields, former executive vice
president, with fraud and other violations of the federal securities laws. The SEC
complaint seeks an injunction and monetary penalties against the defendants and
seeks to bar them from serving as an officer or director of a public company.
    BOC was a community bank headquartered in Norfolk, Virginia, that failed
in September 2011. It was the eighth largest bank failure in the country that year
and the largest bank failure in Virginia since 2008. The Federal Deposit Insurance
Corporation (“FDIC”) estimates that BOC’s failure will cost the deposit insurance
fund more than $268 million. In November 2008, BOC sought $28 million in
TARP funds. Subsequently, BOC’s Federal banking regulator asked the bank to
withdraw the TARP application, which BOC did.
    The SEC’s complaint alleges that, between November 2008 and August 2010,
the defendants significantly misrepresented the health of BOC’s construction
and development loan portfolio. According to the SEC’s complaint, BOC’s
parent company, Commonwealth Bancshares, allegedly materially understated
20   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            on its financial statements its allowance for loan and lease losses, materially
                                            underreported its non-performing loans and materially understated and
                                            underreported its losses on real estate repossessed by the bank in its SEC filings.
                                            In addition, the compaint alleges that Commonwealth Bancshares and its
                                            executives misleadingly touted BOC’s asset quality, underwriting practices, credit
                                            monitoring, and adequacy of its allowance for losses. The SEC further alleges that
                                            Commonwealth Bancshares also understated its losses on repossessed properties
                                            in two fiscal quarters, which caused BOC to understate its reported loss before
                                            income. According to the SEC complaint, for eight consecutive fiscal quarters
                                            BOC allegedly underreported its total non-performing loans. The complaint also
                                            alleges that Woodard knew of the true state of BOC’s loan portfolio and was
                                            involved in activity to hide the deterioration of many loans, Fields engaged in
                                            activity that masked BOC’s rapidly deteriorating loan portfolio and Sabol was also
                                            aware of the masking activities.
                                                The SEC complaint includes allegations that Commonwealth Bancshares
                                            understated its losses with respect to, among other loans, a construction loan
                                            made to business partners George Hranowskyj and Eric Menden, who owned and
                                            operated numerous real estate investment and development entities. As previously
                                            reported, Menden and Hranowskyj pled guilty to conspiracy to commit wire fraud
                                            and bank fraud in Federal court for their roles in a $41 million fraud that con-
                                            tributed to the failure of BOC. On September 26, 2012, and October 15, 2012,
                                            Menden and Hranowskyj were sentenced to 11.5 years and 14 years, respectively,
                                            in Federal prison. Menden and Hranowskyj were also ordered to pay $32.8 million
                                            in restitution and to forfeit $43.5 million. In addition, a Federal grand jury returned
                                            an indictment against Woodard and Fields, BOC executives Simon Hounslow and
                                            Troy Brandon Woodard (Ed Woodard’s son), and two BOC customers, Thomas
                                            Arney and Dwight Etheridge, for their alleged roles in the massive fraud scheme
                                            that contributed to the failure of BOC. Hounslow, Etheridge, Fields, and both
                                            Woodards are scheduled for trial on March 19, 2013. On August 24, 2012, Arney
                                            pled guilty to conspiracy to commit bank fraud, unlawful monetary transactions,
                                            and making false statements to a financial institution. At sentencing on February
                                            25, 2013, Arney faces a maximum of 20 years in prison.
                                                Also as previously reported, four additional individuals have been charged (three
                                            of whom pled guilty) in SIGTARP’s ongoing criminal investigation. On May 9,
                                            2012, Jeremy C. Churchill, a BOC vice president and commercial loan officer, pled
                                            guilty to conspiracy to commit bank fraud. On May 15, 2012, Recardo Lewis, a
                                            former vice president at Tivest Development and Construction LLC, pled guilty to
                                            conspiracy to commit bank fraud. On September 15, 2011, Natallia Green, a for-
                                            mer employee of Menden and Hranowskyj, pled guilty to making a false statement
                                            to BOC in a loan application. Churchill and Lewis are currently awaiting sentenc-
                                            ing and Green was sentenced in January 2012 to five years of probation.
                                                This ongoing investigation is being conducted by SIGTARP, the U.S. Attorney’s
                                            Office for the Eastern District of Virginia, the FBI, Internal Revenue Service
                                            Criminal Investigation Division (“IRS-CI”), the SEC, and the Federal Deposit
                                            Insurance Corporation Office of Inspector General (“FDIC OIG”).
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   21




First City Bank
On November 2, 2012, Robert E. Maloney, Jr., the former in-house counsel for
FirstCity Bank (“FirstCity”), pled guilty in U.S. District Court for the Northern
District of Georgia to bank fraud. Maloney faces a maximum sentence of 30 years
in prison, a fine of up to $1 million and restitution. Maloney also consented to a
lifetime ban from working in the banking industry. In February 2009, FirstCity
unsuccessfully sought $6.1 million in Federal Government assistance through
TARP. FirstCity failed and was seized by Federal and state authorities on March 20,
2009.
    As previously reported, in October 2011 Mark A. Conner, FirstCity’s former
president, chief executive officer, and chairman, pled guilty to conspiracy to
commit bank fraud and perjury. In June 2012, Clayton A. Coe, the former vice
president and senior commercial loan officer at FirstCity, pled guilty to bank fraud
and to making a false statement on his tax return. Conner admitted to defrauding
FirstCity’s loan committee and board of directors into approving multiple multi-
million-dollar commercial loans to borrowers who were actually purchasing prop-
erty owned by Conner or his co-conspirators. Coe admitted to defrauding FirstCity
by causing FirstCity’s loan committee to approve an $800,000 loan to a borrower
in connection with a real estate development transaction that provided a personal
financial benefit to Coe. On August 9, 2012, Conner was sentenced to 12 years
in prison, banned for life from the banking industry, agreed to forfeit $7 million,
and ordered to pay more than $19.5 million in restitution. Coe is scheduled to be
sentenced on March 13, 2013.
    Maloney admitted that while serving as in-house counsel to FirstCity, he con-
tinued to perform legal work for Conner and corporate entities in which Conner
had an ownership interest. Maloney also admitted to disguising Conner’s personal
financial interest in a July 2007 real estate loan increase funded by FirstCity by
receiving approximately $483,000 of those loan proceeds into his attorney escrow
account maintained at FirstCity and using those funds to make payments and
transfers to and for Conner’s benefit.
    The case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Northern District of Georgia, the FBI, IRS-CI, and FDIC OIG.

Clint and Brandi Dukes
In November and December 2012, Clint E. Dukes and his former wife, Brandi M.
Dukes, respectively, pled guilty in the U.S. District Court for the Western District
of Missouri in connection with a bank fraud scheme that caused three banks to
lose more than $2 million, including two TARP-recipient banks. Clint Dukes was
convicted of bank fraud and Brandi Dukes was convicted of misprision of felony.
At sentencing, Clint Dukes faces up to 30 years in prison, a fine of up to $1
million, and restitution, and Brandi Dukes faces up to three years in prison, a
$250,000 fine, and restitution.
    Clint Dukes, owner of Dukes Auto Repair, admitted to creating false invoices
and contracts from the state of Missouri in order to obtain approximately $3 million
in loans from U.S. Bank, First Community Bank and First Central Bank from 2004
22   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            to 2011. Brandi Dukes worked as the bookkeeper for his auto repair shop. Brandi
                                            Dukes admitted to concealing her husband’s fraud by submitting a fraudulent
                                            disbursement request and authorization to First Community Bank in the amount of
                                            $397,329.
                                                Through his fraudulent scheme, Clint Dukes caused losses totaling more than
                                            $2 million at U.S. Bank, First Community Bank, and First Central Bank. U.S.
                                            Bancorp of Minneapolis, the parent company of U.S. Bank, received $6.6 million
                                            in TARP funds and has since repaid the funds. First Community Bancshares, Inc.,
                                            the parent company of First Community Bank, received $14.8 million in TARP
                                            funds that remains outstanding, along with 10 dividend and interest payments
                                            totaling more than $2 million.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for
                                            the Western District of Missouri, the FBI and the Higginsville, Missouri, Police
                                            Department.

                                            Oxford Collection Agency
                                            As previously reported, in May 2011 Richard Pinto and Peter Pinto, the chairman
                                            of the board and chief executive officer, respectively, of Oxford Collection Agency,
                                            Inc. (“Oxford”) pled guilty to wire fraud and conspiracy to commit wire fraud, bank
                                            fraud, and money laundering for their roles in a scheme to defraud business clients
                                            and a TARP-recipient bank. In December 2012, three more former Oxford senior
                                            executives were charged and pled guilty in the U.S. District Court for the District
                                            of Connecticut for their roles in the scheme: Randall Silver, chief financial officer;
                                            Charles Harris, executive vice president; and Carlos Novelli, chief operations
                                            officer. A fourth individual, Patrick Pinto, vice president, was also charged in
                                            December in connection with the scheme.
                                                From January 2007 through March 2011, Oxford had agreements with busi-
                                            ness clients to collect debts from debtors, to report such collections to the clients,
                                            and to remit the collected payments back to the clients. The clients would pay
                                            Oxford a portion of the monies collected by Oxford as a fee. Silver, Harris, and
                                            Novelli admitted to conspiring with Richard Pinto and Peter Pinto to execute a
                                            fraud scheme in which they (i) collected funds from debtors on behalf of clients
                                            and failed to remit those funds to the clients and (ii) created false documents and
                                            employed other deceptive means to cover up their failure to remit collected funds
                                            to clients and their improper use of the funds.
                                                Richard and Peter Pinto further admitted to causing Oxford to secure a line
                                            of credit from TARP recipient Webster Bank without disclosing to the bank that
                                            Oxford was defrauding its clients and had significant outstanding payroll taxes.
                                            Silver helped Richard Pinto and Peter Pinto continue to defraud Webster Bank
                                            by inducing the bank to increase the line of credit to $6 million by withholding
                                            Oxford’s true financial condition and submitting falsified financial records to the
                                            bank. Richard Pinto, Peter Pinto, and Silver also admitted to laundering funds from
                                            the line of credit by remitting those funds to clients in order to maintain the clients’
                                            business and thereby continue the scheme against the clients. The fraudulent
                                            scheme has led victims to lose more than $10 million.
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   23




    Novelli and Harris also admitted to paying thousands of dollars in cash bribes
to employees of certain banks to induce them to send their bank’s debt collection
business to Oxford. Patrick Pinto, who is Richard’s son and Peter’s brother, was
charged with allegedly paying such bribes to officials at two banks, including an
official working for U.S. Bank, a TARP recipient.
    At sentencing, Silver faces up to 25 years in prison and a $500,000 fine; Harris
and Novelli each face up to five years in prison and a $250,000 fine. Richard Pinto
and Peter Pinto, scheduled for sentencing in January 2013, face a maximum of 35
years in prison and a fine of up to $20 million.
    The case is being investigated by SIGTARP, the U.S. Attorney’s Office for
the District of Connecticut, IRS-CI, the FBI, and the Connecticut Securities,
Commodities and Investor Fraud Task Force.

Edward Shannon Polen
On December 10, 2012, Edward Shannon Polen pled guilty in the U.S. District
Court for the Middle District of Tennessee to bank fraud, mail fraud, wire fraud,
and money laundering. The charges stem from his execution of several elaborate
Ponzi schemes in which he defrauded investors and several TARP-recipient banks.
As previously reported, Polen had been charged in January 2012 in connection
with the scheme.
    Polen admitted that from January 2007 through March 2011, he executed
several Ponzi schemes in which he solicited and ultimately defrauded investors of
more than $16 million. Polen admitted that, in one of those schemes, he falsely
represented to victim-investors that he needed money to purchase construction
equipment that he was going to sell to Tennessee Emergency Management Agency
contractors for a significant profit. Polen further admitted that, when confronted
with payment demands, he provided his victims with post-dated checks drawn
on accounts at multiple banks, including F&M Bank, U.S. Bank, and Fifth Third
Bank, all which received TARP funds. The checks were drawn from accounts
that had been closed or did not have sufficient funds to cover the amounts of the
checks. Polen further admitted that he used investors’ money for his own personal
use, including paying off his gambling debts and repaying prior investment victims
to keep the scams going.
    At sentencing on March 8, 2013, Polen faces up to 90 years in prison and a
fine of up to $1.75 million. The case is being investigated by SIGTARP, the U.S.
Attorney’s Office for the Middle District of Tennessee, and the Tennessee Valley
Authority Office of the Inspector General.

National Legal Help Center
On December 3, 2012, the Consumer Financial Protection Bureau (“CFPB”) filed
a civil complaint against National Legal Help Center, Inc. (“NLHC”), its owner,
Najia Jalan, and its chief financial officer, Richard K. Nelson, for fraudulently
marketing and selling mortgage assistance relief services. CFPB also filed a motion
for a temporary restraining order against the defendants. The next day, the U.S.
District Court for the Central District of California issued an order freezing the
24   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            assets of the defendants and appointing a temporary receiver to take control of
                                            NLHC.
                                                The CFPB complaint alleges that the defendants falsely promised mortgage
                                            assistance relief services to distressed homeowners in exchange for up-front fees.
                                            According to the complaint, the defendants used aggressive marketing tactics
                                            through websites, direct mail solicitations, spam emails, and telephone calls to
                                            collect advance fees ranging from $1,000 to as much as $10,000 from distressed
                                            homeowners by falsely promising to obtain foreclosure relief or mortgage
                                            modifications that would make the homeowners’ mortgage payments substantially
                                            more affordable. The defendants allegedly misled homeowners by, among other
                                            things, misrepresenting NLHC as a government agency or as being approved by
                                            or affiliated with the government or government programs, including Treasury,
                                            the Making Home Affordable (“MHA”) program and the Home Affordable
                                            Modification Program (“HAMP”). For example, the defendants posted a website
                                            at “makinghomeaffordable.ca” that was allegedly virtually indistinguishable from
                                            the Federal government’s official website for the MHA program. The defendants
                                            also allegedly falsely claimed that they had special expertise in negotiating with
                                            mortgage lenders, that they had proven prior success in obtaining foreclosure
                                            relief or mortgage modifications, and that NLHC was a “full-service law firm” with
                                            attorneys experienced in providing such services to homeowners.
                                                The defendants allegedly collected at least $1.6 million in advance fees from
                                            homeowners since early 2010 but failed to provide any meaningful mortgage
                                            assistance relief services to homeowners. The defendants allegedly failed to respond
                                            to homeowners’ telephone calls and emails and failed to provide homeowners
                                            updates about the status of the defendants’ purported communications with
                                            lenders. In addition, the defendants allegedly instructed homeowners to stop
                                            contacting their lenders and stop paying their mortgages, without advising the
                                            homeowners that they could lose their homes and damage their credit rating
                                            by doing so. As a result of the defendants’ alleged fraudulent actions, many
                                            homeowners suffered significant economic injury, including a damaged credit
                                            rating and the loss of their homes.
                                                The ongoing investigation is being conducted by SIGTARP, CFPB, and the U.S.
                                            Attorney’s Office for the Central District of California.

                                            Ongoing Multi-Agency Collaboration to Combat Mortgage Fraud
                                            HAMP Mortgage Modification Fraud Task Force
                                            The investigation involving NLHC is an example of ongoing, multi-agency
                                            collaboration and efforts to combat mortgage fraud. In December 2011, SIGTARP
                                            formed a task force with CFPB and Treasury to leverage resources in investigating,
                                            combating, and shutting down HAMP-related mortgage modification scams and
                                            to provide awareness to vulnerable homeowners desperately holding onto hope
                                            of saving their homes. The NLHC investigation is a product of these efforts.
                                            Additionally, the task force has issued two consumer fraud alerts, one specifically
                                            offering resources for U.S. service members, to educate homeowners by offering
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013        25




tips on identifing and avoiding mortgage modification scams. These alerts are
reproduced in the back of this report.                                                         Note: As of September 25, 2013

Financial Fraud Enforcement Task Force’s Distressed Homeowner Initiative                       The adjacent description contains
SIGTARP also partnered with the FBI, a co-chair of the Financial Fraud                         data compiled and provided by
Enforcement Task Force’s Mortgage Fraud Working Group, on the Distressed                       the U.S. Department of Justice
Homeowner Initiative, the first-ever nationwide effort to target fraud schemes                 pertaining to the results of the
that prey upon suffering homeowners. The results of the yearlong initiative                    Distressed Homeowner Initiative
announced on October 9, 2012, were that 530 criminal defendants were charged,                  during Fiscal Year 2012. That data
including 172 executives, in 285 Federal criminal indictments or informations                  was later found to be incorrect.
filed in U.S. District Courts across the country. These cases involved more than               To view the original source of
73,000 homeowner victims, and the total loss by those victims is estimated by law              the information, view the Justice
enforcement at more than $1 billion.                                                           Department press release and
                                                                                               disclaimer located at www.justice.
Brian W. Cutright                                                                              gov/opa/pr/2012/October/12-
On January 7, 2013, Brian W. Cutright was sentenced by the U.S. District Court                 ag-1216.html.
for the District of Nevada for operating a fraudulent mortgage assistance company,
Sterling Mutual LLC (“Sterling”). Cutright was sentenced to probation for five                 The initial Justice Department press
years and was ordered to pay $762,143 in restitution to victims.                               release incorrectly stated that the
    As previously reported, Cutright pled guilty on October 9, 2012, to one count              Distressed Homeowner Initiative
of mail fraud.  Cutright admitted to creating and operating Sterling, a Las Vegas              netted 530 criminal defendants
company that falsely claimed to have alliances with private investors and equity               (revised to 107 criminal defendants)
funds to purchase mortgages from distressed homeowners. Cutright admitted to                   in cases involving more than 73,000
causing Sterling to send mass mailing advertisements falsely stating that Sterling             victims (revised to 17,185 victims)
worked together with investment groups and hedge funds to make millions of                     and losses of more than $1 billion
dollars available to assist homeowners with principal reduction programs and to                (revised to $95 million), in FY 2012.
purchase client mortgages from lenders at or below market value. Cutright also
admitted that Sterling’s false representations persuaded victims to give money to              A subsequent review of the reported
Sterling for the purpose of obtaining principal reductions; principal reductions that          cases by the Justice Department
homeowners did not, in fact, receive. A Federal grand jury previously had returned             concluded that the original
a seven-count indictment against Cutright that included charges that Sterling                  figures included in the Distressed
falsely advertised that the U.S. Treasury’s Public-Private Investment Program                  Homeowner Initiative included not
(which was implemented under TARP) allowed banks to sell homeowner mortgages                   only criminal defendants who had
to investors at below market value, after which the homeowners could receive                   been charged in Fiscal Year 2012,
a principal reduction of 90% to 100% of the home’s current appraised value by                  as reported, but also a number of
negotiating a lower mortgage principal with the investor and Sterling.                         defendants who were the subject of
    The case was investigated by SIGTARP, the U.S. Attorney’s Office for the                   other prosecutorial actions – such
District of Nevada, the Department of Housing and Urban Development Office of                  as a conviction or sentence – in
Inspector General, and the U.S. Postal Inspection Service.                                     Fiscal Year 2012. In addition, the
                                                                                               announcement included a number
Legacy Home Loans and Real Estate                                                              of defendants who were charged
As previously reported, on July 10, 2012, Magdalena Salas, Angelina Mireles, and               in mortgage fraud cases in which
Julissa Garcia, the owner, manager, and CEO, respectively, of Legacy Home Loans                the victim(s) did not fit the narrow
and Real Estate (“Legacy Home Loans”) in Stockton, California, pled guilty in the              definition of distressed homeowner
San Joaquin County, California, Superior Court to charges of running a mortgage                that the initiative targeted.
26   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            modification scam. The court sentenced all three defendants to probation and
                                            ordered them to complete 240 hours of community service. Salas was also ordered
                                            not to engage in any professional services requiring a license that she does not
                                            possess. On October 22, 2012, the same court further ordered the defendants to
                                            pay $30,000 in restitution to victims.
                                                The defendants collected thousands of dollars in up-front fees from distressed
                                            homeowners in Central California after making false promises to obtain loan modi-
                                            fications for the homeowners. The defendants falsely promised homeowners that
                                            they would receive loan modifications regardless of their financial situation through
                                            Federal Government programs referred to as the “Obama Plan.” The defendants
                                            also overstated their success rate, made false money-back guarantees, and misrep-
                                            resented that attorneys would work on the modifications. The defendants adver-
                                            tised similar false promises in advertisements, in English and Spanish, on flyers,
                                            billboards, television, and radio. The modification services promised by the defen-
                                            dants were never carried out and many clients ended up losing their homes.
                                                This case was investigated by SIGTARP, the California Attorney General’s
                                            office, the San Joaquin District Attorney’s office, the California Department of Real
                                            Estate, and the Stockton Police Department.

                                            SIGTARP Audit Activity
                                            SIGTARP has initiated 29 audits and four evaluations since its inception. As of
                                            January 30, 2013, SIGTARP has issued 20 reports on audits and evaluations.
                                            Among the ongoing audits and evaluations in process are reviews of: (i) Treasury’s
                                            and the Federal banking regulators’ evaluation of applications submitted by
                                            recipients of TARP funds to exit TARP by refinancing into the Small Business
                                            Lending Fund; (ii) Treasury’s role in General Motors’ decision to top up the
                                            pension plan for hourly workers of Delphi Corporation; and (iii) Treasury’s decision
                                            to waive Internal Revenue Code Section 382 for Treasury’s sales of securities in
                                            TARP institutions.

                                            Recent Audits/Evaluations Released

                                            Treasury Continues Approving Excessive Pay for Top Executives at Bailed-Out
                                            Companies
                                            This month, SIGTARP released a report, “Treasury Continues Approving Excessive
                                            Pay for the Top Executives at Bailed-Out Companies,” which reviewed the process
                                            and decisions of Treasury’s Office of the Special Master for TARP Executive
                                            Compensation (“OSM”) in setting pay packages at the three remaining TARP
                                            exceptional assistance companies: American International Group, Inc. (“AIG”),
                                            General Motors Corporation (“GM”), and GMAC, Inc., later rebranded as Ally
                                            Financial Inc. (“Ally”).
                                               While taxpayers struggle to overcome the recent financial crisis and look to the
                                            Government to put a lid on compensation for executives of firms whose missteps
                                            nearly crippled the U.S. financial system, Treasury continues to allow excessive
                                                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   27




executive pay. AIG, GM, and Ally executives continue to rake in Treasury-approved
multimillion-dollar pay packages that often exceed guidelines from OSM.ii
    SIGTARP reported in January 2012 that the Special Master could not
effectively rein in excessive compensation at companies that received exceptional
assistance from TARP from 2009 through 2011: The Special Master was under
the constraint that his most important goal was to get the companies to repay and
exit TARP, a goal that gave the companies leverage.iii Treasury’s formal response
to SIGTARP’s report came from Acting Special Master Patricia Geoghegan, who
stated that “OSM has succeeded in achieving its mission” by reducing pay for the
Top 25 executives at these companies from the pay they received prior to TARP.
    Treasury’s success should not be judged based on reductions in pay from a time
when these companies stood on their own without taxpayer assistance. If that is the
definition of success, the work of OSM was effectively over when Special Master
Kenneth R. Feinberg set the first pay packages in 2009, and there is no longer a
need for a Special Master. Rather, Treasury’s success should be based on whether
Treasury awards appropriate pay for executives while taxpayers continue to fund
these companies’ bailouts.
    SIGTARP found that once again, in 2012, Treasury failed to rein in excessive
pay. In 2012, OSM approved pay packages of $3 million or more for 54% of the 69
Top 25 employees at AIG, GM, and Ally – 23% of these top executives (16 of 69)
received Treasury-approved pay packages of $5 million or more, and 30% (21 of 69)
received pay ranging from $3.0 million to $4.9 million. Treasury seemingly set a
floor, awarding 2012 total pay of at least $1 million.iv
    Taxpayers deserve transparency on Treasury’s decisions to award multimillion-
dollar pay packages to executives at companies that had been stuck in TARP for
four years. First, even though OSM set guidelines aimed at curbing excessive pay,
SIGTARP previously warned that Treasury lacked robust criteria, policies, and
procedures to ensure those guidelines are met. Treasury made no meaningful
reform to its processes. Second, absent robust criteria, policies, and procedures
to ensure its guidelines were met, OSM’s decisions were largely driven by the pay
proposals of the same companies that historically, and again in 2012, proposed
excessive pay. Third, with the companies exercising significant leverage, the Acting
Special Master rolled back OSM’s application of guidelines aimed at curbing
excessive pay.
   Despite SIGTARP’s previous warning that Treasury lacked robust
criteria, policies, and procedures to ensure that Treasury’s guidelines to
curb excessive pay are met, Treasury made no meaningful reform to its
processes. Former Special Master Feinberg developed guidelines aimed at curbing
excessive pay and reducing excessive risk taking. Treasury Secretary Timothy F.

ii OSM’s primary responsibility is to set pay packages for the Top 25 employees at companies whose amount and nature of their TARP
   bailout were labeled “exceptional.” At the end of 2012, only three companies receiving exceptional assistance under TARP remained:
   AIG, GM, and Ally.
iii SIGTARP previously reported that for 2009 through 2011, the Special Master approved multimillion-dollar compensation packages
   for Top 25 employees and approved pay packages worth $5 million or more over the 2009 to 2011 period for 49 individuals of 7
   companies.
iv Only one employee received Treasury-approved pay under $1 million. Treasury awarded this AIG employee a guaranteed cash salary
  of $700,000.
28   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Geithner testified that executive compensation played a material role in causing
                                            the financial crisis because it encouraged excessive risk taking. Feinberg previously
                                            told SIGTARP that he limited cash salaries to $500,000 and shifted compensation
                                            more toward stock to reduce excessive risk and keep employees’ “skin in the game.”
                                            Feinberg also previously told SIGTARP that he targeted total compensation at the
                                            50th percentile for similarly situated employees at similarly situated entities to
                                            keep the companies competitive. Feinberg testified before Congress that he used
                                            long-term restricted stock tied to performance metrics to correct problems with
                                            executive compensation practices at these companies.
                                                Although SIGTARP previously reported serious problems with OSM’s pay-
                                            setting process and recommended fixes for those problems, Treasury failed to
                                            take any meaningful action in response. SIGTARP reported that OSM approved
                                            multimillion-dollar compensation packages, trying to shift these packages away
                                            from large cash salaries and toward stock, but that OSM did not have any criteria
                                            for applying its guidelines. SIGTARP reported that OSM awarded cash salaries
                                            greater than $500,000 without OSM substantiating good cause. The only action
                                            Treasury took in response to SIGTARP’s findings and recommendations was to
                                            document its use of market data on the 50th percentile and, in an eight-page
                                            spreadsheet, document limited explanations for cash salaries exceeding $500,000.
                                                Despite SIGTARP’s previous warnings, Treasury did not establish meaningful
                                            criteria for having good cause to award cash salaries greater than $500,000. In
                                            2012, OSM did not independently analyze the basis for awarding cash salaries
                                            greater than $500,000. Without this analysis, OSM put itself in the position of
                                            relying heavily on justifications by the companies – companies that historically have
                                            pushed back on the Special Master’s limitations on compensation, in particular, on
                                            cash salaries. By not making substantive changes, Treasury is clinging to the status
                                            quo of awarding multimillion-dollar pay packages.
                                               OSM’s decisions were largely driven by the companies’ pay proposals,
                                            the same companies that historically, and again in 2012, proposed
                                            excessive pay, failing to appreciate the extraordinary situation they were
                                            in, with taxpayers funding and partially owning them. Many believe that
                                            AIG, Ally, and GM would not exist except for the Government assistance each so
                                            desperately requested. SIGTARP previously reported that, given OSM’s overriding
                                            goal to get the companies to repay TARP, the companies had significant leverage
                                            over OSM by proposing and negotiating for excessive pay, warning that if OSM did
                                            not provide competitive pay packages, top executives would leave and go elsewhere.
                                            This was also the case for 2012 pay. For 2012, AIG negotiated for Treasury-
                                            approved pay of approximately $108 million for 25 employees, GM negotiated for
                                            Treasury-approved pay of $64 million for 23 employees, and Ally negotiated for
                                            Treasury-approved pay of approximately $78 million for 21 employees.
                                                By proposing and negotiating for excessive 2012 pay, these executives continue
                                            to lack an appreciation for their extraordinary situations and fail to view themselves
                                            through the lenses of companies substantially owned by the Government. Other
                                            company actions or statements in 2012 shed light on the companies’ lack of
                                            appreciation for their extraordinary situation. AIG CEO Robert Benmosche, who
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   29




has raked in the most compensation of any employee under OSM – $42 million in
four years, with a cash salary exceeding by 200% the median salary of his peers –
was quoted in New York Magazine as stating that neither Treasury nor the Federal
Reserve Board has thanked him for repaying AIG’s rescue package. GM CEO
Dan Akerson asked Treasury Secretary Geithner to relieve GM from OSM’s pay
restrictions, a move Akerson said would ultimately benefit taxpayers, and issued
a proxy statement complaining about the pay restrictions. Ally executives sought
pay raises for the president of its subsidiary, Residential Capital, LLC (“ResCap”),
despite the fact that ResCap filed bankruptcy in 2012 and sought extra pay for
ResCap employees from the bankruptcy court.
    Absent robust policies, procedures, or criteria to implement OSM’s guidelines,
in 2012, the Acting Special Master approved compensation largely driven by
the three companies’ proposals. For example, OSM awarded $6.2 million in pay
raises to 18 employees. Treasury approved a $1 million pay raise for the CEO of
AIG’s Chartis subsidiary; a $200,000 pay raise for a ResCap employee – weeks
before ResCap filed for bankruptcy – and a $100,000 pay raise for an executive
at GM’s European unit, despite that unit experiencing significant losses. OSM’s
written explanations for the pay raises lacked substance, largely parroting what
each company asserted to OSM without any independent analysis by OSM. By
requesting these pay raises, the companies failed to appreciate that they continued
to be funded by taxpayers.
  With the companies having significant leverage, the Acting Special
Master appears to have rolled back OSM’s application of guidelines.
    50th Percentile Guideline: In 2012, OSM did not follow its own guidelines
aimed at curbing excessive pay by having total compensation generally not exceed
the 50th percentile for similarly situated employees. Treasury awarded total
pay packages exceeding the 50th percentile by approximately $37 million for
approximately 63% of the Top 25 employees of AIG, GM, and Ally. The Acting
Special Master appears to have rolled back the 50th percentile guideline, telling
SIGTARP, for example, that she set total compensation for all of Ally’s Top 25
employees between the 50th and 75th percentiles.
    Cash Salaries Limited to $500,000: OSM’s lack of meaningful criteria and
independent analysis contributed to OSM’s rolling back its guideline to limit cash
salaries to $500,000. In 2012, OSM approved cash salaries greater than $500,000
for one-third of the employees within OSM’s pay-setting jurisdiction (23 of 69 Top
25 employees at AIG, GM, and Ally).
    Acting Special Master Geoghegan is not following former Special Master
Feinberg’s final recommendation that she “limit guaranteed cash,” “demand a
performance component for most compensation,” and “hold the line on cash
salaries.” Feinberg testified before Congress that “base cash salaries should rarely
exceed $500,000...” However, Acting Special Master Geoghegan told SIGTARP
there is no cash salary cap, and $500,000 is a “discretionary guideline that is
useful,” but there is no law or regulation that says she needs “a memo to permit a
company to go above $500,000.”
30   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                Never have there been so many exceptions to the $500,000 cash salary
                                            guideline for the number of people under the Acting Special Master’s jurisdiction
                                            as there was in 2012. The Acting Special Master increased the number of
                                            employees with Treasury-approved cash salaries greater than $500,000 from 22
                                            employees in 2011 to 23 employees in 2012. The number has quadrupled from six
                                            employees in 2009, despite the fact that the number of companies OSM reviews
                                            decreased as companies repaid and exited TARP.
                                                In addition to questioning the approval of cash salaries in excess of $500,000
                                            for one-third of the employees, SIGTARP questions whether OSM is following
                                            the spirit of its $500,000 cash salary guideline. Although OSM guidelines target
                                            salaries greater than $500,000, notably in 2012, OSM allowed 25 employees to
                                            have cash salaries exactly at the $500,000 limit (falling outside OSM’s guideline
                                            by $1). Accordingly, OSM allowed cash salaries of $500,000 or more for 70% (48
                                            of 69) of Top 25 employees at AIG, GM, and Ally. OSM allowed cash salaries of
                                            $450,000 or more for 94% (65 of 69) of Top 25 employees at AIG, GM, and Ally.
                                            In stark contrast, the 2011 median household income of U.S. taxpayers who fund
                                            these companies was approximately $50,000.
                                                Similar to OSM’s explanations for approving pay raises, OSM’s “justifications”
                                            for good cause for cash salaries to exceed $500,000 largely parrot what each
                                            company asserted orally or in writing to OSM. Acting Special Master Geoghegan
                                            told SIGTARP that OSM does not perform an independent analysis, in part due to
                                            the 60-day constraint to issue a decision on the companies’ proposals (which come
                                            in February). OSM uses data supplied by the companies, talks to company officials
                                            and other Treasury officials, and looks at publicly available data. Because many of
                                            the same employees remained in the Top 25 from 2011 to 2012, OSM could have
                                            analyzed those employees’ responsibilities and value to the company throughout the
                                            year, and then could have used the end of the year information to supplement their
                                            existing information. OSM should not limit itself to perform its primary mission
                                            from February to early April, when it issued its determination memorandums. By
                                            using only the 60 days, OSM missed an opportunity to conduct an independent
                                            analysis that could have limited pay raises and high cash salaries.
                                                More importantly, the Acting Special Master appears to have no desire to
                                            independently analyze whether good cause exists to award an employee a cash
                                            salary greater than $500,000. The Acting Special Master told SIGTARP that
                                            it would be “utterly normal” for these individuals in the Top 25 to expect over
                                            $500,000 in cash salary. That might be true if the companies had not been bailed
                                            out and were not still significantly owned by taxpayers. Acting Special Master
                                            Geoghegan said OSM “does not spend that much time on a small decision like
                                            whether to continue to give this person $600,000.” She described taking an extra
                                            two hours to look at this person’s pay justification to see whether there was “added
                                            responsibility” as a “waste of time.” She said she did not think that when the
                                            $500,000 guideline was formulated, it would take an “independent little project”
                                            to determine when someone should go above $500,000. If the pay czar is not even
                                            willing to independently analyze high cash salaries for 23 employees, who else will
                                            protect taxpayers?
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   31




    The Acting Special Master told SIGTARP that OSM would not normally
reopen executive compensation from year to year because it would be disruptive,
and it is “relatively easy for OSM to keep things the way they were.” The Acting
Special Master largely based her decisions on prior years’ pay, telling SIGTARP
that OSM would not change pay based on a change in circumstances. However,
even where there was a negative change such as ResCap filing bankruptcy or GM
Europe suffering significant losses, OSM did not reduce the compensation for the
employees in charge of those entities.
    Long-Term Restricted Stock: By removing long-term restricted stock from
some executives’ pay and using it only in half of the pay packages, the Acting
Special Master is effectively removing a key OSM guideline aimed at reducing
excessive risk by tying individual compensation to long-term company success.
She also removed long-term restricted stock for senior executives, including the
CEOs of AIG, GM, and Ally, calling it “a burden” to compensate them with long-
term restricted stock “that has no value.” However, Treasury’s Rule states that
the portion of performance-based compensation compared to total compensation
should be greater for positions that exercise high levels of responsibility. After
making her decisions on pay in April 2012, she subsequently removed long-term
restricted stock for all of Ally’s Top 25 employees on the basis that the company’s
subsidiary, ResCap, had filed bankruptcy, and that the company had announced
it was exploring strategic alternatives such as a possible sale of international
operations. However, only three employees in Ally’s Top 25 worked at ResCap and
OSM knew in April that ResCap was planning a restructuring. In addition, both
GM and AIG were selling international operations.
    The guidelines originally created by former Special Master Feinberg were aimed
at fixing the material role executive compensation played in causing the financial
crisis by encouraging excessive risk taking. By not holding the line on large cash
salaries (awarding $500,000 or more to 70% of the executives under OSM’s pay-
setting jurisdiction, and allowing 94% of employees to be paid cash salaries of
$450,000 or more), and removing long-term, incentive-based stock as requested by
the companies, OSM is effectively relinquishing some of OSM’s authority to the
companies, which have their own best interests in mind. The Acting Special Master
told SIGTARP that OSM is not the compensation committee. SIGTARP agrees –
the compensation committee looks out for the interest of the company. The Office
of the Special Master’s job is to look out for the interests of taxpayers, which it
cannot do if it continues to rely to a great extent on the companies’ proposals and
justifications without conducting its own independent analysis.
    There are two lessons to be learned from OSM’s 2012 pay-setting process and
decisions:
    First, guidelines aimed at curbing excessive pay are not effective, absent robust
policies, procedures, or criteria to ensure that the guidelines are met. This is the
second report by SIGTARP to warn that the Office of the Special Master, after
four years, still does not have robust policies, procedures, or criteria to ensure
that pay for executives at TARP exceptional assistance companies stays within
OSM’s guidelines. Perhaps the Acting Special Master thinks that OSM has already
32   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            succeeded in achieving its mission by limiting compensation for these executives
                                            from pre-TARP levels or believes that OSM’s existing processes are sufficient.
                                            The question is whether it is sufficient for taxpayers. Treasury continues to award
                                            excessive pay packages, including large guaranteed cash salaries. Meaningful
                                            reform is still possible because GM and Ally remain under OSM’s jurisdiction.
                                            Without meaningful reform, including independent analysis by OSM, Treasury
                                            risks that TARP companies could potentially misuse taxpayer dollars for excessive
                                            executive compensation.
                                                Second, while historically the Government has not been involved in pay
                                            decisions at private companies, one lesson of this financial crisis is that regulators
                                            should take an active role in monitoring and regulating factors that could
                                            contribute to another financial crisis, including executive compensation that
                                            encourages excessive risk taking. According to OSM, OSM’s authority to set
                                            pay for AIG executives has ended. SIGTARP previously reported that AIG CEO
                                            Benmosche told SIGTARP that the Special Master’s practices would have no
                                            lasting impact. He also said, however, that pay and performance must be linked,
                                            and if the majority of income is fixed, or guaranteed, then pay is not linked to
                                            performance. Given AIG’s considerable pushback on OSM’s limitations on pay as
                                            reported in SIGTARP’s prior report, it is highly likely that AIG could return to past
                                            compensation practices. The responsibility shifts to the Federal Reserve Board to
                                            ensure that AIG does not encourage excessive risk taking through compensation.

                                            SIGTARP Hotline
                                            One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
                                            Hotline and provide a simple, accessible way for the American public to report
                                            concerns, allegations, information, and evidence of violations of criminal and
                                            civil laws in connection with TARP. The SIGTARP Hotline has received and
                                            analyzed more than 31,756 Hotline contacts. These contacts run the gamut
                                            from expressions of concern over the economy to serious allegations of fraud
                                            involving TARP, and a number of SIGTARP’s investigations were generated in
                                            connection with Hotline tips. The SIGTARP Hotline can receive information
                                            anonymously. SIGTARP honors all applicable whistleblower protections and will
                                            provide confidentiality to the fullest extent possible. SIGTARP urges anyone aware
                                            of fraud, waste, or abuse involving TARP programs or funds, whether it involves
                                            the Federal Government, state and local entities, private firms, or individuals, to
                                            contact its representatives at 877-SIG-2009 or www.sigtarp.gov.

                                            Communications with Congress
                                            One of the primary functions of SIGTARP is to ensure that members of Congress
                                            remain adequately and promptly informed of developments in TARP initiatives and
                                            of SIGTARP’s oversight activities. To fulfill that role, the Special Inspector General
                                            and her staff meet regularly with and brief members and Congressional staff.

                                            •	 On October 10, 2012, the Special Inspector General, Christy Romero, in
                                               response to a Congressional request, submitted written testimony on the
                                                                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   33




   Hardest Hit Fund to the New Jersey State Assembly Financial Institutions and
   Insurance Committee, Housing and Local Government Subcommittee.
•	 On October 23, 2012, SIGTARP’s Deputy Special Inspector General for
   Reporting, Mia Levine, presented briefings open to all Senate and House staff
   on SIGTARP’s October 2012 Quarterly Report.

    Copies of written Congressional testimony are posted at www.sigtarp.gov/pages/
testimony.aspx.




THE SIGTARP ORGANIZATION
SIGTARP leverages the resources of other agencies, and, where appropriate and
cost-effective, obtains services through SIGTARP’s authority to contract.

Staffing and Infrastructure
SIGTARP’s headquarters are in Washington, DC, with regional offices in New York
City, Los Angeles, San Francisco, and Atlanta. As of December 31, 2012, SIGTARP
had 170 employees, plus two detailees from FHFA OIG and one from the FBI. The
SIGTARP organization chart as of December 31, 2012, can be found in Appendix
J, “Organizational Chart.” SIGTARP posts all of its reports, testimony, audits, and
contracts on its website, www.SIGTARP.gov.
    From its inception through September 30, 2012, SIGTARP’s website has had
more than 61.1 million web “hits,” and there have been more than 5.4 million
downloads of SIGTARP’s quarterly reports. The site was redesigned in May 2012.
From May 10, 2012, through December 31, 2012, there have been 76,721 page
views.v From July 1, 2012, through December 31, 2012, there have been 4,549
downloads of SIGTARP’s quarterly reports.vi

Budget
On February 14, 2011, the Administration submitted to Congress Treasury’s fiscal
year 2012 budget request, which included SIGTARP’s funding request for $47.4
million. H.R. 2055 / Public Law 112-74 Consolidated Appropriations Act, 2012
provided $41.8 million in annual appropriations.




v In October 2009, Treasury started to encounter challenges with its web analytics tracking system and as a result, migrated to a new
 system in January 2010. SIGTARP has calculated the total number of website “hits” reported herein based on three sets of numbers:

• Numbers reported to SIGTARP as of September 30, 2009
• Archived numbers provided by Treasury for the period of October through December 2009
• Numbers generated from Treasury’s new system for the period of January 2010 through September 2012

Starting April 1, 2012, a new tracking system has been introduced that tracks a different metric, “page views,” which are different than
“hits” from the previous system. Moving forward, page views will be the primary metric to gauge use of the website.

vi Measurement of quarterly report downloads from SIGTARP’s redesigned website did not begin until July 1, 2012.
34                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




 FIGURE 1.1                                                   Figure 1.1 provides a detailed breakdown of SIGTARP’s FY 2012 spending of
 SIGTARP FY 2012 OPERATING                                $40.4 million, which includes spending from SIGTARP’s initial funding.
 PLAN                                                         On February 13, 2012, the Administration submitted to Congress Treasury’s
 ($ MILLIONS, PERCENTAGE OF $40.4 MILLION)                fiscal year 2013 budget request, which included SIGTARP’s funding request for
                                                          $40.2 million. The fiscal year 2013 House mark provides $35 million and the fiscal
                   Other Services                         year 2013 Senate mark provides $40.2 million in annual appropriations.
                         $2.3, 6%
                                                              Figure 1.2 provides a detailed breakdown of SIGTARP’s fiscal year 2013
      Advisory Services                                   budget, which reflects a total operating plan of $44.1 million. This would include
                  $3.2
                                                          $40.2 million in requested annual appropriations and portions of SIGTARP’s initial
                           8%
                                                          funding.
 Interagency
 Agreements           20%                  Salaries
        $8.0                        63%    and

                                           $25.7

             Travel
          $1.2, 3%



 FIGURE 1.2

 SIGTARP FY 2013
 PROPOSED BUDGET
 ($ MILLIONS, PERCENTAGE OF $44.1 MILLION)


                   Other Services
                         $1.9, 4%

      Advisory Services
                  $3.9
                            9%

     Interagency                           Salaries
                     20%
     Agreements                      64%   and
           $8.9
                                           $28.3

             Travel
          $1.1, 3%
SECT IO N 2   TARP OVERVIEW
36   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013           37




This section summarizes how the U.S. Department of the Treasury (“Treasury”) has
managed the Troubled Asset Relief Program (“TARP”). This section also reviews
TARP’s overall finances and provides updates on established TARP component
programs.




TARP FUNDS UPDATE
Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3,
2008.1 EESA appropriated $700 billion to “restore liquidity and stability to the
financial system of the United States.”2 On December 9, 2009, the Secretary of the
Treasury (“Treasury Secretary”) exercised the powers granted him under Section
120(b) of EESA and extended TARP through October 3, 2010.3 In accordance
with Section 106(e) of EESA, Treasury may expend TARP funds after October 3,
2010, as long as it does so pursuant to obligations entered into before that date.4
    The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (Public Law 111-203) on July 21, 2010, amended
the timing and amount of TARP funding.5 The upper limit of the Treasury
Secretary’s authority to purchase and guarantee assets under TARP was reduced to
$475 billion from the original $700 billion.
    Treasury’s investment authority under TARP expired on October 3, 2010. This
means that Treasury could not make new obligations after that date. However,                Obligations: Definite commitments
dollars that have already been obligated to existing programs may still be expended.        that create a legal liability for the
As of October 3, 2010, Treasury had obligated $474.8 billion to 13 announced                Government to pay funds.
programs. Subsequent to the expiration of Treasury’s investment authority, Treasury
has deobligated funds, reducing obligations to $466.2 billion as of December 31,            Deobligations: An agency’s cancellation
2012.6 Of that amount, $418.1 billion had been spent and $40.5 billion remained             or downward adjustment of previously
obligated and available to be spent.7 Taxpayers are owed $67.3 billion as of                incurred obligations.
December 31, 2012. According to Treasury, as of December 31, 2012, it had
realized or written off losses of $27.1 billion that taxpayers will never get back
(although taxpayers may profit on other TARP investments), leaving $40.2 billion
in TARP funds outstanding.8 These amounts do not include $6.4 billion in TARP
funds spent on housing programs, which are designed as a Government subsidy,
with no repayments to taxpayers expected.
    In the quarter ended December 31, 2012, funds that were obligated but
unspent remained available to be spent for three programs — the housing support
programs, the Term Asset-Backed Securities Loan Facility (“TALF”), and the
Public-Private Investment Program (“PPIP”). According to Treasury, in the quarter
ended December 31, 2012, $0.85 billion of TARP funds were spent, all of it on
housing support programs; no money was spent on TALF or PPIP.9 The PPIP
investment periods ended during the quarter, so money is no longer available to be
spent in PPIP going forward, but expenditures may be made on housing support
programs and TALF.
38                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                  Table 2.1 provides a breakdown of program obligations, changes in obliga-
                                                                              tions, expenditures, principal repaid, amounts still owed to taxpayers, and obliga-
                                                                              tions available to be spent as of December 31, 2012. Table 2.1 lists 10 TARP
                                                                              sub-programs, instead of all 13, because it excludes the Capital Assistance
                                                                              Program (“CAP”), which was never funded, and summarizes three programs under
                                                                              “Automotive Industry Support Programs.” Table 2.2 details write-offs and realized
                                                                              losses in TARP as of December 31, 2012.
     TABLE 2.1
      OBLIGATIONS, EXPENDITURES, PRINCIPAL REPAID, AMOUNTS STILL OWED TO TAXPAYERS, AND OBLIGATIONS AVAILABLE
      TO BE SPENT ($ BILLIONS)
                                                Obligation After                        Current                                                                            Still Owed to                     Available
                                                    Dodd-Frank                        Obligation                 Expenditure           Principal Repaid                      Taxpayers                    to Be Spent
     Program                                       (As of 10/3/2010)           (As of 12/31/2012)           (As of 12/31/2012)           (As of 12/31/2012)           (As of   12/31/2012)a         (As of 12/31/2012)

     Housing Support
                                                               $45.6                        $45.6                          $6.4                             $—                            $—                     $39.2
     Programsb
     Capital Purchase Program                                  204.9                        204.9                        204.9                        194.3c                          10.6                           0.0
     Community Development
                                                                   0.6                          0.6                          0.2                          0.0*                          0.5                          0.0
     Capital Initiatived
     Systemically Significant
                                                                 69.8                         67.8e                        67.8                         54.4                          13.5                           0.0
     Failing Institutions
     Targeted Investment
                                                                 40.0                         40.0                         40.0                         40.0                            0.0                          0.0
     Program
     Asset Guarantee Program                                       5.0                          5.0                          0.0                          0.0                           0.0                          0.0
     Term Asset-Backed
                                                                   4.3                          1.4f                         0.1                          0.0                           0.1                          1.3
     Securities Loan Facility
     Public-Private Investment
                                                                 22.4                         20.8                         18.6                         15.0g                           3.6                          0.0h
     Program
     Unlocking Credit for Small
                                                                   0.4                          0.4                          0.4                          0.4                           0.0                          0.0
     Businesses
     Automotive Industry
                                                                 81.8i                        79.7j                        79.7                         40.7                          39.0                           0.0
     Support Programs
     Total                                                   $474.8                       $466.2                       $418.1k                      $344.4                          $67.3                        $40.5
     Notes: Numbers may not total due to rounding.
     a
            Amount taxpayers still owed includes amounts disbursed and still outstanding, plus write-offs and realized losses totaling $27.1 billion. It does not include $6.4 billion in TARP dollars spent on housing
            programs. These programs are designed as Government subsidies, with no repayments to taxpayers expected.
     b
                Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
     c
             Includes $363.3 million in non-cash conversions from CPP to CDCI. Includes $2.2 billion for CPP banks that exited TARP through SBLF.
     d
               CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash was
                expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI expenditures for previous CPP participants. Of the
                total obligation, only $106 million went to non-CPP institutions.
     e
              Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
     f
         Treasury deobligated $2.9 billion in TALF funding, bringing the total obligation to $1.4 billion.
     g
                 On April 10, 2012, Treasury changed its reporting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity distributions. That
                 $958 million is included in this repayment total.
     h
           PPIP funds are no longer available to be spent because the three-year investment period ended during the quarter ended December 31, 2012. Total obligation of $22.4 billion and expenditure of $18.6
            billion for PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF. Current obligation of $20.8
            billion results because Oaktree, BlackRock, AG GECC, Invesco and AllianceBernstein did not draw down all the committed equity and debt. The undrawn debt was deobligated, but the undrawn equity was
            not as of December 31, 2012, except for Invesco.
     i
       Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
     j
        Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
     k
          The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

     * Amount less than $50 million.

     Sources: Treasury, Transactions Report, 12/28/2012; Treasury, Daily TARP Update, 1/2/2013; Treasury, response to SIGTARP data call, 1/3/2013.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013      39




TABLE 2.2
 TREASURY’S STATEMENT OF REALIZED LOSSES AND WRITE-OFFS IN TARP, AS OF 12/31/2012
 ($ MILLIONS)

 TARP                                                                  TARP           Realized Loss
 Program         Institution                                     Investment             or Write-Off                      Date Description
 Realized Losses
                                                                                                                           Sold 98,461 shares and equity
 Autos           Chrysler                                              $1,888                   $1,328           4/30/2010 stake in the UAW Retiree trust
                                                                                                                           for $560,000,000
                                                                                                 4,337d        11/17/2010
 Autos           GMa                                                   49,500                                                        Sale of common stock at a loss
                                                                                                  3,203        12/21/2012
                 Community Bancshares of
 CDCI                                                                        55                       0.1      11/30/2012 Sale of preferred stock at a loss
                 Mississippi, Inc.
                                                                                                  1,918          5/24/2011
                                                                                                  1,984          3/13/2012
                                                                                                  1,621          5/10/2012
 SSFI            AIGb                                                   67,835                                                       Sale of common stock at a loss
                                                                                                  1,621            8/8/2012
                                                                                                  4,636          9/14/2012
                                                                                                  1,705        12/14/2012
                                                                                                                                     Sales, exchanges, and failed
 CPP             107 CPP Banks                                           2,695                       575
                                                                                                                                     banks
 Total Realized Losses                                                                       $22,928
 Write-Offs
                                                                                                                           Accepted $1.9 billion as full
 Autos           Chrysler                                               $3,500                  $1,600           7/23/2009 repayment for the debt of
                                                                                                                           $3.5 billion
 CPP             CIT Group Inc.                                          2,330                    2,330        12/10/2009 Bankruptcy
 CPP             Pacific Coast National Bancorp                                 4                        4       2/11/2010 Bankruptcy
 CPP             South Financial Group, Inc.c                               347                      217         9/30/2010 Sale of preferred stock at a loss
 CPP             TIB Financial Corp       c
                                                                              37                       25        9/30/2010 Sale of preferred stock at a loss
 Total Write-Offs                                                                              $4,176
 Total of Realized Losses and Write-offs                                                     $27,104
 Notes: Numbers may not total due to rounding.
 a
   Since the company remains in TARP, a final determination of realized loss incurred on Treasury’s investment cannot be calculated until the investments have been fully
   divested.
 b
      Treasury has sold a total of 1.66 billion AIG common shares at a weighted average price of $31.18 per share, consisting of 1,092,169,866 TARP shares and
       562,868,096 non-TARP shares based upon the Treasury’s pro-rata holding of those shares. The non-TARP shares are those received from the trust created by the Federal
       Reserve Bank of New York for the benefit of the Treasury. Receipts for non-TARP common stock totaled $17.55 billion and are not included in TARP collections. The
       realized loss reflects the price at which Treasury sold common shares in AIG and TARP’s cost basis of $43.53 per common share.
 c
    According to Treasury, in the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at
    a loss as realized losses.
 d
     Treasury changed its reporting methodology in calculating realized losses, effective June 30, 2012. Disposition expenses are no longer included in calculating realized
      losses.

 Sources: Treasury, Transactions Report, 12/28/2012; Treasury, Section 105(a) Report, 1/10/2013; Treasury Press Release, “Treasury Announces Agreement to Exit
 Remaining Stake in Chrysler Group LLC,” 6/2/2011, www.treasury.gov/press-center/press-releases/Pages/tg1199.aspx, accessed 1/4/2013; Treasury, response to
 SIGTARP data call, 1/3/2013.
40   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Cost Estimates
                                            Several Government agencies are responsible under EESA for generating cost
                                            estimates for TARP, including the Office of Management and Budget (“OMB”),
                                            the Congressional Budget Office (“CBO”), and Treasury, whose estimated costs
                                            are audited each year by the Government Accountability Office (“GAO”). Cost
                                            estimates have decreased from CBO’s March 2009 cost estimate of a $356 billion
                                            loss and OMB’s August 2009 cost estimate of a $341 billion loss.10
                                                 On August 31, 2012, OMB issued its semiannual report on estimated TARP
                                            costs, which included a TARP lifetime cost estimate of $63.5 billion, based upon
                                            figures from May 31, 2012.11 That was a decrease from its estimate of $67.8
                                            billion, based upon figures from November 30, 2011.12 According to OMB, this
                                            decrease was largely attributable to the higher valuation of AIG common stock held
                                            by Treasury. OMB also cited a more modest increase in the valuation of GM stock
                                            as well as the effect of lower projected interest rates on PPIP costs.13 This estimate
                                            assumes that all $45.6 billion of obligated funds for housing will be spent. It also
                                            assumes that PPIP will make a profit of $2.6 billion and CPP will make a profit of
                                            $7.4 billion, including principal repayments and revenue from dividends, warrants,
                                            interest, and fees.
                                                 On October 11, 2012, CBO issued an updated TARP cost estimate based on
                                            its evaluation of data as of September 17, 2012. CBO estimated the ultimate cost
                                            of TARP would be $24 billion, down $8 billion from its estimate of $32 billion in
                                            March 2012.14 According to CBO, the decrease stems primarily from higher market
                                            prices for the Government’s AIG stock holdings and Treasury’s sale of part of its
                                            AIG investment at a price higher than the market price at the time of CBO’s previ-
                                            ous report. Additionally, CBO’s estimate of the cost of TARP’s automotive programs
                                            went up $1 billion because of the market price of GM stock, and its estimates of
                                            the gains from both CPP and PPIP each increased $1 billion. CBO estimated that
                                            only $16 billion of obligated funds for housing will be spent.
                                                 On November 9, 2012, Treasury issued its September 30, 2012, fiscal year
                                            audited agency financial statements for TARP, which contained a cost estimate
                                            of $59.7 billion.15 This estimate is a decrease from Treasury’s estimate of a $70.2
                                            billion loss as of September 30, 2011. According to Treasury, “These costs fluctu-
                                            ate in large part due to changes in the market prices of common stock for AIG and
                                            General Motors and the estimated value of the Ally Financial stock.”16 According to
                                            Treasury, the largest losses from TARP are expected to come from housing pro-
                                            grams and from assistance to AIG and the automotive industry.17
                                                 The most recent TARP program cost estimates from each agency are listed in
                                            Table 2.3.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013             41




TABLE 2.3
 COST (GAIN) OF TARP PROGRAMS                              ($ BILLIONS)

                                                                                                           Treasury Estimate,
                                                                                                                TARP Audited
                                                                                                             Agency Financial
Program Name                                      OMB Estimate                     CBO Estimate                    Statement
    Report issued:                                   8/31/2012                      10/11/2012                        11/9/2012
    Data as of:                                      5/31/2012                       9/17/2012                        9/30/2012
Housing Support Programs                                       $45.6                              $16                          $45.6
CPP                                                              (7.4)                            (18)                         (14.9)
SSFI                                                            21.9                               14                            15.3
TIP and AGP                                                      (7.3)                              (8)                          (7.9)
TALF                                                             (0.4)                               0                           (0.5)
PPIP                                                             (2.6)                              (1)                          (2.4)
Automotive Industry Support
                                                                25.4                               20                            24.3
Programsa
Otherb                                                               *                               *                               *
Total                                                         $75.4                             $24   c
                                                                                                                             $59.7d
Interest on Reestimatese                                       (11.9)
Adjusted Total                                               $63.5d
Notes: Numbers may not total due to rounding.
a
  Includes AIFP, ASSP, and AWCP.
b
   Consists of CDCI and UCSB, both of which are estimated between a cost of $500 million and a gain of $500 million.
c
  The estimate is before administrative costs and interest effects.
d
   The estimate includes interest on reestimates but excludes administrative costs.
e
  Cumulative interest on reestimates is an adjustment for interest effects on changes in TARP subsidy costs from original subsidy
  estimates; such amounts are a component of the deficit impacts of TARP programs but are not a direct programmatic cost.

Sources: OMB Estimate — OMB, “OMB Report Under the Emergency Economic Stabilization Act, Section 202,” 8/31/2012, www.
whitehouse.gov/sites/default/files/omb/reports/tarp_report_august_2012.pdf, accessed 1/4/2013; CBO Estimate — CBO, “Report
on the Troubled Asset Relief Program — March 2012,” 3/28/2012, www.cbo.gov/sites/default/files/cbofiles/attachments/03-28-
                                                                                                                                            Common Stock: Equity ownership
2012TARP.pdf, accessed 1/4/2013; Treasury Estimate — Treasury, “Office of Financial Stability–Troubled Asset Relief Program                 entitling an individual to share in
Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/
agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 1/4/2013.                                                                      corporate earnings and voting rights.

                                                                                                                                            Preferred Stock: Equity ownership that
                                                                                                                                            usually pays a fixed dividend before
FINANCIAL OVERVIEW OF TARP                                                                                                                  distributions for common stock owners
                                                                                                                                            but only after payments due to debt
As of December 31, 2012, 338 institutions remain in TARP: 212 banks in CPP;
                                                                                                                                            holders. It typically confers no voting
46 former CPP banks for which Treasury now holds only warrants to purchase
                                                                                                                                            rights. Preferred stock also has priority
stock; 77 banks and credit unions in CDCI; and GM, Ally Financial, and AIG
                                                                                                                                            over common stock in the distribution
(for which Treasury holds only warrants to purchase stock). Treasury does not
                                                                                                                                            of assets when a bankrupt company is
consider the 46 former CPP institutions or AIG to be in TARP. Treasury (and
                                                                                                                                            liquidated.
therefore the taxpayer) remains a shareholder in companies that have not repaid
the Government. Treasury’s equity ownership is largely in two forms — common
                                                                                                                                            Senior Subordinated Debentures:
and preferred stock — although it also has received debt in the form of senior
                                                                                                                                            Debt instrument ranking below senior
subordinated debentures.
                                                                                                                                            debt but above equity with regard to
    According to Treasury, as of December 31, 2012, 347 TARP recipients
                                                                                                                                            investors’ claims on company assets
(including 339 banks and credit unions, two auto companies, five former PPIP
                                                                                                                                            or earnings.
managers, and AIG) had paid back all of their principal or repurchased shares,
42                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 2.1                                                     although Chrysler and AIG did so at a loss to Treasury. Some of these institutions
     CURRENT TARP EXPENDITURES,                                     repaid TARP by refinancing into other Government programs such as the Small
     REPAYMENTS, AND AMOUNT                                         Business Lending Fund (“SBLF”). In addition, 21 TARP recipients (including 15
     OWED ($ BILLIONS)                                              banks and credit unions, four PPIP managers, GM, and Ally) had partially repaid
     $500                                                           their principal or repurchased their shares but remained in TARP.18 According
                                                                    to Treasury, as of December 31, 2012, 132 banks and credit unions have exited
      400
               $418.1                                               CPP or CDCI with less than a full repayment, including institutions whose shares
      300                       $344.4                              have been sold for less than par value, institutions whose shares have been sold at
                                                                    auction, and institutions that are in various stages of bankruptcy or receivership.19
      200                                                           According to Treasury, repayments have totaled $344.4 billion.20 Taxpayers are still
      100
                                                                    owed $67.3 billion as of December 31, 2012. According to Treasury, it has incurred
                                                                    write-offs of $4.2 billion and realized losses of $22.9 billion as of December 31,
                                                   $67.3
         0                                                          2012, which taxpayers will never get back, leaving $40.2 billion in TARP funds
             TARP             TARP              Amount
             Expenditures     Repayments a      Owed b              outstanding (not including $6.4 billion in TARP funds spent as a subsidy for
                                                                    TARP housing programs).21 Figure 2.1 provides a snapshot of the cumulative
                                                                    expenditures, repayments, and amount owed as of December 31, 2012. Taxpayers
      Notes: As of 12/31/2012. Numbers may be affected due
      to rounding.                                                  also are entitled to dividend payments, interest, and warrants for taking on the risk
      a
        Repayments include $194.3 billion for CPP, $40 billion
        for TIP, $40.7 billion for Auto Programs, $15 billion       of TARP investments. According to Treasury, as of December 31, 2012, Treasury
        for PPIP, $54.4 for SSFI, and $.4 billion for UCSB.
        The $194.3 billion for CPP repayments includes $2.2
                                                                    had collected $43 billion in interest, dividends, and other income, including $9.3
        billion for banks that refinanced from TARP into SBLF as    billion in proceeds from the sale of warrants and stock received as a result of
        well as $363.3 million in non-cash conversion from CPP
        to CDCI, which is not included in the $344.4 billion        exercised warrants.22
        TARP repayments because it is still owed to TARP from
        CDCI.                                                            As of December 31, 2012, obligated funds totaling $40.5 billion were still avail-
      b
        Amount includes $27.1 billion that Treasury has written
        off or realized losses, but does not include $6.4 billion   able to be drawn down by TARP recipients under two of TARP’s programs, housing
        spent for housing programs, which were designed as a
        Government subsidy, with no repayment to taxpayers
                                                                    and TALF.23
        expected.                                                        Some TARP programs are scheduled to last as late as 2020. Table 2.4 provides
       
      Sources: Treasury, Transactions Report, 12/28/2012;           details of those exit dates.
      Treasury, Daily TARP Update, 1/2/2013; Treasury,
      response to SIGTARP data call, 1/3/2013.
                                                                    TABLE 2.4
                                                                     TARP PROGRAM SCHEDULE
                                                                     TARP Program                                 Scheduled Program Dates
                                                                     Term Asset-Backed Securities Loan Facility   2015 maturity of last loan
                                                                     Public-Private Investment Program            2017 for fund manager to sell securities (with
                                                                                                                  possibility to extend to 2019)
                                                                     Home Affordable Modification Program         2019 to pay incentives on modifications
                                                                     Hardest Hit Fund                             2017 for states to draw on TARP funds
                                                                     FHA Short Refinance Program                  2020 for TARP-funded letter of credit


                                                                         Other TARP programs have no scheduled ending date; TARP money will
                                                                    remain invested until recipients pay Treasury back or until Treasury is able to sell
                                                                    its investments in the companies. Table 2.5 provides details on the status of the
                                                                    remaining Treasury investments under those programs.
                                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   43




TABLE 2.5
 TARP INVESTMENTS IN FINANCIAL INSTITUTIONS
 TARP Program                                                    Remaining Treasury Investment
 Capital Purchase Program                                        Preferred stock in 212 banks
 Community Development Capital Initiative                        Preferred stock in 77 banks/credit unions
 Systemically Significant Financial Institutions                 10-year warrants for 2.69 million shares of AIG
                                                                 stock exercisable at $50 per share expiring
                                                                 11/25/2018
 Automotive Industry Financing Program                           22% stake in GM
                                                                 74% stake in Ally
 Sources: Treasury, Transactions Report, 12/28/2012; Treasury, Response to SIGTARP data call, 1/11/2013.



Housing Support Programs
The stated purpose of TARP’s housing support programs is to help homeowners
and financial institutions that hold troubled housing-related assets. Although
Treasury originally committed to use $50 billion in TARP funds for these programs,
it obligated only $45.6 billion.24 As of December 31, 2012, $6.4 billion (14% of
obligated funds) has been expended. However, some of these expended funds
remain as cash on hand or for administrative expenses with the state Housing
Finance Agencies participating in the Hardest Hit Fund program.

•	 Making Home Affordable (“MHA”) Program — According to Treasury, this
   umbrella program for Treasury’s foreclosure mitigation efforts is intended to
   “help bring relief to responsible homeowners struggling to make their mortgage
   payments, while preventing neighborhoods and communities from suffering
   the negative spillover effects of foreclosure, such as lower housing prices,
   increased crime, and higher taxes.”25 MHA, for which Treasury has obligated
   $29.9 billion of TARP funds, consists of the Home Affordable Modification
   Program (“HAMP”), which includes HAMP Tier 1 and HAMP Tier 2, which
   both modify first-lien mortgages to reduce payments; the Federal Housing
   Administration (“FHA”) HAMP loan modification option for FHA-insured
   mortgages (“Treasury/FHA-HAMP”); the U.S. Department of Agriculture Office
   of Rural Development (“RD”) HAMP (“RD-HAMP”); the Home Affordable
   Foreclosure Alternatives (“HAFA”) program; and the Second Lien Modification
   Program (“2MP”).26 HAMP in turn encompasses various initiatives in addition
   to the modification of first-lien mortgages, including Home Price Decline
   Protection (“HPDP”), the Principal Reduction Alternative (“PRA”), and the
   Home Affordable Unemployment Program (“UP”).27 Additionally, the overall
   MHA obligation of $29.9 billion includes $2.7 billion to support the Treasury/
   FHA Second-Lien Program (“FHA2LP”), which complements the FHA
   Short Refinance program (discussed later) and is intended to support the
   extinguishment of second-lien loans.28
       As of December 31, 2012, MHA had expended $4.6 billion of TARP money
   (15.4% of $29.9 billion).29 Of that amount, $3.8 billion was expended on
44             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         HAMP, $406.7 million on HAFA, and $315.2 million on 2MP. As of December
                                                         31, 2012, there were 417,419 active permanent first-lien modifications under
                                                         the TARP-funded portion of HAMP, an increase of 11,730 active permanent
                                                         modifications over the past quarter.30 For more detailed information, including
                                                         participation numbers for each of the MHA programs and subprograms, see the
                                                         “Housing Support Programs” discussion in this section.
                                                      •	 FHA Short Refinance Program — Treasury has allocated $8.1 billion of
                                                         TARP funding to this program to purchase a letter of credit to provide loss
                                                         protection on refinanced first liens. Additionally, to facilitate the refinancing
                                                         of non-FHA mortgages into new FHA-insured loans under this program,
                                                         Treasury has allocated approximately $2.7 billion in TARP funds for incentive
                                                         payments to servicers and holders of existing second liens for full or partial
                                                         principal extinguishments under the related FHA2LP; these funds are part of
                                                         the overall MHA funding of $29.9 billion, as noted above.31 As of December 31,
                                                         2012, there have been 2,153 refinancings under the program, an increase of
                                                         381 refinancing over the past quarter.32 For more detailed information, see the
                                                         “Housing Support Programs” discussion in this section.
                                                      •	 Housing Finance Agency (“HFA”) Hardest Hit Fund (“HHF”) — The stated
                                                         purpose of this program is to provide TARP funding for “innovative measures
                                                         to help families in the states that have been hit the hardest by the aftermath
                                                         of the housing bubble.”33 Treasury obligated $7.6 billion for this program.34 As
                                                         of December 31, 2012, $1.8 billion had been drawn down by the states from
                                                         HHF. However, as of September 30, 2012, the latest data available, only $742.5
                                                         million had been spent assisting 77,164 homeowners, with the remaining
                                                         funds used for administrative expenses and cash-on-hand.35 For more detailed
                                                         information, see the “Housing Support Programs” discussion in this section.

                                                      Financial Institution Support Programs
                                                      Treasury primarily invested capital directly into financial institutions including
                                                      banks, bank holding companies, and, if deemed by Treasury critical to the financial
     Systemically Significant Institutions:           system, some systemically significant institutions.36
     Term referring to any financial
     institution whose failure would impose           •	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly
     significant losses on creditors and                 purchased preferred stock or subordinated debentures in qualifying financial
     counterparties, call into question the              institutions.37 CPP was intended to provide funds to “stabilize and strengthen
     financial strength of similar institutions,         the U.S. financial system by increasing the capital base of an array of healthy,
     disrupt financial markets, raise                    viable institutions, enabling them [to] lend to consumers and business[es].”38
     borrowing costs for households and                  Treasury invested $204.9 billion in 707 institutions through CPP, which closed
     businesses, and reduce household                    to new funding on December 29, 2009.39 As of December 31, 2012, 258
     wealth.                                             of those institutions remained in TARP; in 46 of them, Treasury holds only
                                                         warrants to purchase stock. Treasury does not consider these 46 institutions to
                                                         be in TARP. As of December 31, 2012, 212 of the 258 institutions remained
                                                         in the CPP program.40 Of the 495 that have exited CPP, 165, or 33%, did so
                                                         through and into other Government programs — 28 of them into TARP’s CDCI
                                                         and 137 into SBLF, a non-TARP program.41 Only 196 of the banks that exited,
                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013              45




   or 40%, fully repaid CPP otherwise.42 Of the other banks that have exited CPP,
   three CPP banks merged with other CPP banks, Treasury sold its investments
   in 109 institutions at a loss, and 22 institutions or their subsidiary banks failed,
   meaning Treasury lost its entire investment in those banks.43 As of December
   31, 2012, taxpayers were still owed $10.6 billion related to CPP. According to
   Treasury, it had write-offs and realized losses of $3.2 billion in the program,
   leaving $7.5 billion in TARP funds outstanding.44 According to Treasury, $194.3
   billion of the CPP principal (or 94.8%) had been repaid as of December 31,
   2012. The repayment amount includes $363.3 million in preferred stock that
   was converted from CPP investments into CDCI and therefore still represents
   outstanding obligations to TARP, and $2.2 billion that was refinanced in 2011
   into SBLF, a non-TARP Government program.45 Treasury continues to manage
   its portfolio of CPP investments, including, for certain struggling institutions,
   converting its preferred equity ownership into a more junior form of equity
   ownership, often at a discount to par value (which may result in a loss) in an
   attempt to preserve some value that might be lost if these institutions were to
   fail. As of December 31, 2012, Treasury has held 11 sets of auctions to sell its
   preferred stock investments in 90 banks, as well as some of its preferred stock in
   an additional bank, selling every holding at a discounted price resulting in a loss
   to Treasury. For more detailed information, see the “Capital Purchase Program”
   discussion in this section.
•	 Community Development Capital Initiative (“CDCI”) — Under CDCI,
   Treasury used TARP money to buy preferred stock in or subordinated debt from
   Community Development Financial Institutions (“CDFIs”). Treasury intended                   Community Development Financial
   for CDCI to “improve access to credit for small businesses in the country’s                 Institutions (“CDFIs”): Financial
   hardest-hit communities.”46 Under CDCI, TARP made capital investments                       institutions eligible for Treasury funding
   in the preferred stock or subordinated debt of eligible banks, bank holding                 to serve urban and rural low-income
   companies, thrifts, and credit unions.47 Eighty-four institutions received $570.1           communities through the CDFI Fund.
   million in funding under CDCI.48 However, 28 of these institutions converted                CDFIs were created in 1994 by the
   their existing CPP investment into CDCI ($363.3 million of the $570.1                       Riegle Community Development and
   million) and 10 of those that converted received combined additional funding                Regulatory Improvement Act. These
   of $100.7 million under CDCI.49 Only $106 million of CDCI money went to                     entities must be certified by Treasury;
   institutions that were not already TARP recipients. As of December 31, 2012,                certification confirms that they target
   77 institutions remain in CDCI.                                                             at least 60% of their lending and other
•	 Systemically Significant Failing Institutions (“SSFI”) Program — SSFI                       economic development activities
   enabled Treasury to invest in systemically significant institutions to prevent them         to areas underserved by traditional
   from failing.50 Only one firm received SSFI assistance: American International              financial institutions.
   Group, Inc. (“AIG”). The Government’s rescue of AIG involved several different
   funding facilities provided by the Federal Reserve Bank of New York (“FRBNY”)
   and Treasury, with various changes to the transactions over time. Combined,
   Treasury and FRBNY committed $182 billion to bail out AIG, of which $161
   billion was disbursed.51
        There were two TARP investments in AIG. On November 25, 2008,
   Treasury bought $40 billion of AIG’s preferred stock, the proceeds of which
   were used to repay a portion of AIG’s debt to FRBNY. Then, on April 17, 2009,
46            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        Treasury obligated approximately $29.8 billion to an equity capital facility that
                                                        AIG was allowed to draw on as needed.52
                                                             On January 14, 2011, AIG executed a Recapitalization Plan under which
                                                        AIG fully repaid FRBNY’s revolving credit facility, AIG purchased the remainder
                                                        of FRBNY’s preferred equity interests in two AIG subsidiaries (which it then
                                                        transferred to Treasury), AIG drew down $20.3 billion in TARP funds, and
                                                        Treasury converted its preferred stock holdings (along with the preferred stock
                                                        holdings held by the AIG Trust) into an approximately 92.1% common equity
                                                        ownership stake in AIG.53
                                                             Through two payments in February 2011 and March 2011, AIG fully repaid
                                                        the Government’s preferred interests in the American Life Insurance Company
     Special Purpose Vehicle (“SPV”):                   (“ALICO”) special purpose vehicle (“SPV”). Through a series of repayments
     A legal entity, often off-balance-                 between February 2011 and March 2012, AIG fully repaid the Government’s
     sheet, that holds transferred assets               preferred interests in the American International Assurance Co., Ltd. (“AIA”)
     presumptively beyond the reach of the              SPV. From May 2011 through December 2012, Treasury sold all 1.66 billion
     entities providing the assets, and that            shares of AIG’s common stock that it controlled, which at one point was 92% of
     is legally isolated from its sponsor or            AIG’s common stock. As of December 31, 2012, Treasury still held warrants to
     parent company.                                    purchase AIG common stock.54
                                                             As of December 31, 2012, as reflected on Treasury’s books and records, tax-
                                                        payers have recouped $54.4 billion of the $67.8 billion in TARP funds and have
                                                        realized losses from an accounting standpoint of $13.5 billion on Treasury’s
                                                        sale of AIG stock.55 Due to the January 2011 restructuring of the FRBNY and
                                                        Treasury investments, Treasury held common stock from the TARP and FRBNY
                                                        assistance, and, according to Treasury, the Government overall has made a $4.1
                                                        billion gain on the stock sales, and $931 million has been paid in dividends and
                                                        other income.56 These amounts do not include any payments made to FRBNY
                                                        prior to the restructuring measures completed in January 2011.
                                                             For more detailed information on the Recapitalization Plan, the sale of AIG
                                                        common stock, and other AIG transactions, see the “Systemically Significant
                                                        Failing Institutions Program” discussion in this section.
                                                     •	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in
                                                        financial institutions it deemed critical to the financial system.57 There were two
                                                        expenditures under this program, totaling $40 billion — the purchases of $20
                                                        billion each of senior preferred stock in Citigroup Inc. (“Citigroup”) and Bank
     Senior Preferred Stock: Shares that                of America Corp. (“Bank of America”).58 Treasury also accepted common stock
     give the stockholder priority dividend             warrants from each, as required by EESA. Both banks fully repaid Treasury
     and liquidation claims over junior                 for its TIP investments.59 Treasury auctioned its Bank of America warrants on
     preferred and common stockholders.                 March 3, 2010, and auctioned its Citigroup warrants on January 25, 2011.60
                                                        For more information on these two transactions, see the “Targeted Investment
     Illiquid Assets: Assets that cannot be             Program and Asset Guarantee Program” discussion in this section.
     quickly converted to cash.                      •	 Asset Guarantee Program (“AGP”) — AGP was designed to provide
                                                        insurance-like protection for a select pool of mortgage-related or similar assets
                                                        held by participants whose portfolios of distressed or illiquid assets threatened
                                                        market confidence.61 Treasury, the Federal Deposit Insurance Corporation
                                                        (“FDIC”), and the Federal Reserve offered certain loss protections in connection
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013               47




   with $301 billion in troubled Citigroup assets.62 In exchange for providing
   the loss protection, Treasury received $4 billion of preferred stock that was
   later converted to trust preferred securities (“TRUPS”), and FDIC received
   $3 billion.63 On December 23, 2009, in connection with Citigroup’s TIP
   repayment, Citigroup and the Government terminated the AGP agreement                     Trust Preferred Securities (“TRUPS”):
   and the Government suffered no loss. For more information on this program,               Securities that have both equity and
   including more detailed information on the agreements between Treasury,                  debt characteristics, created by
   Citigroup, and FDIC regarding these TRUPS, see the “Targeted Investment                  establishing a trust and issuing debt
   Program and Asset Guarantee Program” discussion in this section.                         to it.

Asset Support Programs                                                                      Asset-Backed Securities (“ABS”): Bonds
The stated purpose of these programs was to support the liquidity and market value          backed by a portfolio of consumer
of assets owned by financial institutions. These assets included various classes of         or corporate loans, e.g., credit card,
asset-backed securities (“ABS”) and several types of loans. Treasury’s asset support        auto, or small-business loans. Financial
programs sought to bolster the balance sheets of financial firms and help free              companies typically issue ABS backed
capital so that these firms could extend more credit to support the economy.                by existing loans in order to fund new
                                                                                            loans for their customers.
•	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was
   originally designed to increase credit availability for consumers and small              Commercial Mortgage-Backed
   businesses through a $200 billion Federal Reserve loan program. TALF provided            Securities (“CMBS”): Bonds backed by
   investors with non-recourse loans secured by certain types of ABS, including             one or more mortgages on commercial
   credit card receivables, auto loans, equipment loans, student loans, floor               real estate (e.g., office buildings, rental
   plan loans, insurance-premium finance loans, loans guaranteed by the Small               apartments, hotels).
   Business Administration (“SBA”), residential mortgage servicing advances,
   and commercial mortgage-backed securities (“CMBS”).64 TALF closed to                     Legacy Securities: Real estate-related
   new loans in June 2010.65 TALF ultimately provided $71.1 billion in Federal              securities originally issued before
   Reserve financing. Of that amount, $555.6 million remained outstanding as                2009 that remained on the balance
   of December 31, 2012.66 FRBNY made 13 rounds of TALF loans with non-                     sheets of financial institutions because
   mortgage-related ABS as collateral, totaling approximately $59 billion, with             of pricing difficulties that resulted from
   $425.4 million of TALF borrowings outstanding as of December 31, 2012.67                 market disruption.
   FRBNY also made 13 rounds of TALF loans with CMBS as collateral, totaling
   $12.1 billion, with $130.2 million in loans outstanding as of December 31,               Non-Agency Residential Mortgage-
   2012.68 Treasury originally obligated $20 billion of TARP funds to support this          Backed Securities (“non-agency
   program by providing loss protection to the loans extended by FRBNY in the               RMBS”): Financial instrument backed
   event that a borrower surrendered the ABS collateral and walked away from the            by a group of residential real estate
   loan.69 Treasury’s obligation for TALF is $1.4 billion as of December 31, 2012.70        mortgages (i.e., home mortgages for
   As of December 31, 2012, there had been no surrender of collateral.71 As of              residences with up to four dwelling
   December 31, 2012, $2.6 million in TARP funds had been allocated under                   units) not guaranteed or owned by
   TALF for administrative expenses.72 For more information on these activities,            a Government-sponsored enterprise
   see the “TALF” discussion in this section.                                               (“GSE”) or a Government agency.
•	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
   credit markets by using a combination of private equity, matching Government
   equity, and Government debt to purchase legacy securities, i.e., CMBS and
   non-agency residential mortgage-backed securities (“non-agency RMBS”).73
   Under the program, nine Public-Private Investment Funds (“PPIFs”) managed
48   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               by private asset managers invested in non-agency RMBS and CMBS. Treasury
                                               originally obligated $22.4 billion in TARP funds to the program. As of
                                               December 31, 2012, Treasury has obligated $20.8 billion in TARP funds to the
                                               program. As of December 31, 2012, all PPIF investment periods had ended and
                                               remaining fund managers entered into the program’s second phase of long-
                                               term buy and hold strategy.74 As of December 31, 2012, the PPIFs had drawn
                                               down $18.6 billion in debt and equity financing from Treasury funding out of
                                               the total obligation, and had repaid $15 billion.75 The remaining fund managers
                                               now have five years to manage and sell their investments and return proceeds to
                                               private investors and taxpayers. This period may be extended up to a maximum
                                               of two years. For details about the program structure and fund-manager terms,
                                               see the “Public-Private Investment Program” discussion in this section.
                                            •	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business
                                               Administration (“SBA”) Loan Support Initiative — In March 2009, Treasury
                                               officials announced that Treasury would buy up to $15 billion in securities
                                               backed by SBA loans under UCSB.76 Treasury obligated a total of $400 million
                                               for UCSB and made purchases of $368.1 million in 31 securities under the
                                               program. Treasury sold the last of its UCSB securities on January 24, 2012,
                                               ending the program with a net investment gain of about $9 million.77 For more
                                               information on the program, see the discussion of “Unlocking Credit for Small
                                               Businesses/Small Business Administration Loan Support” in this section.

                                            Automotive Industry Financing Program (“AIFP”)
                                            TARP’s automotive industry support through AIFP aimed to “prevent a significant
                                            disruption of the American automotive industry, which would pose a systemic
                                            risk to financial market stability and have a negative effect on the economy of the
                                            United States.”78 As of December 31, 2012, General Motors Company (“GM”)
                                            and Ally Financial Inc. (“Ally Financial”), formerly GMAC Inc., remain in TARP.
                                            Taxpayers are still owed $39.1 billion. This includes about $21.6 billion for the
                                            TARP investment in GM and $14.6 billion for the TARP investment in Ally
                                            Financial, for which Treasury holds common stock in GM and common stock
                                            and mandatorily convertible preferred shares (“MCP”) in Ally Financial. This
                                            amount also includes a $2.9 billion loss taxpayers suffered on the principal TARP
                                            investment in Chrysler. Chrysler Financial fully repaid the TARP investment.79
                                                Through AIFP, Treasury made emergency loans to Chrysler Holding LLC
                                            (“Chrysler”), Chrysler Financial Services Americas LLC (“Chrysler Financial”), and
                                            GM. Additionally, Treasury bought senior preferred stock from Ally Financial and
                                            assisted Chrysler and GM during their bankruptcy restructurings. As of December
                                            31, 2012, $79.7 billion had been disbursed through AIFP and its subprograms
                                            and Treasury had received $40.6 billion in principal repayments, preferred stock
                                            redemption proceeds, and stock sale proceeds. As of December 31, 2012, Treasury
                                            had received approximately $28.6 billion related to its GM investment, $8 billion
                                            related to its Chrysler investment, $2.5 billion related to its Ally Financial/GMAC
                                            investment, and $1.5 billion related to its Chrysler Financial investment.80 As of
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   49




December 31, 2012, Treasury had also received approximately $5.1 billion in divi-
dends and interest under AIFP and its two subprograms, ASSP and AWCP.81
     In return for a total of $49.5 billion in loans to GM, Treasury received $6.7
billion in debt in GM (which was subsequently repaid), in addition to $2.1 billion
in preferred stock and a 60.8% common equity stake.82 On December 2, 2010, GM
closed an initial public offering (“IPO”) in which Treasury sold a portion of its own-
ership stake for $18.1 billion in gross proceeds, reducing its ownership percentage
to 33.3%.83 On December 15, 2010, GM repurchased the $2.1 billion in preferred
stock from Treasury. On January 31, 2011, Treasury’s ownership in GM was diluted
from 33.3% to 32% as a result of GM contributing 61 million of its common shares
to fund GM’s hourly and salaried pension plans.84 Treasury sold 200 million shares
of GM common stock in December 2012 and now holds 22% of the common stock
outstanding in GM.85 As of December 31, 2012, about $21.6 billion remained
outstanding of the original $49.5 billion TARP investment.86
     Treasury provided approximately $12.5 billion in loan commitments to Chrysler,
of which $2.1 billion was never drawn down.87 On July 21, 2011, Treasury sold to
Fiat for $500 million Treasury’s remaining equity ownership interest in Chrysler.88
Treasury also sold to Fiat for $60 million Treasury’s rights to receive proceeds under
an agreement with the United Auto Workers (“UAW”) retiree trust pertaining to the
trust’s shares in Chrysler on a fully diluted basis.89 Treasury’s books reflect a $2.9
billion loss to taxpayers on their principal investment in Chrysler.90
     Treasury invested a total of $17.2 billion in Ally Financial, and $14.6 billion of
that is still outstanding. On December 30, 2010, Treasury’s investment was restruc-
tured to provide for a 73.8% common equity stake, $2.7 billion in TRUPS (includ-
ing amounts received in warrants that were immediately converted into additional
securities), and $5.9 billion in mandatorily convertible preferred shares.91 Treasury
sold the $2.7 billion in TRUPS on March 2, 2011.92 On March 31, 2011, Ally
Financial announced that it had filed a registration statement with the Securities
and Exchange Commission (“SEC”) for a proposed IPO of common stock owned
by Treasury, but that offering has been delayed. On May 14, 2012, Ally Financial
announced that its mortgage subsidiary, Residential Capital, LLC, and certain
of its subsidiaries filed for bankruptcy court relief under Chapter 11 of the U.S.
Bankruptcy Code.93
     Treasury provided a $1.5 billion loan to Chrysler Financial, which was fully
repaid with interest in July 2009.94
     For details on assistance to these companies, see the “Automotive Industry
Support Programs” discussion in this section.
     AIFP also included two subprograms:

•	 Auto Supplier Support Program (“ASSP”) — According to Treasury, this
   program was intended to provide auto suppliers “with the confidence they need
   to continue shipping their parts and the support they need to help access loans
   to pay their employees and continue their operations.”95 Under the program,
   which ended in April 2010, Treasury made loans for GM ($290 million) and
50   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               Chrysler ($123.1 million) that were fully repaid with $115.9 million in interest,
                                               fees and other income.96 For more information, see the “Auto Supplier Support
                                               Program” discussion in this section.
                                            •	 Auto Warranty Commitment Program (“AWCP”) — This program was
                                               designed to bolster consumer confidence by guaranteeing Chrysler and GM
                                               vehicle warranties during the companies’ restructuring through bankruptcy. It
                                               ended in July 2009 after Chrysler fully repaid its AWCP loan of $280.1 million
                                               with interest and GM repaid just the principal — $360.6 million — of its
                                               loan.97 For more information, see the “Auto Warranty Commitment Program”
                                               discussion in this section.
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013             51




HOUSING SUPPORT PROGRAMS
On February 18, 2009, the Administration announced a foreclosure prevention
plan that became the Making Home Affordable (“MHA”) program, an umbrella                    Government-Sponsored Enterprises
program for the Administration’s homeowner assistance and foreclosure prevention            (“GSEs”): Private corporations created
efforts.98 MHA initially consisted of the Home Affordable Modification Program              and chartered by the Government to
(“HAMP”), a Treasury program that uses TARP funds to provide incentives for                 reduce borrowing costs and provide
mortgage servicers to modify eligible first mortgages, and two initiatives at the           liquidity in the market, the liabilities
Government-sponsored enterprises (“GSEs”) that use non-TARP funds.99 HAMP                   of which are not officially considered
was originally intended “to help as many as three to four million financially               direct taxpayer obligations. On
struggling homeowners avoid foreclosure by modifying loans to a level that is               September 7, 2008, the two largest
affordable for borrowers now and sustainable over the long term.”100 On June 1,             GSEs, the Federal National Mortgage
2012, HAMP expanded the pool of homeowners potentially eligible to be assisted              Association (“Fannie Mae”) and
through the launch of HAMP Tier 2; however, Treasury has not estimated the                  the Federal Home Loan Mortgage
number of homeowners that HAMP Tier 2 is intended to assist.101                             Corporation (“Freddie Mac”), were
    Treasury over time expanded MHA to include sub-programs. Treasury also                  placed into Federal conservatorship.
allocated TARP funds to support two additional housing support efforts: a Federal           They are currently being financially
Housing Administration (“FHA”) refinancing program and TARP funding for 19                  supported by the Government.
state housing finance agencies, called the Housing Finance Agency Hardest Hit
Fund (“Hardest Hit Fund” or “HHF”).                                                         Loan Servicers: Companies that
    Not all housing support programs are funded, or completely funded, by TARP.             perform administrative tasks on
Of the originally anticipated $75 billion cost for MHA, $50 billion was to be               monthly mortgage payments until the
funded by TARP, with the remainder funded by the GSEs.102 Treasury has obligated            loan is repaid. These tasks include
TARP funds of $45.6 billion, which includes $29.9 billion for MHA incentive                 billing, tracking, and collecting monthly
payments, $8.1 billion for FHA Short Refinance, and $7.6 billion for the Hardest            payments; maintaining records of
Hit Fund.103                                                                                payments and balances; allocating
    Under EESA and the SIGTARP Act, SIGTARP is required to report quarterly to              and distributing payment collections
Congress to provide certain information about TARP over that preceding quarter.             to investors in accordance with
This quarter, for the second quarter in a row, Treasury failed to provide certain           each mortgage loan’s governing
end-of-quarter data on two MHA programs, Principal Reduction Alternative and                documentation; following up
Home Affordable Foreclosure Alternatives. Accordingly, SIGTARP again is unable              on delinquencies; and initiating
to provide or analyze end-of-quarter data as noted below and thus is not able to            foreclosures.
fully report on the status of these programs. Instead, this report contains the most
recent data provided by Treasury, and it is noted as such in the relevant sections.         Investors: Owners of mortgage loans
    Housing support programs include the following initiatives:                             or bonds backed by mortgage loans
                                                                                            who receive interest and principal
•	 Home Affordable Modification Program (“HAMP”) — HAMP is intended                         payments from monthly mortgage
   to use incentive payments to encourage loan servicers (“servicers”) and                  payments. Servicers manage the
   investors to modify eligible first-lien mortgages so that the monthly payments           cash flow from borrowers’ monthly
   of homeowners who are currently in default or generally at imminent risk of              payments and distribute them to
   default will be reduced to affordable and sustainable levels. Incentive payments         investors according to Pooling and
   for modifications to loans owned or guaranteed by the GSEs are paid by the               Servicing Agreements (“PSAs”).
   GSEs, not TARP.104 As of December 31, 2012, there were 850,007 active
   permanent HAMP modifications, 417,419 of which were under TARP, with the
   remainder under the GSE portion of the program.105 While HAMP generally
52            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        refers to the first-lien mortgage modification program, it also includes the
                                                        following subprograms:
                                                        çç Home Price Decline Protection (“HPDP”) — HPDP is intended to
                                                             encourage additional investor participation and HAMP modifications in
                                                             areas with recent price declines by providing TARP-funded incentives to
                                                             offset potential losses in home values.106 As of December 31, 2012, there
                                                             were 168,000 loan modifications under HPDP.107
                                                        çç Principal Reduction Alternative (“PRA”) — PRA is intended to encourage
                                                             the use of principal reduction in modifications for eligible borrowers whose
                                                             homes are worth significantly less than the remaining outstanding balances
                                                             of their first-lien mortgage loans. It provides TARP-funded incentives
                                                             to offset a portion of the principal reduction provided by the investor.108
                                                             Treasury failed to provide end-of-quarter data on several aspects of PRA
                                                             to SIGTARP before publication. As of November 30, 2012, the latest data
                                                             provided by Treasury, there were 74,724 active permanent modifications
                                                             through PRA.109
                                                        çç Home Affordable Unemployment Program (“UP”) — UP is intended to
                                                             offer assistance to unemployed homeowners through temporary forbearance
                                                             of all or a portion of their payments.110 As of November 30, 2012, which
                                                             according to Treasury is the most recent data available, 7,766 borrowers
                                                             were actively participating in UP.111
                                                     •	 Home Affordable Modification Program Tier 2 (“HAMP Tier 2”) — HAMP
                                                        Tier 2 is an expansion of HAMP to permit HAMP modifications on non-owner-
                                                        occupied “rental” properties, and to allow borrowers with a wider range of debt-
                                                        to-income ratios to receive modifications.112 As of December 31, 2012, there
                                                        were 1,128 active permanent modifications under HAMP Tier 2.113
                                                     •	 Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intended
     Short Sale: Sale of a home for less                to provide incentives to servicers, investors, and borrowers to pursue short sales
     than the unpaid mortgage balance.                  and deeds-in-lieu of foreclosure for borrowers in cases in which the borrower
     A borrower sells the home and the                  is unable or unwilling to enter or sustain a modification. Under this program,
     investor accepts the proceeds as full              the servicer releases the lien against the property and the investor waives all
     or partial satisfaction of the unpaid              rights to seek a deficiency judgment against a borrower who uses a short sale
     mortgage balance, thus avoiding the                or deed-in-lieu when the property is worth less than the outstanding amount of
     foreclosure process.                               the mortgage.114 Treasury failed to provide end-of-quarter data on the number
                                                        of short sales and deeds-in-lieu under HAFA to SIGTARP before publication. As
     Deed-in-Lieu of Foreclosure: Instead               of November 30, 2012, the latest data provided by Treasury, there were 80,178
     of going through foreclosure, the                  short sales and deeds-in-lieu under HAFA.115
     borrower voluntarily surrenders the             •	 Second-Lien Modification Program (“2MP”) — 2MP is intended to modify
     deed to the home to the investor, as               second-lien mortgages when a corresponding first lien is modified under
     satisfaction of the unpaid mortgage                HAMP by a participating servicer.116 As of December 31, 2012, 16 servicers
     balance.                                           are participating in 2MP.117 These servicers represent approximately 55-60% of
                                                        the second-lien servicing market.118 As of December 31, 2012, the latest data
                                                        provided by Treasury, there were 68,921 active permanently modified second
                                                        liens in 2MP.119
                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013          53




•	 Agency-Insured Programs — These programs are similar in structure
   to HAMP, but apply to eligible first-lien mortgages insured by FHA or
   guaranteed by the Department of Agriculture’s Office of Rural Development
   (“RD”) and the Department of Veterans Affairs (“VA”).120 Treasury provides
   TARP-funded incentives to encourage modifications under the FHA and RD
   modification programs. As of December 31, 2012, there were 17 RD-HAMP
   active permanent modifications and 8,538 FHA-HAMP active permanent
   modifications.121
•	 Treasury/FHA Second-Lien Program (“FHA2LP”) — In FHA2LP, Treasury
   uses TARP funds to provide incentives to servicers and investors who agree to
   principal reduction or extinguishment of second liens associated with an FHA
   refinance.122 As of December 31, 2012, no second liens had been partially
   written down or extinguished under the program.123
•	 FHA Short Refinance Program — This program, which is partially supported
   by TARP funds, is intended to provide borrowers who are current on their
   mortgage an opportunity to refinance existing underwater mortgage loans that            Underwater Mortgage: Mortgage loan
   are not currently insured by FHA into FHA-insured mortgages with lower                  on which a homeowner owes more
   principal balances. Treasury has provided a TARP-funded letter of credit for            than the home is worth, typically as
   up to $8 billion in loss coverage on these newly originated FHA loans. As               a result of a decline in the home’s
   of December 31, 2012, 2,153 loans had been refinanced under FHA Short                   value. Underwater mortgages are also
   Refinance.124                                                                           referred to as having negative equity.
•	 Housing Finance Agency Hardest Hit Fund (“HHF”) — A TARP-funded
   program, HHF is intended to fund foreclosure prevention programs run by state
   housing finance agencies in states hit hardest by the decrease in home prices
   and in states with high unemployment rates. Eighteen states and Washington,
   DC, received approval for aid through the program.125 As of September 30,
   2012, the latest data available, 77,164 borrowers had received assistance under
   HHF.126

Status of TARP Funds Obligated to Housing Support
Programs
Treasury obligated $45.6 billion to housing support programs, of which $6.4
billion, or 14%, has been expended as of December 31, 2012.127 Of that, $0.9
billion was expended in the quarter ended December 31, 2012. However, some of
the expended funds remain as cash on hand or paid for administrative expenses
at state housing finance agencies (“HFAs”) participating in the Hardest Hit Fund
program. Treasury has capped the aggregate amount available to pay servicer,
borrower, and investor incentives under MHA programs at $29.9 billion, of which
$4.6 billion, or 15%, has been spent.128 Treasury allocated $8.1 billion for FHA
Short Refinance, of which $7.7 million has been spent on administrative expenses.
Treasury allocated $7.6 billion to the Hardest Hit Fund. As of September 30,
2012, the latest data available, only 9.8% of those funds have gone to help 77,164
homeowners. HFAs have drawn down $1.8 billion, as of December 31, 2012, but
not all of that has gone to assist homeowners.129
54   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                Table 2.6 shows the breakdown in expenditures and estimated funding alloca-
                                            tions for these housing support programs.

                                            TABLE 2.6
                                             TARP ALLOCATIONS AND EXPENDITURES BY HOUSING SUPPORT PROGRAMS,
                                             AS OF 12/31/2012 ($ BILLIONS)
                                                                                                                          ALLOCATIONS                              EXPENDITURES
                                                                                            MHA
                                                  HAMP    a


                                                       First Lien Modification                                            $19.1                                       $3.4
                                                       PRA Modification                                                      2.0                                        0.1
                                                       HPDP                                                                  1.6                                        0.3
                                                       UP                                                                      —b                                        —
                                                                                  HAMP Total                             $22.7                                       $3.8
                                                  HAFA                                                                           4.2                                       0.4
                                                  2MP                                                                            0.1                                       0.3
                                                  Treasury FHA-HAMP                                                              0.2                                          —c
                                                  RD-HAMP                                                                          —d                                         —
                                                  FHA2LP                                                                         2.7                                          —
                                                                                    MHA Total                                       $29.9                                           $4.6
                                                                   FHA Short Refinance                                                 $8.1   e
                                                                                                                                                                                    $0.1
                                                         HHF (Drawdown by States)f                                                     $7.6                                         $1.8
                                                                                            Total                                   $45.6                                           $6.4
                                             Notes: Numbers may not total due to rounding. According to Treasury, these numbers are “approximate.”
                                             a
                                                Includes HAMP Tier 1 and HAMP Tier 2.
                                             b
                                                 Treasury does not allocate TARP funds to UP.
                                             c
                                                Treasury has expended $0.02 billion for the Treasury FHA-HAMP program.
                                             d
                                                Treasury has allocated $0.02 billion to the RD-HAMP program. As of December 31, 2012, $12,117 has been expended for
                                                RD-HAMP.
                                             e
                                                This amount includes up to $117 million in fees Treasury will incur for the availability and usage of the $8 billion letter of credit.
                                             f
                                               Not all of the funds drawn down by HFAs have been used to assist homeowners. As of September 30, 2012, the latest data
                                               available, only $743 million was spent to assist homeowners.

                                             Source: Treasury, response to SIGTARP data call, 1/3/2013.
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   55




     As of December 31, 2012, Treasury had active agreements with 96 servicers.
That compares with 145 servicers that had agreed to participate in MHA as
of October 3, 2010.130 According to Treasury, of the $29.9 billion obligated to
participating servicers under their Servicer Participation Agreements (“SPAs”),
as of December 31, 2012, only $4.6 billion (15%) has been spent, broken down
as follows: $3.8 billion had been spent on completing permanent modifications
of first liens (417,419 of which remain active); $315.2 million under 2MP; and
$406.7 million on incentives for short sales or deeds-in-lieu of foreclosure under
HAFA.131 Of the combined amount of incentive payments, according to Treasury,
approximately $1.4 billion went to pay servicer incentives, $2.2 billion went to
pay investor incentives, and $920 million went to pay borrower incentives.132 As of
December 31, 2012, Treasury had disbursed approximately $1.8 billion of the $7.6
billion allocated to HFAs participating in HHF.133 According to the most recent
data, as of September 30, 2012, more than half of expended HHF funding is held
as cash on hand with HFAs or is used for administrative expenses.134 The remaining
$8.1 billion has been obligated under FHA Short Refinance to purchase a letter
of credit to provide up to $8 billion in first loss coverage and to pay $117 million
in fees for the letter of credit. According to Treasury, it has not paid any claims
for defaults on the 2,153 loans refinanced under the program. However, Treasury
has pre-funded a reserve account with $50 million to pay future claims and spent
$7.7 million on administrative expenses.135 The breakdown of TARP-funded
expenditures related to housing support programs (not including the GSE-funded
portion of HAMP) are shown in Table 2.7.
56   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TABLE 2.7
                                             BREAKDOWN OF TARP EXPENDITURES, AS OF 12/31/2012                                                 ($ MILLIONS)

                                             MHA                                                                             TARP Expenditures
                                                 HAMP

                                                      HAMP First Lien Modification Incentives
                                                         Servicer Incentive Payment                                             $559.1
                                                         Servicer Current Borrower Incentive Payment                               16.4
                                                         Annual Servicer Incentive Payment                                       724.5
                                                         Investor Current Borrower Incentive Payment                               57.1
                                                         Investor Monthly Reduction Cost Share                                 1,397.1
                                                         Annual Borrower Incentive Payment                                       662.6
                                                      HAMP First Lien Modification Incentives Total                                    $3,416.8
                                                      PRA                                                                                 $128.6
                                                      HPDP                                                                                $283.2
                                                      UP                                                                                          —a
                                                      HAMP Program Incentives Total                                                                  $3,828.6
                                                 HAFA Incentives
                                                    Servicer Incentive Payment                                                                   $119.9
                                                    Investor Reimbursement                                                                          47.6
                                                    Borrower Relocation                                                                            239.2
                                                HAFA Incentives Total                                                                                  $406.7
                                                Second-Lien Modification Program Incentives
                                                    2MP Servicer Incentive Payment                                                                 $49.9
                                                    2MP Annual Servicer Incentive Payment                                                           11.6
                                                    2MP Annual Borrower Incentive Payment                                                           10.7
                                                    2MP Investor Cost Share                                                                         82.0
                                                    2MP Investor Incentive                                                                         161.0
                                                Second-Lien Modification Program Incentives Total                                                      $315.2
                                                Treasury/FHA-HAMP Incentives
                                                    Annual Servicer Incentive Payment                                                               $8.2
                                                    Annual Borrower Incentive Payment                                                                  7.4
                                                Treasury/FHA-HAMP Incentives Total                                                                       $15.7
                                                RD-HAMP                                                                                                        —b
                                                FHA2LP                                                                                                         —
                                             MHA Incentives Total                                                                                               $4,566.2
                                             FHA Short Refinance (Loss-Coverage)                                                                                     $57.7
                                             HHF Disbursements (Drawdowns by State HFAs)                                                                        $1,761.5
                                             Total Expenditures                                                                                                 $6,385.4
                                             Notes: Numbers may not total due to rounding.
                                             a
                                               TARP funds are not used to support the UP program, which provides forbearance of a portion of the homeowner’s mortgage
                                                payment.
                                             b
                                                RD-HAMP expenditures equal $12,117 as of December 31, 2012.

                                             Source: Treasury, response to SIGTARP data call, 1/3/2013.
                                                                                                QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013         57




HAMP
According to Treasury, HAMP was intended “to help as many as three to four
million financially struggling homeowners avoid foreclosure by modifying loans to
a level that is affordable for borrowers now and sustainable over the long term.”136
Although HAMP contains several subprograms, the term “HAMP” is most often
used to refer to the HAMP First-Lien Modification Program, described below.

HAMP First-Lien Modification Program
The HAMP First-Lien Modification Program, which went into effect on April
6, 2009, modifies the terms of first-lien mortgages to provide borrowers with
lower monthly payments. A HAMP modification consists of two phases: a trial                                     Trial Modification: Under HAMP, a
modification that was originally designed to last three months, followed by a                                   period of at least three months in
permanent modification. Treasury continues to pay incentives for five years.137 In                              which a borrower is given a chance
designing HAMP, the Administration envisioned a “shared partnership” between                                    to establish that he or she can make
the Government and investors to bring distressed borrowers’ first lien monthly                                  lower monthly mortgage payments and
payments down to an “affordable” and sustainable level — defined by Treasury in                                 qualify for a permanent modification.
the case of HAMP Tier 1 as 31% of the borrower’s monthly gross income.138 The
program description immediately below refers only to the original HAMP program,
which after the launch of HAMP Tier 2 has been renamed “HAMP Tier 1.”

HAMP Modification Statistics
As of December 31, 2012, a total of 850,007 mortgages were in active permanent
modifications under both TARP (non-GSE) and GSE HAMP. Some 62,111 were
in active trial modifications. Treasury failed to provide end-of-quarter data on the
percentages of permanent modifications that received interest rate reduction,
term extension, or principal forbearance to SIGTARP before publication. As of
November 30, 2012, the latest data provided by Treasury, for borrowers receiving
permanent modifications, 97% received an interest rate reduction, 61.1% received
a term extension, 32.1% received principal forbearance, and 11.7% received
principal forgiveness.139 HAMP modification activity, broken out by TARP and GSE
loans, is shown in Table 2.8.

TABLE 2.8
 CUMULATIVE HAMP MODIFICATION ACTIVITY BY TARP/GSE, AS OF
 12/31/2012
                                                                      Trials
                     Trials          Trials           Trials   Converted to    Permanents    Permanents
                   Started       Cancelled           Active     Permanent        Cancelled       Active
 TARP             952,420          349,190          36,336         566,894        149,476       417,419
 GSE           1,017,880           423,647          25,775         568,458        135,870       432,588
 Total        1,970,300           772,837           62,111       1,135,352        285,346      850,007
 Source: Treasury, response to SIGTARP data call, 1/22/2013.
58            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Starting a HAMP Modification
                                                     Borrowers may request participation in HAMP.140 Borrowers who have missed two
                                                     or more payments must be solicited for participation by their servicers.141 Before
                                                     offering the borrower a trial modification, also known as a trial period plan (“TPP”),
                                                     the servicer must verify the accuracy of the borrower’s income and other eligibility
                                                     criteria. In order to verify the borrower’s eligibility for a modification under the
                                                     program, borrowers must submit the following documents as part of an “initial
                                                     package.”142

     For more information on the RMA                 •	 an MHA “request for mortgage assistance” (“RMA”) form, which provides the
     form and what constitutes hardship,                servicer with the borrower’s financial information, including the cause of the
     see SIGTARP’s April 2011 Quarterly                 borrower’s hardship;
     Report, page 62.                                •	 signed and completed requests for Federal tax return transcripts or the most
                                                        recent Federal income tax return, including all schedules and forms;
     For more information on the Verification
                                                     •	 income verification documentation, such as recent pay stubs or evidence of
     Policy, see SIGTARP’s April 2011
                                                        other sources of income; and
     Quarterly Report, page 63.
                                                     •	 Dodd-Frank certification (either as part of the RMA form or as a standalone
                                                        document) that the borrower has not been convicted in the past 10 years of any
                                                        of the following in connection with a mortgage or real estate transaction: felony
                                                        larceny, theft, fraud, or forgery; money laundering, or tax evasion.

                                                         In order for a loan to be eligible for a HAMP modification, the borrower’s initial
                                                     package, consisting of the four documents described above, must be submitted by
                                                     the borrower on or before December 31, 2013. Additionally, in order to be eligible
                                                     for incentive payments, the permanent modification must be effective on or before
                                                     December 31, 2014.143
                                                         Participating servicers verify monthly gross income for the borrower and the
                                                     borrower’s household, as well as other eligibility criteria.144 Then, in the case of
                                                     HAMP Tier 1, the servicer follows the “waterfall” of modification steps prescribed
                                                     by HAMP guidelines to calculate the reduction in the borrower’s monthly mortgage
                                                     payment needed to achieve a 31% debt-to-income (“DTI”) ratio, that is, a payment
                                                     equal to 31% of his or her monthly gross income.145
                                                         In the first step, the servicer capitalizes any unpaid interest and fees (i.e., adds
                                                     them to the outstanding principal balance). Second, the servicer reduces the inter-
                                                     est rate in incremental steps to as low as 2%. If the 31% DTI ratio threshold still
                                                     has not been reached, in the third step the servicer extends the term of the mort-
                                                     gage to a maximum of 40 years from the modification date. If these steps are still
                                                     insufficient to reach the 31% threshold, the servicer may forbear principal (defer its
                                                     due date), subject to certain limits.146 The forbearance amount is not interest bear-
                                                     ing and results in a lump-sum payment due upon the earliest of the sale date of the
                                                     property, the payoff date of the interest-bearing mortgage balance, or the maturity
                                                     date of the mortgage.147
                                                         Servicers are not required to forgive principal under HAMP. However, servicers
                                                     may forgive principal in order to lower the borrower’s monthly payment to achieve
                                                                                  QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013           59




the HAMP Tier 1 DTI ratio goal of 31% on a stand-alone basis, at any point in the
HAMP waterfall described above, or as part of PRA.148                                             Net Present Value (“NPV”) Test:
    After completing these modification calculations, all loans that meet HAMP                    Compares the money generated by
eligibility criteria and are either deemed generally to be in imminent default or                 modifying the terms of the mortgage
delinquent by two or more payments must be evaluated using a standardized net                     with the amount an investor can
present value (“NPV”) test that compares the NPV result for a modification to                     reasonably expect to recover in a
the NPV result for no modification.149 The NPV test compares the expected cash                    foreclosure sale.
flow from a modified loan with the expected cash flow from the same loan with
no modifications to determine which option will be more valuable to the mortgage                  Loan-to-Value (“LTV”) Ratio: Lending
investor. A positive NPV test result indicates that a modified loan is more valuable              risk assessment ratio that mortgage
to the investor than the existing loan. In that case, under HAMP rules, the servicer              lenders examine before approving a
must offer the borrower a mortgage modification. If the test generates a negative                 mortgage; calculated by dividing the
result, modification is optional.150 Servicers cannot refuse to evaluate a borrower               outstanding amount of the loan by
for a modification simply because the outstanding loan currently has a low loan-to-               the value of the collateral backing the
value (“LTV”) ratio, meaning the borrower owes less than the value of the home.                   loan. Loans with high LTV ratios are
The lower the LTV ratio is, the higher the probability that a foreclosure will be                 generally seen as higher risk because
more profitable to an investor than a modification.                                               the borrower has less of an equity
    Since September 1, 2011, most of the largest mortgage servicers participat-                   stake in the property.
ing in MHA have been required to assign a single point of contact to borrowers
potentially eligible for evaluation under HAMP, HAFA, or UP.151 The single point of
contact has the primary responsibility for communicating with the borrower about
                                                                                                  For more about the HAMP NPV test,
options to avoid foreclosure, his/her status in the process, coordination of receipt of           see the June 18, 2012, SIGTARP audit
documents, and coordination with other servicer personnel to promote compliance                   report “The NPV Test’s Impact on
with MHA timelines and requirements throughout the entire delinquency, immi-                      HAMP.”
nent default resolution process, or foreclosure.152

How HAMP First-Lien Modifications Work
Treasury originally intended that HAMP trial modifications would last three
months. Historically, many trial modifications have lasted longer. According to
Treasury, as of December 31, 2012, of a combined total of 62,111 active trials
under both GSE and TARP (non-GSE) HAMP, 11,936, or 19%, had lasted more
than six months.153
    Borrowers in trial modifications may qualify for conversion to a permanent
modification as long as they make the required modified payments on time and
provide proper documentation, including a signed modification agreement.154 The
terms of permanent modifications under HAMP Tier 1 remain fixed for at least five
years.155 After five years, the loan’s interest rate can increase if the modified interest
rate had been reduced below the 30-year conforming fixed interest rate on the date
of the initial modification. The interest rate can rise incrementally by up to 1%
per year until it reaches that rate.156 Otherwise, the modified interest rate remains
permanent.
    If the borrower misses a payment during the trial or is denied a permanent
modification for any other reason, the borrower is, in effect, left with the original
terms of the mortgage. The borrower is responsible for the difference between
the original mortgage payment amount and the reduced trial payments that were
60           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    made during the trial. In addition, the borrower may be liable for late fees that were
                                                    generated during the trial. In other words, a borrower can be assessed late fees
                                                    for failing to make the original pre-modification scheduled payments during the
                                                    trial period, even though under the trial modification the borrower is not required
                                                    to make these payments. Late fees are waived only for borrowers who receive a
                                                    permanent modification.157

                                                    What Happens When a HAMP Modification Is Denied: Servicer Obligations and
                                                    Borrower Rights
                                                    Treasury has issued guidance governing both the obligations of servicers and the
                                                    rights of borrowers in connection with the denial of loan modification requests.
                                                    Borrowers must receive a Non-Approval Notice if they are rejected for a HAMP
                                                    modification. A borrower who is not approved for HAMP Tier 1 is automatically
                                                    considered for HAMP Tier 2. If the servicer offers the borrower a HAMP Tier 2
                                                    trial, no Non-Approval notice would be issued on the HAMP Tier 1. The Non-
                                                    Approval Notice is sent only if the HAMP Tier 2 is not offered. Borrowers can
                                                    request reconsideration or re-evaluation if they believe one or more NPV analysis
                                                    inputs is incorrect or if they experience a change in circumstance. Servicers are
                                                    obligated to have written procedures and personnel in place to respond to borrower
                                                    inquiries and disputes that constitute “escalated cases” in a timely manner.158
                                                        Treasury’s web-based NPV calculator at www.CheckMyNPV.com can be
                                                    used by borrowers prior to applying for a HAMP modification or after a denial
     For more information on HAMP                   of a HAMP modification. Borrowers can enter the NPV input values listed in
     servicer obligations and borrower rights,      the HAMP Non-Approval Notice received from their servicer, or substitute with
     see SIGTARP’s April 2011 Quarterly             estimated NPV input values, to compare the estimated outcome provided by
     Report, pages 67-76.                           CheckMyNPV.com against that on the Non-Approval Notice.

                                                    Modification Incentives
                                                    For new HAMP trials on or after October 1, 2011, Treasury changed the one-
                                                    time flat $1,000 incentive payment to a sliding scale based on the length of time
                                                    the loan was delinquent as of the effective date of the TPP. For loans less than or
                                                    equal to 120 days delinquent, servicers receive $1,600.159 For loans 121-210 days
                                                    delinquent, servicers receive $1,200. For loans more than 210 days delinquent,
                                                    servicers receive only $400. For borrowers whose monthly mortgage payment was
                                                    reduced through HAMP by 6% or more, servicers also receive incentive payments
                                                    of up to $1,000 annually for three years if the borrower remains in good standing
                                                    (defined as less than three full monthly payments delinquent).160
                                                        For HAMP Tier 1, borrowers whose monthly mortgage payment is reduced
                                                    through HAMP by 6% or more and who make monthly payments on time earn
                                                    an annual principal reduction of up to $1,000.161 The principal reduction accrues
                                                    monthly and is payable for each of the first five years as long as the borrower
                                                    remains in good standing.162 Under both HAMP Tier 1 and HAMP Tier 2, the
                                                    investor is entitled to five years of incentives that make up part of the difference
                                                    between the borrower’s new monthly payment and the old one.
                                                                                                                      QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013    61




    As of December 31, 2012, of the $29.9 billion in TARP funds allocated to the
96 servicers participating in MHA, approximately 89.6% was allocated to the 10
largest servicers.163 Table 2.9 outlines these servicers’ relative progress in imple-
menting the HAMP modification programs.

TABLE 2.9
 TARP INCENTIVE PAYMENTS BY 10 LARGEST SERVICERS, AS OF 12/31/2012
                                                                                     Incentive                     Incentive            Incentive
                                                                                    Payments                      Payments             Payments        Total Incentive
                                                  SPA Cap Limit                  to Borrowers                   to Investors         to Servicers           Payments
 Bank of America, N.A.a                         $7,865,363,101                  $183,540,002                 $409,996,976          $266,678,820         $860,215,798
 Wells Fargo Bank, N.A.       b
                                                  5,115,545,522                   134,246,898                  315,448,381          215,366,143          665,061,422
 JPMorgan Chase Bank, NA           c
                                                  3,762,578,315                   205,444,916                  402,849,852          296,753,910          905,048,678
 Ocwen Loan Servicing, LLCd                       2,711,028,756                    76,353,599                  201,436,741          145,662,056          423,452,396
 OneWest Bank                                     1,836,166,490                    38,066,337                  121,193,438            61,471,211         220,730,986
 GMAC Mortgage, LLC                               1,498,984,819                    40,574,764                  100,872,600            69,884,162         211,331,526
 Homeward Residential, Inc.                       1,305,440,504                    45,640,240                  122,754,916            87,503,935         255,899,091
 Select Portfolio Servicing                       1,003,587,805                    47,860,325                   93,836,832            74,487,793         216,184,949
 CitiMortgage Inc                                 1,003,466,205                    48,887,008                  157,522,744            87,412,679         293,822,431
 Nationstar Mortgage LLC                             697,023,154                   19,939,608                   40,185,389            30,829,201          90,954,198
 Total                                      $26,799,184,670                   $840,553,697               $1,966,097,870         $1,336,049,909       $4,142,701,476
 a
   Bank of America, N.A. includes the former Countrywide Home Loans Servicing, Wilshire Credit Corp. and Home Loan Services.
 b
   Wells Fargo Bank, N.A. includes Wachovia Mortgage, FSB.
 c
   JPMorgan Chase Bank, NA includes EMC Mortgage.
 d
   Ocwen Loan Servicing, LLC includes the former Litton Loan Servicing, LP.

 Source: Treasury, Transactions Report-Housing, 12/27/2012.
62           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    HAMP Tier 2
                                                    HAMP Tier 2 permits HAMP modifications on non-owner-occupied “rental”
                                                    properties, which had been expressly excluded under HAMP, and allows borrowers
                                                    with a wider range of debt-to-income situations to receive modifications.164
                                                    Treasury’s stated policy objectives for HAMP Tier 2 are that it “will provide critical
                                                    relief to both renters and those who rent their homes, while further stabilizing
                                                    communities from the blight of vacant and foreclosed properties.”165 A borrower
                                                    may have up to five loans with HAMP Tier 2 modifications, as well as a single
                                                    HAMP Tier 1 modification on the mortgage for his or her primary residence.166
                                                        According to Treasury, as of December 31, 2012, a total of 62 of the 96
                                                    servicers with active MHA servicer agreements had fully implemented HAMP Tier
                                                    2. An additional 28 of those servicers will not implement HAMP Tier 2 because
                                                    they are in the process of terminating their servicer participation agreement, they
     For SIGTARP’s recommendations for              have gone out of business, their servicer participation agreement was signed to
     the improvement of HAMP Tier 2,                participate only in FHA-HAMP, RD-HAMP, or FHA-2LP, or they are winding
     see SIGTARP’s April 2012 Quarterly             down their non-GSE servicing operations.167 All 10 of the largest servicers have
     Report, pages 185-189.                         reported that they had implemented HAMP Tier 2.168 According to Treasury, as of
                                                    December 31, 2012, it had paid $359,082 in incentives in connection with 1,128
                                                    active HAMP Tier 2 permanent modifications.169

                                                    HAMP Tier 2 Eligibility
                                                    HAMP Tier 2 expands the eligibility criteria related to a borrower’s debt-to-income
                                                    ratio and also allows modifications on loans secured by “rental” properties. Owner-
                                                    occupied loans that are ineligible for a HAMP Tier 1 modification due to excessive
                                                    forbearance or negative NPV are also eligible for Tier 2. Vacant rental properties
                                                    are permitted in the program, as are those occupied by legal dependents, parents,
                                                    or grandparents, even if no rent is charged. The program is not, however, according
                                                    to Treasury, intended for vacation homes, second homes, or properties that are
                                                    rented only seasonally. Additionally, loans on rental properties must be at least two
                                                    payments delinquent – those in imminent default are not eligible.170
                                                        However, Treasury does not require that the property be rented. Treasury
                                                    requires only that a borrower certify intent to rent the property to a tenant on a
                                                    year-round basis for at least five years, or make “reasonable efforts” to do so; and
                                                    does not intend to use the property as a second residence for at least five years.171
                                                    According to Treasury, servicers are not typically required to obtain third-party
                                                    verifications of the borrower’s rental property certification when evaluating a
                                                    borrower for HAMP.172
                                                        To be considered for HAMP Tier 2, borrowers must satisfy several basic HAMP
                                                    requirements: the loan origination date must be on or before January 1, 2009;
                                                    the borrower must have a documented hardship; the property must conform to
                                                    the MHA definition of a “single-family residence” (1-4 dwelling units, including
                                                    condominiums, co-ops, and manufactured housing); the property must not be
                                                    condemned; and the loan must fall within HAMP’s unpaid principal balance
                                                    limitations.173 If a borrower satisfies these requirements, and in addition, the loan
                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   63




has never been previously modified under HAMP, the servicer is required to solicit
the borrower for HAMP Tier 2. In certain other cases, the borrower may still be
eligible for HAMP Tier 2, but the servicer is not required to solicit the borrower.174

How HAMP Tier 2 Modifications Work
As with HAMP Tier 1, HAMP Tier 2 evaluates borrowers using an NPV test that
considers the value of the loan to the investor before and after a modification.
Owner-occupant borrowers are evaluated for both HAMP Tier 1 and Tier 2 in a
single process. If a borrower is eligible for both modifications, he or she will receive
a HAMP Tier 1 modification.175
     As discussed above, HAMP Tier 1 modifications are structured using a water-
fall of incremental steps that may stop as soon as the 31% post-modification DTI
ratio target is reached. In HAMP Tier 2, the proposed permanent modification
must meet two affordability requirements: (1) a post-modification DTI ratio of not
less than 25% or greater than 42% and (2) a reduction of the monthly principal
and interest payment by at least 10%. The post-modification DTI ratio range will
increase in February 2013 to not less than 10% or greater 55%. If the borrower was
previously in a HAMP Tier 1 modification (either trial or permanent), then the new
payment must be at least 10% below the previously modified payment. Because
HAMP Tier 2 does not target a specific DTI ratio, the HAMP Tier 2 waterfall is not
a series of incremental steps, but a consistent set of actions that are applied to the
loan. After these actions are applied, if the result of the NPV test is positive and the
modification also achieves the DTI and payment reduction goals, the servicer must
offer the borrower a HAMP Tier 2 modification. If the result of the HAMP Tier 2
NPV test is negative, modification is optional.176
     As in the HAMP Tier 1 waterfall, the first step in structuring a HAMP Tier 2
modification is to capitalize any unpaid interest and fees. The second step changes
the interest rate to the “Tier 2 rate,” which is the current Freddie Mac Primary
Mortgage Market Survey rate plus a 0.5% risk adjustment. The third step extends
the term of the loan by up to 40 years from the modification effective date. Finally,
if the loan’s pre-modification mark-to-market LTV ratio is greater than 115%, the
servicer forbears principal in an amount equal to the lesser of (1) an amount that
would create a post-modification LTV ratio of 115%, or (2) an amount equal to
30% of the post-modification principal balance. Unlike HAMP Tier 1, there is no
excessive forbearance limit in HAMP Tier 2. The HAMP Tier 2 guidelines also
include several exceptions to this waterfall to allow for investor restrictions on
certain types of modification.177
     The HAMP Tier 2 NPV model also evaluates the loan using an “alternative
modification waterfall” in addition to the one described here. This waterfall uses
principal reduction instead of forbearance. However, as in HAMP Tier 1, principal
reduction is optional. Servicers may also reduce principal on HAMP Tier 2 modifi-
cations using PRA.178
     HAMP Tier 2 incentives are the same as those for HAMP Tier 1, with some
exceptions, notably that HAMP Tier 2 modifications do not pay annual borrower or
servicer incentives.179
64   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Home Price Decline Protection (“HPDP”)
                                            HPDP provides investors with incentives for modifications of loans on properties
                                            located in areas where home prices have recently declined and where investors are
                                            concerned that price declines may persist. HPDP incentive payments are linked
                                            to the rate of recent home price decline in a local housing market, as well as the
                                            unpaid principal balance and mark-to-market LTV ratio of the mortgage loan.180
                                                 HPDP is intended to address the fears of investors who may withhold their
                                            consent to loan modifications because of potential future declines in the value of
                                            the homes that secure the mortgages, should the modification fail and the loan go
                                            into foreclosure.181
                                                 Under HPDP, Treasury has published a standard formula, based on the
                                            principal balance of the mortgage, the recent decline in area home prices during
                                            the six months before the start of the HAMP modification, and the LTV ratio, that
                                            will determine the size of the incentive payment.182 The HPDP incentive payments
                                            accrue monthly over a 24-month period and are paid annually on the first and
                                            second anniversaries of the initial HAMP trial period. Accruals are discontinued
                                            if the borrower loses good standing under HAMP because he or she is delinquent
                                            by three mortgage payments. As of December 31, 2012, according to Treasury,
                                            approximately $283 million in TARP funds had been paid for incentives on
                                            168,000 loan modifications under HPDP.183

                                            Principal Reduction Alternative (“PRA”)
                                            PRA is intended to encourage principal reduction in HAMP loan modifications for
                                            underwater borrowers by providing mortgage investors with incentive payments
                                            in exchange for lowering the borrower’s principal balance. PRA is an alternative
                                            method to the standard HAMP modification waterfall for structuring a HAMP
                                            modification. Although servicers are required to evaluate every non-GSE HAMP-
                                            eligible borrower with an LTV of 115% or greater for PRA, whether to actually offer
                                            principal reduction or not is up to the servicer.184
                                                Because the GSEs, Fannie Mae and Freddie Mac, have refused to participate
                                            in PRA, the program applies only to loans modified under TARP-funded HAMP.185
                                            On January 27, 2012, Treasury offered to pay PRA incentives for the GSEs from
                                            TARP by tripling the incentives it pays to investors, subsidizing up to 63% of princi-
                                            pal reductions.186
                                                For the second quarter in a row, Treasury failed to provide end-of-quarter data
                                            on the PRA program to SIGTARP before publication; therefore, SIGTARP is not
                                            able to fully report on the status of the PRA program. Specifically, Treasury failed
                                            to provide the number of active permanent modifications in PRA, the percentage of
                                            borrowers who received PRA modifications that were seriously delinquent on their
                                            mortgages at the start of the trial modification, pre-modification and post-modifica-
                                            tion median LTV ratios, the amount by which principal balances under PRA were
                                            reduced, and the number of PRA trials that had redefaulted or were paid off.
                                                As of November 30, 2012, the latest data provided by Treasury, there were
                                            74,724 active permanent modifications in PRA.187 According to Treasury, 86%
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   65




of borrowers who received PRA modifications were seriously delinquent on their
mortgages at the start of the trial modification.188
    Borrowers receiving PRA modifications were also significantly further
underwater before modification than the overall HAMP population.189 As of
November 30, 2012, the latest data provided by Treasury, PRA borrowers had a
pre-modification median LTV ratio of 156%.190 After modification, however, PRA
borrowers lowered their LTVs to a median ratio of 115%. As of November 30,
2012, the latest data provided by Treasury, PRA modifications reduced principal
balances by a median amount of $72,383 or 31.9%, thereby lowering the LTV
ratio.191
    As of November 30, 2012, the latest data provided by Treasury, servicers had
started 110,482 PRA trial modifications, of which 16,364 were active, 85,361 had
converted to permanent modifications, and 8,757 (or 7.9%) were subsequently
disqualified from the program or the loan was paid off.192 Of the PRA trials that
converted to permanent modifications, 74,724 were still active as of November
30, 2012, the latest data provided by Treasury, and 10,637 (12.5%) had either
redefaulted or were paid off.193 Although not directly comparable, the redefault rate
for HAMP permanent modifications is 26%.194

Who Is Eligible
Borrowers who meet all HAMP eligibility requirements and who owe more than
115% of their home’s market value (LTV >115%) are eligible for PRA.195 The
principal balance used in this LTV calculation includes any amounts that would
be capitalized under a HAMP modification.196 Eligible borrowers are evaluated by
running NPV tests. There are standard and alternative NPV tests for HAMP Tier
1 and HAMP Tier 2. If the standard waterfall produces a positive NPV result, the
servicer must offer a HAMP modification (with or without principal reduction).
If the PRA waterfall using principal reduction produces a positive NPV result,
the servicer may, but is not required to, offer a modification using principal
reduction.197

How PRA Works
For HAMP Tier 1, the PRA waterfall uses principal forbearance (which later
becomes principal reduction) prior to interest rate reduction as the second step
in structuring the modification. Under PRA, the servicer determines the modified
mortgage payment by first capitalizing unpaid interest and fees as in a standard
HAMP modification. After capitalization, the servicer reduces the loan balance
through principal forbearance until either a DTI ratio of 31% or an LTV ratio of
115% is achieved. No interest will be collected on the forborne amount. If an LTV
ratio of 105% to 115% is achieved first, the servicer then applies the remaining
HAMP waterfall steps (interest rate reduction, term extension, forbearance) until
the 31% DTI ratio is reached. If the principal balance has been reduced by more
than 5%, the servicer is allowed additional flexibility in implementing the remaining
waterfall steps. Principal reduction is not immediate; it is earned over three years.
On each of the first three anniversaries of the modification, one-third of the
66                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                      PRA forborne principal is forgiven. Therefore, after three years the borrower’s
                                                                      principal balance is permanently reduced by the amount that was placed in PRA
                                                                      forbearance.198

TABLE 2.10                                                            Who Gets Paid
 PRA INCENTIVES TO INVESTORS PER                                      For PRA trials effective on or after March 1, 2012, the mortgage investors earn
 DOLLAR OF FIRST LIEN PRINCIPAL                                       an incentive of $0.18 to $0.63 per dollar of principal reduced, depending on
 REDUCED                                                              delinquency status of the loan and the level to which the outstanding LTV ratio was
 Mark-to-Market
                             105%          115%
                                                                      reduced.199 For loans that are more than six months delinquent, investors receive
 Loan-to-Value
                             to            to           > 140%        only $0.18 per dollar of principal reduction, regardless of LTV.200 The incentive
 Ratio (“LTV”)
                             115%          140%                       schedule in Table 2.10 applies only to loans that have been six months delinquent
 Rangea
 Incentive                                                            or less within the previous year.
 Amounts                      $0.63        $0.45          $0.30           Under certain conditions an investor may enter into an agreement with the bor-
 Notes: This incentive structure applies to loans less than or        rower to share any future increase in the value of the property.201
 equal to six months past due. For loans that were more than
 six months delinquent within the previous year, investors                According to Treasury, as of December 31, 2012, Treasury had paid a total of
 receive $0.18 per dollar of principal reduced in compensation,
 regardless of the LTV ratio. These incentives are effective for      $128.6 million in PRA incentives.202
 trials beginning on or after 3/1/2012.
 a
   The mark-to-market LTV is based on the pre-modified principal
   balance of the first-lien mortgage plus capitalized interest and   Home Affordable Unemployment Program (“UP”)
   fees divided by the market value of the property.
                                                                      UP, which was announced on March 26, 2010, provides temporary assistance to
 Source: Treasury, “Supplemental Directive 12-01: Making
 Home Affordable Program – Principal Reduction Alternative and        unemployed borrowers.203 Under the program, unemployed borrowers who meet
 Second Lien Modification Program Investor Incentives Update,”
 2/16/2012, www.hmpadmin.com/portal/news/docs/2012/                   certain qualifications can receive forbearance for a portion of their mortgage
 hampupdate021612.pdf, accessed 1/2/2013.
                                                                      payments. Originally, the forbearance period was a minimum of three months,
                                                                      unless the borrower found work during this time. However, on July 7, 2011, after a
                                                                      SIGTARP recommendation to extend the term, Treasury announced that it would
                                                                      increase the minimum UP forbearance period from three months to 12 months.
                                                                      As of November 30, 2012, which according to Treasury is the latest data available,
                                                                      7,766 borrowers were actively participating in UP.

                                                                      Who Is Eligible
                                                                      Borrowers who are approved to receive unemployment benefits and who also
                                                                      request assistance under HAMP must be evaluated by servicers for an UP
                                                                      forbearance plan and, if eligible, offered one. As of June 1, 2012, a servicer may
                                                                      consider a borrower for UP whose loan is secured by a vacant or tenant-occupied
                                                                      property and still must consider owner-occupied properties. The servicer must
                                                                      consider a borrower for UP regardless of the borrower’s monthly mortgage payment
                                                                      ratio and regardless of whether the borrower had a payment default on a HAMP
                                                                      trial plan or lost good standing under a permanent HAMP modification. Servicers
                                                                      are not required to offer an UP forbearance plan to borrowers who are more than
                                                                      12 months delinquent at the time of the UP request.204 Alternatively, the servicers
                                                                      may evaluate unemployed borrowers for HAMP and offer a HAMP trial period plan
                                                                      instead of an UP forbearance plan if, in the servicer’s business judgment, HAMP is
                                                                      the better loss mitigation option. If an unemployed borrower is offered a trial period
                                                                      plan but requests UP forbearance instead, the servicer may then offer UP, but is
                                                                      not required to do so.205
                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013           67




    Eligible borrowers may request a HAMP trial period plan after the UP forbear-
                                                                                               For more information on additional
ance plan is completed. If an unemployed borrower in bankruptcy proceedings                    UP eligibility criteria, see SIGTARP’s
requests consideration for HAMP, the servicer must first evaluate the borrower                 April 2011 Quarterly Report, pages
for UP, subject to any required bankruptcy court approvals.206 A borrower who has              80-81.
been determined to be ineligible for HAMP may request assessment for an UP
forbearance plan if he or she meets all the eligibility criteria.207 If a borrower who
is eligible for UP declines an offer for an UP forbearance plan, the servicer is not
required to offer the borrower a modification under HAMP or 2MP while the bor-
rower remains eligible for an UP forbearance plan.208

How UP Works
For qualifying homeowners, the mortgage payments during the forbearance
period are lowered to no more than 31% of monthly gross income, which includes
unemployment benefits.209 If the borrower regains employment, but because of
reduced income still has a hardship, the borrower must be considered for HAMP.
If the borrower is eligible, any payments missed prior to and during the period of
the UP forbearance plan are capitalized as part of the normal HAMP modification
process.210 If the UP forbearance period expires and the borrower is ineligible for
HAMP, the borrower may be eligible for MHA foreclosure alternatives, such as
HAFA.211

Home Affordable Foreclosure Alternatives (“HAFA”)
HAFA provides $4.2 billion in incentives to servicers, borrowers, and subordinate
lien holders to encourage a short sale or deed-in-lieu of foreclosure as an
alternative to foreclosure.212 Under HAFA, the servicer forfeits the ability to pursue
a deficiency judgment against a borrower when the proceeds from the short sale                 Deficiency Judgment: Court order
or deed-in-lieu are less than the outstanding amount on the mortgage.213 HAFA                  authorizing a lender to collect all or
incentives include a $3,000 relocation incentive payment to borrowers or tenants,              part of an unpaid and outstanding debt
a $1,500 incentive payment to servicers, and incentive payments to subordinate                 resulting from the borrower’s default
mortgage lien holders of up to $2,000 in exchange for a release of the lien and the            on the mortgage note securing a debt.
borrower’s liability.214 The program was announced on November 30, 2009.215                    A deficiency judgment is rendered
    Treasury allows each servicer participating in HAFA to determine its own poli-             after the foreclosed or repossessed
cies for borrower eligibility and many other aspects of how it operates the program,           property is sold when the proceeds are
but requires the servicers to post criteria and program rules on their websites.               insufficient to repay the full mortgage
According to Treasury, as of December 31, 2012, all but one have complied with                 debt.
this requirement. Servicers must notify eligible borrowers in writing about the
availability of the HAFA program and allow the borrower a minimum of 14 calen-
dar days to apply.216 Servicers are not required by Treasury to verify a borrower’s
financial information or determine whether the borrower’s total monthly payment
exceeds 31% of his or her monthly gross income.217
    Effective March 9, 2012, Treasury no longer required properties in HAFA to
be occupied, allowing vacant properties to enter the program. However, relocation
incentives will be paid only on occupied properties.218
    As of December 31, 2012, approximately $406.7 million from TARP had
been paid to investors, borrowers, and servicers under HAFA.219 For the second
68            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     quarter in a row, Treasury failed to provide end-of-quarter data on the number of
                                                     short sales or deeds-in-lieu completed under HAFA to SIGTARP before publica-
                                                     tion; therefore, SIGTARP is not able to fully report on the status of HAFA. As
     For more information about relocation           of November 30, 2012, the latest data provided by Treasury, 80,178 short sales
     incentives and borrower requirements            or deeds-in-lieu of foreclosure transfers were completed under HAFA.220 As of
     related to primary residences in HAFA,          November 30, 2012, the latest data provided by Treasury, Treasury reported that
     see SIGTARP’s January 2012 Quarterly            the nine largest servicers alone had completed 272,359 short sales and deeds-in-
     Report, pages 70-71.                            lieu outside HAMP for borrowers whose HAMP trial modifications had failed,
                                                     borrowers who had chosen not to participate, or were ineligible for the program.221
                                                     The greater volume of activity outside HAFA may be explained, in part, by the fees
                                                     and deficiency judgments that servicers are able to collect from the borrower in
                                                     non-HAFA transactions, which are not available within HAFA.

                                                     Second-Lien Modification Program (“2MP”)
                                                     According to Treasury, 2MP, which was announced on August 13, 2009, is
                                                     designed to provide modifications to the loans of borrowers with second mortgages
                                                     of at least $5,000 with monthly payments of at least $100 that are serviced by
                                                     a participating 2MP servicer, or full extinguishment of second mortgages below
                                                     those thresholds. When a borrower’s first lien is modified under HAMP and the
                                                     servicer of the second lien is a 2MP participant, that servicer must offer to modify
                                                     or may extinguish the borrower’s second lien. Treasury pays the servicer a lump
                                                     sum for full extinguishment of the second-lien principal or in exchange for a partial
                                                     extinguishment (principal reduction) and modification of the remainder of the
                                                     second lien.222 Second-lien servicers are not required to verify any of the borrower’s
                                                     financial information and do not perform a separate NPV analysis.223
                                                         There is no minimum principal balance for a full extinguishment of a second
                                                     lien under 2MP. For a second-lien modification under 2MP, the servicer first capi-
     Servicing Advances: If borrowers’               talizes any accrued interest and servicing advances, then reduces the interest rate
     payments are not made promptly                  to 1% to 2% for the first five years. After the five-year period, the rate increases to
     and in full, servicers are contractually        match the rate on the HAMP-modified first lien. When modifying the second lien,
     obligated to advance the required               the servicer must, at a minimum, extend the term to match the term of the first
     monthly payment amount in full to the           lien, but can also extend the term up to a maximum of 40 years. To the extent that
     investor. Once a borrower becomes               there is forbearance or principal reduction for the modified first lien, the second-
     current or the property is sold or              lien holder must forbear or forgive at least the same percentage on the second
     acquired through foreclosure, the               lien.224
     servicer is repaid all advanced funds.              According to Treasury, as of December 31, 2012, 125,793 HAMP modifications
                                                     had second liens that were eligible for 2MP. As of December 31, 2012, there were
                                                     68,921 active permanent modifications of second liens. New 2MP modifications
                                                     sharply peaked in March 2011 and have been generally declining since then. Most
                                                     of the activity under the program has been modifications to the terms of the second
                                                     liens. As of December 31, 2012, median principal reduction was $9,347 for partial
                                                     extinguishments of second liens and $61,734 for full extinguishments of second
                                                     liens.225 According to Treasury, as of December 31, 2012, approximately $315.2
                                                     million in TARP funds had been paid to servicers and investors under 2MP.226 As
                                                                                QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013                               69




of December 31, 2012, there were 135,669 second-lien full and partial extinguish-
ments and modifications under 2MP.227                                                          TABLE 2.11
     The servicer receives a $500 incentive payment upon modification of a second               2MP COMPENSATION PER DOLLAR OF
lien and is eligible for further incentives if certain conditions are met. The borrower         SECOND-LIEN PRINCIPAL REDUCED
is eligible for an annual principal reduction payment of up to $250 per year for up             (FOR 2MP MODIFICATIONS WITH
                                                                                                AN EFFECTIVE DATE ON OR AFTER
to five years.228 Investors receive modification incentive payments equal to an annu-           6/1/2012)
alized amount of 1.6% of the unmodified principal balance, paid on a monthly basis
                                                                                                Combined Loan-                           115%
for up to five years.229 In addition, investors also receive incentives for fully or par-       to-Value (“CLTV”)          < 115%        to           > 140%
tially extinguishing the second lien on 2MP modifications. The current incentive                Ratio Rangea                             140%
schedule for loans six months delinquent or less is shown in Table 2.11. For loans              Incentive
that have been more than six months delinquent within the previous 12 months,                   Amounts                      $0.42       $0.30         $0.20
                                                                                                Notes: This incentive structure applies to loans less than or
investors are paid $0.12 for each dollar of principal reduced.230                               equal to six months past due. For loans that were more than
                                                                                                six months delinquent within the previous year, investors
                                                                                                receive $0.12 per dollar of principal reduced in compensation,
Agency-Insured Loan Programs (FHA-HAMP, RD-HAMP, and                                            regardless of the CLTV ratio.
                                                                                                a
                                                                                                  Combined Loan-to-Value is the ratio of the sum of the
VA-HAMP)                                                                                           outstanding principal balance of the HAMP-modified first
                                                                                                   lien and the outstanding principal balance of the unmodified
Some mortgage loans insured or guaranteed by the Federal Housing Administration                    second lien divided by the property value determined in
                                                                                                   connection with the permanent HAMP modification.
(“FHA”), Department of Veterans Affairs (“VA”), or the U.S. Department of
                                                                                                Source: Treasury, “Supplemental Directive 12-03: Making Home
Agriculture Rural Development (“RD”) are eligible for modification under                        Affordable Program – Handbook Mapping for MHA Extension
                                                                                                and Expansion and Administrative Clarifications on Tier 2,”
programs similar to HAMP Tier 1 that reduce borrowers’ monthly mortgage                         4/17/2012, www.hmpadmin.com//portal/programs/docs/
payments to 31% of their monthly gross income. Borrowers are eligible to receive a              hamp_servicer/sd1203.pdf, accessed 1/2/2013.

maximum $1,000 annual incentive for five years and servicers are eligible to receive
a maximum $1,000 annual incentive from Treasury for three years on mortgages
in which the monthly payment was reduced by at least 6%.231 As of December 31,
2012, according to Treasury, approximately $15.7 million in TARP funds had been
paid to servicers and borrowers in connection with FHA-HAMP modifications.
According to Treasury, only $12,117 of TARP funds has been spent on the
modifications under RD-HAMP.232 As of December 31, 2012, there were 8,538
active permanent Treasury/FHA-HAMP modifications and 17 active modifications
under RD-HAMP.233 Treasury does not provide incentive compensation related to
VA-HAMP.234

Treasury/FHA Second-Lien Program (“FHA2LP”)
FHA2LP, which was launched on September 27, 2010, provides incentives for
partial or full extinguishment of non-GSE second liens of at least $2,500 originated
on or before January 1, 2009, associated with an FHA refinance.235 Borrowers
must also meet the eligibility requirements of FHA Short Refinance. According to
Treasury, as of December 31, 2012, it had not made any incentive payments under
FHA2LP, and no second liens had been partially written down or extinguished.236
TARP has allocated $2.7 billion for incentive payments to (1) investors ranging
from $0.10 to $0.21 based on the LTV of pre-existing second-lien balances that are
partially or fully extinguished under FHA2LP, or they may negotiate with the first-
lien holder for a portion of the new loan, and (2) servicers, in the amount of $500
for each second-lien mortgage in the program.237
70            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     FHA Short Refinance Program
     For more information concerning                 On March 26, 2010, Treasury and HUD announced the FHA Short Refinance
     FHA2LP eligibility, see SIGTARP’s April         program, which gives borrowers the option of refinancing an underwater, non-
     2011 Quarterly Report, pages 85-87.             FHA-insured mortgage into an FHA-insured mortgage at 97.75% of the home’s
                                                     value. Treasury has allocated TARP funds of (1) up to $8 billion to provide loss
                                                     protection to FHA through a letter of credit; and (2) up to $117 million in fees for
                                                     the letter of credit.238 FHA Short Refinance is voluntary for servicers. Therefore,
                                                     not all underwater borrowers who qualify may be able to participate in the
                                                     program.239 As of December 31, 2012, according to Treasury, 2,153 loans had been
                                                     refinanced under the program.240 As of December 31, 2012, Treasury has not paid
                                                     any claims for defaults under the program. According to Treasury, no FHA Short
                                                     Refinance Loans have defaulted; however, it is possible that one or more loans have
                                                     defaulted but FHA has not yet evaluated the claims.241 Treasury has deposited $50
                                                     million into a reserve account for future claims.242 It has also spent approximately
                                                     $7.7 million on administrative expenses associated with the letter of credit.243

                                                     Who Is Eligible
                                                     To be eligible for FHA Short Refinance, a homeowner must be current on the
                                                     existing first-lien mortgage or have made three successful trial period payments; be
                                                     in a negative equity position; occupy the home as a primary residence; qualify for
                                                     the new loan under standard FHA underwriting and credit score requirements; and
                                                     have an existing loan that is not insured by FHA.244 According to the Department
                                                     of Housing and Urban Development (“HUD”), it evaluates the credit risk of the
                                                     loans.245

                                                     How FHA Short Refinance Works
                                                     Servicers must first determine the current value of the home using a third-party
                                                     appraisal by a HUD-approved appraiser. The borrower is then reviewed for credit
                                                     risk and, if necessary, referred for a review to confirm that the borrower’s total
                                                     monthly mortgage payments on all liens after the refinance is not greater than
                                                     31% of the borrower’s monthly gross income and the borrower’s total household
                                                     debt is not greater than 50%.246 Next, the lien holders must forgive principal that is
     For more information concerning
     FHA Short Refinance eligibility, see            more than 115% of the value of the home. In addition, the original first-lien lender
     SIGTARP’s April 2011 Quarterly                  must forgive at least 10% of the unpaid principal balance of the first-lien loan,
     Report, pages 85-87.                            in exchange for a cash payment for 97.75% of the current home value from the
                                                     proceeds of the refinance. The lender may maintain a subordinate second lien for
                                                     up to 17.25% of that value (for a total balance of 115% of the home’s value).247
                                                         If a borrower defaults, the letter of credit purchased by Treasury compensates
                                                     the investor for a first percentage of losses, up to specified amounts.248 For mort-
                                                     gages originated between April 9, 2012, and December 31, 2012, the letter
                                                     of credit would cover approximately 10-11.5% of the unpaid principal balance at
                                                     default.249 FHA is responsible for the remaining losses on each mortgage. Funds
                                                     may be paid from the FHA Short Refinance letter of credit until the earlier of
                                                     either (1) the time that the $8 billion letter of credit is exhausted, or (2) 10 years
                                                                                QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   71




from the issuance of the letter of credit (October 2020), at which point FHA will
bear all of the remaining losses.250

Housing Finance Agency Hardest Hit Fund (“HHF”)
On February 19, 2010, the Administration announced a housing support program
known as the Hardest Hit Fund. Under HHF, TARP dollars would fund “innovative
measures” developed by 19 state housing finance agencies (“HFAs”) and approved
by Treasury to help families in the states that have been hit the hardest by the
the housing crisis.251 The first round of HHF allocated $1.5 billion of the amount
initially allocated for MHA initiatives. According to Treasury, these funds were
designated for five states where the average home price had decreased more than
20% from its peak. The five states were Arizona, California, Florida, Michigan,
and Nevada.252 Plans to use these funds were approved by Treasury on June 23,
2010.253
     On March 29, 2010, Treasury expanded HHF to include five additional states
and increased the program’s potential funding by $600 million, bringing total
funding to $2.1 billion. The additional $600 million was designated for North
Carolina, Ohio, Oregon, Rhode Island, and South Carolina. Treasury indicated that
these states were selected because of their high concentrations of people living in
economically distressed areas, defined as counties in which the unemployment rate
exceeded 12%, on average, in 2009.254 Plans to use these funds were approved by
Treasury on August 3, 2010.255
     On August 11, 2010, Treasury pledged a third round of HHF funding of $2
billion to states with unemployment rates at or above the national average.256
The states designated to receive funding were Alabama, California, Florida,
Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada, New Jersey,
North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and
Washington, DC.257 Treasury approved third round proposals on September 23,
2010.258 On September 29, 2010, a fourth round of HHF funding of an additional
$3.5 billion was made available to existing HHF participants.259
     Treasury approved state programs and allocated the $7.6 billion in TARP funds
in five categories of assistance:260

•	   $4.4 billion for unemployment assistance
•	   $1.4 billion for principal reduction
•	   $817 million for reinstatement of past-due amounts
•	   $83 million for second-lien reduction
•	   $45 million for transition assistance, including short sales and deed-in-lieu of
     foreclosure

    Each state’s HFA reports program results (i.e., number of applications approved
or denied and assistance provided) on a quarterly basis on its own state website.
Treasury does not publish the data either by individual HFA or in the aggregate.
Treasury indicated that states can reallocate funds between programs and modify
existing programs as needed, with Treasury approval, until funds are expended
72   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            or returned to Treasury after December 31, 2017. According to Treasury, since
                                            September 30, 2012, eight states have reallocated funds, modified or eliminated
                                            existing programs, or established new HHF programs with Treasury approval,
                                            bringing the total number of HHF programs in 18 states and Washington, DC, as
                                            of December 31, 2012, to 57.261
                                                Table 2.12 shows the obligation of funds and funds drawn for states participat-
                                            ing in the four rounds of HHF as of December 31, 2012. As of that date, according
                                            to Treasury, the states had drawn down $1.8 billion under the program. According
                                            to Treasury, the states had spent only a limited portion of the amount drawn on
                                            assisting borrowers; see Table 2.12. According to the most recent data available,
                                            as of September 30, 2012, more than half of the amount drawn is held as unspent
                                            cash-on-hand with HFAs or is used for administrative expenses.262
                                                                                                                       QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013            73




TABLE 2.12
 HHF FUNDING OBLIGATED AND DRAWDOWNS BY STATE, AS OF 12/31/2012
 Recipient                                                       Amount Obligated                         Amount Drawn*
 Alabama                                                               $162,521,345                             $28,000,000
 Arizona                                                                 267,766,006                              47,755,000
 California                                                           1,975,334,096                             467,490,000
 Florida                                                              1,057,839,136                             116,250,000
 Georgia                                                                 339,255,819                              38,200,000
 Illinois                                                                445,603,557                            160,000,000
 Indiana                                                                 221,694,139                              22,000,000
 Kentucky                                                                148,901,875                              44,000,000
 Michigan                                                                498,605,738                              79,227,615
 Mississippi                                                             101,888,323                              13,038,832
 Nevada                                                                  194,026,240                              54,042,000
 New Jersey                                                              300,548,144                              77,513,704
 North Carolina                                                          482,781,786                            173,000,000
 Ohio                                                                    570,395,099                            169,100,000
 Oregon                                                                  220,042,786                            107,501,070
 Rhode Island                                                             79,351,573                              39,000,000
 South Carolina                                                          295,431,547                              70,000,000
 Tennessee                                                               217,315,593                              45,315,593
 Washington, DC                                                           20,697,198                              10,034,860
 Total                                                            $7,600,000,000                         $1,761,468,674
 Notes: Numbers may not total due to rounding.

 *Amount drawn includes funds for program expenses (direct assistance to borrowers), administrative expenses, and cash-on-hand.

 Sources: Treasury, Transactions Report-Housing, 12/27/2012; Treasury, response to SIGTARP data call, 1/3/2013.



    As of September 30, 2012, the latest data available, HHF had provided $742.5
million in assistance to 77,164 homeowners.263 This is an increase of $235.9 mil-
lion in assistance to an additional 18,645 homeowners as reported by Treasury
since June 30, 2012. Each state estimates the number of borrowers to be helped                                                         For more information on HHF, see
in its programs. Treasury allows the HFAs to change this estimate. The aggregate                                                       SIGTARP’s April 12, 2012, audit report,
of these estimated ranges has decreased in the last year. This is true even from last                                                  “Factors Affecting Implementation of the
quarter. In SIGTARP’s October 2012 Quarterly Report, SIGTARP reported that as                                                          Hardest Hit Fund Program.”
of June 30, 2012, the 19 HFAs collectively estimated helping between 414,233 and
437,963 homeowners over the life of the program. By September 30, 2012, the
collective estimate had decreased by approximately 15,000 homeowners, or 3.5%,
to 404,519 to 417,249 estimated number of homeowners to be helped over the life
of the program.264 Table 2.13 provides this estimate as well as the actual number of
borrowers helped by states using data as of September 30, 2012.
74   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TABLE 2.13
                                             HHF ESTIMATED AND ACTUAL NUMBER OF BORROWERS ASSISTED AND
                                             ASSISTANCE PROVIDED, BY STATE, AS OF 9/30/2012
                                                                             Estimated Number
                                                                                of Participating
                                                                                  Households to                 Actual Borrowers
                                                                                 be Assisted by             Receiving Assistance                 Assistance Provided
                                             Recipient                           12/31/2017*                 as of 9/30/2012**                   as of 9/30/2012**
                                             Alabama                                           8,500                               2,138                    $15,182,885
                                             Arizona                                           6,770                                 947                      20,819,142
                                             California                                       77,670                             16,872                     154,709,046
                                             Florida                                          90,000                               6,379                      50,662,876
                                             Georgia                                          18,300                               1,708                      15,126,412
                                             Illinois                          13,500 to 14,500                                    4,434                      51,274,699
                                             Indiana                                          10,632                               1,069                        8,881,264
                                             Kentucky                            6,250 to 13,000                                   2,379                      22,379,884
                                             Michigan                                         22,570                               7,300                      34,016,463
                                             Mississippi                                       3,800                                 687                        6,739,774
                                             Nevada                                            7,866                               1,802                      13,690,995
                                             New Jersey                                        6,900                               1,197                        9,577,905
                                             North Carolina                                   22,290                               8,415                      93,302,933
                                             Ohio                                             57,300                               7,647                      86,781,120
                                             Oregon                                           13,630                               5,834                      69,033,194
                                             Rhode Island                                      2,921                               2,033                      22,450,077
                                             South Carolina                    21,600 to 26,100                                    3,701                      38,090,153
                                             Tennessee                                        13,500                               2,234                      23,570,710
                                             Washington, DC                           520 to 1,000                                   388                        6,231,216
                                             Total                        404,519 to 417,249                                    77,164                   $742,520,748
                                             *Source: Estimates are from the latest HFA Participation Agreements as of 9/30/2012. Later amendments are not included for
                                             consistency with Quarterly Performance reporting.

                                             States report the Estimated Number of Participating Households individually for each HHF program they operate. This column shows
                                             the totals of the individual program estimates for each state. Therefore, according to Treasury, these totals do not necessarily
                                             translate into the number of unique households that the states expect to assist because some households may participate in more
                                             than one HHF program.

                                             **Sources: Third quarter 2012 HFA Performance Data quarterly reports and Third Quarter 2012 HFA Aggregate Quarterly Report.
                                             Both sources are as of 9/30/2012.



                                                As of September 30, 2012, 73.7% of the HHF assistance received by homeown-
                                            ers was for unemployment assistance. The remaining assistance can be broken
                                            down to 19.7% for reinstatement of past due amounts, 5.9% for principal reduc-
                                            tion, 0.6% for second-lien reduction, and 0.1% for transition assistance.265
                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013         75




FINANCIAL INSTITUTION SUPPORT PROGRAMS
Treasury created six TARP programs through which it made capital investments
or asset guarantees in exchange for equity in participating financial institutions.
Three of the programs, the Capital Purchase Program (“CPP”), the Community
Development Capital Initiative (“CDCI”), and the Capital Assistance Program
(“CAP”), were open to all qualifying financial institutions. The other three, the
Systemically Significant Failing Institutions (“SSFI”) program, the Targeted
Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”), were
available on a case-by-case basis to institutions that needed assistance beyond that
available through CPP. With the expiration of TARP funding authorization, no new
investments can be made through these six programs.
    To help improve the capital structure of some struggling TARP recipients,
Treasury has agreed to modify its investment in certain cases by converting the pre-
ferred stock it originally received into other forms of equity, such as common stock           Mandatorily Convertible Preferred
or mandatorily convertible preferred stock (“MCP”).266                                         Stock (“MCP”): A type of preferred
                                                                                               share (ownership in a company that
Capital Purchase Program                                                                       generally entitles the owner of the
Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a            shares to collect dividend payments)
way to promote financial stability, maintain confidence in the financial system, and           that can be converted to common
enable lenders to meet the nation’s credit needs.267 CPP was a voluntary program               stock under certain parameters at the
open by application to qualifying financial institutions, including U.S.-controlled            discretion of the company - and must
banks, savings associations, and certain bank and savings and loan holding                     be converted to common stock by a
companies.268                                                                                  certain time.
    Under CPP, Treasury used TARP funds predominantly to purchase preferred
equity interests in the financial institutions. The institutions issued Treasury senior
preferred shares that pay a 5% annual dividend for the first five years and a 9% an-
nual dividend thereafter. In addition to the senior preferred shares, publicly traded
institutions issued Treasury warrants to purchase common stock with an aggregate
market price equal to 15% of the senior preferred share investment.269 Privately
held institutions issued Treasury warrants to purchase additional senior preferred
stock worth 5% of Treasury’s initial preferred stock investment.270 In total, Treasury         For discussion of SIGTARP’s
invested $204.9 billion of TARP funds in 707 institutions through CPP.271                      recommendations on TARP exit paths
                                                                                               for community banks, see SIGTARP’s
    As of December 31, 2012, 258 of those 707 institutions remained in TARP, 46
                                                                                               October 2011 Quarterly Report, pages
of which Treasury holds only warrants to purchase stock. Treasury does not con-
                                                                                               167-169.
sider these 46 institutions to be in TARP. As of December 31, 2012, 212 of these
institutions remained in the CPP program.272 Of the 495 that have exited CPP,                  For discussion of SIGTARP’s
165, or 33%, did so by refinancing into other government programs — 28 of them                 recommendations issued on October 9,
into TARP’s CDCI and 137 into the Small Business Lending Fund (“SBLF”), a                      2012, regarding CPP preferred stock
non-TARP program.273 Only 196 of the banks that exited, or 40%, fully repaid CPP               auctions, see SIGTARP’s October 2012
otherwise.274 Of the other banks that have exited CPP, three CPP banks merged                  Quarterly Report, pages 180-183.
with other CPP banks; Treasury sold its investments in 109 institutions at a loss;
and 22 institutions or their subsidiary banks failed, meaning Treasury lost its entire
investment in those banks.275
76            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Status of Funds
                                                     According to Treasury, through CPP, Treasury purchased $204.9 billion in
     Subordinated Debentures: Form of                preferred stock and subordinated debentures from 707 institutions in 48 states,
     debt security that ranks below other            the District of Columbia, and Puerto Rico. Although the 10 largest investments
     loans or securities with regard to              accounted for $142.6 billion of the program, CPP made many smaller investments:
     claims on assets or earnings.                   331 of 707 recipients received $10 million or less.276 Table 2.14 shows the
                                                     distribution of investments by amount.

                                                     TABLE 2.14
                                                      CPP INVESTMENT SIZE BY INSTITUTION, AS OF 12/31/2012
                                                                                                                                                  Originala                Outstandingb
                                                      $10 billion or more                                                                                    6                              0
                                                      $1 billion to $10 billion                                                                            19                               0
                                                      $100 million to $1 billion                                                                           57                             11
                                                      Less than $100 million                                                                             625                             201
                                                      Total                                                                                              707                            212
                                                      Notes: Data based on the institutions’ total CPP investments. There are more than 30 institutions that have received multiple
                                                      transactions through CPP.
                                                      a
                                                        These numbers are based on total Treasury CPP investment since 10/28/2008.
                                                      b
                                                        Amount does not include those investments that have already been repaid, sold to a third party at a discount, merged out of the
                                                         CPP portfolio, exchanged their CPP investments for an investment under CDCI, or are related to institutions that filed for bankruptcy
                                                         protection or had a subsidiary bank fail. Figures are based on total investments outstanding. Included in those figures are the six
                                                         banks that were converted to common shares at a discount. The outstanding amount represented is the original par value of the
                                                         investment. Treasury does not include in the number of banks with outstanding CPP investments those institutions that have repaid
                                                         their CPP principal but still have warrants outstanding.

                                                      Source: Treasury, response to SIGTARP data call, 1/9/2013.



                                                          As of December 31, 2012, 212 banks remained in CPP and taxpayers were
                                                     still owed $10.6 billion related to CPP. According to Treasury, it had write-offs and
                                                     realized losses of $3.2 billion in the program, leaving $7.5 billion in TARP funds
                                                     outstanding. According to Treasury, $194.3 billion of the CPP principal (or 94.8%)
                                                     had been repaid as of December 31, 2012. The repayment amount includes $363.3
                                                     million in preferred stock that was converted from CPP investments into CDCI
                                                     and therefore still represents outstanding obligations to TARP, and $2.2 billion that
                                                     was refinanced in 2011 into SBLF, a non-TARP Government program.277 As of
                                                     December 31, 2012, Treasury had received approximately $11.8 billion in interest
                                                     and dividends from CPP recipients. Treasury also had received $7.8 billion through
                                                     the sale of CPP warrants that were obtained from TARP recipients.278 For a com-
                                                     plete list of CPP share repurchases, see Appendix D: “Transaction Detail.”

                                                     Program Administration
                                                     Although Treasury’s investment authority for CPP has ended, Treasury still has
                                                     significant responsibilities for managing the existing CPP portfolio, including the
                                                     following:

                                                     •	 collecting dividends and interest payments on outstanding investments
                                                     •	 monitoring the performance of outstanding investments
                                                     •	 disposing of warrants as investments are repaid
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013                                  77




•	 selling or restructuring Treasury’s investments in some troubled financial               TABLE 2.15
   institutions                                                                              MISSED DIVIDEND/INTEREST
•	 selecting observers for recipients that have missed five quarterly dividend               PAYMENTS BY INSTITUTIONS,
   payments                                                                                  9/30/2009 TO 12/31/2012
                                                                                             ($ MILLIONS)
•	 potentially selecting directors for recipients that have missed six or more
                                                                                                                                           Value of
   quarterly dividend payments                                                               Quarter               Number of                Unpaid
                                                                                             End                   Institutions          Amountsa,b,c
Dividends and Interest                                                                       9/30/2009                           38               $75.7
As of December 31, 2012, Treasury had received $11.8 billion in dividends on its             12/31/2009                          43               137.4
CPP investments.279 However, as of that date, missed payments by 195 institutions            3/31/2010                           67               182.0
totaled approximately $506.2 million, an increase from last quarter’s $480.1                 6/30/2010       d
                                                                                                                               109                209.7
million in missed payments from 199 institutions, as of September 30, 2012. The
                                                                                             9/30/2010                         137                211.3
number of institutions with missed payments decreased for the second consecutive
                                                                                             12/31/2010                        155                276.4
quarter. The decrease is attributable to a number of institutions that exited CPP
                                                                                             3/31/2011                         173                277.3
via restructuring or failure. Approximately $24.9 million of the unpaid amounts
are non-cumulative, meaning that the institution has no legal obligation to pay              6/30/2011                         188                320.8

Treasury unless the institution declares a dividend.280 Table 2.15 shows the number          9/30/2011                         193                356.9
of institutions and total unpaid amount of dividend and interest payments by                 12/31/2011                        197                377.0
quarter from September 30, 2009, to December 31, 2012.                                       3/31/2012                         200                416.0
                                                                                             6/30/2012                         203                455.0
Treasury’s Policy on Missed Dividend and Interest Payments                                   9/30/2012                         199                480.1
According to Treasury, it “evaluates its CPP investments on an ongoing basis with            12/31/2012                        195                506.2
the help of outside advisors, including external asset managers. The external asset          Notes:
managers provide a valuation for each CPP investment” that results in Treasury               a
                                                                                               Includes unpaid cumulative dividends, non-cumulative
                                                                                                dividends, and Subchapter S interest payments but
assigning the institution a credit score.281 For those that have unfavorable credit             does not include interest accrued on unpaid cumulative
                                                                                                dividends.
scores, including any institution that has missed more than three dividend (or               b
                                                                                                  Excludes institutions that missed payments but (i) had
                                                                                                  fully caught up on missed payments at the end of the
interest) payments, Treasury has stated that the “asset manager dedicates more                    quarter reported in column 1 or (ii) had repaid their
                                                                                                  investment amounts and exited CPP.
resources to monitoring the institution and may talk to the institution on a more            c
                                                                                                Includes institutions that missed payments and (i)
frequent basis.”282                                                                             entered into a recapitalization or restructuring with
                                                                                                Treasury, (ii) for which Treasury sold the CPP investment
    Under the terms of the preferred shares or subordinated debentures held by                  to a third party or otherwise disposed of the investment
                                                                                                to facilitate the sale of the institution to a third party
Treasury as a result of its CPP investments, in certain circumstances, such as when             without receiving full repayment of unpaid dividends,
                                                                                                (iii) filed for bankruptcy relief, or (iv) had a subsidiary
a participant misses six dividend (or interest) payments, Treasury has the right to             bank fail.
                                                                                             d
                                                                                                 Includes four institutions and their missed payments
appoint up to two additional members to the institution’s board of directors.283                 not reported in Treasury’s Capital Purchase Program
Treasury has stated that it will prioritize the institutions for which it appoints               Missed Dividends and Interest Payments Report as of
                                                                                                 6/30/2010 but reported in Treasury’s Dividends and
directors based on “the size of its investment, Treasury’s assessment of the extent              Interest Report as of the same date. The four institutions
                                                                                                 are CIT, Pacific Coast National Bancorp, UCBH Holdings,
to which new directors may make a contribution and Treasury’s ability to find                    Inc., and Midwest Banc Holdings, Inc.

appropriate directors for a given institution.”284 These directors will not represent        Sources: Treasury, Dividends and Interest Report,
                                                                                             1/10/2013; Treasury, responses to SIGTARP data calls,
Treasury, but rather will have the same fiduciary duties to shareholders as all other        10/7/2009, 1/12/2010, 4/8/2010, 6/30/2010,
                                                                                             10/11/2011,1/5/2012, 4/5/2012, 7/10/2012,
directors. They will be compensated by the institution in a manner similar to other          10/10/2012, and 1/10/2013; SIGTARP Quarterly Report
directors.285 Treasury has engaged an executive search firm to identify suitable             to Congress, 1/30/2010, 4/20/2010, 7/21/2010, and
                                                                                             10/26/2010.
candidates for board of directors’ positions and has begun interviewing such
candidates.286
    According to Treasury, it continues to prioritize institutions for nominating
directors in part based on whether its investment exceeds $25 million.287 When
Treasury’s right to nominate a new board member becomes effective, it evaluates
78   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            the institution’s condition and health and the functioning of its board to determine
                                            whether additional directors are necessary.288 As of December 31, 2012, Treasury
                                            had made director appointments to the boards of directors of 15 CPP banks, as
                                            noted in Table 2.17.289
                                                Treasury appointed three board members in the quarter ended December
                                            31, 2012, including two to the boards of banks that had no previous Treasury
                                            appointees. According to Treasury, on October 24, 2012, it appointed C. Wayne
                                            Crowell to the board of Intervest Bancshares Corporation, New York, New York,
                                            (“Intervest”).290 Intervest received $25 million under CPP and had missed 12
                                            quarterly dividend payments prior to the director appointment.291 Treasury had
                                            previously appointed Susan Roth Katzke to Intervest’s board on March 23, 2012.292
                                            According to Treasury, on November 8, 2012, it appointed Duane Suits to the
                                            board of Old Second Bancorp, Inc., Aurora, Illinois, (“Old Second”).293 Old Second
                                            received $73 million under CPP and had missed nine quarterly dividend payments
                                            prior to the director appointment.294 According to Treasury, on December 14, 2012,
                                            it appointed P. David Kuhl to the board of Northern States Financial Corporation,
                                            Waukegan, Illinois, (“Northern States”).295 Northern States received $17.2 million
                                            under CPP and had missed 13 quarterly dividend payments prior to the director
                                            appointment.296
                                                For institutions that miss five or more dividend (or interest) payments, Treasury
                                            has stated that it would seek consent from such institutions to send observers to
                                            the institutions’ board meetings.297 According to Treasury, the observers would be
                                            selected from the Office of Financial Stability (“OFS”) and assigned to “gain a
                                            better understanding of the institution’s condition and challenges and to observe
                                            how the board is addressing the situation.”298 Their participation would be “limited
                                            to inquiring about distributed materials, presentations, and actions proposed or
                                            taken during the meetings, as well as addressing any questions concerning” their
                                            role.299 The findings of the observers are taken into account when Treasury evalu-
                                            ates whether to appoint individuals to an institution’s board of directors.300 As of
                                            December 31, 2012, Treasury had assigned observers to 48 current CPP recipients,
                                            as noted in Table 2.17.301
                                                Twelve banks have rejected Treasury’s requests to send an observer to the
                                            institutions’ board meetings.302 The banks had initial CPP investments of as much
                                            as $27 million, have missed as many as 16 quarterly dividend payments to Treasury,
                                            and have been overdue in dividend payments by as much as $4.1 million.303 Three
                                            of these banks have subsequently repaid their missed dividends.304 Treasury is
                                            currently owed $8.6 million in missed payments from the other nine banks that
                                            have missed from five to 16 payments.305 Table 2.16 lists the banks that rejected
                                            Treasury observers.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013                                     79




TABLE 2.16
 CPP BANKS THAT REJECTED TREASURY OBSERVERS 
                                                                   CPP Principal                 Number of                 Value of Missed            Date of Treasury                           Date
 Institution                                                         Investment            Missed Payments                       Payments                      Request                    of Rejection
 Intermountain Community Bancorp                                     $27,000,000                                —a                             —               3/11/2011                    4/12/2011
 Community Bankers Trust Corporation                                   17,680,000                               —   b
                                                                                                                                               —             10/18/2011                    11/23/2011
 White River Bancshares Company                                        16,800,000                                  8               1,831,200                   3/28/2012                    4/27/2012
 Timberland Bancorp, Inc.         c
                                                                       16,641,000                               —   d
                                                                                                                                               —               6/27/2011                    8/18/2011
 Alliance Financial Services Inc.                                      12,000,000                                12                3,020,400                   3/10/2011                      5/6/2011
 Central Virginia Bankshares, Inc.         e
                                                                       11,385,000                                12                1,707,750                     3/9/2011                   5/18/2012
 Commonwealth Business Bank                                              7,701,000                               10                1,049,250                   8/13/2010                    9/20/2010
 Pacific International Bancorp                                           6,500,000                               10                   812,500                  9/23/2010                   11/17/2010
 Rising Sun Bancorp                                                      5,983,000                               13                1,059,695                   12/3/2010                    2/28/2011
 Omega Capital Corp.                                                     2,816,000                               13                   498,843                  12/3/2010                    1/13/2011
 Citizens Bank & Trust Company                                           2,400,000                                 5                  163,500                  9/23/2010                   11/17/2010
 Saigon National Bank                                                    1,549,000                               16                   328,613                  8/13/2010                    9/20/2010
 Notes: Numbers may not total due to rounding.
 a
   Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment Intermountain Community Bancorp had 12 missed payments totaling
   $4.1 million.
 b
     Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Community Bankers had seven missed payments totaling $1.5 million.
 c
    Bank has exited the Capital Purchase Program.
 d
    Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Timberland had eight missed payments totaling $1.7 million.
 e
    Banks accepted and then declined Treasury’s request to have a Treasury observer attend board of directors meetings.

 Source: Treasury, Dividends and Interest Report, 1/10/2013.



    SIGTARP and Treasury do not use the same methodology to report unpaid
dividend and interest payments. For example, Treasury generally excludes institu-
tions from its “non-current” reporting: (i) that have completed a recapitalization,
restructuring, or exchange with Treasury (though Treasury does report such institu-
tions as non-current during the pendency of negotiations); (ii) for which Treasury
sold the CPP investment to a third party, or otherwise disposed of the investment
to facilitate the sale of the institution to a third party; (iii) that filed for bankruptcy
relief; or (iv) that had a subsidiary bank fail.306 SIGTARP generally includes such
activity in Table 2.17 under “Value of Unpaid Amounts” with the value set as of
the date of the bankruptcy, restructuring, or other event that relieves the institu-
tion of the legal obligation to continue to make dividend and interest payments. If
a completed transaction resulted in payment to Treasury for all unpaid dividends
and interest, SIGTARP does not include the institution’s obligations under unpaid
amounts. SIGTARP, unlike Treasury, does not include in its table institutions that
have “caught up” by making previously missed dividend and interest payments.307
According to Treasury, as of December 31, 2012, 131 banks had missed at least six
dividend (or interest) payments (the same as last quarter) and 12 banks had missed
five dividend (or interest) payments totaling $10.4 million.308 Table 2.17 lists CPP
recipients that had unpaid dividend (or interest) payments as of December 31,
2012. For a complete list of CPP recipients and institutions making dividend or
interest payments, see Appendix D: “Transaction Detail.”
80             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     TABLE 2.17
      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2012
                                                                                        Observers
                                                                            Number       Assigned
                                               Dividend or                 of Missed   to Board of   Value of Missed        Value of Unpaid
      Company                                  Payment type                Payments     Directors1        Payments2             Amounts2,3,4
      Saigon National Bank                     Non-Cumulative                    16                        $328,613                $328,613
      Anchor BanCorp Wisconsin, Inc.           Cumulative                        15        n             20,854,167              20,854,167
      Blue Valley Ban Corp                     Cumulative                        15        n              4,078,125               4,078,125
      Lone Star Bank                           Non-Cumulative                    15        ü                632,162                 632,162
      OneUnited Bank                           Non-Cumulative                    15        ü              2,261,813               2,261,813
      United American Bank                     Non-Cumulative                    15                       1,771,477               1,771,477
      Centrue Financial Corporation            Cumulative                        14        n              5,716,900               5,716,900
      Dickinson Financial Corporation II       Cumulative                        14        ü             27,859,720              27,859,720
      First Banks, Inc.                        Cumulative                        14        n             56,347,550              56,347,550
      Grand Mountain Bancshares, Inc.          Cumulative                        14        ü                580,290                 580,290
      Idaho Bancorp                            Cumulative                        14        ü              1,316,175               1,316,175
      Pacific City Financial Corporation       Cumulative                        14                       3,090,150               3,090,150
      Royal Bancshares of Pennsylvania, Inc.   Cumulative                        14        n              5,321,225               5,321,225
      Georgia Primary Bank                     Non-Cumulative                    14        ü                867,913                 867,913
      Premier Service Bank                     Non-Cumulative                    14        ü                759,972                 759,972
      Citizens Commerce Bancshares, Inc.       Cumulative                        13                       1,115,888               1,115,888
      FC Holdings, Inc.                        Cumulative                        13        ü              3,727,035               3,727,035
      Northern States Financial Corporation    Cumulative                        13        n              2,796,788               2,796,788
      Omega Capital Corp.                      Cumulative                        13                         498,843                 498,843

      Pathway Bancorp                          Cumulative                        13                         660,043                 660,043
      Premierwest Bancorp                      Cumulative                        13        n              6,727,500               6,727,500
      Ridgestone Financial Services, Inc.      Cumulative                        13        ü              1,930,663               1,930,663
      Rising Sun Bancorp                       Cumulative                        13                       1,059,695               1,059,695
      Rogers Bancshares, Inc.                  Cumulative                        13        n              4,428,125               4,428,125
      Syringa Bancorp                          Cumulative                        13        ü              1,417,000               1,417,000
      BNCCORP, Inc.                            Cumulative                        12        ü              3,285,300               3,285,300
      Cecil Bancorp, Inc.                      Cumulative                        12        ü              1,734,000               1,734,000
      Central Virginia Bankshares, Inc.        Cumulative                        12                       1,707,750               1,707,750
      Citizens Bancshares Co. (MO)             Cumulative                        12        n              4,086,000               4,086,000
      Citizens Republic Bancorp, Inc.          Cumulative                        12        n             45,000,000              45,000,000
      City National Bancshares Corporation     Cumulative                        12                       1,415,850               1,415,850

      Fidelity Federal Bancorp                 Cumulative                        12                       1,054,499               1,054,499
      First Security Group, Inc.               Cumulative                        12        n              4,950,000               4,950,000
                                                                                                                       Continued on next page
                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013              81




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2012               (CONTINUED)

                                                                     Observers
                                                         Number       Assigned
                                       Dividend or      of Missed   to Board of        Value of Missed           Value of Unpaid
Company                                Payment type     Payments     Directors1             Payments2                Amounts2,3,4
First Southwest Bancorporation, Inc.   Cumulative             12                                $899,250                $899,250
Intervest Bancshares Corporation       Cumulative             12        n                       3,750,000              3,750,000
Monarch Community Bancorp, Inc.        Cumulative             12                                1,017,750              1,017,750
Tennessee Valley Financial Holdings,
                                       Cumulative             12                                 490,500                  490,500
Inc.
First Sound Bank                       Non-Cumulative         12                                1,110,000              1,110,000
U.S. Century Bank                      Non-Cumulative         12        ü                       8,213,640              8,213,640
Alliance Financial Services, Inc.*     Interest               12                                3,020,400              3,020,400
Bridgeview Bancorp, Inc.               Cumulative             11        n                       5,695,250              5,695,250
Madison Financial Corporation          Cumulative             11                                 505,203                  505,203
Northwest Bancorporation, Inc.         Cumulative             11        ü                       1,573,688              1,573,688
Patapsco Bancorp, Inc.                 Cumulative             11                                 899,250                  899,250
Plumas Bancorp                         Cumulative             11        ü                       1,642,988              1,642,988
Prairie Star Bancshares, Inc.          Cumulative             11                                 419,650                  419,650

Premier Bank Holding Company           Cumulative             11                                1,423,813              1,423,813
Stonebridge Financial Corp.            Cumulative             11        ü                       1,644,665              1,644,665
TCB Holding Company                    Cumulative             11        ü                       1,758,158              1,758,158
Gold Canyon Bank                       Non-Cumulative         11                                 232,843                  232,843

Goldwater Bank, N.A.**                 Non-Cumulative         11                                 454,740                  384,780

Midtown Bank & Trust Company**         Non-Cumulative         11                                 853,770                  782,623

Santa Clara Valley Bank, N.A.          Non-Cumulative         11                                 434,638                  434,638
First Trust Corporation *
                                       Interest               11        n                       4,145,727              4,145,727
1st FS Corporation                     Cumulative             10        ü                       2,046,125              2,046,125
BNB Financial Services Corporation     Cumulative             10                                1,021,875              1,021,875

Capital Commerce Bancorp, Inc.         Cumulative             10                                 694,875                  694,875

Harbor Bankshares Corporation**        Cumulative             10                                1,020,000                 850,000

Market Bancorporation, Inc.            Cumulative             10                                 280,675                  280,675

Pacific International Bancorp Inc      Cumulative             10                                 812,500                  812,500

Pinnacle Bank Holding Company          Cumulative             10                                 597,900                  597,900

Provident Community Bancshares, Inc.   Cumulative             10                                1,158,250              1,158,250
The Queensborough Company              Cumulative             10        ü                       1,635,000              1,635,000
Western Community Bancshares, Inc.     Cumulative             10                                 993,375                  993,375
                                                                                                            Continued on next page
82            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2012                            (CONTINUED)

                                                                                       Observers
                                                                           Number       Assigned
                                            Dividend or                   of Missed   to Board of        Value of Missed           Value of Unpaid
     Company                                Payment type                  Payments     Directors1             Payments2                Amounts2,3,4
     Commonwealth Business Bank             Non-Cumulative                      10                            $1,049,250                $1,049,250

     Boscobel Bancorp, Inc       *
                                            Interest                            10                                1,171,560              1,171,560

     Premier Financial Corp      *
                                            Interest                            10                                1,331,548              1,331,548

     CalWest Bancorp                        Cumulative                           9                                 570,983                 570,983

     CSRA Bank Corp.                        Cumulative                           9                                 294,300                 294,300
     First Financial Service Corporation    Cumulative                           9        ü                       2,250,000              2,250,000
     First United Corporation               Cumulative                           9        ü                       3,375,000              3,375,000
     Florida Bank Group, Inc.               Cumulative                           9        ü                       2,510,348              2,510,348
     Liberty Shares, Inc.                   Cumulative                           9        ü                       2,118,960              2,118,960
     Old Second Bancorp, Inc.               Cumulative                           9       n,ü                      8,212,500              8,212,500
     Private Bancorporation, Inc.           Cumulative                           9                                 975,195                 975,195

     Regent Bancorp, Inc    **
                                            Cumulative                           9                                1,360,025              1,224,023
     Spirit BankCorp, Inc.                  Cumulative                           9        ü                       3,678,750              3,678,750
     Tidelands Bancshares, Inc              Cumulative                           9        ü                       1,625,400              1,625,400
     Marine Bank & Trust Company            Non-Cumulative                       9                                 367,875                 367,875

     Pacific Commerce Bank**                Non-Cumulative                       9                                 529,819                 474,501

     Great River Holding Company*           Interest                             9                                1,585,710              1,585,710
     Bank of the Carolinas Corporation      Cumulative                           8        ü                       1,317,900              1,317,900
     Coastal Banking Company, Inc.          Cumulative                           8                                 995,000                 995,000
     Eastern Virginia Bankshares, Inc.      Cumulative                           8        ü                       2,400,000              2,400,000
     Greer Bancshares Incorporated          Cumulative                           8                                1,089,300              1,089,300
     HCSB Financial Corporation             Cumulative                           8        ü                       1,289,500              1,289,500
     Highlands Independent Bancshares,
                                            Cumulative                           8                                 730,300                 730,300
     Inc.
     HMN Financial, Inc.                    Cumulative                           8        ü                       2,600,000              2,600,000
     National Bancshares, Inc.              Cumulative                           8        ü                       2,688,340              2,688,340
     Patriot Bancshares, Inc.               Cumulative                           8        ü                       2,838,160              2,838,160
     Reliance Bancshares, Inc.              Cumulative                           8        ü                       4,360,000              4,360,000
     SouthCrest Financial Group, Inc.       Cumulative                           8        ü                       1,406,100              1,406,100
     White River Bancshares Company         Cumulative                           8                                1,831,200              1,831,200
     Security State Bank Holding-Company*   Interest                             8        ü                       2,480,484              1,803,988
     AB&T Financial Corporation             Cumulative                           7                                 306,250                 306,250

     Atlantic Bancshares, Inc.              Cumulative                           7                                 190,435                 190,435
                                                                                                                              Continued on next page
                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013              83




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2012                 (CONTINUED)

                                                                       Observers
                                                           Number       Assigned
                                         Dividend or      of Missed   to Board of        Value of Missed           Value of Unpaid
Company                                  Payment type     Payments     Directors1             Payments2                Amounts2,3,4
BCB Holding Company, Inc.                Cumulative              7                                $162,663                $162,663

Carrollton Bancorp                       Cumulative              7                                 805,088                  805,088
Central Bancorp, Inc.                    Cumulative              7        ü                       2,145,938              2,145,938
CoastalSouth Bancshares, Inc.            Cumulative              7        ü                       1,476,913              1,476,913
Community First, Inc.                    Cumulative              7        ü                       1,698,200              1,698,200
Mid-Wisconsin Financial Services, Inc.   Cumulative              7        ü                        953,750                  953,750
Village Bank and Trust Financial Corp.   Cumulative              7        ü                       1,289,575              1,289,575
Bank of George                           Non-Cumulative          7                                 254,905                  254,905

Valley Community Bank                    Non-Cumulative          7                                 524,563                  524,563

Community Pride Bank Corporation*        Interest                7                                 624,778                  624,778
Suburban Illinois Bancorp, Inc.*         Interest                7        ü                       2,202,375              2,202,375
Allied First Bancorp, Inc.               Cumulative              6                                 298,605                  298,605
Coloeast Bankshares, Inc.                Cumulative              6        ü                        817,500                  817,500
NCAL Bancorp                             Cumulative              6        ü                        817,500                  817,500
RCB Financial Corporation                Cumulative              6                                 703,680                  703,680
Standard Bancshares, Inc.                Cumulative              6        ü                       4,905,000              4,905,000
First Intercontinental Bank              Non-Cumulative          6                                 523,050                  523,050

Brogan Bankshares, Inc.*                 Interest                6                                 302,040                  302,040

Delmar Bancorp                           Cumulative              5                                 613,125                  613,125

First Reliance Bancshares, Inc.          Cumulative              5                                1,045,600              1,045,600

Indiana Bank Corp.                       Cumulative              5                                  89,425                   89,425

Porter Bancorp, Inc.                     Cumulative              5                                2,187,500              2,187,500

Citizens Bank & Trust Company            Non-Cumulative          5                                 163,500                  163,500

Northwest Commercial Bank                Non-Cumulative          5                                 135,750                  135,750

Randolph Bank & Trust Company            Non-Cumulative          5                                 424,300                  424,300

Alarion Financial Services, Inc.         Cumulative              4                                 355,040                  355,040

Carolina Bank Holdings, Inc.  **
                                         Cumulative              4                                1,200,000                 800,000

Colony Bankcorp, Inc.                    Cumulative              4                                1,400,000              1,400,000

Flagstar Bancorp, Inc.                   Cumulative              4                            13,332,850                13,332,850

SouthFirst Bancshares, Inc.              Cumulative              4                                 150,420                  150,420

Worthington Financial Holdings, Inc.     Cumulative              4                                 148,240                  148,240
                                                                                                              Continued on next page
84            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2012                                (CONTINUED)

                                                                                           Observers
                                                                               Number       Assigned
                                                             Dividend or      of Missed   to Board of        Value of Missed           Value of Unpaid
     Company                                                 Payment type     Payments     Directors1             Payments2                Amounts2,3,4
     Maryland Financial Bank                                 Non-Cumulative          4                                 $92,650                 $92,650

     US Metro Bank   **
                                                             Non-Cumulative          4                                 237,778                 155,920

     BancTrust Financial Group, Inc.                         Cumulative              3                                1,875,000              1,875,000

     Severn Bancorp, Inc.                                    Cumulative              3                                 877,238                 877,238

     OneFinancial Corporation                                Interest                3                                1,052,999              1,052,999

     Plato Holdings Inc.    *
                                                             Interest                3                                 155,450                 155,450
     Farmers & Merchants Bancshares,
                                                             Cumulative              2                                 449,625                 299,750
     Inc.**
     Ojai Community Bank                                     Non-Cumulative          2                                  56,680                  56,680

     Riverside Bancshares, Inc.           *
                                                             Interest                2                                  46,145                  46,145

     IA Bancorp, Inc.**                                      Cumulative              1                                 207,316                  78,728

     Virginia Company Bank                                   Non-Cumulative          1                                  61,968                  61,968
     Exchanges, Sales,
     Recapitalizations, and Failed                                                                                                                     
     Banks with Missing Payments
     Independent Bank Corporation***,9                       Cumulative             11        ü                   11,403,021                 9,603,021
     Investors Financial Corporation of
                                                             Interest               11                                 922,900                 922,900
     Pettis County, Inc.*,****
     Broadway Financial Corporation***                       Cumulative             10        ü                       1,875,000              1,875,000
     Citizens Bancorp     ****
                                                             Cumulative              9                                1,275,300              1,275,300

     Gregg Bancshares, Inc.****                              Cumulative              9                                 101,115                 101,115

     Central Federal Corporation*****                        Cumulative              8                                 722,500                 722,500

     One Georgia Bank****                                    Non-Cumulative          8                                 605,328                 605,328

     Cascade Financial Corporation               *****
                                                             Cumulative              7                                3,409,875              3,409,875

     Integra Bank Corporation            ****
                                                             Cumulative              7                                7,313,775              7,313,775
     Metropolitan Bank Group, Inc.              ***
                                                             Cumulative              7        ü                   10,197,138                 7,273,533
     Princeton National Bancorp, Inc.                 ****
                                                             Cumulative              7                                2,194,763              2,194,763

     Naples Bancorp, Inc.        *****
                                                             Cumulative              6                                 327,000                 327,000

     FPB Bancorp, Inc. (FL)****                              Cumulative              6                                 435,000                 435,000

     Fort Lee Federal Savings Bank****                       Non-Cumulative          6                                 106,275                 106,275

     Central Pacific Financial Corp.***,9                    Cumulative              6                            11,812,500                         —

     FNB United Corp.     ***
                                                             Cumulative              6                                3,862,500                      —
                                                                                                                                  Continued on next page
                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013              85




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2012                                 (CONTINUED)

                                                                                       Observers
                                                                           Number       Assigned
                                                         Dividend or      of Missed   to Board of        Value of Missed           Value of Unpaid
Company                                                  Payment type     Payments     Directors1             Payments2                Amounts2,3,4
First Place Financial Corp.****                          Cumulative              6                            $5,469,525                $5,469,525
First Federal Bancshares of Arkansas,
                                                         Cumulative              5                                1,031,250              1,031,250
Inc.*****
Pacific Capital Bancorp***,9                             Cumulative              5                            13,547,550                         —

First BanCorp (PR)   ***
                                                         Cumulative              5                            42,681,526                         —

GulfSouth Private Bank****                               Non-Cumulative          5                                 494,063                  494,063
First Community Bank Corporation of
                                                         Cumulative              4                                 534,250                  534,250
America*****
Green Bankshares, Inc.*****                              Cumulative              4                                3,613,900              3,613,900

Community Bank of the Bay6                               Non-Cumulative          4                                  72,549                   72,549

Santa Lucia Bancorp        *****
                                                         Cumulative              4                                 200,000                  200,000

TIB Financial Corp *****,7
                                                         Cumulative              4                                1,850,000              1,850,000

The Bank of Currituck*****                               Non-Cumulative          4                                 219,140                  219,140
The Connecticut Bank and Trust
                                                         Non-Cumulative          4                                 246,673                  246,673
Company*****
CB Holding Corp.****                                     Cumulative              4                                 224,240                  224,240

Pierce County Bancorp****                                Cumulative              4                                 370,600                  370,600

Hampton Roads Bankshares, Inc.                 ***,9
                                                         Cumulative              4                                4,017,350              4,017,350

Sterling Financial Corporation (WA)              ***,9
                                                         Cumulative              4                            18,937,500                18,937,500

Community Financial Shares, Inc.               ***
                                                         Cumulative              4                                 759,820                  417,901

Midwest Banc Holdings, Inc.5                             Cumulative              5                                4,239,200              4,239,200

Treaty Oak Bancorp, Inc.*****                            Cumulative              3                                 135,340                  135,340

Blue River Bancshares, Inc.          ****
                                                         Cumulative              3                                 204,375                  204,375

Legacy Bancorp, Inc.       ****
                                                         Cumulative              3                                 206,175                  206,175

Sonoma Valley Bancorp         ****
                                                         Cumulative              3                                 353,715                  353,715

Superior Bancorp Inc.****                                Cumulative              3                                2,587,500              2,587,500

Commerce National Bank*****                              Non-Cumulative          3                                 150,000                  150,000
Tennessee Commerce Bancorp,
                                                         Cumulative              3                                1,125,000              1,125,000
Inc.****
The South Financial Group, Inc.*****,7                   Cumulative              3                            13,012,500                13,012,500

Carolina Trust Bank   *****
                                                         Non-Cumulative          3                                 150,000                  150,000

Community West Bancshares              *****
                                                         Cumulative              3                                 585,000                  585,000
                                                                                                                              Continued on next page
86                SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 12/31/2012                                                                        (CONTINUED)

                                                                                                                            Observers
                                                                                                        Number               Assigned
                                                                   Dividend or                         of Missed           to Board of                   Value of Missed                     Value of Unpaid
     Company                                                       Payment type                        Payments             Directors1                        Payments2                          Amounts2,3,4
     Bank of Commerce*****                                         Non-Cumulative                                   3                                             $122,625                             $122,625

     The Baraboo Bancorporation, Inc.                      *****
                                                                   Cumulative                                       2                                               565,390                              565,390

     First Alliance Bancshares, Inc.               *****
                                                                   Cumulative                                       2                                                 93,245                              93,245

     FBHC Holding Company*,*****                                   Interest                                         2                                               123,127                              123,127

     CIT Group Inc.****,8                                          Cumulative                                       2                                          29,125,000                           29,125,000

     Colonial American Bank              *****
                                                                   Non-Cumulative                                   2                                                 15,655                              15,655

     Pacific Coast National Bancorp                 ****
                                                                   Cumulative                                       2                                               112,270                              112,270

     Gateway Bancshares, Inc.               ****
                                                                   Cumulative                                       2                                               163,500                              163,500

     Fresno First Bank***                                          Non-Cumulative                                   2                                                 33,357                              33,357

     Cadence Financial Corporation*****                            Cumulative                                       2                                               550,000                              550,000

     UCBH Holdings, Inc.          ****
                                                                   Cumulative                                       1                                            3,734,213                            3,734,213

     Tifton Banking Company               ****
                                                                   Non-Cumulative                                   1                                                 51,775                              51,775

     Exchange Bank        *****
                                                                   Non-Cumulative                                   1                                               585,875                              585,875
     Total                                                                                                                                                $585,081,392                        $506,172,548
     Notes: Numbers may not total due to rounding. Approximately $24.9 million of the $506.2 million in unpaid CPP dividend/interest payments are non-cumulative and Treasury has no legal right to missed
     dividends that are non-cumulative.

     * Missed interest payments occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
     ** Partial payments made after the due date.
     *** Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments normally continue to accrue. For an exchange of
     mandatorily preferred stock for common stock, no additional preferred dividend payments will accrue.
     **** Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue. For bank failures,
     Treasury may elect to file claims with bank receivers to collect current and/or future unpaid dividends.
     ***** Treasury sold or is selling its CPP investment to the institution or a third party. No additional preferred dividend payments will accrue after a sale, absent an agreement to the contrary.

     n   Treasury has appointed one or more directors to the Board of Directors.

     1
       F or First BanCorp and Pacific Capital Bancorp, Treasury had a contractual right to assign an observer to the board of directors. For the remainder, Treasury obtained consent from the institution to assign
                an observer to the board of directors.
     2
        Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
     3
         Excludes institutions that missed payments but (i) have fully caught-up or exchanged new securities for missed payments, or (ii) have repaid their investment amounts and exited the Capital Purchase
                Program.
     4
          Includes institutions that missed payments and (i) completed an exchange with Treasury for new securities, (ii) purchased their CPP investment from Treasury, or saw a third party purchase its CPP
                investment from Treasury, or (iii) are in, or have completed bankruptcy proceedings or its subsidiary bank failed.
     5
           For Midwest Banc Holdings, Inc., the number of missed payments is the number last reported from SIGTARP Quarterly Report to Congress 4/20/2010, prior to bankruptcy filing; missed payment
                amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
     6
            Treasury reported four missed payments by Community Bank of the Bay before it was allowed to transfer from CPP to CDCI. Upon transfer, Treasury reset the number of missed payments to zero.
     7
             For South Financial Group, Inc. and TIB Financial Corp, the number of missed payments and unpaid amounts reflect figures Treasury reported prior to the sale.
     8
              For CIT Group Inc., the number of missed payments is from the number last reported from SIGTARP Quarterly Report to Congress 1/30/2010, shortly after the bankruptcy filing; missed payment
                amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
     9
               Completed exchanges:
                - The exchange between Treasury and Hampton Roads, and the exchange between Treasury and Sterling Financial did not account for unpaid dividends. The number of missed payments and unpaid
                amounts reflect the figures Treasury reported prior to the exchange.
                - The exchange between Treasury and Central Pacific Financial Corp., and the exchange between Treasury and Pacific Capital Bancorp did account for unpaid dividends, thereby eliminating any unpaid
                amounts. The number of missed payments reflects the amount Treasury reported prior to the exchange.

     Sources: Treasury, Dividends and Interest Report, 1/10/2013; Treasury, responses to SIGTARP data call, 1/7/2011, 4/6/2011, 7/8/2011, 10/11/2011, 1/10/2012, 4/5/2012, 7/10/2012,
     10/4/2012, 1/10/2013; SIGTARP Quarterly Report to Congress, 1/30/2010, 4/20/2010, 4/28/2011, 7/28/2011, 10/27/2011, 1/25/2012, 4/25/2012, 7/25/2012, 10/25/2012.
                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   87




CPP Recipients: Bankrupt or with Failed Subsidiary Banks
Despite Treasury’s stated goal of limiting CPP investments to “healthy, viable
institutions,” as of December 31, 2012, 22 CPP participants had gone bankrupt or
had a subsidiary bank fail, including four this quarter, as indicated in Table 2.18.309

Closure of GulfSouth Private Bank
On September 25, 2009, Treasury invested $7.5 million in GulfSouth Private Bank,
Destin, Florida, (“GulfSouth”) through CPP in return for preferred stock and war-
rants.310 On October 19, 2012, the Florida Office of Financial Regulation closed
GulfSouth and named the Federal Deposit Insurance Corporation (“FDIC”) as
receiver.311 FDIC entered into a purchase and assumption agreement with Smart-
Bank, Pigeon Forge, Tennessee, to assume all of GulfSouth’s deposits.312 FDIC
estimates that the cost of GulfSouth’s failure to the deposit insurance fund will be
$36.1 million. All of Treasury’s investment in GulfSouth is expected to be lost.313

Closure of Excel Bank
On May 8, 2009, Treasury invested $4 million in Investors Financial Corporation
of Pettis County, Inc., Sedalia, Missouri, (“Investors Financial”) through CPP in
return for preferred stock and warrants.314 On October 19, 2012, the Missouri
Division of Finance closed the subsidiary bank of Investors Financial, Excel Bank,
Sedalia, Missouri, (“Excel Bank”), and named FDIC as receiver.315 FDIC entered
into a purchase and assumption agreement with Simmons First National Bank,
Pine Bluff, Arkansas, to assume all of Excel Bank’s deposits.316 FDIC estimates that
the cost of Excel Bank’s failure to the deposit insurance fund will be $40.9 million.
All of Treasury’s investment in Investors Financial is expected to be lost.317

Closure of Citizens First National Bank
On January 23, 2009, Treasury invested $25.1 million in Princeton National
Bancorp, Inc., Princeton, Illinois, (“Princeton National”) through CPP in return for
preferred stock and warrants.318 On November 2, 2012, the Office of the Comp-
troller of the Currency (“OCC”) closed the subsidiary bank of Princeton National,
Citizens First National Bank, Princeton, Illinois, (“Citizens First National”), and
named FDIC as receiver.319 FDIC entered into a purchase and assumption agree-
ment with Heartland Bank and Trust Company, Bloomington, Illinois, to assume
all of Citizens First National’s deposits.320 FDIC estimates that the cost of Citizens
First National’s failure to the deposit insurance fund will be $45.2 million. All of
Treasury’s investment in Princeton National is expected to be lost.321

Bankruptcy of First Place Financial Corp.
On March 13, 2009, Treasury invested $72.9 million in First Place Financial
Corp., Warren, Ohio, (“First Place Financial”) through CPP in return for preferred
stock and warrants.322 On October 29, 2012, First Place Bank filed for Chapter 11
bankruptcy in Delaware.323 According to Treasury, while it will continue to monitor
the matter while the bankruptcy is still open, it expects that there are not sufficient
funds in the estate to repay Treasury’s investment.324
88             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     TABLE 2.18
      CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 12/31/2012                                 ($ MILLIONS)

                                                Initial
                                             Invested     Investment                                             Bankruptcy/
      Company                                 Amount            Date                                   Status    Failure Datea         Subsidiary Bank
                                                                        Bankruptcy proceedings completed
                                                                             with no recovery of Treasury’s                                    CIT Bank,
      CIT Group Inc., New York, NY          $2,330.0      12/31/2008                                                11/1/2009
                                                                       investment; subsidiary bank remains                             Salt Lake City, UT
                                                                                                     active
      UCBH Holdings Inc.,                                                                                                             United Commercial
                                                298.7     11/14/2008   In bankruptcy; subsidiary bank failed        11/6/2009
      San Francisco, CA                                                                                                          Bank, San Francisco, CA
                                                                           Bankruptcy proceedings completed
      Pacific Coast National Bancorp,                                                                                              Pacific Coast National
                                                   4.1     1/16/2009            with no recovery of Treasury’s    11/13/2009
      San Clemente, CA                                                                                                           Bank, San Clemente, CA
                                                                            investment; subsidiary bank failed
                                                                                                                                 Midwest Bank and Trust
      Midwest Banc Holdings, Inc.,
                                                89.4b      12/5/2008   In bankruptcy; subsidiary bank failed        5/14/2010                Company,
      Melrose Park, IL
                                                                                                                                      Elmwood Park, IL
      Sonoma Valley Bancorp,                                                                                                        Sonoma Valley Bank,
                                                   8.7     2/20/2009                    Subsidiary bank failed      8/20/2010
      Sonoma, CA                                                                                                                          Sonoma, CA
                                                                                                                                      Pierce Commercial
      Pierce County Bancorp, Tacoma, WA            6.8     1/23/2009                    Subsidiary bank failed      11/5/2010
                                                                                                                                      Bank, Tacoma, WA
      Tifton Banking Company, Tifton, GA           3.8     4/17/2009                                    Failed    11/12/2010                         N/A
                                                                                                                                           Legacy Bank,
      Legacy Bancorp, Inc., Milwaukee, WI          5.5     1/30/2009                    Subsidiary bank failed      3/11/2011
                                                                                                                                           Milwaukee, WI
      Superior Bancorp, Inc.,                                                                                                             Superior Bank,
                                                 69.0      12/5/2008                    Subsidiary bank failed      4/15/2011
      Birmingham, AL                                                                                                                     Birmingham, AL
      Integra Bank Corporation,                                                                                                            Integra Bank,
                                                 83.6      2/27/2009                    Subsidiary bank failed      7/29/2011
      Evansville, IN                                                                                                                       Evansville, IN
      One Georgia Bank, Atlanta, GA                5.5      5/8/2009                                    Failed      7/15/2011                        N/A
                                                                                                                                     First Peoples Bank,
      FPB Bancorp, Port Saint Lucie, FL            5.8     12/5/2008                    Subsidiary bank failed      7/15/2011
                                                                                                                                     Port Saint Lucie, FL
                                                                                                                                        Citizens Bank of
      Citizens Bancorp, Nevada City, CA          10.4     12/23/2008                    Subsidiary bank failed      9/23/2011        Northern California,
                                                                                                                                        Nevada City, CA
      CB Holding Corp., Aledo, IL                  4.1     5/29/2009                    Subsidiary bank failed    10/14/2011      Country Bank, Aledo, IL
      Tennessee Commerce Bancorp, Inc.,                                                                                            Tennessee Commerce
                                                 30.0     12/19/2008                    Subsidiary bank failed      1/27/2012
      Franklin, TN                                                                                                                     Bank, Franklin, TN
      Blue River Bancshares, Inc.,                                                                                                           SCB Bank,
                                                   5.0      3/6/2009                    Subsidiary bank failed      2/10/2012
      Shelbyville, IN                                                                                                                      Shelbyville, IN
      Fort Lee Federal Savings Bank                1.3     5/22/2009                                    Failed      4/20/2012                        N/A
                                                                                                                                 Continued on next page
                                                                                                                      QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013                                    89




CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 12/31/2012                                                                     ($ MILLIONS) (CONTINUED)

                                                         Initial
                                                      Invested         Investment                                                               Bankruptcy/
Company                                                Amount                Date                                                Status         Failure Datea                 Subsidiary Bank
                                                                                                                                                                       Glasgow Savings Bank,
Gregg Bancshares, Inc.                                      $0.9       2/13/2009                              Subsidiary bank failed               7/13/2012
                                                                                                                                                                                Glasgow, MO
GulfSouth Private Bank                                       7.5       9/25/2009                                                   Failed         10/19/2012                                    N/A
Investors Financial Corporation of                                                                                                                                                    Excel Bank,
                                                             4.0         5/8/2009                                                  Failed         10/19/2012
Pettis County, Inc.                                                                                                                                                                   Sedalia, MO
                                                                                                                                                                                First Place Bank,
First Place Financial Corporation                           72.9       3/13/2009                                         In bankruptcy            10/29/2012
                                                                                                                                                                                      Warren, OH
                                                                                                                                                                         Citizens First National
Princeton National Bancorp                                  25.1       1/23/2009                              Subsidiary bank failed               11/2/2012
                                                                                                                                                                        Bank, Princeton, Illinois
Total                                             $3,072.10
Notes: Numbers may not total due to rounding.
a
  Date is the earlier of the bankruptcy filing by holding company or the failure of subsidiary bank.
b
  The amount of Treasury’s investment prior to bankruptcy was $89,874,000. On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for
   $89,388,000 of MCP, which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.

Sources: Treasury, Transactions Report, 12/28/2012; Treasury, response to SIGTARP data call, 1/9/2013; FDIC, “Failed Bank List,” no date, www.fdic.gov/bank/individual/failed/banklist.html, accessed
1/2/2013; FDIC, “Institution Directory,” no date, www2.fdic.gov/idasp/main.asp, accessed 1/2/2013; CIT, “CIT Board of Directors Approves Proceeding with Prepackaged Plan of Reorganization with
Overwhelming Support of Debt holders,” 11/1/2009, http://cit.newshq.businesswire.com/press-release/corporate-news/cit-board-directors-approves-proceeding-prepackaged-plan-reorganization,
accessed 1/2/2013; Pacific Coast National Bancorp, 8-K, 12/17/2009, www.sec.gov/Archives/edgar/data/1302502/000092708909000240/pcnb-8k122209.htm, accessed 1/2/2013;
Sonoma Valley Bancorp, 8-K, 8/20/2010, www.sec.gov/Archives/edgar/data/1120427/000112042710000040/form8k_receivership.htm, accessed 1/2/2013; Midwest Banc Holdings, Inc., 8-K,
8/20/2010, www.sec.gov/Archives/edgar/data/1051379/000095012310081020/c60029e8vk.htm, accessed 1/2/2013; UCBH Holdings, Inc., 8-K, 11/6/2009, www.sec.gov/Archives/edgar/
data/1061580/000095012309062531/f54084e8vk.htm, accessed 1/2/2013; FDIC Press Release, “Heritage Bank, Olympia, Washington, Assumes All of the Deposits of Pierce Commercial Bank,
Tacoma, Washington,” 11/5/2010, www.fdic.gov/news/news/press/2010/pr10244.html, accessed 1/2/2013; FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All of the Deposits of Two
Georgia Institutions,” 11/12/2010, www.fdic.gov/news/news/press/2010/pr10249.html, accessed 1/2/2013; Federal Reserve Board Press Release, 5/10/2010, www.federalreserve.gov/newsevents/
press/enforcement/20100510b.htm, accessed 1/2/2013; Board of Governors of the Federal Reserve System, Written Agreement by and among Legacy Bancorp, Inc., Legacy Bank, Federal Reserve
Bank of Chicago, and State of Wisconsin Department of Financial Institutions, Madison, Wisconsin, www.federalreserve.gov/newsevents/press/enforcement/enf20100505b1.pdf, accessed 1/2/2013;
FDIC Press Release, “Seaway Bank and Trust Company, Chicago, Illinois Assumes All of the Deposits of Legacy Bank, Milwaukee, Wisconsin,” 3/11/2011, www.fdic.gov/news/news/press/2011/pr11055.
html, accessed 1/2/2013; FDIC Press Release, “Superior Bank, N.A., Birmingham, Alabama, Assumes All of the Deposits of Superior Bank, Birmingham, Alabama,” 4/15/2011, www.fdic.gov/news/
news/press/2011/pr11073.html, accessed 1/2/2013; FDIC Press Release, “Old National Bank, Evansville, Indiana, Assumes All of the Deposits of Integra Bank, National Association, Evansville, Indiana,”
7/29/2011, www.fdic.gov/news/news/press/2011/pr11128.html, accessed 1/2/2013; FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All the Deposits of Two Georgia Institutions,”
7/15/2011, www.fdic.gov/news/news/press/2011/pr11120.html, accessed 1/2/2013; FDIC Press Release, “Premier American Bank, National Association, Miami, Florida, Assumes All of the Deposits
of First Peoples Bank, Port Saint Lucie, Florida,” 7/15/2011, www.fdic.gov/news/news/press/2011/pr11121.html, accessed 1/2/2013; FDIC Press Release, “Tri Counties Bank, Chico, California,
Assumes All of the Deposits of Citizens Bank of Northern California, Nevada City, California,” 9/23/2011, www.fdic.gov/news/news/press/2011/pr11154.html, accessed 1/2/2013; FDIC, In the Matter
of First Peoples Bank, Docket No. FDIC-09-717b, Consent Order, 3/18/2010, www.fdic.gov/bank/individual/enforcement/2010-03-09.pdf, accessed 1/2/2013; FDIC, In the Matter of Citizens Bank of
Northern California, Nevada City, California, Order No. FDIC-11-358PCAS, Supervisory Prompt Corrective Action Directive, 6/28/2011, www.fdic.gov/bank/individual/enforcement/2011-06-029.pdf,
accessed 1/2/2013; “Blackhawk Bank & Trust, Milan, Illinois, Assumes All of the Deposits of Country Bank, Aledo, Illinois,” 10/14/2011, www.fdic.gov/news/news/press/2011/pr11167.html, accessed
1/2/2013; FDIC Press Release, “Republic Bank & Trust Company, Assumes all of the Deposits of Tennessee Commerce Bank, Franklin, Tennessee,” 1/27/2012, www.fdic.gov/news/news/press/2012/
pr12011.html, accessed 1/2/2013; FDIC Press Release, “First Merchants Bank, National Association, Muncie, Indiana, Assumes All of the Deposits of SCB Bank, Shelbyville, Indiana,” 2/10/2012, www.
fdic.gov/news/news/press/2012/pr12018.html, accessed 1/2/2013; FDIC Press Release, “Alma Bank, Astoria, New York, Assumes All of the Deposits of Fort Lee Federal Savings Bank, FSB, Fort Lee,
New Jersey,” www.fdic.gov/news/news/press/2012/pr12043.html, accessed 1/2/2013; FDIC Press Release, “Regional Missouri Bank, Marceline, Missouri, Assumes All of the Deposits of Glasgow
Savings Bank, Glasgow, Missouri,” 7/13/2012, www.fdic.gov/news/news/press/2012/pr12081.html, accessed 1/2/2013; FDIC Press Release, “SmartBank, Pigeon Forge, Tennessee, Assumes All of
the Deposits of GulfSouth Private Bank, Destin, Florida,” 10/19/2012, www.fdic.gov/news/news/press/2012/pr12118.html, accessed 1/9/2013; FDIC Press Release, “Simmons First National Bank, Pine
Bluff, Arkansas, Assumes All of the Deposits of Excel Bank, Sedalia, Missouri,” 10/19/2012, www.fdic.gov/news/news/press/2012/pr12120.html, accessed 1/9/2013; Bloomberg, “First Place Financial
Corp. Files Bankruptcy in Delaware,” 10/29/2012, www.bloomberg.com/news/2012-10-29/first-place-financial-corp-files-bankruptcy-in-delaware.html, accessed 1/9/2013;FDIC Press Release, “Heartland
Bank and Trust Company, Bloomington, Illinois, Assumes All of the Deposits of Citizens First National Bank, Princeton, Illinois,” 11/2/2012, www.fdic.gov/news/news/press/2012/pr12128.html, accessed
1/9/2013.
90   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                              Realized Losses and Write-offs of CPP Investments
                                              When a CPP investment is sold at a loss, or an institution that Treasury invested
                                              in finalizes bankruptcy, Treasury records the loss as a realized loss or a write-off.
                                              For these recorded losses, Treasury has no expectation of regaining any portion
                                              of the lost investment. According to Treasury, as of December 31, 2012, Treasury
                                              had realized or written-off losses of $3.2 billion on its CPP investments, including
                                              $77.9 million this quarter. Table 2.19 shows all realized losses and write-offs
                                              recorded by Treasury on CPP investments through December 31, 2012.
                         TABLE 2.19
                          REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 12/31/2012                      ($ MILLIONS)

                                                                       TARP   Realized Loss
                          Institution                            Investment     or Write-Off          Date Description
                                                                                                             Sale of subordinated
                          FBHC Holding Company                          $3               $2      3/9/2010
                                                                                                             debentures at a loss
                          First Federal Bancshares of
                                                                        17               11      5/3/2010 Sale of preferred stock at a loss
                          Arkansas, Inc.
                          The Bank of Currituck                          4                2     12/3/2010 Sale of preferred stock at a loss
                          Treaty Oak Bancorp, Inc.                       3                3     2/15/2011 Sale of preferred stock at a loss
                                                                                                             Exchange of preferred stock at
                          Central Pacific Financial Corp.              135               32     2/18/2011
                                                                                                             a loss
                          Cadence Financial Corporation                 44                6      3/4/2011 Sale of preferred stock at a loss
                          First Community Bank Corporation
                                                                        11                3     5/31/2011 Sale of preferred stock at a loss
                          of America
                          Cascade Financial Corporation                 39               23     6/30/2011 Sale of preferred stock at a loss
                          Green Bankshares, Inc.                        72                4      9/7/2011 Sale of preferred stock at a loss
                          Santa Lucia Bancorp                            4                1    10/21/2011 Sale of preferred stock at a loss
                          Banner Corporation/Banner Bank               124               14      4/3/2012 Sale of preferred stock at a loss 
                          First Financial Holdings Inc.                 65                8      4/3/2012 Sale of preferred stock at a loss 
                          MainSource Financial Group, Inc.              57                4      4/3/2012 Sale of preferred stock at a loss
                          Seacoast Banking Corporation of
                                                                        50                9      4/3/2012 Sale of preferred stock at a loss
                          Florida
                          Wilshire Bancorp, Inc.                        62                4      4/3/2012 Sale of preferred stock at a loss
                          WSFS Financial Corporation                    53                4      4/3/2012 Sale of preferred stock at a loss
                          Central Pacific Financial Corp.              135               30      4/4/2012 Sale of common stock at a loss
                          Ameris Bancorp                                52                4     6/19/2012 Sale of preferred stock at a loss
                          Farmers Capital Corporation                   30                8     6/19/2012 Sale of preferred stock at a loss
                          First Capital Bancorp, Inc.                   11                1     6/19/2012 Sale of preferred stock at a loss
                          First Defiance Financial Corp.                37                1     6/19/2012 Sale of preferred stock at a loss
                          LNB Bancorp, Inc.                             25                3     6/19/2012 Sale of preferred stock at a loss
                          Taylor Capital Group, Inc.                   105               11     6/19/2012 Sale of preferred stock at a loss
                          United Bancorp, Inc.                          21                4     6/19/2012 Sale of preferred stock at a loss
                          Fidelity Southern Corporation                 48                5      7/3/2012 Sale of preferred stock at a loss
                                                                                                                      Continued on next page
                                                                                     QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   91




REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 12/31/2012                     ($ MILLIONS) (CONTINUED)

                                            TARP   Realized Loss
Institution                           Investment     or Write-Off          Date Description
First Citizens Banc Corp                    $21               $2      7/3/2012 Sale of preferred stock at a loss
Firstbank Corporation                        33                2      7/3/2012 Sale of preferred stock at a loss
Metrocorp Bancshares, Inc.                   45                1      7/3/2012 Sale of preferred stock at a loss
Peoples Bancorp Of North
                                             25                2      7/3/2012 Sale of preferred stock at a loss
Carolina, Inc.
Pulaski Financial Corp.                      33                4      7/3/2012 Sale of preferred stock at a loss
Southern First Bancshares, Inc.              17                2      7/3/2012 Sale of preferred stock at a loss
Naples Bancorp, Inc.                          4                3     7/12/2012 Sale of preferred stock at a loss
Commonwealth Bancshares, Inc.                20                5      8/9/2012 Sale of preferred stock at a loss
Diamond Bancorp, Inc.                        20                6      8/9/2012 Sale of preferred stock at a loss
Fidelity Financial Corporation               36                4      8/9/2012 Sale of preferred stock at a loss
First Western Financial, Inc. b
                                             12                2      8/9/2012 Sale of preferred stock at a loss
Market Street Bancshares, Inc.               20                2      8/9/2012 Sale of preferred stock at a loss
CBS Banc-Corp.                               24                2     8/10/2012 Sale of preferred stock at a loss
Marquette National Corporation               36               10     8/10/2012 Sale of preferred stock at a loss
Park Bancorporation, Inc.                    23                6     8/10/2012 Sale of preferred stock at a loss
Premier Financial Bancorp, Inc.               7                2     8/10/2012 Sale of preferred stock at a loss
Trinity Capital Corporation                  36                9     8/10/2012 Sale of preferred stock at a loss
Exchange Bank                                43                5     8/13/2012 Sale of preferred stock at a loss
Millennium Bancorp, Inc.                      7                4     8/14/2012 Sale of preferred stock at a loss
Sterling Financial Corporation              303              188     8/20/2012 Sale of preferred stock at a loss
BNC Bancorp                                  31                2     8/29/2012 Sale of preferred stock at a loss
First Community Corporation                  11              0.2     8/29/2012 Sale of preferred stock at a loss
First National Corporation                   14                2     8/29/2012 Sale of preferred stock at a loss
Mackinac Financial Corporation               11              0.5     8/29/2012 Sale of preferred stock at a loss
Yadkin Valley Financial Corporation          13                5     9/18/2012 Sale of preferred stock at a loss
Alpine Banks Of Colorado                     70               13     9/20/2012 Sale of preferred stock at a loss
F & M Financial Corporation (NC)             17                1     9/20/2012 Sale of preferred stock at a loss
F&M Financial Corporation (TN)               17                4     9/21/2012 Sale of preferred stock at a loss
First Community Financial
                                             22                8     9/21/2012 Sale of preferred stock at a loss
Partners, Inc.
Central Federal Corporation                   7                4     9/26/2012 Sale of preferred stock at a loss
Congaree Bancshares, Inc.                     3              0.6    10/31/2012 Sale of preferred stock at a loss
Metro City Bank                               8              0.8    10/31/2012 Sale of preferred stock at a loss
Blue Ridge Bancshares, Inc.                  12                3    10/31/2012 Sale of preferred stock at a loss
Germantown Capital Corporation                5              0.4    10/31/2012 Sale of preferred stock at a loss
First Gothenburg Bancshares, Inc.             8              0.7    10/31/2012 Sale of preferred stock at a loss
                                                                                          Continued on next page
92   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                          REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 12/31/2012                      ($ MILLIONS) (CONTINUED)

                                                                       TARP   Realized Loss
                          Institution                            Investment     or Write-Off          Date Description
                          Blackhawk Bancorp, Inc.                      $10             $0.9    10/31/2012 Sale of preferred stock at a loss
                          Centerbank                                     2              0.4    10/31/2012 Sale of preferred stock at a loss
                          The Little Bank, Incorporated                  8              0.1    10/31/2012 Sale of preferred stock at a loss
                          Oak Ridge Financial Services, Inc.             8              0.6    10/31/2012 Sale of preferred stock at a loss
                          Peoples Bancshares Of TN, Inc.                 4                1    10/31/2012 Sale of preferred stock at a loss
                          Hometown Bankshares
                                                                        10              0.8    10/31/2012 Sale of preferred stock at a loss
                          Corporation
                          Western Illinois Bancshares, Inc.             11              0.7     11/9/2012 Sale of preferred stock at a loss
                          Capital Pacific Bancorp                        4              0.2     11/9/2012 Sale of preferred stock at a loss
                          Three Shores Bancorporation, Inc.              6              0.6     11/9/2012 Sale of preferred stock at a loss
                          Regional Bankshares, Inc.                      2              0.1     11/9/2012 Sale of preferred stock at a loss
                          Timberland Bancorp, Inc.                      17                2     11/9/2012 Sale of preferred stock at a loss
                                                                                                             Sale of subordinated
                          F&C Bancorp. Inc.                              3              0.1    11/13/2012
                                                                                                             debentures at a loss
                                                                                                             Sale of subordinated
                          Farmers Enterprises, Inc.                     12              0.4    11/13/2012
                                                                                                             debentures at a loss
                          First Freedom Bancshares, Inc.                 9              0.7     11/9/2012 Sale of preferred stock at a loss
                          Bankgreenville Financial
                                                                         1              0.1     11/9/2012 Sale of preferred stock at a loss
                          Corporation
                          Franklin Bancorp, Inc.                         5                2    11/13/2012 Sale of preferred stock at a loss
                          Sound Banking Company                          3              0.2    11/13/2012 Sale of preferred stock at a loss
                          Parke Bancorp, Inc.                           16                5    11/29/2012 Sale of preferred stock at a loss
                          Country Bank Shares, Inc.                      8              0.6    11/29/2012 Sale of preferred stock at a loss
                          Clover Community Bankshares,
                                                                         3              0.4    11/29/2012 Sale of preferred stock at a loss
                          Inc.
                          CBB Bancorp                                    4              0.3    11/29/2012 Sale of preferred stock at a loss
                          Alaska Pacific Bancshares, Inc.                5              0.5    11/29/2012 Sale of preferred stock at a loss
                          FFW Corporation                                7              0.7    11/30/2012 Sale of preferred stock at a loss
                          Hometown Bancshares, Inc.                      2              0.1    11/30/2012 Sale of preferred stock at a loss
                          Trisummit Bank                                 7                2    11/29/2012 Sale of preferred stock at a loss
                          Layton Park Financial Group, Inc.              3              0.6    11/29/2012 Sale of preferred stock at a loss
                          Bank Of Commerce                               3              0.5    11/30/2012 Sale of preferred stock at a loss
                          Corning Savings And Loan
                                                                        0.6             0.1    11/30/2012 Sale of preferred stock at a loss
                          Association
                          Carolina Trust Bank                            4              0.6    11/30/2012 Sale of preferred stock at a loss
                          Community Business Bank                        4              0.3    11/30/2012 Sale of preferred stock at a loss
                          KS Bancorp, Inc                                4              0.7    11/30/2012 Sale of preferred stock at a loss
                          Pacific Capital Bancorp                      195               27    11/30/2012 Sale of common stock at a loss
                          Community West Bancshares                     16                4    12/11/2012 Sale of preferred stock at a loss
                                                                                                                     Continued on next page
                                                                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   93




REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 12/31/2012                                                         ($ MILLIONS) (CONTINUED)

                                                             TARP         Realized Loss
Institution                                            Investment           or Write-Off                      Date Description
Presidio Bank                                                   $11                        $2      12/11/2012 Sale of preferred stock at a loss
The Baraboo Bancorporation, Inc.                                  21                         7     12/11/2012 Sale of preferred stock at a loss
Security Bancshares Of Pulaski
                                                                    2                     0.7      12/11/2012 Sale of preferred stock at a loss
County, Inc.
Central Community Corporation                                     22                         2     12/11/2012 Sale of preferred stock at a loss
                                                                                                                         Sale of subordinated
Manhattan Bancshares, Inc.                                          3                     0.1      12/11/2012
                                                                                                                         debentures at a loss
First Advantage Bancshares, Inc.                                    1                     0.1      12/11/2012 Sale of preferred stock at a loss
Community Investors Bancorp, Inc.                                   3                     0.1      12/20/2012 Sale of preferred stock at a loss
First Business Bank, National
                                                                    4                     0.4      12/20/2012 Sale of preferred stock at a loss
Association
Bank Financial Services, Inc.                                       1                     0.1      12/20/2012 Sale of preferred stock at a loss
Century Financial Services                                                                                               Sale of subordinated
                                                                  10                      0.2      12/20/2012
Corporation                                                                                                              debentures at a loss
Hyperion Bank                                                       2                     0.5      12/21/2012 Sale of preferred stock at a loss
First Independence Corporation                                      3                     0.9      12/21/2012 Sale of preferred stock at a loss
First Alliance Bancshares, Inc.                                     3                        1     12/21/2012 Sale of preferred stock at a loss
Community Financial Shares, Inc.                                    7                        4     12/21/2012 Sale of preferred stock at a loss
Total CPP Realized Losses                                                             $575                                
Write-Offs
CIT Group Inc.                                              $2,330                  $2,330         12/10/2009 Bankruptcy
Pacific Coast National Bancorp                                      4                        4       2/11/2010 Bankruptcy
South Financial Group, Inc.a                                    347                      217         9/30/2010 Sale of preferred stock at a loss
TIB Financial Corp      a
                                                                  37                       25        9/30/2010 Sale of preferred stock at a loss
Total CPP Write-Offs                                                               $2,576                                                                             
Total of CPP Realized Losses
and Write-Offs                                                                     $3,151
Notes: Numbers may not total due to rounding.
a
  In the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at a loss as
  realized losses.
b
   Treasury still has an outstanding investment in this institution and it remains in TARP.

Sources: Treasury, Transactions Report, 12/28/2012; Treasury, response to SIGTARP data call, 1/3/2013.
94             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Restructurings, Recapitalizations, Exchanges, and Sales of CPP
                                                      Investments
                                                      Certain CPP institutions continue to experience high losses and financial
                                                      difficulties, resulting in inadequate capital or liquidity. To avoid insolvency or
                                                      improve the quality of their capital, these institutions may ask Treasury to convert
                                                      its CPP preferred shares into a more junior form of equity or accept a lower
                                                      valuation, resulting in Treasury taking a discount or loss. If a CPP institution
     Undercapitalized: Condition in which a           is undercapitalized and/or in danger of becoming insolvent, it may propose to
     financial institution does not meet its          Treasury a restructuring (or recapitalization) plan to avoid failure (or to attract
     regulator’s requirements for sufficient          private capital) and to “attempt to preserve value” for Treasury’s investment.325
     capital to operate under a defined level         Treasury may also sell its investment in a troubled institution to a third party at
     of adverse conditions.                           a discount in order to facilitate that party’s acquisition of a troubled institution.
                                                      According to Treasury, although it may incur partial losses on its investment in the
                                                      course of these transactions, such an outcome may be deemed necessary to avoid
                                                      the total loss of Treasury’s investment that would occur if the institution failed.326
                                                          Under these circumstances, the CPP participant asks Treasury for a formal re-
                                                      view of its proposal. The proposal details the institution’s recapitalization plan and
                                                      may estimate how much capital the institution plans to raise from private investors
                                                      and whether Treasury and other preferred shareholders will convert their preferred
                                                      stock to common stock. The proposal may also involve a proposed discount on the
                                                      conversion to common stock, although Treasury would not realize any loss until it
                                                      disposes of the stock.327 In other words, Treasury would not know whether a loss
                                                      will occur, or the extent of such a loss, until it sells the common stock it receives as
                                                      part of such an exchange. According to Treasury, when it receives such a request, it
                                                      asks one of the external asset managers that it has hired to analyze the proposal and
     Due Diligence: Appropriate level of              perform due diligence on the institution.328 The external asset manager interviews
     attention or care a reasonable person            the institution’s managers, gathers non-public information, and conducts loan-loss
     should take before entering into an              estimates and capital structure analysis. The manager submits its evaluation to
     agreement or a transaction with                  Treasury, which then decides whether to restructure its CPP investment.329
     another party. In finance, it often refers           Table 2.20 shows all restructurings, recapitalizations, exchanges, and sales of
     to the process of conducting an audit            CPP investments through December 31, 2012.
     or review of the institution before
     initiating a transaction.                        Recent Exchanges and Sales
                                                      First Community Bancshares, Inc.
                                                      On May 15, 2009, Treasury invested $14.8 million in First Community Bancshares
                                                      Inc., Wichita, Kansas, (“First Community”) through CPP in return for preferred
                                                      stock and warrants.330 On January 30, 2009, Treasury invested $8.8 million in
                                                      Equity Bancshares, Inc., Wichita, Kansas, (“Equity Bancshares”) through CPP
                                                      in return for preferred stock and warrants.331 On October 25, 2012, Equity
                                                      Bancshares acquired First Community. Pursuant to the terms of the transaction,
                                                      First Community and Equity Bancshares entered into an agreement with Treasury,
                                                      whereby Equity Bancshares assumed the entirety of First Community’s TARP
                                                      obligations.332 As part of the transaction, Equity Bancshares repurchased the TARP
                                                      preferred stock issued by First Community to Treasury. Equity Bancshares then
                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   95




issued an equivalent amount of its own preferred equity to Treasury and paid for all
accrued and unpaid dividends related to First Community’s CPP preferred stock.333

Community Financial Shares, Inc.
On May 15, 2009, Treasury invested $7 million in Community Financial Shares,
Inc., Glen Ellyn, Illinois, (“Community Financial”) through CPP in return for
preferred stock and warrants.334 On November 13, 2012, Treasury entered into an
agreement with Community Financial agreeing to sell its preferred stock back to
Community Financial at a discount, subject to certain conditions specified in the
agreement.335 Treasury expects to net $3.7 million on this transaction, which will
result in a loss to Treasury of $3.8 million.336

First Sound Bank
On December 23, 2008, Treasury invested $7.4 million in First Sound Bank,
Seattle, Washington, (“First Sound”) through CPP in return for preferred stock and
warrants.337 On November 30, 2012, Treasury entered into an agreement with First
Sound agreeing to sell its preferred stock back to First Sound at a discount, subject
to certain conditions specified in the agreement.338 Treasury expects to net $3.7
million on this transaction, which will result in a loss to Treasury of $3.7 million.339
96          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



     TABLE 2.20
      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 12/31/2012                                ($ MILLIONS)

                                           Investment        Original     Combined
      Company                                    Date    Investments    Investments                                            Investment Status
      Citigroup Inc.                      10/28/2008        $2,500.0                              Exchanged for common stock/warrants and sold
      Provident Bankshares                11/14/2008           151.5                       Provident preferred stock exchanged for new M&T Bank
                                                                           1,081.5a   Corporation preferred stock; Wilmington Trust preferred stock
      M&T Bank Corporation                12/23/2008           600.0                                     redeemed by M&T Bank Corporation; Sold
      Wilmington Trust Corporation        12/12/2008           330.0
      Popular, Inc.                         12/5/2008          935.0                                       Exchanged for trust preferred securities
      First BanCorp                          1/6/2009          400.0                         Exchanged for mandatorily convertible preferred stock
      South Financial Group, Inc.           12/5/2008          347.0                                                                           Sold
      Sterling Financial Corporation        12/5/2008          303.0                                           Exchanged for common stock, Sold
      Whitney Holding Corporation            6/3/2011          300.0                                                                           Sold
      Pacific Capital Bancorp             11/21/2008           195.0                                                 Exchanged for common stock
      Wilmington Trust Corporation          5/13/2011          151.5                                                                           Sold
      Central Pacific Financial Corp.        1/9/2009          135.0                                                 Exchanged for common stock
      Banner Corporation                  11/21/2008           124.0                                                         Sold at loss in auction
      BBCN Bancorp, Inc.                  11/21/2008            67.0                                   Exchanged for a like amount of securities of
                                                                             122.0d
      Center Financial Corporation        12/12/2008            55.0                                                           BBCN Bancorp, Inc.
      First Merchants                       2/20/2009          116.0                   Exchanged for trust preferred securities and preferred stock
      Taylor Capital Group                11/21/2008           104.8                                                         Sold at loss in auction
      Metropolitan Bank Group Inc.          6/26/2009           71.5                                         Exchanged for new preferred stock in
                                                                              81.9b
      NC Bancorp, Inc.                      6/26/2009             6.9                                               Metropolitan Bank Group, Inc.

      Hampton Roads Bankshares            12/31/2008            80.3                                                 Exchanged for common stock
      Green Bankshares                    12/23/2008            72.3                                                                           Sold
      Independent Bank Corporation        12/12/2008            72.0                         Exchanged for mandatorily convertible preferred stock
      Alpine Banks of Colorado              3/27/2009           70.0                                                         Sold at loss in auction
      Superior Bancorp, Inc.c               12/5/2008           69.0                                       Exchanged for trust preferred securities
      First Financial Holdings Inc.         12/5/2008           65.0                                                         Sold at loss in auction
      Wilshire Bancorp, Inc.              12/12/2008            62.2                                                         Sold at loss in auction
                                                                                             Exchanged for common stock and securities purchase
      Standard Bancshares Inc.              4/24/2009           60.0
                                                                                                                                    agreements
      MainSource Financial Group, Inc.      1/16/2009           57.0                                                         Sold at loss in auction
      WSFS Financial Corporation            1/23/2009           52.6                                                         Sold at loss in auction
      Ameris Bancorp                      11/21/2008            52.0                                                         Sold at loss in auction
      Seacoast Banking Corporation of
                                          12/19/2008            50.0                                                         Sold at loss in auction
      Florida
      Fidelity Southern Corporation       12/19/2008            48.2                                                         Sold at loss in auction
      MetroCorp Bancshares, Inc.            1/16/2009           45.0                                                         Sold at loss in auction
      Cadence Financial Corporation          1/9/2009           44.0                                                         Sold at loss in auction
      Exchange Bank                       12/19/2008            43.0                                                         Sold at loss in auction
      PremierWest Bancorp                   2/13/2009           41.4                                                                           Sold
      Capital Bank Corporation            12/12/2008            41.3                                                                           Sold
      Cascade Financial Corporation         6/30/2011           39.0                                                         Sold at loss in auction
      TIB Financial Corp.                   12/5/2008           37.0                                                                           Sold
                                                                                                                           Continued on next page
                                                                                QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013           97




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 12/31/2012                          ($ MILLIONS) (CONTINUED)

                                      Investment       Original     Combined
Company                                     Date   Investments    Investments                                     Investment Status
First Defiance Financial Corp.         12/5/2008         $37.0                                                  Sold at loss in auction
Fidelity Financial Corporation        12/19/2008          36.3                                                  Sold at loss in auction
Marquette National Corporation        12/19/2008          35.5                                                  Sold at loss in auction
Trinity Capital Corporation            3/27/2009          35.5                                                  Sold at loss in auction
Firstbank Corporation                  1/30/2009          33.0                                                  Sold at loss in auction
Pulaski Financial Corp                 1/16/2009          32.5                                                  Sold at loss in auction
BNC Bancorp                            12/5/2008          31.3                                                  Sold at loss in auction
Farmers Capital Bank Corporation        1/9/2009          30.0                                                  Sold at loss in auction
LNB Bancorp Inc.                      12/12/2008          25.2                                                  Sold at loss in auction
Peoples Bancorp of North Carolina,
                                      12/23/2008          25.1                                                  Sold at loss in auction
Inc.
CBS Banc-Corp                          3/27/2009          24.3                                                  Sold at loss in auction
First Citizens Banc Corp               1/23/2009          23.2                                                  Sold at loss in auction
Park Bancorporation, Inc.               3/6/2009          23.2                                                  Sold at loss in auction
Premier Financial Bancorp, Inc.        10/2/2009          22.3                                                  Sold at loss in auction
Central Community Corporation          2/20/2009          22.0                                                  Sold at loss in auction
First Community Financial Partners,
                                      12/11/2009          22.0                                                  Sold at loss in auction
Inc.
The Baraboo Bancorporation, Inc.       1/16/2009          20.7                                                  Sold at loss in auction
United Bancorp, Inc.                   1/16/2009          20.6                                                  Sold at loss in auction
Diamond Bancorp, Inc.                  5/22/2009          20.4                                                  Sold at loss in auction
Commonwealth Bancshares, Inc.          5/22/2009          20.4                                                  Sold at loss in auction
Market Street Bancshares, Inc.         5/15/2009          20.3                                                  Sold at loss in auction
Southern First Bancshares, Inc.        2/27/2009          17.3                                                  Sold at loss in auction
F&M Financial Corporation (TN)         2/13/2009          17.2                                                  Sold at loss in auction
F&M Financial Corporation (NC)          2/6/2009          17.0                                                  Sold at loss in auction
Timberland Bancorp Inc.               12/23/2008          16.6                                                  Sold at loss in auction
First Federal Bankshares of
                                        5/3/2011          16.5                                                                    Sold
Arkansas, Inc.
Parke Bancorp Inc.                     1/30/2009          16.3                                                  Sold at loss in auction
Community West Bancshares             12/19/2008          15.6                                                  Sold at loss in auction
Broadway Financial Corporation        11/14/2008          15.0                                           Exchanged for common stock
First Community Bancshares, Inc        5/15/2009          14.8                                                                    Sold
First National Corporation             3/13/2009          13.9                                                  Sold at loss in auction
Yadkin Valley Financial Corporation    7/24/2009          13.3                                                  Sold at loss in auction
Farmers Enterprises, Inc.              6/19/2009          12.0                                                  Sold at loss in auction
First Community Corporation           11/21/2008          11.4                                                  Sold at loss in auction
Western Illinois Bancshares, Inc.     12/23/2008          11.4                                                  Sold at loss in auction
First Capital Bancorp, Inc.             4/3/2009          11.0                                                  Sold at loss in auction
Mackinac Financial Corporation         4/24/2009          11.0                                                  Sold at loss in auction
Presidio Bank                         11/20/2009          10.8                                                  Sold at loss in auction
                                                                                                               Continued on next page
98         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 12/31/2012   ($ MILLIONS) (CONTINUED)

                                           Investment       Original     Combined
     Company                                     Date   Investments    Investments              Investment Status
     First Community Bank Corporation
                                           12/23/2008         $10.7                                             Sold
     of America
     Blackhawk Bancorp, Inc.                3/13/2009           10.0                          Sold at loss in auction
     Century Financial Services
                                            6/19/2009           10.0                          Sold at loss in auction
     Corporation
     HomeTown Bankshares Corporation        9/18/2009           10.0                          Sold at loss in auction
     First Freedom Bancshares, Inc.        12/22/2009            8.7                          Sold at loss in auction
     First Western Financial, Inc.           2/6/2009            8.6                          Sold at loss in auction
     Metro City Bank                        1/30/2009            7.7                          Sold at loss in auction
     Oak Ridge Financial Services, Inc.     1/30/2009            7.7                          Sold at loss in auction
     First Gothenburg Bancshares, Inc.      2/27/2009            7.6                          Sold at loss in auction
     Country Bank Shares, Inc.              1/30/2009            7.5                          Sold at loss in auction
     The Little Bank, Incorporated         12/23/2009            7.5                          Sold at loss in auction
     First Sound Bank                      12/23/2008            7.4                                            Sold
     FFW Corporation                       12/19/2008            7.3                          Sold at loss in auction
     Millennium Bancorp, Inc                 4/3/2009            7.3                                            Sold
     Central Federal Corporation            12/5/2008            7.2                                            Sold
     Community Financial Shares, Inc.       5/15/2009            7.0                                            Sold
     TriSummit Bank                          4/3/2009            7.0                          Sold at loss in auction
     Three Shores Bancorporation, Inc       1/23/2009            5.7                          Sold at loss in auction
     Franklin Bancorp, Inc.                 5/22/2009            5.1                          Sold at loss in auction
     Germantown Capital Corporation          3/6/2009            5.0                          Sold at loss in auction
     Alaska Pacific Bancshares Inc.          2/6/2009            4.8                          Sold at loss in auction
     CBB Bancorp                           12/20/2009            4.4                          Sold at loss in auction
     Pinnacle Bank Holding Company, Inc.     3/6/2009            4.4                          Sold at loss in auction
     Bank of Southern California, N.A.      4/10/2009            4.2                          Sold at loss in auction
     Bank of Currituck                       2/6/2009            4.0                                            Sold
     Carolina Trust Bank                     2/6/2009            4.0                          Sold at loss in auction
     Santa Lucia Bancorp                   12/19/2008            4.0                                            Sold
     Capital Pacific Bancorp               12/23/2008            4.0                          Sold at loss in auction
     Community Business Bank                2/27/2009            4.0                          Sold at loss in auction
     KS Bancorp Inc.                        8/21/2009            4.0                          Sold at loss in auction
     Naples Bancorp, Inc.                   3/27/2009            4.0                                            Sold
     Peoples of Bancshares of TN, Inc.      3/20/2009            3.9                          Sold at loss in auction
     First Alliance Bancshares, Inc.        6/26/2009            3.4                          Sold at loss in auction
     Congaree Bancshares, Inc.               1/9/2009            3.3                          Sold at loss in auction
     Treaty Oak Bancorp, Inc.               1/16/2009            3.3                                            Sold
     First Independence Corporation         8/28/2009            3.2                          Sold at loss in auction
     Sound Banking Co.                       1/9/2009            3.1                          Sold at loss in auction
     Bank of Commerce                       1/16/2009            3.0                          Sold at loss in auction
     Clover Community Bankshares, Inc.      3/27/2009            3.0                          Sold at loss in auction
     F & C Bancorp. Inc.                    5/22/2009            3.0                          Sold at loss in auction
                                                                                            Continued on next page
                                                                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013                                  99




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 12/31/2012                                                                                    ($ MILLIONS) (CONTINUED)

                                                       Investment             Original            Combined
Company                                                      Date         Investments           Investments                                                                    Investment Status
FBHC Holding Company                                 12/29/2009                       $3.0                                                                                                          Sold
Fidelity Resources Company                             6/26/2009                       3.0                                               Exchanged for preferred stock in Veritex Holding
Layton Park Financial Group, Inc.                    12/18/2009                        3.0                                                                                  Sold at loss in auction
Berkshire Bancorp                                      6/12/2009                       2.9                                        Exchanged for preferred stock in Customers Bancorp
Community Investors Bancorp, Inc.                    12/23/2008                        2.6                                                                                  Sold at loss in auction
Manhattan Bancshares, Inc.                             6/19/2009                       2.6                                                                                  Sold at loss in auction
CenterBank                                               5/1/2009                      2.3                                                                                  Sold at loss in auction
Security Bancshares of Pulaski
                                                       2/13/2009                       2.2                                                                                  Sold at loss in auction
County, Inc.
Hometown Bancshares, Inc.                              2/13/2009                       1.9                                                                                  Sold at loss in auction
Hyperion Bank                                            2/6/2009                      1.6                                                                                  Sold at loss in auction
Regional Bankshares Inc.                               2/13/2009                       1.5                                                                                  Sold at loss in auction
First Advantage Bancshares, Inc.                       5/22/2009                       1.2                                                                                  Sold at loss in auction
Community Bancshares of MS                               2/6/2009                      1.1                                                                                  Sold at loss in auction
BankGreenville Financial Corp.                         2/13/2009                       1.0                                                                                  Sold at loss in auction
Bank Financial Services, Inc.                          8/14/2009                       1.0                                                                                  Sold at loss in auction
Corning Savings and Loan
                                                       2/13/2009                       0.6                                                                                  Sold at loss in auction
Association
Notes: Numbers may be affected due to rounding.
a
  M&T Bank Corporation (“M&T”) has redeemed the entirety of the preferred shares issued by Wilmington Trust Corporation plus accrued dividends. In addition, M&T has also repaid $370 million of
  Treasury’s original $600 million investment. On August 21, 2012, Treasury sold all of its remaining investment in M&T at par.
b
     The new investment amount of $81.9 million includes the original investment amount in Metropolitan Bank Group, Inc. or $71.5 million plus the original investment amount in NC Bank Group, Inc. or
      $6.9 million plus unpaid dividends of $3.5 million.
c
   The subsidiary bank of Superior Bancorp, Inc. failed on April 15, 2011. All of Treasury’s TARP investment in Superior Bancorp is expected to be lost.
d
    The new investment amount of $122 million includes the original investment amount in BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.) of $67 million and the original investment of Center Financial
    Corporation of $55 million.

Sources: Treasury, Transactions Report, 12/28/2012; Treasury responses to SIGTARP data call, 10/11/2011, 4/5/2012, 7/5/2012, 10/4/2012, 1/9/2013; SIGTARP, October Quarterly
Report, 10/26/2010; Treasury, Section 105(a) Report, 9/30/2010; Treasury Press Release, “Taxpayers Receive $10.5 Billion in Proceeds Today from Final Sale of Treasury Department
Citigroup Common Stock,” 12/10/2010; Treasury Press Release, “Treasury Announces Pricing of Citigroup Common Stock Offering,” 12/7/2010; Treasury, Section 105(a) Report, 1/10/2013;
Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 1/14/2011; Broadway Financial Corporation, 8-K, 2/17/2011, www.sec.gov/Archives/
edgar/data/1001171/000119312511039152/d8k.htm, accessed 1/2/2013; FDIC and Texas Department of Banking, In the Matter of Treaty Oak Bank, Consent Order, 2/5/2010, www.
fdic.gov/bank/individual/enforcement/2010-02-34.pdf, accessed 1/2/2013; Austin Business Journal, “Sale of Treaty Oak Bank to Fort Worth Firm a go,” 2/4/2011, www.bizjournals.com/
austin/print-edition/2011/02/04/sale-of-treaty-oak-bank-to-fort-worth.html?page=all, accessed 1/2/2013; Central Pacific Financial Corp., 8-K, 11/4/2010, www.sec.gov/Archives/edgar/
data/701347/000070134710000055/form8-k.htm, accessed 1/2/2013; Central Pacific Financial Corp., 8-K, 2/17/2011, www.sec.gov/Archives/edgar/data/701347/000110465911008879/
a11-6350_18k.htm, accessed 1/2/2013; Central Pacific Financial Corp., 8-K, 2/22/2011, www.sec.gov/Archives/edgar/data/701347/000110465911008879/a11-6350_18k.htm, accessed
1/2/2013; Scottrade, Central Pacific Financial Corp., 2/18/2011, http://research.scottrade.com/qnr/Public/Stocks/Snapshot?symbol=cpf, accessed 1/2/2013; Cadence Financial Corporation,
8-K, 3/4/2011, www.sec.gov/Archives/edgar/data/742054/000089882211000148/kbody.htm, accessed 1/2/2013; M&T Bank Corporation, 10-K, 2/19/2010, www.sec.gov/Archives/edgar/
data/36270/000095012310014582/l38289e10vk.htm, accessed 1/2/2013; Green Bankshares Inc., 9/8/2011, www.sec.gov/Archives/edgar/data/764402/000089882211000784/grnb-
nafhmerger8k.htm, accessed 1/2/2013; Customers Bancorp, Inc., 8-K, 9/22/2011, www.sec.gov/Archives/edgar/data/1488813/000095015911000609/form8k.htm, accessed 1/2/2013; Santa
Lucia Bancorp, 8-K, 10/6/2011, www.sec.gov/Archives/edgar/data/1355607/000114420411057585/v237144_8k.htm, accessed 1/2/2013; BBCN Bancorp, Inc., 8-K, 11/30/2011, www.sec.
gov/Archives/edgar/data/1128361/000119312511330628/d265748d8k.htm, accessed 1/2/2013; Treasury Press Release, “Treasury Department Announces $248.5 Million in Proceeds from
Pricing of Auctions of Preferred Stock and Subordinated Debt Positions of Twelve Financial Institutions,” 7/27/2012, www.treasury.gov/press-center/press-releases/Pages/tg1656.aspx, accessed
1/2/2013.
100            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Treasury’s Sale of TARP Preferred Stock Investments at Auction
      Dutch Auction: A type of auction in             Overview of CPP Preferred Stock Auctions
      which multiple bidders bid for different        In March 2012, Treasury held a pilot auction in which it sold its preferred shares
      quantities of the asset; the price the          for six banks in a modified Dutch auction.340 As of December 31, 2012, Treasury
      seller accepts is set at the lowest bid         has held 10 additional sets of auctions.341 In the 11 auction sets, Treasury sold all
      of the group of high bidders whose              of its preferred stock investments in 90 banks and some of its preferred stock in
      collective bids fulfill the amount of           an additional bank.342 The preferred stock for all of the banks sold at a discounted
      shares offered. As an example, three            price and resulted in losses to Treasury.343 In the 11 auction sets, the average
      investors place bids to own a portion           discount on the investments was 15%, with a range of 2% to 63%.344 Treasury lost
      of 100 shares offered by the issuer:            a total of $256.2 million in the auctions.345 More than one-third of the banks, 32,
                                                      bought back some of their shares at the discounted price.346 In five sets of auctions
      • Bidder A wants 50 shares at                  this quarter, Treasury sold all of its TARP preferred investment in 51 banks.347
        $4/share.                                         Table 2.21 shows details for the auctions of preferred stock in CPP banks
      • Bidder B wants 50 shares at                  through December 31, 2012.
        $3/share.
      • Bidder C wants 50 shares at
        $2/share.

      The seller selects Bidders A and B
      as the two highest bidders, and their
      collective bids consume the 100
      shares offered. The winning price is
      $3, which is what both bidders pay
      per share. Bidder C’s bid is not filled.
      Treasury uses a modified version of a
      Dutch Auction in the dispensation of
      its warrants and in some sales of CPP
      preferred stock.



      On October 9, 2012, SIGTARP made
      three recommendations regarding
      CPP preferred stock auctions, which
      are discussed in detail in SIGTARP’s
      October 2012 Quarterly Report, pages
      180-183.
                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   101




TABLE 2.21
 INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 12/31/2012
                                                                                              Percentage
                                                                                                of Shares
                                                                           Discount       Repurchased by
 Institution                 Investment   Net Proceeds   Auction Loss    Percentage            Institution
 Auctions Closed on 3/28/2012
 Seacoast Banking
                            $50,000,000    $40,404,700    $9,595,300             19%
 Corporation of Florida
 First Financial Holdings
                             65,000,000     55,926,478     9,073,522             14%
 Inc.
 Banner Corporation         124,000,000    108,071,915    15,928,085             13%
 WSFS Financial
                             52,625,000     47,435,299     5,189,701             10%
 Corporation
 MainSource Financial
                             57,000,000     52,277,171     4,722,829              8%                  37%
 Group, Inc.
 Wilshire Bancorp, Inc.      62,158,000     57,766,994     4,391,006              7%                  97%
 Total Loss                                              $48,900,443
 Average Discount                                                               12%
 Auctions Closed on 6/13/2012
 Farmers Capital Bank
                            $30,000,000    $21,594,229    $8,405,771             28%
 Corporation
 United Bancorp, Inc.        20,600,000     16,750,221     3,849,780             19%
 LNB Bancorp Inc.            25,223,000     21,863,750     3,359,251             13%
 Taylor Capital Group       104,823,000     92,254,460    12,568,540             12%
 First Capital Bancorp,
                             10,958,000      9,931,327     1,026,673              9%                  50%
 Inc.
 Ameris Bancorp              52,000,000     47,665,332     4,334,668              8%
 First Defiance Financial
                             37,000,000     35,084,144     1,915,856              5%                  45%
 Corp.
 Total Loss                                              $35,460,539
 Average Discount                                                               14%
 Auctions Closed on 6/27/2012
 Pulaski Financial Corp     $32,538,000    $28,460,338    $4,077,662             13%
 Fidelity Southern
                             48,200,000     42,757,786     5,442,214             11%
 Corporation
 Southern First
                             17,299,000     15,403,722     1,895,278             11%                   6%
 Bancshares, Inc.
 First Citizens Banc Corp    23,184,000     20,689,633     2,494,367             11%
 Peoples Bancorp of
                             25,054,000     23,033,635     2,020,365              8%                  50%
 North Carolina, Inc.
 Firstbank Corporation       33,000,000     30,587,530     2,412,470              7%                  48%
 MetroCorp Bancshares,
                             45,000,000     43,490,360     1,509,640              3%                  97%
 Inc.
 Total Loss                                              $19,851,996
 Average Discount                                                                 9%
                                                                                    Continued on next page
102   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                  INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 12/31/2012                (CONTINUED)

                                                                                                                  Percentage
                                                                                                                    of Shares
                                                                                                  Discount    Repurchased by
                  Institution                    Investment       Net Proceeds   Auction Loss   Percentage         Institution
                  Auctions Closed on 7/27/2012a
                  Marquette National
                                                $35,500,000        $25,313,186   $10,186,814          29%                 31%
                  Corporation
                  Park Bancorporation,
                                                 23,200,000         16,772,382     6,427,618          28%                 30%
                  Inc.
                  Diamond Bancorp, Inc.          20,445,000         14,780,662     5,664,338          28%
                  Commonwealth
                                                 20,400,000         15,147,000     5,253,000          26%                 26%
                  Bancshares, Inc.
                  Trinity Capital
                                                 35,539,000         26,396,503     9,142,497          26%
                  Corporation
                  First Western Financial,
                                                 20,440,000          6,138,000    10,421,000          63%
                  Inc.b
                  Exchange Bank                  43,000,000         37,259,393     5,740,608          13%                 47%
                  Fidelity Financial
                                                 36,282,000         32,013,328     4,268,672          12%                 58%
                  Corporation
                  Market Street
                                                 20,300,000         18,069,213     2,230,787          11%                 89%
                  Bancshares, Inc.
                  Premier Financial
                                                 22,252,000         19,849,222     2,402,778          11%                 46%
                  Bancorp, Inc.
                  CBS Banc-Corp.                 24,300,000         21,776,396     2,523,604          10%                 95%
                  Total Loss                                                     $64,261,716
                  Average Discount                                                                    23%
                  Auctions Closed on 8/23/2012
                  First National
                                                $13,900,000        $12,082,749    $1,817,251          13%
                  Corporation
                  BNC Bancorp                    31,260,000         28,365,685     2,894,315           9%
                  Mackinac Financial
                                                 11,000,000         10,380,905       619,095           6%
                  Corporation
                  First Community
                                                 11,350,000         10,987,794       362,206           3%                 33%
                  Corporation
                  Total Loss                                                      $5,692,867
                  Average Discount                                                                     8%
                  Auctions Closed on 9/12/2012
                  First Community
                                                $22,000,000        $14,211,450    $7,788,550          35%
                  Financial Partners, Inc.
                  F&M Financial
                                                 17,243,000         13,443,074     3,799,926          22%
                  Corporation (TN)
                  Alpine Banks of
                                                 70,000,000         56,430,297    13,569,703          19%
                  Colorado
                  F & M Financial
                                                 17,000,000         15,988,500     1,011,500           6%                 84%
                  Corporation (NC)
                  Yadkin Valley Financial
                                                 49,312,000         43,486,820     5,825,180          12%
                  Corporationc
                  Total Loss                                                     $31,994,859
                  Average Discount                                                                    19%
                                                                                                         Continued on next page
                                                                         QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   103




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 12/31/2012              (CONTINUED)

                                                                                               Percentage
                                                                                                 of Shares
                                                                            Discount       Repurchased by
Institution                 Investment     Net Proceeds   Auction Loss    Percentage            Institution
Auctions Closed on 10/31/2012
Blue Ridge Bancshares,
                           $12,000,000       $8,969,400    $3,030,600             25%
Inc.
First Gothenburg
                               7,570,000      6,822,136       747,864             10%
Banschares, Inc.
Blackhawk Bancorp Inc.      10,000,000        9,009,000       991,000             10%
Germantown Capital
                               4,967,000      4,495,616       471,384              9%                  25%
Corporation, Inc.
CenterBank                     2,250,000      1,831,250       418,750             19%
Oak Ridge Financial
                               7,700,000      7,024,595       675,405              9%
Services, Inc.
Congaree Bancshares
                               3,285,000      2,685,979       599,021             18%                  35%
Inc.
Metro City Bank                7,700,000      6,861,462       838,538             11%                  15%
Peoples Bancshares of
                               3,900,000      2,919,500       980,500             25%
TN, Inc.
The Little Bank,
                               7,500,000      7,285,410       214,590              3%                  63%
Incorporated
HomeTown Bankshares
                            10,000,000        9,093,150       906,850              9%
Corporation
Total Loss                                                $9,874,502
Average Discount                                                                 13%
Auctions Closed on 11/9/2012
BankGreenville Financial
                            $1,000,000        $891,000       $109,000             11%
Corporation
Capital Pacific Bancorp        4,000,000      3,715,906       284,094              7%
F&C Bancorp, Inc.              2,993,000      2,840,903       152,097              5%
Farmers Enterprises,
                            12,000,000       11,439,252       560,748              5%                  99%
Inc.
First Freedom
                               8,700,000      7,945,492       754,508              9%                  69%
Bancshares, Inc.
Franklin Bancorp, Inc.         5,097,000      3,191,614     1,905,386             37%
Regional Bankshares,
                               1,500,000      1,373,625       126,375              8%                  47%
Inc.
Sound Banking
                               3,070,000      2,804,089       265,911              9%
Company
Three Shores
                               5,677,000      4,992,788       684,212             12%
Bancorporation, Inc.
Timberland Bancorp,
                            16,641,000       14,209,334     2,431,666             15%
Inc.
Western Illinois
                            11,422,000       10,616,305       805,695              7%                  89%
Bancshares, Inc.
Total Loss                                                $8,079,692
Average Discount                                                                 11%
                                                                                     Continued on next page
104   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                   INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 12/31/2012               (CONTINUED)

                                                                                                                  Percentage
                                                                                                                    of Shares
                                                                                                  Discount    Repurchased by
                   Institution                   Investment       Net Proceeds   Auction Loss   Percentage         Institution
                   Auctions Closed on 11/30/2012
                   Alaska Pacific
                                                 $4,781,000         $4,217,568      $563,432          12%
                   Bancshares, Inc.
                   Bank of Commerce               3,000,000          2,477,000       523,000          17%
                   Carolina Trust Bank            4,000,000          3,362,000       638,000          16%
                   CBB Bancorp                    4,397,000          4,066,752       330,248           8%                 35%
                   Clover Community
                                                  3,000,000          2,593,700       406,300          14%
                   Bankshares, Inc.
                   Community Bancshares
                                                  1,050,000           977,750         72,250           7%                 52%
                   of Mississippi, Inc.
                   Community Business
                                                  3,976,000          3,692,560       283,440           7%
                   Bank
                   Corning Savings and
                                                    638,000           523,680        114,320          18%
                   Loan Association
                   Country Bank Shares,
                                                  7,525,000          6,838,126       686,874           9%
                   Inc.
                   FFW Corporation                7,289,000          6,515,426       773,574          11%
                   Hometown Bancshares,
                                                  1,900,000          1,766,510       133,490           7%                 39%
                   Inc.
                   KS Bancorp, Inc.               4,000,000          3,283,000       717,000          18%
                   Layton Park Financial
                                                  3,000,000          2,345,930       654,070          22%
                   Group, Inc.
                   Parke Bancorp, Inc.           16,288,000         11,595,735     4,692,265          29%
                   TriSummit Bank                 7,002,000          5,198,984     1,803,016          26%
                   Total Loss                                                    $12,391,279
                   Average Discount                                                                   15%
                   Auctions Closed on 12/11/2012
                   The Baraboo
                                                $20,749,000        $13,399,227    $7,349,773          35%
                   Bancorporation, Inc.
                   Central Community
                                                 22,000,000         20,172,636     1,827,364           8%
                   Corporation
                   Community West
                                                 15,600,000         11,181,456     4,418,544          28%
                   Bancshares
                   First Advantage
                                                  1,177,000          1,046,621       130,379          11%
                   Bancshares, Inc.
                   Manhattan Bancshares,
                                                  2,639,000          2,560,541        78,459           3%                 96%
                   Inc.
                   Presidio Bank                 10,800,000          9,058,369     1,741,631          16%
                   Security Bancshares of
                                                  2,152,000          1,475,592       676,408          31%
                   Pulaski County, Inc.
                   Total Loss                                                    $16,222,558
                   Average Discount                                                                   19%
                                                                                                         Continued on next page
                                                                                                                                QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013                      105




 INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 12/31/2012                                                                         (CONTINUED)

                                                                                                                                                                Percentage
                                                                                                                                                                  of Shares
                                                                                                                                     Discount               Repurchased by
 Institution                                   Investment                Net Proceeds                   Auction Loss               Percentage                    Institution
 Auctions Closed on 12/20/2012
 Bank Financial Services,
                                               $1,004,000                       $907,937                       $96,063                        10%
 Inc.
 Bank of Southern
                                                 4,243,000                     3,850,150                       392,850                          9%                            30%
 California, N.A.
 Century Financial
                                               10,000,000                      9,751,500                       248,500                          2%
 Services Corporation
 Community Investors
                                                 2,600,000                     2,445,000                       155,000                          6%                            54%
 Bancorp, Inc.
 First Alliance
                                                 3,422,000                     2,370,742                    1,051,258                         31%
 Bancshares, Inc.
 First Independence
                                                 3,223,000                     2,286,675                       936,325                        29%
 Corporation
 Hyperion Bank                                   1,552,000                       983,800                       568,200                        37%
 Total Loss                                                                                              $3,448,196
 Average Discount                                                                                                                            18%
     Total Auction Losses                                                                            $256,178,647
     Average Discount                                                                                                                        15%
 Notes: Numbers may not total due to rounding.
 a
   Treasury additionally sold 1,100 shares of its Series C stock in First Community Financial Partners, Inc. in this auction, but its largest investment in the bank was sold in the
   auction that closed on 9/12/2012, and the data for the disposition of its investment is listed under the 9/12/2012 auction in this table.
 b
    Treasury did not sell all of its shares of First Western Financial, Inc. in this auction. The bank remains in TARP and Treasury records its remaining investment as $3,881,000.
 c
    This institution was auctioned separately from the other set that closed on the same date because it is a publicly traded company.

 Sources: Treasury, Transactions Report, 12/28/2012; SNL Financial LLC data.




CPP Banks Exiting TARP by Refinancing into CDCI and SBLF
On October 21, 2009, the Administration announced the Community                                                                                           For SIGTARP’s recommendations to
Development Capital Initiative (“CDCI”) as another TARP-funded program.348                                                                                Treasury about applying SBLF to TARP
Under CDCI, TARP made $570.1 million in investments in 84 eligible banks and                                                                              recipients, see SIGTARP’s January 2011
credit unions.349 Qualifying CPP banks applied for the new TARP program, and 28                                                                           Quarterly Report, pages 185-192.
banks were accepted. The 28 banks refinanced $355.7 million in CPP investments
                                                                                                                                                          For a detailed list of banks that exited
into CDCI.350 For more information on CDCI, see “Community Development
                                                                                                                                                          TARP by refinancing into SBLF, see
Capital Initiative” in this section.
                                                                                                                                                          SIGTARP’s October 2012 Quarterly
     On September 27, 2010, the President signed into law the Small Business Jobs
                                                                                                                                                          Report, pages 88-92.
Act of 2010 (“Jobs Act”), which created the non-TARP program SBLF for Treasury
to make up to $30 billion in capital investments in institutions with less than $10                                                                       For a discussion of the impact of TARP
billion in total assets.351 According to Treasury, it received a total of 935 SBLF ap-                                                                    and SBLF on community banks, see
plications, of which 320 were TARP recipients under CPP (315) or CDCI (5).352                                                                             SIGTARP’s April 2012 Quarterly report,
Treasury approved the exit of 137 CPP participants from TARP, which included                                                                              pages 145-167.
refinancing Treasury’s TARP preferred stock into $2.7 billion in SBLF preferred
stock.353 None of the CDCI recipients were approved for participation.

Warrant Disposition
As required by EESA, Treasury received warrants when it invested in troubled
assets from financial institutions, with an exception for certain small institutions.
106            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      For more information on warrant                 With respect to financial institutions with publicly traded securities, these warrants
      disposition, see SIGTARP’s audit report         gave Treasury the right, but not the obligation, to purchase a certain number of
      of May 10, 2010, “Assessing Treasury’s          shares of common stock at a predetermined price.354 Because the warrants rise in
      Process to Sell Warrants Received from          value as a company’s share price rises, they permit Treasury (and the taxpayer) to
      TARP Recipients.”                               benefit from a firm’s potential recovery.355
                                                          For publicly traded institutions, the warrants received by Treasury under CPP
                                                      allowed Treasury to purchase additional shares of common stock in a number
                                                      equal to 15% of the value of the original CPP investment at a specified exercise
                                                      price.356 Treasury’s warrants constitute assets with a fair market value that Treasury
      Exercise Price: Preset price at which
                                                      estimates using relevant market quotes, financial models, and/or third-party
      a warrant holder may purchase each
                                                      valuations.357 As of December 31, 2012, Treasury had not exercised any of these
      share. For warrants in publicly traded
                                                      warrants.358 For privately held institutions, Treasury received warrants to purchase
      institutions issued through CPP, this
                                                      additional preferred stock or debt in an amount equal to 5% of the CPP invest-
      was based on the average stock price
                                                      ment. Treasury exercised these warrants immediately.359 Unsold and unexercised
      during the 20 days before the date
                                                      warrants expire 10 years from the date of the CPP investment.360
      that Treasury granted preliminary CPP
      participation approval.
                                                      Repurchase of Warrants by Financial Institutions
                                                      Upon repaying its CPP investment, a recipient may seek to negotiate with Treasury
                                                      to buy back its warrants. As of December 31, 2012, 127 publicly traded institutions
                                                      had bought back $3.8 billion worth of warrants. As of that same date, 189 privately
                                                      held institutions, the warrants of which had been immediately exercised, bought
                                                      back the resulting additional preferred shares for a total of $90.4 million, of which
                                                      $20.2 million was bought back this quarter.361 There were no publicly repurchased
                                                      warrants this quarter. Table 2.22 lists privately held institutions that had done so in
                                                      the same quarter.362
                                                                                 QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   107




TABLE 2.22
 CPP WARRANT SALES AND REPURCHASES (PRIVATE) FOR THE QUARTER ENDING
 12/31/2012
                                                                              Number of       Amount of
                                                                               Warrants     Repurchase
 Repurchase Date   Company                                                  Repurchased   ($ Thousands)
 11/28/2012        First South Bancorp, Inc.a                                 2,500,000         $2,500.0
 12/11/2012        First American Bank Corporation    a
                                                                              2,500,000          2,500.0
                   Central Community Corporation / First State Bank of
 12/11/2012                                                                   1,100,000          1,100.0
                   Central Texas
 12/11/2012        The Baraboo Bancorporation                                 1,037,000          1,037.0
                   Foresight Financial Group, Inc. (Northwest Bank of
 12/11/2012                                                                     750,000            750.0
                   Rockford)
                   First Community Bancshares, Inc / First Community Bank
 10/25/2012                                                                     740,000            740.0
                   (now Equity Bancshares, Inc.)
 10/31/2012        Blue Ridge Bancshares, Inc.                                  600,000            600.0
 11/13/2012        Farmers Enterprises, Inc.a                                   600,000            600.0
 10/31/2012        Blackhawk Bancorp, Inc.                                      500,000            500.0
 12/20/2012        Century Financial Services Corporationa                      500,000            500.0
 10/31/2012        Metro City Bank                                              385,000            385.0
 10/31/2012        First Gothenburg Bancshares, Inc. / First State Bank         379,000            379.0
 11/29/2012        Country Bank Shares, Inc.                                    376,000            376.0
 10/31/2012        The Little Bank, Incorporated                                375,000            375.0
 10/31/2012        HomeTown Bankshares Corporation                              374,000            374.0
 10/24/2012        First BancTrust Corporation                                  368,000            368.0
 11/30/2012        FFW Corporation/Crossroads Bank                              364,000            364.0
                   Community Financial Shares, Inc./Community Bank-
 12/21/2012                                                                     349,000            349.0
                   Wheaton/Glen Ellyn
 11/9/2012         Western Illinois Bancshares Inc.                             343,000            343.0
 12/11/2012        Presidio Bank                                                325,000            325.0
 12/5/2012         Moscow Bancshares, Inc.                                      311,000            311.0
 11/1/2012         ICB Financial/Inland Community Bank                          300,000            300.0
 11/9/2012         Three Shores Bancorporation, Inc                             284,000            284.0
 11/9/2012         First Freedom Bancshares, Inc.                               261,000            261.0
 11/13/2012        Franklin Bancorp, Inc.                                       255,000            255.0
 10/31/2012        Germantown Capital Corporation / First Capital Bank          248,000            248.0
 11/30/2012        Western Reserve Bancorp, Inc                                 235,000            235.0
 11/9/2012         Capital Pacific Bancorp                                      200,000            200.0
 11/30/2012        KS Bancorp, Inc                                              200,000            200.0
                   HPK Financial Corporation (Hyde Park Bank and Trust
 12/11/2012                                                                     200,000            200.0
                   Company)
 11/30/2012        Community Business Bank                                      199,000            199.0
                                                                                   Continued on next page
108   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                             CPP WARRANT SALES AND REPURCHASES (PRIVATE) FOR THE QUARTER ENDING
                             12/31/2012 (CONTINUED)
                                                                                                                                              Number of                 Amount of
                                                                                                                                               Warrants               Repurchase
                             Repurchase Date             Company                                                                            Repurchased             ($ Thousands)
                             10/31/2012                  Peoples Bancshares of TN, Inc                                                              195,000                    $195.0
                             12/20/2012                  First Alliance Bancshares, Inc.                                                            171,000                      171.0
                             10/31/2012                  Congaree Bancshares, Inc.                                                                  164,000                      164.0
                             11/13/2012                  Sound Banking Company                                                                      154,000                      154.0
                             11/30/2012                  Bank of Commerce                                                                           150,000                      150.0
                             11/29/2012                  Clover Community Bankshares, Inc.                                                          150,000                      150.0
                             11/13/2012                  F & C Bancorp, Inc.a                                                                       150,000                      150.0
                             11/29/2012                  Layton Park Financial Group, Inc.                                                          150,000                      150.0
                                                         HPK Financial Corporation (Hyde Park Bank and
                             12/11/2012                                                                                                             144,000                      144.0
                                                         Trust Company)
                             11/29/2012                  TriSummit Bank                                                                             138,000                      138.0
                             11/29/2012                  CBB Bancorp / Century Bank of Georgia                                                      132,000                      132.0
                             12/11/2012                  Manhattan Bancshares, Inc.a                                                                132,000                      132.0
                             12/20/2012                  Community Investors Bancorp, Inc.                                                          130,000                      130.0
                             12/19/2012                  Community 1st Bank                                                                         128,000                      128.0
                             10/31/2012                  CenterBank                                                                                 113,000                      113.0
                                                         Bank of Southern California, N.A. formerly First Business
                             12/20/2012                                                                                                             111,000                      111.0
                                                         Bank, National Association
                             12/11/2012                  Security Bancshares of Pulaski County, Inc.                                                108,000                      108.0
                             11/1/2012                   Fresno First Bank                                                                           98,000                        98.0
                             11/30/2012                  Hometown Bancshares, Inc.                                                                   95,000                        95.0
                             12/28/2012                  Monadnock Bancorp, Inc.                                                                     92,000                        92.0
                             12/20/2012                  Hyperion Bank                                                                               78,000                        78.0
                             11/9/2012                   Regional Bankshares, Inc.                                                                   75,000                        75.0
                             12/11/2012                  First Advantage Bancshares Inc.                                                             59,000                        59.0
                             11/9/2012                   BankGreenville Financial Corporation                                                        50,000                        50.0
                             12/20/2012                  Bank Financial Services, Inc.                                                               50,000                        50.0
                             11/30/2012                  Corning Savings and Loan Association                                                        32,000                        32.0
                             12/19/2012                  The Freeport State Bank                                                                     15,000                        15.0
                                                         Community Holding Company of Florida, Inc.
                             11/30/2012                                                                                                                5,000                         5.0
                                                         (now Community Bancshares of Mississippi, Inc.)
                             Total                                                                                                            20,227,000                 $20,227.0
                             Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise of warrants issued by
                             non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date. Treasury may hold one warrant for millions of
                             underlying shares rather than millions of warrants of an individual financial institution.
                             a
                               S-Corporation Institution: issued subordinated debt instead of preferred stock.

                             Sources: Treasury, Transactions Report, 12/28/2012; Treasury, response to SIGTARP data call, 1/11/2013.
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013              109




Treasury Warrant Auctions
If Treasury and the repaying institution cannot agree upon the price for the
institution to repurchase its warrants, Treasury may conduct a public or private
offering to auction the warrants.363 As of December 31, 2012, the combined
proceeds from Treasury’s public and private warrant auctions totaled $5.5 billion.364

Public Warrant Auctions
In November 2009, Treasury began using a modified Dutch auction to sell the
warrants publicly.365 On the announced auction date, potential investors (which
may include the CPP recipient) submit bids to the auction agent that manages                 Auction Agent: Firm (such as an
the sale (for CPP-related warrants, Deutsche Bank) at specified increments above             investment bank) that buys a series of
a minimum price set by Treasury.366 Once the auction agent receives all bids, it             securities from an institution for resale.
determines the final price and distributes the warrants to the winning bidders.367
Treasury did not conduct any public warrant auctions this quarter.368 Through
December 31, 2012, Treasury had held 26 public auctions for warrants it received
under CPP, TIP, and AGP, raising a total of approximately $5.4 billion.369 Final
closing information for all public warrant auctions is shown in Table 2.23.
110               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      TABLE 2.23
       PUBLIC TREASURY WARRANT AUCTIONS, AS OF 12/31/2012
                                                                                                              Number of            Minimum                Selling      Proceeds to Treasury
       Auction Date                   Company                                                            Warrants Offered          Bid Price               Price                ($ Millions)
                                      Bank of America A Auction (TIP)a                                          150,375,940             $7.00              $8.35                        $1,255.6
       3/3/2010
                                      Bank of America B Auction (CPP)             a
                                                                                                                121,792,790               1.50               2.55                           310.6
       12/10/2009                     JPMorgan Chase                                                             88,401,697               8.00             10.75                            950.3
       5/20/2010                      Wells Fargo and Company                                                   110,261,688               6.50               7.70                           849.0
       9/21/2010                      Hartford Financial Service Group, Inc.                                     52,093,973             10.50              13.70                            713.7
       4/29/2010                      PNC Financial Services Group, Inc.                                         16,885,192             15.00              19.20                            324.2
                                      Citigroup A Auction (TIP & AGP)         a
                                                                                                                255,033,142               0.60               1.01                           257.6
       1/25/2011
                                      Citigroup B Auction (CPP)a                                                210,084,034               0.15               0.26                             54.6
       9/16/2010                      Lincoln National Corporation                                               13,049,451             13.50              16.60                            216.6
       5/6/2010                       Comerica Inc.                                                              11,479,592             15.00              16.00                            183.7
       12/3/2009                      Capital One                                                                12,657,960               7.50             11.75                            148.7
       11/29/2012                     M&T Bank Corporation                                                         1,218,522            23.50                1.35                             32.3
       2/8/2011                       Wintrust Financial Corporation                                               1,643,295            13.50              15.80                              26.0
       6/2/2011                       Webster Financial Corporation                                                3,282,276              5.50               6.30                             20.4
                                      SunTrust A Auctionb                                                          6,008,902              2.00               2.70                             16.2
       9/22/2011
                                      SunTrust B Auction      b
                                                                                                                 11,891,280               1.05               1.20                             14.2
       3/9/2010                       Washington Federal, Inc.                                                     1,707,456              5.00               5.00                             15.6
       3/10/2010                      Signature Bank                                                                  595,829           16.00              19.00                              11.3
       12/15/2009                     TCF Financial                                                                3,199,988              1.50               3.00                               9.6
       12/5/2012                      Zions Bancorporation                                                         5,789,909            23.50              26.50                                7.8
       3/11/2010                      Texas Capital Bancshares, Inc.                                                  758,086             6.50               6.50                               6.7
       2/1/2011                       Boston Private Financial Holdings, Inc.                                      2,887,500              1.40               2.20                               6.4
       5/18/2010                      Valley National Bancorp                                                      2,532,542              1.70               2.20                               5.6
       11/30/2011                     Associated Banc-Corpc                                                        3,983,308              0.50               0.90                               3.6
       6/2/2010                       First Financial Bancorp                                                         465,117             4.00               6.70                               3.1
       6/9/2010                       Sterling Bancshares Inc.                                                     2,615,557              0.85               1.15                               3.0
       Total                                                                                               1,090,695,026                                                             $5,446.40
       Notes: Numbers may not total due to rounding.
       a
         Treasury held two auctions each for the sale of Bank of America and Citigroup warrants.
       b
         Treasury held two auctions for SunTrust’s two CPP investments dated 11/14/2008 (B auction) and 12/31/2008 (A auction).
       c
         According to Treasury, the auction grossed $3.6 million and netted $3.4 million.

       Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/Archives/edgar/data/713676/000119312510101032/d424b5.htm, accessed
       1/2/2013; Valley National Bancorp, “Final Prospectus Supplement,” 5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 1/2/2013; Comerica
       Incorporated, “Final Prospectus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.htm, accessed 1/2/2013; Wells Fargo and Company, “Definitive
       Prospectus Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 1/2/2013; First Financial Bancorp, “Prospectus Supplement,”
       6/2/2010, www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.htm, accessed 1/2/2013; Sterling Bancshares, Inc., “Prospectus Supplement,” 6/9/2010,
       www.sec.gov/Archives/edgar/data/891098/000119312510136584/dfwp.htm, accessed 1/2/2013; Signature Bank, “Prospectus Supplement,” 3/10/2010, files.shareholder.com/downloads/
       SBNY/1456015611x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 1/2/2013; Texas Capital Bancshares, Inc., “Prospectus Supplement,”
       3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 1/2/2013; Bank of America, “Form 8-K,” 3/3/2010, www.sec.gov/Archives/edgar/
       data/70858/000119312510051260/d8k.htm, accessed 1/2/2013; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510045775/
       d424b2.htm, accessed 1/2/2013; Washington Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/data/936528/000119312510052062/d424b5.htm, accessed
       1/2/2013; TCF Financial, “Prospectus Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed 1/2/2013; JPMorgan Chase,
       “Prospectus Supplement,” 12/11/2009, www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed 1/2/2013; Capital One Financial, “Prospectus Supplement,”
       12/3/2009, www.sec.gov/Archives/edgar/data/927628/000119312509247252/d424b5.htm, accessed 1/2/2013; Treasury, Transactions Report, 12/28/2012; Hartford Financial Services Group,
       Prospectus Supplement to Prospectus filed with the SEC 8/4/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 1/2/2013; Treasury,
       “Treasury Announces Pricing of Public Offering to Purchase Common Stock of The Hartford Financial Services Group, Inc.,” 9/22/2010, www.treasury.gov/press-center/press-releases/Pages/tg865.
       aspx, accessed 1/2/2013; Lincoln National Corporation, Prospectus Supplement to Prospectus filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/data/59558/000119312510211941/
       d424b5.htm, accessed 1/2/2013; Lincoln National Corporation, 8-K, 9/22/2010, www.sec.gov/Archives/edgar/data/59558/000119312510214540/d8k.htm, accessed 1/2/2013; Treasury, Section
       105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/
       Pages/tg1033.aspx, accessed 1/2/2013; Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 1/2/2013;
       Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 1/2/2013; Boston Private Financial Holdings, Inc.,
       Prospectus, 1/28/2011, www.sec.gov/Archives/edgar/data/821127/000119312511021392/d424b5.htm, accessed 1/2/2013; Boston Private Financial Holdings, Inc. 8-K, 2/7/2011, www.sec.
       gov/Archives/edgar/data/821127/000144530511000189/tarpwarrant020711.htm, accessed 1/2/2013; Wintrust Financial Corporation, Prospectus, 2/8/2011, www.sec.gov/Archives/edgar/
       data/1015328/000095012311011007/c62806b5e424b5.htm, accessed 1/2/2013; Treasury, Section 105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to
       Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 1/2/2013; Treasury, Citigroup Preliminary Prospectus – CPP
       Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/y89178b7e424b7.htm, accessed 1/2/2013; Citigroup, Preliminary Prospectus – TIP & AGP Warrants,
       1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 1/2/2013; Treasury, responses to SIGTARP data call, 4/6/2011, 7/14/2011,
       10/5/2011, 10/11/2011, and 1/11/2012; Treasury Press Release, “Treasury Department Announces Public Offerings of Warrants to Purchase Common Stock of Suntrust Banks, Inc.,” 9/21/2011, www.
       treasury.gov/press-center/press-releases/Pages/tg1300.aspx, accessed 1/2/2013; “Treasury Department Announces Public Offering of Warrants to Purchase Common Stock of Associated Banc-Corp,”
       11/29/2011, www.treasury.gov/press-center/press-releases/Pages/tg1372.aspx, accessed 1/2/2013, Treasury, “Treasury Department Announces Public Offering of Warrant to Purchase Common
       Stock of M&T Bank Corporation,” 12/10/2012, www.treasury.gov/press-center/press-releases/Pages/tg1793.aspx, accessed 1/14/2013, Treasury, “Treasury Department Announces Public Offering of
       Warrants to Purchase Common Stock of Zions Bancorporation,” 11/28/2012, www.treasury.gov/press-center/press-releases/Pages/tg1782.aspx, accessed 1/14/2013.
                                                                                                                      QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013           111




Private Warrant Auctions
In late 2011, Treasury devised another method for selling warrants. On                                                                Qualified Institutional Buyers (“QIB”):
November 17, 2011, Treasury conducted a private auction to sell warrants of                                                           Institutions that under U.S. securities
CPP participants. In the auction, Treasury sold its warrant positions in a group of                                                   law are permitted to buy securities
17 financial institutions listed in Table 2.24 for $12.7 million.370 Treasury stated                                                  that are exempt from registration
that a private auction was necessary because the warrants did not meet the listing                                                    under investor protection laws and
requirements for the major exchanges, it would be more cost-effective for these                                                       to resell those securities to other
smaller institutions, and that grouping the warrants of the 17 institutions in a                                                      QIBs. Generally these institutions own
single auction would raise investor interest in the warrants.371 The private auction                                                  and invest at least $100 million in
was a discrete, or winner-takes-all, auction. The warrants were not registered under                                                  securities, or are registered broker-
the Securities Act of 1933 (the “Act”). As a result, Treasury stated that the warrants                                                dealers that own or invest at least $10
were offered only in private transactions to “(1) ‘qualified institutional buyers’ as                                                 million in securities.
defined in Rule 144A under the Act, (2) the issuer, and (3) a limited number of
‘accredited investors’ affiliated with the issuer.”372 Treasury has not conducted any                                                 Accredited Investors: Individuals or
private warrant auctions since then.                                                                                                  institutions that by law are considered
                                                                                                                                      financially sophisticated enough so
TABLE 2.24
                                                                                                                                      that they can invest in ventures that
 PRIVATE TREASURY WARRANT AUCTIONS ON 11/17/2011                                                                                      are exempt from investor protection
                                                                 Number of                                                            laws. Under U.S. securities laws, these
 Company                                                    Warrants Offered                      Proceeds to Treasury
                                                                                                                                      include many financial companies,
 Eagle Bancorp, Inc.                                                     385,434                                 $2,794,422
                                                                                                                                      pension plans, wealthy individuals,
 Horizon Bancorp                                                         212,188                                   1,750,551          and top executives or directors of the
 Bank of Marin Bancorp                                                   154,908                                   1,703,984          issuing companies.
 First Bancorp (of North Carolina)                                       616,308                                     924,462
 Westamerica Bancorporation                                              246,698                                     878,256
 Lakeland Financial Corp                                                 198,269                                     877,557
 F.N.B. Corporation                                                      651,042                                     690,100
 Encore Bancshares                                                       364,026                                     637,071
 LCNB Corporation                                                        217,063                                     602,557
 Western Alliance Bancorporation                                         787,107                                     415,000
 First Merchants Corporation                                             991,453                                     367,500
 1st Constitution Bancorp                                                231,782                                     326,576
 Middleburg Financial Corporation                                        104,101                                     301,001
 MidSouth Bancorp, Inc.                                                  104,384                                     206,557
 CoBiz Financial Inc.                                                    895,968                                     143,677
 First Busey Corporation                                                 573,833                                       63,677
 First Community Bancshares, Inc.                                          88,273                                      30,600
 Total                                                               6,822,837                                $12,713,548
 Source: “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/
 press-releases/Pages/tg1365.aspx, accessed 1/2/2013.
112            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Community Development Capital Initiative
                                                      The Administration announced the Community Development Capital Initiative
                                                      (“CDCI”) on October 21, 2009. According to Treasury, it was intended to help
                                                      small businesses obtain credit.373 Under CDCI, TARP made $570.1 million in
                                                      investments in the preferred stock or subordinated debt of 84 eligible banks, bank
      Community Development Financial                 holding companies, thrifts, and credit unions certified as Community Development
      Institutions (“CDFIs”): Financial               Financial Institutions (“CDFIs”) by Treasury. According to Treasury, these lower-
      institutions eligible for Treasury funding      cost capital investments were intended to strengthen the capital base of CDFIs
      to serve urban and rural low-income             and enable them to make more loans in low and moderate-income communities.374
      communities through the CDFI Fund.              CDCI was open to certified, qualifying CDFIs or financial institutions that applied
      CDFIs were created in 1994 by the               for CDFI status by April 30, 2010.375
      Riegle Community Development and                    According to Treasury, CPP-participating CDFIs that were in good standing
      Regulatory Improvement Act. These               could exchange their CPP investments for CDCI investments.376 CDCI closed to
      entities must be certified by Treasury;         new investments on September 30, 2010.377
      certification confirms that they target             As of December 31, 2012, 77 institutions remain in CDCI. Six institutions
      at least 60% of their lending and other         repaid the Government, including four that repaid this quarter, and one institution
      economic development activities                 previously had its subsidiary bank fail.378
      to areas underserved by traditional
      financial institutions.                         CDCI Investment Update
                                                      Treasury invested $570.1 million in 84 institutions under the program — 36 banks
      Risk-Weighted Assets: Risk-based                or bank holding companies and 48 credit unions.379 Of the 36 investments in banks
      measure of total assets held by                 and bank holding companies, 28 were conversions from CPP (representing $363.3
      a financial institution. Assets are             million of the total $570.1 million); the remaining eight were not CPP participants.
      assigned broad risk categories. The             Treasury provided an additional $100.7 million in CDCI funds to 10 of the banks
      amount in each risk category is then            converting CPP investments. Only $106 million of the total CDCI funds went to
      multiplied by a risk factor associated          institutions that were not in CPP. As of December 31, 2012, Treasury had received
      with that category. The sum of the              approximately $25 million in dividends and interest from CDCI recipients.380
      resulting weighted values from each of          Only six CDCI participants had repaid TARP as of December 31, 2012, including
      the risk categories is the bank’s total         four that repaid in this quarter. As of December 31, 2012, four institutions
      risk-weighted assets.                           (Community Bank of the Bay, First American International Corporation, First
                                                      Vernon Bancshares, Inc., and PGB Holdings, Inc.) had unpaid dividend or interest
      Subchapter S Corporations (“S                   payments to Treasury totaling $970,100.381 A list of all CDCI investments is
      corporations”): Corporate form that             included in Appendix D: “Transaction Detail.”
      passes corporate income, losses,
      deductions, and credit through to               Terms for Senior Securities and Dividends
      shareholders for Federal tax purposes.          An eligible bank, bank holding company, or thrift could apply to receive capital in
      Shareholders of S corporations report           an amount up to 5% of its risk-weighted assets. A credit union (which is a member-
      the flow-through of income and losses           owned, nonprofit financial institution with a capital and governance structure
      on their personal tax returns and are           different from that of for-profit banks) could apply for Government funding of
      taxed at their individual income tax            up to 3.5% of its total assets — roughly equivalent to the 5% of risk-weighted
      rates.                                          assets for banks.382 Participating credit unions and Subchapter S corporations
                                                      (“S corporations”) issued subordinated debt to Treasury in lieu of the preferred
                                                      stock issued by other CDFI participants.383 Many CDFI investments have an
                                                      initial dividend rate of 2%, which increases to 9% after eight years. Participating
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   113




S corporations pay an initial rate of 3.1%, which increases to 13.8% after eight
years.384 A CDFI participating in CPP had the opportunity to request to convert
those shares into CDCI shares, thereby reducing the annual dividend rate it pays
the Government from 5% to as low as 2%.385 According to Treasury, CDFIs were
not required to issue warrants because of the de minimis exception in EESA, which
grants Treasury the authority to waive the warrant requirement for qualifying
institutions in which Treasury invested $100 million or less.
    If during the application process a CDFI’s primary regulator deemed it to be
undercapitalized or to have “quality of capital issues,” the CDFI had the opportu-
nity to raise private capital to achieve adequate capital levels. Treasury would match
the private capital raised on a dollar-for-dollar basis, up to a total of 5% of the
financial institution’s risk-weighted assets. In such cases, private investors had to
agree to assume any losses before Treasury.386
114            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Systemically Significant Failing Institutions Program
                                                      According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
                                                      program was established to “provide stability and prevent disruptions to financial
                                                      markets from the failure of a systemically significant institution.”387 Through
                                                      SSFI, between November 2008 and April 2009, Treasury invested $67.8 billion
                                                      in TARP funds in American International Group, Inc. (“AIG”), the program’s sole
                                                      participant.388 Treasury has sold all of its stock in AIG, but still holds warrants to
                                                      purchase AIG stock.
                                                          AIG also received bailout funding from the Federal Reserve Bank of New York
                                                      (“FRBNY”), which committed $35 billion in loans in a revolving credit facility;
      Special Purpose Vehicle (“SPV”):                another $52.5 billion in loans to create two special purpose vehicles (“SPV”),
      A legal entity, often off-balance-              Maiden Lane II and Maiden Lane III, to take mortgage-backed securities and
      sheet, that holds transferred assets            credit default swaps off AIG’s books; and a $25 billion investment for which
      presumptively beyond the reach of the           FRBNY acquired preferred interests in two other SPVs that housed certain AIG
      entities providing the assets, and that         insurance businesses.389 Combined, Treasury and FRBNY committed $182 billion
      is legally isolated from its sponsor or         to bail out AIG, of which $161 billion was disbursed.390
      parent company.                                     In January 2011, FRBNY and Treasury restructured their agreements with AIG
                                                      to use additional TARP funds and AIG funds to pay off amounts owed to FRBNY
                                                      and transfer FRBNY’s common stock and its interests in the insurance-related
      For more information on AIG and how             SPVs to Treasury. AIG’s subsequent sales of assets, FRBNY’s sales of securities in
      the company changed while under                 Maiden Lane II and Maiden Lane III, and Treasury’s sales of the AIG common
      TARP, see SIGTARP’s July 2012                   stock it held from TARP and FRBNY, have resulted in AIG repaying the amounts
      Quarterly Report, pages 151-167.                owed to Treasury and FRBNY. As of December 31, 2012, Treasury held warrants to
                                                      purchase approximately 2.7 million shares of AIG stock.
                                                          According to Treasury, in addition to recovering the full bailout amount,
                                                      taxpayers have received $22.7 billion in dividends, interest, gains, and other
                                                      income.391 This included payment to FRBNY of the full amount owed on the
                                                      revolving credit facility loan, plus interest and fees of $6.8 billion; full repayment
                                                      of the loans to Maiden Lane II and Maiden Lane III, plus $8.2 billion in gains
                                                      from securities cash flows and sales and $1.3 billion in interest; and full payment
                                                      of the $25 billion owed on the insurance-business SPVs, plus interest and fees
                                                      of $1.4 billion.392 Treasury’s books and records reflect only the shares of AIG that
                                                      Treasury received in TARP, reflecting that taxpayers have recouped $54.4 billion
                                                      of the $67.8 billion in TARP funds spent and realized losses on the sale of TARP
                                                      shares from an accounting standpoint of $13.5 billion.393 However, in the January
                                                      2011 restructuring of FRBNY and Treasury investments, TARP funds were used to
                                                      pay off AIG’s amounts owed to FRBNY and in return Treasury received FRBNY’s
                                                      stock in AIG. According to Treasury, when those shares are combined with TARP
                                                      shares in AIG, Treasury has made a $4.1 billion gain on the sale of the common
                                                      shares and AIG has paid $931 million in dividends, interest, and other income on
                                                      Treasury’s preferred shares.394
                                                          The Government’s rescue of AIG involved several different funding facilities
                                                      provided by FRBNY and Treasury, with various changes to the transactions over
                                                      time. The rescue of AIG was initially led by FRBNY and the Board of Governors of
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013            115




the Federal Reserve System (“Federal Reserve”). Prior to Treasury’s investment in
AIG, FRBNY extended an $85 billion revolving credit facility to AIG in September             Revolving Credit Facility: Line of
2008. With the passage of EESA on October 3, 2008, Treasury, through SSFI, took              credit for which borrowers pay a
on a greater role in AIG’s bailout as the Government expanded and later restruc-             commitment fee, allowing them to
tured its aid.                                                                               repeatedly draw down funds up to a
    The amount and types of Treasury’s outstanding AIG investments have changed              guaranteed maximum amount. The
over time as a result of the execution of AIG’s January 2011 Recapitalization Plan           amount of available credit decreases
(which resulted in the termination of FRBNY’s revolving credit facility, the transfer        and increases as funds are borrowed
of FRBNY’s preferred SPV interests to Treasury, and the conversion of preferred              and then repaid.
shares into common stock), preferred equity interest repayments, and Treasury’s
sale of common stock. These various investments, as well as their stages and
restructurings, are described below. Treasury’s preferred equity interests have been
fully retired.395

FRBNY Revolving Credit Facility
In September 2008, FRBNY extended an $85 billion revolving credit facility to
AIG, which was secured by AIG’s assets, in an effort to stabilize the company. In
return, AIG committed 79.8% of its voting equity to a trust for the sole benefit of
the United States Treasury (the “AIG Trust”).396 While the $85 billion revolving
credit facility was necessary to address the company’s severe liquidity shortage
resulting from collateral calls related to the company’s credit default swap (“CDS”)         Credit Default Swap (“CDS”): A contract
business and securities lending activities, because the entire facility was drawn            where the seller receives payments
upon, AIG’s leverage ratios increased significantly. The rapid deterioration in              from the buyer in return for agreeing to
AIG’s CDS and securities lending businesses, combined with this increased                    pay the buyer when a particular credit
leverage, put downward pressure on its credit rating.397 Federal officials feared            event occurs, such as when the credit
that future downgrades in AIG’s credit rating could have “catastrophic” effects on           rating on a bond is downgraded or a
the company, forcing it into bankruptcy.398 FRBNY and Treasury determined that               loan goes into default. The buyer does
this possibility posed a threat to the nation’s financial system and decided that            not need to own the asset covered by
additional transactions were necessary to modify the revolving credit facility.399           the contract, meaning the swap can
                                                                                             serve essentially as a bet against the
Restructurings of AIG Assistance                                                             underlying bond or loan.
In November 2008 and March 2009, FRBNY and Treasury took several actions to
stabilize AIG’s operations.400

Initial TARP Investment
First, on November 25, 2008, Treasury purchased $40 billion in AIG preferred
shares under TARP, the proceeds of which went directly to FRBNY to pay down
a portion of the outstanding balance of the existing revolving credit facility. In
return, Treasury received AIG Series D cumulative preferred stock and warrants to            Cumulative Preferred Stock: Stock
purchase AIG common stock.401 After that payment, the total amount available to              requiring a defined dividend payment. If
AIG under FRBNY’s revolving credit facility was reduced from $85 billion to $60              the company does not pay the dividend
billion.                                                                                     on schedule, it still owes the missed
                                                                                             dividend to the stock’s owner.
116            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Creation of Maiden Lane II & III
                                                      Second, also in November 2008, FRBNY created Maiden Lane II, an SPV, to
                                                      take significant mortgage-backed securities off AIG’s books. FRBNY lent $19.5
                                                      billion (out of $22.5 billion committed) to Maiden Lane II to fund the purchase of
                                                      residential mortgage-backed securities (“RMBS”) associated with AIG’s securities
                                                      lending program. This RMBS was in the securities-lending portfolios of several of
                                                      AIG’s U.S.-regulated insurance subsidiaries.
                                                           Finally, also in November 2008, FRBNY created Maiden Lane III, another SPV,
                                                      to which FRBNY lent $24.3 billion (out of $30 billion committed) to buy from
      Collateralized Debt Obligation (“CDO”):         AIG’s counterparties some of the collateralized debt obligations (“CDOs”) underly-
      A security that entitles the purchaser          ing the CDS contracts written by AIG.
      to some part of the cash flows from a
      portfolio of assets such as mortgage-           Second TARP Investment
      backed securities, bonds, loans, or             On March 2, 2009, Treasury and FRBNY announced a restructuring of Govern-
      other CDOs.                                     ment assistance to AIG that, according to Treasury, was designed to strengthen the
                                                      company’s capital position.402 These measures included the conversion of Treasury’s
      Non-Cumulative Preferred Stock:                 first TARP investment and Treasury’s commitment to fund a second TARP invest-
      Preferred stock with a defined                  ment in AIG.
      dividend, without the obligation to pay             On April 17, 2009, AIG and Treasury signed a securities exchange agreement
      missed dividends.                               under which Treasury exchanged the Series D cumulative preferred stock, which
                                                      required AIG to make quarterly dividend and interest payments, for $41.6 bil-
      Equity Capital Facility: Commitment             lion (including $1.6 billion in missed dividend payments) of less valuable Series E
      to invest equity capital in a firm              non-cumulative preferred stock, which required AIG to make dividend and inter-
      under certain future conditions. An             est payments only if AIG’s board of directors declared a dividend. Additionally, on
      equity facility when drawn down is              April 17, 2009, Treasury committed to fund an equity capital facility under which
      an investment that increases the                AIG could draw down up to $29.8 billion in exchange for Series F non-cumulative
      provider’s ownership stake in the               preferred stock (that had similar terms to the Series E) and additional warrants, of
      company. The investor may be able to            which AIG drew down $27.8 billion.403
      recover the amount invested by selling
      its ownership stake to other investors          Creation of Additional Special Purpose Vehicles and Sale of Assets Under SPVs
      at a later date.                                The March 2009 restructuring measures also included an authorization for FRBNY
                                                      to acquire up to $26 billion of preferred equity interests in two SPVs, AIA Aurora
                                                      LLC (“AIA SPV”) and ALICO Holdings LLC (“ALICO SPV”). The creation of the
                                                      SPVs also facilitated the independence of these two subsidiaries in anticipation of a
                                                      sale or initial public offering (“IPO”).404 Treasury received payments for its interest
                                                      in the SPVs and no longer holds an investment in the two SPVs.
                                                          Under the transaction’s original terms, with limited exceptions, all proceeds
                                                      from the voluntary sale, public offering, or other liquidation of the assets or busi-
                                                      nesses held by the SPVs had to be used first to fully redeem FRBNY’s interests in
      For a more detailed description of the          the SPVs and then to reduce the outstanding principal balance of AIG’s revolving
      disposition of Treasury’s interest in           credit facility. On December 1, 2009, FRBNY received $16 billion in preferred
      the SPVs, see SIGTARP’s April 2012              equity interests in the AIA SPV and $9 billion in the ALICO SPV.405 AIG later com-
      Quarterly Report, pages 112-113.                pleted an IPO of 8.1 billion shares of AIA Group Limited and a sale of 1.72 billion
                                                      shares of AIA and applied the $26.5 billion in total proceeds to amounts owed to
                                                      FRBNY and Treasury.406
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013      117




   On November 1, 2010, AIG sold ALICO to MetLife, Inc., for $16.2 billion,
$7.2 billion of which was paid in cash and $9 billion in equity interests in MetLife.
These equity interests were initially held in the ALICO SPV and were sold on
March 2, 2011, for $9.6 billion.407

AIG Recapitalization Plan
On January 14, 2011, AIG executed its Recapitalization Plan with the Government,              For a more detailed description of
which resulted in extinguishing FRBNY’s revolving credit facility, retiring FRBNY’s           the AIG Recapitalization Plan, see
remaining interests in the SPVs and transferring those interests to Treasury, and             SIGTARP’s January 2011 Quarterly
increasing Treasury’s TARP investment in AIG. AIG repaid $20.7 billion owed                   Report, pages 135-139.
to FRBNY’s revolving credit facility with proceeds from the AIA IPO and ALICO
sale. AIG drew down $20.3 billion in TARP funds under a Series F equity capital
facility to purchase certain of FRBNY’s interests in the ALICO SPV and AIA SPV
and transferred those interests to Treasury. AIG exchanged all prior outstanding
preferred shares held by the Government and issued new common stock to
Treasury representing a 92.1% interest in AIG. Treasury also created a new $2
billion Series G equity capital facility, which was never drawn down.408
     For the period November 25, 2008, to January 14, 2011, AIG had failed to pay
a total of $7.9 billion in dividend payments.409 After the Recapitalization Plan was
executed, AIG no longer had an obligation to pay dividends.

Treasury’s Equity Ownership Interest in AIG
As part of the Recapitalization Plan, AIG extinguished all prior outstanding
preferred shares held by the Government, comprising $41.6 billion of Series E
preferred shares and $7.5 billion drawn from the Series F equity capital facility.
In exchange, it issued 1.655 billion shares of common stock (which included 563
million Series C shares held by the AIG Trust for the benefit of the U.S. Treasury),
representing 92.1% of the common stock of AIG.410 The AIG Trust was then
terminated. AIG issued 10-year warrants to its existing non-Government common
shareholders to purchase up to a cumulative total of 75 million shares of common
stock at a strike price of $45 per share.411
    In a series of six offerings from May 2011 through December 2012, Treasury
sold its 1.655 billion shares of AIG’s common stock at an average price of $31.18
per share.412 The last of those sales took place on December 11, 2012, when
Treasury sold its remaining 234 million shares for $32.50 per share.413 The total
proceeds to Treasury from the final sale were $7.6 billion. As reflected on Treasury’s
TARP books and records, taxpayers have recouped $54.4 billion of the $67.8 billion
in TARP funds invested in AIG and realized losses from an accounting standpoint
of $13.5 billion on Treasury’s sale of AIG stock.414 The shares sold included AIG
common stock that Treasury obtained from FRBNY after the January 2011 restruc-
turing of the FRBNY and Treasury investments, and according to Treasury, the
Government overall made a $4.1 billion gain on the common stock sales and $931
million has been paid in dividends, interest, and other income.415 This does not
include payments made to FRBNY prior to the restructuring measures completed
in January 2011.
118   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      As of December 31, 2012, Treasury held warrants to purchase about 2.7 million
                                                  shares of AIG common stock.416
                                                      Table 2.25 provides details of Treasury’s sales of AIG common stock and AIG’s
                                                  buybacks of its stock. AIG was required to pay Treasury’s expenses for the registra-
                                                  tion of shares and underwriting fees, up to 1% of the amount offered by Treasury.417

                               TABLE 2.25
                                                                                                                                                 AIG’S BUYBACKS OF
                                TREASURY SALES OF AIG COMMON SHARES
                                                                                                                                                       SHARES
                                                     # Shares             Share         Proceeds                Remaining             UST          # Shares           Amount
                                Date*                (Millions)           Price         (Millions)                 Shares        Equity %          (Millions)        (Millions)
                                5/24/2011                 200.0         $29.00              $5,800         1,455,037,962                77%                 —                  —
                                3/8/2012                  206.9         $29.00              $6,000         1,248,141,410                70%             103.4           $3,000
                                5/6 and
                                                          188.5         $30.50              $5,750         1,059,616,821                61%              65.6           $2,000
                                5/7/2012
                                8/3 and
                                                          188.5         $30.50              $5,750            871,092,231               53%              98.4           $3,000
                                8/6/2012
                                9/10 and
                                                          636.9         $32.50            $20,700             234,169,156               16%             153.8           $5,000
                                9/11/2012
                                12/14/2012                234.2         $32.50              $7,610                         0             0%                   0               $0
                                Total                  1,655.0                           $51,610                                                       421.2         $13,000
                                Notes: Numbers may be affected by rounding.

                                *Sales with two dates means that an overallotment was also sold and is included in data.

                                Sources: Treasury, Transactions Report, 12/28/2012; AIG, Press Release, “AIG Announces U.S. Department of the Treasury Pricing of Offering to Sell
                                Shares of AIG Common Stock,” 3/8/2012, www.aigcorporate.com/newsroom/default.html, accessed 1/3/2013; AIG, Press Release, “AIG Announces
                                the U.S. Department of Treasury Completes Offering of AIG Common Stock,” 5/10/2012, www.aigcorporate.com/newsroom/default.html, accessed
                                1/3/2013; AIG, Press Release, “AIG Announces Completion of the U.S. Department of the Treasury Offering of AIG Common Stock,” 8/8/2012, www.
                                aigcorporate.com/newsroom/default.html, accessed 1/3/2013; AIG, Press Release, “AIG Announces U.S. Department of the Treasury Pricing of Offering
                                to Sell AIG Common Stock,” 9/10/2012, www.aigcorporate.com/newsroom/default.html, accessed 1/3/2013; AIG, Press Release, “AIG Announces
                                Completion of the U.S. Treasury’s $7.6 Billion Offering of AIG Common Stock,” 12/14/2012, www.aig.com/press-releases_3171_438003.html,
                                accessed 1/3/2013.
                                                                         QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013          119




FRBNY’s Sales of Maiden Lane II Securities
On February 28, 2012, FRBNY completed a series of 12 sales of securities in              CUSIP number (“CUSIP”): Unique
the Maiden Lane II portfolio.418 FRBNY sold a total of 773 CUSIP numbers                 identifying number assigned to all
(“CUSIPs”) from the Maiden Lane II portfolio, with a face amount totaling $29            registered securities in the United
billion.419                                                                              States and Canada; the name
     According to FRBNY, its management of the Maiden Lane II portfolio resulted         originated with the Committee on
in full repayment of the $19.5 billion loan extended by FRBNY to Maiden Lane             Uniform Securities Identification
II and generated a net gain of approximately $2.3 billion, plus $580 million in          Procedures.
accrued interest on the loan.420 According to FRBNY, as of December 31, 2012,
a cash balance of about $61 million remained in Maiden Lane II to pay for final
expenses of winding down the portfolio.421                                               For a more detailed description of the
                                                                                         Maiden Lane II securities sales, see
FRBNY’s Sales of Maiden Lane III Securities                                              SIGTARP’s October 2012 Quarterly
From April to August 2012, FRBNY sold a total of 371 CUSIPs from Maiden Lane             Report, pages 128-129.
III, with a face amount of $45.6 billion, of which AIG received $5.6 billion.422
    According to FRBNY, its management of the Maiden Lane III portfolio resulted
in full repayment of the $24.3 billion loan extended by FRBNY to Maiden Lane
III and generated a net gain of approximately $5.9 billion, plus $737 million in
accrued interest on the loan.423 According to FRBNY, as of December 31, 2012,
a cash balance of about $22 million remained in Maiden Lane III to pay for final
expenses of winding down the portfolio.424
                                                                                         For a more detailed description of the
    According to auction details released by FRBNY on November 23, 2012, AIG
                                                                                         Maiden Lane III securities sales, see
received $5.6 billion as repayment of its equity contribution to Maiden Lane III,
                                                                                         SIGTARP’s October 2012 Quarterly
including interest.425 After FRBNY’s loan to Maiden Lane III and AIG’s equity in-
                                                                                         Report, pages 129-130.
terest were repaid with interest, FRBNY and AIG split remaining auction proceeds,
with FRBNY receiving $5.9 billion and AIG receiving $2.9 billion.426
120            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Targeted Investment Program
                                                      Treasury invested a total of $40 billion in two financial institutions, Citigroup
                                                      Inc. (“Citigroup”) and Bank of America Corp. (“Bank of America”), through the
                                                      Targeted Investment Program (“TIP”). Treasury invested $20 billion in Citigroup
                                                      on December 31, 2008, and $20 billion in Bank of America on January 16, 2009,
                                                      in return for preferred shares paying quarterly dividends at an annual rate of 8%
                                                      and warrants from each institution.427 According to Treasury, TIP’s goal was to
                                                      “strengthen the economy and protect American jobs, savings, and retirement
                                                      security [where] the loss of confidence in a financial institution could result in
                                                      significant market disruptions that threaten the financial strength of similarly
                                                      situated financial institutions.”428 Both banks repaid TIP in December 2009.429 On
                                                      March 3, 2010, Treasury auctioned the Bank of America warrants it received under
                                                      TIP for $1.24 billion.430 On January 25, 2011, Treasury auctioned the Citigroup
                                                      warrants it had received under TIP for $190.4 million.431

                                                      Asset Guarantee Program
                                                      Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
                                                      Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to
                                                      provide loss protection on a pool of Citigroup assets valued at approximately $301
                                                      billion. In return, as a premium, the Government received warrants to purchase
                                                      Citigroup common stock and $7 billion in preferred stock. The preferred stock was
      Trust Preferred Securities (“TRUPS”):           subsequently exchanged for trust preferred securities (“TRUPS”).432
      Securities that have both equity                     Treasury received $4 billion of the TRUPS and FDIC received $3 billion.433
      and debt characteristics created by             Although Treasury’s asset guarantee was not a direct cash investment, it exposed
      establishing a trust and issuing debt           taxpayers to a potential TARP loss of $5 billion. On December 23, 2009, in con-
      to it.                                          nection with Citigroup’s TIP repayment, Citigroup and Treasury terminated the
                                                      AGP agreement. Although at the time of termination the asset pool suffered a
                                                      $10.2 billion loss, this number was below the agreed-upon deductible and the
                                                      Government suffered no loss.434
      For a discussion of the basis of the                 Treasury agreed to cancel $1.8 billion of the TRUPS issued by Citigroup,
      decision to provide Federal assistance to       reducing the premium it received from $4 billion to $2.2 billion, in exchange for
      Citigroup, see SIGTARP’s audit report,          the early termination of the loss protection. FDIC retained all of its $3 billion in
      “Extraordinary Financial Assistance             securities.435 Under the termination agreement, however, FDIC will transfer up to
      Provided to Citigroup, Inc.,” dated             $800 million of those securities to Treasury if Citigroup’s participation in FDIC’s
      January 13, 2011.                               Temporary Liquidity Guarantee Program closes without a loss.436
                                                           On September 29, 2010, Treasury entered into an agreement with Citigroup
                                                      to exchange the entire $2.2 billion in Citigroup TRUPS that it held under AGP for
                                                      new TRUPS. Because the interest rate necessary to receive par value was below
                                                      the interest rate paid by Citigroup to Treasury, Citigroup increased the principal
                                                      amount of the securities sold by Treasury by an additional $12 million, thereby
                                                      enabling Treasury to receive an additional $12 million in proceeds from the $2.2
                                                      billion sale of the Citigroup TRUPS, which occurred on September 30, 2010.437
                                                      On January 25, 2011, Treasury auctioned the Citigroup warrants it had received
                                                      under AGP for $67.2 million.438 According to Treasury, it has realized a gain of
                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   121




approximately $12.3 billion over the course of Citigroup’s participation in AGP,
TIP, and CPP, including dividends, other income, and warrant sales.439
    Bank of America announced a similar asset guarantee agreement with respect
to approximately $118 billion in Bank of America assets, but the final agreement
was never executed. Bank of America paid $425 million to the Government as a
termination fee.440 Of this $425 million, $276 million was paid to Treasury, $92
million was paid to FDIC, and $57 million was paid to the Federal Reserve.441
122            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      ASSET SUPPORT PROGRAMS
                                                      Three TARP programs have focused on supporting markets for specific asset
                                                      classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-
                                                      Private Investment Program (“PPIP”), and the Unlocking Credit for Small
                                                      Businesses (“UCSB”) program.
                                                          TALF was designed to support asset-backed securities (“ABS”) transactions
      Non-Recourse Loan: Secured loan                 by providing eligible borrowers $71.1 billion in non-recourse loans through the
      in which the borrower is relieved of            Federal Reserve Bank of New York (“FRBNY”) to purchase non-mortgage-backed
      the obligation to repay the loan upon           ABS and commercial mortgage-backed securities (“CMBS”). On June 28, 2012,
      surrendering the collateral.                    Treasury reduced its obligation in TALF from $4.3 billion to $1.4 billion, the
                                                      amount of TARP funds available to manage collateral for the TALF loans in the
      Collateral: Asset pledged by a                  event that borrowers surrender collateral and walk away from the loans or if the
      borrower to a lender until a loan is            collateral is seized in the event of default.442 Of the $71.1 billion in TALF loans,
      repaid. Generally, if the borrower              $555.6 million remains outstanding as of December 31, 2012.443
      defaults on the loan, the lender gains              PPIP uses a combination of private equity and Government equity and debt
      ownership of the pledged asset and              through TARP to facilitate purchases of legacy mortgage-backed securities (“MBS”)
      may sell it to satisfy the debt. In TALF,       held by financial institutions. In July 2009, Treasury announced the selection
      the ABS or CMBS purchased with                  of nine Public-Private Investment Fund (“PPIF”) managers. Treasury originally
      the TALF loan is the collateral that is         obligated $22.4 billion in TARP funds to the program, then reduced the obligation
      posted with FRBNY.                              over time when several PPIFs did not use the full amounts available to them. As
                                                      of December 31, 2012, Treasury has obligated $20.8 billion in TARP funds to
                                                      the program. One PPIP manager, The TCW Group Inc. (“TCW”) withdrew soon
                                                      after the program began. Four PPIP managers liquidated their portfolios in 2012
                                                      and fully repaid Treasury’s debt and equity: Invesco Legacy Securities Master
                                                      Fund, L.P. (“Invesco”), AllianceBernstein Legacy Securities Master Fund, L.P.
                                                      (“AllianceBernstein”), RLJ Western Asset Public/Private Master Fund, L.P. (“RLJ
                                                      Western”), and BlackRock Public-Private Investment Fund (“BlackRock”).444
                                                      In late 2012, PPIP’s three-year period for buying investments ended and the
                                                      remaining fund managers have up to five years to sell their holdings and return
                                                      the proceeds to Treasury and other investors. As of December 31, 2012, the
                                                      remaining four PPIP managers are managing their portfolios.
                                                          Through the UCSB loan support initiative, Treasury purchased $368.1 million
                                                      in 31 SBA 7(a) securities, which are securitized small-business loans.445 According
                                                      to Treasury, on January 24, 2012, Treasury sold its remaining securities and ended
                                                      the program with a total investment gain of about $9 million for all the securities,
                                                      including sale proceeds and payments of principal, interest, and debt.446

                                                      TALF
                                                      TALF, which was announced in November 2008, issued loans collateralized by
                                                      eligible ABS.447 According to FRBNY, TALF was “designed to increase credit
                                                      availability and support economic activity by facilitating renewed issuance of
                                                      consumer and business ABS.”448 TALF is divided into two parts:449
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013            123




•	 a lending program, TALF, in which FRBNY originated and managed non-
   recourse loans to eligible borrowers using eligible ABS and CMBS as collateral.
   TALF’s lending program closed in 2010
•	 an asset disposition facility, TALF LLC, that purchases the collateral from
   FRBNY if borrowers choose to surrender it and walk away from their loans or if
   the collateral is seized in the event of default

    The asset disposition facility, TALF LLC, is managed by FRBNY and remains in
operation.450 TALF loans are non-recourse (unless the borrower has made any mis-
representations or breaches warranties or covenants), which means that FRBNY
cannot hold the borrower liable for any losses beyond the surrender of collateral for
the TALF loan.451
    TALF LLC’s funding first comes from a fee charged to FRBNY for the commit-
                                                                                             For a discussion of the credit rating
ment to purchase any collateral surrendered by the borrowers. This fee is derived
                                                                                             agency industry and an analysis of the
from the principal balance of each outstanding TALF program loan.452 TARP is
                                                                                             impact of NRSROs on TARP and the
obligated to lend to TALF LLC up to $1.4 billion to cover losses on TALF loans.453
                                                                                             overall financial market, see SIGTARP’s
TALF LLC may use TARP funds to purchase surrendered assets from FRBNY and                    October 2009 Quarterly Report, pages
to offset losses associated with disposing of the surrendered assets. As of December         113–148.
31, 2012, $555.6 million in TALF loans was outstanding.454 According to FRBNY,
no TALF borrowers have surrendered collateral in lieu of repayment and conse-
quently no collateral has been purchased by TALF LLC since its inception.455

Lending Program
TALF’s lending program made secured loans to eligible borrowers.456 The loans
were issued with terms of three or five years and were available for non-mortgage-
backed ABS, newly issued CMBS, and legacy CMBS.457 The final maturity date of
loans in the TALF portfolio is March 30, 2015.458
     To qualify as TALF collateral, the non-mortgage-backed ABS had to have un-              Nationally Recognized Statistical Rating
derlying loans for automobile, student, credit card, or equipment debt; insurance            Organization (“NRSRO”): Credit rating
premium finance; SBA-guaranteed small business loans; or receivables for residen-            agency registered with the SEC. Credit
tial mortgage servicing advances (“servicing advance receivables”). Collateral was           rating agencies provide their opinion
also required to hold the highest investment grade credit ratings from at least two          of the creditworthiness of companies
nationally recognized statistical rating organizations (“NRSROs”).459                        and the financial obligations issued
     To qualify as TALF collateral, newly issued CMBS and legacy CMBS had to                 by companies. The ratings distinguish
have been issued by an institution other than a Government-sponsored enterprise              between investment grade and non–
(“GSE”) or an agency or instrumentality of the U.S. Government, offer principal              investment grade equity and debt
and interest payments, not be junior to other securities with claims on the same             obligations.
pool of loans, and possess the highest long-term investment grade credit rating
from at least two rating agencies.460 Newly issued CMBS had to be issued on or               TALF Agent: Financial institution that
after January 1, 2009, while legacy CMBS were issued before that date.461                    is party to the TALF Master Loan
                                                                                             and Security Agreement and that
Loan Terms                                                                                   occasionally acts as an agent for the
TALF participants were required to use a TALF agent to apply for a TALF loan.462             borrower. TALF agents include primary
After the collateral (the particular asset-backed security financed by the TALF loan)        and nonprimary broker-dealers.
124            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      was deemed eligible by FRBNY, the collateral was assigned a haircut. A haircut,
      Haircut: Difference between the value           which represents the amount of money put up by the borrower (the borrower’s
      of the collateral and the value of the          “skin in the game”), was required for each TALF loan.463 Haircuts for non-
      loan (the loan value is less than the           mortgage-backed ABS varied based on the riskiness and maturity of the collateral,
      collateral value).                              and generally ranged between 5% and 16% for non-mortgage-backed ABS with
                                                      average lives of five years or less.464 The haircut for legacy and newly issued CMBS
      “Skin in the Game”: Equity stake in an          was generally 15% but increased above that amount if the average life of the CMBS
      investment; down payment; the amount            was greater than five years.465
      an investor can lose.                               FRBNY lent each borrower the amount of the market price of the pledged col-
                                                      lateral minus the haircut, subject to certain limitations.466 The borrower delivered
      Custodian Bank: Bank holding the                the collateral to the custodian bank, which collects payments generated by the
      collateral and managing accounts for            collateral and distributes them to FRBNY (representing the borrower’s payment of
      FRBNY; for TALF the custodian is Bank           interest on the TALF loan).467 Any excess payments from the collateral above the
      of New York Mellon.                             interest due and payable to FRBNY on the loan go to the TALF borrower.468

                                                      TALF Loans
                                                      TALF provided $59 billion of loans to purchase non-mortgage-backed ABS
                                                      during the lending phase of the program, which ended on March 11, 2010. As of
                                                      December 31, 2012, $425.4 million was outstanding.469 Table 2.26 lists all TALF
                                                      loans collateralized by non-mortgage-backed ABS, by ABS sector.

                                                      TABLE 2.26
                                                       TALF LOANS BACKED BY ABS (NON-MORTGAGE-BACKED COLLATERAL)
                                                       ($ BILLIONS)

                                                       ABS Sector
                                                       Auto Loans                                                                                                           $12.8
                                                       Credit Card Receivables                                                                                               26.3
                                                       Equipment Loans                                                                                                         1.6
                                                       Floor Plan Loans                                                                                                        3.9
                                                       Premium Finance                                                                                                         2.0
                                                       Servicing Advance Receivables                                                                                           1.3
                                                       Small-Business Loans                                                                                                    2.2
                                                       Student Loans                                                                                                           8.9
                                                       Total                                                                                                               $59.0
                                                       Notes: Numbers may not total due to rounding. Data as of 12/31/2012.

                                                       Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.
                                                       html, accessed 1/2/2013; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/
                                                       TALF_recent_operations.html, accessed 1/2/2013.



                                                          TALF provided $12.1 billion of loans to purchase CMBS during the lending
                                                      phase of the program, which ended on June 28, 2010. Approximately 99% of the
                                                      loan amount was used to purchase legacy CMBS, with 1% newly issued CMBS.470
                                                      As of December 31, 2012, $130.2 million was outstanding.471 Table 2.27 includes
                                                      all TALF CMBS loans.
                                                                                                                   QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   125




TABLE 2.27
 TALF LOANS BACKED BY CMBS                         ($ BILLIONS)

 Type of Collateral
 Assets
 Newly Issued CMBS                                                                                                    $ 0.1
 Legacy CMBS                                                                                                           12.0
 Total                                                                                                               $12.1
 Notes: Numbers may not total due to rounding. Data as of 12/31/2012.

 Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.
 html, accessed 1/2/2013; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/
 CMBS_recent_operations.html, accessed 1/2/2013.



    TALF loans were issued with terms of three years or five years. The final matu-
rity date of the last of the five-year loans is March 30, 2015.472 Table 2.28 shows
the amount of outstanding TALF loans by maturity dates.

TABLE 2.28
 OUTSTANDING TALF LOANS, AS OF 12/31/2012 ($ MILLIONS)
                                                                   Remaining Maturity
                                                            Within 90      90 days to        Over 1 year
 Loan Collateral                                                 days          1 year         to 4 years               Total
 CMBS
 Legacy                                                           $2.8              $0.0            $127.3          $130.2
 Newly Issued                                                       0.0               0.0                0.0                0.0
 Total CMBS                                                       $2.8              $0.0           $127.3          $130.2
 Non-Mortgage
 Auto Loans                                                       $0.0              $0.0                $0.0           $0.0
 Credit Card Receivables                                            0.0               0.0                0.0                0.0
 Equipment Loans                                                    0.0               0.0                0.0                0.0
 Floor Plan Loans                                                   0.0               0.0                0.0                0.0
 Premium Finance                                                  46.5                0.0                0.0           46.5
 Servicing Advance Receivables                                      0.0               0.0                0.0                0.0
 Small-Business Loans                                               0.0               0.0                0.0                0.0
 Student Loans                                                      0.0               0.0             378.9          378.9
 Total Non-Mortgage                                             $46.5               $0.0           $378.9          $425.4
 All Outstanding TALF Loan Collateral                           $49.3               $0.0           $506.3          $555.6
 Notes: Numbers may not total due to rounding. Data as of 12/31/2012.

 Sources: FRBNY, response to SIGTARP data call, 1/3/2013.



    The Federal Reserve posted on its website detailed information on the 177
TALF borrowers, including the identities of the borrowers, the amounts and rates
of the loans, and details about the collateral.473
126           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        As of December 31, 2012, $70.5 billion in TALF loans had been repaid.
                                                     According to FRBNY, the outstanding collateral on the remaining $555.6 million in
                                                     TALF loans was performing as expected.474

                                                     Asset Disposition Facility
                                                     When FRBNY created TALF LLC, TARP loaned the facility $100 million. Of this
                                                     initial funding, $15.8 million was allocated to cover administrative costs.475 TARP
                                                     will continue to fund TALF LLC, as needed to cover losses, until TARP’s entire
                                                     $1.4 billion obligation has been disbursed, all TALF loans are retired, or the loan
                                                     commitment term expires. The last loan matures in 2015. Any additional funds, if
                                                     needed, will be provided by a loan from FRBNY that will be collateralized by the
                                                     assets of TALF LLC and will be senior to the TARP loan.476 Payments by TALF
                                                     LLC from the proceeds of its holdings will be made in the following order:477

                                                     •	   operating expenses of TALF LLC
                                                     •	   principal due to FRBNY and funding of FRBNY’s senior loan commitment
                                                     •	   principal due to Treasury
                                                     •	   interest due to FRBNY
                                                     •	   interest due to Treasury
                                                     •	   other secured obligations

                                                          Any remaining money will be shared by Treasury (90%) and FRBNY (10%).478

                                                     Current Status
                                                     As of December 31, 2012, TALF LLC had assets of $856 million, which
                                                     included the $100 million in initial TARP funding.479 The remainder consisted of
                                                     interest and other income and fees earned from permitted investments. From its
                                                     February 4, 2009, formation through December 31, 2012, TALF LLC had spent
                                                     approximately $2.6 million on administration.480
                                                         When TALF closed for new loans in June 2010, FRBNY’s responsibilities under
                                                     the program shifted primarily to portfolio management, which includes the follow-
                                                     ing duties:481

      Excess Spread: Funds left over                 •	 maintaining documentation
      after required payments and other              •	 overseeing the custodian that is responsible for holding ABS collateral
      contractual obligations have been met.         •	 calculating and collecting principal and interest on TALF loans
      In TALF it is the difference between           •	 disbursing excess spread to TALF borrowers in accordance with the governing
      the periodic amount of interest paid              documents
      out by the collateral and the amount           •	 monitoring the TALF portfolio
      of interest charged by FRBNY on the            •	 collecting and managing collateral assets if a borrower defaults or surrenders the
      nonrecourse loan provided to the                  collateral in lieu of repayment
      borrower to purchase the collateral.           •	 paying TALF LLC interest that borrowers pay FRBNY on TALF loans, in excess
                                                        of FRBNY’s cost of funding
                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013              127




Public-Private Investment Program
According to Treasury, the purpose of the Public-Private Investment Program                    Legacy Securities: Real estate-related
(“PPIP”) is to purchase legacy securities from banks, insurance companies, mutual              securities originally issued before
funds, pension funds, and other eligible financial institutions as defined in EESA,            2009 that remained on the balance
through Public-Private Investment Funds (“PPIFs”).482 PPIFs are partnerships,                  sheets of financial institutions because
formed specifically for this program, that invest in mortgage-backed securities using          of pricing difficulties that resulted from
equity capital from private-sector investors combined with TARP equity and debt.               market disruption.
A private-sector fund management firm oversees each PPIF on behalf of these
investors. According to Treasury, the aim of PPIP was to “restart the market for               Equity: Investment that represents an
legacy securities, allowing banks and other financial institutions to free up capital          ownership interest in a business.
and stimulate the extension of new credit.”483 PPIP originally included a Legacy
Loans subprogram that would have involved purchases of troubled legacy loans
with private and Treasury equity capital, as well as an FDIC guarantee for debt
financing. TARP funds were never disbursed for this subprogram.
    Treasury selected nine fund management firms to establish PPIFs. One
PPIP manager, TCW, subsequently withdrew. Four PPIP managers—Invesco,
AllianceBernstein, BlackRock, and RLJ Western—sold all remaining securities in
2012, and fully repaid Treasury’s debt and equity investments.484 The other four
PPIP managers ended their investment periods in the final quarter of 2012, and
                                                                                               For more information on the selection of
are in various stages of managing their portfolios and repaying the Government’s
                                                                                               PPIP managers, see SIGTARP’s October
debt and equity investments in them. Private investors and Treasury co-invested                7, 2010, audit report entitled “Selecting
in the PPIFs to purchase legacy securities from financial institutions. The fund               Fund Managers for the Legacy
managers raised private-sector capital. Treasury matched the private-sector equity             Securities Public-Private Investment
dollar-for-dollar and provided debt financing in the amount of the total combined              Program.”
equity. Each PPIP manager was also required to invest at least $20 million of its
own money in the PPIF.485 Each PPIF is approximately 75% TARP funded. PPIP                     For more information on the withdrawal
was designed as an eight-year program giving PPIP managers until 2017 to sell the              of TCW as a PPIP manager, see
assets in their portfolio. Under certain circumstances, Treasury can terminate the             SIGTARP’s January 2010 Quarterly
program early or extend it for up to two additional years.486                                  Report, page 88.
    Treasury, the PPIP managers, and the private investors share PPIF profits and
losses on a pro rata basis based on their limited partnership interests. Treasury also
received warrants in each PPIF that give Treasury the right to receive a portion of
the fund’s profits that would otherwise be distributed to the private investors along
with its pro rata share of program proceeds.487
    The PPIP portfolio was valued at $7 billion as of December 31, 2012, accord-
ing to a process administered by Bank of New York Mellon, acting as valuation


     Debt: Investment in a business that is      Pro Rata: Refers to dividing something        Limited Partnership: Partnership in which
     required to be paid back to the investor,   among a group of participants according       there is at least one partner whose
     usually with interest.                      to the proportionate share that each          liability is limited to the amount invested
                                                 participant holds as a part of the whole.     (limited partner) and at least one partner
                                                                                               whose liability extends beyond monetary
                                                                                               investment (general partner).
128            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      agent.488 That was $7 billion or 50% lower than the portfolio value at the end of the
                                                      previous quarter, reflecting fund managers’ sales of investments and the liquidation
                                                      of PPIFs.489 The PPIP portfolio consists of eligible securities and cash assets to
      Non-Agency Residential Mortgage-                be used to purchase securities. The securities eligible for purchase by PPIFs
      Backed Securities (“non-agency                  (“eligible assets”) are non-agency residential mortgage-backed securities (“non-
      RMBS”): Financial instrument backed             agency RMBS”) and commercial mortgage-backed securities (“CMBS”) that meet
      by a group of residential real estate           the following criteria:490
      mortgages (i.e., home mortgages for
      residences with up to four dwelling             •	 issued before January 1, 2009 (legacy)
      units) not guaranteed or owned by               •	 rated when issued AAA or equivalent by two or more credit rating agencies
      a Government-sponsored enterprise                  designated as nationally recognized statistical rating organizations (“NRSROs”)
      (“GSE”), or a Government agency.                •	 secured directly by actual mortgages, leases, or other assets, not other securities
                                                         (other than certain swap positions, as determined by Treasury)
                                                      •	 located primarily in the United States (the loans and other assets that secure the
                                                         non-agency RMBS and CMBS)
                                                      •	 purchased from financial institutions that are eligible for TARP participation

                                                      PPIP Process
                                                      Funds chosen to participate in PPIP raised private capital, which was matched up
                                                      to a preset maximum by Treasury. Additionally, each PPIF could borrow from TARP
                                                      an amount up to 100% of the total private and Government equity investment.
                                                      Treasury, which provided about 75% of the program’s equity and debt financing,
                                                      also received warrants from each PPIF so that it could benefit further from funds
                                                      that turned a profit. The PPIP managers were required to provide monthly portfolio
                                                      reports to Treasury and other investors.491
                                                          Obligated funds were not given immediately to PPIP managers during the
                                                      investment period. Instead, PPIP managers sent a notice to Treasury and the
                                                      private investors requesting a “draw down” of portions of obligated contributions in
                                                      order to purchase specific investments or to pay certain expenses and debts of the
                                                      partnerships.492

                                                      PPIF Purchasing Power
                                                      During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
                                                      of private-sector equity capital, which Treasury matched with a dollar-for-dollar
                                                      obligation, for a total of $14.7 billion in equity capital. Treasury also obligated
                                                      $14.7 billion of debt financing, resulting in $29.4 billion of PPIF purchasing
                                                      power. The fund-raising stage for PPIFs was completed in December 2009. After
                                                      the capital-raising stage, Treasury obligated a total of $22.1 billion in a combination
                                                      of matching equity funds and debt financing for PPIP. Table 2.29 shows equity and
                                                      debt committed by Treasury for the eight PPIFs that actively participated in the
                                                      program.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   129




TABLE 2.29
 PUBLIC-PRIVATE INVESTMENT PROGRAM COMMITTED PURCHASING POWER
 ($ BILLIONS)

                                                        Private-                                                           Total
                                                   Sector Equity              Treasury             Treasury          Purchasing
 Manager                                                 Capital                Equity                 Debt              Powera
 Funds Still Managing
 Investments
    AG GECC PPIF Master Fund,
                                                                $1.2                $1.2                  $2.5                  $5.0
    L.P.
    Marathon Legacy Securities
    Public-Private Investment                                     0.5                 0.5                   0.9                   1.9
    Partnership, L.P.
    Oaktree PPIP Fund, L.P.                                       1.2                 1.2                   2.3                   4.6
    Wellington Management
    Legacy Securities PPIF Master                                 1.1                 1.1                   2.3                   4.6
    Fund, LP
 Subtotals                                                      $4.0                $4.0                  $8.1                $16.1
 Funds Winding Down or
 Dissolved
    AllianceBernstein Legacy
                                                                $1.2                $1.2                  $2.3                  $4.6
    Securities Master Fund, L.P.
    BlackRock PPIF, L.P.                                          0.7                 0.7                   1.4                   2.8
    Invesco Legacy Securities
                                                                  0.9                 0.9                   1.7                   3.4
    Master Fund, L.P.
    RLJ Western Asset Public/
                                                                  0.6                 0.6                   1.2                   2.5
    Private Master Fund, L.P.
 Subtotals                                                      $3.3                $3.3                 $6.6                 $13.3
 Totals for All Fundsb                                          $7.4                $7.4                $14.7                 $29.4
 Notes: Numbers may not total due to rounding.
 a
   Table shows the total amount of purchasing power committed and available to each PPIF during its investment period.
 b
   TCW raised $156 million in private-sector equity capital, which was matched by Treasury. Treasury also provided $200 million of
    debt. TCW repaid the total amount committed by Treasury in early 2010. This is not included in the total purchasing power.

 Sources: Treasury, Transactions Report, 12/28/2012; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP
 data call, 1/16/2013.



    The program gave each PPIP manager up to three years (the “PPIF investment
period”) from closing its first private-sector equity contribution to draw upon the
TARP funds obligated for the PPIF and buy legacy securities on behalf of private
and Government investors.493 During that investment period, the program sought
to maintain “predominantly a long-term buy and hold strategy.”494 The invest-
ment period expired in October 2012 for three funds: AG GECC PPIF Master
Fund, L.P. (“AG GECC”); BlackRock PPIF, L.P. (“BlackRock”); and Wellington
Management Legacy Securities PPIF Master Fund, LP (“Wellington”). The invest-
ment period ended in November 2012 for Marathon Legacy Securities Public-
Private Investment Partnership, L.P. (“Marathon”), and in December 2012 for
Oaktree PPIP Fund, L.P. (“Oaktree”).495
    At the end of the PPIF investment period, fund managers have five years ending
in 2017 to manage and sell off the fund’s investment portfolio and return proceeds
to taxpayers and investors. This period may be extended up to two years.496
130   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                           Amounts Drawn Down
                                                           The eight PPIP managers drew down a total of approximately $24.4 billion to
                                                           buy legacy securities as of December 31, 2012, spending $6.1 billion in private-
                                                           sector equity capital and $18.3 billion in TARP equity and debt funding.497 No
                                                           funding was drawn down in the quarter ended December 31, 2012.498 Treasury also
                                                           disbursed $356.3 million to TCW, which TCW fully repaid in early 2010 when it
                                                           withdrew from the program.499
                                                               As a group, the funds drew down and spent about 83% of the total money avail-
                                                           able to them to invest in legacy real estate-backed securities.500 Oaktree, the only
                                                           fund limited solely to purchasing CMBS, drew down the smallest amount, 48%, of
                                                           its available capital. Table 2.30 shows how much each PPIF drew down from the
                                                           private and Government money available to it during the investment period.
           TABLE 2.30
            PPIP CAPITAL DRAWN DOWN DURING INVESTMENT PERIOD                                                   ($ BILLIONS)

                                                                  Total              Private-              Treasury                Treasury
                                                            Purchasing          Sector Equity          Equity Drawn              Debt Drawn            Total Drawn             Purchasing
            Manager                                             Powera           Drawn Down                    Down                    Down                   Down            Power Usedb
            Funds Still Managing
            Investments
                AG GECC PPIF Master Fund,
                                                                        $5.0                   $1.1                  $1.1                   $2.2                   $4.5                     90%
                L.P.
                Marathon Legacy Securities
                Public-Private Investment                                1.9                    0.5                    0.5                    0.9                    1.9                   100%
                Partnership, L.P.
                Oaktree PPIP Fund, L.P.                                  4.6                    0.6                    0.6                    1.1                    2.2                    48%
                Wellington Management
                Legacy Securities PPIF                                   4.6                    1.1                    1.1                    2.3                    4.6                   100%
                Master Fund, LP
            Subtotals                                                $16.1                    $3.3                   $3.3                   $6.6                 $13.2                      82%
            Funds Winding Down or
            Dissolved
                AllianceBernstein Legacy
                                                                        $4.6                   $1.1                  $1.1                   $2.1                   $4.3                     93%
                Securities Master Fund, L.P.
                BlackRock PPIF, L.P.                                     2.8                    0.5                    0.5                    1.1                    2.1                    76%
                Invesco Legacy Securities
                                                                         3.4                    0.6                    0.6                    1.2                    2.3                    68%
                Master Fund, L.P.
                RLJ Western Asset Public/
                                                                         2.5                    0.6                    0.6                    1.2                    2.5                   100%
                Private Master Fund, L.P.
            Subtotals                                                $13.3                    $2.8                   $2.8                   $5.6                 $11.2                      84%
            Totals for All Funds       c
                                                                     $29.4                    $6.1                   $6.1                 $12.2                  $24.4                      83%
            Notes: Numbers may not total due to rounding.
            a
              Table shows the total amount of purchasing power committed and available to each PPIF during its investment period.
            b
               The percent of purchasing power used shows how much of the committed equity and debt was used by each fund.
            c
              TCW raised $156 million in private-sector equity capital, which was matched by Treasury. Treasury also provided $200 million of debt. TCW repaid the total amount committed by
              Treasury in early 2010. This is not included in the total purchasing power.

            Sources: Treasury, Transactions Report, 12/28/2012; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 1/16/2013.
                                                                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   131




Amounts Paid to Treasury
PPIP managers make TARP payments to Treasury for debt principal, debt interest,
equity capital, and equity distributions. Through December 31, 2012, the nine
PPIFs had repaid $10.6 billion in TARP debt and $4.4 billion in TARP equity,
including payments by TCW. In the quarter ended December 31, 2012, BlackRock
and RLJ Western finished repaying all Treasury debt and equity capital that each
had drawn down.501
    PPIP managers paid a total of $6.3 billion to the Government through
December 31, 2012, in total equity distributions, which Treasury said includes
profits from sales of PPIF securities.502 Table 2.31 shows each fund’s payments to
Treasury through December 31, 2012.

TABLE 2.31
 PPIP MANAGERS’ PAYMENTS TO TREASURY, AS OF 12/31/2012                                                          ($ MILLIONS)

                                                                  Debt                Debt               Equity                   Equity             Equity
                                                              Principal            Interest             Capital             Distribution            Warrant
 Manager                                                     Payments            Payments            Paymentsa               Paymentsb            Paymentsc
 Funds Still Managing Investments
     AG GECC PPIF Master Fund, L.P.                              $1,851                    $65               $785                     $982                  $—
     Marathon Legacy Securities Public-
                                                                      511                    27                175                      223                   —
     Private Investment Partnership, L.P.
     Oaktree PPIP Fund, L.P.                                          601                    15                301                      337                   —
     Wellington Management Legacy
                                                                   1,860                     60                215                      372                   —
     Securities PPIF Master Fund, LP
 Subtotals                                                       $4,823                 $167              $1,475                  $1,914                    $—
 Funds Winding Down or Dissolvedd
     AllianceBernstein Legacy Securities
                                                                 $2,128                    $58             $1,064                  $1,545                   $12
     Master Fund, L.P.
     BlackRock PPIF, L.P.                                          1,053                     34                528                      921                   10
     Invesco Legacy Securities Master
                                                                   1,162                     18                581                      720                     3
     Fund, L.P.
     RLJ Western Asset Public/Private
                                                                   1,241                     37                621                   1,041                    11
     Master Fund, L.P.
     UST/TCW Senior Mortgage
                                                                      200                   0.3                156                      176                  0.5
     Securities Fund, L.P.
 Subtotals                                                       $5,784                 $149              $2,950                  $4,403                   $36
 Totals for All Funds                                         $10,607                   $316              $4,425                  $6,317                   $36
 Notes: Numbers may not total due to rounding. Excludes management fees and expenses.
 a
   In April 2012, Treasury reclassified about $1 billion in combined payments from five PPIFs as equity capital payments instead of equity distributions.
 b
     Treasury’s equity distributions include gross income distributions, capital gains, and return of capital.
 c
   Treasury received equity warrants from the PPIFs, which give Treasury the right to receive a percentage of any profits that would otherwise be distributed to
   the private partners in excess of their contributed capital.
 d
    AllianceBernstein, BlackRock, Invesco, RLJ Western, and TCW have fully repaid all equity capital, debt, and debt interest, and have liquidated their
     investments. RLJ Western, Invesco, and TCW have additionally dissolved their PPIFs.

 Sources: Treasury, response to SIGTARP data call, 1/16/2013; Treasury, Dividends and Interest Report, 1/10/2013.
132   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             PPIP Manager BlackRock Liquidates Holdings
                                             On December 5, 2012, BlackRock announced it had liquidated its remaining
                                             PPIP investments.503 According to Treasury, BlackRock’s PPIF paid Treasury $9.7
                                             million in warrant proceeds and $354.9 million in profits as of December 31,
                                             2012.504 By the time its investment period terminated in October 2012, BlackRock
                                             had drawn down about 76% of the Treasury funding available to it, leaving $337
                                             million in unused debt financing.505 As required by the program, BlackRock fully
                                             repaid Treasury’s equity investment of $528.2 million and Treasury debt of $1.1
                                             billion, with interest.506 As of December 31, 2012, BlackRock’s PPIF still had
                                             approximately $3.2 million in cash to pay for final audits and other wind-down
                                             expenses.507

                                             PPIP Manager AllianceBernstein Liquidates Holdings
                                             On October 9, 2012, AllianceBernstein announced it had liquidated its remaining
                                             PPIP investments.508 According to Treasury, AllianceBernstein paid Treasury
                                             $12 million in warrant proceeds and $287.2 million in profits as of December
                                             31, 2012.509 The PPIF drew down 93% of the funds available to it, and fully
                                             repaid Treasury’s equity investment of $1.1 billion and its Treasury debt of $2.1
                                             billion, with interest, leaving about $173 million in available debt financing
                                             that the AllianceBernstein fund did not use.510 As of December 31, 2012,
                                             AllianceBernstein’s PPIF had $9,012 in cash to pay for final audits and other wind-
                                             down expenses.511

                                             PPIP Manager RLJ Western Dissolves PPIF
                                             On November 20, 2012, RLJ Western announced it had liquidated its remaining
                                             PPIP investments.512 According to Treasury, RLJ Western paid Treasury $10.5
                                             million in warrant proceeds and $296.8 million in profits as of December 31,
                                             2012.513 When RLJ Western terminated its investment period in July 2012, it had
                                             drawn down virtually 100% of the funds available to it. RLJ Western fully repaid
                                             Treasury’s equity investment of $620.6 million and Treasury debt of $1.2 billion,
                                             with interest.514 On December 31, 2012, RLJ Western filed a formal certificate with
                                             the state of Delaware declaring that its PPIF had been dissolved.515

                                             PPIP Manager Invesco Dissolves PPIF
                                             Invesco was the first of the PPIP funds to sell its portfolio, announcing the
                                             liquidation on April 3, 2012.516 Invesco used 68% of the funding available to it,
                                             and fully repaid Treasury’s equity investment of $581 million and Treasury debt of
                                             $1.2 billion, with interest.517 On October 3, 2012, Invesco filed a formal certificate
                                             with the state of Delaware declaring that its PPIF had been dissolved.518 Treasury,
                                             which had deobligated Invesco’s unused debt financing in April 2012, deobligated
                                             Invesco’s unused equity financing following the fund’s dissolution on October 3,
                                             2012.519
                                                                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   133




Fund Performance
Since inception, each fund has reported rates of return for its portfolio of
investments based on a methodology requested by Treasury. Each PPIF’s
performance — its gross and net returns since inception — as reported by PPIP
managers, is listed in Table 2.32.
   The data in Table 2.32 constitutes a snapshot of the funds’ performance during
the quarter ended December 31, 2012, and may not predict the funds’ performance
over the long term.

TABLE 2.32

 PPIF INVESTMENT STATUS, AS OF 12/31/2012
                                                                                                                    Internal Rate
                                                                             1-Month             3-Month                of Return
                                                                              Return              Return          Since Inception
 Manager                                                                    (percent)          (percent)a              (percent)b
 Funds Still Managing Investments
                                                             Gross                  2.11                7.65                     24.19
     AG GECC PPIF Master Fund, L.P.
                                                             Net                    2.07                7.57                     23.73

     Marathon Legacy Securities Public-                      Gross                  2.34                7.30                     24.20
     Private Investment Partnership, L.P.                    Net                    2.36                7.29                     23.03
                                                             Gross                  3.56              10.73                      29.47
     Oaktree PPIP Fund, Inc.
                                                             Net                    3.56              10.61                      28.14

     Wellington Management Legacy                            Gross                  2.70                5.41                     19.37
     Securities PPIF Master Fund, LP                         Net                    2.73                5.32                     18.22
 Funds Winding Down or Dissolved
     AllianceBernstein Legacy Securities
                                                                                     N/A                 N/A
     Master Fund, L.P.
     BlackRock PPIF, L.P.                                                            N/A                 N/A
     Invesco Legacy Securities Master
                                                                                     N/A                 N/A
     Fund, L.P.
     RLJ Western Asset Public/Private
                                                                                     N/A                 N/A
     Master Fund, L.P.
     UST/TCW Senior Mortgage Securities
                                                                                     N/A                 N/A
     Fund, L.P.
 Notes: The performance indicators are listed as reported by the PPIP managers without further analysis by SIGTARP. The net returns
 include the deduction of management fees and partnership expenses attributable to Treasury.
 a
   Time-weighted, geometrically linked returns.
 b
    Dollar-weighted rate of return.
 c
   AllianceBernstein, BlackRock, Invesco, RLJ Western, and TCW have fully repaid all equity capital, debt, and debt interest, and have
   liquidated their investments.

 Sources: PPIF Monthly Performance Reports submitted by each PPIP manager, December 2012, received 1/16/2013; Treasury
 response to SIGTARP data call, 1/16/2013.
134              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




 FIGURE 2.2                                                     Securities Purchased by PPIFs
 AGGREGATE COMPOSITION OF PPIF                                  According to their agreements with Treasury, PPIP managers may trade in both
 PURCHASES, AS OF 12/31/2012                                    RMBS and CMBS, except for Oaktree, which may purchase only CMBS.520 Figure
 Percentage of $7 Billion
                                                                2.2 shows the collective value of securities held by all PPIFs on December 31,
                                                                2012, broken down by RMBS and CMBS.
                                                                    PPIF investments can be classified by underlying asset type. All non-agency
        CMBS
                                                                RMBS investments are considered residential. The underlying assets are mortgages
                    29%
                                                                for residences with up to four dwelling units. For CMBS, the assets are com-
                                     71%         RMBS
                                                                mercial real estate mortgages: office, retail, multi-family, hotel, industrial (such
                                                                as warehouses), mobile home parks, mixed-use (combination of commercial and/
                                                                or residential uses), and self-storage. Figure 2.3 breaks down CMBS investment
                                                                distribution by sector. As of December 31, 2012, the aggregate CMBS portfolio had
 Notes: Numbers affected by rounding. Calculated based on
                                                                large concentrations in office (33%) and retail (30%) loans.
 monthly data supplied by the PPIF managers. Does not include
 AllianceBernstein, BlackRock, Invesco, RLJ Western, and TCW,
                                                                    Non-agency RMBS and CMBS can be classified by the degree of estimated
 which have sold all investments.                               default risk (sometimes referred to as “quality”). Investors are most concerned
 Source: PPIF Monthly Performance Reports, December 2012.       about whether borrowers will default and the underlying collateral will be sold at a
                                                                loss. Estimated risk, or quality, attempts to measure the likelihood of that outcome.
                                                                There are no universal standards for ranking mortgage quality, and the designations
 FIGURE 2.3                                                     vary depending on context. In general, the highest-quality rankings are granted to
 AGGREGATE CMBS PURCHASES BY                                    mortgages that have the strictest requirements regarding borrower credit, complete-
 SECTOR, AS OF 12/31/2012                                       ness of documentation, and underwriting standards. Treasury characterizes these
 Percentage of $2 Billion
                                                                investment-quality levels of risk for the types of mortgage loans that support non-
                  Other                                         agency RMBS as follows:521
  Lodging/             6%
     Hotel       10%                                            •	 Prime — mortgage loan made to a borrower with good credit that generally
                                    33%
 Industrial 7%                                                     meets the lender’s strictest underwriting criteria. Non-agency prime loans
                                                                   generally exceed the dollar amount eligible for purchase by GSEs (jumbo loans)
  Multi-family 14%                                                 but may include lower-balance loans as well.
                               30%                              •	 Alt-A — mortgage loan made to a borrower with good credit but with limited
                                        Retail                     documentation or other characteristics that do not meet the standards for prime
                                                                   loans. An Alt-A loan may have a borrower with a lower credit rating, a higher
 Notes: Numbers affected by rounding. Calculated based on
 monthly data supplied by the PPIF managers. Does not include
                                                                   loan-to-value ratio, or limited or no documentation, compared with a prime
 AllianceBernstein, BlackRock, Invesco, RLJ Western, and TCW,      loan.
 which have sold all investments.
                                                                •	 Subprime — mortgage loan made to a borrower with a poor credit rating.
 Source: PPIF Monthly Performance Reports, December 2012.
                                                                •	 Option Adjustable Rate Mortgage (“Option ARM”) — mortgage loan that
                                                                   gives the borrower a set of choices about how much interest and principal to
                                                                   pay each month. This may result in negative amortization (an increasing loan
                                                                   principal balance over time).
                                                                •	 Other (RMBS) — RMBS that do not meet the definitions for prime, Alt-A,
                                                                   subprime, or option ARM but meet the definition of “eligible assets” above.

                                                                   Treasury characterizes CMBS according to the degree of “credit enhancement”
                                                                supporting them:522
                                                                                                                  QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   135




•	 Super Senior — most senior originally rated AAA bonds in a CMBS
   securitization with the highest level of credit enhancement. Credit enhancement
   refers to the percentage of the underlying mortgage pool by balance that
   must be written down before the bond suffers any losses. Super senior bonds
   often compose approximately 70% of a securitization and, therefore, have
   approximately 30% credit enhancement at issuance.
•	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
   receive interest and principal payments after super senior creditors but before
   junior creditors.523 AM bonds often compose approximately 10% of a CMBS
   securitization.
•	 AJ (Junior) — the most junior bond in a CMBS securitization that attained a
   AAA rating at issuance.
•	 Other (CMBS) — CMBS that do not meet the definitions for super senior,
   AM, or AJ but meet the definition of “eligible assets” above.

  Figure 2.4 and Figure 2.5 show the distribution of non-agency RMBS and
CMBS investments held in PPIP by respective risk levels, as reported by PPIP
managers.

FIGURE 2.4	                                                    FIGURE 2.5
AGGREGATE RMBS PURCHASES BY                                    AGGREGATE CMBS PURCHASES BY
QUALITY, AS OF 12/31/2012                                      QUALITY, AS OF 12/31/2012
Percentage of $4.9 Billion                                     Percentage of $2 Billion


    Other - RMBS 1%                                                    Other - CMBS 1%

                                      Prime
                                23%

 Subprime      18%
                                                               AJ (Junior) 43%                      56% AM (Mezzanine)

                              58%

                                      Alt-A



Notes: Numbers affected by rounding. Calculated based on       Notes: Numbers affected by rounding. Calculated based on
monthly data supplied by the PPIF managers. Does not include   monthly data supplied by the PPIF managers. Does not include
AllianceBernstein, BlackRock, Invesco, RLJ Western, and TCW,   AllianceBernstein, BlackRock, Invesco, RLJ Western, and TCW,
which have sold all investments.                               which have sold all investments.

Source: PPIF Monthly Performance Reports, December 2012.       Source: PPIF Monthly Performance Reports, December 2012.


   Non-agency RMBS and CMBS can be classified geographically, according to
the states where the underlying mortgages are held. Figure 2.6 and Figure 2.7 show
the states with the greatest representation in the underlying non-agency RMBS and
CMBS investments in PPIFs, as reported by PPIP managers.
136   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             FIGURE 2.6	                                                        FIGURE 2.7
                                             AGGREGATE GEOGRAPHICAL                                             AGGREGATE GEOGRAPHICAL
                                             DISTRIBUTION — PERCENT OF                                          DISTRIBUTION — PERCENT OF
                                             TOTAL RMBS, AS OF 12/31/2012                                       TOTAL CMBS, AS OF 12/31/2012

                                                  40%                                                                15%
                                                                                                                              15%
                                                                                                                                           14%
                                                            35%
                                                   30
                                                                                                                     10

                                                   20                                                                                                   8%

                                                                                                                       5
                                                                                                                                                                   6%
                                                   10
                                                                        10%
                                                                                                4%
                                                                                     7%
                                                    0                                                                  0
                                                            CA          FL           NY          NJ                            NY          CA           TX           FL

                                             Notes: Only states with largest representation. Calculated based   Notes: Only states with largest representation. Calculated based
                                             on monthly data supplied by the PPIF managers. Does not include    on monthly data supplied by the PPIF managers. Does not include
                                             AllianceBernstein, BlackRock, Invesco, RLJ Western, and TCW,       AllianceBernstein, BlackRock, Invesco, RLJ Western, and TCW,
                                             which have sold all investments.                                   which have sold all investments.

                                             Source: PPIF Monthly Performance Reports, December 2012.           Source: PPIF Monthly Performance Reports, December 2012.


                                                Non-agency RMBS and CMBS can also be classified by the delinquency of
                                             the underlying mortgages. Figure 2.8 and Figure 2.9 show the distribution of
                                             non-agency RMBS and CMBS investments held in PPIP by delinquency levels, as
                                             reported by PPIP managers.

                                             FIGURE 2.8	                                                        FIGURE 2.9
                                             AGGREGATE AVERAGE RMBS                                             AGGREGATE AVERAGE CMBS
                                             DELINQUENCIES BY MARKET VALUE,                                     DELINQUENCIES BY MARKET VALUE,
                                             AS OF 12/31/2012                                                   AS OF 12/31/2012
                                             Percentage of $4.9 Billion                                         Percentage of $2 Billion


                                                                                                                1% 30−59 Days          60+ Days

                                                                                                                                        13%
                                               60+ Days      28%



                                                30−59 3%                            69% Current
                                                Days

                                                                                                                                                   86%
                                                                                                                                                           Current


                                             Notes: Numbers affected by rounding. Calculated based on           Notes: Numbers affected by rounding. Calculated based on
                                             monthly data supplied by the PPIF managers. Does not include       monthly data supplied by the PPIF managers. Does not include
                                             AllianceBernstein, BlackRock, Invesco, RLJ Western, and TCW,       AllianceBernstein, BlackRock, Invesco, RLJ Western, and TCW,
                                             which have sold all investments.                                   which have sold all investments.

                                             Source: PPIF Monthly Performance Reports, December 2012.           Source: PPIF Monthly Performance Reports, December 2012.
                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013           137




Unlocking Credit for Small Businesses (“UCSB”)/Small
                                                                                           7(a) Loan Program: SBA loan program
Business Administration (“SBA”) Loan Support Initiative
                                                                                           guaranteeing a percentage of loans for
On March 16, 2009, Treasury announced the Unlocking Credit for Small
                                                                                           small businesses that cannot otherwise
Businesses (“UCSB”) program, which according to Treasury was designed to
                                                                                           obtain conventional loans at reasonable
encourage banks to increase lending to small businesses. Through UCSB, Treasury
                                                                                           terms.
purchased $368.1 million in securities backed by pools of loans from the Small
Business Administration’s (“SBA”) 7(a) Loan Program.524
                                                                                           Pool Assemblers: Firms authorized
    Treasury signed contracts with two pool assemblers, Coastal Securities, Inc.
                                                                                           to create and market pools of SBA-
(“Coastal Securities”), and Shay Financial Services, Inc. (“Shay Financial”), on
                                                                                           guaranteed loans.
March 2, 2010, and August 27, 2010, respectively.525 Under the governing agree-
ment, EARNEST Partners, on behalf of Treasury, purchased SBA pool certificates
                                                                                           SBA Pool Certificates: Ownership
from Coastal Securities and Shay Financial without confirming to the counterpar-
                                                                                           interest in a bond backed by SBA-
ties that Treasury was the buyer.526 From March 19, 2010, to September 28, 2010,
                                                                                           guaranteed loans.
Treasury purchased 31 floating-rate 7(a) securities from Coastal Securities and
Shay Financial for a total of approximately $368.1 million.527
    In a series of sales from June 2011 through January 2012, Treasury sold all its
SBA 7(a) securities, for total proceeds of $334.9 million, ending the program.528
                                                                                           For more information on SBA 7(a) Loan
According to Treasury, over the life of the program Treasury also had received
                                                                                           Program mechanics and TARP support
$29 million and $13.3 million in amortizing principal and interest payments,               for the program, see SIGTARP’s April
respectively.529                                                                           2010 Quarterly Report, pages 105-106.

                                                                                           For a full listing of the SBA 7(a)
                                                                                           securities Treasury purchased through
                                                                                           UCSB, including investment amounts,
                                                                                           sales proceeds, and other proceeds
                                                                                           received by Treasury, see SIGTARP’s
                                                                                           April 2012 Quarterly Report, page 134.
138            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      AUTOMOTIVE INDUSTRY SUPPORT PROGRAMS
                                                      During the financial crisis, Treasury, through TARP, launched three automotive
                                                      industry support programs: the Automotive Industry Financing Program (“AIFP”),
                                                      the Auto Supplier Support Program (“ASSP”), and the Auto Warranty Commitment
                                                      Program (“AWCP”). According to Treasury, these programs were established “to
                                                      prevent the collapse of the U.S. auto industry, which would have posed a significant
      For more information on GMAC/Ally
      Financial, see Section 3 “Taxpayers             risk to financial market stability, threatened the overall economy, and resulted in
      Continue to Own 74% of GMAC                     the loss of one million U.S. jobs.”530 As of December 31, 2012, General Motors
      (Rebranded as Ally Financial Inc.) from         Company (“GM”) and GMAC Inc., now Ally Financial Inc. (“Ally Financial”),
      the TARP Bailouts.”                             remain in TARP, owing $21.6 billion and $14.6 billion, respectively, to taxpayers.531
                                                           AIFP has not expended any TARP funds for the automotive industry since
                                                      December 30, 2009.532 ASSP, designed to “ensure that automotive suppliers receive
                                                      compensation for their services and products,” was terminated in April 2010 after
                                                      all $413.1 million in loans made through it were fully repaid.533 AWCP, a $640.7
                                                      million program, was designed to assure car buyers that the warranties on any
                                                      vehicles purchased during the bankruptcies of General Motors Corp. and Chrysler
                                                      LLC would be guaranteed by the Government. It was terminated in July 2009 after
                                                      all loans under the program were fully repaid upon the companies’ emergence from
                                                      bankruptcy.534
                                                           Treasury obligated approximately $84.8 billion through these three programs
                                                      to GM, Ally Financial, Chrysler, and Chrysler Financial Services Americas LLC
                                                      (“Chrysler Financial”).535 Treasury originally obligated $5 billion under ASSP but
                                                      adjusted this amount to $413.1 million to reflect actual borrowings, thereby reduc-
                                                      ing at that time the total obligation for all automotive industry support programs
                                                      to approximately $81.8 billion. Treasury spent $79.7 billion in TARP funds on the
                                                      auto bailout because $2.1 billion in loan commitments to Chrysler were never
                                                      drawn down.536 As of December 31, 2012, Treasury had received approximately
                                                      $40.7 billion in principal repayments, proceeds from preferred stock redemptions,
                                                      and stock sale proceeds in addition to $5.1 billion in dividends and interest.537
                                                      Taxpayers are owed $39.1 billion in TARP auto funds. This includes the $2.9 bil-
                                                      lion loss on Chrysler. The amount and types of Treasury’s outstanding AIFP invest-
                                                      ments have changed over time as a result of principal repayments, preferred stock
                                                      redemptions by the issuer, Treasury’s sale of common stock, old loan conversions
                                                      (into equity), and post-bankruptcy restructurings.
                                                           Treasury sold 200 million shares of GM common stock in December 2012 and
                                                      now holds 22% of the common stock outstanding in GM.538 Treasury also holds an
                                                      administrative claim in the company’s bankruptcy with an outstanding principal
                                                      amount of approximately $848.7 million. However, according to Treasury, it does
                                                      not expect to recover any significant additional proceeds from this claim.539 On
                                                      January 18, 2013, Treasury announced the initiation of a pre-arranged written trad-
                                                      ing plan as part of its steps to divest its remaining shares.540 Additionally, Treasury
                                                      holds approximately 74% of Ally Financial’s common stock and $5.9 billion in
                                                      mandatorily convertible preferred shares (“MCP”).541 On July 21, 2011, Treasury
                                                      sold to Fiat North America LLC (“Fiat”) Treasury’s remaining equity ownership
                                                                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   139




interest in Chrysler and Treasury’s rights to receive proceeds under an agreement
with the United Auto Workers (“UAW”) retiree trust pertaining to the trust’s shares
in Chrysler. Treasury retains the right to recover certain proceeds from Chrysler’s
bankruptcy but, according to Treasury, it is unlikely to fully recover this claim.542
    Treasury’s investments in these three programs and the companies’ payments
of principal are summarized in Table 2.33 and, for Chrysler and GM, categorized
by the timing of the investment in relation to the companies’ progressions through
bankruptcy.

TABLE 2.33
 TARP AUTOMOTIVE PROGRAMS EXPENDITURES AND PAYMENTS,
 AS OF 12/31/2012 ($ BILLIONS)
                                                                            Chrysler            Ally Financial Inc.
                                      Chryslera                GMb          Financial           (formerly GMAC)d                  Total
 Pre-Bankruptcy
    AIFP                                   $4.0            $19.4                 $1.5                          $17.2             $42.1
    ASSP   c
                                             0.1               0.3                                                                   0.4
    AWCP                                     0.3               0.4                                                                   0.6
    Subtotal                               $4.4            $20.1                $1.5                           $17.2             $43.1
 In-Bankruptcy
 (DIP Financing)
    AIFP                                   $1.9            $30.1                                                                 $32.0
    Subtotal                               $1.9            $30.1                                                                 $32.0
 Post-Bankruptcy
 (Working Capital)
    AIFP                                   $4.6                                                                                    $4.6
    Subtotal                               $4.6                                                                                    $4.6
 Subtotals by Program:
    AIFP                                                                                                                         $78.7
    ASSP                                                                                                                             0.4
    AWCP                                                                                                                             0.6
 Total Expenditures                      $10.9            $50.2                 $1.5                           $17.2             $79.7
 Principal Repaid to
                                          ($8.0)          ($28.6)               ($1.5)                          ($2.5)e         ($40.6)
 Treasury f
 Still Owed to
                                           $2.9           $21.6                 $0.0                           $14.6             $39.1
 Taxpayers
 Total Loss on
                                           $2.9                                                                                    $2.9
 Investment
 Notes: Numbers may not total due to rounding.
 a
    Total repayments including Treasury’s sale to Fiat of its equity ownership interest in Chrysler and Treasury’s rights to receive
    proceeds under an agreement with the United Auto Workers (“UAW”) retiree trust pertaining to the trust’s shares in Chrysler for
    $560 million on July 21, 2011.
 b
       Includes GM’s debt payments of $137.1 million, including the most recent payment of approximately $0.4 million on October 23,
        2012.
 c
     The final commitment and repayment amounts reflect the total funds expended under the ASSP loans. Treasury initially obligated $5
     billion under ASSP. Treasury adjusted its obligation to $0.4 billion.
 d
       Total expenditures include $884 million loan to GM, which it invested in GMAC in January 2009.
 e
      On March 2, 2011, Treasury entered into an underwriting offering of its Ally Financial TRUPS, which resulted in approximately $2.5
      billion in principal repayment to Treasury.
 f
   Principal repaid to Treasury includes AIFP, ASSP, and AWCP.

 Source: Treasury, Transactions Report, 12/28/2012.
140   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Automotive Industry Financing Program
                                             According to Treasury, it originally provided $79.7 billion through AIFP to support
                                             automakers and their financing arms in order to “avoid a disorderly bankruptcy”
                                             of any of the companies.543 Of AIFP-related loan principal repayments and share
                                             sale proceeds, as of December 31, 2012, Treasury has received approximately $28
                                             billion related to its GM investment, $7.6 billion related to its Chrysler investment,
                                             $2.5 billion related to its Ally Financial/GMAC investment, and $1.5 billion related
                                             to its Chrysler Financial investment.544 As discussed below, additional payments
                                             of $640.7 million and $413.1 million, respectively, were received under AWCP
                                             and ASSP.545 As of December 31, 2012, Treasury had received approximately $5.1
                                             billion in dividends and interest from participating companies.546
                                                  Taxpayers are still owed $21.6 billion for the TARP investment in GM and
                                             $14.6 billion for the TARP investment in Ally Financial.547 Taxpayers suffered a
                                             $2.9 billion loss on the TARP investment in Chrysler. Chrysler Financial fully
                                             repaid the TARP investment.

                                             GM
                                             GM is still in TARP and taxpayers are owed $21.6 billion for the investment in
                                             GM. In return for its investment, as of December 31, 2012, Treasury holds 22%
                                             of GM’s outstanding common stock. Through December 31, 2012, Treasury
                                             had provided approximately $49.5 billion to GM through AIFP. Of that amount,
                                             $19.4 billion was provided before bankruptcy and $30.1 billion was provided as
                                             financing during bankruptcy. During bankruptcy proceedings, Treasury’s loans
                                             were converted into common or preferred stock in GM or debt assumed by
                                             GM. As a result of GM’s bankruptcy, Treasury’s investment was converted to a
                                             60.8% common equity stake in GM, $2.1 billion in preferred stock in GM, and a
                                             $7.1 billion loan to GM ($6.7 billion through AIFP and $360.6 million through
                                             AWCP). As part of a credit agreement with Treasury, $16.4 billion in TARP funds
                                             were placed in an escrow account that GM could access only with Treasury’s
                                             permission.548 In addition, Treasury has a claim in GM’s bankruptcy but does not
                                             expect to recover any significant additional proceeds from this claim.549

                                             Debt Repayments
                                             As of December 31, 2012, GM had made approximately $756.7 million in dividend
                                             and interest payments to Treasury under AIFP.550 GM repaid the $6.7 billion loan
                                             provided through AIFP with interest, using a portion of the escrow account that
                                             had been funded with TARP funds. What remained in escrow was released to GM
                                             with the final debt payment by GM.551

                                             Sale of GM Common Stock and GM’s Repurchase of Preferred Shares
                                             From Treasury
                                             In November and December 2010, GM successfully completed an initial public
                                             offering (“IPO”) in which GM’s shareholders sold 549.7 million shares of common
                                             stock and 100 million shares of Series B mandatorily convertible preferred shares
                                                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013    141




(“MCP”) for total gross proceeds of $23.1 billion.552 As part of the IPO priced at                                                          For more on the results of GM’s
$33 per share, Treasury sold 412.3 million common shares for $13.5 billion in net                                                           November 2010 IPO, see SIGTARP’s
proceeds (after taking into account underwriting fees associated with the IPO),                                                             January 2011 Quarterly Report,
reducing its number of common shares to 500.1 million and its ownership in GM                                                               page 163.
from 60.8% to 33.3%.553 On December 15, 2010, GM repurchased Treasury’s
Series A preferred stock (83.9 million shares) for total proceeds of $2.1 billion and
a capital gain to Treasury of approximately $41.9 million.554 On January 13, 2011,
Treasury’s ownership in GM was diluted from 33.3% to 32% as a result of GM
contributing 61 million of its common shares to fund GM’s hourly and salaried
pension plans.555
    On December 21, 2012, Treasury sold 200 million common shares to GM at
$27.50 per share, for total proceeds of $5.5 billion.556 According to Treasury, the
stock sale was the first step in a plan to fully exit its GM investment by early 2014.
As part of the transaction, Treasury agreed, among other things, to waive previ-
ously required reports from GM on its liquidity and budget, and agreed to drop a
ban on GM owning private aircraft for its executives’ use.557 GM said it would take
a charge of approximately $400 million for the share buyback.558 On January 18,
2013, Treasury announced the initiation of a pre-arranged written trading plan as
part of its steps to divest its remaining shares.559 Table 2.34 summarizes Treasury’s
sales of GM stock.

TABLE 2.34
 TREASURY’S SALES OF GM COMMON SHARES
                         # Shares                                                            # Shares
                               Sold              Share          Net Proceeds                Remaining               Remaining
 Date                    (Millions)              Price              (Millions)               (Millions)         Treasury Equity
 11/17/2010                   358.5             $32.75                  $11,743                     912.4                        37%
 11/26/2010                    53.8             $32.75                    $1,761                    500.1                        33%
 12/21/2012                     200             $27.50                    $5,500                    300.1                        22%
 Notes: Treasury’s November 2010 sales were part of an initial public offering priced at $33.00 per share. Treasury’s sale price of
 $32.75 per share represents the IPO price minus underwriting fees and discounts. On 12/15/2010, Treasury sold all of its 83.9
 million GM preferred shares at $25.50 per share for proceeds of $2.1 billion.

 Sources: Treasury, Transactions Report, 12/28/2012.



    In order to recoup its total investment in GM, Treasury will need to recover
an additional $21.6 billion in proceeds. This translates to an average of $71.86
per share on its remaining common shares in GM, not taking into account divi-
dend and interest payments received from GM.560 The break-even price — $71.86
per share — is calculated by dividing the $21.6 billion (the amount that remains
outstanding to Treasury) by the 300.1 million remaining common shares owned
by Treasury. If the $756.7 million in dividends and interest received by Treasury as
of December 31, 2012, is included in this computation, then Treasury will need
to recover $20.8 billion in proceeds, which translates into a break-even price of
$69.34 per share, not taking into account other fees or costs associated with selling
the shares.
142   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Chrysler
                                             Chrysler is no longer in TARP and taxpayers suffered a $2.9 billion loss on
                                             the TARP investment in Chrysler. Through October 3, 2010, Treasury made
                                             approximately $12.5 billion available to Chrysler directly through AIFP in three
                                             stages: $4 billion before bankruptcy to CGI Holding LLC, which was the parent
                                             of Chrysler and Chrysler Financial; $1.9 billion in financing to Chrysler during
                                             bankruptcy; and $6.6 billion to Chrysler afterwards.561 In exchange, Treasury
                                             received 9.9% of the common equity in Chrysler.
                                                  On April 30, 2010, following the bankruptcy court’s approval of the plan of liq-
                                             uidation for Chrysler, the $1.9 billion loan was extinguished without repayment. In
                                             return, Treasury retained the right to recover proceeds from the sale of assets that
                                             were collateral for the loan from the liquidation of Chrysler assets.562 According to
                                             Treasury, it is unlikely to fully recover its initial investment of approximately $1.9
                                             billion related to the loan.563 As of December 31, 2012, Treasury had recovered
                                             approximately $57.4 million from asset sales during bankruptcy.564 Of the $4 billion
                                             lent to Chrysler’s parent company, CGI Holding LLC, before bankruptcy, $500
                                             million of the debt was assumed by Chrysler while the remaining $3.5 billion was
                                             held by CGI Holding LLC.565 Under the terms of this loan agreement, as amended
                                             on July 23, 2009, Treasury was entitled to the greater of approximately $1.4 billion
                                             or 40% of any proceeds that Chrysler Financial paid to its parent company, CGI
                                             Holding LLC, after certain other distributions were made.566 On May 14, 2010,
                                             Treasury accepted $1.9 billion in full satisfaction of its $3.5 billion loan to CGI
                                             Holding LLC.567
                                                  On May 24, 2011, Chrysler used the proceeds from a series of refinancing
                                             transactions and an equity call option exercised by Fiat to repay the loans from
                                             Treasury and the Canadian government.568 The repaid loans were made up of
                                             $6.6 billion in post-bankruptcy financing (of which $2.1 billion was never drawn
                                             down), and the $500 million in debt assumed by Chrysler.569 Treasury terminated
                                             Chrysler’s ability to draw the remaining $2.1 billion TARP loan.570
                                                  Over time, Fiat increased its ownership of Chrysler. On July 21, 2011, Treasury
                                             sold to Fiat for $500 million Treasury’s remaining equity ownership interest in
                                             Chrysler. Treasury also sold to Fiat for $60 million Treasury’s rights to receive pro-
                                             ceeds under an agreement with the United Auto Workers retiree trust pertaining to
                                             the trust’s shares in Chrysler.571
                                                  As of July 21, 2011, the Chrysler entities made approximately $1.2 billion in
                                             interest payments to Treasury under AIFP.572

                                             Automotive Financing Companies
                                             Ally Financial, formerly known as GMAC
                                             Ally Financial is still in TARP and taxpayers are owed $14.6 billion for the TARP
                                             investment in Ally Financial. In return for its investment, as of December 31, 2012,
                                             Treasury holds approximately 74% of Ally Financial’s common stock and $5.9
                                             billion worth of mandatorily convertible preferred shares (“MCP”). As of December
                                             31, 2012, Ally Financial had made one principal payment of $2.5 billion and
                                             approximately $3.1 billion in dividend and interest payments to Treasury.573
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013                               143




    Ally Financial received $17.2 billion in three separate injections of TARP funds.
On December 29, 2008, Treasury purchased $5 billion in senior preferred equity
from GMAC and received an additional $250 million in preferred shares through
warrants that Treasury exercised immediately at a cost of $2,500.574 In January
2009, Treasury loaned GM $884 million, which it invested in GMAC.575 In May
2009, Treasury exchanged this $884 million debt for a 35.4% common equity
ownership in GMAC.576 On May 21, 2009, Treasury made an additional invest-
ment in GMAC when it purchased $7.5 billion of MCP and received warrants that
Treasury immediately exercised for an additional $375 million in MCP at an addi-
tional cost of approximately $75,000.577 On December 30, 2009, Treasury invested
another $3.8 billion in GMAC, and Treasury received $2.5 billion in trust preferred
securities (“TRUPS”) and $1.3 billion in MCP. Treasury also received warrants,
which were immediately exercised, to purchase an additional $127 million in
TRUPS and $62.5 million in MCP at an additional cost of approximately $1,270
and $12,500, respectively.578 Additionally, Treasury converted $3 billion of its MCP
into GMAC common stock, increasing its common equity ownership from 35.4%
to 56.3%.579 On May 10, 2010, GMAC changed its name to Ally Financial Inc.580
    On December 30, 2010, Treasury announced the conversion of $5.5 billion of
its MCP in Ally Financial to common equity, increasing Treasury’s ownership stake
                                                                                              Figure 2.10
in Ally Financial’s common equity from 56.3% to 73.8%.581 On March 7, 2011,
                                                                                              OWNERSHIP IN ALLY FINANCIAL/GMAC
Treasury sold its $2.7 billion in TRUPS in Ally Financial in a public offering, result-
ing in a $2.5 billion principal repayment to Treasury.582 As of December 31, 2012,
                                                                                                             GM Trust
no other principal repayments have been made.
                                                                                               Third-Party
    As a result of its conversion of MCP to common stock in Ally Financial, and                Investors               10%
                                                                                                                8%
for as long as Treasury maintains common equity ownership at or above 70.8%,
Treasury can appoint six of the 11 directors on Ally Financial’s board.583 On August           Cerberus 9%                                       United States
                                                                                                                                        74%      Department
15, 2012, Treasury appointed Gerald Greenwald and Henry S. Miller as directors                                                                   of the
                                                                                                                                                 Treasury
of Ally Financial, bringing to six the number of directors it has appointed.584 The
conversion of $5.5 billion of Treasury’s MCP diluted the shares of other existing
shareholders in Ally Financial. Following the conversion, the private equity firm
Cerberus Capital Management, L.P. (“Cerberus”) held 8.7%, third-party investors
                                                                                              Notes: Numbers may be affected due to rounding.
collectively held 7.6%, an independently managed trust owned by GM held 5.9%,
                                                                                              Source: Ally Financial, Inc.: “Ownership Structure,” http://media.
and GM directly held a 4% stake in Ally Financial’s common equity.585 GM’s inter-             ally.com/index.php?s=51, accessed 1/4/2013.
ests have since been consolidated in the trust. Figure 2.10 shows the breakdown of
common equity ownership in Ally Financial as of December 31, 2012.

Proposed Ally Financial IPO
On March 31, 2011, Ally Financial filed a Form S-1 Registration statement for
an IPO with the Securities and Exchange Commission (“SEC”).586 The document
includes a prospectus relating to the issuance of Ally Financial common stock.587
The prospectus also outlines certain aspects of Ally Financial’s business operations
and risks facing the company.588
    Ally Financial stated that the proposed IPO would consist of “common stock
to be sold by the U.S. Department of the Treasury.”589 Ally Financial has disclosed
144   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             additional details about its proposed IPO in several amended Form S-1 Registration
                                             statements filed over time with the SEC, the most recent on October 5, 2012.590
                                             However, the offering has now been delayed for 22 months.
                                                 As of December 31, 2012, taxpayers are owed $14.6 billion for the TARP
                                             investment in Ally Financial. In return for the TARP investment Treasury holds
                                             74% of Ally Financial’s common stock and $5.9 billion in MCP.591

                                             Ally Financial Subsidiary Files for Chapter 11 Bankruptcy Relief
                                             On May 14, 2012, Ally Financial announced that its mortgage subsidiary,
                                             Residential Capital, LLC, and certain of its subsidiaries (“ResCap”) filed for
                                             bankruptcy court relief under Chapter 11 of the U.S. Bankruptcy Code, and that
                                             it was exploring strategic alternatives for its international operations.592 As a result
                                             of the Chapter 11 filing, Ally Financial said that it deconsolidated ResCap from its
                                             financial statements and wrote down its equity interest in ResCap to zero.593

                                             Ally Financial Agrees to Sell International Assets for $9.2 Billion
                                             On November 21, 2012, Ally Financial announced it had reached agreements to
                                             sell its remaining international assets to several buyers for a total of approximately
                                             $9.2 billion in proceeds.594 Among the buyers was General Motors Financial
                                             Company, Inc. (“GM Financial”), which agreed to pay $4.2 billion to purchase Ally
                                             Financial’s auto finance operations in Europe and Latin America, and its 40% stake
                                             in a joint venture in China. Ally Financial separately agreed to sell its Canadian
                                             auto finance operation to Royal Bank of Canada for $4.1 billion, and its Mexican
                                             insurance business to ACE Group for $865 million.595

                                             Chrysler Financial
                                             Chrysler Financial is no longer in TARP, having fully repaid the TARP investment.
                                             In January 2009, Treasury loaned Chrysler Financial $1.5 billion under AIFP to
                                             support Chrysler Financial’s retail lending. On July 14, 2009, Chrysler Financial
                                             fully repaid the loan in addition to approximately $7.4 million in interest
                                             payments.596 In connection with the $3.5 billion pre-bankruptcy loan remaining
                                             with CGI Holding LLC, the parent company of Chrysler (the bankrupt entity)
                                             and Chrysler Financial, Treasury was entitled to the greater of approximately $1.4
                                             billion or 40% of any proceeds that Chrysler Financial paid to its parent company,
                                             CGI Holding LLC, after certain other distributions were made.597 On May 14,
                                             2010, Treasury accepted $1.9 billion in full satisfaction of its $3.5 billion loan
                                             to CGI Holding LLC, thereby relinquishing any interest in or claim on Chrysler
                                             Financial.598 Seven months later, on December 21, 2010, TD Bank Group
                                             announced it had agreed to purchase Chrysler Financial from Cerberus, the owner
                                             of CGI Holding LLC, for approximately $6.3 billion.599 TD Bank Group completed
                                             its acquisition of Chrysler Financial on April 1, 2011, and has rebranded Chrysler
                                             Financial under the TD Auto Finance brand.600
                                                                           QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   145




Auto Supplier Support Program (“ASSP”)
On March 19, 2009, Treasury announced a commitment of $5 billion to
ASSP to “help stabilize the automotive supply base and restore credit flows in a
critical sector of the American economy.”601 Because of concerns about the auto
manufacturers’ ability to pay their invoices, suppliers had not been able to borrow
from banks by using their receivables as collateral. ASSP enabled automotive parts
suppliers to access Government-backed protection for money owed to them for the
products they shipped to manufacturers. Under the program, Treasury made loans
for GM ($290 million) and Chrysler ($123.1 million) that were fully repaid in April
2010.602

Auto Warranty Commitment Program (“AWCP”)
AWCP was designed to bolster consumer confidence by guaranteeing Chrysler
and GM vehicle warranties during the companies’ restructuring in bankruptcy.603
Treasury obligated $640.7 million to this program — $360.6 million for GM
and $280.1 million for Chrysler.604 On July 10, 2009, the companies fully repaid
Treasury upon their exit from bankruptcy.605
146   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
              TAXPAYERS CONTINUE TO OWN
              74% OF GMAC (REBRANDED AS
SECT IO N 3
              ALLY FINANCIAL INC.) FROM THE
              TARP BAILOUTS
148   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   149




                                          i
INTRODUCTION
General Motors Acceptance Corp. (“GMAC,” which has been rebranded as Ally
Financial Inc., “Ally”) is the second largest remaining TARP investment, with
$14.6 billion in TARP funds owed, for which taxpayers own 74% of the company.
As part of the auto bailouts of General Motors Corp. (“GM”) and Chrysler LLC
(“Chrysler”), the Federal Government made a coordinated rescue of GMAC,
once the auto financing subsidiary of GM. According to Treasury, Government
assistance began flowing to GMAC at the end of 2008 to keep financing available
to creditworthy GM dealers so they could continue to order cars, a function
deemed necessary to sustain the auto industry. Treasury made three sequential
TARP investments in GMAC through TARP’s Auto Industry Financing Program
(“AIFP”), continuing to justify its necessity because of GMAC’s ties to GM and
the auto industry. However, Treasury’s rescue of GMAC was markedly different
from the other auto bailouts because GMAC was the only company in the auto
bailout whose business extended beyond the auto industry. GMAC was one of the
nation’s largest subprime mortgage lenders. Taxpayers were not just bailing out an
auto finance company, they were bailing out one of the nation’s largest lenders of
subprime mortgages.
    GMAC’s TARP assistance was also markedly different because Treasury
never required GMAC to submit a viability plan outlining how it would resolve
substantial liabilities that led to historic losses. Treasury required GM and Chrysler
to submit viability plans and quickly planned for Chrysler Financial Services
Americas LLC’s liquidation. Treasury’s lack of a plan that would address the
subprime mortgage component going into the GMAC investment may be the
primary reason why still today, four years later, GMAC, now rebranded as Ally,
remains in TARP. By continuing to stand behind GMAC and provide repeated
bailouts of a subprime lender, Treasury underlined the moral hazard encompassed
in TARP – GMAC was too big to fail.
    Although the Federal Reserve Board (“Federal Reserve”) required some
restructuring of GMAC as a bank holding company, which was agreed to by
Treasury, neither it nor Treasury addressed GMAC’s subprime mortgage liabilities
through its subsidiary Residential Capital LLC (“ResCap”), where most of its losses
occurred. By not working to fully restructure Ally and ResCap, as it did with GM
and Chrysler, Treasury was merely postponing the resolution of the company’s
substantial mortgage liabilities, and finally in 2012, ResCap filed bankruptcy.
    Taxpayers invested in GMAC because of its auto financing business, but
GMAC also has used TARP funds to cover losses in its subprime business. Because
of ResCap’s losses and other issues, GMAC/Ally has failed Federal Reserve stress
tests designed to gauge financial stability, resulting in the Federal Reserve requiring
GMAC to raise additional capital. The company did so largely through three
taxpayer-funded TARP injections totaling $17.2 billion, of which the Office of
Management and Budget estimates taxpayers will lose $5.5 billion.606 Ally has

i SIGTARP is issuing this report under the Emergency Economic Stabilization Act. The report is based on publicly available information. It
 is not an audit or evaluation under the Inspector General Act of 1978 as amended.
150   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             repaid only $2.5 billion in principal.ii Other subprime mortgage companies failed
                                             without receiving TARP funds. The Federal Government has sanctioned Ally for
                                             improper mortgage foreclosure practices at ResCap, requiring Ally to pay $316.6
                                             million while being 74% owned by taxpayers. Ally’s CEO Michael Carpenter
                                             called ResCap a “millstone” around Ally’s neck, and it seems that ResCap also has
                                             become a millstone around taxpayers’ necks.
                                                 By failing to have required a fully developed viability plan as a condition of
                                             TARP, Treasury missed an opportunity to address GMAC’s mortgage issues, thereby
                                             better protecting the taxpayers’ investment and promoting GMAC’s financial
                                             stability. Ally’s path to exit TARP now must include a resolution of issues related
                                             to the mortgage liabilities, which should have been addressed when Treasury first
                                             invested or preceding its subsequent investments. According to Treasury, its exit
                                             strategy for its investment in Ally initially encompassed the launching of an initial
                                             public offering of stock. That plan has been sidelined. While Treasury has noted
                                             that it has several options for possible divestment, including a public or private sale
                                             of stock or other sale of Ally assets, Treasury has not decided which of these exit
                                             paths to take. Treasury must exercise great care and coordination with the Federal
                                             Reserve in developing a more concrete TARP exit plan for Ally that takes into
                                             account the need to maintain Ally’s financial stability. It is essential that when the
                                             Government finally exits Ally that it do so forever.




                                             GMAC EXPANDS FROM AUTOS TO SUBPRIME
                                             MORTGAGES PRIOR TO THE TARP BAILOUT
                                             Founded as a wholly owned subsidiary of GM in 1919 to provide auto loans to
                                             consumers buying GM cars and loans to GM auto dealers buying cars for their lots,
                                             GMAC became one of the world’s largest automotive financing companies and was
                                             a dependable source of profit for its parent, GM.607 For years, GMAC had a strong
                                             credit rating that allowed it to get capital at very low rates. GMAC’s auto dealer
                                             financing was profitable with low risk because cars served as collateral for the
                                             dealer loans and the GMAC loans typically required GM to repurchase cars that
                                             remained unsold after a certain amount of time.608 GMAC’s loans to consumers
                                             who bought a GM car also were generally profitable, with the majority of GMAC’s
                                             auto loans considered “prime loans,” meaning that GMAC loaned money to
                                             customers with high credit scores.609
                                                 From 1985 to 2005, GMAC aggressively expanded into loaning home
                                             mortgages that were considered subprime.iii Although there is no one definition of
                                             subprime loans, they are generally considered to be loans to customers with low
                                             credit scores. Subprime loans carry risk of delinquencies and defaults. GMAC’s
                                             subprime mortgage business was profitable for years. In 2004, as the housing
                                             ii Ally has also paid $2.9 billion in quarterly dividends to Treasury through December 31, 2012, as required by the terms of its preferred
                                                shares. Treasury received $251.9 million in dividends on its Ally trust preferred securities when they were sold in early 2011.
                                             iii In 1985, GMAC acquired Colonial Mortgage Services and the mortgage servicing platform of Norwest Mortgage Inc. ResCap, S-4,
                                               7/15/2005, p.65, www.sec.gov/Archives/edgar/data/1145701/000095012405004263/k96200sv4.htm, accessed 1/8/2013.
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   151




market peaked, mortgage lending and servicing (collecting mortgage loans owned
by others) helped boost GMAC’s net income to a record $2.9 billion.610 The
following year, GMAC organized all its mortgage operations under a new holding
company, Residential Capital, LLC. In addition to ResCap making, purchasing,
selling, and servicing residential mortgages, it also securitized residential mortgages,
meaning it converted loans into bundled assets for investors to purchase.611
ResCap’s 2005 net income surpassed GMAC’s auto lending net income.612 That
same year, GM began losing billions of dollars as it struggled with high costs and
weak sales of new cars.613
     By 2006, GMAC was the nation’s 10th largest mortgage producer, originating
nearly $162 billion in home loans.614 On November 30, 2006, facing more losses
in its auto sales business, GM spun off a controlling interest in GMAC (a 51%
interest) to an investor group led by the private equity fund Cerberus Capital
Management L.P. (“Cerberus”) for $7.4 billion as a way to preserve GMAC’s own
credit ratings, which were crucial to support its lending to GM dealers.615 GMAC
continued to provide loans to GM auto dealers.iv
     But in 2007, losses at ResCap brought GMAC down from its 2006 profits
to significant losses. GMAC reported a 2006 profit of $2.1 billion, then in 2007
reported a loss of $2.3 billion.616 In its 2007 annual report, GMAC reported that its
losses reflected the adverse effects of the disruption in the mortgage, housing, and
capital markets on ResCap, as well as lower gains on GMAC’s insurance business,
which more than offset the strong performance of its auto financing business.617
GMAC further stated that ResCap’s losses came from increases in delinquent loans
and deterioration in the securitization and residential housing markets. GMAC
reduced ResCap’s workforce and restructured the unit in 2007, announcing in
its end of the year annual report that GMAC was investigating various strategic
alternatives including acquisitions, dispositions, alliances, and joint ventures related
to all aspects of the ResCap business.618
     In the third quarter of 2008, GMAC lost $2.5 billion, “primarily attributable
to a significant loss at” ResCap.619 GMAC restructured ResCap in that quarter,
cutting 4,800 jobs, closing all GMAC mortgage retail offices, ceasing making
certain loans, and selling GMAC Home Services business.620 GMAC forgave
$101.5 million in debt owed by ResCap, and forgave $95.3 million owed on
ResCap notes held by GMAC.621 When 2008 ended, ResCap had lost nearly $10
billion over eight quarters, prompting GMAC to warn, “there remains substantial
doubt about ResCap’s ability to continue as a going concern without the support of
GMAC.”622
     GMAC’s historically profitable auto finance business lost $2.1 billion in 2008,
its first and only annual loss in the company’s history. The loss was driven by
writedowns on car leases, an increase in credit reserves, weaker consumer and
dealer credit performance, and lower car sales.623 Due to this credit crisis, GMAC
decided to create constraints on its loans — lending only to those with strong credit
iv Cerberus is a private equity fund that manages $20 billion in assets. The firm specializes in buying distressed companies,
  restructuring their finances, and then selling all or part of them for a profit. In addition to GMAC, Cerberus also controlled Chrysler and
  its auto finance unit, Chrysler Financial, at the time that they received TARP bailouts. Cerberus Capital Management, L.P., “The Firm,”
  www.cerberuscapital.com/the_firm, undated, accessed 1/22/2013.
152   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             scores of 700 or higher. But those constraints lasted only two months, and on
                                             December 30, 2008, just days after receiving $5 billion in TARP funds, it cut the
                                             minimum credit score for borrowers to 620.624




                                             TREASURY’S MULTIPLE TARP BAILOUTS OF
                                             GMAC RESULTED IN TAXPAYERS OWNING AN
                                             INCREASING PERCENTAGE OF GMAC
                                             In a Coordinated Federal Rescue, Treasury Bails Out GMAC
                                             With TARP Funds Because of its Ties to GM
                                             Despite GMAC’s significant losses from ResCap’s subprime mortgage business, it
                                             was its auto financing for GM that would lead the Government to bail it out. In
                                             November 2008, the CEOs of GM, Chrysler, and Ford Motor Co. testified before
                                             Congress requesting Government assistance, saying that at stake was consumer
                                             confidence in the entire U.S. auto industry, as well as millions of jobs that were
                                             directly or indirectly linked to all three Detroit carmakers.
                                                 After several weeks of private talks among GMAC, Federal regulators, and
                                             Treasury, a coordinated Government rescue moved forward. GMAC announced on
                                             November 20, 2008, that it had applied to the Federal Reserve to reorganize itself
                                             as a bank holding company, based on its ownership of online bank GMAC Bank.625
                                             GMAC simultaneously applied to Treasury for TARP money.626 As a bank holding
                                             company, GMAC would be eligible to apply for Government assistance from the
                                             Federal Reserve’s discount window, the Federal Deposit Insurance Corporation’s
                                             (“FDIC”) Temporary Liquidity Guarantee Program (“TLGP”), and from TARP’s
                                             Capital Purchase Program (“CPP”), the program in which Treasury was injecting
                                             capital into banks.
                                                 GMAC’s application for TARP funds was conditioned on it becoming a bank
                                             holding company. In order for GMAC to become a bank holding company, the
                                             Federal Reserve required that GMAC raise capital levels (consisting of cash and
                                             stock) to $30 billion to absorb losses and that GMAC convince 75% of bondholders
                                             to exchange their notes for discounted preferred stock that would count as
                                             capital.627 GMAC repeatedly extended the debt exchange deadline as it sought
                                             to persuade enough bondholders to participate. According to press reports, some
                                             big bondholders balked, saying they would not participate unless Cerberus first
                                             injected more money into GMAC.628
                                                 On December 19, 2008, the President announced $13.4 billion in TARP aid for
                                             GM and Chrysler, and that each had until February 17, 2009, to submit a viability
                                             plan. The viability plan was a strategic plan for long-term profitability that included
                                             concessions from employees, suppliers, creditors, and dealers.629 A White House
                                             fact sheet stated, “Taxpayers will not be asked to provide financing for firms that do
                                             not become viable.”630
                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   153




     In a coordinated Federal rescue, five days after the GM and Chrysler
TARP bailouts, in a rare split vote of 4-to-1, the Federal Reserve approved
GMAC’s bank holding company application. The Federal Reserve declared that
“emergency conditions” existed and that “the proposal would benefit the public by
strengthening GMAC’s ability to fund the purchases of vehicles manufactured by
GM and other companies and by helping to normalize the credit markets for such
purposes.”631 The Federal Reserve ordered GMAC to boost its capital by raising $7
billion of new equity. Treasury directly supplied $5 billion of that in TARP funds.
     Although the Federal Reserve required that GMAC make some changes to
its capital structure and its corporate structure in order to meet the regulatory
requirements for bank holding company status and Treasury agreed with these
changes, this requirement did not address ResCap’s mortgage liabilities or other
issues. Treasury’s stated purpose for providing the TARP money (in exchange
for preferred stock) was GMAC’s importance to the auto industry.632 Even as the
Government required that in exchange for TARP money, the automakers GM and
Chrysler plan how they would become financially viable, Treasury rescued GMAC
with TARP funds with no viability requirement that would address the mortgage
liabilities. Treasury’s initial $5 billion direct investment in GMAC had no strings
attached for a plan to ensure repayment of taxpayers’ investment.
     Although GMAC had applied for TARP money from CPP, Treasury instead
tapped TARP’s Automotive Industry Financing Program (“AIFP”) to provide
the bailout funds. “Because the finance companies serve as the lifeblood of the
automakers, we knew that our program would need to address the short-term needs
of the auto finance companies as well,” Assistant Secretary for Financial Stability
Neel Kashkari, who led TARP, said at the time.633 In addition to the direct cash
injection to GMAC, Treasury loaned GM $884 million of TARP money so it could
invest in GMAC’s stock. Cerberus invested $366 million in GMAC stock.634
     According to officials of Treasury’s Auto Team, which formed later, in February
2009, by late 2008 American auto companies lost sales of an estimated 2 million to
2.5 million vehicles because neither dealers nor customers could obtain credit.635
Steven Rattner, the head of Treasury’s Auto Team, described in his book, Overhaul,
that GMAC and Chrysler Financial depended on being able to borrow from banks,
and the credit crunch had curtailed this source of funding.636 According to Rattner,
another source of funding had been cut off – securitizations – loans to consumers
and dealers that were “bundled, sliced like a layer cake, and sold off in tranches,
typically to investment funds.”637 Accordingly, Rattner explained, as a result, GMAC
and Chrysler Financial “had drastically reduced lending to consumers and dealers,
a major factor in the steep falloff of car sales.”

Treasury Bails Out GMAC With TARP Funds a Second Time
After GMAC Fails Stress Test, With Taxpayer Ownership of
GMAC Increasing to 35%
In February and March 2009, two key Federal efforts were happening
simultaneously that would lead to a second TARP bailout for GMAC. Treasury’s
154   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             recently constituted Auto Team under the new Administration was assessing
                                             GM’s and Chrysler’s viability plans, and the Federal Reserve and other regulators
                                             were conducting bank stress tests. In the wake of the financial crisis, the Federal
                                             Reserve was examining whether the 19 biggest bank holding companies, including
                                             GMAC, could survive a stress environment. Specifically, the Federal Reserve was
                                             determining whether the companies had enough capital “to withstand a ‘bad state
                                             of the world’ scenario.”638
                                                  At the end of the first quarter, Treasury rejected viability plans submitted by GM
                                             and Chrysler, stating that, companies “may well require utilizing the bankruptcy
                                             code in a quick and surgical way.”639 Treasury’s Auto Team began planning for
                                             Chrysler’s bankruptcy. The Auto Team soon realized that a Chrysler bankruptcy
                                             would have severe consequences on Chrysler Financial’s ability to obtain bank
                                             credit.640 According to Rattner, GMAC’s CEO Alvaro de Molina suggested that
                                             GMAC take over loans to consumers and auto dealers for new Chrysler cars.641
                                             Although, according to Rattner, de Molina “had his own agenda,” that is what
                                             Treasury did.642 When Chrysler filed for bankruptcy to reorganize itself on April
                                             30, 2009, GMAC announced it would replace Chrysler Financial in providing
                                             Chrysler dealers with inventory financing and would lend money to consumers to
                                             buy Chrysler vehicles.643 However, even with GMAC’s conversion to a bank holding
                                             company and the infusion of $5 billion from Treasury, and the $884 million TARP-
                                             funded infusion from GM, GMAC began 2009 with a first-quarter loss of $675
                                             million, deeper than its loss in the same quarter one year earlier.644
                                                  On May 7, 2009, the Federal Reserve announced the results of the stress tests.
                                             The test found that under the worst-case economic scenario, 18 of the 19 banks
                                             would have capital buffers of various sizes available to help absorb losses, with only
                                             GMAC having a shortfall.645 The Federal Reserve ordered 10 banks to raise capital
                                             by November 2009, including GMAC, which was instructed to raise $9.1 billion
                                             in Tier 1 capital, the capital considered by regulators to cushion losses the best.646
                                             During this period of time, GM was planning for a potential bankruptcy.v
                                                  Already a $5 billion direct investor in GMAC, Treasury once again agreed to
                                             a TARP bailout of GMAC of an additional $7.5 billion on May 21, 2009, and
                                             indicated a willingness to provide even more capital if needed. However, with the
                                             results of the stress tests, Treasury stipulated that subsequent TARP investments
                                             would be contingent on the Federal Reserve approving a capital plan to address
                                             its concerns, and a liquidity plan if necessary. Of this $7.5 billion investment,
                                             $4 billion would be used to support GMAC taking over Chrysler loans and $3.5
                                             billion would help GMAC address its capital shortfall requirements arising from
                                             the stress test.647 “A recapitalized GMAC will offer strong credit opportunities,
                                             help stabilize our auto financing market, and contribute to the overall economic
                                             recovery,” Treasury Secretary Timothy F. Geithner said.648 Treasury received a
                                             type of preferred stock that could convert to common stock. This type of stock
                                             would count toward GMAC meeting the stress test requirement.vi Treasury also

                                             v GM filed for Chapter 11 bankruptcy relief on June 1, 2009.
                                             vi In return for its investment, Treasury received $7.5 billion in mandatorily convertible preferred stock (“MCP”) paying a 9% dividend, and
                                               warrants for $375 million more of MCP, which it immediately exercised.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   155




exercised its right to appoint two directors to GMAC’s board.vii Additionally,
Treasury exchanged the $884 million loan it had made to GM to purchase GMAC
stock into a 35.4% common stock ownership of GMAC.649 This marked the first
time that Treasury would have a common stock equity ownership in a privately
held company, GMAC. Treasury through TARP owned a common stock equity
ownership in Citigroup, Inc., but Citigroup was a public company whose stock
traded on a public exchange.
    The second TARP bailout was again a coordinated Federal rescue of GMAC
among the Federal Reserve, Treasury, and the FDIC, which gave GMAC access to
the FDIC’s TLGP to issue up to $7.4 billion in new FDIC-guaranteed debt.650

Treasury Bails Out GMAC With TARP Funds a Third Time After
GMAC Fails to Meet Capital Requirements of Stress Tests,
With Taxpayers’ Ownership of GMAC Increasing to 56%
It was not long before GMAC turned to Treasury for help again. Of the 10
companies ordered by the Federal Reserve to raise capital by November 9, 2009,
GMAC was the only one that failed to fully boost its loss-absorbing capital buffer
by the deadline.viii In GMAC’s case, after weeks of discussions among GMAC, the
Federal Reserve, and Treasury, on December 30, 2009, Treasury announced a
third TARP bailout from AIFP of $3.8 billion to meet GMAC’s capital requirement
stemming from the stress test. Of the 10 bank holding companies that had failed
the Federal Reserve stress test earlier in the year, Ally was the only one that
received an extension of time and a reduction in how much capital it was required
to raise.651 The amount was reduced from an earlier gap of $5.6 billion, Treasury
said, because of lower than expected losses related to GM’s bankruptcy filing.652
    The third rescue package was more complicated than the previous ones.
Treasury restructured its earlier aid, converting $3 billion in securities it had
received in the second bailout into common stock to improve GMAC’s quality of
the capital. This increased Treasury’s common stock ownership of GMAC from
35.4% to 56.3%. Treasury also invested an additional $3.8 billion in TARP funds in
GMAC, receiving additional securities in return.ix The bigger ownership stake gave
Treasury the right to select two additional GMAC directors, for a total of four on
the company’s nine-member board.




vii Treasury chose Robert Blakely, the former chief financial officer of Fannie Mae, and Kim Fennebresque, a Wall Street investment
    banker, both of whom remained board directors as of December 31, 2012. Ally, Board of Directors, undated, media.ally.com/index.
    php?s=52&item=122, accessed 1/15/2012.
viii The other banks sold assets, cut dividends, issued new common shares, or converted existing preferred shares to common
     shares. FRB Press Release, untitled, 11/9/2009, www.federalreserve.gov/newsevents/press/bcreg/20091109a.htm, accessed
     1/22/2013.
ix $2.54 billion of Trust Preferred Securities (“TRUPs”), a hybrid debt security senior to all other GMAC capital securities, and $1.25
  billion in MCP securities. Treasury Press Release, “Treasury Announces Restructuring of Commitment to GMAC,” 12/30/2009, www.
  treasury.gov/press-center/press-releases/Pages/tg501.aspx, accessed 1/22/2013. Treasury also received $127 million in warrants
  to purchase TRUPs and $63 million in warrants to purchase MCPs, all of which were exercised immediately. Treasury added a “reset”
  feature to allow a 2011 adjustment of the conversion price under which its MCP could be converted into common shares, if beneficial
  to taxpayers.
 156                  SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                     GMAC Rebrands as Ally Financial; Treasury Converts
                                                                     Securities to Common Stock, With Taxpayers’ Ownership of
                                                                     GMAC Increasing to 74%
                                                                     GMAC, including its troubled ResCap group, in early 2010 reported its first
                                                                     quarterly profit since Treasury’s infusion of cash, but Treasury continued to
                                                                     increase taxpayers’ ownership in GM, propping up the company’s capital structure.
                                                                     In May 2010, GMAC rebranded itself as Ally Financial Inc. Ally’s CEO testified
Figure 3.1                                                           before the Congressional Oversight Panel that the company was abandoning the
OWNERSHIP IN ALLY FINANCIAL/GMAC                                     name GMAC and focusing on the Ally Bank name because Chrysler dealers would
                                                                     not like doing business “on GM paper.”653
                                                                          Treasury converted nearly half of its preferred shares ($5.5 billion worth) into
               GM Trust
 Third-Party
                                                                     Ally common stock on December 30, 2010, with three direct results.654 First,
 Investors               10%                                         it increased taxpayers’ common stock ownership of Ally to 73.8%.x Second, the
                  8%
                                                                     conversion increased Ally’s proportion of common stock, which bank examiners
 Cerberus 9%                                       United States
                                                   Department
                                                                     consider the most desirable form of regulatory capital to absorb potential losses.
                                          74%
                                                   of the            Third, the conversion removed Ally’s obligation to pay Treasury about $500 million
                                                   Treasury
                                                                     each year in dividend payments because the common stock carried no dividends.xi
                                                                     According to Treasury, the conversion simplified any future efforts on the part of
                                                                     Treasury to reduce its investment in Ally through the sale of its common stock.655
                                                                     However, Ally’s common stock was not, and still is not, publicly traded. It was then,
Notes: Numbers may be affected due to rounding. Treasury owns
73.8% of Ally’s Common Stock (981,971 shares), and $5.9 billion      and still is today, a privately held company. For Treasury to sell its common stock on
in preferred securities that automatically convert to Common
Stock after 7 years.                                                 the public markets, Ally would need to conduct an initial public offering. Figure 3.1
Source: Ally Financial, Inc.: “Ownership Structure,” http://media.
                                                                     summarizes the breakdown of common equity ownership in Ally as of December
ally.com/index.php?s=51, accessed 1/4/2013.                          31, 2012.




                                                                     ALLY’S AUTO FINANCING AND BANKING BUSINESS
                                                                     Ally’s online banking business has grown rapidly since it became a bank holding
                                                                     company. Assets at Ally Bank, which does all its business via the Internet or
                                                                     telephone, have more than tripled since 2007 and reached $92.8 billion as of
                                                                     September 30, 2012, or half of Ally’s companywide assets of $182.5 billion.656 In
                                                                     the final quarter of 2012, Ally Bank repaid all $7.4 billion in debt that it had issued
                                                                     under the FDIC’s Temporary Liquidity Guarantee Program.657 Ally Bank also holds
                                                                     some mortgage loans and servicing rights, not included in ResCap’s bankruptcy
                                                                     reorganization, and said it plans to continue originating what it described as a
                                                                     “modest” number of residential jumbo mortgages for its own portfolio.658

                                                                     x Treasury also owned $5.9 billion in MCPs and $2.7 billion in TRUPs.
                                                                     xi With its larger ownership interest, Treasury gained the right to appoint a total of six directors on Ally’s expanded 11-member board,
                                                                       which Treasury has done. Ally Board of Directors Governance Policy, www.ally.com/files/pdf/policies-charters/ally-risk-board-of-
                                                                       directors-governance-policy.2010-05-01.pdf, 5/1/2010, accessed 1/22/2013. Treasury appointed its fourth member to the Ally
                                                                       board of directors, John Durrett, a strategic adviser to private equity firm Serent Capital, in February 2011. More than 18 months after
                                                                       it was given the right to fill the fifth and sixth seats on Ally’s board, Treasury in August 2012 finally chose Henry Miller, a Wall Street
                                                                       restructuring expert, and Gerald Greenwald, a former chief executive at United Airlines. Treasury Press Release, “Treasury Names
                                                                       Appointee to Ally Board of Directors,” 2/28/2011,” www.treasury.gov/press-center/press-releases/Pages/tg1080.aspx, accessed
                                                                       1/22/2013. Ally Press Release, “Ally Financial Announces John D. Durrett to the Board of Directors,” 2/28/2011, media.ally.com/
                                                                       index.php?s=43&item=447, accessed 1/22/2013. Treasury Press Release, “Treasury Names Appointees to Ally Board of Directors,”
                                                                       8/15/2012, www.treasury.gov/press-center/press-releases/Pages/tg1682.aspx, accessed 1/22/2013.
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   157




    Ally’s auto financing relationship with its former parent has changed during
the past four years. In 2010, GM bought subprime lender AmeriCredit Corp. for
$3.5 billion to set up a new U.S. auto financing arm that could also offer car loans
to consumers with non-prime credit scores.659 At the end of 2013, Ally faces the
expiration of a key lending agreement with GM, in which the automaker currently
subsidizes car loans made by Ally to offer cheaper financing on new GM cars to
consumers.660 Loans under the GM contract represented about 18% of Ally’s total
U.S. loan origination volume in the second quarter of 2012, down from 80% five
years ago, according to Fitch Ratings.661 In the international market, GM will no
longer depend upon Ally for support once it completes its $4.2 billion purchase of
Ally’s auto finance operations in Europe, Latin America, and China.662 The sale
agreement was announced by Ally on November 21, 2012, and is subject to regula-
tory approvals. “Both Ally and GM have been trying to diversify away from each
other – GM through buying AmeriCredit (now GMF) and Ally by transforming
itself to a more market-driven independent auto finance company, with increased
share with other auto manufacturers and greater presence in the used car financing
business,” Fitch said.663
    Ally’s anchor business, auto financing, is facing more competition from
traditional banks looking for new sources of profits. Wells Fargo & Company
climbed ahead of Ally to become the biggest lender for both new and used vehicles
in the third quarter of 2012, according to Experian Information Solutions, Inc.,
which tracks the auto financing sector.664 Wells Fargo ranked No. 1 with 5.9% of
the fragmented market for consumer auto loans, followed by Ally with 5.5%, Toyota
with 5.1%, JPMorgan Chase with 4.9%, and Capital One with 3.8%. In 2011, Ally
was the largest independent provider of new retail auto loans, funding one out of
every 10 new car purchases as it originated $43.8 billion in consumer car loans in
North America, Ally said.665 On the dealer side, during the first half of 2012 Ally
financed $30.2 billion of auto dealers’ vehicles and claimed 72% of GM’s and 59%
of Chrysler’s total new North American dealer vehicles.666 In April 2012, Chrysler
notified Ally that it would not renew past April 2013 a preferred financing contract
that provided subsidies for certain consumer loan discounts, a business that
accounted for 6% of Ally’s total U.S. consumer loan originations in the first quarter
of the year.667 In January 2013, Ally securitized $940 million in non-prime auto
loans, its first sale of such loans in several years.668
158   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TAXPAYER BAILOUTS DID NOT RESOLVE
                                             MORTGAGE LIABILITIES
                                             Treasury Did Not Require GMAC to Submit a Viability Plan to
                                             Resolve Mortgage Liabilities
                                             Treasury did not require GMAC to produce a viability plan to resolve its mortgage
                                             liabilities. In comparison, the other auto industry companies that received TARP
                                             funds through AIFP were required to submit a viability plan. In comparison, in
                                             early 2009, GM had already made public a 117-page plan that laid out data and
                                             specific estimates about how it would cut costs at its plants, eliminate jobs, shrink
                                             its network of auto dealerships, renegotiate its labor union agreements, and win
                                             bondholders’ participation in a debt exchange.669 The Government rejected the plan
                                             as submitted, but some elements formed the basis for GM’s pre-packaged Chapter
                                             11 bankruptcy reorganization, filed June 1, 2009.670
                                                 GMAC in 2008 was pursuing funding through TARP’s bank program, CPP.
                                             As a condition of approving GMAC as a bank holding company and subsequently
                                             during the stress tests, the Federal Reserve required the company to undergo some
                                             changes.671 However, these restructuring changes were required to bring GMAC
                                             into compliance with Federal Reserve requirements and requirements for the stress
                                             tests. Treasury’s third infusion of TARP funds was contingent on GMAC receiving
                                             Federal Reserve approval for capital plans, and if separately addressed, liquidity
                                             plans connected with stress tests.672 However, the stress tests were focused mainly
                                             on capital. Without a plan for GMAC’s future viability, taxpayers were investing
                                             without a clear business path for things beyond capital, including operating needs,
                                             expenses, reductions, growth projections, and profitability of the company. Most
                                             importantly, without a viability plan there was no early assessment of how to best
                                             address the problematic liabilities and what later became enforcement issues re-
                                             lated to GMAC’s subprime mortgage arm.
                                                 GMAC’s size placed it in a group of 19 largest bank holding companies, those
                                             with more than $100 billion in assets, subjecting it to Federal Reserve stress tests,
                                             which GMAC has repeatedly failed because of ResCap issues.673 The Federal
                                             Reserve also required GMAC to address concerns about its ownership by a private
                                             equity firm as well as its commercial, non-banking activities.674 Because Cerberus
                                             and GM had large business interests outside the banking industry, the Federal
                                             Reserve required each to sharply reduce their ownership stakes in GMAC.xii
                                             The Federal Reserve also forced GM to modify various auto financing exclusiv-
                                             ity arrangements and incentives it had set up with GMAC after selling a majority
                                             stake to Cerberus in 2006.675 To ensure GMAC’s independence as a bank hold-
                                             ing company, the Federal Reserve halted Cerberus’ practice of sharing employees
                                             and consultants with GMAC.676 The Federal Reserve gave GMAC three months
                                             to reconstitute its board of directors with two directors appointed by the Treasury
                                             xii Cerberus was ordered to cut its ownership from 51% to less than 15% of GMAC’s voting shares by distributing equity interests to its
                                               investors. GM was instructed to reduce its 49% stake to less than 10% by transferring shares to an independent trust, which would be
                                               managed by Treasury-appointed trustees who could take up to three years to sell the shares.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   159




trust; one appointed by Cerberus; three independent directors; and GMAC’s chief
executive officer.677

Taxpayers Fund Ally’s Subprime Mortgage Business—With
Ally’s CEO Describing it as the Millstone Around Ally’s Neck
While the bailout of GMAC was described from the start by Treasury as necessary
to save the auto industry, Ally also used TARP money for its subprime mortgage
business. In response to a SIGTARP survey in 2009, Ally told SIGTARP that it
used TARP money to “make auto loans, provide dealer financing, and modify
home loans.”678 According to Ally, $1.3 billion in TARP funds went to Ally Bank
for its “higher risk” mortgages. Ally also made a $2.8 billion capital contribution in
December 2009 to prop up ResCap with a combination of cash, debt forgiveness,
and mortgage loan purchases.679 Ally said in a press statement, “Following these
transactions, GMAC does not expect to incur additional substantial losses from
ResCap and will be better positioned to explore strategic alternatives with respect
to mortgage operations.”680 That turned out not to be true.
    The Congressional Oversight Panel (“COP”) wrote in March 2010 that
ResCap’s “ongoing existence and viability have remained highly doubtful without
continued contributions from its parent. GMAC’s contributions to ResCap would
not have been possible, however, had GMAC not received TARP assistance.”681
Ally’s CEO Carpenter testified before COP on February 25, 2010, “For GMAC,
over the last several years, [ResCap] has been what I have described publicly as
a millstone around the company’s neck. It has been the single-greatest barrier to
the company’s access to the capital markets, it has been the greatest barrier on our
profitability as an enterprise.”682
    For years, ResCap had drained its parent’s resources. Unlike Ally’s auto
finance unit, which lost money in only one year during its nearly 100-year history,
ResCap had soaked up more than $8.5 billion of Ally capital contributions since
2007 in various forms of cash, debt forgiveness, and purchases of ResCap loans
and assets.683 ResCap had been slow to write down the balance sheet value of its
distressed home loans to a level low enough to sell them to buyers. At the same
time, ResCap’s losses totaled $17.8 billion since 2007.684 Figure 3.2 summarizes
the financial performance of Ally’s automobile finance and mortgage operations
since 2007.
    In early 2011, the Federal Reserve completed another round of stress tests on
major bank holding companies including Ally, and although the results were not
made public, the Federal Reserve ordered Ally to “make improvements” in areas
including its capital adequacy process, regulatory reporting, risk management,
and board and senior management oversight.685 In Ally’s 2010 annual report filed
in early 2011, Ally reported that banking supervisors instructed Ally to reduce its
problem assets and to improve aspects of its home mortgage business.xiii


xiii The improvements were to be in the areas of loan pricing, consumer complaint resolution, internal audits, and fee monitoring. Ally,
   10-K, 2/25/2011, p.13, www.sec.gov/Archives/edgar/data/40729/000119312511047688/d10k.htm, accessed 1/22/2013.
160   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    FIGURE 3.2

                                                    AUTO FINANCE AND MORTGAGE OPERATIONS OF GMAC
                                                    (REBRANDED AS ALLY)

                                                    ANNUAL REVENUE ($ BILLIONS)                                         ANNUAL INCOME ($ BILLIONS)
                                                    6                                                                   6

                                                          5                      5         5
                                                    4                                                4.5                4


                                                                     2.8                       2.7
                                                    2                                                                   2                                           2.6
                                                                                                                                                                               2.3
                                                              1.7                                                            1.5
                                                                                                           1.2
                                                                                     .6                                                                 .3                .7
                                                    0                                                                   0
                                                                           -.3                                                                                                       -.7


                                                    -2                                                                  -2                -2.1




                                                    -4                                                                  -4         -4.3


                                                                                                                                                 -5.6
                                                    -6                                                                  -6

                                                                                                                                                             -7.1

                                                    -8                                                                  -8
                                                         2007        2008        2009      2010      2011                    2007         2008          2009         2010      2011

                                                                      Auto Finance                                                         Auto Finance
                                                                      Mortgage Operations                                                  Mortgage Operations


                                              ALLY CAPITAL CONTRIBUTIONS TO RESCAP, 2008-2012                                                           ($BILLIONS)

                                                          2008                       2009                        2010                2011                           2012                   TOTAL
                                                              $3.3                        $4                       —           $0.058                               $1.2                    $8.6
                                              Note: Data is from GMAC/Ally 10-Ks, in the year it was reported. Subsequent adjustments may have been made in later corporate
                                              filings. The 2012 capital contribution includes $750 million Ally has offered to pay ResCap creditors to settle potential liabilities.



                                                 Ally has also been seriously sanctioned in a number of Federal actions for
                                             improper mortgage foreclosure practices. In 2010, Ally halted foreclosures in
                                             nearly two dozen states. A ResCap employee testified before Congress that some
                                             of its foreclosure affidavits were signed without a notary present and without
                                             direct personal knowledge of the information in the affidavit.686 In October 2010,
                                             Ally paid $462 million to Fannie Mae in a settlement to release its ResCap unit
                                             from any liability related to poorly underwritten mortgages sold to Fannie Mae.
                                             The agreement protected ResCap from the potential repurchase of $292 billion
                                             worth of loans it sold to Fannie Mae.687 In early 2011, the Federal Reserve
                                             ordered Ally and nine other banks to halt what it described as “a pattern of
                                             misconduct and negligence” in mortgage servicing and foreclosure processing
                                             and subsequently sanctioned Ally $207 million for its conduct.688 Soon afterward,
                                             on April 4, 2012, Ally agreed to pay $110 million and to provide $200 million in
                                             principal writedowns, refinancing, and other relief to borrowers in a “Robosigning
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   161




Settlement” with the Federal Government and 49 state attorneys general for
improper foreclosures practices. The settlement cited a number of “deficiencies” in
Ally’s participation in TARP housing programs, its eviction notice and collections
activities, and how it handled pooled mortgage loan insurance and guarantees.689
    Ally failed another Federal Reserve stress test on March 13, 2012, with the
weakest showing among the big bank holding companies tested.690 ResCap clearly
was a factor in Ally’s failure to pass and the test concluded that if the economy
dramatically worsened, Ally would fall short of the Federal Reserve’s minimum
capital ratio requirement of 5% Tier One common equity to risk-weighted assets.691
Ally ranked last among the banks with a stressed ratio of 2.5%.692 The company
protested the test results, saying that the Federal Reserve’s analysis “dramatically”
overstated potential mortgage risk, ignored the contingent capital that already
existed within Ally’s capital structure, and did not reflect management’s
commitment to address its legacy mortgage risks.693
    Soon afterward, on May 14, 2012, after $17.8 billion in mortgage-related losses
since 2007, ResCap filed bankruptcy. “ResCap is one of the last subprime mortgage
lenders of the early 2000s to file for bankruptcy,” according to a report from
Moody’s Analytics.694 Other subprime lenders failed or filed bankruptcy; none of
them were bailed out by the Government through TARP. Ally’s CEO had previously
stated that Ally’s board had considered and rejected bankruptcy for Rescap.695
    ResCap’s bankruptcy did not eliminate Ally’s potential mortgage obligations. As
part of ResCap’s bankruptcy filing, Ally eliminated ResCap from its own balance
sheet and took a $1.2 billion charge-off. That charge-off included $220 million in
loans to fund ResCap’s bankruptcy and $750 million that Ally has offered to pay to
ResCap creditors to settle potential mortgage liabilities upon the bankruptcy court
judge’s confirmation of ResCap’s reorganization plan, which is scheduled to be
submitted in April 2013.696




ALLY STILL OWES TAXPAYERS $14.6 BILLION
AND TREASURY HAS NO CONCRETE TARP EXIT
PLAN FOR ALLY THAT BALANCES REPAYMENT TO
TAXPAYERS WITH ALLY’S FINANCIAL STABILITY
Four years after its first Government bailout, Ally still owes taxpayers $14.6 billion
and Treasury has no concrete exit plan that balances repayment to taxpayers with
Ally’s financial stability. The financial stability of Ally must involve resolution of
Ally’s mortgage liabilities. Three times the Federal government injected billions
of dollars into Ally and not once did it require the company to spell out a plan for
resolving ResCap’s issues. According to Treasury, it planned to exit its investment
in Ally through a public sale of stock. On March 31, 2011, Ally filed for a proposed
initial public offering that would allow Treasury to sell some of its common
shares.697 However, Treasury’s initial plan was sidelined. In May 2012, when
162   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             ResCap filed for bankruptcy, Treasury stated that Ally’s proposed initial public
                                             offering was delayed because of “intensifying issues” with ResCap’s legacy mortgage
                                             liabilities.698 Treasury now states that its exit plan includes the ResCap bankruptcy
                                             and Ally’s sale of international operations – all of which occurred in 2012.699
                                             However, Treasury does not have a concrete plan for how to dispose of its shares in
                                             Ally after ResCap’s bankruptcy.
                                                 As of December 31, 2012, of the $17.2 billion invested in TARP money in
                                             GMAC, taxpayers have received just one principal repayment in the amount of
                                             $2.5 billion, leaving $14.6 billion owed to taxpayers. That payment was received in
                                             March 2011 from the sale of certain securities. No other principal repayments have
                                             been made on the GMAC investment. Ally has paid preferred stock dividends to
                                             the Government totaling $2.9 billion over the years. In addition, Treasury received
                                             $251.9 million in dividends on its Ally trust preferred securities when they were
                                             sold in 2011. It is important to recognize that those payments are in addition to –
                                             not in place of – the TARP principal that taxpayers provided to Ally in 2008 and
                                             2009.
                                                 However, taxpayer repayment is only one important factor, as financial stability
                                             is a crucial responsibility of Treasury. Treasury needs to develop a concrete plan to
                                             determine how to dispose of its Ally holdings, while promoting financial stability.
                                             Treasury and Ally have several options that, with approval by Federal Reserve
                                             regulators, can be used alone or in combination.
                                                 Ally Buys Back TARP Stock: At the end of the third quarter of 2012,
                                             Ally’s most recently reported financial period, the company’s assets totaled
                                             $182.5 billion.700 The balance sheet assets included $17.2 billion in cash and
                                             cash equivalents. Proceeds of recently announced sales of $9.2 billion worth
                                             of international auto finance assets could be used to pay down Ally’s TARP
                                             obligation.xiv The money raised from Ally’s recent asset sales is also being sought
                                             by a group of ResCap unsecured creditors, who have questioned Ally’s transfer of
                                             assets from ResCap before it filed for bankruptcy protection.701
                                                 Treasury Sells its Nearly One Million Shares of Common Stock: Treasury
                                             could sell its nearly one million shares of Ally publicly or in a private sale. In
                                             December 2010, Treasury Secretary Geithner testified before the Congressional
                                             Oversight Panel and was asked about GMAC and any TARP exit plan. He
                                             responded, “We are going to move as quickly as we can to replace the government’s
                                             investments with private capital, take those firms public, figure out a way to exit as
                                             quickly as we can. And we’re working very hard with the management and board of
                                             GMAC to achieve that outcome. I don’t quite — I don’t know how quickly, but it’s
                                             going to be much sooner than we thought six months ago.”702
                                                 Although Ally has returned to profitability, factors including ResCap’s drain on
                                             company resources and Ally’s latest failed stress test have postponed Ally’s proposed
                                             initial public offering for 22 months.703 The lack of publicly-traded shares makes
                                             it more difficult for Treasury to sell its shares on the public market. Moreover,
                                             Treasury cannot sell a 74% ownership stake consisting of nearly one million shares
                                             xiv Ally announced sales to several buyers, including its former parent, GM. Ally press release, “Ally Financial Announces Agreement
                                                to Sell Remaining International Operations,” 11/21/2012, media.ally.com/2012-11-21-Ally-Financial-Announces-Agreement-to-Sell-
                                                Remaining-International-Operations, accessed 1/22/2013.
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   163




of common stock quickly, and according to Treasury, it may need one to two years
following an initial public offering to dispose completely of its ownership stake.704
    Treasury’s investment in Ally remains unresolved. The results of the Federal
Reserve’s next round of stress tests for the 19 biggest bank holding companies
are scheduled to be made public in March 2013, and it is unknown how much
cash the Federal Reserve will require Ally to keep on its balance sheet to meet
regulatory capital requirements.705 While repayment to taxpayers is a vital concern,
Treasury must remain focused on keeping Ally financially stable. Taxpayers saved
GMAC, and they should not be put in the position of needing to save the company
again. Given the Federal Reserve’s position that Ally cannot survive a stressed
environment, and Treasury’s historic position that Ally’s failure could have a domino
adverse effect on GM (which will remain in TARP for one or more years to
come) and the auto industry, Treasury must take great care in its exit of its TARP
investments in Ally to promote financial stability so that history does not repeat
itself.
    Treasury must work together with Federal banking regulators to develop a plan
to exit Treasury’s investment in Ally that includes the TARP program’s objective of
financial stability. That kind of cooperation took place in late 2008 when regulators
put together a plan to recapitalize Ally. However, Treasury and Ally did not map out
a clear path before any of the three infusions of TARP capital to address ResCap’s
liabilities. Instead, almost three and half years after the initial bailout, ResCap
filed bankruptcy. In coordinated discussions, Treasury and the Federal banking
regulators must now develop a path to repay taxpayers while leaving Ally (and GM
and the auto industry) in a position of strength going forward.
164   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
SECT IO N 4
              TARP OPERATIONS AND
              ADMINISTRATION
166   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                              QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   167




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”). OFS is responsible for
administering TARP.706 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.707 In addition to using
permanent and interim staff, OFS relies on contractors and financial agents for
legal services, investment consulting, accounting, and other key services.




TARP ADMINISTRATIVE AND PROGRAM
EXPENDITURES
As of December 31, 2012, Treasury has obligated $356.3 million for TARP
administrative costs and $991.2 million in programmatic expenditures for a total of
$1.3 billion since the beginning of TARP. Of that, $242 million has been obligated
in the year since December 31, 2011. According to Treasury, as of December 31,
2012, it had spent $297.2 million on TARP administrative costs and $800.9 million
on programmatic expenditures, for a total of $1.1 billion since the beginning
of TARP.708 Of that, $264.3 million has been spent in the year since December
31, 2011. Treasury reported that it employs 60 career civil servants, 86 term
appointees, and 25 reimbursable detailees, for a total of 171 full-time employees.709
Table 4.1 provides a summary of the expenditures and obligations for TARP
administrative costs through December 31, 2012. These costs are categorized as
“personnel services” and “non-personnel services.”
168   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 4.1
                                              TARP ADMINISTRATIVE OBLIGATIONS AND EXPENDITURES
                                                                                                            Obligations for Period Expenditures for Period
                                             Budget Object Class Title                                       Ending 12/31/2012        Ending 12/31/2012

                                             Personnel Services

                                                Personnel Compensation & Benefits                                       $106,189,865                        $106,125,071
                                             Total Personnel Services                                                 $106,189,865                         $106,125,071



                                             Non-Personnel Services
                                                Travel & Transportation of Persons                                         $2,172,671                           $2,138,404
                                                Transportation of Things                                                         11,960                               11,960
                                                Rents, Communications, Utilities & Misc.
                                                Charges                                                                         768,000                             693,237
                                                Printing & Reproduction                                                               402                                  402
                                                Other Services                                                           245,322,996                          186,368,296
                                                Supplies & Materials                                                         1,577,928                            1,573,059
                                                Equipment                                                                       253,286                             243,907
                                                Land & Structures                                                                       —                                    —
                                                Dividends and Interest                                                                634                                  634
                                             Total Non-Personnel Services                                             $250,107,876                         $191,029,898
                                             Grand Total                                                              $356,297,741                         $297,154,969
                                             Notes: Numbers may not total due to rounding. The cost associated with “Other Services” under TARP Administrative Expenditures and
                                             Obligations are composed of administrative services including financial, administrative, IT, and legal (non-programmatic) support.

                                             Source: Treasury, response to SIGTARP data call, 1/9/2013.




                                             CURRENT CONTRACTORS AND FINANCIAL
                                             AGENTS
                                             As of December 31, 2012, Treasury had retained 143 private vendors: 18 financial
                                             agents and 125 contractors, to help administer TARP.710 That is an increase
                                             of 14 vendors since December 31, 2011. Table 4.2 provides a summary of the
                                             programmatic expenditures, which include costs to hire financial agents and
                                             contractors, and obligations through December 31, 2012, excluding costs and
                                             obligations related to personnel services and travel and transportation. Although
                                             Treasury has informed SIGTARP that it “does not track” the number of individuals
                                             who provide services under its agreements, the number likely dwarfs the 171 that
                                             Treasury has identified as working for OFS.711 For example, on October 14, 2010,
                                             the Congressional Oversight Panel (“COP”) reported that “Fannie Mae alone
                                             currently has 600 employees working to fulfill its TARP commitments.”712
                                                                                       QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013           169




TABLE 4.2
 OFS SERVICE CONTRACTS
                                                                                    Type of
 Date         Vendor                           Purpose                              Transaction       Obligated Value        Expended Value
              Simpson Thacher & Bartlett MNP   Legal services for the
 10/10/2008                                                                         Contract                $931,090                $931,090
              LLP                              implementation of TARP
 10/11/2008   Ennis Knupp & Associates Inc.1   Investment and Advisory Services     Contract                2,635,827              2,635,827
              The Bank of New York Mellon                                           Financial
 10/14/2008                                    Custodian                                                   54,797,995             49,375,042
              Corporation                                                           Agent
 10/16/2008   PricewaterhouseCoopers           Internal control services            Contract               34,980,857             33,476,296
                                               For process mapping consultant       Interagency
 10/17/2008   Turner Consulting Group, Inc.2                                                                    9,000                       —
                                               services                             Agreement
 10/18/2008   Ernst & Young LLP                Accounting Services                  Contract               14,550,519             13,640,626
                                               Legal services for the Capital
 10/29/2008   Hughes Hubbard & Reed LLP                                             Contract                3,060,921              2,835,357
                                               Purchase Program
                                               Legal services for the Capital
 10/29/2008   Squire, Sanders & Dempsey LLP                                         Contract                2,687,999              2,687,999
                                               Purchase Program
 10/31/2008   Lindholm & Associates, Inc.      Human resources services             Contract                  614,963                614,963
              Sonnenschein Nath & Rosenthal    Legal services related to auto
 11/7/2008                                                                          Contract                2,702,441              2,702,441
              LLP4                             industry loans
                                                                                    Interagency
 11/9/2008    Internal Revenue Service         Detailees                                                       97,239                 97,239
                                                                                    Agreement
                                                                                    Interagency
 11/17/2008   Internal Revenue Service         CSC Systems & Solutions LLC2                                     8,095                    8,095
                                                                                    Agreement
              Department of the Treasury —                                          Interagency
 11/25/2008                                    Administrative Support                                      16,512,820             16,131,121
              Departmental Offices                                                  Agreement
              Alcohol and Tobacco Tax and      IAA — TTB Development, Mgmt &        Interagency
 12/3/2008                                                                                                     67,489                 67,489
              Trade Bureau                     Operation of SharePoint              Agreement
                                                                                    Interagency
 12/5/2008    Washington Post3                 Subscription                                                       395                       —
                                                                                    Agreement
              Sonnenschein Nath & Rosenthal    Legal services for the purchase of
 12/10/2008                                                                         Contract                  102,769                102,769
              LLP4                             assets-backed securities
                                               Admin action to correct system
 12/10/2008   Thacher Proffitt & Wood4                                              Contract                        —                       —
                                               issue
                                                                                    Interagency
 12/15/2008   Office of Thrift Supervision     Detailees                                                      225,547                164,823
                                                                                    Agreement
              Department of Housing and                                             Interagency
 12/16/2008                                    Detailees                                                            —                       —
              Urban Development                                                     Agreement
                                                                                    Interagency
 12/22/2008   Office of Thrift Supervision     Detailees                                                            —                       —
                                                                                    Agreement
              Cushman and Wakefield of VA
 12/24/2008                                    Painting Services for TARP Offices   Contract                    8,750                    8,750
              Inc.
              Securities and Exchange                                               Interagency
 1/6/2009                                      Detailees                                                       30,416                 30,416
              Commission                                                            Agreement
 1/7/2009     Colonial Parking Inc.            Lease of parking spaces              Contract                  338,050                234,433
                                                                                                                        Continued on next page
170          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS           (CONTINUED)

                                                                                           Type of
      Date         Vendor                             Purpose                              Transaction   Obligated Value        Expended Value
                   Cadwalader Wickersham & Taft
      1/27/2009                                       Bankruptcy Legal Services            Contract            $409,955                $409,955
                   LLP
                   Whitaker Brothers Bus Machines
      1/27/2009                                       Paper Shredder                       Contract               3,213                    3,213
                   Inc.
                                                                                           Interagency
      1/30/2009    Comptroller of the Currency        Detailees                                                 501,118                 501,118
                                                                                           Agreement
                                                      IAA — GAO required by P.L. 110-
                   US Government Accountability                                            Interagency
      2/2/2009                                        343 to conduct certain activities                       7,459,049               7,459,049
                   Office                                                                  Agreement
                                                      related to TARP IAA
                                                                                           Interagency
      2/3/2009     Internal Revenue Service           Detailees                                                 242,499                 242,499
                                                                                           Agreement
                                                      Temporary Services for Document
      2/9/2009     Pat Taylor & Associates, Inc.      Production, FOIA assistance, and     Contract             692,108                 692,108
                                                      Program Support
                                                      Initiate Interim Legal Services in
      2/12/2009    Locke Lord Bissell & Liddell LLP   support of Treasury Investments      Contract             272,243                 272,243
                                                      under EESA
                                                      Homeownership Preservation           Financial
      2/18/2009    Fannie Mae                                                                               405,730,176             330,850,172
                                                      Program                              Agent
                                                      Homeownership Preservation           Financial
      2/18/2009    Freddie Mac                                                                              293,158,529             216,304,664
                                                      Program                              Agent
                                                                                           Interagency
      2/20/2009    Financial Clerk U.S. Senate        Congressional Oversight Panel                           3,394,348               3,394,348
                                                                                           Agreement
                                                                                           Interagency
      2/20/2009    Office of Thrift Supervision       Detailees                                                 203,390                 189,533
                                                                                           Agreement
                   Simpson Thacher & Bartlett MNP
      2/20/2009                                       Capital Assistance Program (I)       Contract           1,530,023               1,530,023
                   LLP
                                                      Capital Assistance Program (II)
      2/20/2009    Venable LLP                                                             Contract           1,394,724               1,394,724
                                                      Legal Services
                   Securities and Exchange                                                 Interagency
      2/26/2009                                       Detailees                                                  18,531                  18,531
                   Commission                                                              Agreement
                   Pension Benefit Guaranty                                                Interagency
      2/27/2009                                       Rothschild, Inc.                                        7,750,000               7,750,000
                   Corporation                                                             Agreement
                                                      Management Consulting relating to
      3/6/2009     The Boston Consulting Group                                             Contract             991,169                 991,169
                                                      the Auto industry
                                                      Small Business Assistance            Financial
      3/16/2009    Earnest Partners                                                                           2,947,780               2,947,780
                                                      Program                              Agent
                                                      SBA Initiative Legal Services —
      3/30/2009    Bingham McCutchen LLP5             Contract Novated from TOFS-          Contract             273,006                 143,893
                                                      09-D-0005 with McKee Nelson
                   Cadwalader Wickersham & Taft
      3/30/2009                                       Auto Investment Legal Services       Contract          17,392,786              17,392,786
                   LLP
      3/30/2009    Haynes and Boone, LLP              Auto Investment Legal Services       Contract             345,746                 345,746
                                                                                                                           Continued on next page
                                                                                       QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013           171




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                    Type of
Date        Vendor                             Purpose                              Transaction       Obligated Value        Expended Value
                                               SBA Initiative Legal Services
                                               — Contract Novated to TOFS-
3/30/2009   McKee Nelson5                                                           Contract                $149,349                $126,631
                                               10-D-0001 with Bingham
                                               McCutchen LLP
            Sonnenschein Nath & Rosenthal
3/30/2009                                      Auto Investment Legal Services       Contract                1,834,193              1,834,193
            LLP4
                                               Credit Reform Modeling and
3/31/2009   FI Consulting Inc.                                                      Contract                4,124,750              3,385,030
                                               Analysis
                                                                                    Interagency
4/3/2009    American Furniture Rentals Inc.3   Furniture Rental 1801                                           35,187                 25,808
                                                                                    Agreement
                                               Management Consulting relating to
4/3/2009    The Boston Consulting Group                                             Contract                4,100,195              4,099,923
                                               the Auto industry
                                                                                    Interagency
4/17/2009   Bureau of Engraving and Printing   Detailee for PTR Support                                        45,822                 45,822
                                                                                    Agreement
4/17/2009   Herman Miller, Inc.                Aeron Chairs                         Contract                   53,799                 53,799
                                                                                    Financial
4/21/2009   AllianceBernstein LP               Asset Management Services                                   46,747,854             43,208,040
                                                                                    Agent
                                                                                    Financial
4/21/2009   FSI Group, LLC                     Asset Management Services                                   25,749,133             24,442,922
                                                                                    Agent
            Piedmont Investment Advisors,                                           Financial
4/21/2009                                      Asset Management Services                                   12,553,281             11,699,518
            LLC                                                                     Agent
                                                                                    Interagency
4/30/2009   Department of State                Detailees                                                            —                      —
                                                                                    Agreement
                                                                                    Interagency
5/5/2009    Federal Reserve Board              Detailees                                                       48,422                 48,422
                                                                                    Agreement
            Department of the Treasury —       “Making Home Affordable” Logo        Interagency
5/13/2009                                                                                                         325                     325
            U.S. Mint                          search                               Agreement
                                               Executive Search and recruiting
5/14/2009   Knowledgebank Inc.2                Services — Chief Homeownership       Contract                  124,340                124,340
                                               Officer
                                               Freedom of Information Act (FOIA)
                                               Analysts to support the Disclosure
5/15/2009   Phacil, Inc.                                                            Contract                   90,301                 90,301
                                               Services, Privacy and Treasury
                                               Records
            Securities and Exchange                                                 Interagency
5/20/2009                                      Detailees                                                      430,000                430,000
            Commission                                                              Agreement
                                                                                    Interagency
5/22/2009   Department of Justice — ATF        Detailees                                                      243,778                243,772
                                                                                    Agreement
                                               Legal services for work under
5/26/2009   Anderson, McCoy & Orta             Treasury’s Public Private            Contract                2,286,996              2,286,996
                                               Investment Funds (PPIF) program
                                               Legal services for work under
            Simpson Thacher & Bartlett MNP
5/26/2009                                      Treasury’s Public Private            Contract                7,849,026              3,526,454
            LLP
                                               Investment Funds (PPIF) program
                                                                                                                        Continued on next page
172          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS           (CONTINUED)

                                                                                       Type of
      Date         Vendor                           Purpose                            Transaction     Obligated Value        Expended Value
                                                                                       Interagency
      6/9/2009     Gartner, Inc.                    Financial Management Services                             $89,436                 $89,436
                                                                                       Agreement
                                                    Federal Consulting Group           Interagency
      6/29/2009    Department of the Interior                                                                  49,000                  49,000
                                                    (Foresee)                          Agreement
      7/8/2009     Judicial Watch6                  Litigation Settlement              Other Listing            1,500                    1,500
                                                    Executive search services for
      7/17/2009    Korn/Ferry International         the OFS Chief Investment Officer   Contract                74,023                  74,023
                                                    position
                   Cadwalader Wickersham & Taft
      7/30/2009                                     Restructuring Legal Services       Contract             1,278,696               1,278,696
                   LLP
      7/30/2009    Debevoise & Plimpton LLP         Restructuring Legal Services       Contract                 1,650                    1,650
                   Fox, Hefter, Swibel, Levin &
      7/30/2009                                     Restructuring Legal Services       Contract                26,493                  26,493
                   Carol, LLP
                                                                                       Interagency
      8/10/2009    Department of Justice — ATF      Detailees                                                  63,109                  63,109
                                                                                       Agreement
                   National Aeronautics and Space                                      Interagency
      8/10/2009                                     Detailees                                                 140,889                 140,889
                   Administration (NASA)                                               Agreement
                                                    Executive Compensation Data
      8/18/2009    Mercer (US) Inc.                                                    Contract                 3,000                    3,000
                                                    Subscription
                                                                                       Interagency
      8/25/2009    Department of Justice — ATF      Detailees                                                  63,248                  63,248
                                                                                       Agreement
      9/2/2009     Knowledge Mosaic Inc.            SEC filings subscription service   Contract                 5,000                    5,000
                                                    Executive Compensation Data
      9/10/2009    Equilar, Inc.                                                       Contract                59,990                  59,990
                                                    Subscription
      9/11/2009    PricewaterhouseCoopers           PPIP compliance                    Contract             3,558,634               3,339,658
                                                                                       Interagency
      9/18/2009    Treasury Franchise Fund          BPD                                                       436,054                 436,054
                                                                                       Agreement
                                                                                       Interagency
      9/30/2009    Immixtechnology Inc.3            EnCase eDiscovery ProSuite                                210,184                       —
                                                                                       Agreement
                                                                                       Interagency
      9/30/2009    Immixtechnology Inc.3            Guidance Inc.                                             108,000                       —
                                                                                       Agreement
      9/30/2009    NNA INC.                         Newspaper delivery                 Contract                 8,220                    8,220
                                                    SNL Unlimited, a web-based
      9/30/2009    SNL Financial LC                                                    Contract               460,000                 460,000
                                                    financial analytics service
                   Department of the Treasury —                                        Interagency
      11/9/2009                                     Administrative Support                                 23,682,061              18,056,064
                   Departmental Offices                                                Agreement
                                                                                       Interagency
      12/16/2009   Internal Revenue Service         Detailees                                                      —                        —
                                                                                       Agreement
                                                                                       Financial
      12/22/2009   Avondale Investments LLC         Asset Management Services                                 772,657                 772,657
                                                                                       Agent
                                                                                       Financial
      12/22/2009   Bell Rock Capital, LLC           Asset Management Services                               2,330,267               2,181,704
                                                                                       Agent
                                                                                                                         Continued on next page
                                                                                      QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013           173




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                   Type of
Date         Vendor                            Purpose                             Transaction       Obligated Value        Expended Value
                                               Document Production services and
12/22/2009   Hughes Hubbard & Reed LLP                                             Contract               $1,456,803               $868,376
                                               Litigation Support
                                                                                   Financial
12/22/2009   KBW Asset Management, Inc.        Asset Management Services                                   4,937,433              4,937,433
                                                                                   Agent
                                                                                   Financial
12/22/2009   Lombardia Capital Partners, LLC   Asset Management Services                                   3,566,607              3,145,848
                                                                                   Agent
             Paradigm Asset Management                                             Financial
12/22/2009                                     Asset Management Services                                   3,642,868              3,426,917
             Co., LLC                                                              Agent
             Raymond James (f/k/a Howe                                             Financial
12/22/2009                                     Asset Management Services                                   3,595,258              3,277,067
             Barnes Hoefer & Arnett, Inc.)                                         Agent
                                               IAA — GAO required by P.L.110-
             US Government Accountability                                          Interagency
1/14/2010                                      343 to conduct certain activities                           7,304,722              7,304,722
             Office                                                                Agreement
                                               related to TARP
             Association of Government
1/15/2010                                      CEAR Program Application            Contract                    5,000                    5,000
             Accountants
                                                                                   Interagency
2/16/2010    Internal Revenue Service          Detailees                                                      52,742                 52,742
                                                                                   Agreement
                                               FNMA IR2 assessment — OFS
2/16/2010    The MITRE Corporation             task order on Treasury MITRE        Contract                  730,192                730,192
                                               Contract
                                                                                   Interagency
2/18/2010    Treasury Franchise Fund           BPD                                                         1,221,140              1,221,140
                                                                                   Agreement
3/8/2010     Qualx Corporation                 FOIA Support Services               Contract                  549,518                549,518
             Department of the Treasury —                                          Interagency
3/12/2010                                      Administrative Support                                        671,731                671,731
             Departmental Offices                                                  Agreement
                                                                                   Interagency
3/22/2010    Gartner, Inc.                     Financial Management Services                                  73,750                 73,750
                                                                                   Agreement
                                                                                   Interagency
3/26/2010    Federal Maritime Commission       Detailees                                                     158,600                158,600
                                                                                   Agreement
                                                                                   Financial
3/29/2010    Morgan Stanley                    Disposition Agent Services                                 16,685,290             16,685,290
                                                                                   Agent
                                                                                   Interagency
4/2/2010     Financial Clerk U.S. Senate       Congressional Oversight Panel                               4,797,556              4,797,556
                                                                                   Agreement
4/8/2010     Squire, Sanders & Dempsey LLP     Housing Legal Services              Contract                1,229,350                918,224
4/12/2010    Hewitt EnnisKnupp, Inc. 1
                                               Investment Consulting Services      Contract                5,543,750              3,752,397
                                               Data and Document Management
4/22/2010    Digital Management Inc.                                               Contract                        —                       —
                                               Consulting Services
                                               Data and Document Management
4/22/2010    MicroLink, LLC                                                        Contract               16,234,132             10,534,851
                                               Consulting Services
                                               Data and Document Management
4/23/2010    RDA Corporation                                                       Contract                6,626,280              5,364,676
                                               Consulting Services
                                                                                   Interagency
5/4/2010     Internal Revenue Service          Training — Bulux CON 120                                        1,320                    1,320
                                                                                   Agreement
                                                                                                                       Continued on next page
174          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                         Type of
      Date         Vendor                            Purpose                             Transaction   Obligated Value        Expended Value
                                                                                         Financial
      5/17/2010    Lazard Fréres & Co. LLC           Transaction Structuring Services                     $14,759,919             $14,119,086
                                                                                         Agent
                   Reed Elsevier Inc (dba            Accurint subscription service for
      6/24/2010                                                                          Contract               8,208                    8,208
                   LexisNexis)                       one year — 4 users
                                                     Financial Institution Management
                   The George Washington
      6/30/2010                                      & Modeling — Training course        Contract               5,000                    5,000
                   University
                                                     (J.Talley)
                                                     Program Compliance Support
      7/21/2010    Navigant Consulting                                                   Contract           2,952,427                 454,561
                                                     Services
                                                     Program Compliance Support
      7/21/2010    Regis and Associates PC                                               Contract           1,406,297                 495,291
                                                     Services
                                                     Program Compliance Support
      7/22/2010    Ernst & Young LLP                                                     Contract           8,101,175               3,197,952
                                                     Services
                                                     Program Compliance Support
      7/22/2010    PricewaterhouseCoopers                                                Contract                  —                        —
                                                     Services
      7/22/2010    Schiff Hardin LLP                 Housing Legal Services              Contract              97,526                  97,526
      7/27/2010    West Publishing Corporation       Subscription Service for 4 users    Contract               6,664                    6,664
                                                     Omnibus procurement for legal
      8/6/2010     Alston & Bird LLP                                                     Contract           1,357,061                 237,482
                                                     services
                   Cadwalader Wickersham & Taft      Omnibus procurement for legal
      8/6/2010                                                                           Contract           6,686,506               3,139,841
                   LLP                               services
                   Fox, Hefter, Swibel, Levin &      Omnibus procurement for legal
      8/6/2010                                                                           Contract             227,415                 150,412
                   Carol, LLP                        services
                                                     Omnibus procurement for legal
      8/6/2010     Haynes and Boone, LLP                                                 Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Hughes Hubbard & Reed LLP                                             Contract           1,975,498               1,042,553
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Love & Long LLP                                                       Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Orrick Herrington Sutcliffe LLP                                       Contract                  —                        —
                                                     services
                   Paul, Weiss, Rifkind, Wharton &   Omnibus procurement for legal
      8/6/2010                                                                           Contract           9,363,250               4,136,442
                   Garrison LLP                      services
                                                     Omnibus procurement for legal
      8/6/2010     Perkins Coie LLP                                                      Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Seyfarth Shaw LLP                                                     Contract                  —                        —
                                                     services
                   Shulman, Rogers, Gandal, Pordy    Omnibus procurement for legal
      8/6/2010                                                                           Contract             367,641                 202,721
                   & Ecker, PA                       services
                   Sullivan Cove Reign Enterprises   Omnibus procurement for legal
      8/6/2010                                                                           Contract                  —                        —
                   JV                                services
                                                     Omnibus procurement for legal
      8/6/2010     Venable LLP                                                           Contract             498,100                      960
                                                     services
                                                                                                                         Continued on next page
                                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013           175




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                     Type of
Date         Vendor                             Purpose                              Transaction       Obligated Value        Expended Value
8/12/2010    Knowledge Mosaic Inc.              SEC filings subscription service     Contract                   $5,000                 $5,000
             Department of Housing and                                               Interagency
8/30/2010                                       Detailees                                                       29,915                 29,915
             Urban Development                                                       Agreement
                                                One-year subscription (3 users) to
                                                the CQ Today Breaking News &
9/1/2010     CQ-Roll Call Inc.                  Schedules, CQ Congressional &        Contract                    7,500                    7,500
                                                Financial Transcripts, CQ Custom
                                                Email Alerts
                                                SBA 7(a) Security Purchase
9/17/2010    Bingham McCutchen LLP5                                                  Contract                   19,975                 11,177
                                                Program
                                                Program Operations Support
                                                Services to include project
9/27/2010    Davis Audrey Robinette             management, scanning and             Contract                2,940,592              2,529,937
                                                document management and
                                                correspondence
9/28/2010    Judicial Watch6                    Litigation Settlement                Other Listing               2,146                    2,146
                                                GSA Task Order for procurement
                                                books — FAR, T&M, Government
9/30/2010    CCH Incorporated                                                        Contract                    2,430                    2,430
                                                Contracts Reference, World Class
                                                Contracting
                                                                                     Interagency
10/1/2010    Financial Clerk U.S. Senate        Congressional Oversight Panel                                5,200,000              2,777,752
                                                                                     Agreement
10/8/2010    Management Concepts Inc.           Training Course — CON 217            Contract                    1,025                    1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 216            Contract                    1,025                    1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                    2,214                    2,214
10/8/2010    Management Concepts Inc.           Training Course — 11107705           Contract                      995                     995
10/8/2010    Management Concepts Inc.           Training Course — Analytic Boot      Contract                    1,500                    1,500
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                    2,214                    2,214
10/8/2010    Management Concepts Inc.           Training Course — CON 217            Contract                    1,025                    1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                    2,214                    2,214
             Hispanic Association of Colleges
10/14/2010                                      Detailees                            Contract                   12,975                 12,975
             & Universities
                                                IAA — GAO required by P.L. 110-
             US Government Accountability                                            Interagency
10/26/2010                                      343 to conduct certain activities                            5,600,000              3,738,195
             Office                                                                  Agreement
                                                related to TARP
                                                FNMA IR2 assessment — OFS
                                                task order on Treasury MITRE
11/8/2010    The MITRE Corporation              Contract for cost and data           Contract                2,288,166              1,850,677
                                                validation services related to
                                                HAMP FA
                                                Structuring and Disposition          Financial
11/18/2010   Greenhill & Co., Inc.                                                                           6,139,167              6,139,167
                                                Services                             Agent
                                                Acquisition Support Services —
12/2/2010    Addx Corporation                   PSD TARP (action is an order         Contract                1,311,314              1,290,863
                                                against BPA)
                                                                                                                         Continued on next page
176          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS              (CONTINUED)

                                                                                            Type of
      Date         Vendor                              Purpose                              Transaction   Obligated Value        Expended Value
                   Reed Elsevier Inc. (dba             Accurint subscription services one
      12/29/2010                                                                            Contract                $684                    $684
                   LexisNexis)                         user
                                                                                            Interagency
      1/5/2011     Canon U.S.A. Inc.                   Administrative Support                                     12,937                  12,013
                                                                                            Agreement
                                                       Structuring and Disposition          Financial
      1/18/2011    Perella Weinberg Partners & Co.                                                             5,542,473               5,542,473
                                                       Services                             Agent
                                                                                            Interagency
      1/24/2011    Treasury Franchise Fund             BPD                                                     1,090,860               1,090,860
                                                                                            Agreement
                   Association of Government
      1/26/2011                                        CEAR Program Application             Contract               5,000                    5,000
                   Accountants
                                                       Mentor Program Training (call
      2/24/2011    ESI International Inc.                                                   Contract              20,758                  20,758
                                                       against IRS BPA)
                   Department of the Treasury —                                             Interagency
      2/28/2011                                        Administrative Support                                 17,805,529              13,243,352
                   Departmental Offices                                                     Agreement
                                                       Executive Compensation Data
      3/3/2011     Equilar, Inc.                                                            Contract              59,995                  59,995
                                                       Subscription
                                                       Executive Compensation Data
      3/10/2011    Mercer (US) Inc.                                                         Contract               7,425                    3,600
                                                       Subscription
      3/22/2011    Harrison Scott Publications, Inc.   Subscription Service                 Contract               5,894                    5,894
                                                                                            Interagency
      3/28/2011    Fox News Network LLC7               Litigation Settlement                                     121,000                 121,000
                                                                                            Agreement
                   Federal Reserve Bank of New                                              Interagency
      4/20/2011                                        Oversight Services                                      1,300,000                 875,415
                   York (FRBNY) HR                                                          Agreement
      4/26/2011    PricewaterhouseCoopers LLP          Financial Services Omnibus           Contract           5,102,092               2,463,531
      4/27/2011    ASR Analytics, LLC                  Financial Services Omnibus           Contract           2,645,423                  72,177
      4/27/2011    Ernst & Young, LLP                  Financial Services Omnibus           Contract           1,414,262                 514,549
      4/27/2011    FI Consulting, Inc.                 Financial Services Omnibus           Contract           1,703,711               1,703,711
      4/27/2011    Lani Eko & Company CPAs LLC         Financial Services Omnibus           Contract              50,000                       —
      4/27/2011    MorganFranklin, Corporation         Financial Services Omnibus           Contract             619,451                       —
      4/27/2011    Oculus Group, Inc.                  Financial Services Omnibus           Contract           2,284,646               1,006,407
      4/28/2011    Booz Allen Hamilton, Inc.           Financial Services Omnibus           Contract              50,000                       —
      4/28/2011    KPMG, LLP                           Financial Services Omnibus           Contract              50,000                       —
                   Office of Personnel Management
                                                                                            Interagency
      4/28/2011    (OPM) — Western Management          Leadership Training                                        21,300                       —
                                                                                            Agreement
                   Development Center
                   Reed Elsevier Inc (dba              Accurint subscriptions by
      5/31/2011                                                                             Contract              10,260                    9,405
                   LexisNexis)                         LexisNexis for 5 users
                                                       Five (5) user subscriptions to
      5/31/2011    West Publishing Corporation         CLEAR by West Government             Contract               7,515                    7,515
                                                       Solutions
                                                                                                                            Continued on next page
                                                                                      QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013           177




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                   Type of
Date         Vendor                            Purpose                             Transaction       Obligated Value        Expended Value
                                               One year subscription to the
                                               CQ Today Breaking News &
6/9/2011     CQ-Roll Call Inc.                 Schedules, CQ Congressional &       Contract                   $7,750                 $7,750
                                               Financial Transcripts, CQ Custom
                                               Email Alerts
                                               Anti-Fraud Protection and
6/17/2011    Winvale Group LLC                                                     Contract                  504,232                462,972
                                               Monitoring Subscription Services
             Department of the Treasury —                                          Interagency
6/24/2011                                      Administrative Support                                        660,601                660,601
             Departmental Offices                                                  Agreement
             Internal Revenue Service -                                            Interagency
7/28/2011                                      Detailee                                                       84,234                 84,234
             Procurement                                                           Agreement
                                                                                   Interagency
9/9/2011     Financial Management Service      FMS – NAFEO                                                    22,755                 22,755
                                                                                   Agreement
                                               MHA Felony Certification
9/12/2011    ADC LTD NM                                                            Contract                  447,799                359,489
                                               Background Checks (BPA)
             ABMI – All Business Machines,     4 Level 4 Security Shredders and
9/15/2011                                                                          Contract                    4,392                    4,392
             Inc                               Supplies
                                               National Business Center, Federal   Interagency
9/29/2011    Department of Interior                                                                           51,000                 25,000
                                               Consulting Group                    Agreement
                                               Renewing TD010-F-249 SEC filings
9/29/2011    Knowledge Mosaic Inc.                                                 Contract                    4,200                    4,200
                                               Subscription Service
                                                                                   Interagency
10/4/2011    Internal Revenue Service          Detailees                                                     168,578                 84,289
                                                                                   Agreement
             ABMI – All Business Machines,     4 Level 4 Security Shredders and
10/20/2011                                                                         Contract                    4,827                    4,827
             Inc.                              Supplies
11/18/2011   Qualx Corporation                 FOIA Support Services               Contract                   68,006                 68,006
                                                                                   Financial
11/29/2011   Houlihan Lokey, Inc.              Transaction Structuring Services                            7,150,000              5,075,000
                                                                                   Agent
                                               Pre-Program and Discovery
12/20/2011   Allison Group LLC                                                     Contract                   19,065                 19,065
                                               Process Team Building
             Department of the Treasury —                                          Interagency
12/30/2011                                     Administrative Support                                     15,098,746              9,955,472
             Departmental Offices                                                  Agreement
                                                                                   Interagency
12/30/2011   Department of the Treasury        ARC                                                           901,433                899,268
                                                                                   Agreement
                                               IAA — GAO required by P.L. 110-
             US Government Accountability                                          Interagency
1/4/2012                                       343 to conduct certain activities                           2,500,000              2,475,937
             Office                                                                Agreement
                                               related to TARP IAA
             Office of Personnel Management    Office of Personnel Management
                                                                                   Interagency
1/5/2012     (OPM) — Western Management        (OPM) — Western Management                                     31,088                       —
                                                                                   Agreement
             Development Center                Development Center
                                               ABS/MBS Data Subscription
2/2/2012     Moody’s Analytics Inc.                                                Contract                1,804,000              1,695,333
                                               Services
                                               Structuring and Disposition
2/7/2012     Greenhill & Co., LLC                                                  FAA Listing             1,680,000              1,680,000
                                               Services
                                                                                                                       Continued on next page
178               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS                        (CONTINUED)

                                                                                                                           Type of
      Date                Vendor                                          Purpose                                          Transaction                 Obligated Value                Expended Value
      2/14/2012           Association of Govt Accountants                 CEAR Program Application                         Contract                                 $5,000                         $5,000
      2/27/2012           Diversified Search LLC                          CPP Board Placement Services                     Contract                               510,000                        169,779
      3/6/2012            Integrated Federal Solutions, Inc.              TARP Acquisition Support (BPA)                   Contract                               811,941                        506,217
                                                                          National Business Center, Federal                Interagency
      3/14/2012           Department of Interior                                                                                                                    26,000                         26,000
                                                                          Consulting Group                                 Agreement
                          Department of the Treasury —                                                                     Interagency
      3/30/2012                                                           Administrative Support                                                               1,137,451                         542,673
                          Departmental Offices WCF                                                                         Agreement
      3/30/2012           E-Launch Multimedia, Inc.                       Subscription Service                             Contract                                       —                               —
                                                                          Maintenance Agreement for Canon
      5/2/2012            Cartridge Technology, Inc.                                                                       Contract                                  7,846                           3,922
                                                                          ImageRunner
                                                                          Executive Compensation Data
      5/10/2012           Equilar Inc.                                                                                     Contract                                 44,995                         44,995
                                                                          Subscription
                                                                                                                           Interagency
      6/12/2012           Department of Justice                           Detailees                                                                            1,737,884                                  —
                                                                                                                           Agreement
      6/15/2012           Qualx Corporation                               FOIA Support Services                            Contract                               240,773                          29,107
                                                                          Subscription for Anti Fraud Unit to
      6/30/2012           West Publishing Corporation                                                                      Contract                                  8,660                           8,660
                                                                          Perform Background Research
      7/26/2012           Knowledge Mosaic Inc.                           SEC filings subscription service                 Contract                                  4,750                           4,750
                                                                                                                           Interagency
      8/1/2012            Internal Revenue Service                        Treasury Acquisition Institute (TAI)                                                       4,303                           4,303
                                                                                                                           Agreement
                                                                          Subscription to Commercial
      8/3/2012            Harrison Scott Publications Inc.                                                                 Contract                                  3,897                           3,897
                                                                          Mortgage Alert Online Service
                                                                          Administrative Resource Center                   Interagency
      9/19/2012           Treasury Franchise Fund - BPD                                                                                                           826,803                                 —
                                                                          (ARC)                                            Agreement
                                                                          Data Subscription Services for
      9/28/2012           SNL Financial LC                                Financial, Regulatory, and Market                Contract                               180,000                        180,000
                                                                          Data and Services
                                                                                                                           Interagency
      11/19/2012          Government Accountability Office                Oversight services                                                                   1,800,000                         875,737
                                                                                                                           Agreement
                          Association of Government
      12/13/2012                                                          CEAR Program Application                         Contract                                  5,000                                —
                          Accountants
                          Department of the Treasury —                                                                     Interagency
      12/19/2012                                                          Administrative Support                                                             11,123,539                        1,236,163
                          Departmental Offices                                                                             Agreement
      Total                                                                                                                                          $1,259,053,319                 $1,009,531,144
      Notes: Numbers may not total due to rounding. At year-end, OFS validated the matrix against source documents resulting in modification of award date. At year-end, a matrix entry that included several
      Interagency Agreements bundled together was split up to show the individual IAAs. For IDIQ contracts, $0 is obligated if no task orders have been awarded. Table 4.2 includes all vendor contracts
      administered under Federal Acquisition Regulations, inter-agency agreements and financial agency agreements entered into support of OFS since the beginning of the program. The table does not
      include salary, benefits, travel, and other non-contract related expenses.
      1
        EnnisKnupp Contract TOFS-10-D-0004, was novated to Hewitt EnnisKnupp (TOFS-10-D-0004).
      2
        Awarded by other agencies on behalf of OFS and are not administered by PSD.
      3
        Awarded by other branches within the PSD pursuant to a common Treasury service level and subject to a reimbursable agreement with OFS.
      4
        Thacher Proffitt & Wood, Contract TOS09-014B, was novated to Sonnenschein Nath & Rosenthal (TOS09-014C).
      5
        McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen.
      6
        Judicial Watch is a payment in response to a litigation claim. No contract or agreement was issued to Judicial Watch.
      7
        Fox News Network LLC is a payment in response to a litigation claim. No contract or agreement was issued to Fox News Network LLC.

      Source: Treasury, response to SIGTARP data call, 1/11/2013.
S ECT I O N 5   SIGTARP RECOMMENDATIONS
180   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   181




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations
to the U.S. Department of the Treasury (“Treasury”) and other Federal agencies
related to the Troubled Asset Relief Program (“TARP”) to facilitate transparency
and effective oversight and to prevent fraud, waste, and abuse. SIGTARP has
made 114 recommendations in its quarterly reports to Congress and its audit
reports. This section discusses developments with respect to SIGTARP’s prior
recommendations, including recommendations made since SIGTARP’s Quarterly
Report to Congress dated October 25, 2012 (the “October 2012 Quarterly
Report”), and, in the table at the end of this section, summarizes SIGTARP’s
recommendations from past quarters and notes the extent of implementation.




RECOMMENDATIONS REGARDING EXCESSIVE
EXECUTIVE COMPENSATION
Taxpayers deserve transparency on Treasury’s decisions to award multimillion-
dollar pay packages to executives at companies that had been stuck in TARP for
four years. Accordingly, in its January 2013 report, “Treasury Continues Approving
Excessive Pay for Top Executives at Bailed-Out Companies,” SIGTARP reviewed
the process and decisions of Treasury’s Office of the Special Master for TARP
Executive Compensation (“OSM”) in setting 2012 pay packages at the three
remaining TARP exceptional assistance companies: American International
Group, Inc. (“AIG”), General Motors Corporation (“GM”), and GMAC, Inc., later
rebranded as Ally Financial Inc. (“Ally”).
    SIGTARP had previously addressed this issue, reporting in January 2012 that
the Special Master could not effectively rein in excessive executive compensation at
companies that received exceptional assistance through TARP from 2009 through
2011, approving pay packages in the millions, because he was under the constraint
that his most important goal was to get the companies to repay TARP.
    SIGTARP previously reported serious problems with OSM’s process to set
pay for the top 25 employees at companies that were recipients of exceptional
TARP assistance and recommended fixes for those problems. SIGTARP previously
reported that although OSM set guidelines aimed at curbing excessive pay,
Treasury lacked robust criteria, policies, and procedures to ensure its guidelines
were met, which SIGTARP recommended they develop. OSM guidelines included
that cash and total compensation for top 25 employees would target the 50th
percentile for similarly situated employees, and that cash salaries should not exceed
$500,000 except for good cause shown.
    In its latest report, SIGTARP found that Treasury failed to make any
meaningful reform from SIGTARP’s prior findings or fully implement SIGTARP’s
recommendations. It is not surprising that without meaningful reform to its
process, Treasury continued to approve excessive pay packages in 2012 for the
top 25 employees at AIG, GM, and Ally. Indeed, in 2012, Treasury approved pay
182   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             packages of $3 million or more for 54% of the 69 Top 25 employees at AIG, GM,
                                             and Ally – 23% of these top executives (16 of 69) received Treasury-approved pay
                                             packages of $5 million or more, and 30% (21 of 69) received from $3 million to
                                             $4.9 million. In fact, in 2012, Treasury approved pay of more than $1 million for
                                             all but one top 25 employee at AIG, GM, and Ally. The report included four new
                                             recommendations to Treasury:

                                             Each year, Treasury should reevaluate total compensation for those employees
                                             at TARP exceptional assistance companies remaining in the Top 25 from the
                                             prior year, including determining whether to reduce total compensation.
                                                 The Acting Special Master told SIGTARP that OSM would not normally reopen
                                             executive compensation from year to year because it would be disruptive, and it
                                             is relatively easy for OSM to keep things the way they were. The Acting Special
                                             Master largely based her decisions on prior years’ pay. Even where there was a
                                             negative change such as Ally subdivision ResCap filing bankruptcy or GM Europe
                                             suffering significant losses, OSM did not reduce compensation for the employees
                                             in charge of those entities. While OSM did not reduce pay, OSM awarded $6.2
                                             million in pay raises to all 18 top employees requested by these TARP recipients.
                                             Treasury approved a $1 million pay raise for the CEO of AIG's Chartis subsidiary; a
                                             $200,000 pay raise for a ResCap employee weeks before ResCap filed bankruptcy;
                                             and a $100,000 pay raise for an executive at GM’s European unit, despite that
                                             unit experiencing significant losses. It may be easier for OSM to keep pay the
                                             same from year to year, but taxpayers deserve a Special Master who is willing to do
                                             the hard work to reevaluate pay each year, particularly where there is a change in
                                             circumstances.

                                             To ensure that Treasury effectively applies guidelines aimed at curbing
                                             excessive pay and reducing risk taking, Treasury should develop policies,
                                             procedures, and criteria for approving pay in excess of Treasury guidelines.
                                                 Treasury failed to implement SIGTARP’s recommendation made last year that
                                             OSM develop more robust criteria, policies, procedures, or guidelines. Absent
                                             robust policies, procedures, or criteria to implement OSM’s guidelines, Treasury
                                             approved compensation largely driven by the proposals of AIG, GM, and Ally. With
                                             these companies having significant leverage, the Acting Special Master appears to
                                             have rolled back OSM’s application of guidelines. In 2012, OSM did not follow
                                             its own guidelines aimed at curbing excessive pay by having total compensation
                                             generally not exceed the 50th percentile for similarly situated employees. Treasury
                                             awarded total pay packages exceeding the 50th percentile by approximately $37
                                             million for approximately 63% of the top 25 employees of AIG, GM, and Ally. OSM
                                             set total compensation for all of Ally’s top 25 employees between the 50th and 75th
                                             percentile.
                                                 Never have there been so many exceptions to the $500,000 cash salary
                                             guideline as there were in 2012. Former Special Master Feinberg testified before
                                             Congress that “base cash salaries should rarely exceed $500,000, and only then for
                                             good cause shown, and should be, in many cases, well under $500,000.” In 2012,
                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013   183




despite the fact that the number of companies under OSM’s jurisdiction dropped
from five in 2011 to three in 2012, the Acting Special Master increased the
number of employees with cash salaries greater than $500,000 from 22 to 23 in
those years. OSM approved 2012 cash salaries exceeding $500,000 for one-third of
the employees under its jurisdiction (23 of 69 employees at AIG, GM, and Ally). In
addition, SIGTARP questions whether OSM is following the spirit of this guideline
or what Feinberg told Congress, because OSM allowed 25 employees to be paid
cash salaries of exactly $500,000 (falling outside OSM’s guideline by $1). OSM
allowed cash salaries of $500,000 or more for 70% (48 of 69) of top 25 employees
at AIG, GM, and Ally. In stark contrast, 2011 median household income of U.S.
taxpayers who fund these companies was approximately $50,000.

Treasury should independently analyze whether good cause exists to award a
Top 25 employee a pay raise or a cash salary over $500,000. To ensure that
the Office of the Special Master has sufficient time to conduct this analysis,
Treasury should allow OSM to work on setting Top 25 pay prior to OSM’s
receiving the company pay proposals, which starts the 60-day timeline.
    The inadequacies in OSM’s oversight, including its failure to establish meaning-
ful criteria to award cash salaries greater than $500,000, risks excessive unsubstan-
tiated cash salaries. Because OSM lacked a robust review process, including criteria
to implement its guidelines, and failed to conduct its own independent analysis,
OSM put itself in a position of relying heavily on justifications by the companies,
companies that have historically pushed back on the Special Master’s limitations on
compensation, in particular, on cash salaries. OSM’s decisions were largely driven
by the three companies’ own proposals. As the companies’ proposals demonstrate,
these exceptional TARP recipients still fail to take into account their exceptional
situations that resulted in a taxpayer-funded bailout and fail to view themselves
through the lenses of companies substantially owned by the Government. However,
OSM’s “justifications” for good cause for cash salaries to exceed $500,000 largely
parrot what each company asserted to OSM.
    The Acting Special Master appears to have no desire to independently analyze
whether good cause exists to award an employee a cash salary greater than
$500,000, claiming that it would be “utterly normal” for these employees to expect
over $500,000 in cash salaries. That might be true if these companies had not been
bailed out and were not significantly owned by taxpayers. If the pay czar is not even
willing to independently analyze high cash salaries for 23 employees, who else will
protect taxpayers?

To be consistent with Treasury’s Interim Final Rule that the portion of
performance-based compensation compared to total compensation should
be greater for positions that exercise higher levels of responsibility, Treasury
should return to using long-term restricted stock for employees, particularly
senior employees such as CEOs.
   SIGTARP also found that OSM failed to follow another important guideline
needed to effectively keep excessive pay under control, the use of long-term
184   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             restricted stock. In 2012, OSM significantly decreased the use of long-term
                                             restricted stock, replacing it with stock salary as requested by the companies.
                                             Approximately 50% of the top 25 employees at AIG, GM, and Ally did not receive
                                             long-term restricted stock tied to meeting performance criteria. OSM removed
                                             long-term restricted stock for senior executives including the CEOs of AIG, GM,
                                             and Ally, despite the fact that Treasury’s rule states that the portion of performance-
                                             based compensation should be greater for positions that exercise high levels of
                                             responsibility. She removed long-term restricted stock for every top 25 employee
                                             of Ally. By removing long-term restricted stock from these employees’ pay, OSM
                                             removed tying individual executive compensation to long-term company success,
                                             a guideline aimed at fixing the material role executive compensation played in
                                             causing the financial crisis.
SIGTARP RECOMMENDATIONS TABLE
                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
1    *    Treasury should include language in the automobile industry                                                                         
          transaction term sheet acknowledging SIGTARP’s oversight
                                                                                X                                                      
          role and expressly giving SIGTARP access to relevant
          documents and personnel.
2    *    Treasury should include language in new TARP agreements                                                                            Although Treasury has made
          to facilitate compliance and oversight. Specifically, SIGTARP                                                                      substantial efforts to comply with
          recommends that each program participant should (1)                                                                                this recommendation in many of its
          acknowledge explicitly the jurisdiction and authority of                                                                           agreements, there have been exceptions,
          SIGTARP and other oversight bodies, as relevant, to oversee                                                                        including in its agreements with servicers
          compliance of the conditions contained in the agreement                                                                            in MHA.
          in question, (2) establish internal controls with respect to                            X                                    
          that condition, (3) report periodically to the Compliance
          department of the Office of Financial Stability (“OFS-
          Compliance”) regarding the implementation of those controls
          and its compliance with the condition, and (4) provide a
          signed certification from an appropriate senior official to
          OFS-Compliance that such report is accurate.
3    *    All existing TARP agreements, as well as those governing                                                                            
          new transactions, should be posted on the Treasury website            X                                                      
          as soon as possible.
4    *    Treasury should require all TARP recipients to report on the                                                                        
                                                                                X                                                      
          actual use of TARP funds.
5    *    Treasury quickly determines its going-forward valuation                                                                             
                                                                                X                                                      
          methodology.
6    *    Treasury begins to develop an overall investment strategy to                                                                        
          address its portfolio of stocks and decide whether it intends         X                                                      
          to exercise warrants of common stock.
7    *    In formulating the structure of TALF, Treasury should                                                                              The Federal Reserve adopted
          consider requiring, before committing TARP funds to the                                                                            mechanisms that address this
          program, that certain minimum underwriting standards and/                                                                          recommendation.
                                                                                X                                                      
          or other fraud prevention mechanisms be put in place with
          respect to the ABS and/or the assets underlying the ABS
          used for collateral.
8    *    Agreements with TALF participants should include an                                                                                 
          acknowledgment that: (1) they are subject to the oversight
          of OFS-Compliance and SIGTARP, (2) with respect to any
          condition imposed as part of TALF, that the party on which
                                                                                                                           X           
          the condition is imposed is required to establish internal
          controls with respect to each condition, report periodically
          on such compliance, and provide a certification with respect
          to such compliance.
9    *    Treasury should give careful consideration before agreeing                                                                         This recommendation was implemented
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013




          to the expansion of TALF to include MBS without a full review                                                                      with respect to CMBS, and the Federal
                                                                                X                                                      
          of risks that may be involved and without considering certain                                                                      Reserve did not expand TALF to RMBS.
          minimum fraud protections.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                          185
                                                                                                                                                                                         186
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
10   *    Treasury should oppose any expansion of TALF to legacy                                                                             This recommendation was implemented
          MBS without significant modifications to the program to                                                                            with respect to CMBS, and the Federal
                                                                                X                                                      
          ensure a full assessment of risks associated with such an                                                                          Reserve did not expand TALF to RMBS.
          expansion.
11        Treasury should formalize its valuation strategy and begin                                                                         Treasury has formalized its valuation
          providing values of the TARP investments to the public.               X                                                            strategy and regularly publishes its
                                                                                                                                             estimates.
12   *    Treasury and the Federal Reserve should provide to                                                                                 On December 1, 2010, the Federal
          SIGTARP, for public disclosure, the identity of the borrowers                                                                      Reserve publicly disclosed the identities
          who surrender collateral in TALF.                                                                                                  of all TALF borrowers and that there had
                                                                                                                                      X
                                                                                                                                             been no surrender of collateral. SIGTARP
                                                                                                                                             will continue to monitor disclosures if a
                                                                                                                                             collateral surrender takes place.
13   *    In TALF, Treasury should dispense with rating agency                                                                               The Federal Reserve announced that
          determinations and require a security-by-security screening                                                                        RMBS were ineligible for TALF loans,
          for each legacy RMBS. Treasury should refuse to participate                                                                        rendering this recommendation moot.
          if the program is not designed so that RMBS, whether new
          or legacy, will be rejected as collateral if the loans backing                                                              X
          particular RMBS do not meet certain baseline underwriting
          criteria or are in categories that have been proven to be
                                                                                                                                                                                         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          riddled with fraud, including certain undocumented subprime
          residential mortgages.
14   *    In TALF, Treasury should require significantly higher haircuts                                                                     This recommendation was implemented
          for all MBS, with particularly high haircuts for legacy RMBS,         X                                                            with respect to CMBS, and the Federal
          or other equally effective mitigation efforts.                                                                                     Reserve did not expand TALF to RMBS.
15   *    Treasury should require additional anti-fraud and credit                                                                           The Federal Reserve adopted
          protection provisions, specific to all MBS, before                                                                                 mechanisms that address this
          participating in an expanded TALF, including minimum                  X                                                            recommendation with respect to CMBS,
          underwriting standards and other fraud prevention                                                                                  and did not expand TALF to RMBS.
          measures.
16   *    Treasury should design a robust compliance protocol with                                                                            
          complete access rights to all TALF transaction participants                                                      X           
          for itself, SIGTARP, and other relevant oversight bodies.
17   *    Treasury should not allow Legacy Securities PPIFs to invest                                                                         
          in TALF unless significant mitigating measures are included           X                                                      
          to address these dangers.
18   *    All TALF modeling and decisions, whether on haircuts or any                                                                         
          other credit or fraud loss mechanisms, should account for
          potential losses to Government interests broadly, including           X                                                      
          TARP funds, and not just potential losses to the Federal
          Reserve.
19   *    Treasury should address the confusion and uncertainty on                                                                            
          executive compensation by immediately issuing the required            X                                                      
          regulations.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
20   *    Treasury should significantly increase the staffing levels of                                                                      According to Treasury, OFS-Compliance
          OFS-Compliance and ensure the timely development and                                                                               has increased its staffing level and has
          implementation of an integrated risk management and                                     X                                          contracted with four private firms to
          compliance program.                                                                                                                provide additional assistance to OFS-
                                                                                                                                             Compliance.
21   *    Treasury should require CAP participants to (1) establish an                                                                       Treasury closed the program with no
          internal control to monitor their actual use of TARP funds, (2)                                                                    investments having been made, rendering
          provide periodic reporting on their actual use of TARP funds,                                                                      this recommendation moot.
          (3) certify to OFS-Compliance, under the penalty of criminal
          sanction, that the report is accurate, that the same criteria
                                                                                                                                      X
          of internal controls and regular certified reports should be
          applied to all conditions imposed on CAP participants, and
          (4) acknowledge explicitly the jurisdiction and authority of
          SIGTARP and other oversight bodies, as appropriate, to
          oversee conditions contained in the agreement.
22   *    Treasury should impose strict conflict-of-interest rules upon                                                                      Treasury has adopted some significant
          PPIF managers across all programs that specifically address                                                                        conflict-of-interest rules related to this
          whether and to what extent the managers can (1) invest                                                                             recommendation, but has failed to
          PPIF funds in legacy assets that they hold or manage on                                 X                                          impose other significant safeguards.
          behalf of themselves or their clients or (2) conduct PPIF
          transactions with entities in which they have invested on
          behalf of themselves or others.
23   *    Treasury should require that all PPIF fund managers (1)                                                                            Treasury’s agreements with PPIF
          have stringent investor-screening procedures, including                                                                            managers include investor-screening
          comprehensive “Know Your Customer” requirements at least                                                                           procedures such as “Know Your
          as rigorous as that of a commercial bank or retail brokerage                                                                       Customer” requirements. Treasury
          operation to prevent money laundering and the participation                                                                        has agreed that it will have access to
          of actors prone to abusing the system, and (2) be required                              X                                          any information in a fund manager’s
          to provide Treasury with the identities of all the beneficial                                                                      possession relating to beneficial owners.
          owners of the private interests in the fund so that Treasury                                                                       However, Treasury did not impose an
          can do appropriate diligence to ensure that investors in the                                                                       affirmative requirement that managers
          funds are legitimate.                                                                                                              obtain and maintain beneficial owner
                                                                                                                                             information.
24   *    Treasury should require PPIP managers to provide most                                                                               
          favored nation clauses to PPIF equity stakeholders, to
                                                                                 X                                                     
          acknowledge that they owe Treasury a fiduciary duty, and to
          adopt a robust ethics policy and compliance apparatus.
25        Treasury should require servicers in MHA to submit third-                                                                          Treasury has decided to adopt this
          party verified evidence that the applicant is residing in the                                                                      important SIGTARP recommendation.
                                                                                                             X                         
          subject property before funding a mortgage modification.                                                                           SIGTARP will monitor Treasury’s
                                                                                                                                             implementation of the recommendation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013
                                                                                                                                                                                          187
                                                                                                                                                                                          188
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
26   *    In MHA, Treasury should require a closing-like procedure                                                                           Treasury rejected SIGTARP’s
          be conducted that would include (1) a closing warning                                                                              recommendation for a closing-like
          sheet that would warn the applicant of the consequences                                                                            procedure. However, since this
          of fraud; (2) the notarized signature and thumbprint of each                                                                       recommendation was issued, Treasury
          participant; (3) mandatory collection, copying, and retention                                                                      has taken several actions to prevent
          of copies of identification documents of all participants in                                                                       fraud on the part of either MHA servicers
          the transaction; (4) verbal and written warnings regarding                              X                                          or applicants.
          hidden fees and payments so that applicants are made fully
          aware of them; (5) the benefits to which they are entitled
          under the program (to prevent a corrupt servicer from
          collecting payments from the Government and not passing
          the full amount of the subsidies to the homeowners); and (6)
          the fact that no fee should be charged for the modification.
27    *   Additional anti-fraud protections should be adopted in MHA                                                                         Treasury has said it will adopt this
          to verify the identity of the participants in the transaction                                                                      recommendation. SIGTARP will monitor
          and to address the potential for servicers to steal from                                           X                               Treasury’s implementation of the
          individuals receiving Government subsidies without applying                                                                        recommendation.
          them for the benefit of the homeowner.
28   *    In MHA, Treasury should require the servicer to compare                                                                            Treasury has rejected SIGTARP’s
          the income reported on a mortgage modification application                                                                         recommendation and does not require
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          with the income reported on the original loan applications.                                                      X                 income reported on the modification
                                                                                                                                             application to be compared to income
                                                                                                                                             reported on the original loan application.
29   *    In MHA, Treasury should require that verifiable, third-party                                                                        
          information be obtained to confirm an applicant’s income              X                                                      
          before any modification payments are made.
30   *    In MHA, Treasury should defer payment of the $1,000                                                                                Rather than deferring payment of the
          incentive to the servicer until after the homeowner has                                                                            incentive until after the homeowner has
          verifiably made a minimum number of payments under the                                                                             verifiably made a minimum number of
          mortgage modification program.                                                                                                     payments on its permanent modification,
                                                                                                                           X           
                                                                                                                                             Treasury will pay the incentive after the
                                                                                                                                             servicer represents that the homeowner
                                                                                                                                             has made three payments during the trial
                                                                                                                                             period.
31   *    In MHA, Treasury should proactively educate homeowners                                                                              
          about the nature of the program, warn them about
                                                                                X                                                      
          modification rescue fraudsters, and publicize that no fee is
          necessary to participate in the program.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
32   *    In MHA, Treasury should require its agents to keep track of                                                                        While Treasury’s program administrator,
          the names and identifying information for each participant in                                                                      Fannie Mae, has developed a HAMP
          each mortgage modification transaction and to maintain a                                                                           system of record that maintains
          database of such information.                                                                                                      servicers’ names, investor group
                                                                                                                                             (private, portfolio, GSE), and
                                                                                                  X                                          participating borrowers’ personally
                                                                                                                                             identifiable information, such as names
                                                                                                                                             and addresses, the database is not
                                                                                                                                             constructed to maintain other information
                                                                                                                                             that may assist in detecting insiders who
                                                                                                                                             are committing large-scale fraud.
33   *    Treasury should require the imposition of strict information                                                                       Treasury has refused to adopt this
          barriers or “walls” between the PPIF managers making                                                                               significant anti-fraud measure designed
          investment decisions on behalf of the PPIF and those                                                             X                 to prevent conflicts of interest. This
          employees of the fund management company who manage                                                                                represents a material deficiency in the
          non-PPIF funds.                                                                                                                    program.
34   *    Treasury should periodically disclose PPIF trading activity                                                                        Treasury has committed to publish
          and require PPIF managers to disclose to SIGTARP, within                                                                           on a quarterly basis certain high-level
          seven days of the close of the quarter, all trading activity,                                                                      information about aggregated purchases
          holdings, and valuations so that SIGTARP may disclose                                                                              by the PPIFs, but not within seven days of
          such information, subject to reasonable protections, in its                                                      X                 the close of the quarter. Treasury has not
          quarterly reports.                                                                                                                 committed to providing full transparency
                                                                                                                                             to show where public dollars are invested
                                                                                                                                             by requiring periodic disclosure of every
                                                                                                                                             trade in the PPIFs.
35        Treasury should define appropriate metrics and an                                                                                  After nearly three years, Treasury now
          evaluation system should be put in place to monitor the                                                                            states that it has developed risk and
          effectiveness of the PPIF managers, both to ensure they                                                                            performance metrics. However, it is
          are fulfilling the terms of their agreements and to measure                             X                                          still not clear how Treasury will use
          performance.                                                                                                                       these metrics to evaluate the PPIP
                                                                                                                                             managers and take appropriate action as
                                                                                                                                             recommended by SIGTARP.
36   *    The conditions that give Treasury “cause” to remove a                                                                              Treasury has refused to adopt this
          PPIF manager should be expanded to include a manager’s                                                                             recommendation, relying solely on
          performance below a certain standard benchmark, or if                                                                              Treasury’s right to end the investment
          Treasury concludes that the manager has materially violated                                                      X                 period after 12 months. That timeframe
          compliance or ethical rules.                                                                                                       has already expired. Treasury’s failure to
                                                                                                                                             adopt this recommendation potentially
                                                                                                                                             puts significant Government funds at risk.
37   *    Treasury should require PPIF managers to disclose to                                                                                
          Treasury, as part of the Watch List process, not only
                                                                                 X                                                     
          information about holdings in eligible assets but also
          holdings in related assets or exposures to related liabilities.
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                          189
                                                                                                                                                                                           190
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
38        Treasury should require PPIF managers to obtain and                                                                                Treasury has agreed that it can have
          maintain information about the beneficial ownership of all of                                                                      access to any information in a fund
          the private equity interests, and Treasury should have the                                                                         manager’s possession relating to
          unilateral ability to prohibit participation of private equity                                                                     beneficial owners. However, Treasury is
          investors.                                                                                                                         not making an affirmative requirement
                                                                                                                           X                 that managers obtain and maintain
                                                                                                                                             beneficial owner information. Treasury will
                                                                                                                                             not adopt the recommendation to give
                                                                                                                                             itself unilateral ability to deny access to
                                                                                                                                             or remove an investor, stating that such a
                                                                                                                                             right would deter participation.
39   *    Treasury and FRBNY should (1) examine Moody’s assertions                                                                           Treasury and the Federal Reserve have
          that some credit rating agencies are using lower standards                                                                         discussed concerns about potential
          to give a potential TALF security the necessary AAA rating                                                                         overrating or rating shopping with the
          and (2) develop mechanisms to ensure that acceptance of               X                                                            rating agencies, and have agreed to
          collateral in TALF is not unduly influenced by the improper                                                                        continue to develop and enhance risk
          incentives to overrate that exist among the credit agencies.                                                                       management tools and processes, where
                                                                                                                                             appropriate.
40   *    Treasury should more explicitly document the vote of each                                                                           
          Investment Committee member for all decisions related to              X                                                      
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          the investment of TARP funds.
41   *    Treasury should improve existing control systems to                                                                                 
          document the occurrence and nature of external phone calls
          and in-person meetings about actual and potential recipients          X                                                      
          of funding under the CPP and other similar TARP-assistance
          programs to which they may be part of the decision making.
42   *    The Secretary of the Treasury should direct the Special                                                                             
          Master to work with FRBNY officials in understanding AIG
          compensation programs and retention challenges before
                                                                                X                                                      
          developing future compensation decisions that may affect
          both institutions’ ability to get repaid by AIG for Federal
          assistance provided.
43   *    Treasury should establish policies to guide any similar                                                                            Treasury stated that it does not
          future decisions to take a substantial ownership position in                                                                       anticipate taking a substantial percentage
          financial institutions that would require an advance review                                                                 X      ownership position in any other financial
          so that Treasury can be reasonably aware of the obligations                                                                        institution pursuant to EESA.
          and challenges facing such institutions.
44   *    Treasury should establish policies to guide decision making                                                                        Treasury has agreed to work closely with
          in determining whether it is appropriate to defer to another                                                                       other Federal agencies that are involved
                                                                                                  X                                    
          agency when making TARP programming decisions where                                                                                in TARP.
          more than one Federal agency is involved.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
45        Treasury should rectify the confusion that its own                                                                                 Despite SIGTARP’s repeated highlighting
          statements have caused for HAMP by prominently disclosing                                                                          of this essential transparency and
          its goals and estimates (updated over time, as necessary)                                                                          effectiveness measure, Treasury has
                                                                                                                           X           
          of how many homeowners the program will help through                                                                               refused to disclose clear and relevant
          permanent modifications and report monthly on its progress                                                                         goals and estimates for the program.
          toward meeting that goal.
46        Treasury should develop other performance metrics                                                                                  Although Treasury has increased its
          and publicly report against them to measure over time                                                                              reporting of servicer performance, it has
          the implementation and success of HAMP. For example,                                                                               not identified goals for each metric and
          Treasury could set goals and publicly report against those                                                                         measured performance against those
          goals for servicer processing times, modifications as a                                 X                                          goals.
          proportion of a servicer’s loans in default, modifications
          as a proportion of foreclosures generally, rates of how
          many borrowers fall out of the program prior to permanent
          modification, and re-default rates.
47        Treasury should undertake a sustained public service                                                                                
          campaign as soon as possible, both to reach additional
          borrowers who could benefit from the program and to arm
                                                                                X                                                      
          the public with complete, accurate information — this will
          help to avoid confusion and delay, and prevent fraud and
          abuse.
48        Treasury should reconsider its position that allows servicers                                                                       
          to substitute alternative forms of income verification based                                                     X           
          on subjective determinations by the servicer.
49        Treasury should re-examine HAMP’s structure to ensure that                                                                         Treasury has adopted some programs to
          it is adequately minimizing the risk of re-default stemming                                                                        assist underwater mortgages to address
          from non-mortgage debt, second liens, partial interest rate                             X                                          concerns of negative equity but has not
          resets after the five-year modifications end, and from many                                                                        addressed other factors contained in this
          borrowers being underwater.                                                                                                        recommendation.
50        Treasury should institute careful screening before putting                                                                          
          additional capital through CDCI into an institution with
          insufficient capital to ensure that the TARP matching funds           X                                                      
          are not flowing into an institution that is on the verge of
          failure.
51        Treasury should develop a robust procedure to audit and                                                                             
          verify the bona fides of any purported capital raise in CDCI
                                                                                X                                                      
          and to establish adequate controls to verify the source,
          amount and closing of all claimed private investments.
52        Treasury should revise CDCI terms to clarify that Treasury                                                                          
          inspection and copy rights continue until the entire CDCI
          investment is terminated. Additionally, consistent with
          recommendations made in connection with other TARP                    X                                                      
          programs, the terms should be revised to provide expressly
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013




          that SIGTARP shall have access to the CDFI’s records equal
          to that of Treasury.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                         191
                                                                                                                                                                                            192
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
53        Treasury should consider more frequent surveys of a CDCI                                                                            
          participant’s use of TARP funds than annually as currently
                                                                                                                           X           
          contemplated. Quarterly surveys would more effectively
          emphasize the purpose of CDCI.
54        Treasury should ensure that more detail is captured by                                                                             Treasury has indicated that it has
          the Warrant Committee meeting minutes. At a minimum,                                                                               implemented this recommendation.
          the minutes should include the members’ qualitative                                                                                Although the detail of the minutes has
                                                                                 X                                                     
          considerations regarding the reasons bids were accepted or                                                                         improved, Treasury is still not identifying
          rejected within fair market value ranges.                                                                                          how each member of the committee
                                                                                                                                             casts his or her vote.
55        Treasury should document in detail the substance of                                                                                Treasury has agreed to document the
          all communications with recipients concerning warrant                                                                              dates, participants, and subject line of
                                                                                                                           X           
          repurchases.                                                                                                                       calls. It has refused to document the
                                                                                                                                             substance of such conversations.
56   *    Treasury should develop and follow guidelines and internal                                                                         Treasury has adopted procedures
          controls concerning how warrant repurchase negotiations                                                                            designed to address this
          will be pursued, including the degree and nature of                                                                                recommendation, including a policy to
          information to be shared with repurchasing institutions                                                                            discuss only warrant valuation inputs and
          concerning Treasury’s valuation of the warrants.                                                                                   methodologies prior to receiving a bid,
                                                                                                                                             generally to limit discussion to valuation
                                                                                                                                                                                            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                  X                                          ranges after receiving approval from
                                                                                                                                             the Warrant Committee, and to note
                                                                                                                                             the provision of any added information
                                                                                                                                             in the Committee minutes. However,
                                                                                                                                             Treasury believes that its existing internal
                                                                                                                                             controls are sufficient to ensure adequate
                                                                                                                                             consistency in the negotiation process.
57   *    Treasury should promptly take steps to verify TARP                                                                                 Although Treasury largely continues
          participants’ conformance to their obligations, not only by                                                                        to rely on self-reporting, stating that
          ensuring that they have adequate compliance procedures                                                                             it only plans to conduct testing where
          but also by independently testing participants’ compliance.                                                                        they have particular concerns as to a
                                                                                                  X                                          TARP recipient’s compliance procedures
                                                                                                                                             or testing results, it has conducted
                                                                                                                                             independent testing of compliance
                                                                                                                                             obligations during some compliance
                                                                                                                                             reviews.
58   *    Treasury should develop guidelines that apply consistently                                                                         Treasury states that it has developed
          across TARP participants for when a violation is sufficiently                                                                      guidance and provided that guidance to
          material to merit reporting, or in the alternative require that                                                                    the exceptional assistance participants
          all violations be reported.                                                                                                        that were remaining in TARP as of
                                                                                                  X                                          June 30, 2011. Treasury has not
                                                                                                                                             addressed other factors contained in this
                                                                                                                                             recommendation, citing its belief that
                                                                                                                                             materiality should be subject to a fact
                                                                                                                                             and circumstances review.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
59        For each HAMP-related program and subprogram, Treasury                                                                             Treasury has provided anticipated costs,
          should publish the anticipated costs and expected                                                                                  but not expected participation.
          participation in each and that, after each program is                                   X                                    
          launched, it report monthly as to the program’s performance
          against these expectations.
60   *    Treasury should re-evaluate the voluntary nature of its                                                                            Treasury plans to maintain the voluntary
          principal reduction program and, irrespective of whether it                                                                        nature of the program, providing an
          is discretionary or mandatory, consider changes to better                                                                          explanation that on its face seems
                                                                                                                                      X
          maximize its effectiveness, ensure to the greatest extent                                                                          unpersuasive to SIGTARP. SIGTARP will
          possible the consistent treatment of similarly situated                                                                            continue to monitor performance.
          borrowers, and address potential conflict of interest issues.
61        Treasury should adopt a uniform appraisal process across                                                                            
          all HAMP and HAMP-related short-sale and principal                                                               X           
          reduction programs consistent with FHA’s procedures.
62   *    Treasury should reconsider the length of the minimum term                                                                          For more than a year, Treasury refused to
          of HAMP’s unemployment forbearance program.                                                                                        adopt this recommendation, even though
                                                                                                                                             average U.S. terms of unemployment
                                                                                                                                             were lengthening. However, in July 2011,
                                                                                X                                                            the Administration announced a policy
                                                                                                                                             change, and Treasury has extended the
                                                                                                                                             minimum term of the unemployment
                                                                                                                                             program from three months to 12
                                                                                                                                             months, effective October 1, 2011.
63        Treasury should launch a broad-based information                                                                                    
          campaign, including public service announcements in target
          markets that focus on warnings about potential fraud, and             X                                                      
          include conspicuous fraud warnings whenever it makes
          broad public announcements about the HAMP program.
64        When Treasury considers whether to accept an existing CPP                                                                           
          participant into SBLF, because conditions for many of the
          relevant institutions have changed dramatically since they
          were approved for CPP, Treasury and the bank regulators               X                                                      
          should conduct a new analysis of whether the applying
          institution is sufficiently healthy and viable to warrant
          participation in SBLF.
65        When Treasury conducts the new analysis of an institution’s                                                                        Treasury refused to adopt this
          health and viability, the existing CPP preferred shares should                                                                     recommendation, citing its belief that
          not be counted as part of the institution’s capital base.                                                                          current CPP participants may be unfairly
                                                                                                                                             disadvantaged in their SBLF applications
                                                                                                                                             if their existing CPP investments are
                                                                                                                           X           
                                                                                                                                             not counted as part of their capital
                                                                                                                                             base, and that SBLF “already provides
                                                                                                                                             substantial hurdles that CPP recipients
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013




                                                                                                                                             must overcome” that don’t apply to other
                                                                                                                                             applicants.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                         193
                                                                                                                                                                                          194
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
66        Treasury should take steps to prevent institutions that are                                                                        Treasury refused to adopt this
          refinancing into the SBLF from CPP from securing windfall                                                                          recommendation, suggesting that
          dividend reductions without any relevant increase in lending.                                                                      its adoption would subvert the will
                                                                                                                                             of Congress and that SIGTARP’s
                                                                                                                           X           
                                                                                                                                             recommendation “may not be helpful”
                                                                                                                                             because “it is unclear that using this
                                                                                                                                             statutorily mandated baseline will lead to
                                                                                                                                             anomalies.”
67   *    Treasury, as part of its due diligence concerning any                                                                               
          proposed restructuring, recapitalization, or sale of its CPP
          investment to a third party, should provide to SIGTARP the
          identity of the CPP institution and the details of the proposed        X                                                     
          transaction.



68   *    When a CPP participant refinances into SBLF and seeks                                                                               
          additional taxpayer funds, Treasury should provide to
                                                                                 X                                                     
          SIGTARP the identity of the institution and details of the
          proposed additional SBLF investment.
69   *    OFS should adopt the legal fee bill submission standards                                                                           Treasury told SIGTARP that OFS has
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          contained in the FDIC’s Outside Counsel Deskbook, or                                                                               created new guidance using the FDIC’s
          establish similarly detailed requirements for how law                                                                              Outside Counsel Deskbook and other
                                                                                 X                                                     
          firms should prepare legal fee bills and describe specific                                                                         resources.
          work performed in the bills, and which costs and fees are
          allowable and unallowable.
70   *    OFS should include in its open legal service contracts                                                                             Treasury told SIGTARP that OFS has
          detailed requirements for law firms on the preparation and                                                                         distributed its new guidance to all
          submission of legal fee bills, or separately provide the                                                                           law firms currently under contract to
          instructions to law firms and modify its open contracts,                                                                           OFS. Treasury further stated that OFS
                                                                                                             X                         
          making application of the instructions mandatory.                                                                                  will work with Treasury’s Procurement
                                                                                                                                             Services Division to begin modifying
                                                                                                                                             base contracts for OFS legal services to
                                                                                                                                             include those standards as well.
71   *    OFS should adopt the legal fee bill review standards                                                                               Treasury told SIGTARP that OFS has held
          and procedures contained in the FDIC’s Outside Counsel                                                                             training on its newly adopted guidance
          Deskbook, or establish similarly specific instructions and                                                                         prescribing how legal fee bills should
          guidance for OFS COTRs to use when reviewing legal fee                                                                             be prepared with OFS COTRs and other
          bills, and incorporate those instructions and guidance into                                                                        staff involved in the review of legal fee
          OFS written policies.                                                                                                              bills, and that the OFS COTRs will begin
                                                                                 X                                                     
                                                                                                                                             reviewing invoices in accordance with
                                                                                                                                             its new guidance for periods starting
                                                                                                                                             with March 2011. OFS also stated that
                                                                                                                                             it incorporated relevant portions of its
                                                                                                                                             training on the new legal fee bill review
                                                                                                                                             standards into written procedures.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
72   *    OFS should review previously paid legal fee bills to                                                                               In April 2011, Treasury agreed to
          identify unreasonable or unallowable charges, and seek                                                                             implement this recommendation. Then,
          reimbursement for those charges, as appropriate.                                                                                   more than one year later, in October
                                                                                                                                             2012, Treasury reversed itself and
                                                                                                                           X                 told SIGTARP that it does not have the
                                                                                                                                             authority to seek reimbursement for
                                                                                                                                             previously paid legal bills. Treasury
                                                                                                                                             did not provide any legal authority to
                                                                                                                                             SIGTARP to support its position.
73   *    Treasury should establish detailed guidance and internal                                                                           Treasury made important changes to
          controls governing how the MHA Servicer Compliance                                                                                 its servicer assessments by including
          Assessment will be conducted and how each compliance                                                                               metrics for the ratings, including several
          area will be weighted.                                                                                                             quantitative metrics. However, qualitative
                                                                                                  X                                          metrics to assess the servicer’s internal
                                                                                                                                             controls in the three ratings categories
                                                                                                                                             remain, and guidelines or criteria for
                                                                                                                                             rating the effectiveness of internal
                                                                                                                                             controls are still necessary.
74   *    Treasury should ensure that more detail is captured by                                                                             Minutes of recent MHA Compliance
          the MHA Compliance Committee meeting minutes. At a                                                                                 Committee meetings contain brief
          minimum, the minutes should include MHA-C’s proposed                                                                               explanations of servicer assessment
          rating for each servicer, the committee members’ qualitative                                                                       rating decisions. However, these
          and quantitative considerations regarding each servicer’s                                                                          minutes do not explain the Committee’s
          ratings, the votes of each committee member, the final                                  X                                          deliberations in detail, do not indicate
          rating for each servicer, justification for any difference in                                                                      how members voted beyond a tally of
          that rating with MHA-C’s proposed rating, and any follow-                                                                          the votes, and do not discuss follow-up
          up including escalation to Treasury’s Office of General                                                                            actions or escalation.
          Counsel or the Assistant Secretary and the outcomes of that
          escalation.
75   *    Treasury should require that MHA servicer communications                                                                           Treasury has refused to adopt this
          with homeowners relating to changes in the status or                                                                               recommendation, saying it already
          terms of a homeowner’s modification application, trial or                                                                          requires a loan servicer to communicate
          permanent modification, HAFA agreement, or any other                                                                               in writing with a borrower an average
          significant change affecting the homeowner’s participation in                                                                      of 10 times. However, most written
                                                                                                                           X           
          the MHA program, be in writing.                                                                                                    requirements apply to a HAMP
                                                                                                                                             application and Treasury’s response fails
                                                                                                                                             to address homeowners who receive
                                                                                                                                             miscommunication from servicers on
                                                                                                                                             important milestones or changes.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013
                                                                                                                                                                                          195
                                                                                                                                                                                        196
SIGTARP RECOMMENDATIONS TABLE                     (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                     Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
76   *    Treasury should establish benchmarks and goals for                                                                                 Treasury told SIGTARP that it already
          acceptable program performance for all MHA servicers,                                                                              established benchmarks in this area,
          including the length of time it takes for trial modifications to                                                                   including that trial periods should last
          be converted into permanent modifications, the conversion                                                                          three to four months, and escalated
          rate for trial modifications into permanent modifications,                                                                         cases should be resolved in 30 days. If
          the length of time it takes to resolve escalated homeowner                                                       X                 these are the benchmarks for acceptable
          complaints, and the percentage of required modification                                                                            performance, many servicers have
          status reports that are missing.                                                                                                   missed the mark. Also, Treasury has yet
                                                                                                                                             to establish a benchmark for conversion
                                                                                                                                             rates from trial modifications to
                                                                                                                                             permanent modifications.
77    *   Treasury should publicly assess the top 10 MHA servicers’                                                                          Treasury has rejected this
          program performance against acceptable performance                                                                                 recommendation, saying only that it
          benchmarks in the areas of: the length of time it takes                                                                            would “continue to develop and improve
          for trial modifications to be converted into permanent                                                                             the process where appropriate.”
          modifications, the conversion rate for trial modifications                                                       X           
          into permanent modifications, the length of time it takes
          to resolve escalated homeowner complaints, and the
          percentage of required modification status reports that are
          missing.
                                                                                                                                                                                        SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




78   *    Treasury must ensure that all servicers participating in MHA                                                                       Treasury has rejected this important
          comply with program requirements by vigorously enforcing                                                                           recommendation, stating that it believes
          the terms of the servicer participation agreements, including                                                                      that the remedies enacted have been
          using all financial remedies such as withholding, permanently                                                                      appropriate and that appropriate
                                                                                                                           X           
          reducing, and clawing back incentives for servicers who                                                                            transparency exists.
          fail to perform at an acceptable level. Treasury should be
          transparent and make public all remedial actions taken
          against any servicer.
79        Treasury should specifically determine the allowability of                                                                         Treasury neither agreed nor disagreed
          $7,980,215 in questioned, unsupported legal fees and                                                                               with the recommendation.
          expenses paid to the following law firms: Simpson Thacher
          & Bartlett LLP ($5,791,724); Cadwalader Wickersham &                                                             X           
          Taft LLP ($1,983,685); Locke Lord Bissell & Liddell LLP
          ($146,867); and Bingham McCutchen LLP (novated from
          McKee Nelson LLP, $57,939).
80        The Treasury contracting officer should disallow and seek                                                                          Treasury neither agreed nor disagreed
          recovery from Simpson Thacher & Bartlett LLP for $96,482                                                                           with the recommendation.
          in questioned, ineligible fees and expenses paid that were
          not allowed under the OFS contract. Specifically, those are
                                                                                                                           X           
          $68,936 for labor hours billed at rates in excess of the
          allowable maximums set in contract TOFS-09-0001, task
          order 1, and $22,546 in other direct costs not allowed
          under contract TOFS-09-007, task order 1.
81        Treasury should promptly review all previously paid legal fee                                                                      Treasury neither agreed nor disagreed
          bills from all law firms with which it has a closed or open                                                                        with the recommendation.
                                                                                                                           X           
          contract to identify unreasonable or unallowable charges
          and seek reimbursement for those charges, as appropriate.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
82        Treasury should require in any future solicitation for legal                                                                       Treasury neither agreed nor disagreed
          services multiple rate categories within the various partner,                                                                      with the recommendation.
          counsel, and associate labor categories. The additional                                                          X           
          labor rate categories should be based on the number of
          years the attorneys have practiced law.
83        Treasury should pre-approve specified labor categories and                                                                         Treasury neither agreed nor disagreed
          rates of all contracted legal staff before they are allowed to                                                   X                 with the recommendation.
          work on and charge time to OFS projects.
84   *    Treasury, in consultation with Federal banking regulators,                                                                         Treasury responded that it continues
          should develop a clear TARP exit path to ensure that                                                                               its efforts to wind down CPP through
          as many community banks as possible repay the TARP                                                                                 repayments, restructuring, and sales.
          investment and prepare to deal with the banks that cannot.                                                                         Treasury has not addressed the criteria
                                                                                                             X                         
          Treasury should develop criteria pertaining to restructurings,                                                                     for these divestment strategies or
          exchanges, and sales of its TARP investments (including any                                                                        consulted with regulators.
          discount of the TARP investment, the treatment of unpaid
          TARP dividend and interest payments, and warrants).
85   *    Treasury should assess whether it should renegotiate the                                                                           Treasury rejected this recommendation
          terms of its Capital Purchase Program contracts for those                                                                          without ever addressing why.
          community banks that will not be able to exit TARP prior                                                         X           
          to the dividend rate increase in order to help preserve the
          value of taxpayers’ investments.
86        Treasury should protect borrower personally identifiable                                                                           Treasury has said it will adopt this
          information (“PII”) and other sensitive borrower information                                                                       recommendation in part. Treasury did
          compiled for the Hardest Hit Fund (“HHF”) by: (1) requiring                                                                        not agree to review each HFA’s policies
          that within 90 days, all Housing Finance Agencies (and                                                                             and procedures to determine if they
          their contractors) (“HFAs”) participating in HHF develop                                                                           are effective. Also, Treasury did not
          and implement effective policies and procedures to ensure                                                                          require notification within 24 hours or
          protection against unauthorized access, use, and disposition                                                                       notification to SIGTARP. SIGTARP will
          of PII and other sensitive borrower information; (2) Treasury                                                                      monitor Treasury’s efforts to implement
          reviewing each HFA’s policies and procedures to determine                                                                          the recommendation.
          if they are effective, and taking such action as is required to                                    X                         
          ensure effectiveness; (3) requiring that all parties granted
          access to borrower information should be made aware
          of restrictions on copying and disclosing this information;
          (4) requiring annual certification by HFAs to Treasury that
          they are in compliance with all applicable laws, policies
          and procedures pertaining to borrower information; and (5)
          requiring that HFAs promptly notify Treasury and SIGTARP
          within 24 hours, when a breach of security has occurred
          involving borrower information.
87   *    To ensure that the Office of the Special Master consistently                                                                       OSM began memorializing in its records
          grants exceptions to the $500,000 cash salary cap, the                                                                             justifications for exceptions. However,
          Office of the Special Master should substantiate each                                                                              SIGTARP found in its review of the 2012
          exception requested and whether the requests demonstrate                                                                           determinations that those records do not
                                                                                                                                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013




                                                                                                                           X           
          or fail to demonstrate “good cause.”                                                                                               substantiate each exception requested
                                                                                                                                             and whether the request for an exception
                                                                                                                                             demonstrates or fails to demonstrate
                                                                                                                                             “good cause.”
                                                                                                                                                                                        197




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                            198
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
88   *    The Office of the Special Master should better document                                                                             
          its use of market data in its calculations. At a minimum, the
          Office of the Special Master should prospectively document
          which companies and employees are used as comparisons
                                                                                 X                                                     
          in its analysis of the 50th percentile of the market, and
          it should also maintain records and data so that the
          relationship between its determinations and benchmarks are
          clearly understood.
89        The Office of the Special Master should develop more                                                                               Treasury has not agreed to implement
          robust policies, procedures, or guidelines to help ensure                                                                          this important recommendation.
          that its pay determination process and its decisions are
          evenhanded. These measures will improve transparency
                                                                                                                           X           
          and help the Office of the Special Master consistently apply
          the Interim Final Rule principles of “appropriate allocation,”
          “performance-based compensation,” and “comparable
          structures and payments.”
90        In order to allow for effective compliance and enforcement                                                                         Treasury responded to this
          in HAMP Tier 2, Treasury should require that the borrower                                                                          recommendation by requiring that
          prove that the property has been rented and is occupied                                                                            borrowers certify that they intend to rent
          by a tenant at the time the borrower applies for a loan                                                                            the property for at least five years and
                                                                                                                                                                                            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          modification, as opposed to requiring only a certification                                                                         that they will make reasonable efforts
          that the borrower intends to rent the property. As part of                                                                         to rent. This does not go far enough.
          the Request for Mortgage Assistance (“RMA”) application                                                                            Requiring only a self-certification, under
          for HAMP Tier 2, the borrower should provide the servicer                                                                          penalty of perjury, without a strong
          with a signed lease and third-party verified evidence of                                                         X                 compliance and enforcement regime to
          occupancy in the form of documents showing that a renter                                                                           ensure that the intent is carried out and
          lives at the property address, such as a utility bill, driver’s                                                                    the property is actually rented, leaves the
          license, or proof of renter’s insurance. In the case of                                                                            program vulnerable to risks that TARP
          multiple-unit properties under one mortgage Treasury should                                                                        funds will pay investors for modifications
          require that the borrower provide the servicer with evidence                                                                       for mortgages on vacation homes
          that at least one unit is occupied by a tenant as part of the                                                                      that are not rented, and may delay, as
          RMA.                                                                                                                               opposed to prevent, foreclosures and
                                                                                                                                             increase HAMP redefault rates.
91        To continue to allow for effective compliance and                                                                                  Treasury rejected this recommendation,
          enforcement in HAMP Tier 2 after the trial modification has                                                                        stating that eligibility is not retested
          started, Treasury should require that, prior to conversion                                                                         prior to conversion. This does not go far
          of a trial modification to a permanent modification, the                                                                           enough. Requiring only a self-certification,
          borrower certify under penalty of perjury that none of the                                                                         without a strong compliance and
          occupancy circumstances stated in the RMA have changed.                                                                            enforcement regime to ensure that the
                                                                                                                                             intent is carried out and the property
                                                                                                                           X           
                                                                                                                                             is actually rented, leaves the program
                                                                                                                                             vulnerable to risks that TARP funds
                                                                                                                                             will pay investors for modifications for
                                                                                                                                             mortgages on vacation homes that are
                                                                                                                                             not rented, and may delay, as opposed to
                                                                                                                                             prevent, foreclosures and increase HAMP
                                                                                                                                             redefault rates.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
92        To prevent a property that has received a HAMP Tier 2                                                                              Treasury told SIGTARP that implementing
          modification from remaining vacant for an extended period                                                                          this recommendation would create
          of time after a lease expires or a tenant vacates,                                                                                 significant additional procedures and
          (a) Treasury should require that borrowers immediately notify                                                                      documentation requirements. With no
          their servicer if the property has remained vacant for more                                                                        compliance regime to determine that a
          than three months.                                                                                                                 renter is in place, the program remains
                                                                                                                                             vulnerable to TARP funds being paid to
          (b) Treasury should require servicers to provide monthly                                                                           modify mortgages that do not fit within
          reports to Treasury of any properties that have remained                                                         X                 the intended expansion of the program.
          vacant for more than three months.
          (c) Treasury should bar payment of TARP-funded incentives
          to any participant for a loan modification on a property that
          has been reported vacant for more than three months, until
          such time as the property has been re-occupied by a tenant
          and the borrower has provided third-party verification of
          occupancy.
93        In order to protect against the possibility that the extension                                                                     Treasury has not implemented this
          and expansion of HAMP will lead to an increase in mortgage                                                                         recommendation. It is important that
          modification fraud,                                                                                                                Treasury educate as many homeowners
          (a) Treasury should require that servicers provide the                                                                             as possible with accurate information
          SIGTARP/CFPB/Treasury Joint Task Force Consumer Fraud                                                                              about HAMP in an effort to prevent
          Alert to all HAMP-eligible borrowers as part of their monthly                                                                      mortgage modification fraud.
          mortgage statement until the expiration of the application
                                                                                                                           X           
          period for HAMP Tier 1 and 2.
          (b) Treasury should undertake a sustained public service
          campaign as soon as possible both to reach additional
          borrowers who could potentially be helped by HAMP Tier 2
          and to arm the public with complete, accurate information
          about the program to avoid confusion and delay, and to
          prevent fraud and abuse.
94        Given the expected increase in the volume of HAMP                                                                                  Treasury has not implemented this
          applications due to the implementation of HAMP Tier 2,                                                                             recommendation. Treasury has not held
          Treasury should convene a summit of key stakeholders to                                                                            a summit of all key stakeholders to
                                                                                                                           X           
          discuss program implementation and servicer ramp-up and                                                                            make the program roll-out efficient and
          performance requirements so that the program roll-out is                                                                           effective.
          efficient and effective.
95        To ensure servicer compliance with HAMP Tier 2 guidelines                                                                          Treasury said that it will include metrics
          and assess servicer performance,                                                                                                   in the future. SIGTARP will continue to
                                                                                                                                             monitor Treasury’s implementation of this
          (a) Treasury should include additional criteria in its servicer
                                                                                                                                             recommendation.
          compliance assessments that measure compliance with the
          program guidelines and requirements of HAMP Tier 2.
                                                                                                             X                         
          (b) Treasury should develop and publish separate metrics
          related to HAMP Tier 2 in the compliance results and
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013




          program results sections of the quarterly Making Home
          Affordable (“MHA”) servicer assessments of the Top 10 MHA
          servicers.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                          199
                                                                                                                                                                                           200
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                 Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
96        To allow for assessment of the progress and success                                                                                Treasury has rejected this
          of HAMP Tier 2, Treasury should set meaningful and                                                                                 recommendation. Treasury’s refusal to
          measurable goals, including at a minimum the number of                                                                             provide meaningful and measurable goals
          borrowers Treasury estimates will be helped by HAMP Tier                                                         X                 leaves it vulnerable to accusations that it
          2. Treasury should unambiguously and prominently disclose                                                                          is trying to avoid accountability.
          its goals and report monthly on its progress in meeting
          these goals.
97        Treasury should set meaningful and measurable                                                                                      Treasury has not implemented this
          performance goals for the Hardest Hit Fund program                                                                                 recommendation. It is important that
          including, at a minimum, the number of homeowners                                                                                  Treasury sets meaningful goals and
          Treasury estimates will be helped by the program, and                                                            X                 metrics to identify program successes
          measure the program’s progress against those goals.                                                                                and set-backs, in order to change the
                                                                                                                                             program as necessary, and to provide
                                                                                                                                             transparency and accountability.
98        Treasury should instruct state housing finance agencies                                                                            Treasury issued letters to five housing
          in the Hardest Hit Fund to set meaningful and measurable                                                                           finance agencies requiring those states
          overarching and interim performance goals with appropriate                                                                         to provide an action plan with measurable
          metrics to measure progress for their individual state                                                                             interim and overall goals, including
          programs.                                                                                                                          benchmarks, to improve the level of
                                                                                                                                             homeowner assistance under the HHF
                                                                                                  X                                    
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                             program. Treasury should fully adopt
                                                                                                                                             SIGTARP’s recommendation with the
                                                                                                                                             remaining 14 housing finance agencies in
                                                                                                                                             the HHF program. SIGTARP will continue
                                                                                                                                             to monitor implementation of this
                                                                                                                                             recommendation.
99        Treasury should set milestones at which the state housing                                                                          Treasury issued letters to five housing
          finance agencies in the Hardest Hit Fund must review the                                                                           finance agencies requiring those states
          progress of individual state programs and make program                                                                             to provide an action plan with measurable
          adjustments from this review.                                                                                                      interim and overall goals, including
                                                                                                                                             benchmarks, to improve the level of
                                                                                                                                             homeowner assistance under the HHF
                                                                                                  X                                    
                                                                                                                                             program. Treasury should fully adopt
                                                                                                                                             SIGTARP’s recommendation with the
                                                                                                                                             remaining 14 housing finance agencies in
                                                                                                                                             the HHF program. SIGTARP will continue
                                                                                                                                             to monitor implementation of this
                                                                                                                                             recommendation.
100       Treasury should publish on its website and in the Housing                                                                          Treasury has rejected this
          Scorecard on a quarterly basis the total number of                                                                                 recommendation. HHF is a TARP
          homeowners assisted, funds drawn down by states, and                                                                               program, the source of the funds is
          dollars expended for assistance to homeowners, assistance                                                                          TARP, and Treasury is steward over
                                                                                                                           X           
          committed to homeowners, and cash on hand, aggregated                                                                              TARP. Treasury has the responsibility to
          by all state Hardest Hit Fund programs.                                                                                            increase transparency and accountability
                                                                                                                                             of how TARP funds are used by publishing
                                                                                                                                             this information.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                 Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
101       Treasury should develop an action plan for the Hardest                                                                             Treasury has rejected this
          Hit Fund that includes steps to increase the numbers of                                                                            recommendation. It is important that
          homeowners assisted and to gain industry support for                                                                               Treasury change the status quo and fulfill
          Treasury-approved HHF programs. Treasury should set                                                                                its role as steward over TARP programs,
          interim metrics for how many homeowners it intends to                                                                              make determinations of which programs
          assist in a Treasury-defined time period in each particular                                                                        are successful and which programs
          program (such as principal reduction, second lien reduction,                                                     X                 are not working, and ensure that HHF
          or reinstatement). If Treasury cannot achieve the desired                                                                          funds are reaching homeowners. This
          level of homeowners assisted in any one program area in                                                                            may include putting the funds toward
          the defined time period, Treasury should put the funds to                                                                          programs that are more successful at
          better use toward programs that are reaching homeowners.                                                                           reaching homeowners. It is unacceptable
                                                                                                                                             to delegate all of this responsibility to the
                                                                                                                                             states.
102       Treasury should stop allowing servicers to add a risk                                                                              Treasury has not implemented this
          premium to Freddie Mac’s discount rate in HAMP’s net                                                                               recommendation. The addition of a
          present value test.                                                                                                                risk premium reduces the number
                                                                                                                                             of otherwise qualified homeowners
                                                                                                                           X           
                                                                                                                                             Treasury helps through HAMP. Treasury
                                                                                                                                             should implement this recommendation
                                                                                                                                             to increase assistance to struggling
                                                                                                                                             homeowners.
103       Treasury should ensure that servicers use accurate                                                                                 Treasury has not implemented this
          information when evaluating net present value test results                                                                         recommendation. Servicer errors using
          for homeowners applying to HAMP and should ensure that                                                                             NPV inputs and the lack of properly
          servicers maintain documentation of all net present value                                                                          maintained records on NPV inputs have
                                                                                                                           X           
          test inputs. To the extent that a servicer does not follow                                                                         diminished compliance and placed the
          Treasury’s guidelines on input accuracy and documentation                                                                          protection of homeowner’s rights to
          maintenance, Treasury should permanently withhold                                                                                  challenge servicer error at risk.
          incentives from that servicer.
104       Treasury should require servicers to improve their                                                                                 Treasury has not implemented this
          communication with homeowners regarding denial of a                                                                                recommendation. Servicers’ failure to
          HAMP modification so that homeowners can move forward                                                                              communicate denial in a timely manner
          with other foreclosure alternatives in a timely and fully                                                                          can have serious consequences because
                                                                                                                           X           
          informed manner. To the extent that a servicer does not                                                                            a delay may prevent homeowners from
          follow Treasury’s guidelines on these communications,                                                                              finding other foreclosure alternatives
          Treasury should permanently withhold incentives from that                                                                          sooner.
          servicer.
105       Treasury should ensure that more detail is captured by the                                                                         Treasury has not implemented this
          Making Home Affordable Compliance Committee meeting                                                                                recommendation. SIGTARP found a lack
          minutes regarding the substance of discussions related to                                                                          of detail in Treasury’s meeting minutes
          compliance efforts on servicers in HAMP. Treasury should                                                                           and because Treasury failed to document
                                                                                                                           X           
          make sure that minutes clearly outline the specific problems                                                                       its oversight, SIGTARP was unable to
          encountered by servicers, remedial options discussed, and                                                                          verify Treasury’s role in the oversight of
          any requisite actions taken to remedy the situation.                                                                               servicers or its compliance agent Freddie
                                                                                                                                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013




                                                                                                                                             Mac.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                             201
                                                                                                                                                                                          202
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
106       In order to protect taxpayers who funded TARP against any                                                                          Neither Treasury nor the Federal
          future threat that might result from LIBOR manipulation,                                                                           Reserve has agreed to implement this
          Treasury and the Federal Reserve should immediately                                                                                recommendation despite Treasury telling
          change any ongoing TARP programs including, without                                                                                SIGTARP that it “share[s SIGTARP's]
          limitation, PPIP and TALF, to cease reliance on LIBOR.                                                                             concerns about the integrity” of LIBOR,
                                                                                                                           X           
                                                                                                                                             and the Federal Reserve telling SIGTARP
                                                                                                                                             that it agreed that “recent information
                                                                                                                                             regarding the way the LIBOR has been
                                                                                                                                             calculated has created some uncertainty
                                                                                                                                             about the reliability of the rate.”
107       In order to protect taxpayers who invested TARP funds                                                                              Neither Treasury nor the Federal
          into AIG to the fullest extent possible, Treasury and the                                                                          Reserve has agreed to implement this
          Federal Reserve should recommend to the Financial Stability                                                                        recommendation. Treasury told SIGTARP
          Oversight Council that AIG be designated as a systemically                                                                         that it will consider information provided
          important financial institution so that it receives the                                                                            by SIGTARP as it continues to evaluate
          strongest level of Federal regulation.                                                                                             nonbank financial companies for potential
                                                                                                                           X           
                                                                                                                                             systemically important designation. The
                                                                                                                                             Federal Reserve told SIGTARP that it
                                                                                                                                             would forward the recommendation to
                                                                                                                                             the Financial Stability Oversight Council
                                                                                                                                             as it considers what action, if any, is
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                             appropriate.
108       In order to fulfill Treasury’s responsibility to wind down its                                                                     Treasury has not agreed to implement
          TARP Capital Purchase Program investments in a way that                                                                            this important recommendation.
          protects taxpayer interests, before allowing a TARP bank
          to purchase Treasury’s TARP shares at a discount to the
          TARP investment (for example as the successful bidder
          at auction), Treasury should undertake an analysis, in                                                           X           
          consultation with Federal banking regulators, to determine
          that allowing the bank to redeem its TARP shares at a
          discount to the TARP investment outweighs the risk that the
          bank will not repay the full TARP investment. Treasury should
          document that analysis and consultation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
109       In order to fulfill Treasury’s responsibility to wind down its                                                                     Treasury has not agreed to implement
          TARP investments in a way that promotes financial stability                                                                        this important recommendation.
          and preserves the strength of our nation’s community
          banks, Treasury should undertake an analysis in consultation
          with Federal banking regulators that ensures that it is exiting
          its Capital Purchase Program investments in a way that
          satisfies the goals of CPP, which are to promote financial
          stability, maintain confidence in the financial system and                                                       X           
          enable lending. This financial stability analysis of a bank’s
          exit from TARP should determine at a minimum: (1) that the
          bank will remain healthy and viable in the event of an auction
          of Treasury’s preferred shares; and (2) that the bank’s exit
          from TARP does not have a negative impact on the banking
          industry at a community, state, regional, and national level.
          Treasury should document that analysis and consultation.
110       Treasury should better document its decision whether or not                                                                        Treasury has not agreed to implement
          to auction its preferred shares in a TARP bank to adequately                                                                       this important recommendation.
                                                                                                                           X           
          reflect the considerations made for each bank and detailed
          rationale.
111       Each year, Treasury should reevaluate total compensation                                                                           See discussion in this section
          for those employees at TARP exceptional assistance
          companies remaining in the Top 25 from the prior year,
          including determining whether to reduce total compensation.
112       To ensure that Treasury effectively applies guidelines aimed                                                                       See discussion in this section
          at curbing excessive pay and reducing risk taking, Treasury
          should develop policies, procedures, and criteria for
          approving pay in excess of Treasury guidelines.
113       Treasury should independently analyze whether good cause                                                                           See discussion in this section
          exists to award a Top 25 employee a pay raise or a cash
          salary over $500,000. To ensure that the Office of the
          Special Master has sufficient time to conduct this analysis,
          Treasury should allow OSM to work on setting Top 25 pay
          prior to OSM’s receiving the company pay proposals, which
          starts the 60-day timeline.
114       To be consistent with Treasury’s Interim Final Rule that the                                                                       See discussion in this section
          portion of performance-based compensation compared
          to total compensation should be greater for positions that
          exercise higher levels of responsibility, Treasury should
          return to using long-term restricted stock for employees,
          particularly senior employees such as CEOs.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	
                                                                                                                                                                                    QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013
                                                                                                                                                                                    203
                     ENDNOTES
204             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      1.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 1.
      2.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 2,16.
      3.	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit
             Strategy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 1/2/2013.
      4.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 9.
      5.	    Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010, pp. 1, 759.
      6.	    Treasury, Daily TARP Update, 1/2/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
             01.02.2013.pdf, accessed 1/3/2013.
      7.	    Treasury, Section 105(a) Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
             Monthly%20Report%20to%20Congress.pdf, accessed 1/14/2013.
      8.	    Treasury, response to SIGTARP data call, 1/3/2013; Treasury, Daily TARP Update, 1/2/2013, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/Daily%20TARP%20Update%20-%2001.02.2013.pdf, accessed 1/3/2013.
      9.	    Treasury, Section 105(a) Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
             Monthly%20Report%20to%20Congress.pdf, accessed 1/14/2013.
      10.	   CBO, “Director’s Blog: Troubled Asset Relief Program,” 4/17/2009, www.cbo.gov/publication/24884, accessed 1/2/2013; OMB, “Analytical
             Perspectives: Budget of the U.S. Government – Fiscal Year 2011,” 2/1/2010, www.gpoaccess.gov/usbudget/fy11/pdf/spec.pdf, accessed 1/2/2013.
      11.	   OMB, “OMB Report Under the Emergency Economic Stabilization Act, Section 202,” 8/31/2012, www.whitehouse.gov/sites/default/files/omb/
             reports/tarp_report_august_2012.pdf, accessed 1/2/2013.
      12.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2013,” 2/13/2012, www.whitehouse.gov/sites/default/files/
             omb/budget/fy2013/assets/econ_analyses.pdf, accessed 1/2/2013.
      13.	   OMB, “OMB Report Under the Emergency Economic Stabilization Act, Section 202,” 8/31/2012, www.whitehouse.gov/sites/default/files/omb/
             reports/tarp_report_august_2012.pdf, accessed 1/2/2013.
      14.	   CBO, “Report on the Troubled Asset Relief Program—October 2012,” www.cbo.gov/sites/default/files/cbofiles/attachments/TARP10-2012_0.pdf,
             accessed 1/2/2013.
      15.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2012,”11/8/2012, www.treasury.gov/
             initiatives/financial-stability/reports/Documents/2012_OFS_AFR_Final_11-9-12.pdf, accessed1/2/2013.
      16.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2012,”11/8/2012, www.treasury.gov/
             initiatives/financial-stability/reports/Documents/2012_OFS_AFR_Final_11-9-12.pdf, accessed 1/2/2013.
      17.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2012,”11/8/2012, www.treasury.gov/
             initiatives/financial-stability/reports/Documents/2012_OFS_AFR_Final_11-9-12.pdf, accessed 1/2/2013.
      18.	   Treasury, Section 105(a) Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
             Monthly%20Report%20to%20Congress.pdf, accessed 1/14/2013; Treasury, response to SIGTARP data call, 1/4/2013.
      19.	   Treasury, response to SIGTARP data call, 1/11/2013.
      20.	   Treasury, Section 105(a) Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
             Monthly%20Report%20to%20Congress.pdf, accessed 1/14/2013.
      21.	   Treasury, response to SIGTARP data call, 1/3/2013.
      22.	   Treasury, Section 105(a) Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
             Monthly%20Report%20to%20Congress.pdf, accessed 1/14/2013.
      23.	   Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
             Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2012; Treasury, Daily TARP Update, 1/2/2013, www.treasury.gov/initiatives/
             financial-stability/reports/Documents/Daily%20TARP%20Update%20-%2001.02.2013.pdf, accessed 1/2/2013; Treasury, response to SIGTARP
             data call, 1/3/2013.
      24.	   Treasury, response to SIGTARP data call, 1/3/2013.
      25.	   Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.treasury.gov/
             press-center/press-releases/Pages/tg48.aspx, accessed 1/2/2013.
      26.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
             briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed1/2/2013.
      27.	   Treasury, “Home Affordable Modification Program — Programs,” no date, www.hmpadmin.com/portal/programs/index.jsp, accessed 1/2/2013.
      28.	   Treasury, response to SIGTARP data call, 1/3/2013.
      29.	   Treasury, response to SIGTARP data call, 1/3/2013.
      30.	   Treasury, response to SIGTARP data call, 1/22/2013.
      31.	   Treasury, response to SIGTARP data call, 1/3/2013.
      32.	   Treasury, response to SIGTARP data call, 1/22/2013.
      33.	   The White House, “President Obama Announces Help for Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/
             president-obama-announces-help-hardest-hit-housing-markets, accessed 1/2/2013.
      34.	   Treasury, Section 105(a) Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
             Monthly%20Report%20to%20Congress.pdf, accessed 1/14/2013.
      35.	   Treasury, response to SIGTARP data call, 1/3/2013.
      36.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
      37.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
             cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/2/2013.
      38.	   Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
             programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
      39.	   Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
             Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      40.	   Treasury, response to SIGTARP data call, 1/11/2013.
                                                                                          QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013                 205


41.	   Treasury, response to SIGTARP data call, 1/11/2013; Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/1-2-13%20Transactions%20Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
42.	   Treasury, response to SIGTARP data call, 1/11/2013; Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/1-2-13%20Transactions%20Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
43.	   Treasury, response to SIGTARP data call, 1/3/2013; Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/1-2-13%20Transactions%20Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
44.	   Treasury, Section 105(a) Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
       Monthly%20Report%20to%20Congress.pdf, accessed 1/14/2013; Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/
       financial-stability/reports/Documents/1-2-13%20Transactions%20Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
45.	   Treasury, Section 105(a) Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
       Monthly%20Report%20to%20Congress.pdf, accessed 1/14/2013; Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/
       financial-stability/reports/Documents/1-2-13%20Transactions%20Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013;
       Treasury, response to SIGTARP data call, 1/11/2013.
46.	   Treasury, response to SIGTARP draft report, 10/8/2010.
47.	   Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
       investment-programs/cdci/Pages/Overview.aspx, accessed 1/14/2013.
48.	   Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
       Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
49.	   Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
       Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
50.	   Treasury, “Programs,” 5/7/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Pages/default.aspx, accessed
       1/4/2013.
51.	   Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
       9/11/2012, www.trasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 1/15/2013.
52.	   Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
       Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
53.	   AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 1/2/2013; Treasury Press
       Release, “Treasury Department Statement on AIG’s Transaction Agreement,” 12/8/2010, www.treasury.gov/press-center/press-releases/Pages/
       tg996.aspx, accessed 1/2/2013.
54.	   AIG, prospectus, 12/10/2012, www.sec.gov/Archives/edgar/data/5272/000119312512497637/d451656d424b7.htm, p. S-3, accessed
       12/18/2012.
55.	   Treasury, Daily TARP Update, 1/2/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
       01.02.2013.pdf, accessed 1/2/2013.
56.	   Treasury, Daily TARP Update, 1/2/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
       01.02.2013.pdf, accessed 1/2/2013; Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/
       December%202012%20Dividends%20Interest%20Report.pdf, accessed 1/14/2013.
57.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
       OFS%20AFR%2009_24.pdf, accessed 1/7/2013.
58.	   Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
       Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
59.	   Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
       Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
60.	   Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
       Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
61.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
       OFS%20AFR%2009_24.pdf, accessed 1/2/2013.
62.	   Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 12/16/2009, www.treasury.gov/press-
       center/press-releases/Pages/hp1358.aspx, accessed 1/7/2013.
63.	   U.S. Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual
       Financing to Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.
       pdf, accessed 1/2/2013.
64.	   Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 1/2/2013.
65.	   FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 1/2/2013.
66.	   FRBNY, response to SIGTARP data call, 1/3/2013.
67.	   FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
       1/2/2013; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/TALF_
       recent_operations.html, accessed 1/2/2013; FRBNY, response to SIGTARP data call, 1/3/2013.
68.	   FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 1/2/2013;
       FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/CMBS_recent_
       operations.html, accessed 1/2/2013; FRBNY, response to SIGTARP data call, 1/3/2013.
69.	   Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 1/2/2013.
70.	   Treasury, Section 105(a) Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
       Monthly%20Report%20to%20Congress.pdf, accessed 1/14/2013.
71.	   FRBNY, response to SIGTARP data call, 1/3/2013.
72.	   FRBNY, response to SIGTARP data call, 1/3/2013.
73.	   Treasury Press Release, “Treasury Department Releases Details on Public Private Partnership Investment Program,” 3/23/2009, www.treasury.
       gov/press-center/press-releases/Pages/tg65.aspx, accessed 1/2/2013.
206              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      74.	    Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended June 30, 2012,” www.treasury.gov/initiatives/
              financial-stability/reports/Documents/PPIP%20Report%20-%20Q2%202012.pdf, 7/19/2012, p. 4, accessed 1/2/2013.
      75.	    Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
              Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013; Treasury, response to SIGTARP data call, 1/3/2013.
      76.	    Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/
              tg58.aspx, accessed 1/2/2013.
      77.	    Treasury Press Release, “Treasury Completes Wind Down of TARP Small Business Program, Realizes $8 Million Gain for Taxpayers,”1/25/2012,
              www.treasury.gov/press-center/press-releases/Pages/tg1398.aspx, accessed 1/2/2013.
      78.	    Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20
              Programs/aifp/Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 1/2/2013.
      79.	    Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
              Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013; Treasury, Daily TARP Update, 1/2/2013, www.treasury.gov/initiatives/
              financial-stability/reports/Documents/Daily%20TARP%20Update%20-%2001.02.2013.pdf, accessed 1/2/2013.
      80.	    Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
              Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      81.	    Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
              Dividends%20Interest%20Report.pdf, accessed 1/14/2013; Daily TARP Update, 1/2/2013, www.treasury.gov/initiatives/financial-stability/reports/
              Documents/Daily%20TARP%20Update%20-%2001.02.2013.pdf, accessed 1/2/2013.
      82.	    Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
              Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      83.	    Treasury, Transactions Report, 1/4/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/3/2013.
      84.	    General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 1/2/2013.
      85.	    Treasury Press Release, “Treasury Announces Intent to Fully Exit GM Investment Within the Next 12-15 Months,” 12/19/2012, www.treasury.
              gov/press-center/press-releases/Pages/tg1810.aspx, accessed 1/7/2013; Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/
              financial-stability/reports/Documents/1-2-13%20Transactions%20Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      86.	    Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
              Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      87.	    Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
              Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013; Treasury, response to SIGTARP data call, 1/3/2013.
      88.	    Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
              tg1253.aspx, accessed 1/2/2013.
      89.	    Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
              tg1253.aspx, accessed 1/2/2013.
      90.	    Treasury, Section 105(a) Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
              Monthly%20Report%20to%20Congress.pdf, accessed 1/14/2013.
      91.	    Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
              Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013; Treasury, response to SIGTARP data call, 1/3/2013.
      92.	    Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
              Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013; Treasury, response to SIGTARP data call, 1/3/2013.
      93.	    Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
              Treasury,” 5/14/2012, http://media.ally.com/index.php?s=43&item=543, accessed 1/3/2013.
      94.	    Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
              Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013; Treasury, response to SIGTARP data call, 1/3/2013.
      95.	    Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.treasury.gov/initiatives/financial-
              stability/programs/Other%20Programs/aifp/Documents/supplier_support_program_3_18.pdf, accessed 1/7/2013.
      96.	    Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
              Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013; Treasury, response to SIGTARP data call, 1/3/2013.
      97.	    Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
              Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013; Treasury, response to SIGTARP data call, 1/3/2013.
      98.	    Obama, Barack, “Remarks by the President on the Home Mortgage Crisis,” 2/18/2009, www.whitehouse.gov/the_press_office/Remarks-by-the-
              President-on-the-mortgage-crisis/, accessed 1/2/2013.
      99.	    Treasury Press Release, “Homeowner Affordability and Stability Plan: Executive Summary,” 2/18/2009, www.treasury.gov/press-center/
              pressreleases/Pages/tg33.aspx, accessed 1/2/2013.
      100.	   Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
      101.	   Treasury, “Supplemental Directive 12-02: Making Home Affordable Program - MHA Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 1/2/2013.
      102.	   Congressional Budget Office, “Report on the Troubled Asset Relief Program,” 3/2010, www.cbo.gov/sites/default/files/cbofiles/ftpdocs/112xx/
              doc11227/03-17-tarp.pdf, accessed 1/2/2013.
      103.	   Treasury, Section 105(a) Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
              Monthly%20Report%20to%20Congress.pdf, accessed 1/11/2013; Treasury, Transactions Report-Housing, 12/27/2012, www.treasury.gov/
              initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2012.pdf, accessed 1/3/2013.
      104.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
              briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/2/2013.
      105.	   Treasury, response to SIGTARP data call, 1/22/2013.
      106.	   Treasury, “Secretaries Geithner, Donovan Announce New Details of Making Home Affordable Program, Highlight Implementation Progress,”
              5/14/2009, www.treasury.gov/press-center/press-releases/Pages/tg131.aspx, accessed 1/2/2013.
                                                                                             QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013                  207


107.	   Treasury, response to SIGTARP data call, 1/3/2013.
108.	   Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
109.	   Treasury, response to SIGTARP data call, 1/11/2013.
110.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
111.	   Treasury, response to SIGTARP data call, 1/18/2013.
112.	   Treasury, “Supplemental Directive 12-02: Making Home Affordable Program - MHA Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 1/2/2013.
113.	   Treasury, response to SIGTARP data call, 1/22/2013.
114.	   Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_
        alternatives.jsp, accessed 1/2/2013.
115.	   Treasury, response to SIGTARP data call, 1/11/2013.
116.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
117.	   Treasury, response to SIGTARP data call, 1/3/2013.
118.	   Treasury, response to SIGTARP data call, 1/18/2013.
119.	   Treasury, response to SIGTARP data call, 1/11/2013.
120.	   Treasury, “Supplemental Directive 10-03: Home Affordable Modification Program — Modifications of Loans Insured by the Federal
        Housing Administration (FHA),” 3/26/2010, www.hmpadmin.com/portal/programs/docs/fha_hamp/sd1003.pdf, accessed 1/2/2013; Treasury,
        “Supplemental Directive 10-10: Home Affordable Modification Program-Modifications of Loans Guaranteed by the Rural Housing Service,”
        9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 1/2/2013; Department of Veterans Affairs, “Revised VA
        Making Home Affordable Program, Circular 26-10-6,” 7/5/2012, www.benefits.va.gov/HOMELOANS/circulars/26_10_6_change1.pdf, accessed
        1/2/2013.
121.	   Treasury, response to SIGTARP data call, 1/11/2013.
122.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
        briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/2/2013.
123.	   Treasury, response to SIGTARP data call, 1/3/2013.
124.	   Treasury, response to SIGTARP data call, 1/18/2013.
125.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
        briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/2/2013.
126.	   Treasury, response to SIGTARP data call, 1/3/2013.
127.	   Treasury, Daily TARP Update, 1/2/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
        01.02.2013.pdf, accessed 1/3/2013.
128.	   Treasury, Daily TARP Update, 1/2/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
        01.02.2013.pdf, accessed 1/3/2013.
129.	   Treasury, response to SIGTARP data call, 1/3/2013; Treasury, Transactions Report-Housing, 12/27/2012, www.treasury.gov/initiatives/financial-
        stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2012.pdf, accessed 1/3/2013.
130.	   SIGTARP, “Quarterly Report to Congress,” 10/26/2010, www.sigtarp.gov/Quarterly%20Reports/October2010_Quarterly_Report_to_Congress.
        pdf, accessed 1/2/2013; Treasury, response to SIGTARP data call, 1/3/2013.
131.	   Treasury, response to SIGTARP data call, 1/22/2013.
132.	   Treasury, response to SIGTARP data call, 1/3/2013.
133.	   Treasury, response to SIGTARP data call, 1/3/2013.
134.	   Treasury, response to SIGTARP data call, 1/3/2013.
135.	   Treasury, response to SIGTARP data call, 1/18/2013.
136.	   Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
137.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
138.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
139.	   Treasury, response to SIGTARP data call, 1/11/2013.
140.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
141.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
142.	    Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
143.	   Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 1/2/2013.
144.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
145.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
146.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
147.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
        portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
208            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      148.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
      149.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
            Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 1/2/2013.
      150.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 1/2/2013.
      151.	 Treasury, “Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 1/2/2013.
      152.	 Treasury, “Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 1/2/2013.
      153.	 Treasury, response to SIGTARP data call, 1/22/2013.
      154.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
      155.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 1/2/2013.
      156.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
            Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 1/2/2013.
      157.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
      158.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
            Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 1/2/2013.
      159.	 Treasury, “Supplemental Directive 11-06, Making Home Affordable Program – Updates to Servicer Incentives,” 7/6/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1106.pdf, accessed 1/2/2013.
      160.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
      161.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
      162.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
      163.	 Treasury, Transactions Report-Housing, 12/27/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2012.27.2012.pdf, accessed 1/3/2013.
      164.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
            Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 1/2/2013; Treasury, “Making
            Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/portal/programs/
            docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
      165.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
            Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 1/2/2013.
      166.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 1/2/2013.
      167.	 Treasury, response to SIGTARP data call, 1/22/2013.
      168.	 Treasury, response to SIGTARP data call, 11/2/2012.
      169.	 Treasury, response to SIGTARP data call, 1/22/2013.
      170.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
            Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 1/2/2013.
      171.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 1/2/2013.
      172.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 1/2/2013.
      173.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 1/2/2013.
      174.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 1/2/2013.
      175.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 1/2/2013.
      176.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
            Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 1/2/2013.
      177.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
            Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 1/2/2013.
      178.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
            Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 1/2/2013.
      179.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 1/2/2013.
      180.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
      181.	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program — Home Price Decline Protection Incentives,” 7/31/2009,
            www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 1/2/2013.
                                                                                     QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013             209


182.	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program — Home Price Decline Protection Incentives,” 7/31/2009,
      www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 1/2/2013.
183.	 Treasury, response to SIGTARP data call, 1/3/2013.
184.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd1005.pdf, accessed 1/2/2013.
185.	 Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/programs/docs/hamp_
      servicer/praoverviewnongse.pdf, accessed 1/2/2013.
186.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
      Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 1/2/2013.
187.	 Treasury, response to SIGTARP data call, 1/11/2013.
188.	 Treasury, response to SIGTARP data call, 1/11/2013.
189.	 Treasury, response to SIGTARP data call, 1/11/2013.
190.	 Treasury, response to SIGTARP data call, 1/22/2013.
191.	 Treasury, response to SIGTARP data call, 1/11/2013.
192.	 Treasury, response to SIGTARP data call, 1/11/2013.
193.	 Treasury, response to SIGTARP data call, 1/11/2013.
194.	 Treasury, response to SIGTARP data call, 1/18/2013.
195.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd1005.pdf, accessed 1/2/2013.
196.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
197.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd1005.pdf, accessed 1/2/2013.
198.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
199.	 Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
      Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1201.pdf, accessed 1/2/2013.
200.	 Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
      Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1201.pdf, accessed 1/2/2013.
201.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
202.	 Treasury, response to SIGTARP data call, 1/3/2013.
203.	 Treasury Press Release, “Housing Program Enhancements Offer Additional Options for Struggling Homeowners,” 3/26/2010, www.treasury.gov/
      press-center/press-releases/Pages/tg614.aspx, accessed 1/2/2013.
204.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1107.pdf, accessed 1/2/2013.
205.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
206.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 1/2/2013.
207.	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1004.pdf, accessed 1/2/2013.
208.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1107.pdf, accessed 1/2/2013.
209.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1107.pdf, accessed 1/2/2013.
210.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 1/2/2013.
211.	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, www.makinghomeaffordable.
      gov/programs/Documents/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 1/2/2013.
212.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
213.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives – Short Sale andDeed-in-Lieu of Foreclosure
      Update,” 3/26/2010, www.hmpadmin.com/portal/programs/docs/hafa/sd0909r.pdf, accessed 12/18/2012.
214.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives – Short Sale andDeed-in-Lieu of Foreclosure
      Update,” 3/26/2010, www.hmpadmin.com/portal/programs/docs/hafa/sd0909r.pdf, accessed 12/18/2012.
215.	 Treasury, “HAMP Update — New Program Offers Borrowers Foreclosure Alternatives,” 11/30/2009, www.hmpadmin.com/portal/news/
      docs/2009/hampupdate113009.pdf, accessed 1/2/2013.
216.	 Treasury, “Supplemental Directive 11-08: Home Affordable Foreclosure Alternatives Program — Policy Update,” 8/9/2011, www.hmpadmin.
      com/portal/programs/docs/hamp_servicer/sd1108.pdf, accessed 1/2/2013; Treasury, response to SIGTARP data call, 1/11/2013.
217.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
      com/portal/programs/docs/hafa/sd1018.pdf, accessed 1/2/2013.
218.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 1/2/2013.
219.	 Treasury, response to SIGTARP data call, 1/3/2013.
220.	 Treasury, response to SIGTARP data call, 1/11/2013.
210            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      221.	 Treasury, response to SIGTARP data call, 1/22/2013.
      222.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.1,” 12/13/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_41.pdf, accessed 1/2/2013.
      223.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
            portal/programs/docs/second_lien/sd0905r.pdf, accessed 1/2/2013.
      224.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 1/2/2013.
      225.	 Treasury, response to SIGTARP data call, 1/11/2013.
      226.	 Treasury, response to SIGTARP data call, 1/3/2013.
      227.	 Treasury, response to SIGTARP data call, 1/11/2013.
      228.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
            portal/programs/docs/second_lien/sd0905r.pdf, accessed 1/2/2013.
      229.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
            portal/programs/docs/second_lien/sd0905r.pdf, accessed 1/2/2013.
      230.	 Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
            Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1201.pdf, accessed 1/2/2013.
      231.	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural
            Housing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 1/2/2013.
      232.	 Treasury, response to SIGTARP data call, 1/3/2013.
      233.	 Treasury, response to SIGTARP data call, 1/16/2013.
      234.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 7/5/2012, www.benefits.va.gov/
            HOMELOANS/circulars/26_10_6.pdf, accessed 1/2/2013.
      235.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 1/2/2013;
            Treasury, “Supplemental Directive 10-08: Making Home Affordable Program – Treasury/FHA Second Lien Program (FHA2LP) to Support
            FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1008.pdf,
            accessed 1/2/2013.
      236.	 Treasury, response to SIGTARP data call, 1/3/2013.
      237.	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) to Support
            FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf,
            accessed 1/2/2013.
      238.	 Treasury, response to SIGTARP data call, 1/11/2013.
      239.	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/25/2010, www.makinghomeaffordable.gov/news/
            latest/Documents/FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 1/2/2013.
      240.	 Treasury, response to SIGTARP data call, 1/18/2013.
      241.	 Treasury, response to SIGTARP data call, 1/3/2013.
      242.	 Treasury, response to SIGTARP data call, 1/3/2013.
      243.	 Treasury, response to SIGTARP data call, 1/3/2013.
      244.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 1/2/2013; HUD,
            response to SIGTARP draft, 1/10/2011.
      245.	 HUD, response to SIGTARP vetting draft, 1/19/2011.
      246.	 HUD, response to SIGTARP draft report, 1/10/2011.
      247.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
            letters/mortgagee/files/10-23ml.pdf, accessed 1/2/2013.
      248.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
            letters/mortgagee/files/10-23ml.pdf, accessed 1/2/2013; HUD, response to SIGTARP draft report, 3/31/2011.
      249.	 HUD, response to SIGTARP draft report, 1/12/2011.
      250.	 Treasury, response to SIGTARP data call, 1/11/2013.
      251.	 SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund Program,” 4/12/2012, www.sigtarp.gov/Audit%20Reports/SIGTARP_
            HHF_Audit.pdf, accessed 1/2/2013.
      252.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention
            Funding,”6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 1/2/2013.
      253.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” www.
            treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 1/2/2013.
      254.	 Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-
            center/press-releases/Pages/tg618.aspx, accessed 1/2/2013.
      255.	 National Council of State Housing Agencies, “Hardest Hit Foreclosure Initiative,” no date, www.ncsha.org/advocacy-issues/hardest-hit-
            foreclosure-initiative, accessed 1/2/2013.
      256.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
            with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
            1/2/2013.
      257.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure Prevention Programs to Help Homeowners Struggling
            With Unemployment,” 8/11/2010, http://portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176,
            accessed 12/18/2012.
      258.	 Treasury, Transactions Report-Housing, 12/27/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2012.27.2012.pdf, accessed 1/3/2013.
                                                                                         QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013                 211


259.	 Treasury, “TARP: Two Year Retrospective,” 10/5/2010, pp. 76, 98, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_
      reports/Documents/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 1/2/2013.
260.	 SIGTARP analysis of HFA participation agreements and amendments; SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund
      Program,” 4/12/2012, www.sigtarp.gov/Audit%20Reports/SIGTARP_HHF_Audit.pdf, accessed 1/2/2013.
261.	 Treasury, response to SIGTARP data call, 1/3/2013.
262.	 Treasury, response to SIGTARP data call, 1/3/2013; Hardest Hit Alabama, “Hardest Hit Alabama,” no date, www.hardesthitalabama.com/,
      accessed 1/2/2013; Arizona Department of Housing, “Save our Home AZ,” no date, www.azhousing.gov/, accessed 1/2/2013; CALHFA Mortgage
      Assistance Corporation, “Keep Your Home California,” no date, www.keepyourhomecalifornia.org/, accessed 1/2/2013; Florida Hardest-Hit,
      “Florida Hardest-Hit,” no date, www.flhardesthithelp.org/, accessed 1/2/2013; Georgia Department of Community Affairs, “Hardest Hit Fund,”
      no date, www.dca.state.ga.us/housing/homeownership/programs/hardesthitfund.asp, accessed 1/2/2013; Illinois Housing Development Authority,
      “Illinois Housing Development Authority,” no date, www.ihda.org/, accessed 1/2/2013; Indiana Foreclosure Prevention Network, “Indiana
      Foreclosure Prevention Network,” no date, www.877gethope.org/, accessed 1/2/2013; Kentucky Housing Corporation, “Kentucky Housing
      Corporation,” no date, www.kyhousing.org/, accessed 1/2/2013; Michigan State Housing Development Authority, “Helping Michigan’s Hardest
      Hit Homeowners,” no date, www.michigan.gov/mshda/0,1607,7-141--235359--,00.html, accessed 1/2/2013; Mississippi Home Corporation,
      “Mississippi Home Corporation,” no date, www.mshomecorp.com/firstpage.htm, accessed 1/2/2013; Nevada’s Hardest Hit Funds, “Nevada’s
      Hardest Hit Funds,” no date, www.nahac.org/, accessed 1/2/2013; State of New Jersey Housing and Mortgage Finance Agency, “State of New
      Jersey Housing and Mortgage Finance Agency,” no date, www.state.nj.us/dca/hmfa/, accessed 1/2/2013; NC Foreclosure Prevention Fund, “Help
      for the Hardest Hit Homeowners,” no date, www.ncforeclosureprevention.gov/, accessed 1/2/2013; Ohio.gov, “Ohio’s Foreclosure Prevention
      Effort,” no date, www.savethedream.ohio.gov/, accessed 1/2/2013; Oregon Homeownership Stabilization Initiative, “OHSI,” no date, www.
      oregonhomeownerhelp.org/, accessed 1/2/2013; Hardest Hit Fund-Rhode Island, “HHFRI,” no date, www.hhfri.org/, accessed 1/2/2013; SC
      Help, “South Carolina Homeownership and Employment Lending Program,” no date, www.scmortgagehelp.com/, accessed 1/2/2013; Tennessee
      Housing Development Agency, “THDA,” no date, www.thda.org/, accessed 1/2/2013; District of Columbia Housing Finance Agency, “District of
      Columbia Housing Finance Agency,” no date, www.dchfa.org/, accessed 1/2/2013.
263.	 Treasury, response to SIGTARP data call, 1/3/2013.
264.	 SIGTARP analysis of HFA quarterly performance reports; Treasury, response to SIGTARP data call, 1/3/2013.
265.	 SIGTARP analysis of HFA quarterly performance reports; Treasury, response to SIGTARP data call, 1/3/2013.
266.	 Treasury conference call, 3/19/2009.
267.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
268.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
269.	 Treasury, Security Purchase Agreement Standard Terms, 4/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-
      programs/cpp/Documents/spa.pdf, accessed 1/11/2013.
270.	 Treasury, “TARP Capital Purchase Program (Non-Public QFIs, excluding S Corps and Mutual Organizations),” 7/22/2012, www.treasury.
      gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/Term%20Sheet%20-%20Private%20C%20Corporations.pdf,
      accessed 1/2/2013.
271.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
272.	 Treasury, response to SIGTARP data call, 1/9/2013.
273.	 Treasury, response to SIGTARP data call, 1/9/2013; Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/1-2-13%20Transactions%20Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
274.	 Treasury, response to SIGTARP data call, 1/10/2013; Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/1-2-13%20Transactions%20Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
275.	 Treasury, response to SIGTARP data call, 1/9/2013; Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/1-2-13%20Transactions%20Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
276.	 Treasury, response to SIGTARP data call, 1/9/2013; Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/1-2-13%20Transactions%20Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
277.	 Treasury, Section 105(a) Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
      Monthly%20Report%20to%20Congress.pdf, accessed 1/10/2013; Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/
      financial-stability/reports/Documents/1-2-13%20Transactions%20Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013;
      Treasury, response to SIGTARP data call, 1/10/2013.
278.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
279.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
      Dividends%20Interest%20Report.pdf, accessed 1/10/2013.
280.	 Treasury, response to SIGTARP data call 1/10/2013; Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-
      stability/reports/Documents/December%202012%20Dividends%20Interest%20Report.pdf, accessed 1/10/2013.
281.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/2/2013.
282.	 Treasury, response to SIGTARP data call, 1/10/2013; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
      no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20
      Fact%20Sheet.pdf, accessed 1/2/2013.
283.	 Treasury, response to SIGTARP data call, 1/10/2013; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
      no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20
      Fact%20Sheet.pdf, accessed 1/2/2013.
212            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      284.	 Treasury, “Frequently Asked Questions: Capital Purchase Program (CPP) – Related to Missed Dividend (or Interest) Payments and Director
            Nomination,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20
            FAQs.pdf, accessed 1/2/2013.
      285.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/2/2013.
      286.	 Treasury, responses to SIGTARP data call, 1/10/2011, 4/6/2011, 7/11/2011, 10/5/2011, 1/17/2012, 4/5/2012, 7/5/2012, 10/4/2012, and
            1/10/2013.
      287.	 Treasury, response to SIGTARP data call, 1/10/2013.
      288.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/2/2013.
      289.	 Treasury, response to SIGTARP data call, 1/9/2013.
      290.	 Treasury, response to SIGTARP data call, 1/9/2013.
      291.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2013.
      292.	 Treasury, response to SIGTARP data call, 1/9/2013.
      293.	 Treasury, response to SIGTARP data call, 1/9/2013.
      294.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2013.
      295.	 Treasury, response to SIGTARP data call, 1/9/2013.
      296.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2013.
      297.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/2/2013.
      298.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/2/2013.
      299.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/2/2013.
      300.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/2/2013.
      301.	 Treasury, response to SIGTARP data call, 1/10/2013.
      302.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2013.
      303.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2013.
      304.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2013.
      305.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2013.
      306.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2013.
      307.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2013.
      308.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
            Dividends%20Interest%20Report.pdf, accessed 1/10/2013.
      309.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      310.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      311.	 FDIC, “SmartBank, Pigeon Forge, Tennessee, Assumes All of the Deposits of GulfSouth Private Bank, Destin, Florida,” 10/19/2012, www.fdic.
            gov/news/news/press/2012/pr12118.html, accessed 12/13/2012.
      312.	 FDIC, “SmartBank, Pigeon Forge, Tennessee, Assumes All of the Deposits of GulfSouth Private Bank, Destin, Florida,” 10/19/2012, www.fdic.
            gov/news/news/press/2012/pr12118.html, accessed 12/13/2012.
      313.	 Treasury, response to SIGTARP data call, 1/10/2013.
      314.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      315.	 FDIC, “Simmons First National Bank, Pine Bluff, Arkansas, Assumes All of the Deposits of Excel Bank, Sedalia, Missouri,” 10/19/2012, www.
            fdic.gov/news/news/press/2012/pr12120.html, accessed 12/13/2012.
      316.	 FDIC, “Simmons First National Bank, Pine Bluff, Arkansas, Assumes All of the Deposits of Excel Bank, Sedalia, Missouri,” 10/19/2012, www.
            fdic.gov/news/news/press/2012/pr12120.html, accessed 12/13/2012.
      317.	 Treasury, response to SIGTARP data call, 1/10/2013.
      318.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      319.	 FDIC, “Heartland Bank and Trust Company, Bloomington, Illinois, Assumes All of the Deposits of Citizens First National Bank, Princeton,
            Illinois,” 11/2/2012, www.fdic.gov/news/news/press/2012/pr12128.html, accessed 12/13/2012.
      320.	 FDIC, “Heartland Bank and Trust Company, Bloomington, Illinois, Assumes All of the Deposits of Citizens First National Bank, Princeton,
            Illinois,” 11/2/2012, www.fdic.gov/news/news/press/2012/pr12128.html, accessed 12/13/2012.
                                                                                         QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013              213


321.	 Treasury, response to SIGTARP data call, 1/10/2013.
322.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
323.	 Bloomberg, “First Place Financial Corp. Files Bankruptcy in Delaware,” 10/29/2012, accessed 1/17/2013.
324.	 Treasury, response to SIGTARP data call, 1/18/2013.
325.	 Treasury conference call, 3/19/2010; Treasury, response to SIGTARP data call, 1/10/2013.
326.	 Treasury conference call, 3/19/2010.
327.	 Treasury, response to SIGTARP draft report, 1/14/2012.
328.	 Treasury conference call, 3/19/2010.
329.	 Treasury conference call, 3/19/2010.
330.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
331.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
332.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
333.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
334.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
335.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
336.	 Treasury, response to SIGTARP data call, 1/22/2013.
337.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
338.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
339.	 Treasury, response to SIGTARP data call, 1/22/2013.
340.	 Treasury, “Treasury Department Announces Pricing of Public Offerings of Preferred Stock in Six Financial Institutions,” 3/29/2012, www.
      treasury.gov/press-center/press-releases/Pages/tg1513.aspx, accessed 1/2/2013.
341.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
342.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
343.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
344.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
345.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
346.	 SNL Financial LLC data.
347.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
348.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2010, www.whitehouse.gov/the-press-office/
      remarks-president-small-business-initiatives-landover-md, accessed 1/2/2013.
349.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
350.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
351.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 2.
352.	 Treasury, response to SIGTARP data call, 10/5/2011.
353.	 Treasury, response to SIGTARP data call, 10/5/2011.
354.	 Treasury, “Glossary,” no date, www.treasury.gov/initiatives/financial-stability/glossary/Pages/default.aspx, accessed 1/2/2013.
355.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
      TARP%20Warrants%20Report%20Aug2011.pdf, accessed 1/2/2013.
356.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/2/2013.
357.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/2/2013.
358.	 Treasury, response to SIGTARP data call, 1/11/2013.
359.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/2/2013.
360.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
      TARP%20Warrants%20Report%20Aug2011.pdf, accessed 1/2/2013; Treasury, response to SIGTARP data call, 1/11/2013.
361.	 Treasury, response to SIGTARP data call, 1/11/2013.
362.	 Treasury, response to SIGTARP data call, 1/11/2013.
214            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      363.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/2/2013.
      364.	 Treasury, response to SIGTARP data call, 1/11/2013.
      365.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
            www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 1/2/2013.
      366.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
            www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 1/2/2013.
      367.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
            www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 1/2/2013.
      368.	 Treasury, response to SIGTARP data call, 1/11/2013.
      369.	 Treasury, response to SIGTARP data call, 1/11/2013; Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/1-2-13%20Transactions%20Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      370.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1365.aspx, accessed 1/2/2013.
      371.	 Treasury conference call, 11/10/2011.
      372.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1365.aspx, accessed 1/2/2013.
      373.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2009, www.whitehouse.gov/the-press-office/
            remarks-president-small-business-initiatives-landover-md, accessed 1/2/2013.
      374.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/
            cdci/Pages/faqs.aspx, accessed 1/2/2013; Treasury, Section 105(a) Report, 3/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-
            room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed 1/4/2013; Treasury Press Release, “Treasury Announces
            Special Financial Stabilization Initiative Investments of $570 Million in Community Development Financial Institutions in Underserved Areas,”
            9/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg885.aspx, accessed 1/2/2013.
      375.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 1/4/2013.
      376.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
            investment-programs/cdci/Pages/default.aspx, accessed 1/2/2013.
      377.	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community
            Development Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20
            Release%209-30-10.pdf, accessed 1/2/2013.
      378.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      379.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      380.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
            Dividends%20Interest%20Report.pdf, accessed 1/14/2013.
      381.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
            Dividends%20Interest%20Report.pdf, accessed 1/14/2013.
      382.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/2/2013.
      383.	 Treasury, “Application Guidelines for TARP Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/
            programs/investment-programs/cdci/Documents/Bank20Thrift20CDCI20Application20Updated20Form.pdf, accessed 1/2/2013.
      384.	 Treasury, “Community Development Capital Initiative CDFI Credit Unions Senior Securities - Term Sheet,” no date, www.treasury.gov/
            initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20Credit20Union20Term20Sheet20042610.pdf, accessed
            1/2/2013; Treasury, “Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities - Term Sheet,” no date,
            www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20S20Corp20Term20Sheet.pdf, accessed
            1/2/2013.
      385.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/2/2013.
      386.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/2/2013.
      387.	 Department of Treasury Budget in Brief FY 2010, no date, p. 72, www.treasury.gov/about/budget-performance/budget-in-brief/Documents/
            FY2010BIB-Complete.pdf, accessed 1/2/2013.
      388.	 Treasury, response to SIGTARP data call, 10/8/2010.
      389.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
            9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 1/15/2013.
      390.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
            9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 1/15/2013; Treasury, Daily TARP Update, 1/2/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%2001.02.2013.pdf, accessed 1/15/2013.
      391.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
            9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 1/15/2013.
      392.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
            9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 1/15/2013; FRBNY, “Summary of Maiden Lane II LLC Waterfall
            Allocation,” 5/29/2012, http://newyorkfed.org/markets/maidenlane/xls/MLIItransactiondata.xls, accessed 1/17/2013; FRBNY, “Summary of
            Maiden Lane III LLC Waterfall Allocation,” 11/23/2012, http://newyorkfed.org/markets/maidenlane/xls/MLIIItransactiondata.xls, accessed
            1/17/2013.
                                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013                215


393.	 Treasury, Daily TARP Update, 1/2/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      01.02.2013.pdf, accessed 1/15/2013.
394.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 1/15/2013; FRBNY, “Summary of Maiden Lane II LLC Waterfall
      Allocation,” 5/29/2012, http://newyorkfed.org/markets/maidenlane/xls/MLIItransactiondata.xls, accessed 1/17/2013; FRBNY, “Summary of
      Maiden Lane III LLC Waterfall Allocation,” 11/23/2012, http://newyorkfed.org/markets/maidenlane/xls/MLIIItransactiondata.xls, accessed
      1/17/2013.
395.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
396.	 FRBNY, “CREDIT AGREEMENT dated as of September 22, 2008, between AMERICAN INTERNATIONAL GROUP, INC., as Borrower and
      FEDERAL RESERVE BANK OF NEW YORK, as Lender,” 9/22/2008, www.newyorkfed.org/aboutthefed/aig/pdf/original_credit_agreement.
      pdf, accessed 1/2/2013; AIG, 10-K, 2/26/2010, www.sec.gov/Archives/edgar/data/5272/000104746910001465/a2196553z10-k.htm, accessed
      1/2/2013.
397.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_
      Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 1/2/2013.
398.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_
      Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 1/2/2013.
399.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_
      Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 1/2/2013.
400.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/2/2013.
401.	 Treasury, Section 105(a) Report, 12/5/2008, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARPfirst-
      105report.pdf, accessed 1/2/2013.
402.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/2/2013.
403.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013; Treasury, “Securities Exchange Agreement,” 4/17/2009, www.treasury.
      gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Documents/Series.E.Securities.Exchange.Agreement.pdf, accessed 1/2/2013;
      Treasury, “Securities Purchase Agreement,” 4/17/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/
      Documents/Series.F.Securities.Purchase.Agreement.pdf, accessed 1/2/2013.
404.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/2/2013.
405.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/2/2013.
406.	 AIG Press Release, “AIG Announces Pricing of Sale of Ordinary Shares of AIA Group Limited,” 3/5/2012, http://phx.corporate-ir.net/External.Fi
      le?item=UGFyZW50SUQ9MTI5ODQ3fENoaWxkSUQ9LTF8VHlwZT0z&t=1, accessed 1/2/2013.
407.	 Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011,
      www.treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 1/2/2013; AIG, 8-K 3/1/2011, www.sec.gov/Archives/edgar/
      data/5272/000095012311021398/y90008ae8vk.htm, accessed 1/2/2013.
408.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 1/2/2013.
409.	 Treasury, response to SIGTARP data call, 4/5/2012.
410.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 1/2/2013; AIG, 8-K, 12/8/2010,
      www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 1/2/2013; AIG, 10-Q, 11/5/2010, www.sec.gov/
      Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 1/2/2013.
411.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 1/2/2013.
412.	 Treasury Press Release, “Treasury Receives Payment From Its Final Sale of AIG Common Stock, Bringing Positive Return on Overall AIG
      Commitment to $22.7 Billion,” 12/14/2012, www.treasury.gov/press-center/press-releases/Pages/tg1805.aspx, accessed 1/2/2013.
413.	 Treasury Press Release, “Treasury Receives Payment From Its Final Sale of AIG Common Stock, Bringing Positive Return on Overall AIG
      Commitment to $22.7 Billion,” 12/14/2012, www.treasury.gov/press-center/press-releases/Pages/tg1805.aspx, accessed 1/2/2013.
414.	 Treasury, Daily TARP Update, 1/2/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      01.02.2013.pdf, accessed 1/3/2013.
415.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 1/15/2013.
416.	 Treasury Press Release, “Treasury Receives Payment From Its Final Sale of AIG Common Stock, Bringing Positive Return on Overall AIG
      Commitment to $22.7 Billion,” 12/14/2012, www.treasury.gov/press-center/press-releases/Pages/tg1805.aspx, accessed 1/2/2013.
417.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 1/2/2013.
418.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane II LLC Securities; Approximately $2.8 Billion Net Gain Generated for U.S. Public
      From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120228.html, accessed 1/2/2013.
419.	 FRBNY, “Maiden Lane II Bid List Offering (FRBNY),” no date, www.newyorkfed.org/markets/MLII/maidenlane.cfm?showMore=1, accessed
      1/2/2013; FRBNY, response to SIGTARP data call, 4/12/2012.
420.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane II LLC Securities; Approximately $2.8 Billion Net Gain Generated for U.S. Public
      From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120228.html, accessed 1/2/2013.
421.	 FRBNY, response to SIGTARP data call, 1/11/2012; Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 12/27/2012, www.
      federalreserve.gov/releases/h41/, accessed 1/11/2013.
422.	 FRBNY, “Maiden Lane III LLC Securities Offerings,” no date, www.newyorkfed.org/markets/sec_offerings_recent.html, accessed 1/2/2013;
      FRBNY, response to SIGTARP data call 1/3/2013; FRBNY, “New York Fed Sells Remainder of Maiden Lane III LLC Securities; Marks End of
      AIG-Related Assistance; Approximately $6.6 Billion Net Gain Generated for U.S. Public from the Portfolio,” 8/23/2012, www.newyorkfed.org/
      newsevents/news/markets/2012/an120823.html, accessed 1/2/2013.
423.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane III LLC Securities; Marks End of AIG-Related Assistance; Approximately $6.6 Billion
      Net Gain Generated for U.S. Public from the Portfolio,” 8/23/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120823.html,
      accessed 1/2/2013.
216            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      424.	 FRBNY, response to SIGTARP data call, 1/11/2012; Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 12/27/2012, www.
            federalreserve.gov/releases/h41/, accessed 1/11/2013.
      425.	 FRBNY, response to SIGTARP Data Call, 1/3/2013; FRBNY, Transaction Data, 11/23/2012, http://newyorkfed.org/markets/maidenlane.
            html#periodicreleases3, accessed 1/9/2013.
      426.	 FRBNY, response to SIGTARP Data Call, 1/3/2013; FRBNY, Transaction Data, 11/23/2012, http://newyorkfed.org/markets/maidenlane.
            html#periodicreleases3, accessed 1/9/2013.
      427.	 Treasury, “Securities Purchase Agreement,” 12/29/2008, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/
            Documents_Contracts_Agreements/Citigroup_12312008.pdf, accessed 1/2/2013; Treasury, “Securities Purchase Agreement,” 1/15/2009, www.
            treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/Documents_Contracts_Agreements/BAC%20III%20Binder.pdf,
            accessed 1/2/2013.
      428.	 Treasury, “Guidelines for Targeted Investment Program,” 1/2/2009, www.treasury.gov/press-center/press-releases/Pages/hp1338.aspx, accessed
            1/2/2013.
      429.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December%20105(a)_final_1-11-10.pdf, accessed 1/17/2013.
      430.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      431.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      432.	 Treasury, “Exchange Agreement,” 6/9/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/Citigroup%20Exchange%20Agreement.pdf, accessed 1/2/2013; Citigroup, 424(b)(7), 1/24/2011, www.sec.gov/Archives/edgar/
            data/831001/000095012311004665/y89177b7e424b7.htm, accessed 1/2/2013.
      433.	 Citigroup, 8-K, 1/16/2009, www.sec.gov/Archives/edgar/data/831001/000095010309000098/dp12291_8k.htm, accessed 1/2/2013.
      434.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
            Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 1/2/2013.
      435.	 Treasury, “Citigroup Termination Agreement,” 12/23/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/Citi%20AGP%20Termination%20Agreement%20-%20Fully%20Executed%20Version.pdf, accessed 1/2/2013.
      436.	 Treasury, “Treasury Announces Public Offering of Citigroup AGP Trups,” 9/29/2010, www.treasury.gov/press-center/press-releases/Pages/tg876.
            aspx, accessed 1/2/2013.
      437.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
            Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 1/2/2013.
      438.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      439.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December%20105(a)_final_1-11-10.pdf, accessed 1/17/2013.
      440.	 Bank of America, 8-K, 9/22/2009, www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 1/2/2013.
      441.	 Bank of America, “Termination Agreement,” 9/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/BofA%20-%20Termination%20Agreement%20-%20executed.pdf, accessed 1/2/2013.
      442.	 Federal Reserve, Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 1/2/2013.
      443.	 FRBNY, response to SIGTARP data call, 1/3/2013.
      444.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates; 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
            com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 1/2/2013; AllianceBernstein Press Release, “AllianceBernstein
            Liquidates Public-Private Investment Partnership at an 18.7% Internal Rate of Return for Treasury,” 10/9/2012, www.prnewswire.com/news-
            releases/alliancebernstein-liquidates-public-private-investment-partnership-at-an-187-internal-rate-of-return-for-treasury-173285451.html,
            accessed 1/7/2013; RLJ Western Press Release, “RLJ Western Asset Management Liquidates Public Private Investment Partnership At A 23.9%
            Internal Rate of Return for Treasury,” 11/20/2012, www.prnewswire.com/news-releases/rlj-western-asset-management-liquidates-public-private-
            investment-partnership-at-a-239-internal-rate-of-return-for-treasury-180138341.html, accessed 1/7/2013; BlackRock Press Release, “BlackRock
            Liquidates Public-Private Investment Partnership at a 23.5% Internal Rate of Return to Treasury,” 12/5/2012, http://www2.blackrock.com/
            content/groups/global/documents/literature/blk_ppip.pdf, accessed 1/7/2013.
      445.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      446.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      447.	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),”
            11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 1/2/2013.
      448.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
            accessed 1/2/2013.
      449.	 Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” March 2010, www.federalreserve.gov/monetarypolicy/clbs_
            lendingfacilities_201003.htm, accessed 1/2/2013.
      450.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      451.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 1/2/2013.
      452.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
            accessed 1/2/2013.
      453.	 Federal Reserve Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 1/2/2013.
      454.	 FRBNY, response to SIGTARP data call, 1/3/2013.
      455.	 FRBNY, response to SIGTARP data call, 1/3/2013.
                                                                                        QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013                217


456.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 1/2/2013.
457.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 1/2/2013.
458.	 FRBNY, response to SIGTARP data call, 1/3/2013.
459.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 1/2/2013.
460.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 1/2/2013.
461.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 1/2/2013.
462.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 1/2/2013.
463.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 1/2/2013; Federal Reserve, Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,
      December 2009, www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 1/2/2013.
464.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 1/2/2013.
465.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 1/2/2013.
466.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 1/2/2013.
467.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 1/2/2013.
468.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
469.	 FRBNY, response to SIGTARP data call, 1/3/2013.
470.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 1/2/2013;
      FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed
      1/2/2013.
471.	 FRBNY, response to SIGTARP data call, 1/3/2013.
472.	 FRBNY, response to SIGTARP data call, 1/3/2013.
473.	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm,
      accessed 1/2/2013.
474.	 FRBNY, response to SIGTARP data call, 1/3/2013.
475.	 OFS, FRBNY, response to SIGTARP draft report, 4/9/2009; Federal Reserve, response to SIGTARP draft report, 4/7/2011.
476.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009 among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
      States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
      Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/talf/Documents/SPV-Sec-Agt.pdf,
      accessed 1/2/2013; Federal Reserve, response to SIGTARP draft report, 7/9/2010.
477.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 7/1/2010, www.federalreserve.gov/releases/h41/20100701, note 8, accessed
      1/2/2013.
478.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009, among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
      States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
      Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/talf/Documents/SPV-Sec-Agt.pdf,
      accessed 1/2/2013.
479.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 12/27/2012, www.federalreserve.gov/releases/h41/Current/, accessed 1/2/2013;
      Federal Reserve, response to SIGTARP draft report, 4/8/2010.
480.	 FRBNY, response to SIGTARP data call, 1/3/2013.
481.	 Federal Reserve, response to SIGTARP draft report, 4/8/2010.
482.	 Treasury, “Public-Private Investment Program,” 3/23/2009, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.
      pdf, accessed 1/2/2013.
483.	 Treasury Press Release, “Treasury Department Provides Updated Guidance,” 4/6/2009, www.treasury.gov/press-center/press-releases/Pages/tg82.
      aspx, accessed 1/2/2013.
484.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
485.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 1/2/2013.
486.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 1/2/2013.
487.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/
      ppip/Pages/purpose-and-overview.aspx, accessed 1/2/2013.
488.	 PPIP fund managers’ monthly reports for December 2012 submitted to Treasury and SIGTARP, 1/15/2013.
489.	 PPIP fund managers’ monthly reports for December 2012 submitted to Treasury and SIGTARP, 1/15/2013.
490.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 1/2/2013.
218            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      491.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 1/2/2013; Treasury, “Amended and Restated
            Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/
            Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 1/2/2013.
      492.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 1/2/2013.
      493.	 Treasury, “Legacy Securities Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/ppip/
            Pages/Program-Status.aspx, accessed 1/2/2013.
      494.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.treasury.
            gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 1/2/2013.
      495.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      496.	 Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indicative Terms and Conditions,” no date, www.treasury.
            gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/S-PPIP_LOI_Term-Sheets.pdf, accessed
            1/2/2013.
      497.	 Treasury, response to SIGTARP data call, 1/16/2013.
      498.	 Treasury, response to SIGTARP data call, 1/16/2013.
      499.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      500.	 Treasury, response to SIGTARP data call, 1/16/2013.
      501.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      502.	 Treasury, response to SIGTARP data call, 1/16/2013.
      503.	 BlackRock press release, “BlackRock Liquidates Public-Private Investment Partnership at a 23.5% Internal Rate of Return to Treasury,”
            12/5/2012, http://finance.yahoo.com/news/blackrock-liquidates-public-private-investment-194500728.html, accessed 1/2/2013.
      504.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/10/2013; BlackRock press release, “BlackRock Liquidates Public-Private
            Investment Partnership at a 23.5% Internal Rate of Return to Treasury,” 12/5/2012, http://finance.yahoo.com/news/blackrock-liquidates-public-
            private-investment-194500728.html, accessed 1/2/2013.
      505.	 Treasury, response to SIGTARP data call, 1/3/2013.
      506.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      507.	 Treasury, response to SIGTARP data call, 1/16/2013
      508.	 AllianceBernstein L.P. Press Release, “AllianceBernstein Liquidates Public-Private Investment Partnership at an 18.7% Internal Rate of Return
            for Treasury,” 10/9/2012, www.alliancebernstein.com/abcom/Our_Firm/Investor_Media/news/releases.htm, accessed 1/2/2013.
      509.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      510.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      511.	 Treasury, response to SIGTARP data call, 1/16/2013.
      512.	 RLJ Western press release, “RLJ Western Asset Management Liquidates Public Private Investment Partnership At A 23.9% Internal Rate of
            Return for Treasury,” 11/20/2012, www.prnewswire.com/news-releases/rlj-western-asset-management-liquidates-public-private-investment-
            partnership-at-a-239-internal-rate-of-return-for-treasury-180138341.html#, accessed 1/2/2013.
      513.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/10/2013.
      514.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of RLJ Western Asset
            Public/Private Master Fund, L.P., 12/31/2012, Authentication No. 0107881, File No. 4735099.
      515.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of RLJ Western Asset
            Public/Private Master Fund, L.P., 12/31/2012, Authentication No. 0107881, File No. 4735099.
      516.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates, 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
            com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 1/2/2013.
      517.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      518.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of Invesco Legacy
            Securities Master Fund, L.P., 10/3/2012, Authentication No. 9893096, File No. 4722688.
      519.	 Treasury, response to SIGTARP data call, 10/4/2012.
      520.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.pdf,
            accessed 1/2/2013.
      521.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended September 30, 2012,” 10/17/2012, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/External%20Report%20-%2009-12%20vFinal.pdf, accessed 1/2/2013.
      522.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended September 30, 2012,” 10/17/2012, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/External%20Report%20-%2009-12%20vFinal.pdf, accessed 1/2/2013.
      523.	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, www.gpo.gov/fdsys/pkg/CPRT-
            111JPRT51601/pdf/CPRT-111JPRT51601.pdf, accessed 1/2/2013.
      524.	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/tg58.aspx,
            accessed 1/3/2013; SBA, “Q&A for Small Business Owners,” no date, www.sbaonline.sba.gov/idc/groups/public/documents/sba_homepage/
            recovery_act_faqs.pdf, accessed 1/3/2013.
                                                                                         QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013                219


525.	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
      www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20Purchase%20Agreement%20
      (Execution%20Version).pdf, accessed 1/3/2013; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued
      by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/
      Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).pdf,
      accessed 1/3/2013.
526.	 Treasury Press Release, “Treasury Announces Sale of Six SBA 7(a) Securities,” 6/8/2011, www.treasury.gov/press-center/press-releases/Pages/
      tg1203.aspx, accessed 1/3/2013; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA
      Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20
      Purchase%20Agreement%20(Execution%20Version).pdf, accessed 1/3/2013; Treasury, “Master Purchase Agreement for SBA Pooled Certificates
      and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-
      programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20
      MPA%20(73485877_2).pdf, accessed 1/3/2013.
527.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
528.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
529.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
      Dividends%20Interest%20Report.pdf, accessed 1/14/2013.
530.	 Treasury, Auto Industry, no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/automotive-programs/pages/default.aspx,
      accessed 1/2/2013.
531.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
532.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
533.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 1/17/2013.
534.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
535.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
536.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013; Treasury, “Office of Financial Stability: Agency Financial Report
      - Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2010%20
      OFS%20AFR%20Nov%2015.pdf, accessed 1/2/2013.
537.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013; Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/
      initiatives/financial-stability/reports/Documents/December%202012%20Dividends%20Interest%20Report.pdf, accessed 1/14/2013.
538.	 Treasury Press Release, “Treasury Announces Intent to Fully Exit GM Investment Within the Next 12-15 Months,” 12/19/2012, www.treasury.
      gov/press-center/press-releases/Pages/tg1810.aspx, accessed 1/2/2013; Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/
      financial-stability/reports/Documents/1-2-13%20Transactions%20Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
539.	 Treasury, “Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011,” 11/30/2011, www.
      treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 1/2/2013.
540.	 Treasury Press Release, “Treasury Commences Plan to Sell General Motors Common Stock,” 1/18/2013, www.treasury.gov/press-center/press-
      releases/Pages/tg1826.aspx, accessed 1/21/2013.
541.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
542.	 Treasury, “Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011,” 11/30/2011, www.
      treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, p. 76, accessed
      1/2/2013.
543.	 Treasury, “Automotive Industry Financing Program,” 9/4/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/
      Pages/autoprogram.aspx, accessed 4/2/2012; Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/
      Documents/1-2-13%20Transactions%20Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
544.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
545.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
546.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
      Dividends%20Interest%20Report.pdf, accessed 1/14/2013.
547.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
548.	 General Motors Company, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 1/2/2013.
549.	 Department of Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011, 11/30/2011,
      www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed
      1/2/2013.
550.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
      Dividends%20Interest%20Report.pdf, accessed 1/14/2013.
220            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      551.	 General Motors Company, 10-Q, 8/16/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510189968/d10q.htm, accessed 1/2/2013.
      552.	 General Motors Company, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 1/2/2013.
      553.	 General Motors Company, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 1/2/2013;
            Treasury Press Release, “Taxpayers Receive Additional $1.8 Billion in Proceeds from GM IPO: Exercise of Over-allotment Option Brings
            Total Taxpayer Proceeds from GM IPO to $13.5 Billion,” 12/2/2010, www.treasury.gov/press-center/press-releases/Pages/tg992.aspx, accessed
            1/2/2013. GM Press Release, “General Motors Company Prices Public Offering of Common and Preferred Stock,” 11/17/2010, http://media.
            gm.com/content/media/be/de/opel/news.detail.html/content/Pages/news/be/de/2010/OPEL/1117_pricing_eu.html , accessed 1/2/2013.
      554.	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
            www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 1/2/2013.
      555.	 General Motors Company, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 1/2/2013.
      556.	 Treasury Press Release, “Treasury Announces Intent to Fully Exit GM Investment Within the Next 12-15 Months,” 12/19/2012, www.treasury.
            gov/press-center/press-releases/Pages/tg1810.aspx, accessed 1/2/2013.
      557.	 General Motors Company Form 8-K, 12/20/2012, www.sec.gov/Archives/edgar/data/1467858/000146785812000082/0001467858-12-000082-
            index.htm, accessed 12/21/2012; Treasury, Stockholders Agreement, 10/15/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
            automotive-programs/Documents/GM%20Corporate%20Docs.pdf, accessed 1/9/2013; Treasury, Second Amended and Restated Secured Credit
            Agreement, 8/12/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/automotive-programs/Documents/General%20Motors%20
            Company%20Loan%20Documents%20%20(post-July%2010,%202009).pdf, accessed 1/9/2013.
      558.	 GM Press Release, “GM to Buy Back Stock from U.S. Treasury Department,” 12/19/2012, http://media.gm.com/media/us/en/gm/news.detail.
            html/content/Pages/news/us/en/2012/Dec/1219_gm-ust-stock.html, accessed 1/2/2013.
      559.	 Treasury Press Release, “Treasury Commences Plan to Sell General Motors Common Stock,” 1/18/2013, www.treasury.gov/press-center/press-
            releases/Pages/tg1826.aspx, accessed 1/21/2013.
      560.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      561.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      562.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 1/2/2013.
      563.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
            aspx, accessed 1/2/2013.
      564.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      565.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      566.	 Congressional Oversight Panel, “January Oversight Report: An Update on TARP Support for the Domestic Auto Industry,” 1/13/2011, www.
            gpo.gov/fdsys/pkg/CHRG-112shrg63381/pdf/CHRG-112shrg63381.pdf, accessed 1/2/2013; Treasury, Transactions Report, 12/28/2012, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20Report%20as%20of%2012-28-12_INVESTMENT.pdf,
            accessed 1/3/2013.
      567.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
            Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
      568.	 Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
            http://media.chrysler.com/newsrelease.do;jsessionid=4FB3EE642102E222D6CEAC20ADF7C090?&id=10922&mid=1, accessed 1/2/2013;
            Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
            aspx, accessed 1/2/2013.
      569.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
            aspx, accessed 1/2/2013.
      570.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
            aspx, accessed 1/2/2013.
      571.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” www.treasury.gov/press-center/press-releases/Pages/tg1253.aspx,
            7/21/2011, accessed 1/2/2013.
      572.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
            Dividends%20Interest%20Report.pdf, accessed 1/14/2013.
      573.	 Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202012%20
            Dividends%20Interest%20Report.pdf, accessed 1/14/2013.
      574.	 Ally Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 1/2/2013.
      575.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 1/2/2013.
      576.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 1/2/2013.
      577.	 Ally Financial, 8-K, 5/22/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 1/2/2013; Treasury, Section
            105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20
            Report_final.pdf, accessed 1/2/2013.
      578.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 1/2/2013.
      579.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 1/2/2013.
      580.	 Ally Financial, 8-K, 5/3/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 1/2/2013.
      581.	 Treasury Press Release, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
            center/press-releases/Pages/tg1014.aspx, accessed 1/2/2013.
                                                                                            QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013                  221


582.	 Treasury Press Release, “Treasury Announces Public Offering of Ally Financial Inc. TruPs,” 3/1/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1081.aspx, accessed 1/2/2013.
583.	 Ally Financial, 8-K, 12/30/2010, www.sec.gov/Archives/edgar/data/40729/000119312510291571/d8k.htm, accessed 1/2/2013; Ally Financial,
      Amended and Restated Governance Agreement, 5/21/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/dex102.htm,
      accessed 1/2/2013.
584.	 Treasury Press Release, “Treasury Names Appointees to Ally Board of Directors,” 8/15/2012, www.treasury.gov/press-center/press-releases/Pages/
      tg1682.aspx, accessed 1/2/2013.
585.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
      htm, accessed 1/2/2013.
586.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
      Public Offering,” 3/31/2011, http://media.ally.com/index.php?s=43&item=453, accessed 1/2/2013.
587.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
      htm, accessed 1/2/2013.
588.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
      htm, accessed 1/2/2013.
589.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
      Public Offering,” 3/31/2011, http://media.ally.com/index.php?s=43&item=453, accessed 1/2/2013.
590.	 SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, http://edgar.brand.edgar-online.com/EFX_dll/
      EDGARpro.dll?FetchFilingHTML1?ID=7940925&SessionID=u1r1FjMCVRNlLm7, accessed 1/2/2013; SEC, “Ally Financial, Inc.: Amendment
      No. 2 to Form S-1 Registration Statement,” 6/3/2011, http://edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID
      =7978010&SessionID=yWV1FqvBONn9GA7, accessed 1/2/2013; SEC, “Ally Financial, Inc.: Amendment No. 3 to Form S-1 Registration
      Statement,” 6/28/2011, www.sec.gov/Archives/edgar/data/40729/000119312511175943/ds1a.htm, accessed 1/2/2013; SEC, “Ally Financial,
      Inc.: Amendment No. 4 to Form S-1 Registration Statement,” 8/18/2011, www.sec.gov/Archives/edgar/data/40729/000119312511226269/
      ds1a.htm, accessed 1/2/2013; SEC, “Ally Financial Inc.: Amendment No. 5 to Form S-1 Registration Statement,” 12/2/2011, www.sec.gov/
      Archives/edgar/data/40729/000119312511328749/d167661ds1a.htm, accessed 1/2/2013; SEC, “Ally Financial Inc.: Amendment No. 6 to
      Form S-1 Registration Statement,” 4/12/2012, www.sec.gov/Archives/edgar/data/40729/000119312512159940/d167661ds1a.htm, accessed
      1/2/2013; SEC, “Ally Financial, Inc.: Amendment No. 7 to Form S-1 Registration Statement,” 10/5/2012, www.sec.gov/Archives/edgar/
      data/40729/000119312512416511/d388008ds1a.htm, accessed 1/2/2013.
591.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
592.	 Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
      Treasury,” 5/14/2012, http://media.ally.com/index.php?s=43&item=543, accessed 1/2/2013.
593.	 Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
      Treasury,” 5/14/2012, http://media.ally.com/index.php?s=43&item=543, accessed 1/2/2013; Ally Financial, 10-Q, 8/3/2012, www.sec.gov/
      Archives/edgar/data/40729/000004072912000020/gjm2012063010q.htm, accessed 1/2/2013.
594.	 Ally Press Release, “Ally Financial Announces Agreement to Sell Remaining International Operations,” 11/21/2012, http://media.ally.com/2012-
      11-21-Ally-Financial-Announces-Agreement-to-Sell-Remaining-International-Operations, accessed 1/2/2013.
595.	 Ally Press Release, “Ally Financial Announces Agreement to Sell Canadian operations,” 10/23/2012, http://media.ally.com/2012-10-23-Ally-
      Financial-Announces-Agreement-to-Sell-Canadian-Operations, accessed 1/2/2013; Ally Press Release, “Ally Financial Announces Agreement
      to Sell Mexican Insurance Business,” 10/18/2012, http://media.ally.com/2012-10-18-Ally-Financial-Announces-Agreement-to-Sell-Mexican-
      Insurance-Business, accessed 1/2/2013.
596.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013; Treasury, Dividends and Interest Report, 1/10/2013, www.treasury.gov/
      initiatives/financial-stability/reports/Documents/December%202012%20Dividends%20Interest%20Report.pdf, accessed 1/14/2013.
597.	 Amendment Number Four to Loan and Security Agreement dated as of January 2, 2009 between CGI Holding LLC and the United States
      Department of the Treasury, 7/23/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/Documents_
      Contracts_Agreements/Chrysler%20LSA%20as%20of%2005-26-10.pdf, accessed 1/2/2013; Treasury, Transactions Report, 12/28/2012, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20Report%20as%20of%2012-28-12_INVESTMENT.pdf,
      accessed 1/3/2013.
598.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
599.	 TD Bank Press Release, “TD Bank Group to acquire Chrysler Financial,” 12/21/2010, https://mediaroom.tdbank.com/index.
      php?s=30379&item=94198, accessed 1/2/2013.
600.	 TD Auto Finance LLC, 8-K, 4/5/2011, www.sec.gov/Archives/edgar/data/1337471/000095012311032930/0000950123-11-032930-index.
      htm, accessed 1/9/2013. Banking Business Review, “TD Bank closes acquisition of Chrysler Financial,” 4/1/2010, http://retailbanking.banking-
      business-review.com/news/td-bank-closes-acquisition-of-chrysler-financial-040411, accessed 1/5/2013.
601.	 Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/
      tg64.aspx, accessed 1/2/2013.
602.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013; Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/
      initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20Report_final.pdf, accessed 1/2/2013.
603.	 Treasury, “Office of Financial Stability: Agency Financial Report - Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/2/2013.
604.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
605.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013.
222            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      606.	 Office of Management and Budget, “OMB Report under the Emergency Economic Stabilization Act, Section 202,” 8/31/2012, www.whitehouse.
            gov/sites/default/files/omb/reports/tarp_report_august_2012.pdf, p. 4, accessed 11/29/2012.
      607.	 GM Heritage Center, “General Motors Acceptance Corporation,” history.gmheritagecenter.com/wiki/index.php/General_Motors_Acceptance_
            Corporation_(GMAC), accessed 11/26/2012.
      608.	 Congressional Oversight Panel, “The Unique Treatment of GMAC Under the TARP,” 3/10/2010, p. 8, cybercemetery.unt.edu/archive/
            cop/20110402042135/http://cop.senate.gov/documents/cop-031110-report.pdf, accessed 12/4/2012.
      609.	 GMAC, 10-K, 2/27/2008, p. 20, www.sec.gov/Archives/edgar/data/40729/000095012408000900/k23730e10vk.htm, accessed 1/8/2013.
      610.	 GMAC, 10-K, 3/16/2005, p. 7, www.sec.gov/Archives/edgar/data/40729/000095012405001563/k91417e10vk.htm, accessed 1/3/2013.
      611.	 GMAC, 10-K, 2/27/2008, p. 2, www.sec.gov/Archives/edgar/data/40729/000095012408000900/0000950124-08-000900-index.htm, accessed
            1/15/2013.
      612.	 GMAC, 10-K, 3/28/2006, p. 18, www.sec.gov/Archives/edgar/data/40729/000095012406001524/k01870e10vk.htm, accessed 1/8/2013.
      613.	 GM, 10-K, 3/28/2006, www.sec.gov/Archives/edgar/data/40730/000095012406001534/k03376e10vk.htm, p. II-3, accessed 1/10/2013.
      614.	 Inside Mortgage Finance Publications, Inc., The 2009 Mortgage Market Statistical Annual.
      615.	 GMAC, 10-K, 2/27/2008, p. 1, www.sec.gov/Archives/edgar/data/40729/000095012408000900/k23730e10vk.htm, accessed 12/31/2012; GM
            Press Release, “GM Reaches Agreement to Sell Controlling Stake in GMAC,” 4/3/2006, archives.media.gm.com/archive/documents/domain_3/
            docId_24800_pr.html, accessed 11/26/2012; GM Press Release, “GM Completes the Sale of a Controlling Interest in GMAC,” 11/30/2006,
            archives.media.gm.com/archive/documents/domain_3/docId_30932_pr.html, accessed 11/26/2012.
      616.	 GMAC, 10-K, 2/27/2008, www.sec.gov/Archives/edgar/data/40729/000095012408000900/0000950124-08-000900-index.htm, accessed
            12/6/2012; GMAC, 10-K, 3/13/2007, www.sec.gov/Archives/edgar/data/40729/000095012407001471/0000950124-07-001471-index.htm,
            accessed 12/6/2012.
      617.	 GMAC, 10-K, 2/27/2008, p. 22, www.sec.gov/Archives/edgar/data/40729/000095012408000900/k23730e10vk.htm, accessed 12/31/2012.
      618.	 GMAC. 10-K, 2/27/2008, p. 2, www.sec.gov/Archives/edgar/data/40729/000095012408000900/0000950124-08-000900-index.htm, accessed
            12/31/2012.
      619.	 GMAC Press Release, “GMAC Financial Services Reports Preliminary Third Quarter 2008 Financial Results,” 11/5/2008, http://media.ally.com/
            index.php?s=43&item=286, accessed 1/15/2008; GMAC, 10-Q, 11/10/2008, www.sec.gov/Archives/edgar/data/40729/000095015208009024/
            g46784e10vq.htm, p. 50, accessed 1/15/2013.
      620.	 GMAC Press Release, “GMAC Financial Services and ResCap Announce Further Streamlining of Mortgage Operation,” 9/3/2008, media.ally.
            com/index.php?s=43&item=273, accessed 1/15/2013.
      621.	 GMAC Press Release, “GMAC Financial Services Reports Preliminary Third Quarter 2008 Financial Results,” 11/5/2008.
      622.	 GMAC, 10-K, 2/27/2009, p. 27 and p. 73, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm, accessed 1/4/2013;
            GMAC, 10-K, 2/27/2008, p. 20, www.sec.gov/Archives/edgar/data/40729/000095012408000900/k23730e10vk.htm, accessed 1/8/2013.
      623.	 GMAC. 10-K, 2/27/2009, pp. 29-30, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm, accessed 1/4/2013.
      624.	 GMAC Press Release, “GMAC to Expand Retail Auto Financing,” 12/30/2008, media.ally.com/index.php?s=43&item=300, accessed 1/8/2013.
      625.	 GMAC Press Release, “GMAC Files Application With Federal Reserve to Become Bank Holding Company,” 11/20/2008, media.ally.com/index.
            php?s=43&item=288, accessed 11/30/2012.
      626.	 GMAC Press Release, “GMAC Files Application With Federal Reserve to Become Bank Holding Company,” 11/20/2008, media.ally.com/index.
            php?s=43&item=288, accessed 11/30/2012.
      627.	 GMAC Press Release, “GMAC Announces That the Results of Its Exchange Offers are Insufficient to Meet Regulatory Capital Requirements
            To Become a Bank Holding Company, 12/20/2008, media.ally.com/index.php?s=43&item=293&printable, accessed 11/30/2012; FRB, “Applying
            Supervisory Guidance and Regulations on the Payment of Dividends, Stock Redemptions, and Stock Repurchases at Bank Holding Companies,”
            revised 3/27/2009, www.federalreserve.gov/boarddocs/srletters/2009/SR0904.pdf, accessed 12/6/2012.
      628.	 Wall Street Journal, “GMAC Bondholders Balk at Debt Swap,” 12/11/2008, online.wsj.com/article/SB122891574162094585.html, accessed
            12/3/2012; New York Times DealBook, “GMAC’s Bondholders Near Key Deadline,” 12/24/2008, dealbook.nytimes.com/2008/12/24/gmacs-
            bondholders-near-crucial-deadline/, accessed 1/4/2013; Bloomberg, “GMAC Swap Remains Short of Goal as Pimco Holds Out (Update 1),”
            12/18/2008, www.bloomberg.com/apps/news?pid=newsarchive&sid=adlTWMv.To_U&refer=news, accessed 1/4/2013.
      629.	 White House, “Fact Sheet: Financing Assistance to Facilitate the Restructuring of Auto Manufacturers to Attain Financial Viability,”
            12/19/2008, georgewbush-whitehouse.archives.gov/news/releases/2008/12/20081219-6.html, accessed 12/7/2012.
      630.	 White House, “Fact Sheet: Financing Assistance to Facilitate the Restructuring of Auto Manufacturers to Attain Financial Viability,”
            12/19/2008, georgewbush-whitehouse.archives.gov/news/releases/2008/12/20081219-6.html, accessed 12/7/2012.
      631.	 FRB, “Order Approving Formation of Bank Holding Companies and Notice to Engage in Certain Nonbanking Activities,” 12/24/2008, www.
            federalreserve.gov/newsevents/press/orders/orders20081224a1.pdf, accessed 11/30/2012.
      632.	 SIGTARP, Initial Report to Congress, 2/6/2009, p. 78, www.sigtarp.gov/Quarterly%20Reports/SIGTARP_Initial_Report_to_the_Congress.pdf,
            accessed 11/30/2012.
      633.	 SIGTARP, Initial Report to Congress, 2/6/2009, p. 78, www.sigtarp.gov/Quarterly%20Reports/SIGTARP_Initial_Report_to_the_Congress.pdf,
            accessed 12/3/2012.
      634.	 Congressional Oversight Panel, Testimony of Ron Bloom, senior advisor to the Treasury Secretary, 2/25/2010, Note 9 on p. 4, cybercemetery.
            unt.edu/archive/cop/20110402012152/http://cop.senate.gov/documents/transcript-022510-gmac.pdf, accessed 12/7/2012.
      635.	 SIGTARP, Quarterly Report to Congress, 7/21/2009, p. 112, www.sigtarp.gov/Quarterly%20Reports/July2009_Quarterly_Report_to_Congress.
            pdf, accessed 11/30/2012.
      636.	 Rattner, Steven, Overhaul: An Insider’s Account of the Obama Administration’s Emergency Rescue of the Auto Industry, Houghton Mifflin
            Harcourt, 2010, p. 145.
      637.	 Rattner, Steven, Overhaul: An Insider’s Account of the Obama Administration’s Emergency Rescue of the Auto Industry, Houghton Mifflin
            Harcourt, 2010, p. 145.
      638.	 William C. Dudley, Federal Reserve Bank of New York, “U.S. Experience with Bank Stress Tests,” www.newyorkfed.org/newsevents/
            speeches/2011/dud110627.html, accessed 12/11/2012.
                                                                                       QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013               223


639.	 Fact Sheet, “Obama Administration New Path to Viability for GM & Chrysler,” 3/30/2009, www.whitehouse.gov/assets/documents/Fact_Sheet_
      GM_Chrysler.pdf, accessed 1/14/2013.
640.	 Rattner, Steven, Overhaul: An Insider’s Account of the Obama Administration’s Emergency Rescue of the Auto Industry, Houghton Mifflin
      Harcourt, 2010, p. 147.
641.	 Rattner, Steven, Overhaul: An Insider’s Account of the Obama Administration’s Emergency Rescue of the Auto Industry, Houghton Mifflin
      Harcourt, 2010, p. 147.
642.	 Rattner, Steven, Overhaul: An Insider’s Account of the Obama Administration’s Emergency Rescue of the Auto Industry, Houghton Mifflin
      Harcourt, 2010, p. 147.
643.	 GMAC Press Release, “GMAC Financial Services Enters Agreement to Provide Financing for Chrysler Dealers and Customers,” 4/30/2009,
      media.gmacfs.com/index.php?s=43&item=324, accessed 12/4/2012.
644.	 GMAC, 10-Q, 5/11/2009, p. 3, www.sec.gov/Archives/edgar/data/40729/000119312509105735/d10q.htm, accessed 1/4/2013; Ally
      Press Release, “GMAC Financial Services Reports Preliminary First Quarter 2009 Financial Results,” 5/5/2009, media.ally.com/index.
      php?s=43&item=326, accessed 12/4/2012.
645.	 FRB, “The Supervisory Capital Assessment Program: Overview of Results,” 5/7/2009, Figure 8 on p. 14, www.federalreserve.gov/newsevents/
      press/bcreg/bcreg20090507a1.pdf, accessed 12/4/2012.
646.	 FRB, “The Supervisory Capital Assessment Program: Overview of Results,” 5/7/2009, www.federalreserve.gov/newsevents/press/bcreg/
      bcreg20090507a1.pdf, accessed 12/4/2012; Ally Press Release, “GMAC Financial Services Confirms Capital Requirements Resulting from the
      Supervisory Capital Assessment Program,” 5/7/2009, media.ally.com/index.php?s=43&item=327, accessed 12/4/2012.
647.	 Treasury, Transactions Report, 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/1-2-13%20Transactions%20
      Report%20as%20of%2012-28-12_INVESTMENT.pdf, accessed 1/3/2013; Treasury Press Release, “Treasury Announces Additional Investment
      in GMAC LLC,” 5/21/2009, www.treasury.gov/press-center/press-releases/Pages/tg154.aspx, accessed 12/4/2012; Treasury, Office of Financial
      Stability Auto Team, SIGTARP interview, 6/1/2009.
648.	 Treasury Press Release, “Treasury Announces Additional Investment in GMAC LLC,” 5/21/2009, www.treasury.gov/press-center/press-releases/
      Pages/tg154.aspx, accessed 12/4/2012.
649.	 Treasury Press Release, “Treasury Announces Additional Investment in GMAC LLC,” 5/21/2009, www.treasury.gov/press-center/
      press-releases/Pages/tg154.aspx, accessed 12/4/2012; Ally, S-1 Amendment No. 7, 10/5/2012, p. 55, www.sec.gov/Archives/edgar/
      data/40729/000119312512416511/0001193125-12-416511-index.htm, accessed 12/7/2012.
650.	 GMAC Press Release, “GMAC Financial Services Announces Key Capital and Liquidity Actions,” 5/21/2009, http://media.ally.com/index.
      php?s=43&item=331, accessed 12/4/2012; Ally paid back the FDIC TLGP debt in October 2012, and December 2012. Ally Press Release, “Ally
      Financial Repays Remaining $4.5 billion of Debt Issued Under TLGP,” 12/19/2012.
651.	 Treasury Press Release, “Treasury Announcement Regarding the Capital Assistance Program,” 11/9/2009, www.treasury.gov/press-center/press-
      releases/Pages/tg359.aspx, accessed 1/22/2013; Federal Reserve, Press Release, untitled, 11/9/2009, www.federalreserve.gov/newsevents/press/
      bcreg/20091109a.htm, accessed 1/22/2013.
652.	 Treasury Press Release, “Treasury Announces Restructuring of Commitment to GMAC,” 12/30/2009, www.treasury.gov/press-center/press-
      releases/Pages/tg501.aspx, accessed 12/5/2012.
653.	 Congressional Oversight Panel, hearing transcript, “GMAC Financial Services and the Troubled Asset Relief Program,” 2/25/2010, p. 59,
      cybercemetery.unt.edu/archive/cop/20110402012152/http://cop.senate.gov/documents/transcript-022510-gmac.pdf, accessed 12/6/2012; Ally
      press release, “Ally Financial Statement on New Corporate Brand,” 5/10/2010, media.ally.com/index.php?s=43&item=401, accessed 12/6/2012.
654.	 Treasury Press Release, “Treasury Converts Nearly Half of its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
      center/press-releases/Pages/tg1014.aspx, accessed 12/6/2012; Ally, S-1 Amendment No. 7, 10/5/2012, p. 56, www.sec.gov/Archives/edgar/
      data/40729/000119312512416511/0001193125-12-416511-index.htm, accessed 12/7/2012.
655.	 Treasury Press Release, “Treasury Converts Nearly Half of its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
      center/press-releases/Pages/tg1014.aspx, accessed 12/6/2012.
656.	 Ally, 10-Q, 11/2/2012, www.sec.gov/Archives/edgar/data/40729/000004072912000026/gjm2012093010q.htm, accessed 1/7/2013; Ally Press
      Release, “Ally Financial Reports Preliminary Third Quarter 2012 Financial Results,” 11/2/2012, media.ally.com/2012-11-02-Ally-Financial-
      Reports-Preliminary-Third-Quarter-2012-Financial-Results, accessed 1/7/2013.
657.	 Ally Press Release, “Ally Financial Repays Remaining $4.5 Billion of Debt Issued Under TLGP,” 12/19/2012, media.ally.com/2012-12-19-Ally-
      Financial-Repays-Remaining-4.5-Billion-of-Debt-Issued-Under-TLGP, accessed 1/7/2013.
658.	 Ally, 10-Q, 11/2/2012, p. 12, www.sec.gov/Archives/edgar/data/40729/000004072912000026/gjm2012093010q.htm, accessed 1/7/2013.
659.	 GM Press Release, “GM to Acquire AmeriCredit,” 7/22/2010, media.gm.com/media/us/en/gm/news.detail.html/content/Pages/news/us/en/2010/
      July/0722_americredit.html, accessed 1/7/2013.
660.	 Ally, 10-K, 2/28/2012, p. 47, www.sec.gov/Archives/edgar/data/40729/000004072912000011/gjm2011123110k.htm, accessed 1/7/2013.
661.	 Fitch Ratings, “Fitch: Ally’s Potential Sale of International Units to GM May Offer Benefits,” 8/14/2012, www.businesswire.com/news/
      home/20120814006512/en/Fitch-Allys-Potential-Sale-International-Units-GM, accessed 1/7/2013.
662.	 Ally Press Release, “Ally Financial Announces Agreement to Sell Remaining International Operations,” 11/21/2012, media.ally.com/2012-11-21-
      Ally-Financial-Announces-Agreement-to-Sell-Remaining-International-Operations, accessed 1/7/2013.
663.	 Fitch Ratings, “Fitch: Ally’s Potential Sale of International Units to GM May Offer Benefits,” 8/14/2012, www.businesswire.com/news/
      home/20120814006512/en/Fitch-Allys-Potential-Sale-International-Units-GM, accessed 1/7/2013.
664.	 Experian Auto, “State of the Automotive Finance Market – Third Quarter 2012,” 12/4/2012.
665.	 Ally, S-1 Amendment No. 7, 10/5/2012, p. 3, www.sec.gov/Archives/edgar/data/40729/000119312512416511/0001193125-12-416511-index.
      htm, accessed 12/10/2012.
666.	 Ally, S-1 Amendment No. 7, 10/5/2012, p. 3, www.sec.gov/Archives/edgar/data/40729/000119312512416511/0001193125-12-416511-index.
      htm, accessed 12/10/2012.
667.	 Ally, S-1A, 10/5/2012, p. 50, www.sec.gov/Archives/edgar/data/40729/000119312512416511/d388008ds1a.htm, accessed 12/17/2012.
668.	 Capital Auto Receivables Asset Trust 2013-1, Final Prospectus Supplement, 1/11/2013, www.sec.gov/Archives/edgar/
      data/893958/000119312513016032/d464836d424b5.htm, accessed 1/24/2013; Moody’s Investors Service, Press Release, “Moody’s
224              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



               assigns provisional ratings to Capital Auto Receivables Asset Trust 2013-1,” 1/18/2013, www.moodys.com/researchdocumentcontentpage.
               aspx?docid=PBS_SF314075, accessed 1/24/2013.
      669.	    GM, “2009-2014 Restructuring Plan,” 2/17/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/automotive-programs/
               Documents/GMRestructuringPlan.pdf, accessed 12/5/2012; Chrysler’s separate plan was released the same day, “Chrysler Restructuring Plan
               for Long-Term Viability,” www.media.chrysler.com/dcxms/assets/attachments/Chrysler_Restructuring_Plan_Summary.pdf, accessed 12/5/2012.
      670.		   In re: Motors Liquidation Company, U.S. Bankruptcy Court for the Southern District of New York, Case No. 09-50026, Voluntary Petition for
               Chapter 11, www.motorsliquidationdocket.com/pdflib/01_50026.pdf, accessed 1/14/2013.
      671.	    FRB, “Order Approving Formation of Bank Holding Companies and Notice to Engage in Certain Nonbanking Activities,” 12/24/2008, www.
               federalreserve.gov/newsevents/press/orders/orders20081224a1.pdf, accessed 11/30/2012.
      672.	    Treasury, comments to SIGTARP vetting draft, 1/15/2013.
      673.	    SIGTARP, “Exiting TARP: Repayments by the Largest Financial Institutions,” 9/29/2011, www.sigtarp.gov/Audit%20Reports/Exiting_TARP_
               Repayments_by_the_Largest_Financial_Institutions.pdf, accessed 1/15/2013.
      674.	    FRB, “Order Approving Formation of Bank Holding Companies and Notice to Engage in Certain Nonbanking Activities,” 12/24/2008, www.
               federalreserve.gov/newsevents/press/orders/orders20081224a1.pdf, accessed 11/30/2012.
      675.	    FRB, “Order Approving Formation of Bank Holding Companies and Notice to Engage in Certain Nonbanking Activities,” 12/24/2008, www.
               federalreserve.gov/newsevents/press/orders/orders20081224a1.pdf, accessed 11/30/2012; Congressional Oversight Panel, “The Unique
               Treatment of GMAC Under the TARP,” March 10, 2010, p. 28, cybercemetery.unt.edu/archive/cop/20110402042135/http://cop.senate.gov/
               documents/cop-031110-report.pdf, accessed 12/4/2012.
      676.	    FRB, “Order Approving Formation of Bank Holding Companies and Notice to Engage in Certain Nonbanking Activities,” 12/24/2008, www.
               federalreserve.gov/newsevents/press/orders/orders20081224a1.pdf, accessed 11/30/2012.
      677.	    GMAC Press Release, “GMAC Announces Interim Changes to Its Board,” 1/9/2009, media.ally.com/index.php?s=43&item=302, accessed
               12/4/2012.
      678.	    SIGTARP, “SIGTARP Survey Demonstrates That Banks Can Provide Meaningful Information on Their Use of TARP Funds,” 7/20/2009, www.
               sigtarp.gov/Audit%20Reports/SIGTARP_Survey_Demonstrates_That_Banks_Can_Provide_Meaningfu_%20Information_On_Their_Use_Of_
               TARP_Funds.pdf, accessed 1/15/2013; SIGTARP, “Additional Insight on Use of Troubled Asset Relief Program Funds,” 12/10/2009, www.
               sigtarp.gov/Audit%20Reports/Additional_Insight_on_Use_of_Troubled_Asset_Relief_Program_Funds.pdf, accessed 1/15/2013.
      679.	    GMAC, 10-K, 3/1/2010, p. 127, www.sec.gov/Archives/edgar/data/40729/000119312510043252/d10k.htm, accessed 1/15/2013.
      680.	    GMAC Press Release, “GMAC Financial Services Announces Key Capital and Strategic Actions,” 12/30/2009, http://media.ally.com/index.
               php?s=43&item=377, accessed 12/5/2012.
      681.	    Congressional Oversight Panel, “The Unique Treatment of GMAC Under the TARP,” 3/10/2010, p. 41, http://cybercemetery.unt.edu/archive/
               cop/20110402042135/http://cop.senate.gov/documents/cop-031110-report.pdf, accessed 11/26/2012.
      682.	    Congressional Oversight Panel, hearing transcript, “GMAC Financial Services and the Troubled Asset Relief Program,” 2/25/2010, p. 54, http://
               cybercemetery.unt.edu/archive/cop/20110402012152/http://cop.senate.gov/documents/transcript-022510-gmac.pdf, accessed 12/7/2012.
      683.	    Ally, 10-K, 2/28/2012, www.sec.gov/Archives/edgar/data/40729/000004072912000011/gjm2011123110k.htm, accessed 12/05/2012; Ally, 10-K,
               2/25/2011, www.sec.gov/Archives/edgar/data/40729/000119312511047688/0001193125-11-047688-index.htm, accessed 12/6/2012; GMAC,
               10-K, 3/1/2010, www.sec.gov/Archives/edgar/data/40729/000119312510043252/0001193125-10-043252-index.htm, accessed 12/6/2012;
               GMAC, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/0001193125-09-039567-index.htm, accessed
               12/6/2012; GMAC, 10-K, 2/27/2008, www.sec.gov/Archives/edgar/data/40729/000095012408000900/0000950124-08-000900-index.htm,
               accessed 12/6/2012; Ally Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to
               Repay U.S. Treasury,” 5/14/2012, media.ally.com/index.php?s=43&item=543, accessed 1/8/2013; Ally, 10-Q, 8/3/2012, p. 10, www.sec.gov/
               Archives/edgar/data/40729/000004072912000020/gjm2012063010q.htm, accessed 1/8/2013.
      684.	    Ally, 10-K, 2/28/2012, www.sec.gov/Archives/edgar/data/40729/000004072912000011/gjm2011123110k.htm, accessed 12/05/2012; Ally,
               10-K, 2/25/2011, www.sec.gov/Archives/edgar/data/40729/000119312511047688/0001193125-11-047688-index.htm, accessed 12/6/2012;
               GMAC, 10-K, 3/1/2010, www.sec.gov/Archives/edgar/data/40729/000119312510043252/0001193125-10-043252-index.htm, accessed
               12/6/2012; GMAC, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/0001193125-09-039567-index.htm,
               accessed 12/6/2012; GMAC, 10-K, 2/27/2008, www.sec.gov/Archives/edgar/data/40729/000095012408000900/0000950124-08-000900-index.
               htm, accessed 12/6/2012; Ally, 10-Q, 8/3/2012, p. 10, www.sec.gov/Archives/edgar/data/40729/000004072912000020/gjm2012063010q.htm,
               accessed 1/8/2013.
      685.	    FRB Press Release, untitled, 3/18/2011, www.federalreserve.gov/newsevents/press/bcreg/20110318a.htm, accessed 12/6/2012; Ally, 10-K,
               2/25/2011, p. 13, www.sec.gov/Archives/edgar/data/40729/000119312511047688/d10k.htm, accessed 12/7/2012.
      686.	    Testimony of Thomas Marano, chief executive of Ally mortgage operations, U.S. House Subcommittee on Housing and Community Opportunity
               hearing, “Robo-Signing, Chain of Title, Loss Mitigation, and Other Issues in Mortgage Servicing,” 11/18/2010, www.gpo.gov/fdsys/pkg/
               CHRG-111hhrg63124/pdf/CHRG-111hhrg63124.pdf, accessed 1/8/2013; Ally Press Release, “GMAC Mortgage Provides Update on Mortgage
               Servicing Process,” 9/24/2010, media.ally.com/index.php?s=43&item=417, accessed 12/6/2012.
      687.	    Ally Press Release, “GMAC Mortgage Statement on Independent Review and Foreclosure Sales,” 10/12/2010, media.ally.com/index.
               php?s=43&item=421, accessed 12/6/2012.
      688.	    Ally Consent Order issued by FRB, 4/13/2011, federalreserve.gov/newsevents/press/enforcement/enf20110413a3.pdf, accessed 1/4/2013; FRB
               press release, untitled, 4/13/2011, federalreserve.gov/newsevents/press/enforcement/20110413a.htm, accessed 12/7/2012; FRB press release,
               untitled, 2/9/2012, www.federalreserve.gov/newsevents/press/enforcement/20120209a.htm, accessed 1/4/2013; FRB Order of Assessment of a
               Civil Money Penalty, 4/13/2012, www.federalreserve.gov/newsevents/press/enforcement/enf20120213a1.pdf, accessed 1/4/2013.
      689.	    Consent Judgment filed in U.S. District Court for the District of Columbia, case 12-cv-00361, 4/4/2012, d9klfgibkcquc.cloudfront.net/
               Consent_Judgment_Ally-4-11-12.pdf, Exhibit F, accessed 1/4/2013; National Mortgage Settlement, “Fact Sheet: Mortgage Servicing
               Settlement,” undated, d9klfgibkcquc.cloudfront.net/Mortgage_Servicing_Settlement_Fact_Sheet.pdf, accessed 12/13/2012.
      690.	    FRB Press Release, untitled, 3/13/2012, www.federalreserve.gov/newsevents/press/bcreg/20120313a.htm, accessed 12/9/2012.
      691.	    FRB, “Comprehensive Capital Analysis and Review 2012: Methodology and Results for Stress Scenario Projections,” 3/13/2012, www.
               federalreserve.gov/newsevents/press/bcreg/bcreg20120313a1.pdf, accessed 12/11/2012.
                                                                                         QUARTERLY REPORT TO CONGRESS I JANUARY 30, 2013                225


692.	 FRB, “Comprehensive Capital Analysis and Review 2012: Methodology and Results for Stress Scenario Projections,” 3/13/2012, www.
       federalreserve.gov/newsevents/press/bcreg/bcreg20120313a1.pdf, accessed 12/11/2012.
693.	 Ally Press Release, “Ally Financial Statement on the Federal Reserve’s Comprehensive Capital Analysis and Review,” 3/13/2012, http://media.
       ally.com/index.php?s=43&item=527, accessed 12/10/2012.
694.	 Moody’s Analytics, “Residential Capital LLC,” 5/22/2012, accessed 12/5/2012.
695.	 GMAC Press Release, “GMAC Financial Services Announces Key Capital and Strategic Actions,” 12/30/2009, media.ally.com/index.
       php?s=43&item=377, accessed 12/5/2012; Reuters, “GMAC sees $5 billion Q4 loss after latest bailout,” 1/5/2010, www.reuters.com/
       article/2010/01/05/gmac-idUSN0511068420100105, accessed 12/5/2012.
696.		 In re: Residential Capital, LLC, U.S. Bankruptcy Court for the Southern District of New York, Case No. 12-12020, “Order Further Extending
       the Exclusive Periods During Which Only the Debtors May File a Chapter 11 Plan and Solicit Acceptances Thereof,” 12/20/2012, www.
       kccllc.net/documents/1212020/1212020121220000000000016.pdf, accessed 1/8/2013; Ally, 10-Q, 11/2/2012, www.sec.gov/Archives/edgar/
       data/40729/000004072912000026/gjm2012093010q.htm, accessed 1/7/2013.
697.	 Ally, S-1, 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/0001193125-11-084175-index.htm3/3102011, accessed
       12/6/2012.
698.	 Treasury, “Treasury Notes,” last updated 9/13/2012, www.treasury.gov/initiatives/financial-stability/news-room/news/Pages/Putting-Taxpayers-in-
       a-Stronger-Position-to-Continue-Recovering-Their-Investment-in-Ally-Financial.aspx, accessed 12/6/2012.
699.	 Treasury, comments to SIGTARP vetting draft, 1/15/2013.
700.	 Ally, 10-Q, 11/2/2012, p. 5, www.sec.gov/Archives/edgar/data/40729/000004072912000026/gjm2012093010q.htm, accessed 1/4/2013.
701.		 In re: Residential Capital, LLC, U.S. Bankruptcy Court for the Southern District of New York, Case No. 12-12020, Statement of Wilmington
       Trust, N.A. to Debtors’ Motion for a Supplemental Order, 11/26/2012, www.kccllc.net/documents/1212020/1212020121126000000000015.
       pdf, accessed 12/31/2012.
702.	 Timothy Geithner, “Hearing Before the Congressional Oversight Panel,” 12/10/2010, cybercemetery.unt.edu/archive/cop/20110402013346/
       http://cop.senate.gov/documents/transcript-121610-geithner.pdf, accessed 12/14/2012.
703.	 Ally, 10-Q, 11/2/2012, p. 4, www.sec.gov/Archives/edgar/data/40729/000004072912000026/gjm2012093010q.htm, accessed 12/11/2012.
704.	 Congressional Oversight Panel, “An Update on TARP Support for the Domestic Automotive Industry,” 1/13/2011, p. 87, cybercemetery.unt.edu/
       archive/cop/20110402010325/http://cop.senate.gov/documents/cop-011311-report.pdf, accessed 1/8/2013.
705.	 FRB Press Release, 11/9/2012, www.federalreserve.gov/newsevents/press/bcreg/20121109b.htm, accessed 12/10/2012; FRB, “Comprehensive
       Capital Analysis and Review 2013 Summary Instructions and Guidance,” 11/9/2012, www.federalreserve.gov/newsevents/press/bcreg/
       bcreg20121109b1.pdf, accessed 12/14/2012.
706.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
707.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
708.	 Treasury, response to SIGTARP data call, 1/9/2013.
709.	 Treasury, response to SIGTARP data call, 1/4/2013.
710.	 Treasury, response to SIGTARP data call, 1/4/2013.
711.	 Treasury, response to SIGTARP data call, 1/4/2013.
712.	 Congressional Oversight Panel, “Examining Treasury’s Use of Financial Crisis Contracting Authority,” 10/14/2010, http://cybercemetery.unt.edu/
       archive/cop/20110402010440/http://cop.senate.gov/documents/cop-101410-report.pdf, accessed 1/4/2013.
226           APPENDIX A I GLOSSARY I JANUARY 30, 2013




      GLOSSARY
      This appendix provides a glossary of terms that are used in the context of this report.

      7(a) Loan Program: SBA loan program guaranteeing                   Credit Default Swap (“CDS”): A contract where the seller
      a percentage of loans for small businesses that cannot             receives payments from the buyer in return for agreeing to
      otherwise obtain conventional loans at reasonable terms.           pay the buyer when a particular credit event occurs, such
                                                                         as when the credit rating on a bond is downgraded or a
      Accredited Investors: Individuals or institutions that
                                                                         loan goes into default. The buyer does not need to own the
      by law are considered financially sophisticated enough
                                                                         asset covered by the contract, meaning the swap can serve
      so that they can invest in ventures that are exempt from
                                                                         essentially as a bet against the underlying bond or loan.
      investor protection laws. Under U.S. securities laws, these
      include many financial companies, pension plans, wealthy           Cumulative Preferred Stock: Stock requiring a defined
      individuals, and top executives or directors of the issuing        dividend payment. If the company does not pay the dividend
      companies.                                                         on schedule, it still owes the missed dividend to the stock’s
                                                                         owner.
      Asset-Backed Securities (“ABS”): Bonds backed by a
      portfolio of consumer or corporate loans (e.g., credit card,       CUSIP number (“CUSIP”): Unique identifying number
      auto, or small-business loans). Financial companies typically      assigned to all registered securities in the United States
      issue ABS backed by existing loans in order to fund new loans      and Canada; the name originated with the Committee on
      for their customers.                                               Uniform Securities Identification Procedures.
      Auction Agent: Firm (such as an investment bank) that buys         Custodian Bank: Bank holding the collateral and managing
      a series of securities from an institution for resale.             accounts for FRBNY; for TALF the custodian is Bank of New
                                                                         York Mellon.
      Collateral: Asset pledged by a borrower to a lender until a
      loan is repaid. Generally, if the borrower defaults on the loan,   Debt: Investment in a business that is required to be paid
      the lender gains ownership of the pledged asset and may sell       back to the investor, usually with interest.
      it to satisfy the debt. In TALF, the ABS or CMBS purchased
                                                                         Deed-in-Lieu of Foreclosure: Instead of going through
      with the TALF loan is the collateral that is posted with
                                                                         foreclosure, the borrower voluntarily surrenders the deed
      FRBNY.
                                                                         to the home to the investor as satisfaction of the unpaid
      Collateralized Debt Obligation (“CDO”): A security that            mortgage balance.
      entitles the purchaser to some part of the cash flows from a
                                                                         Deficiency Judgment: Court order authorizing a lender to
      portfolio of assets such as mortgage-backed securities, bonds,
                                                                         collect all or part of an unpaid and outstanding debt resulting
      loans, or other CDOs.
                                                                         from the borrower’s default on the mortgage note securing a
      Commercial Mortgage-Backed Securities (“CMBS”):                    debt. A deficiency judgment is rendered after the foreclosed
      Bonds backed by one or more mortgages on commercial real           or repossessed property is sold when the proceeds are
      estate (e.g., office buildings, rental apartments, hotels).        insufficient to repay the full mortgage debt.
      Common Stock: Equity ownership entitling an individual to          Deobligations: An agency’s cancellation or downward
      share in corporate earnings and voting rights.                     adjustment of previously incurred obligations.
      Community Development Financial Institutions                       Due Diligence: Appropriate level of attention or care a
      (“CDFIs”): Financial institutions eligible for Treasury            reasonable person should take before entering into an
      funding to serve urban and rural low-income communities            agreement or a transaction with another party. In finance, it
      through the CDFI Fund. CDFIs were created in 1994                  often refers to the process of conducting an audit or review of
      by the Riegle Community Development and Regulatory                 the institution before initiating a transaction.
      Improvement Act. These entities must be certified by
                                                                         Dutch Auction: A type of auction in which multiple bidders
      Treasury; certification confirms that they target at least 60%
                                                                         bid for different quantities of the asset; the price the seller
      of their lending and other economic development activities to
                                                                         accepts is set at the lowest bid of the group of high bidders
      areas underserved by traditional financial institutions.
                                                                         whose collective bids fulfill the amount of shares offered. As
                                                                                         GLOSSARY I APPENDIX A I JANUARY 30, 2013    227




an example, three investors place bids to own a portion of          Illiquid Assets: Assets that cannot be quickly converted to
100 shares offered by the issuer:                                   cash.
 • Bidder A wants 50 shares at $4/share.                            Investors: Owners of mortgage loans or bonds backed by
                                                                    mortgage loans who receive interest and principal payments
 • Bidder B wants 50 shares at $3/share.
                                                                    from monthly mortgage payments. Servicers manage the cash
 • Bidder C wants 50 shares at $2/share.                            flow from borrowers’ monthly payments and distribute them
                                                                    to investors according to Pooling and Servicing Agreements
The seller selects Bidders A and B as the two highest bidders,
                                                                    (“PSAs”).
and their collective bids consume the 100 shares offered. The
winning price is $3, which is what both bidders pay per share.      Legacy Securities: Real estate-related securities originally
Bidder C’s bid is not filled. Treasury uses a modified version      issued before 2009 that remained on the balance sheets
of a Dutch Auction in the dispensation of its warrants and in       of financial institutions because of pricing difficulties that
some sales of CPP preferred stock.                                  resulted from market disruption.
Equity: Investment that represents an ownership interest in         Limited Partnership: Partnership in which there is at least
a business.                                                         one partner whose liability is limited to the amount invested
                                                                    (limited partner) and at least one partner whose liability
Equity Capital Facility: Commitment to invest equity
                                                                    extends beyond monetary investment (general partner).
capital in a firm under certain future conditions. An equity
facility when drawn down is an investment that increases            Loan Servicers: Companies that perform administrative
the provider’s ownership stake in the company. The investor         tasks on monthly mortgage payments until the loan is
may be able to recover the amount invested by selling its           repaid. These tasks include billing, tracking, and collecting
ownership stake to other investors at a later date.                 monthly payments; maintaining records of payments and
                                                                    balances; allocating and distributing payment collections to
Excess Spread: Funds left over after required payments and
                                                                    investors in accordance with each mortgage loan’s governing
other contractual obligations have been met. In TALF it is
                                                                    documentation; following up on delinquencies; and initiating
the difference between the periodic amount of interest paid
                                                                    foreclosures.
out by the collateral and the amount of interest charged by
FRBNY on the nonrecourse loan provided to the borrower to           Loan-to-Value (“LTV”) Ratio: Lending risk assessment ratio
purchase the collateral.                                            that mortgage lenders examine before approving a mortgage;
                                                                    calculated by dividing the outstanding amount of the loan
Exercise Price: Preset price at which a warrant holder
                                                                    by the value of the collateral backing the loan. Loans with
may purchase each share. For warrants in publicly traded
                                                                    high LTV ratios are generally seen as higher risk because the
institutions issued through CPP, this was based on the
                                                                    borrower has less of an equity stake in the property.
average stock price during the 20 days before the date that
Treasury granted preliminary CPP participation approval.            Mandatorily Convertible Preferred Stock (“MCP”): A type
                                                                    of preferred share (ownership in a company that generally
Government-Sponsored Enterprises (“GSEs”): Private
                                                                    entitles the owner of the shares to collect dividend payments)
corporations created and chartered by the Government to
                                                                    that can be converted to common stock under certain
reduce borrowing costs and provide liquidity in the market,
                                                                    parameters at the discretion of the company — and must be
the liabilities of which are not officially considered direct
                                                                    converted to common stock by a certain time.
taxpayer obligations. On September 7, 2008, the two largest
GSEs, the Federal National Mortgage Association (“Fannie            Nationally Recognized Statistical Rating Organization
Mae”) and the Federal Home Loan Mortgage Corporation                (“NRSRO”): Credit rating agency registered with the
(“Freddie Mac”), were placed into Federal conservatorship.          SEC. Credit rating agencies provide their opinion of the
They are currently being financially supported by the               creditworthiness of companies and the financial obligations
Government.                                                         issued by companies. The ratings distinguish between
                                                                    investment grade and non-investment grade equity and debt
Haircut: Difference between the value of the collateral and
                                                                    obligations.
the value of the loan (the loan value is less than the collateral
value).
228           APPENDIX A I GLOSSARY I JANUARY 30, 2013




      Net Present Value (“NPV”) Test: Compares the money                 risk categories. The amount in each risk category is then
      generated by modifying the terms of the mortgage with the          multiplied by a risk factor associated with that category. The
      amount an investor can reasonably expect to recover in a           sum of the resulting weighted values from each of the risk
      foreclosure sale.                                                  categories is the bank’s total risk-weighted assets.
      Non-Agency Residential Mortgage-Backed Securities                  SBA Pool Certificates: Ownership interest in a bond backed
      (“non-agency RMBS”): Financial instrument backed by                by SBA-guaranteed loans.
      a group of residential real estate mortgages (i.e., home
                                                                         Senior Preferred Stock: Shares that give the stockholder
      mortgages for residences with up to four dwelling units) not
                                                                         priority dividend and liquidation claims over junior preferred
      guaranteed or owned by a Government-sponsored enterprise
                                                                         and common stockholders.
      (“GSE”) or a Government Agency.
                                                                         Senior Subordinated Debentures: Debt instrument ranking
      Non-Cumulative Preferred Stock: Preferred stock with
                                                                         below senior debt but above equity with regard to investors’
      a defined dividend, without the obligation to pay missed
                                                                         claims on company assets or earnings.
      dividends.
                                                                         Servicing Advances: If borrowers’ payments are not made
      Non-Recourse Loan: Secured loan in which the borrower is
                                                                         promptly and in full, servicers are contractually obligated to
      relieved of the obligation to repay the loan upon surrendering
                                                                         advance the required monthly payment amount in full to the
      the collateral.
                                                                         investor. Once a borrower becomes current or the property is
      Obligations: Definite commitments that create a legal              sold or acquired through foreclosure, the servicer is repaid all
      liability for the Government to pay funds.                         advanced funds.
      Pool Assemblers: Firms authorized to create and market             Short Sale: Sale of a home for less than the unpaid mortgage
      pools of SBA-guaranteed loans.                                     balance. A borrower sells the home and the investor accepts
                                                                         the proceeds as full or partial satisfaction of the unpaid
      Preferred Stock: Equity ownership that usually pays a fixed
                                                                         mortgage balance, thus avoiding the foreclosure process.
      dividend before distributions for common stock owners but
      only after payments due to debt holders. It typically confers      Skin in the Game: Equity stake in an investment; down
      no voting rights. Preferred stock also has priority over           payment; the amount an investor can lose.
      common stock in the distribution of assets when a bankrupt
                                                                         Special Purpose Vehicle (“SPV”): A legal entity, often off-
      company is liquidated.
                                                                         balance-sheet, that holds transferred assets presumptively
      Pro Rata: Refers to dividing something among a group of            beyond the reach of the entities providing the assets, and that
      participants according to the proportionate share that each        is legally isolated from its sponsor or parent company.
      participant holds as a part of the whole.
                                                                         Subchapter S Corporations (“S corporations”): Corporate
      Qualified Institutional Buyers (“QIB”): Institutions that          form that passes corporate income, losses, deductions, and
      under U.S. securities law are permitted to buy securities that     credit through to shareholders for Federal tax purposes.
      are exempt from registration under investor protection laws        Shareholders of S corporations report the flow-through of
      and to resell those securities to other QIBs. Generally these      income and losses on their personal tax returns and are taxed
      institutions own and invest at least $100 million in securities,   at their individual income tax rates.
      or are registered broker-dealers that own or invest at least $10
                                                                         Subordinated Debentures: Form of debt security that ranks
      million in securities.
                                                                         below other loans or securities with regard to claims on assets
      Revolving Credit Facility: Line of credit for which borrowers      or earnings.
      pay a commitment fee, allowing them to repeatedly draw
                                                                         Systemically Significant Institutions: Term referring to any
      down funds up to a guaranteed maximum amount. The
                                                                         financial institution whose failure would impose significant
      amount of available credit decreases and increases as funds
                                                                         losses on creditors and counterparties, call into question the
      are borrowed and then repaid.
                                                                         financial strength of similar institutions, disrupt financial
      Risk-Weighted Assets: Risk-based measure of total assets           markets, raise borrowing costs for households and businesses,
      held by a financial institution. Assets are assigned broad         and reduce household wealth.
                                                                                                  GLOSSARY I APPENDIX A I JANUARY 30, 2013                              229




TALF Agent: Financial institution that is party to the TALF       Sources:
                                                                  Board of Governors of the Federal Reserve System, “Bank Holding Companies,” no date, www.
Master Loan and Security Agreement and that occasionally          fedpartnership.gov/bank-life-cycle/manage-transition/bank-holding-companies.cfm, accessed
acts as an agent for the borrower. TALF agents include            1/3/2013.

primary and nonprimary broker-dealers.                            Federal Reserve Board, Federal Reserve Banks Operating Circular No. 8: Collateral, www.frbservices.
                                                                  org/files/regulations/pdf/operating_circular_8.pdf, accessed 1/3/2013.

Trial Modification: Under HAMP, a period of at least three        FCIC, glossary, no date, www.fcic.gov/resource/glossary, accessed 1/3/2013.
                                                                  FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_
months in which a borrower is given a chance to establish         card_securitization/glossary.html, accessed 1/3/2013.
that he or she can make lower monthly mortgage payments           FDIC, “FDIC Law, Regulations, Related Acts,” no date, www.fdic.gov/regulations/laws/
and qualify for a permanent modification.                         rules/2000-4600.html, accessed 1/3/2013.
                                                                  FRBNY, “TALF FAQ’s,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html, accessed 1/3/2013.
Trust Preferred Securities (“TRUPS”): Securities that have        SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
                                                                  3/25/2010, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_Implementation_of_the_Home_
both equity and debt characteristics, created by establishing a   Affordable_Modification_Program.pdf, accessed 1/3/2013.
trust and issuing debt to it.                                     GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 1/2004, www.gao.gov/
                                                                  special.pubs/d06382sp.pdf, p. 7-3, accessed 1/3/2013.
Undercapitalized: Condition in which a financial institution      GAO, “Troubled Asset Relief Program Treasury Needs to Strengthen Its Decision-Making Process
does not meet its regulator’s requirements for sufficient         on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.
                                                                  pdf, accessed 1/3/2013; GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of
capital to operate under a defined level of adverse conditions.   Government Assistance Provided to AIG and Description of Recent Execution of Recapitalization
                                                                  Plan,” 1/20/2011, www.gao.gov/new.items/d1146.pdf, accessed 1/3/2013.
Underwater Mortgage: Mortgage loan on which a                     IRS, “Glossary of Offshore Terms,” no date, www.irs.gov/Businesses/Small-Businesses-&-Self-
                                                                  Employed/Abusive-Offshore-Tax-Avoidance-Schemes---Glossary-of-Offshore-Terms, accessed
homeowner owes more than the home is worth, typically as a        1/3/2013.
result of a decline in the home’s value. Underwater mortgages     Making Home Affordable base NPV model documentation v5.01, updated 10/1/2012. www.
                                                                  hmpadmin.com/portal/programs/docs/hamp_servicer/npvmodeldocumentationv501.pdf, pp. 23-24,
are also referred to as having negative equity.                   accessed 1/3/2013.
                                                                  SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, archive.sba.gov/idc/
                                                                  groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 1/3/2013.
                                                                  SEC, “NRSRO,” no date, www.sec.gov/answers/nrsro.htm, accessed 1/3/2013.
                                                                  Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
                                                                  1/3/2013.
                                                                  Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” 3/16/2009, www.treasury.gov/press-
                                                                  center/press-releases/Pages/tg58.aspx, accessed 1/3/2013.
                                                                  Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and
                                                                  Government Reform,” 10/28/2009, www.treasury.gov/press-center/press-releases/Pages/tg334.
                                                                  aspx, accessed 1/3/2013.
                                                                  Treasury, “Supplemental Directive 10-14: Making Home Affordable Program - Principal Reduction
                                                                  Alternative Update,” 10/15/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
                                                                  sd1014.pdf, accessed 1/3/2013.
                                                                  Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.
                                                                  treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 1/3/2013.
                                                                  U.S. Census Bureau, “Residential Finance Survey, Glossary Of RFS Terms And Definitions,” no date,
                                                                  www.census.gov/hhes/www/rfs/glossary.html#l, accessed 1/3/2013.
                                                                  U.S. Department of Housing and Urban Development, “Glossary,” no date, www.hud.gov/offices/hsg/
                                                                  sfh/buying/glossary.cfm, accessed 1/3/2013.
230           APPENDIX B I ACRONYMS AND ABBREVIATIONS I JANUARY 30, 2013




      ACRONYMS AND ABBREVIATIONS

                     2MP Second Lien Modification Program                        Coastal Securities Coastal Securities, Inc.
                     ABS asset-backed securities                                        Community Community Financial Shares, Inc., Glen Ellyn,
                                                                                          Financial Illinois
                  the Act Securities Act of 1933
                                                                                               COP Congressional Oversight Panel
               AG GECC AG GECC PPIF Master Fund, L.P.
                                                                                                      Countrywide Financial Corporation and
                     AGP Asset Guarantee Program                                       Countrywide
                                                                                                      Countrywide Home Loans, Inc.
                 AIA SPV AIA Aurora LLC
                                                                                               CPP Capital Purchase Program
                     AIFP Automotive Industry Financing Program
                                                                                                      CUSIP numbers; from Committee on Uniform
                                                                                            CUSIPs
                      AIG American International Group, Inc.                                          Securities Identification Procedures
                AIG Trust   AIG Credit Facility Trust                                                 Department of Education Office of Inspector
                                                                                            DE OIG
                                                                                                      General
                   ALICO American Life Insurance Company
                                                                                                      Dodd-Frank Wall Street Reform and Consumer
              ALICO SPV ALICO Holdings LLC                                         Dodd-Frank Act
                                                                                                      Protection Act
      AllianceBernstein AllianceBernstein Legacy Securities Master Fund, L.P.
                                                                                                DTI debt-to-income ratio
      Ally, Ally Financial Ally Financial Inc.
                                                                                              EESA Emergency Economic Stabilization Act of 2008
                     AMS American Mortgage Specialists
                                                                                     Eligible assets securities eligible for purchase by PPIFs
                    ASSP Auto Supplier Support Program
                                                                                           Equity
                                                                                                  Equity Bancshares, Inc., Wichita, Kansas
                   AWCP Auto Warranty Commitment Program                               Bancshares
       Bank of America Bank of America Corporation                                      Excel Bank Excel Bank, Sedalia, Missouri
              BlackRock BlackRock PPIF, L.P.                                           Fannie Mae Federal National Mortgage Association
                     BNC BNC National Bank                                                       FBI Federal Bureau of Investigation
                     BOC Bank of Commonwealth                                                  FDIC Federal Deposit Insurance Corporation
                     CAP Capital Assistance Program                                                   Federal Deposit Insurance Corporation Office of
                                                                                          FDIC OIG
                     CBO Congressional Budget Office                                                  Inspector General

                    CDCI Community Development Capital Initiative                 Federal Reserve Federal Reserve System

                     CDFI Community Development Financial Institution                           FHA Federal Housing Administration

                    CDOs collateralized debt obligations                                   FHA2LP Treasury/FHA Second-Lien Program

                     CDS Credit Default Swap                                                          Federal Housing Finance Agency Office of
                                                                                          FHFA OIG
                                                                                                      Inspector General
                     CEO chief executive officer
                                                                                                Fiat Fiat North America LLC
               Cerberus Cerberus Capital Management, L.P.
                                                                                           FirstCity FirstCity Bank
                    CFPB Consumer Financial Protection Bureau
                                                                                  First Community First Community Bancshares Inc., Wichita, Kansas
                Chrysler Chrysler Holding LLC
                                                                                        First Place
      Chrysler Financial Chrysler Financial Services Americas LLC                                   First Place Financial Corp., Warren, Ohio
                                                                                          Financial
                            Council of the Inspectors General on Integrity and          First Sound First Sound Bank, Seattle, Washington
                    CIGIE
                            Efficiency
                                                                                            FRBNY Federal Reserve Bank of New York
                Citigroup   Citigroup, Inc.
                                                                                      Freddie Mac Federal Home Loan Mortgage Corporation
           Citizens First
                          Citizens First National Bank, Princeton, Illinois                    GAO Government Accountability Office
          National Bank
                    CLTV Combined Loan-to-Value                                                 GM General Motors Company

                   CMBS commercial mortgage-backed securities                                GMAC GMAC Inc.
                                                                          ACRONYMS AND ABBREVIATIONS I APPENDIX B I JANUARY 30, 2013             231




  GM Financial General Motors Financial Company, Inc.                               OMB Office of Management and Budget
   Government U.S. Government                                               Option ARM Option Adjustable Rate Mortgage
           GSE Government-sponsored enterprise                                             Office of the Special Master for TARP Executive
                                                                                    OSM
                                                                                           Compensation
     GulfSouth GulfSouth Private Bank, Destin, Florida
                                                                                 Oxford Oxford Collection Agency, Inc.
          HAFA Home Affordable Foreclosure Alternatives program
                                                                                      PII personally identifiable information
         HAMP Home Affordable Modification Program
                                                                                    PPIF Public-Private Investment Fund
           HFA Housing Finance Agency
                                                                                    PPIP Public-Private Investment Program
           HHF Hardest Hit Fund
                                                                                    PRA Principal Reduction Alternative program
          HPDP Home Price Decline Protection program
                                                                           PremierWest PremierWest Bancorp, Medford, Oregon
           HUD Department of Housing and Urban Development
                                                                              Princeton
      Intervest   Intervest Bancshares Corporation                                      Princeton National Bancorp, Inc., Princeton, Illinois
                                                                               National
        Invesco Invesco Legacy Securities Master Fund, L.P.
                                                                                    PSA Pooling and Servicing Agreement
      Investors Investors Financial Corporation of Pettis County,
                                                                                     QIB Qualified Institutional Buyers
      Financial Inc., Sedalia, Missouri
                                                                                           Department of Agriculture’s Office of Rural
            IPO initial public offering                                               RD
                                                                                           Development
                  Internal Revenue Service Criminal Investigation
         IRS-CI                                                                            Rural Development Home Affordable Modification
                  Division                                                    RD-HAMP
                                                                                           Program
       Jobs Act Jobs Act of 2010
                                                                                ResCap Residential Capital, LLC
     JPMorgan JPMorgan Chase & Co.
                                                                                           RLJ Western Asset Public/Private Master Fund,
                                                                           RLJ Western
  Legacy Home                                                                              L.P.
               Legacy Home Loans and Real Estate
         Loans
                                                                                    RMA request for mortgage assistance
         LIBOR London Interbank Offered Rate
                                                                                  RMBS residential mortgage-backed securities
          Litton Litton Loan Servicing, LP
                                                                                           Railroad Retirement Board Office of Inspector
                                                                                RRB OIG
            LTV   loan-to-value ratio                                                      General
           M&T M&T Bank Corporation                                      S corporations subchapter S corporations
   MainSource     MainSource Financial Group                                        SBA Small Business Administration
               Marathon Legacy Securities Public-Private                           SBLF Small Business Lending Fund
      Marathon
               Investment Partnership, L.P.
                                                                                    SEC Securities and Exchange Commission
           MBS mortgage-backed securities
                                                                               Servicers loan servicers
           MCP mandatorily convertible preferred shares
                                                                      servicing advance receivables for residential mortgage servicing
           MHA Making Home Affordable program                                receivables advances
          NLHC National Legal Help Center, Inc.                          Shay Financial Shay Financial Services, Inc.
   Non-Agency Non-Agency Residential Mortgage-Backed                                       Office of the Special Inspector General for the
                                                                               SIGTARP
        RMBS Securities                                                                    Troubled Asset Relief Program
                  Northern States Financial Corporation, Waukegan,                         Special Inspector General for the Troubled Asset
Northern States                                                            SIGTARP Act
                  Illinois                                                                 Relief Program Act of 2009
           NPV net present value                                                    SNL SNL Financial, LLC
        NRSRO nationally recognized statistical rating organization                 SPA Servicer Participation Agreement
       Oaktree Oaktree PPIP Fund, L.P.                                              SPV special purpose vehicle
           OCC Office of the Comptroller of the Currency                            SSFI Systemically Significant Failing Institutions program
           OFS Office of Financial Stability                                  Standard
                                                                                       Standard Bancshares, Inc., Hickory Hills, Illinois
                                                                            Bancshares
    Old Second Old Second Bancorp, Inc., Aurora, Illinois
                                                                                Sterling Sterling Mutual LLC
232      APPENDIX B I ACRONYMS AND ABBREVIATIONS I JANUARY 30, 2013




              TALF Term Asset-Backed Securities Loan Facility
              TARP Troubled Asset Relief Program
               TCW The TCW Group, Inc.
        Tennessee
                  Tennessee Commerce Bancorp, Inc.
        Commerce
                TIP Targeted Investment Program
              TLGP Temporary Liquidity Guarantee Program
               TPP trial period plan
           Treasury Department of the Treasury
      Treasury/FHA HAMP Loan Modification Option for FHA-insured
             HAMP Mortgages
           Treasury
                    Secretary of the Treasury
          Secretary
             TRUPS trust preferred securities
               UAW United Auto Workers
              UCBH UCBH Holdings, Inc.
              UCSB Unlocking Credit for Small Businesses
                 UP Home Affordable Unemployment Program
                 VA Department of Veterans Affairs
                      Wellington Management Legacy Securities PPIF
         Wellington
                      Master Fund, LP
        Wells Fargo   Wells Fargo & Company
              WSFS WSFS Financial Corporation
                                                                                      REPORTING REQUIREMENTS I APPENDIX C I JANUARY 30, 2013            233




REPORTING REQUIREMENTS
This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
data presented in this report and prior reports. Italic style indicates narrative taken verbatim from source documents.


      EESA        EESA Reporting                                                                                                      SIGTARP
 #    Section     Requirement          Treasury Response to SIGTARP Data Call                                                         Report Section
 1    Section     A description of     Treasury’s authority to make new financial commitments under TARP ended on October 3,          Section 2:“TARP
      121(c)(A)   the categories of    2010                                                                                           Overview”
                  troubled assets      Below are program descriptions from Treasury’s www.treasury.gov/initiatives/financial-
                  purchased or                                                                                                        Appendix D:
                                       stability/Pages/default.aspx website, as of 12/31/2012:
                  otherwise procured                                                                                                  “Transaction
                  by the Treasury                                                                                                     Detail”
                  Secretary.


                                       CPP: Treasury created the Capital Purchase Program (CPP) in October 2008 to stabilize
                                       the financial system by providing capital to viable financial institutions of all sizes
                                       throughout the nation. With a strengthened capital base, financial institutions have an
                                       increased capacity to lend to U.S. businesses and consumers and to support the U.S.
                                       economy.

                                       AIG: In September of 2008, panic in the financial system was deep and widespread.
                                       Amidst these events, on Friday, September 12, American International Group (AIG)
                                       officials informed the Federal Reserve and Treasury that the company was facing
                                       potentially fatal liquidity problems. At the time, AIG was the largest provider of
                                       conventional insurance in the world, with approximately 75 million individual and corporate
                                       customers in over 130 countries.a

                                       AGP: Under the Asset Guarantee Program (AGP), Treasury acted to support the value of
                                       certain assets held by qualifying financial institutions, by agreeing to absorb unexpectedly
                                       large losses on certain assets. The program was designed for financial institutions whose
                                       failure could harm the financial system and was used in conjunction with other forms of
                                       exceptional assistance.

                                       TIP: Under the Targeted Investment Program (TIP), Treasury provided exceptional
                                       assistance on a case-by-case basis in order to stabilize institutions that were considered
                                       systemically significant to prevent broader disruption of financial markets. Treasury
                                       provided this assistance by purchasing preferred stock, and also received warrants to
                                       purchase common stock, in the institutions.

                                       TALF: This joint initiative with the Federal Reserve builds off, broadens and expands the
                                       resources available to support the consumer and business credit markets by providing
                                       the financing to private investors to help unfreeze and lower interest rates for auto,
                                       student loan, small business, credit card and other consumer and business credit. The
                                       U.S. Treasury originally committed $20 billion to provide credit protection for $200 billion
                                       of lending from the Federal Reserve. This commitment was later reduced to $4.3 billion
                                       after the program closed to new lending on June 30, 2010, with $43 billion in loans
                                       outstanding.

                                       PPIP: On March 23, 2009, the U.S. Department of the Treasury (“Treasury”), announced
                                       the Legacy Securities Public-Private Investment Program (“PPIP”) as a key component of
                                       President Obama’s Financial Stability Plan. The Financial Stability Plan outlines a broad
                                       framework to bring capital into the financial system and address the problem of legacy
                                       real estate assets.

                                       CDCI: As part of the Administration’s ongoing commitment to improving access to credit
                                       for small businesses, Treasury announced on February 3 final terms for the Community
                                       Development Capital Initiative (CDCI). This TARP program invested lower-cost capital in
                                       Community Development Financial Institutions (CDFIs) that lend to small businesses in the
                                       country’s hardest-hit communities.
234         APPENDIX C I REPORTING REQUIREMENTS I JANUARY 30, 2013




          EESA        EESA Reporting                                                                                                          SIGTARP
      #   Section     Requirement             Treasury Response to SIGTARP Data Call                                                          Report Section
                                              SBLF: Enacted into law as part of the Small Business Jobs Act of 2010 (the Jobs Act), the
                                              Small Business Lending Fund (SBLF) is a $30 billion fund that encourages lending to small
                                              businesses by providing capital to qualified community banks with assets of less than $10
                                              billion. Through the Small Business Lending Fund, Main Street banks and small businesses
                                              can work together to help create jobs and promote economic growth in local communities
                                              across the nation.

                                              UCSB: The Treasury Department will begin making direct purchases of securities backed
                                              by SBA loans to get the credit market moving again, and it will stand ready to purchase
                                              new securities to ensure that community banks and credit unions feel confident in
                                              extending new loans to local businesses.

                                              AIFP: The objective of the Automotive Industry Financing Program (AIFP) is to prevent a
                                              significant disruption of the American automotive industry, which would pose a systemic
                                              risk to financial market stability and have a negative effect on the economy of the United
                                              States.

                                              ASSP: [ASSP was created to] provide up to $5 billion in financing, giving suppliers the
                                              confidence they need to continue shipping parts, pay their employees and continue their
                                              operations.b

                                              AWCP: The Treasury Department announced an innovative new program to give
                                              consumers who are considering new car purchases the confidence that even while
                                              Chrysler and GM were restructuring in bankruptcy, their warrantees will be honored. This
                                              program is part of the Administration’s broader program to stabilize the auto industry and
                                              stand behind a restructuring effort that will result in stronger, more competitive and viable
                                              American car companies.b

                                              HAMP (a program under MHA): The Home Affordable Modification Program has a
                                              simple goal: reduce the amount homeowners owe per month to sustainable levels to
                                              stabilize communities. This program will bring together lenders, investors, servicers,
                                              borrowers and the Government, so that all stakeholders share in the cost of ensuring that
                                              responsible homeowners can afford their monthly mortgage payments -- helping to reach
                                              up to 3 to 4 million at-risk borrowers in all segments of the mortgage market, reducing
                                              foreclosures, and helping to avoid further downward pressures on overall home prices.

      2   Section     A listing of the        Treasury’s authority to make new financial commitments under TARP ended on October 3,           Appendix D:
          121(c)(B)   troubled assets         2010.                                                                                           “Transaction
                      purchased in each                                                                                                       Detail”
                      such category           Information on all transactions as well as additional information about these programs
                      described under         and related purchases is available in the transaction reports and monthly 105(a) reports
                      Section 121(c)(A).      posted at www.treasury.gov/initiatives/financial-stability/reports/Pages/reports.aspx.
                                              Information regarding all transactions through the end of December 2012 is available at
                                              the aforementioned link in a transaction report dated 12/28/2012.

      3   Section     An explanation          Treasury’s authority to make new financial commitments under TARP ended on October 3,           Section 2:
          121(c)(C)   of the reasons          2010.                                                                                           “TARP Overview”
                      the Treasury
                      Secretary deemed                                                                                                        Appendix C:
                      it necessary to                                                                                                         “Reporting
                      purchase each such                                                                                                      Requirements”
                      troubled asset.                                                                                                         of prior SIGTARP
                                                                                                                                              Congress
                                                                                                                                              Congress

      4   Section     A listing of each       See #2.                                                                                         See #2.
          121(c)(D)   financial institution
                      from which such
                      troubled assets
                      were purchased.
                                                                                                              REPORTING REQUIREMENTS I APPENDIX C I JANUARY 30, 2013                              235




        EESA               EESA Reporting                                                                                                                               SIGTARP
#       Section            Requirement                    Treasury Response to SIGTARP Data Call                                                                        Report Section
5        Section           A listing of                    There have been no new PPIP fund managers hired between September 30, 2012, and                              Section 2:
         121(c)(E)         and detailed                    December 31, 2012.                                                                                           ”Public-Private
                           biographical                                                                                                                                 Investment
                           information on each             On February 7, 2012, the Treasury executed a new Financial Agency Agreement with                             Program“
                           person or entity                Greenhill & Co. LLC (Greenhill) to provide certain services relating to the management
                           hired to manage                 and disposition of American International Group, Inc. (AIG) investments acquired                             Appendix C:
                           such troubled                   pursuant to the Emergency Economic Stability Act of 2008 (EESA). Greenhill is a global                       “Reporting
                           assets.                         financial services firm providing investment banking, advice on mergers, acquisitions,                       Requirements”
                                                           restructurings, financings and capital raisings to corporations, partnerships, institutions                  of prior SIGTARP
                                                           and governments.                                                                                             Quarterly Reports
                                                                                                                                                                        to Congress

6        Section           A current estimate              The transaction reports capture detailed information about troubled asset purchases,                         Table C.1;
         121(c)(F)         of the total amount             price paid, and the amount of troubled assets currently on Treasury’s books. The latest                      Section 2:
                           of troubled assets              transaction reports are available on Treasury’s website at www.treasury.gov/initiatives/                     “TARP Overview”
                           purchased pursuant              financial-stability/reports/Pages/TARP-Investment-Program-Transaction-Reports.aspx.
                           to any program                  Information regarding all transactions through the end of December 2012 is available at the                  Appendix D:
                           established under               aforementioned link in a transaction report dated 12/28/2012.                                                “Transaction
                           Section 101, the                                                                                                                             Detail”
                           amount of troubled              Treasury published its most recent valuation of TARP investments as of December 31,
                           assets on the                   2012, on 1/10/2013, in its December 2012 105(a) report that is available at the following
                           books of Treasury,              link: www.treasury.gov/initiatives/financial-stability/reports/Pages/Monthly-Report-to-
                           the amount of                   Congress.aspx
                           troubled assets
                           sold, and the profit            Information on the repayments of Treasury’s investments under the CPP and proceeds from
                           and loss incurred               the sale of warrants are available within Treasury’s press releases, transaction reports and
                           on each sale or                 Section 105(a) Monthly Congressional Reports at the following links: www.treasury.gov/
                           disposition of each             initiatives/financial-stability/reports/Pages/TARP-Investment-Program-Transaction-Reports.
                           such troubled                   aspx
                           assets.
                                                           www.treasury.gov/initiatives/financial-stability/reports/Pages/Monthly-Report-to-Congress.
                                                           aspx

7        Section           A listing of the                Treasury’s authority to make new financial commitments under TARP ended on October 3,                        Section 2:
         121(c)(G)         insurance contracts             2010. As such, Treasury cannot issue any new insurance contracts after this date.                            “TARP Overview”
                           issued under
                           Section 102.                                                                                                                                 Section 2:
                                                                                                                                                                        “Targeted
                                                                                                                                                                        Investment
                                                                                                                                                                        Program and
                                                                                                                                                                        Asset Guarantee
                                                                                                                                                                        Program”

8        Section           A detailed statement            Treasury’s authority to make new financial commitments under TARP ended on October 3,                        Table C.1;
         121(f)            of all purchases,               2010.
                           obligations,                                                                                                                                 Section 2:
                           expenditures, and               Treasury provides information about TARP obligations, expenditures and revenues in                           “TARP Overview”
                           revenues associated             separate transaction reports available on Treasury’s public website at www.treasury.gov/
                           with any program                initiatives/financial-stability/reports/Pages/TARP-Investment-Program-Transaction-Reports.                   Section 4:
                           established by the              aspx. Information regarding all transactions through the end of December 2012 is available                   “TARP Operations
                           Secretary of the                at the aforementioned link in a transaction report dated 12/28/2012.                                         and Administration”
                           Treasury under
                           Sections 101 and                Information on obligations and expenditures is also available in the Daily TARP Update                       Appendix D:
                           102.                            reports available on Treasury’s public website at: www.treasury.gov/initiatives/financial-                   “Transaction
                                                           stability/reports/Pages/Daily-TARP-Reports.aspx, accessed 1/2/2013.                                          Detail””
Notes:
a
  Otherwise known as Systemically Significant Failing Institutions (“SSFI”).
b
  Description is as of 3/31/2011.

Sources: Program Descriptions: Treasury, “TARP Programs,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/Pages/default.aspx#, accessed 1/3/2013; ASSP: “Treasury Announces Auto
Suppliers Support Program,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/tg64.aspx, accessed 1/3/2013; AWCP: “Obama Administration’s New Warrantee Commitment Program,”
no date, www.whitehouse.gov/assets/documents/Warrantee_Commitment_Program.pdf, accessed 1/3/2013; TALF: Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF) Frequently Asked
Questions,” no date, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 1/3/2013; SBLF: Small Business Lending Act, P.L. 111-240, 9/27/2010; MHA “Making
Home Affordable Updated Detailed Description Update,” 11/23/2012, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Pages/default.aspx, accessed 1/3/2013.
236                APPENDIX C I REPORTING REQUIREMENTS I JANUARY 30, 2013




      TABLE C.1

       TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS                                                                                 ($ BILLIONS)
       (NUMBERS IN PARENTHESES REPRESENT REPAYMENTS AND REDUCTIONS IN EXPOSURE)

                                                                                                                    Obligations
                                                                                                                    After Dodd-                   Current
                                                                                                                          Frank                Obligations
                                                                                                                          (As of                    (As of                                        On Treasury’s
                                                                                      Total Funding                10/3/2010)                12/31/2012)                       Expended                 Booksa

       Housing Support Programs                                                                 $70.6b                       $45.6                        $45.6                         $6.4                     $—


                                                                                                 204.9
       Capital Purchase Program (“CPP”)                                                                                      204.9                        204.9                       204.9                    10.6
                                                                                               (194.3)c


       Community Development Capital Initiative (“CDCI”)                                             0.6                         0.6                        0.6d                          0.2                    0.5


                                                                                                   69.8
       Systemically Significant Failing Institutions (“SSFI”)                                                                  69.8                        67.8f                        67.8                   13.5
                                                                                                (56.4)e

                                                                                                   40.0
       Targeted Investment Program (“TIP”)                                                                                     40.0                         40.0                        40.0                     0.0
                                                                                                 (40.0)

                                                                                                 301.0
       Asset Guarantee Program (“AGP”)                                                                                           5.0                         5.0                          0.0                    0.0
                                                                                                (301.0)

                                                                                                   71.1
       Term Asset-Backed Securities Loan Facility (“TALF”)                                                                       4.3                         1.4                          0.1                    0.1
                                                                                                   (0.0)

                                                                                                  29.8g
       Public-Private Investment Program (“PPIP”)                                                                              22.4                         20.8                        18.6                     3.6
                                                                                                 (15.0)

                                                                                                    0.4h
       Unlocking Credit for Small Businesses (“UCSB”)                                                                            0.4                         0.4                          0.4                    0.0
                                                                                                   (0.4)

                                                                                                   81.8j
       Automotive Industry Support Programs (“AIFP”)i                                                                          81.8                         79.7                        79.7                   39.0
                                                                                                 (42.8)


       Total                                                                                   $868.9                      $474.8                      $466.2                      $418.1                    $67.3

       Notes: Numbers may not total due to rounding.
       a
         “On Treasury’s Books” calculated as the amount of TARP funds remaining outstanding, including losses and write-offs.
       b
           Program was initially announced as a $75 billion initiative funded through TARP. Treasury reduced the commitment from $50 billion to an obligation of $45.6 billion; therefore, including the $25 billion
           estimated to be spent by the GSE’s, the total program amount is $70.6 billion.
       c
         Includes $363.3 million in non-cash conversions from CPP to CDCI. Includes $2.2 billion for CPP banks that exited TARP through SBLF.
       d
          CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash
           was expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers.
       e
         The $56.4 billion in reduced exposure and repayments for SSFI includes the cancellation of the series G capital facility. Does not include AIG investment proceeds from the sale of AIG stock that Treasury
         received from the AIG credit facility trust in the January 2011 recapitalization.
       f
         Treasury deobligated $2 billion in equity facility for AIG that was never drawn down.
       g
            PPIP funding includes $7.4 billion of private sector equity capital. Includes $0.4 billion of initial obligations to The TCW Group, Inc., which has been repaid.
       h
         Treasury reduced commitment from $15 billion to an obligation of $400 million.
       i
            Includes amounts for AIFP, ASSP, and AWCP.
       j
            Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.

       Sources: Repayments data: Treasury, Transactions Report, 12/28/2012; Treasury, Daily TARP Update, 1/2/2013.
TRANSACTION DETAIL
TABLE D.1
CPP TRANSACTION DETAIL, AS OF 12/31/2012
                                                                                                                                Capital                                           Final                                             Stock        Current
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
12/23/2008   1st Constitution Bancorp, Cranbury, NJ                 Preferred Stock w/ Warrants                   $12,000,000   10/27/2010        $12,000,000              $—     11/18/2011      P             $326,576            $8.76                        $1,106,667
2/13/2009    1st Enterprise Bank, Los Angeles, CA2,49               Preferred Stock w/ Exercised Warrants          $4,400,000   9/1/2011            $4,400,000             $—     9/1/2011        R             $220,000
                                                                                                                                                                                                                                   $15.30                        $1,128,156
12/11/2009   1st Enterprise Bank, Los Angeles, CA2,10a,49           Preferred Stock                                $6,000,000   9/1/2011            $6,000,000             $—     N/A                                 N/A
11/14/2008   1st FS Corporation, Hendersonville, NC                 Preferred Stock w/ Warrants                   $16,369,000                                                                                                                                    $1,229,949
1/23/2009    1st Source Corporation, South Bend, IN                 Preferred Stock w/ Warrants                 $111,000,000    12/29/2010       $111,000,000              $—     3/9/2011        R           $3,750,000           $22.09                       $10,730,000
3/13/2009    1st United Bancorp, Inc., Boca Raton, FL2              Preferred Stock w/ Exercised Warrants         $10,000,000   11/18/2009        $10,000,000              $—     11/18/2009      R             $500,000            $6.25                          $370,903
1/23/2009    AB&T Financial Corporation, Gastonia, NC               Preferred Stock w/ Warrants                    $3,500,000                                                                                                       $0.70                          $360,694
1/30/2009    Adbanc, Inc, Ogallala, NE2,49                          Preferred Stock w/ Exercised Warrants         $12,720,000   7/21/2011         $12,720,000              $—     7/21/2011       R             $636,000                                         $1,715,769
1/23/2009    Alarion Financial Services, Inc., Ocala, FL2           Preferred Stock w/ Exercised Warrants          $6,514,000                                                                                                                                      $998,057
2/6/2009     Alaska Pacific Bancshares, Inc., Juneau, AK161         Preferred Stock w/ Warrants                    $4,781,000   11/29/2012          $4,217,568             $—                                                       $8.90                          $913,405
6/26/2009    Alliance Bancshares, Inc., Dalton, GA2                 Preferred Stock w/ Exercised Warrants          $2,986,000                                                                                                                                      $550,954
12/19/2008   Alliance Financial Corporation, Syracuse, NY           Preferred Stock w/ Warrants                   $26,918,000   5/13/2009         $26,918,000              $—     6/17/2009       R             $900,000           $43.51                          $538,360
                                                                    Subordinated Debentures
6/26/2009    Alliance Financial Services Inc., Saint Paul, MN8                                                    $12,000,000                                                                                                                                      $388,742
                                                                    w/ Exercised Warrants
4/24/2009    Allied First Bancorp, Inc., Oswego, IL2                Preferred Stock w/ Exercised Warrants          $3,652,000                                                                                                       $0.75                          $409,753
3/27/2009    Alpine Banks of Colorado, Glenwood Springs, CO2,128 Preferred Stock w/ Exercised Warrants            $70,000,000   9/12/2012         $56,430,297              $—     9/12/2012       P           $3,291,750                                        $13,407,114
1/30/2009    AMB Financial Corp., Munster, IN2,50                   Preferred Stock w/ Exercised Warrants          $3,674,000   9/22/2011           $3,674,000             $—     9/22/2011       R             $184,000            $6.00                          $529,576
3/6/2009     AmeriBank Holding Company, Collinsville, OK2,49        Preferred Stock w/ Exercised Warrants          $2,492,000   9/15/2011           $2,492,000             $—     9/15/2011       R             $125,000                                           $343,021
1/9/2009     American Express Company, New York, NY                 Preferred Stock w/ Warrants                $3,388,890,000   6/17/2009       $3,388,890,000             $—     7/29/2009       R        $340,000,000            $57.48                       $74,367,308
5/29/2009    American Premier Bancorp, Arcadia, CA2                 Preferred Stock w/ Exercised Warrants          $1,800,000   1/26/2011           $1,800,000             $—     1/26/2011       R              $90,000                                           $162,682
1/9/2009     American State Bancshares, Inc., Great Bend, KS2       Preferred Stock w/ Exercised Warrants          $6,000,000   11/2/2011           $6,000,000             $—     11/2/2011       R             $300,000                                           $920,142
11/21/2008   Ameris Bancorp, Moultrie, GA85                         Preferred Stock w/ Warrants                   $52,000,000   6/13/2012         $47,665,332              $—     8/22/2012       R           $2,670,000           $12.49                        $9,302,107
12/19/2008   AmeriServ Financial, Inc, Johnstown, PA50              Preferred Stock w/ Warrants                   $21,000,000   8/11/2011         $21,000,000              $—     11/2/2011       R             $825,000            $3.01                        $2,776,667
                                                                    Subordinated Debentures
8/21/2009    AmFirst Financial Services, Inc., McCook, NE8                                                         $5,000,000                                                                                                                                    $1,356,385
                                                                    w/ Exercised Warrants
1/30/2009    Anchor BanCorp Wisconsin Inc., Madison, WI             Preferred Stock w/ Warrants                 $110,000,000                                                                                                        $0.39     7,399,103
1/30/2009    Annapolis Bancorp, Inc., Annapolis, MD                 Preferred Stock w/ Warrants                    $8,152,000   4/18/2012           $4,076,000      $4,076,000                                                     $11.84       299,706          $1,428,298
                                                                                                                                4/6/2011         $262,500,000     $262,500,000
11/21/2008   Associated Banc-Corp, Green Bay, WI                    Preferred Stock w/ Warrants                 $525,000,000                                                      11/30/2011      A           $3,435,006           $13.12                       $68,104,167
                                                                                                                                9/14/2011        $262,500,000              $—
12/29/2009   Atlantic Bancshares, Inc., Bluffton, SC2,10            Preferred Stock w/ Exercised Warrants          $2,000,000                                                                                                       $0.55                          $122,725
2/27/2009    Avenue Financial Holdings, Inc., Nashville, TN2,49     Preferred Stock w/ Exercised Warrants          $7,400,000   9/15/2011           $7,400,000             $—     9/15/2011       R             $370,000                                         $1,028,415
3/13/2009    BancIndependent, Inc., Sheffield, AL2,49               Preferred Stock w/ Exercised Warrants         $21,100,000   7/14/2011         $21,100,000              $—     7/14/2011       R           $1,055,000                                         $2,686,411
7/10/2009    Bancorp Financial, Inc., Oak Brook, IL2,10,49          Preferred Stock w/ Exercised Warrants         $13,669,000   8/18/2011         $13,669,000              $—     8/18/2011       R             $410,000                                         $1,516,737
12/19/2008   Bancorp Rhode Island, Inc., Providence, RI             Preferred Stock w/ Warrants                   $30,000,000   8/5/2009          $30,000,000              $—     9/30/2009       R           $1,400,000                                           $941,667
2/20/2009    BancPlus Corporation, Ridgeland, MS2,30                Preferred Stock w/ Exercised Warrants         $48,000,000   9/29/2010         $48,000,000              $—     9/29/2010       R           $2,400,000                                         $4,207,399
4/3/2009     BancStar, Inc., Festus, MO2                            Preferred Stock w/ Exercised Warrants          $8,600,000                                                                                                                                    $1,695,132
12/19/2008   BancTrust Financial Group, Inc., Mobile, AL            Preferred Stock w/ Warrants                   $50,000,000                                                                                                       $2.78       730,994          $7,888,889
8/14/2009    Bank Financial Services, Inc., Eden Prairie, MN2,187   Preferred Stock w/ Exercised Warrants          $1,004,000   12/20/2012           $907,937              $—     12/20/2012      P              $23,500                                           $183,244
10/28/2008   Bank of America Corporation, Charlotte, NC1b           Preferred Stock w/ Warrants               $15,000,000,000   12/9/2009      $15,000,000,000             $—     3/3/2010        A        $183,547,824                                       $835,416,667
                                                                                                                                                                                                                                   $11.61
1/9/2009     Bank of America Corporation, Charlotte, NC1a,1b        Preferred Stock w/ Warrants               $10,000,000,000   12/9/2009      $10,000,000,000             $—     3/3/2010        A        $122,365,216                                       $458,333,333
1/16/2009    Bank of Commerce, Charlotte, NC2                       Preferred Stock w/ Exercised Warrants          $3,000,000   11/30/2012          $2,477,000             $—     11/30/2012      P             $100,100                                           $510,473
11/14/2008   Bank of Commerce Holdings, Redding, CA49               Preferred Stock w/ Warrants                   $17,000,000   9/27/2011         $17,000,000              $—     10/26/2011      R             $125,000            $2.15                        $2,439,028
3/13/2009    Bank of George, Las Vegas, NV2                         Preferred Stock w/ Exercised Warrants          $2,672,000                                                                                                                                      $279,991
12/5/2008    Bank of Marin Bancorp, Novato, CA                      Preferred Stock w/ Warrants                   $28,000,000   3/31/2009         $28,000,000              $—     11/18/2011      P           $1,703,984           $37.46                          $451,111
4/10/2009    Bank of Southern California, N.A.2,188                 Preferred Stock w/ Exercised Warrants          $2,211,000   12/20/2012          $2,017,453             $—     12/20/2012                     $90,462
                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                                                                                                                                                                  P                                                                $752,663
12/11/2009   Bank of Southern California, N.A.2,10a,188             Preferred Stock                                $2,032,000   12/20/2012          $1,832,697             $—     N/A                                 N/A
4/17/2009    Bank of the Carolinas Corporation, Mocksville, NC      Preferred Stock w/ Warrants                   $13,179,000                                                                                                       $0.20       475,204          $1,039,677
12/12/2008   Bank of the Ozarks, Inc., Little Rock, AR              Preferred Stock w/ Warrants                   $75,000,000   11/4/2009         $75,000,000              $—     11/24/2009      R           $2,650,000           $33.47                        $3,354,167
                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                237
CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)                                                                                                                                                                                                                            238
                                                                                                                                Capital                                           Final                                             Stock        Current
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
             Bankers’ Bank of the West Bancorp, Inc.,
1/30/2009                                                           Preferred Stock w/ Exercised Warrants         $12,639,000                                                                                                                                    $2,737,028
             Denver, CO2
1/23/2009    BankFirst Capital Corporation, Macon, MS2,49           Preferred Stock w/ Exercised Warrants         $15,500,000   9/8/2011          $15,500,000              $—     9/8/2011        R             $775,000                                         $2,217,469
2/13/2009    BankGreenville, Greenville, SC2                        Preferred Stock w/ Exercised Warrants          $1,000,000   11/9/2012            $891,000              $—     11/9/2012       P              $46,412                                           $203,773
11/21/2008   Banner Corporation, Walla Walla, WA74                  Preferred Stock w/ Warrants                 $124,000,000    3/28/2012        $108,071,915              $—                                                      $30.73       243,998         $20,873,747
2/6/2009     Banner County Ban Corporation, Harrisburg, NE2,49 Preferred Stock w/ Exercised Warrants                $795,000    7/28/2011            $795,000              $—     7/28/2011       R              $40,000                                           $107,411
1/16/2009    Bar Harbor Bankshares, Bar Harbor, ME                  Preferred Stock w/ Warrants                   $18,751,000   2/24/2010         $18,751,000              $—     7/28/2010       R             $250,000           $33.65                        $1,036,514
11/14/2008   BB&T Corp., Winston-Salem, NC                          Preferred Stock w/ Warrants                $3,133,640,000   6/17/2009       $3,133,640,000             $—     7/22/2009       R          $67,010,402           $29.11                       $92,703,517
             BBCN Bancorp, Inc. (Center Financial
12/12/2008                                                          Preferred Stock w/ Warrants                   $55,000,000   6/27/2012         $55,000,000              $—                                                                                    $9,739,583
             Corporation), Los Angeles, CA66
                                                                                                                                                                                  8/8/2012        R           $2,189,317           $11.57       337,480
             BBCN Bancorp, Inc. (Nara Bancorp, Inc.),
11/21/2008                                                          Preferred Stock w/ Warrants                   $67,000,000   6/27/2012         $67,000,000              $—                                                                                   $12,060,000
             Los Angeles, CA66
4/3/2009     BCB Holding Company, Inc., Theodore, AL2               Preferred Stock w/ Exercised Warrants          $1,706,000                                                                                                                                      $173,508
12/23/2008   BCSB Bancorp, Inc., Baltimore, MD                      Preferred Stock w/ Warrants                   $10,800,000   1/26/2011         $10,800,000              $—                                                      $14.20       183,465          $1,129,500
                                                                                                                                7/6/2011            $1,500,000      $4,500,000
                                                                                                                                10/19/2011          $1,500,000      $3,000,000
1/30/2009    Beach Business Bank, Manhattan Beach, CA2              Preferred Stock w/ Exercised Warrants          $6,000,000   3/7/2012            $1,500,000      $1,500,000    6/27/2012       R             $300,000            $9.18                          $963,317
                                                                                                                                6/6/2012            $1,200,000        $300,000
                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                                6/27/2012            $300,000              $—
12/19/2008   Berkshire Hills Bancorp, Inc., Pittsfield, MA          Preferred Stock w/ Warrants                   $40,000,000   5/27/2009         $40,000,000              $—     6/24/2009       R           $1,040,000           $23.86                          $877,778
2/13/2009    Bern Bancshares, Inc., Bern, KS2,49                    Preferred Stock w/ Exercised Warrants           $985,000    9/1/2011             $985,000              $—     9/1/2011        R              $50,000            $8.20                          $137,063
             Birmingham Bloomfield Bancshares, Inc,
4/24/2009                                                           Preferred Stock w/ Exercised Warrants          $1,635,000   7/28/2011           $1,635,000             $—     7/28/2011       R              $82,000
             Birmingham, MI2,49
                                                                                                                                                                                                                                    $4.60                          $342,023
             Birmingham Bloomfield Bancshares, Inc,
12/18/2009                                                          Preferred Stock                                $1,744,000   7/28/2011           $1,744,000             $—     N/A                                 N/A
             Birmingham, MI2,10a,49
                                                                    Subordinated Debentures
6/19/2009    Biscayne Bancshares, Inc., Coconut Grove, FL8,10                                                      $6,400,000                                                                                                                                    $1,776,747
                                                                    w/ Exercised Warrants
3/13/2009    Blackhawk Bancorp, Inc., Beloit, WI2,136               Preferred Stock w/ Exercised Warrants         $10,000,000   10/31/2012          $9,009,000             $—     10/31/2012      R             $470,250            $6.50                        $1,980,211
                                                                                                                                6/27/2012           $2,250,000      $2,750,000
                                                   2
5/22/2009    Blackridge Financial, Inc., Fargo, ND                  Preferred Stock w/ Exercised Warrants          $5,000,000                                                     9/12/2012       R             $250,000                                           $877,326
                                                                                                                                9/12/2012           $2,750,000             $—
3/6/2009     Blue Ridge Bancshares, Inc., Independence, MO2,134 Preferred Stock w/ Exercised Warrants             $12,000,000   10/31/2012          $8,969,400             $—     10/31/2012      R             $541,793                                         $2,427,244
3/6/2009     Blue River Bancshares, Inc., Shelbyville, IN2,71       Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                       $0.02                          $529,105
12/5/2008    Blue Valley Ban Corp, Overland Park, KS                Preferred Stock w/ Warrants                   $21,750,000                                                                                                       $4.50       111,083            $211,458
4/17/2009    BNB Financial Services Corporation, New York, NY2      Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                      $440,542
12/5/2008    BNC Bancorp, Thomasville, NC120                        Preferred Stock w/ Warrants                   $31,260,000   8/23/2012         $28,365,685              $—     9/19/2012       R             $939,920            $8.01                        $5,835,061
2/27/2009    BNC Financial Group, Inc., New Canaan, CT2,49          Preferred Stock w/ Exercised Warrants          $4,797,000   8/4/2011            $4,797,000             $—     8/4/2011        R             $240,000           $13.50                          $636,921
1/16/2009    BNCCORP, Inc., Bismarck, ND2                           Preferred Stock w/ Exercised Warrants         $20,093,000                                                                                                      $10.05                          $909,542
3/6/2009     BOH Holdings, Inc., Houston, TX2,49                    Preferred Stock w/ Exercised Warrants         $10,000,000   7/14/2011         $10,000,000              $—     7/14/2011       R             $500,000                                         $1,283,777
                                                                    Subordinated Debentures
5/15/2009    Boscobel Bancorp, Inc, Boscobel, WI8                                                                  $5,586,000                                                                                                                                      $468,624
                                                                    w/ Exercised Warrants

             Boston Private Financial Holdings, Inc.,                                                                           1/13/2010         $50,000,000     $104,000,000
11/21/2008                                                          Preferred Stock w/ Warrants                 $154,000,000                                                      2/1/2011        A           $6,202,523            $9.01                       $11,022,222
             Boston, MA                                                                                                         6/16/2010        $104,000,000              $—
                                                                                                                                2/23/2011         $15,000,000       $8,864,000
12/23/2008   Bridge Capital Holdings, San Jose, CA                  Preferred Stock w/ Warrants                   $23,864,000                                                     4/20/2011       R           $1,395,000           $15.56                        $2,613,582
                                                                                                                                3/16/2011           $8,864,000             $—
12/19/2008   Bridgeview Bancorp, Inc., Bridgeview, IL2              Preferred Stock w/ Exercised Warrants         $38,000,000                                                                                                                                    $2,393,156
11/14/2008   Broadway Financial Corporation, Los Angeles, CA3a,72   Preferred Stock                                $9,000,000
             Broadway Financial Corporation,                                                                                                                                                                                        $0.66                          $810,417
12/4/2009                                                           Preferred Stock                                $6,000,000
             Los Angeles, CA3,10a,72
                                                                    Subordinated Debentures
5/15/2009    Brogan Bankshares, Inc., Kaukauna, WI8                                                                $2,400,000                                                                                                                                      $402,720
                                                                    w/ Exercised Warrants
7/17/2009    Brotherhood Bancshares, Inc., Kansas City, KS2,49      Preferred Stock w/ Exercised Warrants         $11,000,000   9/15/2011         $11,000,000              $—     9/15/2011       R             $550,000                                         $1,295,586
4/24/2009    Business Bancshares, Inc., Clayton, MO2                Preferred Stock w/ Exercised Warrants         $15,000,000   5/23/2012           $6,000,000      $9,000,000                                                                                   $2,765,605
3/13/2009    Butler Point, Inc., Catlin, IL2                        Preferred Stock w/ Exercised Warrants           $607,000    11/2/2011            $607,000              $—     11/2/2011       R              $30,000                                            $87,124
                                                                                                                                                                                                                                                       Continued on next page
CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)
                                                                                                                                Capital                                           Final                                             Stock        Current
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
                                                                                                                                7/27/2011         $10,000,000      $10,000,000
1/9/2009     C&F Financial Corporation, West Point, VA              Preferred Stock w/ Warrants                   $20,000,000                                                                                                      $38.94       167,504          $2,902,778
                                                                                                                                4/11/2012         $10,000,000              $—
12/23/2008   Cache Valley Banking Company , Logan, UT2,49           Preferred Stock w/ Exercised Warrants          $4,767,000   7/14/2011           $4,767,000             $—     7/14/2011       R             $238,000
                                                                                                                                                                                                                                                                 $1,029,334
12/18/2009   Cache Valley Banking Company, Logan, UT2,10a,49        Preferred Stock                                $4,640,000   7/14/2011           $4,640,000             $—     N/A                                 N/A
1/9/2009     Cadence Financial Corporation, Starkville, MS33        Preferred Stock w/ Warrants                   $44,000,000   3/4/2011          $38,000,000              $—     N/A                                 N/A                                        $3,984,063
2/27/2009    California Bank of Commerce, Lafayette, CA2,49         Preferred Stock w/ Exercised Warrants          $4,000,000   9/15/2011           $4,000,000             $—     9/15/2011       R             $200,000                                           $555,900
1/23/2009    California Oaks State Bank, Thousand Oaks, CA2         Preferred Stock w/ Exercised Warrants          $3,300,000   12/8/2010           $3,300,000             $—     12/8/2010       R             $165,000                                           $337,219
1/23/2009    Calvert Financial Corporation, Ashland, MO2            Preferred Stock w/ Exercised Warrants          $1,037,000                                                                                                                                      $215,443
1/23/2009    CalWest Bancorp, Rancho Santa Margarita, CA2           Preferred Stock w/ Exercised Warrants          $4,656,000                                                                                                       $0.45                          $396,164
12/23/2008   Capital Bancorp, Inc., Rockville, MD2                  Preferred Stock w/ Exercised Warrants          $4,700,000   12/30/2010          $4,700,000             $—     12/30/2010      R             $235,000                                           $517,281
12/12/2008   Capital Bank Corporation, Raleigh, NC35                Preferred Stock w/ Warrants                   $41,279,000   1/28/2011         $41,279,000              $—     N/A                                 N/A                       749,619          $3,973,104
4/10/2009    Capital Commerce Bancorp, Inc., Milwaukee, WI2         Preferred Stock w/ Exercised Warrants          $5,100,000                                                                                                                                      $304,973
11/14/2008   Capital One Financial Corporation, McLean, VA          Preferred Stock w/ Warrants                $3,555,199,000   6/17/2009       $3,555,199,000             $—     12/3/2009       A        $146,500,065            $57.93                     $105,174,638
12/23/2008   Capital Pacific Bancorp, Portland, OR2,148             Preferred Stock w/ Exercised Warrants          $4,000,000   11/9/2012           $3,715,906             $—     11/9/2012       P             $192,102                                           $845,369

                                                          8,50      Subordinated Debentures
10/23/2009   Cardinal Bancorp II, Inc., Washington, MO                                                             $6,251,000   9/8/2011            $6,251,000             $—     9/8/2011        R             $313,000                                           $983,480
                                                                    w/ Exercised Warrants
1/9/2009     Carolina Bank Holdings, Inc., Greensboro, NC           Preferred Stock w/ Warrants                   $16,000,000                                                                                                       $7.35       357,675          $2,297,625
2/6/2009     Carolina Trust Bank, Lincolnton, NC163                 Preferred Stock w/ Warrants                    $4,000,000   11/30/2012          $3,362,000             $—                                                       $2.34        86,957            $613,320
2/13/2009    Carrollton Bancorp, Baltimore, MD                      Preferred Stock w/ Warrants                    $9,201,000                                                                                                       $5.46       205,379            $922,656
1/16/2009    Carver Bancorp, Inc, New York, NY3,30                  Preferred Stock                               $18,980,000   8/27/2010         $18,980,000              $—     N/A                                 N/A           $4.23                        $1,531,581
11/21/2008   Cascade Financial Corporation, Everett, WA47           Preferred Stock w/ Warrants                   $38,970,000   6/30/2011         $16,250,000              $—     N/A                                 N/A                                        $1,428,900
12/5/2008    Cathay General Bancorp, Los Angeles, CA                Preferred Stock w/ Warrants                 $258,000,000                                                                                                       $19.53     1,846,374         $50,883,333
2/27/2009    Catskill Hudson Bancorp, Inc, Rock Hill, NY2,49        Preferred Stock w/ Exercised Warrants          $3,000,000   7/21/2011           $3,000,000             $—     7/21/2011       R             $150,000
                                                                                                                                                                                                                                   $18.50                          $685,071
12/22/2009   Catskill Hudson Bancorp, Inc, Rock Hill, NY2,10a,49    Preferred Stock w/ Exercised Warrants          $3,500,000   7/21/2011           $3,500,000             $—     7/21/2011       R             $113,000
                                          2,63
5/29/2009    CB Holding Corp., Aledo, IL                            Preferred Stock w/ Exercised Warrants          $4,114,000                                                                                                                                      $271,580
2/20/2009    CBB Bancorp, Cartersville, GA2                         Preferred Stock w/ Exercised Warrants          $2,644,000   11/29/2012          $2,453,094             $—     11/29/2012                    $115,861
                                                                                                                                                                                                  P                                                                $799,528
12/29/2009   CBB Bancorp, Cartersville, GA2,10a,164                 Preferred Stock                                $1,753,000   11/29/2012          $1,613,658             $—     N/A                                 N/A
3/27/2009    CBS Banc-Corp., Russellville, AL2,108                  Preferred Stock w/ Exercised Warrants         $24,300,000   7/27/2012         $21,776,396              $—     7/27/2012       P           $1,107,825                        523,076          $4,548,137
12/23/2008   Cecil Bancorp, Inc., Elkton, MD                        Preferred Stock w/ Warrants                   $11,560,000                                                                                                       $0.56       261,538            $516,989
2/6/2009     CedarStone Bank, Lebanon, TN2                          Preferred Stock w/ Exercised Warrants          $3,564,000                                                                                                                                      $733,181
1/9/2009     Center Bancorp, Inc., Union, NJ49                      Preferred Stock w/ Warrants                   $10,000,000   9/15/2011         $10,000,000              $—     12/7/2011       R             $245,000           $11.58                        $1,341,667
5/1/2009     CenterBank, Milford, OH2,138                           Preferred Stock w/ Exercised Warrants          $2,250,000   10/31/2012          $1,831,250             $—     10/31/2012      R              $84,057                                           $429,355
11/21/2008   Centerstate Banks of Florida Inc., Davenport, FL       Preferred Stock w/ Warrants                   $27,875,000   9/30/2009         $27,875,000              $—     10/28/2009      R             $212,000                                         $1,196,303
1/16/2009    Centra Financial Holdings, Inc., Morgantown, WV2       Preferred Stock w/ Exercised Warrants         $15,000,000   3/31/2009         $15,000,000              $—     4/15/2009       R             $750,000            $8.53                          $172,938
12/5/2008    Central Bancorp, Inc., Garland, TX50                   Preferred Stock w/ Warrants                   $10,000,000   8/25/2011         $10,000,000              $—     10/19/2011      R           $2,525,000                                         $2,411,625
2/27/2009    Central Bancorp, Inc., Somerville, MA2                 Preferred Stock w/ Exercised Warrants         $22,500,000                                                                                                                                    $1,361,111
1/30/2009    Central Bancshares, Inc., Houston, TX2                 Preferred Stock w/ Exercised Warrants          $5,800,000   7/6/2011            $5,800,000             $—     7/6/2011        R             $290,000                                           $769,177
2/20/2009    Central Community Corporation, Temple, TX2,180         Preferred Stock w/ Exercised Warrants         $22,000,000   12/11/2012        $20,172,636              $—     12/11/2012      P           $1,058,726                                         $4,566,167
12/5/2008    Central Federal Corporation, Fairlawn, OH130           Preferred Stock w/ Warrants                    $7,225,000   9/26/2012           $3,000,000             $—     N/A                                 N/A                                          $612,118
12/23/2008   Central Jersey Bancorp, Oakhurst, NJ                   Preferred Stock w/ Warrants                   $11,300,000   11/24/2010        $11,300,000              $—     12/1/2010       R             $319,659            $1.45                        $1,084,486
                                                                                                                                6/17/2011         $35,883,281      $99,116,719
1/9/2009     Central Pacific Financial Corp., Honolulu, HI37,46     Common Stock w/ Warrants                    $135,000,000                                                                                                       $15.59        79,288          $2,362,500
                                                                                                                                3/29/2012         $36,039,222              $—
1/30/2009    Central Valley Community Bancorp, Fresno, CA50         Preferred Stock w/ Warrants                    $7,000,000   8/18/2011           $7,000,000             $—     9/28/2011       R             $185,017            $7.76                          $892,500
1/30/2009    Central Virginia Bankshares, Inc., Powhatan, VA        Preferred Stock w/ Warrants                   $11,385,000                                                                                                       $0.70       263,542            $450,656
12/18/2009   Centric Financial Corporation, Harrisburg, PA2,10,49   Preferred Stock w/ Exercised Warrants          $6,056,000   7/14/2011           $6,056,000             $—     7/14/2011       R             $182,000                                           $501,822
2/6/2009     Centrix Bank & Trust, Bedford, NH2,49                  Preferred Stock w/ Exercised Warrants          $7,500,000   7/28/2011           $7,500,000             $—     7/28/2011       R             $375,000           $20.00                        $1,012,791
                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




1/9/2009     Centrue Financial Corporation, St. Louis, MO           Preferred Stock w/ Warrants                   $32,668,000                                                                                                                   508,320            $571,690
             Century Financial Services Corporation,                Subordinated Debentures
6/19/2009                                                                                                         $10,000,000   12/20/2012          $9,751,500             $—     12/20/2012      P             $496,589                                         $2,938,871
             Santa Fe, NM8,193                                      w/ Exercised Warrants
                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                239
CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)                                                                                                                                                                                                                                 240
                                                                                                                                     Capital                                           Final                                             Stock        Current
Purchase                                                                                                                             Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                                 Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
                                                                         Subordinated Debentures
5/29/2009    Chambers Bancshares, Inc., Danville, AR8                                                                  $19,817,000                                                                                                                                    $5,754,675
                                                                         w/ Exercised Warrants
7/31/2009    Chicago Shore Corporation , Chicago, IL2                    Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                                                    $1,255,771
12/31/2008   CIT Group Inc., New York, NY16                              Contingent Value Rights                    $2,330,000,000   2/8/2010                  $—               $—     N/A                                 N/A          $38.64                       $43,687,500
10/28/2008   Citigroup Inc., New York, NY11,23                           Common Stock w/ Warrants                  $25,000,000,000   **             $25,000,000,000             $—     1/25/2011       A          $54,621,849           $39.56                     $932,291,667
1/16/2009    Citizens & Northern Corporation, Wellsboro, PA              Preferred Stock w/ Warrants                   $26,440,000   8/4/2010          $26,440,000              $—     9/1/2010        R             $400,000           $18.90                        $2,049,100
12/23/2008   Citizens Bancorp, Nevada City, CA2,61                       Preferred Stock w/ Exercised Warrants         $10,400,000                                                                                                       $0.01                          $223,571
5/29/2009    Citizens Bancshares Co., Chillicothe, MO2                   Preferred Stock w/ Exercised Warrants         $24,990,000                                                                                                                                      $628,033
3/6/2009     Citizens Bancshares Corporation, Atlanta, GA3,30            Preferred Stock                                $7,462,000   8/13/2010           $7,462,000             $—     N/A                                 N/A           $4.50                          $535,813
3/20/2009    Citizens Bank & Trust Company, Covington, LA2               Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                      $314,283
2/6/2009     Citizens Commerce Bancshares, Inc., Versailles, KY2         Preferred Stock w/ Exercised Warrants          $6,300,000                                                                                                                                      $180,259
12/23/2008   Citizens Community Bank, South Hill, VA2,49                 Preferred Stock w/ Exercised Warrants          $3,000,000   7/28/2011           $3,000,000             $—     7/28/2011       R             $150,000                                           $424,646
12/19/2008   Citizens First Corporation, Bowling Green, KY               Preferred Stock w/ Warrants                    $8,779,000   2/16/2011           $2,212,308      $6,566,692                                                      $8.78       254,218          $1,521,074
12/12/2008   Citizens Republic Bancorp, Inc., Flint, MI                  Preferred Stock w/ Warrants                 $300,000,000                                                                                                       $18.97     1,757,813         $13,875,000
12/12/2008   Citizens South Banking Corporation, Gastonia, NC50 Preferred Stock w/ Warrants                            $20,500,000   9/22/2011         $20,500,000              $—     11/9/2011       R             $225,157                                         $2,847,222
4/10/2009    City National Bancshares Corporation, Newark, NJ2,3 Preferred Stock                                        $9,439,000                                                                                                                                      $281,859
                                                                                                                                     12/30/2009       $200,000,000     $200,000,000
11/21/2008   City National Corporation, Beverly Hills, CA                Preferred Stock w/ Warrants                 $400,000,000                                                      4/7/2010        R          $18,500,000           $49.52                       $23,916,667
                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                                     3/3/2010         $200,000,000              $—
                                                                 2,165
3/27/2009    Clover Community Bankshares, Inc., Clover, SC               Preferred Stock w/ Exercised Warrants          $3,000,000   11/29/2012          $2,593,700             $—     11/29/2012      P             $114,022                                           $610,864
             Coastal Banking Company, Inc.,
12/5/2008                                                                Preferred Stock w/ Warrants                    $9,950,000                                                                                                       $5.00       205,579            $967,361
             Fernandina Beach, FL
             CoastalSouth Bancshares, Inc.,
8/28/2009                                                                Preferred Stock w/ Exercised Warrants         $16,015,000                                                                                                                                    $1,235,449
             Hilton Head Island, SC2,10
12/19/2008   CoBiz Financial Inc., Denver, CO50                          Preferred Stock w/ Warrants                   $64,450,000   9/8/2011          $64,450,000              $—     11/18/2011      P             $143,677            $7.47                        $8,763,410
1/9/2009     Codorus Valley Bancorp, Inc., York, PA49                    Preferred Stock w/ Warrants                   $16,500,000   8/18/2011         $16,500,000              $—     9/28/2011       R             $526,604           $15.05                        $2,151,875
2/13/2009    ColoEast Bankshares, Inc., Lamar, CO2                       Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                                                    $1,229,278
3/27/2009    Colonial American Bank, West Conshohocken, PA2              Preferred Stock w/ Exercised Warrants           $574,000    10/26/2011           $574,000              $—     10/26/2011      R              $29,000                                            $65,143
1/9/2009     Colony Bankcorp, Inc., Fitzgerald, GA                       Preferred Stock w/ Warrants                   $28,000,000                                                                                                       $3.60       500,000          $3,990,000
11/21/2008   Columbia Banking System, Inc., Tacoma, WA                   Preferred Stock w/ Warrants                   $76,898,000   8/11/2010         $76,898,000              $—     9/1/2010        R           $3,301,647           $17.94                        $6,621,772
2/27/2009    Columbine Capital Corp., Buena Vista, CO2,49                Preferred Stock w/ Exercised Warrants          $2,260,000   9/22/2011           $2,260,000             $—     9/22/2011       R             $113,000                                           $316,479
11/14/2008   Comerica Inc., Dallas, TX                                   Preferred Stock w/ Warrants                $2,250,000,000   3/17/2010       $2,250,000,000             $—     5/6/2010        A        $181,102,043            $30.34                     $150,937,500
1/9/2009     Commerce National Bank, Newport Beach, CA                   Preferred Stock w/ Warrants                    $5,000,000   10/7/2009           $5,000,000             $—                                                       $9.96        87,209             $36,111
                                                                         Subordinated Debentures
5/22/2009    Commonwealth Bancshares, Inc., Louisville, KY8,110                                                        $20,400,000   7/27/2012         $15,147,000              $—     7/27/2012       P             $898,722                                         $5,529,295
                                                                         w/ Exercised Warrants
1/23/2009    Commonwealth Business Bank, Los Angeles, CA2                Preferred Stock w/ Exercised Warrants          $7,701,000                                                                                                      $11.98                          $550,273
1/16/2009    Community 1st Bank, Roseville, CA2                          Preferred Stock w/ Exercised Warrants          $2,550,000   12/19/2012          $2,550,000             $—     12/19/2012      R             $128,000                                           $221,660
3/6/2009     Community Bancshares of Kansas, Inc., Goff, KS2             Preferred Stock w/ Exercised Warrants           $500,000    7/18/2012            $500,000              $—     7/18/2012       R              $25,000                                            $91,742
             Community Bancshares of Mississippi, Inc.,
9/11/2009                                                                Preferred Stock w/ Exercised Warrants         $52,000,000   9/29/2010         $52,000,000              $—     9/29/2010       R           $2,600,000                                         $2,975,700
             Brandon, MS2,30
             Community Bancshares of Mississippi, Inc.2,101,166
2/6/2009                                                                 Preferred Stock w/ Exercised Warrants          $1,050,000   11/30/2012           $977,750              $—     11/30/2012      P              $25,000                                           $217,551
             (Community Holding Company of Florida, Inc.)
                                                          2,10
7/24/2009    Community Bancshares, Inc., Kingman, AZ                     Preferred Stock w/ Exercised Warrants          $3,872,000                                                                                                                                      $675,032
1/16/2009    Community Bank of the Bay, Oakland, CA3,30                  Preferred Stock                                $1,747,000   9/29/2010           $1,747,000             $—     N/A                                 N/A                                           $76,189
             Community Bank Shares of Indiana, Inc.,
5/29/2009                                                                Preferred Stock w/ Warrants                   $19,468,000   9/15/2011         $19,468,000              $—     10/19/2011      R           $1,100,870           $13.00                        $2,233,412
             New Albany, IN49
             Community Bankers Trust Corporation,
12/19/2008                                                               Preferred Stock w/ Warrants                   $17,680,000                                                                                                       $2.65       780,000          $3,544,458
             Glen Allen, VA
             Community Business Bank,
2/27/2009                                                                Preferred Stock w/ Exercised Warrants          $3,976,000   11/30/2012          $3,692,560             $—     11/30/2012      P             $167,035            $6.12                          $814,455
             West Sacramento, CA2,167
12/19/2008   Community Financial Corporation, Staunton, VA               Preferred Stock w/ Warrants                   $12,643,000                                                                                                       $6.05       351,194          $2,468,897
5/15/2009    Community Financial Shares, Inc., Glen Ellyn, IL2,158       Preferred Stock w/ Exercised Warrants          $6,970,000   12/21/2012          $3,136,500             $—     12/21/2012      P             $157,050            $1.07                          $947,194
3/20/2009    Community First Bancshares Inc., Union City, TN2,49         Preferred Stock w/ Exercised Warrants         $20,000,000   8/18/2011         $20,000,000              $—     8/18/2011       R           $1,000,000                                         $2,628,111
4/3/2009     Community First Bancshares, Inc., Harrison, AR2             Preferred Stock w/ Exercised Warrants         $12,725,000                                                                                                                                    $2,508,122
                                                                                                                                                                                                                                                            Continued on next page
CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)
                                                                                                                                  Capital                                           Final                                             Stock        Current
Purchase                                                                                                                          Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                              Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
2/27/2009    Community First Inc., Columbia, TN2                      Preferred Stock w/ Exercised Warrants         $17,806,000                                                                                                                                    $1,908,453
12/23/2008   Community Investors Bancorp, Inc., Bucyrus, OH2,189      Preferred Stock w/ Exercised Warrants          $2,600,000   12/20/2012          $2,445,000             $—     12/20/2012      P             $105,000                                           $565,616
1/30/2009    Community Partners Bancorp, Middletown, NJ49             Preferred Stock w/ Warrants                    $9,000,000   8/11/2011           $9,000,000             $—     10/26/2011      R             $460,000            $5.59                        $1,138,750
             Community Pride Bank Corporation,                        Subordinated Debentures
11/13/2009                                                                                                           $4,400,000                                                                                                                                      $448,253
             Ham Lake, MN8,10                                         w/ Exercised Warrants
             Community Trust Financial Corporation,
1/9/2009                                                              Preferred Stock w/ Exercised Warrants         $24,000,000   7/6/2011          $24,000,000              $—     7/6/2011        R           $1,200,000                                         $3,259,100
             Ruston, LA2,49
                                                          181
12/19/2008   Community West Bancshares, Goleta, CA                    Preferred Stock w/ Warrants                   $15,600,000   12/11/2012        $11,181,456              $—                                                       $3.35       521,158          $2,461,333
1/9/2009     Congaree Bancshares, Inc., Cayce, SC2,140                Preferred Stock w/ Exercised Warrants          $3,285,000   10/31/2012          $2,685,979             $—     10/31/2012      R             $106,364            $2.40                          $691,286
             Corning Savings and Loan Association,
2/13/2009                                                             Preferred Stock w/ Exercised Warrants           $638,000    11/30/2012           $523,680              $—     11/30/2012      P               $3,960                                           $132,065
             Corning, AR2,168
                                                       2,169
1/30/2009    Country Bank Shares, Inc., Milford, NE                   Preferred Stock w/ Exercised Warrants          $7,525,000   11/29/2012          $6,838,126             $—     11/29/2012      P             $372,240                                         $1,570,840
6/5/2009     Covenant Financial Corporation, Clarksdale, MS2          Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                                      $947,239
2/20/2009    Crazy Woman Creek Bancorp, Inc., Buffalo, WY2            Preferred Stock w/ Exercised Warrants          $3,100,000                                                                                                       $7.00                          $631,216
             Crescent Financial Bancshares, Inc.
1/9/2009                                                              Preferred Stock w/ Warrants                   $24,900,000                                                                                                       $4.59                        $4,852,591
             (Crescent Financial Corporation), Cary, NC65
1/23/2009    Crosstown Holding Company, Blaine, MN2                   Preferred Stock w/ Exercised Warrants         $10,650,000                                                                                                                                    $2,212,236
3/27/2009    CSRA Bank Corp., Wrens, GA2                              Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                      $180,940
             Customers Bancorp, Inc. (Berkshire Bancorp, Inc.),
6/12/2009                                                             Preferred Stock w/ Exercised Warrants          $2,892,000   12/28/2011          $2,892,000             $—     12/28/2011      R             $145,000                                           $407,478
             Phoenixville, PA2,60
                                                                                                                                  8/26/2009         $97,500,000      $32,500,000
12/5/2008    CVB Financial Corp, Ontario, CA                          Preferred Stock w/ Warrants                 $130,000,000                                                      10/28/2009      R           $1,307,000           $10.40                        $4,739,583
                                                                                                                                  9/2/2009          $32,500,000              $—
                                             2,49
2/27/2009    D.L. Evans Bancorp, Burley, ID                           Preferred Stock w/ Exercised Warrants         $19,891,000   9/27/2011         $19,891,000              $—     9/27/2011       R             $995,000                                         $2,800,592
                                                                      Subordinated Debentures
5/15/2009    Deerfield Financial Corporation, Deerfield, WI8,49                                                      $2,639,000   9/8/2011            $2,639,000             $—     9/8/2011        R             $132,000                                           $512,339
                                                                      w/ Exercised Warrants
12/4/2009    Delmar Bancorp, Delmar, MD2                              Preferred Stock w/ Exercised Warrants          $9,000,000                                                                                                                                      $832,488
2/13/2009    DeSoto County Bank, Horn Lake, MS2                       Preferred Stock w/ Exercised Warrants          $1,173,000
                                                                                                                                                                                                                                                                     $457,189
12/29/2009   DeSoto County Bank, Horn Lake, MS2,10a                   Preferred Stock                                $1,508,000
                                                                      Subordinated Debentures
5/22/2009    Diamond Bancorp, Inc., Washington, MO8,111                                                             $20,445,000   7/27/2012         $14,780,662              $—     7/27/2012       P             $779,576                                         $5,541,380
                                                                      w/ Exercised Warrants
                                                                  2
1/16/2009    Dickinson Financial Corporation II, Kansas City, MO      Preferred Stock w/ Exercised Warrants       $146,053,000                                                                                                                                     $2,631,197
3/13/2009    Discover Financial Services , Riverwoods, IL             Preferred Stock w/ Warrants                $1,224,558,000   4/21/2010       $1,224,558,000             $—     7/7/2010        R        $172,000,000            $38.55                       $67,690,844
1/30/2009    DNB Financial Corporation, Downingtown, PA49             Preferred Stock w/ Warrants                   $11,750,000   8/4/2011          $11,750,000              $—     9/21/2011       R             $458,000           $15.50                        $1,475,278
                                                                      Subordinated Debentures
6/19/2009    Duke Financial Group, Inc., Minneapolis, MN8                                                           $12,000,000                                                                                                                                    $3,579,573
                                                                      w/ Exercised Warrants
                                                                                                                                  12/23/2009        $15,000,000      $23,235,000
12/5/2008    Eagle Bancorp, Inc., Bethesda, MD49                      Preferred Stock w/ Warrants                   $38,235,000                                                     11/18/2011      P           $2,794,422           $19.97                        $3,817,732
                                                                                                                                  7/14/2011         $23,235,000              $—
12/5/2008    East West Bancorp, Pasadena, CA                          Preferred Stock w/ Warrants                 $306,546,000    12/29/2010       $306,546,000              $—     1/26/2011       R          $14,500,000           $21.49                       $31,676,420
             Eastern Virginia Bankshares, Inc.,
1/9/2009                                                              Preferred Stock w/ Warrants                   $24,000,000                                                                                                       $5.40       373,832          $2,220,000
             Tappahannock, VA
1/16/2009    ECB Bancorp, Inc., Engelhard, NC                         Preferred Stock w/ Warrants                   $17,949,000                                                                                                      $14.40       144,984          $3,437,733
12/23/2008   Emclaire Financial Corp., Emlenton, PA49                 Preferred Stock w/ Warrants                    $7,500,000   8/18/2011           $7,500,000             $—     12/7/2011       R              $51,113           $20.85                          $994,792
12/5/2008    Encore Bancshares Inc., Houston, TX50                    Preferred Stock w/ Warrants                   $34,000,000   9/27/2011         $34,000,000              $—     11/18/2011      P             $637,071                                         $4,778,889
12/19/2008   Enterprise Financial Services Corp., St. Louis, MO       Preferred Stock w/ Warrants                   $35,000,000   11/7/2012         $35,000,000              $—                                                      $13.07       324,074          $6,795,833
             Enterprise Financial Services Group, Inc.,
6/12/2009                                                             Preferred Stock w/ Exercised Warrants          $4,000,000   8/25/2011           $4,000,000             $—     8/25/2011       R             $200,000                                           $480,206
             Allison Park, PA2,49
1/30/2009    Equity Bancshares, Inc., Wichita, KS2,49                 Preferred Stock w/ Exercised Warrants          $8,750,000   8/11/2011           $8,750,000             $—     8/11/2011       R             $438,000                                         $1,206,873
             Equity Bancshares, Inc. (First Community
5/15/2009                                                             Preferred Stock w/ Exercised Warrants         $14,800,000                                                                                                                                    $2,970,878
             Bancshares, Inc), Wichita, KS2,145
                                               2,103
12/19/2008   Exchange Bank, Santa Rosa, CA                            Preferred Stock w/ Exercised Warrants         $43,000,000   7/27/2012         $37,259,393              $—     7/27/2012       P           $2,054,215                                         $7,980,919
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                                      Subordinated Debentures
5/22/2009    F & C Bancorp, Inc., Holden, MO8,156                                                                    $2,993,000   11/13/2012          $2,840,903             $—     11/13/2012      P             $148,500                                           $872,778
                                                                      w/ Exercised Warrants
1/30/2009    F & M Bancshares, Inc., Trezevant, TN2                   Preferred Stock w/ Exercised Warrants          $4,609,000                                                                                                                                    $1,486,946
11/6/2009    F & M Bancshares, Inc., Trezevant, TN2,10a               Preferred Stock                                $3,535,000
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  241
CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)                                                                                                                                                                                                                               242
                                                                                                                                   Capital                                           Final                                             Stock        Current
Purchase                                                                                                                           Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                               Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
2/6/2009     F & M Financial Corporation, Salisbury, NC2,126           Preferred Stock w/ Exercised Warrants         $17,000,000   9/12/2012         $15,988,500              $—     9/12/2012       P             $775,274                                         $3,355,971
2/13/2009    F & M Financial Corporation, Clarksville, TN2,127         Preferred Stock w/ Exercised Warrants         $17,243,000   9/12/2012         $13,443,074              $—     9/12/2012       P             $742,441                                         $3,388,249
1/9/2009     F.N.B. Corporation, Hermitage, PA                         Preferred Stock w/ Warrants                 $100,000,000    9/9/2009         $100,000,000              $—     11/18/2011      P             $690,100           $10.62       819,640          $3,333,333
             F.N.B. Corporation (Parkvale Financial Corporation),
12/23/2008                                                             Preferred Stock w/ Warrants                   $31,762,000   1/3/2012          $31,762,000              $—                                                                                    $4,808,414
             Monroeville, PA67
             Farmers & Merchants Bancshares, Inc.,
3/6/2009                                                               Preferred Stock w/ Exercised Warrants         $11,000,000                                                                                                                                    $1,913,405
             Houston, TX2
             Farmers & Merchants Financial Corporation,
3/20/2009                                                              Preferred Stock w/ Exercised Warrants           $442,000                                                                                                                                        $87,959
             Argonia, KS2
1/23/2009    Farmers Bank , Windsor, VA2                               Preferred Stock w/ Exercised Warrants          $8,752,000                                                                                                                                    $1,817,976
1/9/2009     Farmers Capital Bank Corporation, Frankfort, KY87         Preferred Stock w/ Warrants                   $30,000,000   6/13/2012         $21,863,750              $—     7/18/2012       R              $75,000           $12.25                        $5,166,600
                                                                       Subordinated Debentures
6/19/2009    Farmers Enterprises, Inc., Great Bend, KS8,157                                                          $12,000,000   11/13/2012        $11,439,252              $—     11/13/2012      P             $590,323                                         $3,423,094
                                                                       w/ Exercised Warrants
3/20/2009    Farmers State Bankshares, Inc., Holton, KS2, 50           Preferred Stock w/ Exercised Warrants           $700,000    7/21/2011            $700,000              $—     7/21/2011       R              $40,000                                            $90,174
                                                                       Subordinated Debentures
12/29/2009   FBHC Holding Company, Boulder, CO8,10,38                                                                 $3,035,000   3/9/2011             $650,000              $—     N/A                                 N/A                                          $154,592
                                                                       w/ Exercised Warrants
6/26/2009    FC Holdings, Inc., Houston, TX2                           Preferred Stock w/ Exercised Warrants         $21,042,000                                                                                                                                      $156,090
12/19/2008   FCB Bancorp, Inc., Louisville, KY2,50                     Preferred Stock w/ Exercised Warrants          $9,294,000   9/22/2011           $9,294,000             $—     9/22/2011       R             $465,000                                         $1,397,234
12/19/2008   FFW Corporation, Wabash, IN2,170                          Preferred Stock w/ Exercised Warrants          $7,289,000   11/30/2012          $6,515,426             $—     11/30/2012      P             $358,558                                         $1,567,852
                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                       Subordinated Debentures
5/29/2009    Fidelity Bancorp, Inc, Baton Rouge, LA8                                                                  $3,942,000                                                                                                                                    $1,144,660
                                                                       w/ Exercised Warrants
11/13/2009   Fidelity Federal Bancorp, Evansville, IN2,10              Preferred Stock w/ Exercised Warrants          $6,657,000
12/19/2008   Fidelity Financial Corporation, Wichita, KS2,104          Preferred Stock w/ Exercised Warrants         $36,282,000   7/27/2012         $32,013,328              $—     7/27/2012       P           $1,725,103                                         $7,228,349
12/19/2008   Fidelity Southern Corporation, Atlanta, GA92              Preferred Stock w/ Warrants                   $48,200,000   6/27/2012         $42,757,786              $—                                                       $9.55     2,462,439          $8,528,883
12/31/2008   Fifth Third Bancorp, Cincinnati, OH                       Preferred Stock w/ Warrants                $3,408,000,000   2/2/2011        $3,408,000,000             $—     3/16/2011       R        $280,025,936            $15.20                     $355,946,667
                                                                                                                                   2/23/2011         $12,505,000      $25,010,000
12/23/2008   Financial Institutions, Inc., Warsaw, NY                  Preferred Stock w/ Warrants                   $37,515,000                                                     5/11/2011       R           $2,079,963           $18.63                        $4,192,649
                                                                                                                                   3/30/2011         $25,010,000              $—
2/13/2009    Financial Security Corporation, Basin, WY2,50             Preferred Stock w/ Exercised Warrants          $5,000,000   7/21/2011           $5,000,000             $—     7/21/2011       R             $250,000                                           $664,597
                                                                       Subordinated Debentures
7/31/2009    Financial Services of Winger, Inc., Winger, MN8,10,49                                                    $3,742,000   9/1/2011            $3,742,000             $—     9/1/2011        R             $112,000                                           $633,322
                                                                       w/ Exercised Warrants
5/22/2009    First Advantage Bancshares Inc., Coon Rapids, MN2 Preferred Stock w/ Exercised Warrants                  $1,177,000   12/11/2012          $1,046,621             $—     12/11/2012      P              $53,755                                           $227,945
6/26/2009    First Alliance Bancshares, Inc., Cordova, TN2             Preferred Stock w/ Exercised Warrants          $3,422,000   12/20/2012          $2,370,742             $—     12/20/2012      P              $94,702                                           $538,231

             First American Bank Corporation,                          Subordinated Debentures                                     12/21/2011        $15,000,000      $35,000,000
7/24/2009                                                                                                            $50,000,000                                                     12/11/2012      R           $2,500,000                                        $13,058,531
             Elk Grove Village, IL8                                    w/ Exercised Warrants                                       12/11/2012        $35,000,000              $—
3/13/2009    First American International Corp., Brooklyn, NY3,30      Preferred Stock                               $17,000,000   8/13/2010         $17,000,000              $—     N/A                                 N/A                                        $1,204,167
1/9/2009     First Bancorp, Troy, NC28                                 Preferred Stock w/ Warrants                   $65,000,000   9/1/2011          $65,000,000              $—     11/18/2011      P             $924,462           $12.82       616,308          $8,594,444
1/16/2009    First BanCorp, San Juan, PR50                             Common Stock w/ Warrants                    $424,174,000                                                                                                       $16.47       389,484         $32,999,386
                                                                                                                                   1/18/2012           $3,675,000      $3,675,000
2/20/2009    First BancTrust Corporation, Paris, IL2                   Preferred Stock w/ Exercised Warrants          $7,350,000                                                     10/24/2012      R             $368,000           $11.51                        $1,332,517
                                                                                                                                   10/24/2012          $3,675,000             $—
                                                                2,50
2/6/2009     First Bank of Charleston, Inc., Charleston, WV            Preferred Stock w/ Exercised Warrants          $3,345,000   7/21/2011           $3,345,000             $—     7/21/2011       R             $167,000                                           $448,105
1/16/2009    First Bankers Trustshares, Inc., Quincy, IL2,50           Preferred Stock w/ Exercised Warrants         $10,000,000   9/8/2011          $10,000,000              $—     9/8/2011        R             $500,000           $26.15                        $1,441,222
12/31/2008   First Banks, Inc., Clayton, MO2                           Preferred Stock w/ Exercised Warrants       $295,400,000                                                                                                                                     $6,037,238
3/6/2009     First Busey Corporation, Urbana, IL50                     Preferred Stock w/ Warrants                 $100,000,000    8/25/2011        $100,000,000              $—     11/18/2011      P              $63,677            $4.65                       $12,347,222
             First California Financial Group, Inc,
12/19/2008                                                             Preferred Stock w/ Warrants                   $25,000,000   7/14/2011         $25,000,000              $—     8/24/2011       R             $599,042            $7.72                        $3,211,806
             Westlake Village, CA50
4/3/2009     First Capital Bancorp, Inc., Glen Allen, VA90             Preferred Stock w/ Warrants                   $10,958,000   6/13/2012           $9,931,327             $—                                                       $2.84       250,947          $1,759,344
2/13/2009    First Choice Bank, Cerritos, CA2,30                       Preferred Stock w/ Exercised Warrants          $2,200,000   9/24/2010           $2,200,000             $—     9/24/2010       R             $110,000
                                                                                                                                                                                                                                                                      $300,643
12/22/2009   First Choice Bank, Cerritos, CA2,10a,30                   Preferred Stock                                $2,836,000   9/24/2010           $2,836,000             $—     N/A                                 N/A
                                                        94
1/23/2009    First Citizens Banc Corp, Sandusky, OH                    Preferred Stock w/ Warrants                   $23,184,000   6/27/2012         $20,689,633              $—     9/5/2012        R             $563,174            $8.78       469,312          $3,992,877
3/20/2009    First Colebrook Bancorp, Inc., Colebrook, NH2,49          Preferred Stock w/ Exercised Warrants          $4,500,000   9/22/2011           $4,500,000             $—     9/22/2011       R             $225,000                                           $614,488
11/21/2008   First Community Bancshares Inc., Bluefield, VA            Preferred Stock w/ Warrants                   $41,500,000   7/8/2009          $41,500,000              $—     11/18/2011      P              $30,600           $15.97                        $1,308,403
             First Community Bank Corporation of America,
12/23/2008                                                             Preferred Stock w/ Warrants                   $10,685,000   5/31/2011           $7,754,267             $—     N/A                                 N/A                                          $744,982
             Pinellas Park, FL39
                                                                                                                                                                                                                                                          Continued on next page
CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)
                                                                                                                                  Capital                                           Final                                             Stock        Current
Purchase                                                                                                                          Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                              Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
11/21/2008   First Community Corporation, Lexington, SC               Preferred Stock w/ Warrants                   $11,350,000   8/23/2012         $10,987,794              $—     11/1/2012       R             $297,500            $8.39                        $2,140,686
             First Community Financial Partners, Inc.,
12/11/2009                                                            Preferred Stock w/ Exercised Warrants         $22,000,000   9/12/2012         $14,211,450              $—     7/27/2012       P             $720,374                                         $3,320,656
             Joliet, IL2,113,129
                                                            89
12/5/2008    First Defiance Financial Corp., Defiance, OH             Preferred Stock w/ Warrants                   $37,000,000   6/13/2012         $35,084,144              $—                                                      $19.19       550,595          $6,546,862
                                                                      Subordinated Debentures
9/11/2009    First Eagle Bancshares, Inc., Hanover Park, IL8,30                                                      $7,500,000   9/17/2010           $7,500,000             $—     9/17/2010       R             $375,000                                           $639,738
                                                                      w/ Exercised Warrants
2/6/2009     First Express of Nebraska, Inc., Gering, NE2             Preferred Stock w/ Exercised Warrants          $5,000,000   2/15/2012           $5,000,000             $—     2/15/2012       R             $250,000                                           $824,313
             First Federal Bancshares of Arkansas, Inc.,
3/6/2009                                                              Preferred Stock w/ Warrants                   $16,500,000   5/3/2011            $6,000,000             $—     N/A                                 N/A           $9.75                          $570,625
             Harrison, AR42
12/23/2008   First Financial Bancorp, Cincinnati, OH                  Preferred Stock w/ Warrants                   $80,000,000   2/24/2010         $80,000,000              $—     6/2/2010        A           $2,966,288           $14.62                        $4,677,778
             First Financial Bancshares, Inc.,                        Subordinated Debentures
6/12/2009                                                                                                            $3,756,000   9/22/2011           $3,756,000             $—     9/22/2011       R             $113,000                                           $694,280
             Lawrence, KS8,10,49                                      w/ Exercised Warrants
12/5/2008    First Financial Holdings Inc., Charleston, SC75          Preferred Stock w/ Warrants                   $65,000,000   3/28/2012         $55,926,478              $—                                                      $13.08       241,696         $10,815,494
             First Financial Service Corporation,
1/9/2009                                                              Preferred Stock w/ Warrants                   $20,000,000                                                                                                       $1.97       215,983          $1,600,000
             Elizabethtown, KY
12/22/2009   First Freedom Bancshares, Inc., Lebanon, TN2,10,149      Preferred Stock w/ Exercised Warrants          $8,700,000   11/9/2012           $7,945,493             $—     11/9/2012       P             $256,119                                         $1,320,735
             First Gothenburg Bancshares, Inc.,
2/27/2009                                                             Preferred Stock w/ Exercised Warrants          $7,570,000   10/31/2012          $6,822,136             $—     10/31/2012      R             $362,119                                         $1,517,766
             Gothenburg, NE2,135
8/28/2009    First Guaranty Bancshares, Inc., Hammond, LA2,49         Preferred Stock w/ Exercised Warrants         $20,699,000   9/22/2011         $20,699,000              $—     9/22/2011       R           $1,030,000                                         $2,330,477
11/14/2008   First Horizon National Corporation, Memphis, TN          Preferred Stock w/ Warrants                 $866,540,000    12/22/2010       $866,540,000              $—     3/9/2011        R          $79,700,000            $9.91                       $91,227,406
8/28/2009    First Independence Corporation, Detroit, MI2,3,191       Preferred Stock                                $3,223,000   12/20/2012          $2,286,675             $—     N/A                                 N/A                                          $533,582
3/13/2009    First Intercontinental Bank, Doraville, GA2              Preferred Stock w/ Exercised Warrants          $6,398,000                                                                                                                                      $757,454
12/12/2008   First Litchfield Financial Corporation, Litchfield, CT   Preferred Stock w/ Warrants                   $10,000,000   4/7/2010          $10,000,000              $—     4/7/2010        R           $1,488,046                                           $659,722
2/27/2009    First M&F Corporation, Kosciusko, MS30                   Preferred Stock w/ Warrants                   $30,000,000   9/29/2010         $30,000,000              $—                                                       $6.98       513,113          $2,383,333
1/16/2009    First Manitowoc Bancorp, Inc., Manitowoc, WI2            Preferred Stock w/ Exercised Warrants         $12,000,000   5/27/2009         $12,000,000              $—     5/27/2009       R             $600,000           $15.50                          $237,983
2/13/2009    First Menasha Bancshares, Inc., Neenah, WI2,49           Preferred Stock w/ Exercised Warrants          $4,797,000   9/15/2011           $4,797,000             $—     9/15/2011       R             $240,000                                           $676,865
                                                                      Preferred Stock w/ Warrants                   $69,600,000   9/22/2011         $69,600,000              $—                                                                                   $12,167,111
2/20/2009    First Merchants Corporation, Muncie, IN27,49,50                                                                                                                        11/18/2011      P             $367,500           $14.84
                                                                      Trust Preferred Securities                    $46,400,000   9/22/2011         $46,400,000              $—                                                                                    $2,848,444
12/5/2008    First Midwest Bancorp, Inc., Itasca, IL                  Preferred Stock w/ Warrants                 $193,000,000    11/23/2011       $193,000,000              $—     12/21/2011      R             $900,000           $12.52                       $28,628,333
3/13/2009    First National Corporation, Strasburg, VA2,123           Preferred Stock w/ Exercised Warrants         $13,900,000   8/23/2012         $12,082,749              $—     8/23/2012       P             $624,675                                         $2,621,903
             First NBC Bank Holding Company,
3/20/2009                                                             Preferred Stock w/ Exercised Warrants         $17,836,000   8/4/2011          $17,836,000              $—     8/4/2011        R             $892,000                                         $2,305,990
             New Orleans, LA2,49
11/21/2008   First Niagara Financial Group, Lockport, NY              Preferred Stock w/ Warrants                 $184,011,000    5/27/2009        $184,011,000              $—     6/24/2009       R           $2,700,000            $7.93                        $4,753,618
3/13/2009    First Northern Community Bancorp, Dixon, CA49            Preferred Stock w/ Warrants                   $17,390,000   9/15/2011         $17,390,000              $—     11/16/2011      R             $375,000            $5.20                        $2,178,580
11/21/2008   First PacTrust Bancorp, Inc., Chula Vista, CA            Preferred Stock w/ Warrants                   $19,300,000   12/15/2010        $19,300,000              $—     1/5/2011        R           $1,003,227           $12.27     3,670,822          $1,994,333
3/13/2009    First Place Financial Corp., Warren, OH                  Preferred Stock w/ Warrants                   $72,927,000                                                                                                       $0.01                        $7,009,095
2/20/2009    First Priority Financial Corp., Malvern, PA2             Preferred Stock w/ Exercised Warrants          $4,579,000
                                                                                                                                                                                                                                                                   $1,600,719
12/18/2009   First Priority Financial Corp., Malvern, PA2,10a         Preferred Stock                                $4,596,000
3/6/2009     First Reliance Bancshares, Inc., Florence, SC2           Preferred Stock w/ Exercised Warrants         $15,349,000                                                                                                       $1.81                        $2,042,406
1/30/2009    First Resource Bank, Exton, PA2,50                       Preferred Stock w/ Exercised Warrants          $2,600,000   9/15/2011           $2,600,000             $—     9/15/2011       R             $130,000
                                                                                                                                                                                                                                                                     $584,794
12/11/2009   First Resource Bank, Exton, PA2,10a,49                   Preferred Stock                                $2,417,000   9/15/2011           $2,417,000             $—     N/A                                 N/A
1/9/2009     First Security Group, Inc., Chattanooga, TN              Preferred Stock w/ Warrants                   $33,000,000                                                                                                       $2.23       823,627          $1,402,500
12/23/2008   First Sound Bank, Seattle, WA178                         Preferred Stock w/ Warrants                    $7,400,000                                                                                                       $0.06       114,080            $330,944

                                                                      Subordinated Debentures                                     9/28/2011         $13,125,000      $36,875,000
7/17/2009    First South Bancorp, Inc., Lexington, TN8                                                              $50,000,000                                                     11/28/2012      R           $2,500,000                                        $12,932,451
                                                                      w/ Exercised Warrants                                       11/28/2012        $36,875,000              $—
                                                                2
1/30/2009    First Southern Bancorp, Inc., Boca Raton, FL             Preferred Stock w/ Exercised Warrants         $10,900,000   6/16/2010         $10,900,000              $—     6/16/2010       R             $545,000                                           $818,468
3/6/2009     First Southwest Bancorporation, Inc., Alamosa, CO2 Preferred Stock w/ Exercised Warrants                $5,500,000                                                                                                                                      $207,327
2/27/2009    First State Bank of Mobeetie, Mobeetie, TX2              Preferred Stock w/ Exercised Warrants           $731,000    4/14/2010            $731,000              $—     4/14/2010       R              $37,000                                            $45,087
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




3/6/2009     First Texas BHC, Inc., Fort Worth, TX2,49                Preferred Stock w/ Exercised Warrants         $13,533,000   9/15/2011         $13,533,000              $—     9/15/2011       R             $677,000                                         $1,862,389
                                                                      Subordinated Debentures
6/5/2009     First Trust Corporation, New Orleans, LA8                                                              $17,969,000                                                                                                                                    $1,046,896
                                                                      w/ Exercised Warrants
                                            2
1/23/2009    First ULB Corp., Oakland, CA                             Preferred Stock w/ Exercised Warrants          $4,900,000   4/22/2009           $4,900,000             $—     4/22/2009       R             $245,000                                            $66,021
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  243
CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)                                                                                                                                                                                                                                     244
                                                                                                                                         Capital                                           Final                                             Stock        Current
Purchase                                                                                                                                 Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                                     Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
1/30/2009    First United Corporation, Oakland, MD                           Preferred Stock w/ Warrants                   $30,000,000                                                                                                       $7.17       326,323          $2,312,500
6/12/2009    First Vernon Bancshares, Inc., Vernon, AL2,10,30                Preferred Stock w/ Exercised Warrants          $6,000,000   9/29/2010           $6,000,000             $—     9/29/2010       R             $245,000                                           $417,770
2/6/2009     First Western Financial, Inc., Denver, CO2,105                  Preferred Stock w/ Exercised Warrants          $8,559,000                                                     7/27/2012       P             $351,052
                                                                                                                                         7/27/2012           $6,138,000      $3,881,000                                                                                   $3,390,540
12/11/2009   First Western Financial, Inc., Denver, CO2,10a,114              Preferred Stock                               $11,881,000                                                     N/A                                 N/A
                                                97
1/30/2009    Firstbank Corporation, Alma, MI                                 Preferred Stock w/ Warrants                   $33,000,000   6/27/2012         $30,587,530              $—     7/18/2012       R           $1,946,670           $10.69                        $5,651,360
1/9/2009     FirstMerit Corporation, Akron, OH                               Preferred Stock w/ Warrants                 $125,000,000    4/22/2009        $125,000,000              $—     5/27/2009       R           $5,025,000           $14.19                        $1,788,194
1/30/2009    Flagstar Bancorp, Inc., Troy, MI                                Preferred Stock w/ Warrants                 $266,657,000                                                                                                       $19.40       645,138         $37,220,872
7/24/2009    Florida Bank Group, Inc., Tampa, FL2                            Preferred Stock w/ Exercised Warrants         $20,471,000                                                                                                                                    $1,180,793
2/20/2009    Florida Business BancGroup, Inc., Tampa, FL2,49                 Preferred Stock w/ Exercised Warrants          $9,495,000   9/22/2011           $9,495,000             $—     9/22/2011       R             $475,000                                         $1,339,751
12/19/2008   Flushing Financial Corporation, Lake Success, NY                Preferred Stock w/ Warrants                   $70,000,000   10/28/2009        $70,000,000              $—     12/30/2009      R             $900,000           $15.34                        $3,004,167
2/27/2009    FNB Bancorp, South San Francisco, CA2,50                        Preferred Stock w/ Exercised Warrants         $12,000,000   9/15/2011         $12,000,000              $—     9/15/2011       R             $600,000           $18.55                        $1,667,700
2/13/2009    FNB United Corp., Asheboro, NC58                                Common Stock w/ Warrants                      $51,500,000                                                                                                      $11.60        22,071          $2,589,305
5/15/2009    Foresight Financial Group, Inc., Rockford, IL2                  Preferred Stock w/ Exercised Warrants         $15,000,000   12/11/2012        $15,000,000              $—     12/11/2012      R             $750,000           $12.18                        $2,920,292
5/22/2009    Fort Lee Federal Savings Bank, Fort Lee, NJ2,82                 Preferred Stock w/ Exercised Warrants          $1,300,000                                                                                                                                       $87,185
4/3/2009     Fortune Financial Corporation , Arnold, MO2,50                  Preferred Stock w/ Exercised Warrants          $3,100,000   9/15/2011           $3,100,000             $—     9/15/2011       R             $155,000                                           $413,928
12/5/2008    FPB Bancorp, Inc., Port St. Lucie, FL55                         Preferred Stock w/ Warrants                    $5,800,000                                                                                                       $0.02       183,158            $273,889
                                                                                                                                         12/16/2009          $1,000,000      $2,240,000
                                                     2
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




1/23/2009    FPB Financial Corp., Hammond, LA                                Preferred Stock w/ Exercised Warrants          $3,240,000                                                     6/16/2010       R             $162,000                                           $221,722
                                                                                                                                         6/16/2010           $2,240,000             $—
                                                                 2,150
5/22/2009    Franklin Bancorp, Inc., Washington, MO                          Preferred Stock w/ Exercised Warrants          $5,097,000   11/13/2012          $3,191,614             $—     11/13/2012      P             $195,018                                           $965,344
                                                                             Subordinated Debentures
5/8/2009     Freeport Bancshares, Inc., Freeport, IL8                                                                       $3,000,000                                                                                                                                      $885,843
                                                                             w/ Exercised Warrants

                                                             8               Subordinated Debentures
6/26/2009    Fremont Bancorporation, Fremont, CA                                                                           $35,000,000   7/25/2012         $35,000,000              $—     7/25/2012       R           $1,750,000                                         $9,046,066
                                                                             w/ Exercised Warrants
1/23/2009    Fresno First Bank, Fresno, CA2                                  Preferred Stock w/ Exercised Warrants          $1,968,000   11/1/2012           $1,968,000             $—     11/1/2012       R              $98,000                                           $371,100

                                                                             Subordinated Debentures                                     11/24/2009          $1,600,000      $1,400,000
                                                         8
4/24/2009    Frontier Bancshares, Inc., Austin, TX                                                                          $3,000,000                                                     10/6/2010       R             $150,000                                           $258,192
                                                                             w/ Exercised Warrants                                       10/6/2010           $1,400,000             $—
12/23/2008   Fulton Financial Corporation, Lancaster, PA                     Preferred Stock w/ Warrants                 $376,500,000    7/14/2010        $376,500,000              $—     9/8/2010        R          $10,800,000            $9.61                       $29,335,625
5/8/2009     Gateway Bancshares, Inc., Ringgold, GA2,80                      Preferred Stock w/ Exercised Warrants          $6,000,000   4/13/2012           $6,000,000             $—     4/13/2012       R             $300,000                                           $960,795
2/6/2009     Georgia Commerce Bancshares, Inc., Atlanta, GA2                 Preferred Stock w/ Exercised Warrants          $8,700,000   2/16/2011           $8,700,000             $—     2/16/2011       R             $435,000                                           $961,471
5/1/2009     Georgia Primary Bank, Atlanta, GA2                              Preferred Stock w/ Exercised Warrants          $4,500,000                                                                                                                                            $—
             Germantown Capital Corporation, Inc.,
3/6/2009                                                                     Preferred Stock w/ Exercised Warrants          $4,967,000   10/31/2012          $4,495,616             $—     10/31/2012      R             $214,595                                           $988,890
             Germantown, TN2,137
6/26/2009    Gold Canyon Bank, Gold Canyon, AZ2,10                           Preferred Stock w/ Exercised Warrants          $1,607,000                                                                                                                                       $53,860
1/30/2009    Goldwater Bank, N.A., Scottsdale, AZ2                           Preferred Stock w/ Exercised Warrants          $2,568,000                                                                                                                                      $145,750
4/24/2009    Grand Capital Corporation, Tulsa, OK2,49                        Preferred Stock w/ Exercised Warrants          $4,000,000   9/8/2011            $4,000,000             $—     9/8/2011        R             $200,000                                           $517,145
                                                                             Subordinated Debentures
9/25/2009    Grand Financial Corporation, Hattiesburg, MS8                                                                  $2,443,320                                                                                                                                      $643,382
                                                                             w/ Exercised Warrants
                                                                         2
5/29/2009    Grand Mountain Bancshares, Inc., Granby, CO                     Preferred Stock w/ Exercised Warrants          $3,076,000                                                                                                                                            $—
1/9/2009     GrandSouth Bancorporation, Greenville, SC2,50                   Preferred Stock w/ Exercised Warrants          $9,000,000   9/8/2011            $9,000,000             $—     9/8/2011        R             $450,000
                                                                                                                                                                                                                                             $4.40                        $1,856,917
12/11/2009   GrandSouth Bancorporation, Greenville, SC2,10a,49               Preferred Stock                                $6,319,000   9/8/2011            $6,319,000             $—     N/A                                 N/A
                                                                             Subordinated Debentures
7/17/2009    Great River Holding Company, Baxter, MN8                                                                       $8,400,000                                                                                                                                      $759,575
                                                                             w/ Exercised Warrants
12/5/2008    Great Southern Bancorp, Springfield, MO50                       Preferred Stock w/ Warrants                   $58,000,000   8/18/2011         $58,000,000              $—     9/21/2011       R           $6,436,364           $25.45                        $7,838,056
12/23/2008   Green Bankshares, Inc., Greeneville, TN59                                                                     $72,278,000   9/7/2011          $68,700,000              $—     N/A                                 N/A                                        $5,942,858
2/27/2009    Green Circle Investments, Inc., Clive, IA2                      Preferred Stock w/ Exercised Warrants          $2,400,000   11/14/2012           $800,000       $1,600,000                                                                                     $486,029
2/27/2009    Green City Bancshares, Inc., Green City, MO2                    Preferred Stock w/ Exercised Warrants           $651,000    7/14/2010            $651,000              $—     7/14/2010       R              $33,000                                            $49,037
1/30/2009    Greer Bancshares Incorporated, Greer, SC2                       Preferred Stock w/ Exercised Warrants          $9,993,000                                                                                                       $3.55                          $975,831
2/13/2009    Gregg Bancshares, Inc., Ozark, MO2,115                          Preferred Stock w/ Exercised Warrants           $825,000                                                                                                                                        $45,190
2/20/2009    Guaranty Bancorp, Inc., Woodsville, NH2,50                      Preferred Stock w/ Exercised Warrants          $6,920,000   9/15/2011           $6,920,000             $—     9/15/2011       R             $346,000                                           $969,040
9/25/2009    Guaranty Capital Corporation, Belzoni, MS3,8,30                 Subordinated Debentures                       $14,000,000   7/30/2010         $14,000,000              $—     N/A                                 N/A                                          $913,299
1/30/2009    Guaranty Federal Bancshares, Inc., Springfield, MO              Preferred Stock w/ Warrants                   $17,000,000   6/13/2012           $5,000,000     $12,000,000                                                      $6.89       459,459          $3,117,361
                                                                                                                                                                                                                                                                Continued on next page
CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)
                                                                                                                                   Capital                                           Final                                             Stock        Current
Purchase                                                                                                                           Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                             Investment Description                    Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
9/25/2009    GulfSouth Private Bank, Destin, FL10,21                 Preferred Stock w/ Exercised Warrants            $7,500,000                                                                                                                                      $757,380
6/26/2009    Gulfstream Bancshares, Inc., Stuart, FL2,50             Preferred Stock w/ Exercised Warrants            $7,500,000   8/18/2011           $7,500,000             $—     8/18/2011       R             $375,000                                           $876,542
2/20/2009    Hamilton State Bancshares, Hoschton, GA2                Preferred Stock w/ Exercised Warrants            $7,000,000   4/13/2011           $7,000,000             $—     4/13/2011       R             $350,000                                           $819,166
12/31/2008   Hampton Roads Bankshares, Inc., Norfolk, VA31           Common Stock w/ Warrants                        $80,347,000                                                                                                       $1.19        53,034          $2,510,844
7/17/2009    Harbor Bankshares Corporation, Baltimore, MD2,3         Preferred Stock                                  $6,800,000                                                                                                                                      $282,744
             Hartford Financial Services Group, Inc.,
6/26/2009                                                            Preferred Stock w/ Warrants                  $3,400,000,000   3/31/2010       $3,400,000,000             $—     9/21/2010       A        $706,264,560            $22.44                     $129,861,111
             Hartford, CT
3/13/2009    Haviland Bancshares, Inc., Haviland, KS2                Preferred Stock w/ Exercised Warrants             $425,000    12/29/2010           $425,000              $—     12/29/2010      R              $21,000                                            $41,524
12/19/2008   Hawthorne Bancshares, Inc., Lee’s Summit, MO            Preferred Stock w/ Warrants                     $30,255,000   5/9/2012          $12,000,000      $18,255,000                                                      $7.50       276,090          $5,598,130
3/6/2009     HCSB Financial Corporation, Loris, SC                   Preferred Stock w/ Warrants                     $12,895,000                                                                                                       $0.07        91,714          $1,090,702
9/11/2009    Heartland Bancshares, Inc., Franklin, IN2,10,100        Preferred Stock w/ Exercised Warrants            $7,000,000   7/17/2012           $7,000,000             $—     7/17/2012                     $248,000                                         $1,073,471
12/19/2008   Heartland Financial USA, Inc., Dubuque, IA50            Preferred Stock w/ Warrants                     $81,698,000   9/15/2011         $81,698,000              $—     9/28/2011       R           $1,800,000           $26.15                       $11,188,087
                                                                                                                                   3/16/2011           $2,606,000      $7,497,000
9/25/2009    Heritage Bankshares, Inc., Norfolk, VA2,10,50           Preferred Stock w/ Exercised Warrants           $10,103,000                                                     8/11/2011       R             $303,000           $11.75                          $947,284
                                                                                                                                   8/11/2011           $7,497,000             $—
11/21/2008   Heritage Commerce Corp., San Jose, CA                   Preferred Stock w/ Warrants                     $40,000,000   3/7/2012          $40,000,000              $—                                                       $6.98       462,963          $6,761,267
11/21/2008   Heritage Financial Corporation, Olympia, WA             Preferred Stock w/ Warrants                     $24,000,000   12/22/2010        $24,000,000              $—     8/17/2011       R             $450,000           $14.69                        $2,503,333
3/20/2009    Heritage Oaks Bancorp, Paso Robles, CA                  Preferred Stock w/ Warrants                     $21,000,000                                                                                                       $5.80       611,650          $3,960,502
11/21/2008   HF Financial Corp., Sioux Falls, SD                     Preferred Stock w/ Warrants                     $25,000,000   6/3/2009          $25,000,000              $—     6/30/2009       R             $650,000           $17.50                          $666,667
             Highlands Bancorp, Inc. (Highlands State Bank),
5/8/2009                                                             Preferred Stock w/ Exercised Warrants            $3,091,000   9/22/2011           $3,091,000             $—     9/22/2011       R             $155,000            $3.55                          $606,927
             Vernon, NJ2,13 ,49
             Highlands Bancorp, Inc. (Highlands State Bank),
12/22/2009                                                           Preferred Stock                                  $2,359,000   9/22/2011           $2,359,000             $—     N/A                                 N/A
             Vernon, NJ2,10a,13,49
             Highlands Independent Bancshares, Inc.,
3/6/2009                                                             Preferred Stock w/ Exercised Warrants            $6,700,000                                                                                                                                      $617,712
             Sebring, FL2
                                                                 2
1/30/2009    Hilltop Community Bancorp, Inc., Summit, NJ             Preferred Stock w/ Exercised Warrants            $4,000,000   4/21/2010           $4,000,000             $—     4/21/2010       R             $200,000            $5.15                          $267,050
12/23/2008   HMN Financial, Inc., Rochester, MN                      Preferred Stock w/ Warrants                     $26,000,000                                                                                                       $3.47       833,333          $2,462,778
1/16/2009    Home Bancshares, Inc., Conway, AR                       Preferred Stock w/ Warrants                     $50,000,000   7/6/2011          $50,000,000              $—     7/27/2011       R           $1,300,000           $33.02                        $6,180,556
2/20/2009    Hometown Bancorp of Alabama, Inc., Oneonta, AL2         Preferred Stock w/ Exercised Warrants            $3,250,000                                                                                                                                      $661,927
2/13/2009    Hometown Bancshares, Inc., Corbin, KY2,171              Preferred Stock w/ Exercised Warrants            $1,900,000   11/30/2012          $1,766,510             $—     11/30/2012      P              $70,095                                           $393,196
             HomeTown Bankshares Corporation,
9/18/2009                                                            Preferred Stock w/ Exercised Warrants           $10,000,000   10/31/2012          $9,093,150             $—     10/31/2012      R             $315,462            $4.10                        $1,702,400
             Roanoke, VA2,10,144
12/12/2008   HopFed Bancorp, Hopkinsville, KY                        Preferred Stock w/ Warrants                     $18,400,000   12/19/2012        $18,400,000              $—                                                       $8.62       253,666          $3,697,889
                                                                                                                                   11/10/2010          $6,250,000     $18,750,000
                                                    50
12/19/2008   Horizon Bancorp, Michigan City, IN                      Preferred Stock w/ Warrants                     $25,000,000                                                     11/18/2011      P           $1,750,551           $19.65                        $3,106,771
                                                                                                                                   8/25/2011         $18,750,000              $—
2/27/2009    Howard Bancorp, Inc., Ellicott City, MD2,49             Preferred Stock w/ Exercised Warrants            $5,983,000   9/22/2011           $5,983,000             $—     9/22/2011       R             $299,000            $6.40                          $837,793
11/13/2009   HPK Financial Corporation, Chicago, IL2,10a             Preferred Stock w/ Exercised Warrants            $5,000,000   12/11/2012          $5,000,000             $—     12/11/2012      R             $144,000
                                                                                                                                                                                                                                                                    $1,596,555
5/1/2009     HPK Financial Corporation, Chicago, IL2                 Preferred Stock w/ Exercised Warrants            $4,000,000   12/11/2012          $4,000,000             $—     12/11/2012      R             $200,000
11/14/2008   Huntington Bancshares, Columbus, OH                     Preferred Stock w/ Warrants                  $1,398,071,000   12/22/2010      $1,398,071,000             $—     1/19/2011       R          $49,100,000            $6.39                     $147,185,809
2/6/2009     Hyperion Bank, Philadelphia, PA2,192                    Preferred Stock w/ Exercised Warrants            $1,552,000   12/20/2012           $983,800              $—     12/20/2012      P              $25,700                                           $327,666
9/18/2009    IA Bancorp, Inc., Iselin, NJ2,10                        Preferred Stock w/ Exercised Warrants            $5,976,000                                                                                                                                      $916,227
5/15/2009    IBC Bancorp, Inc., Chicago, IL3,8,30                    Subordinated Debentures                          $4,205,000   9/10/2010           $4,205,000             $—     N/A                                 N/A                                          $427,216
12/5/2008    Iberiabank Corporation, Lafayette, LA                   Preferred Stock w/ Warrants                     $90,000,000   3/31/2009         $90,000,000              $—     5/20/2009       R           $1,200,000           $49.12                        $1,450,000
3/27/2009    IBT Bancorp, Inc., Irving, TX2                          Preferred Stock w/ Exercised Warrants            $2,295,000                                                                                                                                      $454,530
3/13/2009    IBW Financial Corporation , Washington, DC2,3a,30       Preferred Stock                                  $6,000,000   9/3/2010            $6,000,000             $—     N/A                                 N/A           $8.00                          $453,067
3/6/2009     ICB Financial, Ontario, CA2,49                          Preferred Stock w/ Exercised Warrants            $6,000,000   11/1/2012           $6,000,000             $—                     R             $300,000            $4.60                        $1,194,458
1/16/2009    Idaho Bancorp, Boise, ID2                               Preferred Stock w/ Exercised Warrants            $6,900,000                                                                                                       $0.04                          $124,306
5/22/2009    Illinois State Bancorp, Inc., Chicago, IL2,49           Preferred Stock w/ Exercised Warrants            $6,272,000   9/22/2011           $6,272,000             $—     9/22/2011       R             $314,000
                                                                                                                                                                                                                                                                    $1,158,113
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




12/29/2009   Illinois State Bancorp, Inc., Chicago, IL2,10a,49       Preferred Stock w/ Exercised Warrants            $4,000,000   9/22/2011           $4,000,000             $—     9/22/2011       R              $92,000
1/9/2009     Independence Bank, East Greenwich, RI2                  Preferred Stock w/ Exercised Warrants            $1,065,000                                                                                                                                      $223,377
1/9/2009     Independent Bank Corp., Rockland, MA                    Preferred Stock w/ Warrants                     $78,158,000   4/22/2009         $78,158,000              $—     5/27/2009       R           $2,200,000           $28.95                        $1,118,094
                                                                     Mandatorily Convertible Preferred Stock
12/12/2008   Independent Bank Corporation, Ionia, MI22                                                               $74,426,000                                                                                                       $3.50       346,154          $2,430,000
                                                                     w/ Warrants
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   245
CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)                                                                                                                                                                                                                             246
                                                                                                                                 Capital                                           Final                                             Stock        Current
Purchase                                                                                                                         Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                             Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
4/24/2009    Indiana Bank Corp., Dana, IN2                           Preferred Stock w/ Exercised Warrants          $1,312,000                                                                                                                                      $165,139
12/12/2008   Indiana Community Bancorp, Columbus, IN                 Preferred Stock w/ Warrants                   $21,500,000   9/12/2012         $21,500,000              $—     9/12/2012       R           $1,800,000                                         $4,031,250
2/27/2009    Integra Bank Corporation, Evansville, IN14,57           Preferred Stock w/ Warrants                   $83,586,000                                                                                                                 7,418,876          $1,950,340
12/19/2008   Intermountain Community Bancorp, Sandpoint, ID          Preferred Stock w/ Warrants                   $27,000,000                                                                                                      $11.50        65,323          $5,576,134
                                                                                                                                 7/11/2011         $40,000,000     $176,000,000
12/23/2008   International Bancshares Corporation, Laredo, TX        Preferred Stock w/ Warrants                 $216,000,000    11/1/2012         $45,000,000     $131,000,000                                                     $18.09     1,326,238         $41,520,139
                                                                                                                                 11/28/2012       $131,000,000              $—
12/23/2008   Intervest Bancshares Corporation, New York, NY          Preferred Stock w/ Warrants                   $25,000,000                                                                                                       $3.89       691,882          $1,118,056
             Investors Financial Corporation of Pettis County,       Subordinated Debentures
5/8/2009                                                                                                            $4,000,000                                                                                                                                      $174,325
             Inc., Sedalia, MO8,133                                  w/ Exercised Warrants
10/28/2008   JPMorgan Chase & Co., New York, NY                      Preferred Stock w/ Warrants               $25,000,000,000   6/17/2009      $25,000,000,000             $—     12/10/2009      A        $936,063,469            $43.97                     $795,138,889
1/30/2009    Katahdin Bankshares Corp., Houlton, ME2,49              Preferred Stock w/ Exercised Warrants         $10,449,000   8/18/2011         $10,449,000              $—     8/18/2011       R             $522,000           $12.00                        $1,452,047
11/14/2008   KeyCorp, Cleveland, OH                                  Preferred Stock w/ Warrants                $2,500,000,000   3/30/2011       $2,500,000,000             $—     4/20/2011       R          $70,000,000            $8.42                     $297,222,222
3/20/2009    Kirksville Bancorp, Inc., Kirksville, MO2               Preferred Stock w/ Exercised Warrants           $470,000                                                                                                                                        $93,730
8/21/2009    KS Bancorp, Inc., Smithfield, NC2,172                   Preferred Stock w/ Exercised Warrants          $4,000,000   11/30/2012          $3,283,000             $—     11/30/2012      P             $140,400            $4.50                          $713,937
2/20/2009    Lafayette Bancorp, Inc., Oxford, MS2,30                 Preferred Stock w/ Exercised Warrants          $1,998,000   9/29/2010           $1,998,000             $—     9/29/2010       R             $100,000
                                                                                                                                                                                                                                                                    $267,134
12/29/2009   Lafayette Bancorp, Inc., Oxford, MS2,10a,30             Preferred Stock                                $2,453,000   9/29/2010           $2,453,000             $—     N/A                                 N/A
                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                                 8/4/2010          $20,000,000      $39,000,000
2/6/2009     Lakeland Bancorp, Inc., Oak Ridge, NJ                   Preferred Stock w/ Warrants                   $59,000,000   3/16/2011         $20,000,000      $19,000,000    2/29/2012       R           $2,800,000           $10.18                        $6,460,833
                                                                                                                                 2/8/2012          $19,000,000              $—
2/27/2009    Lakeland Financial Corporation, Warsaw, IN              Preferred Stock w/ Warrants                   $56,044,000   6/9/2010          $56,044,000              $—     11/18/2011      P             $877,557           $25.84                        $3,596,156
12/18/2009   Layton Park Financial Group, Milwaukee, WI2,173         Preferred Stock w/ Exercised Warrants          $3,000,000   11/29/2012          $2,345,930             $—     11/29/2012      P             $104,375                                           $481,858
1/9/2009     LCNB Corp., Lebanon, OH                                 Preferred Stock w/ Warrants                   $13,400,000   10/21/2009        $13,400,000              $—     11/18/2011      P             $602,557           $13.70                          $524,833
12/23/2008   Leader Bancorp, Inc., Arlington, MA2                    Preferred Stock w/ Exercised Warrants          $5,830,000   11/24/2010          $5,830,000             $—     11/24/2010      R             $292,000                                           $609,961
1/30/2009    Legacy Bancorp, Inc., Milwaukee, WI3,53                 Preferred Stock                                $5,498,000                                                                                                                                      $355,079
1/23/2009    Liberty Bancshares, Inc., Jonesboro, AR2,50             Preferred Stock w/ Exercised Warrants         $57,500,000   7/21/2011         $57,500,000              $—     7/21/2011       R           $2,875,000                                         $7,816,966
2/13/2009    Liberty Bancshares, Inc., Springfield, MO2,50           Preferred Stock w/ Exercised Warrants         $21,900,000   8/18/2011         $21,900,000              $—     8/18/2011       R           $1,095,000                                         $3,000,452
12/4/2009    Liberty Bancshares, Inc., Fort Worth, TX2,10            Preferred Stock w/ Exercised Warrants          $6,500,000                                                                                                                                    $1,009,836
2/6/2009     Liberty Financial Services, Inc., New Orleans, LA3,30   Preferred Stock                                $5,645,000   9/24/2010           $5,645,000             $—     N/A                                 N/A                                          $461,009
2/20/2009    Liberty Shares, Inc., Hinesville, GA2                   Preferred Stock w/ Exercised Warrants         $17,280,000                                                                                                                                    $1,399,560
7/10/2009    Lincoln National Corporation, Radnor, PA                Preferred Stock w/ Warrants                 $950,000,000    6/30/2010        $950,000,000              $—     9/16/2010       A        $213,671,319            $25.90                       $46,180,555
12/12/2008   LNB Bancorp Inc., Lorain, OH88                          Preferred Stock w/ Warrants                   $25,223,000   6/13/2012         $21,594,229              $—     7/18/2012       R             $860,326            $5.90                        $4,438,492
2/6/2009     Lone Star Bank, Houston, TX2                            Preferred Stock w/ Exercised Warrants          $3,072,000                                                                                                                                            $—
12/12/2008   LSB Corporation, North Andover, MA                      Preferred Stock w/ Warrants                   $15,000,000   11/18/2009        $15,000,000              $—     12/16/2009      R             $560,000                        407,542            $700,000
6/26/2009    M&F Bancorp, Inc., Durham, NC2,3,10,30                  Preferred Stock                               $11,735,000   8/20/2010         $11,735,000              $—     N/A                                 N/A                                          $674,763
                                                                                                                                 5/18/2011        $370,000,000     $230,000,000
12/23/2008   M&T Bank Corporation, Buffalo, NY                       Preferred Stock w/ Warrants                 $600,000,000                                                      12/17/2012      P          $31,838,761           $98.47                       $86,553,400
                                                                                                                                 8/17/2012        $230,000,000              $—
             M&T Bank Corporation, (Provident Bancshares
11/14/2008                                                           Preferred Stock w/ Warrants                 $151,500,000    8/17/2012        $151,500,000              $—                                                                                   $28,553,037
             Corp.), Baltimore, MD119
             M&T Bank Corporation (Wilmington Trust
12/12/2008                                                           Preferred Stock w/ Warrants                 $330,000,000    5/13/2011        $330,000,000              $—                                                                    95,383         $39,920,833
             Corporation), Wilmington, DE43
4/24/2009    Mackinac Financial Corporation, Manistique, MI121       Preferred Stock w/ Warrants                   $11,000,000   8/23/2012         $10,380,905              $—     12/19/2012      R           $1,300,000            $7.09                        $1,840,923
3/13/2009    Madison Financial Corporation, Richmond, KY2            Preferred Stock w/ Exercised Warrants          $3,370,000                                                                                                                                      $169,422
                                                                                                                                 11/24/2009          $3,455,000     $10,340,000
12/23/2008   Magna Bank, Memphis, TN2,49                             Preferred Stock w/ Exercised Warrants         $13,795,000   6/8/2011            $3,455,000      $6,885,000    8/18/2011       R             $690,000                                         $1,661,468
                                                                                                                                 8/18/2011           $6,885,000             $—
12/29/2009   Mainline Bancorp, Inc., Ebensburg, PA2,73               Preferred Stock w/ Exercised Warrants          $4,500,000   3/9/2012            $4,500,000             $—     3/9/2012        R             $225,000           $69.50                          $538,188
1/16/2009    MainSource Financial Group, Inc., Greensburg, IN78 Preferred Stock w/ Warrants                        $57,000,000   3/28/2012         $52,277,171              $—                                                      $12.67       571,906          $9,159,773
12/5/2008    Manhattan Bancorp, El Segundo, CA                       Preferred Stock w/ Warrants                    $1,700,000   9/16/2009           $1,700,000             $—     10/14/2009      R              $63,364            $3.75                           $66,347
                                                                     Subordinated Debentures w/ Exercised
6/19/2009    Manhattan Bancshares, Inc., Manhattan, IL8,183                                                         $2,639,000   12/11/2012          $2,560,541             $—     12/11/2012      P             $131,021                                           $770,044
                                                                     Warrants
                                                                                                                                                                                                                                                        Continued on next page
CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)
                                                                                                                                  Capital                                           Final                                             Stock        Current
Purchase                                                                                                                          Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                            Investment Description                    Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
3/6/2009     Marine Bank & Trust Company, Vero Beach, FL2           Preferred Stock w/ Exercised Warrants            $3,000,000                                                                                                                                      $235,713
2/20/2009    Market Bancorporation, Inc., New Market, MN2           Preferred Stock w/ Exercised Warrants            $2,060,000                                                                                                                                      $138,778
                                                                    Subordinated Debentures
5/15/2009    Market Street Bancshares, Inc., Mt. Vernon, IL8,109                                                    $20,300,000   7/27/2012         $18,069,213              $—     7/27/2012       P             $824,731                                         $5,535,303
                                                                    w/ Exercised Warrants
12/19/2008   Marquette National Corporation, Chicago, IL2,102       Preferred Stock w/ Exercised Warrants           $35,500,000   7/27/2012         $25,313,186              $—     7/27/2012       P           $1,450,171         $121.00                         $7,072,587
11/14/2008   Marshall & Ilsley Corporation, Milwaukee, WI44         Preferred Stock w/ Warrants                  $1,715,000,000   7/5/2011        $1,715,000,000             $—     7/5/2011        R           $3,250,000                                      $226,522,917
3/27/2009    Maryland Financial Bank, Towson, MD2                   Preferred Stock w/ Exercised Warrants            $1,700,000                                                                                                                                      $243,978
12/5/2008    MB Financial Inc., Chicago, IL                         Preferred Stock w/ Warrants                   $196,000,000    3/14/2012        $196,000,000              $—     5/2/2012        R           $1,518,072           $19.75                       $32,095,000
11/20/2009   McLeod Bancshares, Inc., Shorewood, MN2,50             Preferred Stock w/ Exercised Warrants            $6,000,000   8/18/2011           $6,000,000             $—     8/18/2011       R             $300,000                                           $570,433
2/27/2009    Medallion Bank, Salt Lake City, UT2,49                 Preferred Stock w/ Exercised Warrants           $11,800,000   7/21/2011         $11,800,000              $—     7/21/2011       R             $590,000                                         $2,317,675
12/22/2009   Medallion Bank, Salt Lake City, UT2,10a,49             Preferred Stock w/ Exercised Warrants            $9,698,000   7/21/2011           $9,698,000             $—     7/21/2011       R              $55,000
                                                                                                                                  4/4/2012          $10,500,000      $10,500,000
5/15/2009    Mercantile Bank Corporation, Grand Rapids, MI          Preferred Stock w/ Warrants                     $21,000,000                                                     7/3/2012        R           $7,465,100           $16.50                        $3,166,021
                                                                                                                                  6/6/2012          $10,500,000              $—
2/6/2009     Mercantile Capital Corp., Boston, MA2,49               Preferred Stock w/ Exercised Warrants            $3,500,000   8/4/2011            $3,500,000             $—     8/4/2011        R             $175,000                                           $475,815
             Merchants and Manufacturers Bank Corporation,
6/19/2009                                                           Preferred Stock w/ Exercised Warrants            $3,510,000   9/8/2011            $3,510,000             $—     9/8/2011        R             $176,000                                           $424,668
             Joliet, IL2,49
             Merchants and Planters Bancshares, Inc.,
3/6/2009                                                            Preferred Stock w/ Exercised Warrants            $1,881,000   9/7/2011            $1,881,000             $—     9/7/2011        R              $94,000                                           $256,560
             Toone, TN2,62
2/13/2009    Meridian Bank, Devon, PA2                              Preferred Stock w/ Exercised Warrants            $6,200,000
                                                                                                                                                                                                                                                                   $2,196,376
12/11/2009   Meridian Bank, Devon, PA2,10a                          Preferred Stock                                  $6,335,000
                                              2,141
1/30/2009    Metro City Bank, Doraville, GA                         Preferred Stock w/ Exercised Warrants            $7,700,000   10/31/2012          $6,861,462             $—     10/31/2012      R             $369,948                                         $1,574,888
1/16/2009    MetroCorp Bancshares, Inc., Houston, TX95              Preferred Stock w/ Warrants                     $45,000,000   6/27/2012         $43,490,360              $—                                                      $10.99       771,429          $7,828,900
6/26/2009    Metropolitan Bank Group, Inc., Chicago, IL2,41         Preferred Stock w/ Exercised Warrants           $74,706,000                                                                                                                                      $332,256
             Metropolitan Bank Group, Inc. (NC Bancorp, Inc.),
6/26/2009                                                           Preferred Stock w/ Exercised Warrants            $7,186,000                                                                                                                                    $3,454,185
             Chicago, IL2,41
4/10/2009    Metropolitan Capital Bancorp, Inc., Chicago, IL2       Preferred Stock w/ Exercised Warrants            $2,040,000
                                                                                                                                                                                                                                                                     $750,509
11/20/2009   Metropolitan Capital Bancorp, Inc., Chicago, IL2,10a   Preferred Stock                                  $2,348,000
12/19/2008   Mid Penn Bancorp, Inc., Millersburg, PA                Preferred Stock w/ Warrants                     $10,000,000   12/28/2012        $10,000,000              $—                                                      $11.19        73,099          $2,012,500
1/30/2009    Middleburg Financial Corporation, Middleburg, VA       Preferred Stock w/ Warrants                     $22,000,000   12/23/2009        $22,000,000              $—     11/18/2011      P             $301,001                                           $986,944
1/23/2009    Midland States Bancorp, Inc., Effingham, IL2           Preferred Stock w/ Exercised Warrants           $10,189,000   12/23/2009        $10,189,000              $—     12/23/2009      R             $509,000                                           $508,989
1/9/2009     MidSouth Bancorp, Inc., Lafayette, LA49                Preferred Stock w/ Warrants                     $20,000,000   8/25/2011         $20,000,000              $—     11/18/2011      P             $206,557                                         $2,627,778
2/27/2009    Midtown Bank & Trust Company, Atlanta, GA2             Preferred Stock w/ Exercised Warrants            $5,222,000                                                                                                                                      $275,105
                                                                    Mandatorily Convertible Preferred Stock
12/5/2008    Midwest Banc Holdings, Inc., Melrose Park, IL14,20                                                     $89,388,000                                                                                                                 4,282,020            $824,289
                                                                    w/ Warrants
2/13/2009    Midwest Regional Bancorp, Inc., Festus, MO2            Preferred Stock w/ Exercised Warrants             $700,000    11/10/2009           $700,000              $—     11/10/2009      R              $35,000                                            $28,294
2/6/2009     MidWestOne Financial Group, Inc., Iowa City, IA        Preferred Stock w/ Warrants                     $16,000,000   7/6/2011          $16,000,000              $—     7/27/2011       R           $1,000,000           $20.51                        $1,933,333
2/20/2009    Mid-Wisconsin Financial Services, Inc., Medford, WI2 Preferred Stock w/ Exercised Warrants             $10,000,000                                                                                                       $5.00                        $1,082,431
4/3/2009     Millennium Bancorp, Inc., Edwards, CO2,84              Preferred Stock w/ Exercised Warrants            $7,260,000   8/14/2012           $2,904,000             $—     8/14/2012                           $—                                         $1,392,562
1/9/2009     Mission Community Bancorp, San Luis Obispo, CA3        Preferred Stock                                  $5,116,000   12/28/2011          $5,116,000             $—     N/A                                 N/A           $3.40                          $759,584
12/23/2008   Mission Valley Bancorp, Sun Valley, CA3,30             Preferred Stock                                  $5,500,000   8/20/2010           $5,500,000             $—     N/A                                 N/A                                          $456,042
12/19/2008   Monadnock Bancorp, Inc., Peterborough, NH2             Preferred Stock w/ Exercised Warrants            $1,834,000   12/28/2012          $1,834,000             $—     12/28/2012      R              $92,000            $5.25                          $413,349
2/6/2009     Monarch Community Bancorp, Inc., Coldwater, MI         Preferred Stock w/ Warrants                      $6,785,000                                                                                                       $0.77       260,962            $262,919
12/19/2008   Monarch Financial Holdings, Inc., Chesapeake, VA       Preferred Stock w/ Warrants                     $14,700,000   12/23/2009        $14,700,000              $—     2/10/2010       R             $260,000            $8.22                          $743,167
3/13/2009    Moneytree Corporation, Lenoir City, TN2,50             Preferred Stock w/ Exercised Warrants            $9,516,000   9/15/2011           $9,516,000             $—     9/15/2011       R             $476,000                                         $1,299,481
1/30/2009    Monument Bank, Bethesda, MD2,49                        Preferred Stock w/ Exercised Warrants            $4,734,000   8/11/2011           $4,734,000             $—     8/11/2011       R             $237,000                                           $652,959
10/28/2008   Morgan Stanley, New York, NY                           Preferred Stock w/ Warrants                 $10,000,000,000   6/17/2009      $10,000,000,000             $—     8/12/2009       R        $950,000,000            $19.12                     $318,055,555
1/16/2009    Morrill Bancshares, Inc., Merriam, KS2                 Preferred Stock w/ Exercised Warrants           $13,000,000   7/20/2011         $13,000,000              $—     7/20/2011       R             $650,000                                         $1,779,122
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                                                                                                  4/25/2012           $1,100,000      $5,116,000
                                                       2
1/23/2009    Moscow Bancshares, Inc., Moscow, TN                    Preferred Stock w/ Exercised Warrants            $6,216,000                                                     12/5/2012       R             $311,000                                         $1,276,377
                                                                                                                                  12/5/2012           $5,116,000             $—
                                                                2
9/25/2009    Mountain Valley Bancshares, Inc., Cleveland, GA        Preferred Stock w/ Exercised Warrants            $3,300,000                                                                                                                                      $564,529
3/27/2009    MS Financial, Inc., Kingwood, TX2                      Preferred Stock w/ Exercised Warrants            $7,723,000   10/19/2011          $7,723,000             $—     10/19/2011      R             $386,000                                         $1,097,290
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  247
CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)                                                                                                                                                                                                                            248
                                                                                                                                Capital                                           Final                                             Stock        Current
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
12/23/2008   MutualFirst Financial, Inc., Muncie, IN50              Preferred Stock w/ Warrants                   $32,382,000   8/25/2011         $32,382,000              $—     9/28/2011       R             $900,194           $11.43                        $4,326,595
3/27/2009    Naples Bancorp, Inc., Naples, FL2,99                   Preferred Stock w/ Exercised Warrants          $4,000,000   7/12/2012            $600,000              $—     N/A                                 N/A                                          $356,067
2/27/2009    National Bancshares, Inc., Bettendorf, IA2             Preferred Stock w/ Exercised Warrants         $24,664,000                                                                                                                                    $2,307,492
12/12/2008   National Penn Bancshares, Inc., Boyertown, PA          Preferred Stock w/ Warrants                 $150,000,000    3/16/2011        $150,000,000              $—     4/13/2011       R           $1,000,000            $9.32                       $16,958,333

                                                             8      Subordinated Debentures
12/11/2009   Nationwide Bankshares, Inc., West Point, NE                                                           $2,000,000   12/29/2010          $2,000,000             $—     12/29/2010      R             $100,000                                           $176,190
                                                                    w/ Exercised Warrants
12/19/2008   NCAL Bancorp, Los Angeles, CA2                         Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                       $1.95                        $1,311,028
                                                                    Subordinated Debentures
6/19/2009    NEMO Bancshares Inc., Madison, MO8                                                                    $2,330,000                                                                                                                                      $665,977
                                                                    w/ Exercised Warrants
             New Hampshire Thrift Bancshares, Inc.,
1/16/2009                                                           Preferred Stock w/ Warrants                   $10,000,000   8/25/2011         $10,000,000              $—     2/15/2012       R             $737,100           $12.70                        $1,304,167
             Newport, NH49
             New York Private Bank & Trust Corporation,
1/9/2009                                                            Preferred Stock w/ Exercised Warrants       $267,274,000                                                                                                                                    $56,080,871
             New York, NY2
12/12/2008   NewBridge Bancorp, Greensboro, NC                      Preferred Stock w/ Warrants                   $52,372,000                                                                                                       $4.63     2,567,255         $10,278,005
12/23/2008   Nicolet Bankshares, Inc., Green Bay, WI2,49            Preferred Stock w/ Exercised Warrants         $14,964,000   9/1/2011          $14,964,000              $—     9/1/2011        R             $748,000                                         $2,192,843
1/9/2009     North Central Bancshares, Inc., Fort Dodge, IA         Preferred Stock w/ Warrants                   $10,200,000   12/14/2011        $10,200,000              $—     1/11/2012       R             $600,000                                         $1,494,583
12/12/2008   Northeast Bancorp, Lewiston, ME                        Preferred Stock w/ Warrants                    $4,227,000   11/28/2012          $4,227,000             $—     12/28/2012      R              $95,000            $9.15                          $837,181
5/15/2009    Northern State Bank, Closter, NJ2                      Preferred Stock w/ Exercised Warrants          $1,341,000   3/28/2012           $1,341,000             $—     3/28/2012       R              $67,000
                                                                                                                                                                                                                                                                   $349,782
                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




12/18/2009   Northern State Bank, Closter, NJ2,10a                  Preferred Stock                                $1,230,000   3/28/2012           $1,230,000             $—     N/A                                 N/A
             Northern States Financial Corporation,
2/20/2009                                                           Preferred Stock w/ Warrants                   $17,211,000                                                                                                       $0.62       584,084            $418,323
             Waukegan, IL
11/14/2008   Northern Trust Corporation, Chicago, IL                Preferred Stock w/ Warrants                $1,576,000,000   6/17/2009       $1,576,000,000             $—     8/26/2009       R          $87,000,000           $50.16                       $46,623,333
1/30/2009    Northway Financial, Inc., Berlin, NH2,49               Preferred Stock w/ Exercised Warrants         $10,000,000   9/15/2011         $10,000,000              $—     9/15/2011       R             $500,000           $12.30                        $1,430,625
2/13/2009    Northwest Bancorporation, Inc., Spokane, WA2           Preferred Stock w/ Exercised Warrants         $10,500,000                                                                                                                                      $575,430
2/13/2009    Northwest Commercial Bank, Lakewood, WA2               Preferred Stock w/ Exercised Warrants          $1,992,000                                                                                                                                      $272,103
1/30/2009    Oak Ridge Financial Services, Inc., Oak Ridge, NC139   Preferred Stock w/ Warrants                    $7,700,000   10/31/2012          $7,024,595             $—                                                       $4.07       163,830          $1,444,854
12/5/2008    Oak Valley Bancorp, Oakdale, CA50                      Preferred Stock w/ Warrants                   $13,500,000   8/11/2011         $13,500,000              $—     9/28/2011       R             $560,000            $7.45                        $1,811,250
1/16/2009    OceanFirst Financial Corp., Toms River, NJ             Preferred Stock w/ Warrants                   $38,263,000   12/30/2009        $38,263,000              $—     2/3/2010        R             $430,797           $13.75                        $1,828,122
1/30/2009    Ojai Community Bank, Ojai, CA2                         Preferred Stock w/ Exercised Warrants          $2,080,000                                                                                                       $7.00                          $373,143
12/5/2008    Old Line Bancshares, Inc., Bowie, MD                   Preferred Stock w/ Warrants                    $7,000,000   7/15/2009           $7,000,000             $—     9/2/2009        R             $225,000           $11.29                          $213,889
12/12/2008   Old National Bancorp, Evansville, IN                   Preferred Stock w/ Warrants                 $100,000,000    3/31/2009        $100,000,000              $—     5/8/2009        R           $1,200,000           $11.87                        $1,513,889
1/16/2009    Old Second Bancorp, Inc., Aurora, IL                   Preferred Stock w/ Warrants                   $73,000,000                                                                                                       $1.22       815,339          $5,769,028
4/17/2009    Omega Capital Corp., Lakewood, CO2                     Preferred Stock w/ Exercised Warrants          $2,816,000                                                                                                                                       $50,311
5/8/2009     One Georgia Bank, Atlanta, GA2,56                      Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                                                            $—
                                                                    Subordinated Debentures
6/5/2009     OneFinancial Corporation, Little Rock, AR8,10                                                        $17,300,000                                                                                                                                    $3,782,991
                                                                    w/ Exercised Warrants
12/19/2008   OneUnited Bank, Boston, MA2,3                          Preferred Stock                               $12,063,000                                                                                                                                       $93,823
4/24/2009    Oregon Bancorp, Inc., Salem, OR2                       Preferred Stock w/ Exercised Warrants          $3,216,000                                                                                                       $9.10                          $623,740
                                                                    Subordinated Debentures
5/1/2009     OSB Financial Services, Inc., Orange, TX8                                                             $6,100,000   10/5/2011           $6,100,000             $—     10/5/2011       R             $305,000                                         $1,257,315
                                                                    w/ Exercised Warrants
11/21/2008   Pacific Capital Bancorp, Santa Barbara, CA29           Common Stock w/ Warrants                    $195,045,000    11/30/2012       $165,983,272      $29,061,728    11/30/2012      R             $393,121                                         $2,107,397
12/19/2008   Pacific City Financial Corporation, Los Angeles, CA2   Preferred Stock w/ Exercised Warrants         $16,200,000                                                                                                                                      $358,065
             Pacific Coast Bankers’ Bancshares,
12/23/2008                                                          Preferred Stock w/ Exercised Warrants         $11,600,000   7/28/2011         $11,600,000              $—     7/28/2011       R             $580,000                                         $1,641,964
             San Francisco, CA2,50
             Pacific Coast National Bancorp,
1/16/2009                                                           Preferred Stock w/ Exercised Warrants          $4,120,000   2/11/2010                 $—               $—     N/A                                 N/A           $0.01                           $18,088
             San Clemente, CA2,19
12/23/2008   Pacific Commerce Bank, Los Angeles, CA2                Preferred Stock w/ Exercised Warrants          $4,060,000                                                                                                       $2.40                          $387,223
12/12/2008   Pacific International Bancorp, Seattle, WA             Preferred Stock w/ Warrants                    $6,500,000                                                                                                       $1.49                          $463,125
3/6/2009     Park Bancorporation, Inc., Madison, WI2,106            Preferred Stock w/ Exercised Warrants         $23,200,000   7/27/2012         $16,772,382              $—     7/27/2012       P             $896,039                                         $4,351,643
12/23/2008   Park National Corporation, Newark, OH                  Preferred Stock w/ Warrants                 $100,000,000    4/25/2012        $100,000,000              $—     5/2/2012        R           $2,842,400           $64.63                       $16,694,444
1/30/2009    Parke Bancorp, Inc., Sewell, NJ174                     Preferred Stock w/ Warrants                   $16,288,000   11/29/2012        $11,595,735              $—                                                       $4.97       399,006          $3,119,532
                                                                                                                                                                                                                                                       Continued on next page
CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)
                                                                                                                               Capital                                           Final                                             Stock        Current
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                          Investment Description                   Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
             Pascack Bancorp, Inc. (Pascack Community Bank),
2/6/2009                                                          Preferred Stock w/ Exercised Warrants           $3,756,000   10/19/2011          $3,756,000             $—     10/19/2011      R             $188,000                                           $553,313
             Westwood, NJ2,13
12/19/2008   Patapsco Bancorp, Inc., Dundalk, MD2                 Preferred Stock w/ Exercised Warrants           $6,000,000                                                                                                       $0.91                          $377,867
9/11/2009    Pathfinder Bancorp, Inc., Oswego, NY49               Preferred Stock w/ Warrants                     $6,771,000   9/1/2011            $6,771,000             $—     2/1/2012        R             $537,633           $10.30                          $667,696
3/27/2009    Pathway Bancorp, Cairo, NE2                          Preferred Stock w/ Exercised Warrants           $3,727,000                                                                                                                                       $77,852
12/19/2008   Patriot Bancshares, Inc., Houston, TX2               Preferred Stock w/ Exercised Warrants          $26,038,000                                                                                                                                    $2,704,136
                                                                                                                               3/7/2012             $250,000       $3,440,000
                                                                                                                                                                                                                                                                  $727,981
4/17/2009    Patterson Bancshares, Inc, Patterson, LA2            Preferred Stock w/ Exercised Warrants           $3,690,000   8/22/2012            $250,000       $3,190,000
                                                                                                                               12/5/2012            $250,000       $2,940,000
                                                                                                                               1/6/2010            $7,172,000     $21,513,000
             Peapack-Gladstone Financial Corporation,
1/9/2009                                                          Preferred Stock w/ Warrants                    $28,685,000   3/2/2011            $7,172,000     $14,341,000    4/4/2012        R             $110,000           $14.08                        $3,280,740
             Gladstone, NJ
                                                                                                                               1/11/2012         $14,341,000              $—
1/30/2009    Peninsula Bank Holding Co., Palo Alto, CA            Preferred Stock w/ Warrants                     $6,000,000                                                                                                                    81,670          $1,158,943
4/17/2009    Penn Liberty Financial Corp., Wayne, PA2,49          Preferred Stock w/ Exercised Warrants           $9,960,000   9/1/2011            $9,960,000             $—     9/1/2011        R             $498,000                                         $1,287,689
2/13/2009    Peoples Bancorp, Lynden, WA2,62                      Preferred Stock w/ Exercised Warrants          $18,000,000   8/3/2011          $18,000,000              $—     8/3/2011        R             $900,000                                         $2,425,250
                                                                                                                               2/2/2011          $21,000,000      $18,000,000
1/30/2009    Peoples Bancorp Inc., Marietta, OH                   Preferred Stock w/ Warrants                    $39,000,000                                                     2/15/2012       R           $1,200,724           $20.43                        $4,725,833
                                                                                                                               12/28/2011        $18,000,000              $—
             Peoples Bancorp of North Carolina, Inc.,
12/23/2008                                                        Preferred Stock w/ Warrants                    $25,054,000   6/27/2012         $23,033,635              $—     8/8/2012        R             $425,000            $9.10                        $4,419,331
             Newton, NC93
4/24/2009    Peoples Bancorporation, Inc., Easley, SC2,83         Preferred Stock w/ Exercised Warrants          $12,660,000   4/24/2012         $12,660,000              $—     4/24/2012       R             $633,000                                         $2,069,910
3/20/2009    Peoples Bancshares of TN, Inc, Madisonville, TN2,142 Preferred Stock w/ Exercised Warrants           $3,900,000   10/31/2012          $2,919,500             $—     10/31/2012      R             $122,225                                           $768,149
3/6/2009     PeoplesSouth Bancshares, Inc., Colquitt, GA2         Preferred Stock w/ Exercised Warrants          $12,325,000                                                                                                                                    $2,479,656
9/11/2009    PFSB Bancorporation, Inc., Pigeon Falls, WI2,10,50   Preferred Stock w/ Exercised Warrants           $1,500,000   8/25/2011           $1,500,000             $—     8/25/2011       R              $71,000                                           $159,163
2/6/2009     PGB Holdings, Inc., Chicago, IL3,30                  Preferred Stock                                 $3,000,000   8/13/2010           $3,000,000             $—     N/A                                 N/A                                          $227,917
1/23/2009    Pierce County Bancorp, Tacoma, WA2,51                Preferred Stock w/ Exercised Warrants           $6,800,000                                                                                                                                      $207,948
             Pinnacle Bank Holding Company, Inc.,
3/6/2009                                                          Preferred Stock w/ Exercised Warrants           $4,389,000                                                                                                                   267,455            $284,999
             Orange City, FL2,116
                                                                                                                               12/28/2011        $23,750,000      $71,250,000
12/12/2008   Pinnacle Financial Partners, Inc., Nashville, TN     Preferred Stock w/ Warrants                    $95,000,000                                                     7/18/2012       R             $755,000           $18.84                       $16,163,194
                                                                                                                               6/20/2012         $71,250,000              $—
12/19/2008   Plains Capital Corporation, Dallas, TX2,49           Preferred Stock w/ Exercised Warrants          $87,631,000   9/27/2011         $87,631,000              $—     9/27/2011       R           $4,382,000                                        $13,239,940
                                                                  Subordinated Debentures
7/17/2009    Plato Holdings Inc., Saint Paul, MN8,10                                                              $2,500,000                                                                                                                                      $534,286
                                                                  w/ Exercised Warrants
1/30/2009    Plumas Bancorp, Quincy, CA                           Preferred Stock w/ Warrants                    $11,949,000                                                                                                       $3.26       237,712            $622,344
12/5/2008    Popular, Inc., San Juan, PR12                        Trust Preferred Securities w/ Warrants       $935,000,000                                                                                                       $20.79     2,093,284       $171,546,528
11/21/2008   Porter Bancorp Inc., Louisville, KY                  Preferred Stock w/ Warrants                    $35,000,000                                                                                                       $0.70       330,561          $4,783,333
4/3/2009     Prairie Star Bancshares, Inc., Olathe, KS2           Preferred Stock w/ Exercised Warrants           $2,800,000                                                                                                                                      $132,253
5/8/2009     Premier Bancorp, Inc., Wilmette, IL3,8,30            Subordinated Debentures                         $6,784,000   8/13/2010           $6,784,000             $—     N/A                                 N/A                                          $660,215
3/20/2009    Premier Bank Holding Company, Tallahassee, FL2       Preferred Stock w/ Exercised Warrants           $9,500,000                                                                                                                                      $467,413
10/2/2009    Premier Financial Bancorp, Inc., Huntington, WV112   Preferred Stock w/ Warrants                    $22,252,000   7/27/2012         $19,849,222              $—                                                      $10.83       628,588          $3,203,018
                                                                  Subordinated Debentures
5/22/2009    Premier Financial Corp, Dubuque, IA8                                                                 $6,349,000                                                                                                                                      $522,263
                                                                  w/ Exercised Warrants
                                                   2
2/20/2009    Premier Service Bank, Riverside, CA                  Preferred Stock w/ Exercised Warrants           $4,000,000                                                                                                       $0.90                           $54,500
2/13/2009    PremierWest Bancorp, Medford, OR                     Preferred Stock w/ Warrants                    $41,400,000                                                                                                       $1.61       109,039          $1,046,500
11/20/2009   Presidio Bank, San Francisco, CA2,10,184             Preferred Stock w/ Exercised Warrants          $10,800,000   12/11/2012          $9,058,369             $—     12/11/2012      P             $278,381            $7.50                        $1,740,944
1/23/2009    Princeton National Bancorp, Inc., Princeton, IL159   Preferred Stock w/ Warrants                    $25,083,000                                                                                                       $0.02       155,025          $2,271,405
2/27/2009    Private Bancorporation, Inc., Minneapolis, MN2       Preferred Stock w/ Exercised Warrants           $4,960,000
                                                                                                                                                                                                                                                                  $498,860
12/29/2009   Private Bancorporation, Inc., Minneapolis, MN2,10a   Preferred Stock                                 $3,262,000
                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




1/30/2009    PrivateBancorp, Inc., Chicago, IL                    Preferred Stock w/ Warrants                  $243,815,000    10/24/2012       $243,815,000              $—     11/14/2012      R           $1,225,000           $15.32                       $45,512,133
10/2/2009    Providence Bank, Rocky Mount, NC2,10,49              Preferred Stock w/ Exercised Warrants           $4,000,000   9/15/2011           $4,000,000             $—     9/15/2011       R             $175,000                                           $421,312
             Provident Community Bancshares, Inc.,
3/13/2009                                                         Preferred Stock w/ Warrants                     $9,266,000                                                                                                       $0.30       178,880            $543,091
             Rock Hill, SC
                                                   2,30
2/27/2009    PSB Financial Corporation, Many, LA                  Preferred Stock w/ Exercised Warrants           $9,270,000   9/29/2010           $9,270,000             $—     9/29/2010       R             $464,000                                           $802,802
                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                               249
CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)                                                                                                                                                                                                                               250
                                                                                                                                   Capital                                           Final                                             Stock        Current
Purchase                                                                                                                           Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                               Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
1/16/2009    Puget Sound Bank, Bellevue, WA2,49                        Preferred Stock w/ Exercised Warrants          $4,500,000   8/11/2011           $4,500,000             $—     8/11/2011       R             $225,000           $11.20                          $630,157
1/16/2009    Pulaski Financial Corp, Creve Coeur, MO96                 Preferred Stock w/ Warrants                   $32,538,000   6/27/2012         $28,460,338              $—     8/8/2012        R           $1,100,000            $8.95                        $5,635,509
2/13/2009    QCR Holdings, Inc., Moline, IL49                          Preferred Stock w/ Warrants                   $38,237,000   9/15/2011         $38,237,000              $—     11/16/2011      R           $1,100,000           $13.22                        $4,949,567
10/30/2009   Randolph Bank & Trust Company, Asheboro, NC2              Preferred Stock w/ Exercised Warrants          $6,229,000                                                                                                                                      $608,163
6/19/2009    RCB Financial Corporation, Rome, GA2,10                   Preferred Stock w/ Exercised Warrants          $8,900,000                                                                                                                                      $893,934
1/16/2009    Redwood Capital Bancorp, Eureka, CA2,49                   Preferred Stock w/ Exercised Warrants          $3,800,000   7/21/2011           $3,800,000             $—     7/21/2011       R             $190,000            $7.10                          $520,626
1/9/2009     Redwood Financial Inc., Redwood Falls, MN2,49             Preferred Stock w/ Exercised Warrants          $2,995,000   8/18/2011           $2,995,000             $—     8/18/2011       R             $150,000           $15.40                          $425,811
3/6/2009     Regent Bancorp, Inc., Davie, FL2                          Preferred Stock w/ Exercised Warrants          $9,982,000                                                                                                                                      $784,282
2/27/2009    Regent Capital Corporation, Nowata, OK2,49                Preferred Stock w/ Exercised Warrants          $2,655,000   7/21/2011           $2,655,000             $—     7/21/2011       R             $133,000                                           $347,328
10/23/2009   Regents Bancshares, Inc., Vancouver, WA2,10,69            Preferred Stock w/ Exercised Warrants         $12,700,000   1/27/2012         $12,700,000              $—     1/27/2012       R             $381,000                                         $1,513,339
2/13/2009    Regional Bankshares, Inc., Hartsville, SC2,151            Preferred Stock w/ Exercised Warrants          $1,500,000   11/9/2012           $1,373,625             $—     11/9/2012       P              $74,250                                           $305,660
11/14/2008   Regions Financial Corporation, Birmingham, AL             Preferred Stock w/ Warrants                $3,500,000,000   4/4/2012        $3,500,000,000             $—     5/2/2012        R          $45,000,000            $7.13                     $593,055,556
2/13/2009    Reliance Bancshares, Inc., Frontenac, MO2                 Preferred Stock w/ Exercised Warrants         $40,000,000                                                                                                       $0.70                        $3,827,111
2/27/2009    Ridgestone Financial Services, Inc., Brookfield, WI2 Preferred Stock w/ Exercised Warrants              $10,900,000                                                                                                                                      $277,224
1/9/2009     Rising Sun Bancorp, Rising Sun, MD2                       Preferred Stock w/ Exercised Warrants          $5,983,000                                                                                                                                      $195,637
                                                                       Subordinated Debentures
6/12/2009    River Valley Bancorporation, Inc., Wausau, WI8                                                          $15,000,000   6/6/2012          $10,500,000       $4,500,000                                                     $17.65                        $3,953,275
                                                                       w/ Exercised Warrants
                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                       Subordinated Debentures
5/15/2009    Riverside Bancshares, Inc., Little Rock, AR8                                                             $1,100,000                                                                                                                                      $276,870
                                                                       w/ Exercised Warrants
1/30/2009    Rogers Bancshares, Inc., Little Rock, AR2                 Preferred Stock w/ Exercised Warrants         $25,000,000                                                                                                                                      $738,021
             Royal Bancshares of Pennsylvania, Inc.,
2/20/2009                                                              Preferred Stock w/ Warrants                   $30,407,000                                                                                                       $1.20     1,104,370            $358,971
             Narberth, PA
1/16/2009    S&T Bancorp, Indiana, PA                                  Preferred Stock w/ Warrants                 $108,676,000    12/7/2011        $108,676,000              $—                                                      $18.07       517,012         $15,712,738
12/23/2008   Saigon National Bank, Westminster, CA2                    Preferred Stock w/ Exercised Warrants          $1,549,000                                                                                                       $0.25                                $—
3/13/2009    Salisbury Bancorp, Inc., Lakeville, CT49                  Preferred Stock w/ Warrants                    $8,816,000   8/25/2011           $8,816,000             $—     11/2/2011       R             $205,000           $23.34                        $1,079,960
                                                                                                                                   7/21/2010         $41,547,000      $41,547,000
12/5/2008    Sandy Spring Bancorp, Inc., Olney, MD                     Preferred Stock w/ Warrants                   $83,094,000                                                     2/23/2011       R           $4,450,000           $19.42                        $7,593,868
                                                                                                                                   12/15/2010        $41,547,000              $—
                                                                   2
2/13/2009    Santa Clara Valley Bank, N.A., Santa Paula, CA            Preferred Stock w/ Exercised Warrants          $2,900,000                                                                                                       $5.99                          $158,928
12/19/2008   Santa Lucia Bancorp, Atascadero, CA64                     Preferred Stock w/ Warrants                    $4,000,000   10/21/2011          $2,800,000             $—     N/A                                 N/A                                          $331,111
3/27/2009    SBT Bancorp, Inc., Simsbury, CT2,49                       Preferred Stock w/ Exercised Warrants          $4,000,000   8/11/2011           $4,000,000             $—     8/11/2011       R             $200,000                                           $517,145
1/16/2009    SCBT Financial Corporation, Columbia, SC                  Preferred Stock w/ Warrants                   $64,779,000   5/20/2009         $64,779,000              $—     6/24/2009       R           $1,400,000           $40.18                        $1,115,639
             Seacoast Banking Corporation of Florida,
12/19/2008                                                             Preferred Stock w/ Warrants                   $50,000,000   3/28/2012         $40,404,700              $—     5/30/2012       R              $55,000            $1.61                        $8,585,770
             Stuart, FL77
                                                            2,49
12/23/2008   Seacoast Commerce Bank, Chula Vista, CA                   Preferred Stock w/ Exercised Warrants          $1,800,000   9/1/2011            $1,800,000             $—     9/1/2011        R              $90,000            $4.50                          $263,780
             Security Bancshares of Pulaski County, Inc.,
2/13/2009                                                              Preferred Stock w/ Exercised Warrants          $2,152,000   12/11/2012          $1,475,592             $—     12/11/2012      P              $93,245                                           $449,073
             Waynesville, MO2,185
1/9/2009     Security Business Bancorp, San Diego, CA2,49              Preferred Stock w/ Exercised Warrants          $5,803,000   7/14/2011           $5,803,000             $—     7/14/2011       R             $290,000                                           $795,018
1/9/2009     Security California Bancorp, Riverside, CA2,49            Preferred Stock w/ Exercised Warrants          $6,815,000   9/15/2011           $6,815,000             $—     9/15/2011       R             $341,000            $8.01                          $996,698
6/26/2009    Security Capital Corporation, Batesville, MS2,10,30       Preferred Stock w/ Exercised Warrants         $17,388,000   9/29/2010         $17,388,000              $—     9/29/2010       R             $522,000                                         $1,153,111
12/19/2008   Security Federal Corporation, Aiken, SC30                 Preferred Stock w/ Warrants                   $18,000,000   9/29/2010         $18,000,000              $—                                                       $8.10       137,966          $1,600,000
2/20/2009    Security State Bancshares, Inc., Charleston, MO2,49       Preferred Stock w/ Exercised Warrants         $12,500,000   9/22/2011         $12,500,000              $—     9/22/2011       R             $625,000                                         $1,763,680
             Security State Bank Holding-Company,                      Subordinated Debentures
5/1/2009                                                                                                             $10,750,000                                                                                                                                    $1,414,005
             Jamestown, ND8                                            w/ Exercised Warrants
11/21/2008   Severn Bancorp, Inc., Annapolis, MD                       Preferred Stock w/ Warrants                   $23,393,000                                                                                                       $3.14       556,976          $3,781,869
1/9/2009     Shore Bancshares, Inc., Easton, MD                        Preferred Stock w/ Warrants                   $25,000,000   4/15/2009         $25,000,000              $—     11/16/2011      R              $25,000            $5.39       172,970            $333,333
                                                                       Subordinated Debentures
6/26/2009    Signature Bancshares, Inc., Dallas, TX8                                                                  $1,700,000   12/15/2010          $1,700,000             $—     12/15/2010      R              $85,000                                           $209,588
                                                                       w/ Exercised Warrants
12/12/2008   Signature Bank, New York, NY                              Preferred Stock w/ Warrants                 $120,000,000    3/31/2009        $120,000,000              $—     3/10/2010       A          $11,150,940           $71.34                        $1,816,667
1/16/2009    Somerset Hills Bancorp, Bernardsville, NJ                 Preferred Stock w/ Warrants                    $7,414,000   5/20/2009           $7,414,000             $—     6/24/2009       R             $275,000            $8.99                          $127,686
2/20/2009    Sonoma Valley Bancorp, Sonoma, CA2,25                     Preferred Stock w/ Exercised Warrants          $8,653,000                                                                                                                                      $347,164
1/9/2009     Sound Banking Company, Morehead City, NC2,152             Preferred Stock w/ Exercised Warrants          $3,070,000   11/13/2012          $2,804,089             $—     11/13/2012      P             $147,918            $4.55                          $643,399
12/5/2008    South Financial Group, Inc., Greenville, SC26             Preferred Stock w/ Warrants                 $347,000,000    9/30/2010        $130,179,219              $—     9/30/2010       R             $400,000                                        $16,386,111
                                                                                                                                                                                                                                                          Continued on next page
CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)
                                                                                                                                Capital                                           Final                                             Stock        Current
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                           Investment Description                   Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
7/17/2009    SouthCrest Financial Group, Inc., Fayetteville, GA2   Preferred Stock w/ Exercised Warrants          $12,900,000                                                                                                       $4.55                          $933,494
1/16/2009    Southern Bancorp, Inc., Arkadelphia, AR3,30           Preferred Stock                                $11,000,000   8/6/2010          $11,000,000              $—     N/A                                 N/A                                          $855,556
             Southern Community Financial Corp.,
12/5/2008                                                          Preferred Stock w/ Warrants                    $42,750,000   10/1/2012         $42,750,000              $—     N/A                                 N/A                                        $8,338,046
             Winston-Salem, NC
2/27/2009    Southern First Bancshares, Inc., Greenville, SC98     Preferred Stock w/ Warrants                    $17,299,000   6/27/2012         $15,403,722              $—     7/25/2012       R           $1,100,000            $9.30                        $2,897,640
             Southern Heritage Bancshares, Inc.,
5/15/2009                                                          Preferred Stock w/ Exercised Warrants           $4,862,000   9/8/2011            $4,862,000             $—     9/8/2011        R             $243,000                                           $613,111
             Cleveland, TN2,50
                                                       2,49
1/23/2009    Southern Illinois Bancorp, Inc., Carmi, IL            Preferred Stock w/ Exercised Warrants           $5,000,000   8/25/2011           $5,000,000             $—     8/25/2011       R             $250,000                                           $705,472
12/5/2008    Southern Missouri Bancorp, Inc., Poplar Bluff, MO49   Preferred Stock w/ Warrants                     $9,550,000   7/21/2011           $9,550,000             $—                                                      $22.45       114,326          $1,254,764
6/12/2009    SouthFirst Bancshares, Inc., Sylacauga, AL2           Preferred Stock w/ Exercised Warrants           $2,760,000                                                                                                       $1.50                          $364,796
12/5/2008    Southwest Bancorp, Inc., Stillwater, OK               Preferred Stock w/ Warrants                    $70,000,000   8/8/2012          $70,000,000              $—                                                      $11.20       703,753         $12,960,373
3/13/2009    Sovereign Bancshares, Inc., Dallas, TX2,49            Preferred Stock w/ Exercised Warrants          $18,215,000   9/22/2011         $18,215,000              $—     9/22/2011       R             $911,000                                         $2,506,669
3/27/2009    Spirit BankCorp, Inc., Bristow, OK2                   Preferred Stock w/ Exercised Warrants          $30,000,000                                                                                                                                    $2,261,750
3/13/2009    St. Johns Bancshares, Inc., St. Louis, MO2            Preferred Stock w/ Exercised Warrants           $3,000,000                                                                                                                                      $600,408
4/24/2009    Standard Bancshares, Inc., Hickory Hills, IL2,158     Preferred Stock w/ Exercised Warrants          $60,000,000                                                                                                                                    $6,730,750
                                                                                                                                8/12/2009         $12,500,000      $37,500,000
1/16/2009    State Bankshares, Inc., Fargo, ND2                    Preferred Stock w/ Exercised Warrants          $50,000,000                                                     6/29/2011       R           $2,500,000                                         $5,508,472
                                                                                                                                6/29/2011         $37,500,000              $—
2/13/2009    State Capital Corporation, Greenwood, MS2,30          Preferred Stock w/ Exercised Warrants          $15,000,000   9/29/2010         $15,000,000              $—     9/29/2010       R             $750,000                                         $1,330,709
10/28/2008   State Street Corporation, Boston, MA                  Preferred Stock w/ Warrants                 $2,000,000,000   6/17/2009       $2,000,000,000             $—     7/8/2009        R          $60,000,000           $47.01                       $63,611,111
                                                                   Subordinated Debentures
6/26/2009    Stearns Financial Services, Inc., St. Cloud, MN8                                                     $24,900,000   1/18/2012         $24,900,000              $—     1/18/2012       R           $1,245,000                                         $5,350,442
                                                                   w/ Exercised Warrants
                                                                   Subordinated Debentures
9/25/2009    Steele Street Bank Corporation, Denver, CO8,10,50                                                    $11,019,000   9/1/2011          $11,019,000              $—     9/1/2011        R             $331,000                                         $1,728,673
                                                                   w/ Exercised Warrants
                                                                                                                                4/13/2011           $7,500,000     $22,500,000
12/19/2008   StellarOne Corporation, Charlottesville, VA           Preferred Stock w/ Warrants                    $30,000,000                                                                                                      $14.14       302,623          $4,271,875
                                                                                                                                12/28/2011        $22,500,000              $—
12/23/2008   Sterling Bancorp, New York, NY                        Preferred Stock w/ Warrants                    $42,000,000   4/27/2011         $42,000,000              $—     5/18/2011       R             $945,775            $9.11                        $4,923,333
12/12/2008   Sterling Bancshares, Inc., Houston, TX                Preferred Stock w/ Warrants                  $125,198,000    5/5/2009         $125,198,000              $—     6/9/2010        A           $2,857,915                                         $2,486,571
12/5/2008    Sterling Financial Corporation, Spokane, WA24,118     Common Stock w/ Warrants                     $303,000,000    8/14/2012        $113,338,081              $—     9/19/2012       R             $825,000           $20.90                        $6,733,333
             Stewardship Financial Corporation,
1/30/2009                                                          Preferred Stock w/ Warrants                    $10,000,000   9/1/2011          $10,000,000              $—     10/26/2011      R             $107,398            $3.98                        $1,293,055
             Midland Park, NJ49
                                                                                                                                1/14/2011           $4,000,000     $11,568,000
2/6/2009     Stockmens Financial Corporation, Rapid City, SD2      Preferred Stock w/ Exercised Warrants          $15,568,000                                                     3/16/2011       R             $778,000                                         $1,755,554
                                                                                                                                3/16/2011         $11,568,000              $—
                                                              2
1/23/2009    Stonebridge Financial Corp., West Chester, PA         Preferred Stock w/ Exercised Warrants          $10,973,000                                                                                                                                      $634,609
                                                                   Subordinated Debentures w/ Exercised
6/19/2009    Suburban Illinois Bancorp, Inc., Elmhurst, IL8                                                       $15,000,000                                                                                                                                    $2,083,520
                                                                   Warrants
12/19/2008   Summit State Bank, Santa Rosa, CA49                   Preferred Stock w/ Warrants                     $8,500,000   8/4/2011            $8,500,000             $—     9/14/2011       R             $315,000            $6.75                        $1,115,625
1/9/2009     Sun Bancorp, Inc., Vineland, NJ                       Preferred Stock w/ Warrants                    $89,310,000   4/8/2009          $89,310,000              $—     5/27/2009       R           $2,100,000            $3.54                        $1,103,971
11/14/2008   SunTrust Banks, Inc., Atlanta, GA                     Preferred Stock w/ Warrants                 $3,500,000,000   3/30/2011       $3,500,000,000             $—     9/22/2011       A          $14,069,763
                                                                                                                                                                                                                                   $28.35                     $567,986,111
12/31/2008   SunTrust Banks, Inc., Atlanta, GA                     Preferred Stock w/ Warrants                 $1,350,000,000   3/30/2011       $1,350,000,000             $—     9/22/2011       A          $15,996,899
                                                      17,54
12/5/2008    Superior Bancorp Inc., Birmingham, AL                 Trust Preferred Securities w/ Warrants         $69,000,000                                                                                                                 1,923,792          $4,983,333
1/9/2009     Surrey Bancorp, Mount Airy, NC2                       Preferred Stock w/ Exercised Warrants           $2,000,000   12/29/2010          $2,000,000             $—     12/29/2010      R             $100,000            $8.75                          $214,972
                                                                                                                                4/21/2010        $200,000,000     $100,000,000
12/12/2008   Susquehanna Bancshares, Inc, Lititz, PA               Preferred Stock w/ Warrants                  $300,000,000                                                      1/19/2011       R           $5,269,179           $10.48                       $23,722,222
                                                                                                                                12/22/2010       $100,000,000              $—
                                            2
4/10/2009    SV Financial, Inc., Sterling, IL                      Preferred Stock w/ Exercised Warrants           $4,000,000   8/31/2011           $4,000,000             $—     8/31/2011       R             $200,000                                           $521,383
12/12/2008   SVB Financial Group, Santa Clara, CA                  Preferred Stock w/ Warrants                  $235,000,000    12/23/2009       $235,000,000              $—     6/16/2010       R           $6,820,000           $55.97                       $12,109,028
                                                                   Subordinated Debentures w/ Exercised
5/8/2009     Sword Financial Corporation , Horicon, WI8,49                                                        $13,644,000   9/15/2011         $13,644,000              $—     9/15/2011       R             $682,000                                         $2,693,234
                                                                   Warrants
12/19/2008   Synovus Financial Corp., Columbus, GA                 Preferred Stock w/ Warrants                  $967,870,000                                                                                                        $2.45    15,510,737       $189,003,503
                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




1/16/2009    Syringa Bancorp, Boise, ID2                           Preferred Stock w/ Exercised Warrants           $8,000,000                                                                                                       $0.02                          $253,122
11/21/2008   Taylor Capital Group, Rosemont, IL86                  Preferred Stock w/ Warrants                  $104,823,000    6/13/2012         $92,254,460              $—     7/18/2012       R           $9,839,273           $18.05                       $18,751,438
                                                                   Subordinated Debentures
8/28/2009    TCB Corporation, Greenwood, SC8,10,50                                                                 $9,720,000   9/8/2011            $9,720,000             $—     9/8/2011        R             $292,000                                         $1,599,381
                                                                   w/ Exercised Warrants
                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                251
CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)                                                                                                                                                                                                                           252
                                                                                                                               Capital                                           Final                                             Stock        Current
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                           Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
             TCB Holding Company, Texas Community Bank,
1/16/2009                                                          Preferred Stock w/ Exercised Warrants         $11,730,000                                                                                                                                      $690,832
             The Woodlands, TX2
11/14/2008   TCF Financial Corporation, Wayzata, MN                Preferred Stock w/ Warrants                 $361,172,000    4/22/2009        $361,172,000              $—     12/15/2009      A           $9,449,981           $12.15                        $7,925,719
12/23/2008   TCNB Financial Corp., Dayton, OH2                     Preferred Stock w/ Exercised Warrants          $2,000,000   8/3/2011            $2,000,000             $—     8/3/2011        R             $100,000                                           $284,611
12/19/2008   Tennessee Commerce Bancorp, Inc., Franklin, TN70      Preferred Stock w/ Warrants                   $30,000,000                                                                                                                   461,538          $3,233,333
             Tennessee Valley Financial Holdings, Inc.,
12/23/2008                                                         Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                      $146,242
             Oak Ridge, TN2
1/16/2009    Texas Capital Bancshares, Inc., Dallas, TX            Preferred Stock w/ Warrants                   $75,000,000   5/13/2009         $75,000,000              $—     3/11/2010       A           $6,559,066           $44.82                        $1,218,750
1/9/2009     Texas National Bancorporation, Jacksonville, TX2      Preferred Stock w/ Exercised Warrants          $3,981,000   5/19/2010           $3,981,000             $—     5/19/2010       R             $199,000                                           $295,308
8/7/2009     The ANB Corporation, Terrell, TX2,49                  Preferred Stock w/ Exercised Warrants         $20,000,000   8/25/2011         $20,000,000              $—     8/25/2011       R           $1,000,000                                         $2,234,500
12/12/2008   The Bancorp, Inc., Wilmington, DE                     Preferred Stock w/ Warrants                   $45,220,000   3/10/2010         $45,220,000              $—     9/8/2010        R           $4,753,985           $10.97                        $2,813,689
2/6/2009     The Bank of Currituck, Moyock, NC2,34                 Preferred Stock w/ Exercised Warrants          $4,021,000   12/3/2010           $1,742,850             $—     N/A                                 N/A                                          $169,834

             The Bank of Kentucky Financial Corporation,                                                                       12/22/2010        $17,000,000      $17,000,000
2/13/2009                                                          Preferred Stock w/ Warrants                   $34,000,000                                                                                                      $24.73       274,784          $3,940,694
             Crestview Hills, KY                                                                                               11/23/2011        $17,000,000              $—
             The Bank of New York Mellon Corporation,
10/28/2008                                                         Preferred Stock w/ Warrants                $3,000,000,000   6/17/2009       $3,000,000,000             $—     8/5/2009        R        $136,000,000            $25.70                       $95,416,667
             New York, NY
                                                          2,179
1/16/2009    The Baraboo Bancorporation, Baraboo, WI               Preferred Stock w/ Exercised Warrants         $20,749,000   12/11/2012        $13,399,227              $—     12/11/2012      P             $858,478            $2.01                        $3,766,127
             The Connecticut Bank and Trust Company,
12/19/2008                                                         Preferred Stock w/ Warrants                    $5,448,000   4/19/2012           $5,448,000             $—     4/19/2012       R             $792,783                                           $662,083
                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




             Hartford, CT81
12/19/2008   The Elmira Savings Bank, FSB, Elmira, NY49            Preferred Stock w/ Warrants                    $9,090,000   8/25/2011           $9,090,000             $—                                                      $22.74       116,538          $1,219,575
1/9/2009     The First Bancorp, Inc., Damariscotta, ME             Preferred Stock w/ Warrants                   $25,000,000   8/24/2011         $12,500,000      $12,500,000                                                     $16.47       225,904          $4,046,875
2/6/2009     The First Bancshares, Inc., Hattiesburg, MS30         Preferred Stock w/ Warrants                    $5,000,000   9/29/2010           $5,000,000             $—                                                                    54,705            $411,806
2/6/2009     The Freeport State Bank, Harper, KS2                  Preferred Stock w/ Exercised Warrants           $301,000    12/19/2012           $301,000              $—     12/19/2012      R              $15,000                                            $63,459
10/28/2008   The Goldman Sachs Group, Inc., New York, NY           Preferred Stock w/ Warrants               $10,000,000,000   6/17/2009      $10,000,000,000             $—     7/22/2009       R      $1,100,000,000          $127.56                      $318,055,555
5/22/2009    The Landrum Company, Columbia, MO2,49                 Preferred Stock w/ Exercised Warrants         $15,000,000   8/18/2011         $15,000,000              $—     8/18/2011       R             $750,000                                         $1,830,292
12/23/2008   The Little Bank, Incorporated, Kinston, NC2,143       Preferred Stock w/ Exercised Warrants          $7,500,000   10/31/2012          $7,285,410             $—     10/31/2012      R             $371,250                                         $1,575,992
             The PNC Financial Services Group Inc.,
12/31/2008                                                         Preferred Stock w/ Warrants                $7,579,200,000   2/10/2010       $7,579,200,000             $—     4/29/2010       A        $320,277,984            $58.31                     $421,066,667
             Pittsburgh, PA
2/20/2009    The Private Bank of California, Los Angeles, CA2,49   Preferred Stock w/ Exercised Warrants          $5,450,000   9/1/2011            $5,450,000             $—     9/1/2011        R             $273,000                                           $751,752
1/9/2009     The Queensborough Company, Louisville, GA2            Preferred Stock w/ Exercised Warrants         $12,000,000                                                                                                                                      $882,900
                                                                   Subordinated Debentures
9/4/2009     The State Bank of Bartley, Bartley, NE8,10,49                                                        $1,697,000   9/22/2011           $1,697,000             $—     9/22/2011       R              $51,000                                           $282,299
                                                                   w/ Exercised Warrants
12/11/2009   The Victory Bancorp, Inc., Limerick, PA2,10a,49       Preferred Stock w/ Exercised Warrants          $1,505,000   9/22/2011           $1,505,000             $—     9/22/2011       R              $34,000
             The Victory Bancorp, Inc. (The Victory Bank),                                                                                                                                                                                                        $215,183
2/27/2009                                                          Preferred Stock w/ Exercised Warrants           $541,000    9/22/2011            $541,000              $—     9/22/2011       R              $27,000
             Limerick, PA2,13,49
             Three Shores Bancorporation, Inc. (Seaside
1/23/2009                                                          Preferred Stock w/ Exercised Warrants          $5,677,000   11/9/2012           $4,992,788             $—     11/9/2012       P             $282,285                                         $1,174,058
             National Bank & Trust), Orlando, FL2,13,153
                                            32
12/5/2008    TIB Financial Corp, Naples, FL                        Preferred Stock w/ Warrants                   $37,000,000   9/30/2010         $12,119,637              $—     9/30/2010       R              $40,000                                         $1,284,722
12/19/2008   Tidelands Bancshares, Inc, Mount Pleasant, SC         Preferred Stock w/ Warrants                   $14,448,000                                                                                                                   571,821          $1,195,973
4/17/2009    Tifton Banking Company, Tifton, GA2,52                Preferred Stock w/ Exercised Warrants          $3,800,000                                                                                                                                      $223,208
12/23/2008   Timberland Bancorp, Inc., Hoquiam, WA154              Preferred Stock w/ Warrants                   $16,641,000   11/13/2012        $14,209,334              $—                                                       $6.94                        $3,346,629
4/3/2009     Titonka Bancshares, Inc, Titonka, IA2                 Preferred Stock w/ Exercised Warrants          $2,117,000   4/4/2012            $2,117,000             $—     4/4/2012        R             $106,000                                           $346,491
2/6/2009     Todd Bancshares, Inc., Hopkinsville, KY2              Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                      $822,950
12/12/2008   TowneBank, Portsmouth, VA50                           Preferred Stock w/ Warrants                   $76,458,000   9/22/2011         $76,458,000              $—                                                      $15.49       554,330         $10,619,167
1/16/2009    Treaty Oak Bancorp, Inc., Austin, TX2,36              Warrants                                       $3,268,000   2/15/2011            $500,000              $—                                                       $0.29     3,098,341            $192,415
3/27/2009    Triad Bancorp, Inc., Frontenac, MO2,49                Preferred Stock w/ Exercised Warrants          $3,700,000   9/22/2011           $3,700,000             $—     9/22/2011       R             $185,000                                           $501,325
12/19/2008   Tri-County Financial Corporation, Waldorf, MD2,49     Preferred Stock w/ Exercised Warrants         $15,540,000   9/22/2011         $15,540,000              $—     9/22/2011       R             $777,000                                         $2,336,116
3/27/2009    Trinity Capital Corporation , Los Alamos, NM2,107     Preferred Stock w/ Exercised Warrants         $35,539,000   7/27/2012         $26,396,503              $—     7/27/2012       P           $1,655,787                                         $6,592,186
4/3/2009     Tri-State Bank of Memphis, Memphis, TN2,3,30          Preferred Stock                                $2,795,000   8/13/2010           $2,795,000             $—     N/A                                 N/A                                          $190,215
2/27/2009    TriState Capital Holdings, Inc., Pittsburgh, PA2      Preferred Stock w/ Exercised Warrants         $23,000,000   9/26/2012         $23,000,000              $—     9/26/2012       R           $1,150,000                                         $4,492,402
4/3/2009     TriSummit Bank, Kingsport, TN2,175                    Preferred Stock w/ Exercised Warrants          $2,765,000   11/29/2012          $2,053,013             $—     11/29/2012                    $124,666
                                                                                                                                                                                                 P                                                              $1,172,766
12/22/2009   TriSummit Bank, Kingsport, TN2,10a,175                Preferred Stock                                $4,237,000   11/29/2012          $3,145,973             $—     N/A                                 N/A
11/21/2008   Trustmark Corporation, Jackson, MS                    Preferred Stock w/ Warrants                 $215,000,000    12/9/2009        $215,000,000              $—     12/30/2009      R          $10,000,000           $22.46                       $11,287,500
                                                                                                                                                                                                                                                      Continued on next page
CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)
                                                                                                                               Capital                                           Final                                             Stock        Current
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition     Price as of   Outstanding   Dividend/Interest
Date         Institution                                           Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     12/31/2012        Warrants     Paid to Treasury
5/29/2009    Two Rivers Financial Group, Burlington, IA2,49        Preferred Stock w/ Exercised Warrants         $12,000,000   9/1/2011          $12,000,000              $—     9/1/2011        R             $600,000           $15.25                        $1,475,133
11/14/2008   U.S. Bancorp, Minneapolis, MN                         Preferred Stock w/ Warrants                $6,599,000,000   6/17/2009       $6,599,000,000             $—     7/15/2009       R        $139,000,000            $31.94                     $195,220,417
8/7/2009     U.S. Century Bank, Miami, FL2                         Preferred Stock w/ Exercised Warrants         $50,236,000                                                                                                                                      $745,312
1/30/2009    UBT Bancshares, Inc., Marysville, KS2,49              Preferred Stock w/ Exercised Warrants          $8,950,000   8/11/2011           $8,950,000             $—     8/11/2011       R             $450,000                                         $1,234,912
11/14/2008   UCBH Holdings, Inc., San Francisco, CA14              Preferred Stock w/ Warrants                 $298,737,000                                                                                                                  7,847,732          $7,509,920
11/14/2008   Umpqua Holdings Corp., Portland, OR                   Preferred Stock w/ Warrants                 $214,181,000    2/17/2010        $214,181,000              $—     3/31/2010       R           $4,500,000           $11.79                       $13,475,555
5/1/2009     Union Bank & Trust Company, Oxford, NC2,50            Preferred Stock w/ Exercised Warrants          $3,194,000   9/22/2011           $3,194,000             $—     9/22/2011                     $160,000
                                                                                                                                                                                                 R                                                                $680,292
12/18/2009   Union Bank & Trust Company, Oxford, NC2,10a,49        Preferred Stock                                $2,997,000   9/22/2011           $2,997,000             $—     N/A                                 N/A
12/29/2009   Union Financial Corporation, Albuquerque, NM2,10      Preferred Stock w/ Exercised Warrants          $2,179,000   7/25/2012            $600,000       $1,579,000                                                                                     $321,202
             Union First Market Bankshares Corporation
2/6/2009                                                           Preferred Stock                               $33,900,000   12/7/2011         $35,595,000              $—     N/A                                 N/A                                        $5,239,859
             (First Market Bank, FSB), Bowling Green, VA18
                                                                                                                                                                                                                                  $15.77
             Union First Market Bankshares Corporation (Union
12/19/2008                                                         Preferred Stock w/ Warrants                   $59,000,000   11/18/2009        $59,000,000              $—     12/23/2009      R             $450,000                                         $2,695,972
             Bankshares Corporation), Bowling Green, VA18
2/20/2009    United American Bank, San Mateo, CA2                  Preferred Stock w/ Exercised Warrants          $8,700,000                                                                                                                                            $—
1/16/2009    United Bancorp, Inc., Tecumseh, MI91                  Preferred Stock w/ Warrants                   $20,600,000   6/13/2012         $16,750,221              $—     7/18/2012       R              $38,000            $6.26                        $3,527,704
             United Bancorporation of Alabama, Inc.,
12/23/2008                                                         Preferred Stock w/ Warrants                   $10,300,000   9/3/2010          $10,300,000              $—                                                                   108,264            $872,639
             Atmore, AL30
                                                                   Subordinated Debentures
5/22/2009    United Bank Corporation, Barnesville, GA8                                                           $14,400,000   7/3/2012          $14,400,000              $—     7/3/2012        R             $720,000                                         $3,762,079
                                                                   w/ Exercised Warrants
12/5/2008    United Community Banks, Inc., Blairsville, GA         Preferred Stock w/ Warrants                 $180,000,000                                                                                                        $9.44       219,908         $35,518,750

             United Financial Banking Companies, Inc.,                                                                         12/15/2010          $3,000,000      $2,658,000
1/16/2009                                                          Preferred Stock w/ Exercised Warrants          $5,658,000                                                     9/15/2011       R             $283,000           $14.60                          $708,964
             Vienna, VA2,49                                                                                                    9/15/2011           $2,658,000             $—
12/5/2008    Unity Bancorp, Inc., Clinton, NJ                      Preferred Stock w/ Warrants                   $20,649,000                                                                                                       $6.24                        $4,072,442
5/22/2009    Universal Bancorp, Bloomfield, IN2                    Preferred Stock w/ Exercised Warrants          $9,900,000                                                                                                                                    $1,877,934
6/19/2009    University Financial Corp, Inc., St. Paul, MN3,8,30   Subordinated Debentures                       $11,926,000   7/30/2010         $11,926,000              $—     N/A                                 N/A                                        $1,022,886
2/6/2009     US Metro Bank, Garden Grove, CA2                      Preferred Stock w/ Exercised Warrants          $2,861,000                                                                                                       $4.60                          $432,678
12/23/2008   Uwharrie Capital Corp, Albemarle, NC2                 Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                       $3.08                        $2,122,472
1/30/2009    Valley Commerce Bancorp, Visalia, CA2                 Preferred Stock w/ Exercised Warrants          $7,700,000   3/21/2012           $7,700,000             $—     3/21/2012       R             $385,000                                         $1,318,401
1/9/2009     Valley Community Bank, Pleasanton, CA2                Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                       $0.70                          $629,476
12/12/2008   Valley Financial Corporation, Roanoke, VA             Preferred Stock w/ Warrants                   $16,019,000   11/14/2012          $1,600,000     $14,419,000                                                                  344,742          $3,181,683
             Valley Financial Group, Ltd., 1st State Bank,
12/18/2009                                                         Preferred Stock w/ Exercised Warrants          $1,300,000   9/22/2011           $1,300,000             $—     9/22/2011       R              $65,000                                           $124,775
             Saginaw, MI2,49
                                                                                                                               6/3/2009          $75,000,000     $225,000,000
11/14/2008   Valley National Bancorp, Wayne, NJ                    Preferred Stock w/ Warrants                 $300,000,000    9/23/2009        $125,000,000     $100,000,000    5/18/2010       A           $5,421,615            $9.30       488,847         $12,979,167
                                                                                                                               12/23/2009       $100,000,000              $—
12/5/2008    Valley National Bancorp (State Bancorp, Inc.)68       Preferred Stock w/ Warrants                   $36,842,000   12/14/2011        $36,842,000              $—                                                                                    $5,572,353
             Veritex Holdings, Inc. (Fidelity Resources Company),
6/26/2009                                                         Preferred Stock w/ Exercised Warrants           $3,000,000   8/25/2011           $3,000,000             $—     8/25/2011       R             $150,000                                           $353,796
             Dallas, TX2,40,49
             Village Bank and Trust Financial Corp,
5/1/2009                                                           Preferred Stock w/ Warrants                   $14,738,000                                                                                                       $0.95       499,029          $1,318,232
             Midlothian, VA
12/12/2008   Virginia Commerce Bancorp, Arlington, VA              Preferred Stock w/ Warrants                   $71,000,000   12/11/2012        $71,000,000              $—                                                       $8.95     2,696,203         $14,190,139
6/12/2009    Virginia Company Bank, Newport News, VA2,10           Preferred Stock w/ Exercised Warrants          $4,700,000                                                                                                                                      $786,987
4/24/2009    Vision Bank—Texas, Richardson, TX2                    Preferred Stock w/ Exercised Warrants          $1,500,000   12/28/2012           $787,500         $712,500                                                                                     $295,597
12/19/2008   VIST Financial Corp., Wyomissing, PA117               Preferred Stock w/ Warrants                   $25,000,000   8/1/2012          $25,000,000              $—     8/1/2012        R           $1,189,813                                         $4,520,833
1/30/2009    W.T.B. Financial Corporation, Spokane, WA2,50         Preferred Stock w/ Exercised Warrants       $110,000,000    9/15/2011        $110,000,000              $—     9/15/2011       R           $5,500,000                                        $15,736,874
12/11/2009   Wachusett Financial Services, Inc., Clinton, MA2,10   Preferred Stock w/ Exercised Warrants         $12,000,000   4/4/2012            $3,000,000      $9,000,000                                                                                   $1,790,536
12/19/2008   Wainwright Bank & Trust Company, Boston, MA           Preferred Stock w/ Warrants                   $22,000,000   11/24/2009        $22,000,000              $—     12/16/2009      R             $568,700                                         $1,023,611
1/16/2009    Washington Banking Company, Oak Harbor, WA            Preferred Stock w/ Warrants                   $26,380,000   1/12/2011         $26,380,000              $—     3/2/2011        R           $1,625,000           $13.62                        $2,623,344
                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




11/14/2008   Washington Federal, Inc., Seattle, WA                 Preferred Stock w/ Warrants                 $200,000,000    5/27/2009        $200,000,000              $—     3/9/2010        A          $15,388,874           $16.87                        $5,361,111
             WashingtonFirst Bankshares, Inc.,
10/30/2009                                                         Preferred Stock                                $6,842,000   8/4/2011            $6,842,000             $—     N/A                                 N/A                                        $1,510,318
             Reston, VA2,10a,49
             WashingtonFirst Bankshares, Inc.
1/30/2009                                                          Preferred Stock w/ Exercised Warrants          $6,633,000   8/4/2011            $6,633,000             $—     8/4/2011        R             $332,000
             (WashingtonFirst Bank), Reston, VA2,13,49
                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                               253
 CPP TRANSACTION DETAIL, AS OF 12/31/2012 (CONTINUED)                                                                                                                                                                                                                                                                  254
                                                                                                                                           Capital                                                       Final                                                       Stock         Current
 Purchase                                                                                                                                  Repayment         Capital Repayment           Remaining       Disposition                   Final Disposition        Price as of    Outstanding       Dividend/Interest
 Date              Institution                                               Investment Description                  Investment Amount     Date                 Amount (Loss)6       Capital Amount      Date               Note15            Proceeds        12/31/2012         Warrants         Paid to Treasury
 6/26/2009         Waukesha Bankshares, Inc., Waukesha, WI2,10               Preferred Stock w/ Exercised Warrants           $5,625,000                                                                                                                                                                 $1,003,846
                                                                                                                                           3/3/2010                $100,000,000        $300,000,000
 11/21/2008        Webster Financial Corporation, Waterbury, CT              Preferred Stock w/ Warrants                   $400,000,000    10/13/2010              $100,000,000        $200,000,000      6/2/2011              A            $20,388,842              $20.55                           $36,944,444
                                                                                                                                           12/29/2010              $200,000,000                    $—
 10/28/2008        Wells Fargo & Company, San Francisco, CA                  Preferred Stock w/ Warrants                $25,000,000,000    12/23/2009           $25,000,000,000                    $—    5/20/2010             A          $840,374,892               $34.18                        $1,440,972,222
 12/5/2008         WesBanco, Inc., Wheeling, WV                              Preferred Stock w/ Warrants                    $75,000,000    9/9/2009                  $75,000,000                   $—                                                                                                   $2,854,167
                   WesBanco, Inc. (Fidelity Bancorp, Inc.),                                                                                                                                              12/23/2009            R               $950,000              $22.22         100,448
 12/12/2008                                                                  Preferred Stock w/ Warrants                     $7,000,000    11/30/2012                 $7,000,000                   $—                                                                                                   $1,388,333
                   Wheeling, WV
 12/31/2008        West Bancorporation, Inc., West Des Moines, IA            Preferred Stock w/ Warrants                    $36,000,000    6/29/2011                 $36,000,000                   $—    8/31/2011             R               $700,000              $10.78                             $4,495,000
                                                                                                                                           9/2/2009                  $41,863,000         $41,863,000
 2/13/2009         Westamerica Bancorporation, San Rafael, CA                Preferred Stock w/ Warrants                    $83,726,000                                                                  11/18/2011            P               $878,256              $42.59         246,698             $2,755,981
                                                                                                                                           11/18/2009                $41,863,000                   $—
 11/21/2008        Western Alliance Bancorporation, Las Vegas, NV49          Preferred Stock w/ Warrants                   $140,000,000    9/27/2011               $140,000,000                    $—    11/18/2011            P               $415,000              $10.53                           $19,950,000
                   Western Community Bancshares, Inc.,
 12/23/2008                                                                  Preferred Stock w/ Exercised Warrants           $7,290,000                                                                                                                                                                   $554,083
                   Palm Desert, CA2
                                                                     2,155
 12/23/2008        Western Illinois Bancshares Inc., Monmouth, IL            Preferred Stock w/ Exercised Warrants           $6,855,000    11/9/2012                  $6,398,944                   $—    11/9/2012                             $335,417
                                                                                                                                                                                                                               P                                                                        $2,102,189
 12/29/2009        Western Illinois Bancshares Inc., Monmouth, IL2,10a,155 Preferred Stock                                   $4,567,000    11/9/2012                  $4,217,361                   $—    N/A                                         N/A
                                                                2,177
 5/15/2009         Western Reserve Bancorp, Inc, Medina, OH                  Preferred Stock w/ Exercised Warrants           $4,700,000    11/30/2012                 $4,700,000                   $—    11/30/2012            R               $235,000              $28.00                               $907,198
 2/20/2009         White River Bancshares Company, Fayetteville, AR2 Preferred Stock w/ Exercised Warrants                  $16,800,000                                                                                                                                                                 $1,589,583
                                                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




 12/19/2008        Whitney Holding Corporation, New Orleans, LA45            Preferred Stock w/ Warrants                   $300,000,000    6/3/2011                $300,000,000                    $—    6/3/2011              R             $6,900,000                                               $36,833,333
 12/12/2008        Wilshire Bancorp, Inc., Los Angeles, CA76                 Preferred Stock w/ Warrants                    $62,158,000    3/28/2012                 $57,766,994                   $—    6/20/2012             R               $760,000               $5.87                           $10,282,176
 12/19/2008        Wintrust Financial Corporation, Lake Forest, IL           Preferred Stock w/ Warrants                   $250,000,000    12/22/2010              $250,000,000                    $—    2/8/2011              A            $25,600,564              $36.70                           $25,104,167
 5/15/2009         Worthington Financial Holdings, Inc., Huntsville, AL2     Preferred Stock w/ Exercised Warrants           $2,720,000                                                                                                                                                                   $370,600
 1/23/2009         WSFS Financial Corporation79                              Preferred Stock w/ Warrants                    $52,625,000    3/28/2012                 $47,435,299                   $—    9/12/2012             R             $1,800,000              $42.25                             $8,405,558
 1/16/2009         Yadkin Valley Financial Corporation, Elkin, NC124         Preferred Stock w/ Warrants                    $36,000,000    9/12/2012                 $31,843,080                   $—                                                                               273,534
                                                                                                                                                                                                                                                                      $2.94                             $8,820,923
 7/24/2009         Yadkin Valley Financial Corporation, Elkin, NC125         Preferred Stock w/ Warrants                    $13,312,000    9/12/2012                 $11,643,740                   $—                                                                               385,990
                                                   2,50
 4/24/2009         York Traditions Bank , York, PA                           Preferred Stock w/ Exercised Warrants           $4,871,000    7/14/2011                  $4,871,000                   $—    7/14/2011             R               $244,000                                                   $590,022
                                                                                                                                           3/28/2012               $700,000,000        $700,000,000
 11/14/2008        Zions Bancorporation, Salt Lake City, UT                  Preferred Stock w/ Warrants                 $1,400,000,000                                                                  12/5/2012             P             $7,666,419              $21.40                          $253,361,111
                                                                                                                                           9/26/2012               $700,000,000                    $—


                                                                                                                                                 Total
                                                                                                                                               Capital
                                                                                        Total Purchase Amount *      $204,943,827,320                        $194,314,483,492
                                                                                                                                            Repayment
                                                                                                                                             Amount**
                                                                                                                                       Total Losses***        ($3,143,586,588)
                                                                                                             Total Treasury CPP Investment Outstanding          $7,485,757,240                     Total Warrant Proceeds****          $7,795,968,650
 Notes: Numbers may not total due to rounding. Data as of 12/31/2012. Numeric notes were taken verbatim from Treasury’s 12/28/2012 Transactions Report. All amounts and totals reflect cumulative receipts from inception through 12/31/2012.

 * Total purchase amount includes the capitalization of accrued dividends referred to in Notes 20, 22, 28 and 29.
 ** Total repaid includes (i) the amount of $25 billion applied as repayment under the Capital Purchase Program from the total proceeds of $31.85 billion received pursuant to the sales of Citigroup, Inc. common stock as of December 6, 2010 (see Note 23 and “Capital Purchase Program - Citigroup Common
    Stock Disposition” on following pages) and (ii) the amount of $355,724,000 repaid by institutions that have completed exchanges for investments under the Community Development Capital Initiative (see Note 30 and “Community Development Capital Initiative” on following pages).
 *** Losses include (i) the investment amount for institutions that have completed bankruptcy proceedings and (ii) the investment amount less the amount of final proceeds for institutions where Treasury has completed a sale, but excludes investment amounts for institutions that have pending receivership or
      bankruptcy proceedings.
 **** Total warrant proceeds includes $7,566,000, which represents the total amount of warrants that were included in nine institutions’ exchange into the CDCI program (see Note 30a). Beginning with the Transactions Report for the period ending April 20, 2012, disposition amounts for warrant sales by
       Treasury in a registered public offering (“A”) are displayed after underwriting fees (net) as oppose to before underwriting fees and selling expenses (gross).

 Sources: Treasury, Transactions Report, 12/28/2012; Treasury, Dividends and Interest Report, 1/10/2013.

1a
  	This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on
      1/1/2009, and this transaction under the CPP was funded on 1/9/2009.
1b
   	The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total net disposition proceeds from CPP warrants on 3/3/2010 was $305,913,040, consisting of $183,547,824 and
      $122,365,216. Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
2
  	 Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3
  	 To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
3a
    	 Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
4
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
5
  	 Redemption pursuant to a qualified equity offering.
6
  	 This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7
  	 The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8
 	 Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
9
 	 In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10
   	 This institution participated in the expansion of CPP for small banks.
10a
   	 This institution received an additional investment through the expansion of CPP for small banks.
11
  	Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in
     Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to
     purchase shares of Series M. On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
12
  	 On 8/24/2009, Treasury exchanged its series C preferred stock issued by Popular, Inc. for a like amount of non tax-deductible trust preferred securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
13
  	 This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
14
  	 As of the date of this report, this institution is in bankruptcy proceedings.
15
  	For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution in a negotiated sale pursuant to the terms of the related securities purchase agreement, “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered
     public offering of the warrants issued by the financial institution, and “P” represents the proceeds to Treasury, before placement expenses, from a sale by Treasury in a private auction principally involving qualified institutional buyers.
16
  	On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by contingent value rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of
     common shares to holders of CVRs were not met.
17
  	 On 12/11/2009, Treasury exchanged its series A preferred stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
18
  	On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended
     dividend rate equivalent to those of Treasury’s original investment.
19
  	 On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
20
  	On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and
     unpaid dividends. Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
21
  	 On 3/30/2010, Treasury exchanged its $7,500,000 of subordinated debentures in GulfSouth Private Bank for an equivalent amount of preferred stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
22
  	On 4/16/2010, Treasury exchanged its $72,000,000 of preferred stock in Independent Bank Corporation (Independent) for $74,426,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued
     and unpaid dividends. Subject to the fulfillment by Independent of the conditions related to its capital plan, the MCP may be converted to common stock.
23
  	Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see
     note 11). On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on 6/30/2010 (or on completion of
     the sale). Completion of the sale under this authority occurred on 5/26/2010. On 5/26/2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending
     on 6/30/2010 (or on completion of the sale). Completion of the sale under this authority occurred on 6/30/2010. On 7/23/2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from
     time to time during the period ending on 9/30/2010 (or on completion of the sale). Completion of the sale under this authority occurred on 9/30/2010. On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
     parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale), which plan was terminated on 12/6/2010. All such sales were generally made at the market price. On 12/6/2010, Treasury commenced an underwritten
     public offering of its remaining 2,417,407,607 shares. See “Capital Purchase Program — Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average price per share and the total proceeds to Treasury from all such sales
     during those periods.
24
  	On 8/26/2010, Treasury completed the exchange of its $303,000,000 of preferred stock in Sterling Financial Corporation (Sterling) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on
     4/29/2010. Since Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
25
  	 On 8/20/2010, Sonoma Valley Bank, Sonoma, CA, the banking subsidiary of Sonoma Valley Bancorp, was closed by the California Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
26
  	On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by South Financial Group, Inc. to Toronto-Dominion Bank (TD) at an aggregate purchase price of $130,179,218.75 for the preferred stock and $400,000 for the warrants, pursuant to the terms of the agreement between
     Treasury and TD entered into on 5/18/2010.
27
  	 On 6/30/2010, Treasury exchanged $46,400,000 of its series A preferred stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
28
  	On 7/20/2010, Treasury completed the exchange of its $400,000,000 of preferred stock in First BanCorp for $424,174,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and
     unpaid dividends. On 10/7/2011, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 32,941,797 shares of common stock of First BanCorp. Treasury received all accrued and previously unpaid dividends on
     the MCP at the time of the conversion. First BanCorp has agreed to have a Treasury observer attend board of directors meetings.
29
  	On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of preferred stock in Pacific Capital for $195,045,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial
     investment amount of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of
     common stock of Pacific Capital. Pacific Capital has agreed to have Treasury observers attend board of directors meetings.
30
  	 This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below.
30a
   	 At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.
31
  	On 9/30/2010, Treasury completed the exchange of its $80,347,000 of preferred stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on
     8/12/2010. Since Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock.
32
  	On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by TIB Financial Corp. to North American Financial Holdings, Inc. (NAFH) at an aggregate purchase price of $12,119,637.37 for the preferred stock and $40,000 for the warrants, pursuant to the terms of the agreement
     between Treasury and NAFH entered into on 9/24/2010.
33
  	On 3/4/2011, Treasury completed the sale to Community Bancorp LLC (“CBC”) of all preferred stock and warrants issued by Cadence Financial Corporation (“Cadence”) to Treasury for an aggregate purchase price of $39,014,062.50, pursuant to the terms of the agreement between Treasury and CBC
     entered into on 10/29/2010.
34
  	On 12/3/2010, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by The Bank of Currituck (“Currituck”) to Treasury for an aggregate purchase price of $1,742,850, pursuant to the terms of the agreement between Treasury and
     Currituck entered into on 11/5/2010.
35
  	Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all preferred stock and warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the
     closing of the sale also occurred on 1/28/2011.
36
  	On 2/15/2011, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by Treaty Oak Bancorp (“Treaty Oak”) to Treasury for (i) a cash payment of $500,000, (ii) the right to receive up to $150,000 in principal payments on a note
     payable by Carlile Bancshares, Inc. in favor of Treaty Oak, and (iii) a newly issued warrant to purchase 3,098,341 shares of Treaty Oak common stock, pursuant to the terms of the agreement between Treasury and Treaty Oak entered into on 2/15/2011.
37
  	 On 2/18/2011, Treasury completed the exchange of its $135,000,000 of preferred stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.
38
  	On 3/9/2011, Treasury completed the sale of all subordinated debentures (including the subordinated debentures received upon the exercise of warrants) issued by FBHC Holding Company (“FBHC”) to Treasury for an aggregate purchase price of $650,000, pursuant to the terms of the agreement between
     Treasury and FBHC entered into on 3/9/2011.
39
  	On 5/31/2011, Treasury completed the sale of all preferred stock and warrants issued by First Community Bank Corporation of America (FCBCA) for an aggregate purchase price of (i) $7.20 million plus (ii) 72% of the remaining cash assets after giving effect to the payment of defined acquisition expenses,
     debts, liabilities and distributions to other classes of security holders, pursuant to the terms of the agreement between Treasury and FCBCA entered into on 3/11/2011.
40
  	As a result of the acquisition of Fidelity Resources Company (the acquired company) by Veritex Holdings, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/26/2009 were exchanged for a like amount of securities of the acquiror, pursuant to the terms of an
     agreement among Treasury, the acquired company and the acquiror entered into on 3/23/2011.
41
  	As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series of
     preferred stock in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered
     into on 3/30/2011. Exercised warrants were also exchanged at the time of the agreement.
42
  	On 5/3/2011, Treasury completed the sale of all First Federal Bancshares of Arkansas, Inc. preferred stock and warrants held by Treasury to Bear State Financial Holdings, LLC (“Bear State”) for an aggregate purchase price of $6,000,000.00, pursuant to the terms of the agreement between Treasury and
     Bear State entered into on 5/3/2011.
43
  	On 5/13/2011, Treasury completed the sale of all Wilmington Trust Corporation preferred stock held by Treasury to M&T Bank Corporation (“M&T”) for an aggregate purchase price of $330,000,000.00 plus accrued dividends and exchanged its Wilmington Trust Corporation warrant for an equivalent warrant
     issued by M&T Bank Corporation, pursuant to the terms of the agreement between Treasury and M&T entered into on 5/13/2011.
44
  	On 7/5/2011, Treasury completed a transaction with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the Treasury-
     held M&I Warrant for an amount equal to $3,250,000, pursuant to the terms of the agreement between Treasury and BMO entered into on 5/16/2011.
45
  	On 6/3/2011, Treasury completed the sale of all Whitney Holding Corporation preferred stock and the related warrant held by Treasury to Hancock Holding Company (“HHC”) for an aggregate purchase price equal to (i) the par amount of the preferred stock ($300,000,000) plus accrued and unpaid dividends
     thereon and (ii) $6,900,000 for the warrant, pursuant to the terms of the agreement between Treasury and HHC entered into on 6/3/2011.
46
  	On 6/22/2011, Treasury completed the sale of 2,850,000 shares of common stock at $12.590625 per share (which represents the $12.75 public offering price less underwriting discounts) for net proceeds of $35,883,281.25 pursuant to an underwriting agreement executed on 6/17/2011. On
     4/4/2012, Treasury completed the sale of all of Treasury’s remaining 2,770,117 shares of Central Pacific Financial Corp. common stock at $13.01 per share (which represents the $13.15 public offering price less underwriting discounts) for net proceeds of $36,039,222.17, pursuant to an underwriting
     agreement executed on 3/29/2012.
47
  	On 6/30/2011, Treasury completed the sale of all Cascade Financial Corporation preferred stock held by Treasury and the related warrant to Opus Acquisition, Inc. (“Opus”) for an aggregate purchase price of $16,250,000.00, pursuant to the terms of the agreement between Treasury and Opus entered into
     on 6/28/2011.
49
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 using proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
50
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 —         ­­ part of the repayment amount obtained from proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
51
  	 On 11/5/2010, Pierce Commercial Bank, Tacoma, WA, the banking subsidiary of Pierce County Bancorp, was closed by the Washington Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
52
  	 On 11/12/2010, Tifton Banking Company, Tifton, GA, was closed by the Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
                                                                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




53
  	 On 3/11/2011, Legacy Bank, Milwaukee, WI, the banking subsidiary of Legacy Bancorp, Inc., was closed by the State of Wisconsin Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
54
  	 On 4/15/2011, Superior Bank, Birmingham, AL, the banking subsidiary of Superior Bancorp Inc., was closed by the Office of Thrift Supervision, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
55
  	 On 7/15/2011, First Peoples Bank, Port Saint Lucie, Florida, the banking subsidiary of FPB Bancorp, Inc., was closed by the Florida Office of Financial Regulation, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
56
  	 On 7/15/2011, One Georgia Bank, Atlanta, GA was closed by the State of Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
57
  	 On 7/29/2011, Integra Bank, National Association, Evansville, Indiana, the banking subsidiary of Integra Bank Corporation, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
58
  	On 10/21/2011, Treasury completed the exchange of all FNB United Corp. (“FNB United”) preferred stock and warrants held by Treasury for 108,555,303 shares of FNB United common stock and an amended and restated warrant, pursuant to the terms of the agreement between Treasury and FNB United
     entered into on 8/12/2011.
                                                                                                                                                                                                                                                                                                                                255
                                                                                                                                                                                                                                                                                                                       256
59
  	On 9/7/2011, Treasury completed the sale of all Green Bankshares, Inc. preferred stock held by Treasury and the related Warrant to North American Financial Holdings, Inc. (“NAFH”) for an aggregate purchase price of $68,700,000.00, pursuant to the terms of the agreement between Treasury and NAFH
     entered into on 9/6/2011.
60
  	As a result of the acquisition of Berkshire Bancorp, Inc. (the acquired company) by Customers Bancorp, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/12/2009 were exchanged for a like amount of securities of the acquiror plus accrued and previously
     unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 9/16/2011.
61
  	 On 9/23/2011, Citizens Bank of Northern California, Nevada City, California, the banking subsidiary of Citizens Bancorp, was closed by the California Department of Financial Institutions, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
62
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 in connection with the institution’s participation in the Small Business Lending Fund, which occurred at a later date.
63
  	 On 10/14/2011, Country Bank, Aledo, Illinois, the banking subsidiary of CB Holding Corp., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
64
  	On 10/21/2011, Treasury completed the sale of all Santa Lucia Bancorp preferred stock and warrants held by Treasury to CCI One Acquisition Corporation (“CCI”) for an aggregate purchase price of $2,800,000.00, pursuant to the terms of the agreement between Treasury and CCI entered into on
     10/20/2011.
65
  	As a result of a reincorporation transaction whereby Crescent Financial Corporation (CFC) was merged into Crescent Financial Bancshares, Inc. (CFB), the preferred stock and warrant issued by CFC on 1/9/2009 were exchanged for a like amount of securities of CFB, pursuant to the terms of an agreement
     among Treasury, CFC and CFB entered into on 11/15/2011.
66
  	As a result of the acquisition of Center Financial Corporation by BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.), the preferred stock and warrant issued by Center Financial Corporation were exchanged for a like amount of securities of BBCN Bancorp, Inc., pursuant to the terms of an agreement among
     Treasury, Center Financial Corporation, and BBCN Bancorp, Inc. entered into on 11/30/2011.
67
  	On 1/3/2012, Treasury completed (i) the sale to F.N.B. Corporation (“F.N.B.”) of all of the preferred stock that had been issued to Treasury by Parkvale Financial Corporation (“Parkvale”) for a purchase price of $31,762,000 plus accrued dividends and (ii) the exchange of the Parkvale warrant held by
     Treasury for a like F.N.B. warrant, pursuant to the terms of the agreement between Treasury and F.N.B. entered into on 12/29/2011 in connection with the merger of Parkvale and F.N.B. effective 1/1/2012.
68
  	As a result of the acquisition of State Bancorp, Inc. (the acquired company) by Valley National Bancorp (the acquiror), the warrant issued by the acquired company on 12/5/2008 was exchanged for a like security of the acquiror, pursuant to the terms of an agreement among Treasury, the acquired company
     and the acquiror entered into on 1/1/2012.
69
  	On 1/27/2012, pursuant to the terms of the merger of Regents Bancshares, Inc. (“Regents”) with Grandpoint Capital, Inc., Treasury received $13,214,858.00 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock (including that received from the
     exercise of warrants) that had been issued to Treasury by Regents.
70
  	 On 1/27/2012, Tennessee Commerce Bank, Franklin, TN, the banking subsidiary of Tennessee Commerce Bancorp, Inc., was closed by the Tennessee Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
71
  	 On 2/10/2012, SCB Bank, Shelbyville, Indiana, the banking subsidiary of Blue River Bancshares, Inc., was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
72
  	On 2/10/2012, Treasury entered into an agreement with Broadway Financial Corporation to exchange Treasury’s $15,000,000 of preferred stock for common stock. The exchange is subject to the fulfillment by Broadway Financial Corporation of certain conditions, including the satisfactory completion of a
     capital plan.
73
  	On 3/9/2012, Treasury completed the sale of all Mainline Bancorp, Inc. preferred stock and exercised warrants held by Treasury to 9th Street Holdings, Inc., a subsidiary of S&T Bancorp, Inc., for an aggregate purchase price of $4,725,000 plus accrued and unpaid dividends, pursuant to the terms of an
     agreement among Treasury, 9th Street Holdings, Inc., and S&T Bancorp, Inc. entered into on 3/8/2012.
74
  	 On 4/3/2012, Treasury completed the sale of 124,000 shares of Banner Corporation preferred stock at $884.82 per share (less underwriting discounts) for net proceeds of $108,071,914.80 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
75
  	 On 4/3/2012, Treasury completed the sale of 65,000 shares of First Financial Holdings, Inc. preferred stock at $873.51 per share (less underwriting discounts) for net proceeds of $55,926,477.75 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
76
  	 On 4/3/2012, Treasury completed the sale of 62,158 shares of Wilshire Bancorp, Inc. preferred stock at $943.51 per share (less underwriting discounts) for net proceeds of $57,766,994.16 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
77
  	On 4/3/2012, Treasury completed the sale of 2,000 shares of Seacoast Banking Corporation of Florida preferred stock at $20,510.00 per share (less underwriting discounts) for net proceeds of $40,404,700.00 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on
     3/28/2012.
78
  	 On 4/3/2012, Treasury completed the sale of 57,000 shares of MainSource Financial Group, Inc. preferred stock at $931.11 per share (less underwriting discounts) for net proceeds of $52,277,170.95 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
79
  	 On 4/3/2012, Treasury completed the sale of 52,625 shares of WSFS Financial Corporation preferred stock at $915.11 per share (less underwriting discounts) for net proceeds of $47,435,298.79 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
80
  	On 4/13/2012, Treasury completed the sale of all Gateway Bancshares, Inc. preferred stock held by Treasury to First Volunteer Corporation (“First Volunteer”) for an aggregate purchase price of $6,300,000.00 plus accrued and unpaid dividends, pursuant to the terms of the agreement between Treasury
     and First Volunteer entered into on 4/13/2012.
                                                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




81
  	On 4/20/2012, Treasury completed the sale of all The Connecticut Bank and Trust Company preferred stock held by Treasury to Berkshire Bank for an aggregate purchase price of $6,289,966.33 consisting of (a) (i) $5,448,000.00 for the preferred stock plus (ii) all accrued and unpaid dividends and (b)
     $792,783.00 for the Warrant, pursuant to the terms of the agreement by and among Treasury, The Connecticut Bank and Trust Company, and Berkshire Bank entered into on 4/19/2012.
82
  	 On 4/20/2012, Fort Lee Federal Savings Bank, FSB, Fort Lee, New Jersey, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
83
  	On 4/24/2012, Treasury completed the sale of all Peoples Bancorporation, Inc. (“Peoples”) preferred stock held by Treasury to SCBT Financial Corporation (“SCBT”) for an aggregate purchase price of $13,293,000 plus accrued and unpaid dividends, pursuant to the terms of the agreement by and among
     Treasury, Peoples, and SCBT entered into on 4/24/2012.
84
  	On 8/14/2012, Treasury completed the sale of all Millennium Bancorp, Inc. (Millennium) Preferred Stock held by Treasury to CIC Bancshares, Inc. (CIC) for an aggregate purchase price of (i) $2.904 million plus (ii) accrued and unpaid dividends on the Preferred Stock as of the closing date, pursuant to an
     agreement by and amount Treasury, CIC, and Millennium entered into on 4/20/2012.
85
  	 On 6/19/2012, Treasury completed the sale of 52,000 shares of Ameris Bancorp preferred stock at $930.60 per share (less underwriting discounts) for net proceeds of $47,665,332.00 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
86
  	 On 6/19/2012, Treasury completed the sale of 104,823 shares of Taylor Capital Group preferred stock at $893.50 per share (less underwriting discounts) for net proceeds of $92,254,460.24 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
87
  	 On 6/19/2012, Treasury completed the sale of 30,000 shares of Farmers Capital Bank Corporation preferred stock at $869.17 per share (less underwriting discounts) for net proceeds of $21,594,228.79 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
88
  	 On 6/19/2012, Treasury completed the sale of 25,223 shares of LNB Bancorp Inc. preferred stock at $739.89 per share (less underwriting discounts) for net proceeds of $21,863,749.50 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
89
  	 On 6/19/2012, Treasury completed the sale of 37,000 shares of First Defiance Financial Corp. preferred stock at $962.66 per share (less underwriting discounts) for net proceeds of $35,084,143.70 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
90
  	 On 6/19/2012, Treasury completed the sale of 10,958 shares of First Capital Bancorp, Inc. preferred stock at $920.11 per share (less underwriting discounts) for net proceeds of $9,931,326.90 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
91
  	 On 6/19/2012, Treasury completed the sale of 20,600 shares of United Bancorp, Inc. preferred stock at $825.50 per share (less underwriting discounts) for net proceeds of $16,750,220.50 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
92
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 48,200 shares of Fidelity Southern Corporation preferred stock at $900.60 per share (less underwriting discounts) for net proceeds of $42,757,786.20 plus accrued and unpaid dividends.
93
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 25,054 shares of Peoples Bancorp of North Carolina, Inc. preferred stock at $933.36 per share (less underwriting discounts) for net proceeds of $23,033,635.42 plus accrued and unpaid dividends.
94
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 23,184 shares of First Citizens Banc Corp preferred stock at $906.00 per share (less underwriting discounts) for net proceeds of $20,689,633.44 plus accrued and unpaid dividends.
95
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 45,000 shares of MetroCorp Bancshares, Inc. preferred stock at $981.17 per share (less underwriting discounts) for net proceeds of $43,490,360.25 plus accrued and unpaid dividends.
96
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 32,538 shares of Pulaski Financial Corp preferred stock at $888.00 per share (less underwriting discounts) for net proceeds of $28,460,337.84 plus accrued and unpaid dividends.
97
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 33,000 shares of Firstbank Corporation preferred stock at $941.01 per share (less underwriting discounts) for net proceeds of $30,587,530.05 plus accrued and unpaid dividends.
98
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 17,299 shares of Southern First Bancshares, Inc. preferred stock at $904.00 per share (less underwriting discounts) for net proceeds of $15,403,721.56 plus accrued and unpaid dividends.
99
  	 On 7/12/2012, Treasury completed the sale of all Naples Bancorp, Inc. (“Naples Bancorp”) preferred stock held by Treasury to Naples Bancorp for an aggregate purchase price of $600,000.00, pursuant to the terms of the agreement between Treasury and Naples Bancorp entered into on 7/12/2012.
100
   	On 7/17/2012, Treasury completed the sale of all Heartland Bancshares, Inc. (“Heartland”) preferred stock held by Treasury to Horizon Bancorp for an aggregate purchase price of $7,248,000 plus accrued and unpaid dividends, pursuant to the terms of the agreement by and among Treasury, Heartland,
     and Horizon Bancorp entered into on 7/17/2012.
101
   	As a result of the acquisition of Community Holding Company of Florida, Inc. (the acquired company) by Community Bancshares of Mississippi, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 2/6/2009 were exchanged for a like amount of securities of the
     acquiror, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 7/19/2012.
102
   	On 8/10/2012, Treasury completed the sale of 35,500 shares of Marquette National Corporation preferred stock at $720.25 per share (less a placement agent fee) for net proceeds of $25,313,186.25 and 1,775 shares of Marquette National Corporation preferred stock received upon the exercise of
     warrants at $825.25 per share (less a placement agent fee) for net proceeds of $1,450,170.56, pursuant to a placement agency agreement executed on 7/23/2012.
103
   	On 8/13/2012, Treasury completed the sale of 43,000 shares of Exchange Bank preferred stock at $875.25 per share (less a placement agent fee) for net proceeds of $37,259,392.50 and 2,150 shares of Exchange Bank preferred stock received upon the exercise of warrants at $965.10 per share (less
     a placement agent fee) for net proceeds of $2,054,215.35, pursuant to a placement agency agreement executed on 7/23/2012.
104
   	On 8/9/2012, Treasury completed the sale of 36,282 shares of Fidelity Financial Corporation preferred stock at $891.26 per share (less a placement agent fee) for net proceeds of $32,013,328.37 and 1,814 shares of Fidelity Financial Corporation preferred stock received upon the exercise of warrants at
     $960.60 per share (less a placement agent fee) for net proceeds of $1,725,103.12, pursuant to a placement agency agreement executed on 7/23/2012.
105
   	On 8/9/2012, Treasury completed the sale of 428 shares of First Western Financial, Inc. preferred stock received upon the exercise of warrants at $828.50 per share (less a placement agent fee) for net proceeds of $351,052.02, pursuant to a placement agency agreement executed on 7/23/2012.
106
   	On 8/10/2012, Treasury completed the sale of 23,200 shares of Park Bancorporation, Inc. preferred stock at $730.25 per share (less a placement agent fee) for net proceeds of $16,772,382.00 and 1,160 shares of Park Bancorporation, Inc. preferred stock received upon the exercise of warrants at
     $780.25 per share (less a placement agent fee) for net proceeds of $896,039.10, pursuant to a placement agency agreement executed on 7/23/2012.
107
   	On 8/10/2012, Treasury completed the sale of 35,539 shares of Trinity Capital Corporation preferred stock at $750.25 per share (less a placement agent fee) for net proceeds of $26,396,503.40 and 1,777 shares of Trinity Capital Corporation preferred stock received upon the exercise of warrants at
     $941.20 per share (less a placement agent fee) for net proceeds of $1,655,787.28, pursuant to a placement agency agreement executed on 7/23/2012.
108
   	On 8/10/2012, Treasury completed the sale of 24,300 shares of CBS Banc-Corp. preferred stock at $905.20 per share (less a placement agent fee) for net proceeds of $21,776,396.40 and 1,215 shares of CBS Banc-Corp. preferred stock received upon the exercise of warrants at $921.00 per share
     (less a placement agent fee) for net proceeds of $1,107,824.85, pursuant to a placement agency agreement executed on 7/23/2012.
109
   	On 8/9/2012, Treasury completed the sale of its Market Street Bancshares, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $18,069,212.70 and its Market Street Bancshares, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee)
     for net proceeds of $824,730.64, pursuant to a placement agency agreement executed on 7/23/2012.
110
   	On 8/9/2012, Treasury completed the sale of its Commonwealth Bancshares, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $15,147,000.00 and its Commonwealth Bancshares, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent
     fee) for net proceeds of $898,722.00, pursuant to a placement agency agreement executed on 7/23/2012.
111
   	On 8/9/2012, Treasury completed the sale of its Diamond Bancorp, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $14,780,661.64 and its Diamond Bancorp, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for net proceeds
     of $779,576.49, pursuant to a placement agency agreement executed on 7/23/2012.
112
   	On 8/10/2012, Treasury completed the sale of 22,252 shares of Premier Financial Bancorp, Inc. preferred stock at $901.03 per share (less a placement agent fee) for net proceeds of $19,849,222.36, pursuant to a placement agency agreement executed on 7/23/2012.
113
   	On 8/10/2012, Treasury completed the sale of 1,100 shares of First Community Financial Partners, Inc. preferred stock received upon the exercise of warrants at $661.50 per share (less a placement agent fee) for net proceeds of $720,373.50, pursuant to a placement agency agreement executed on
     7/23/2012.
114
   	On 8/9/2012, Treasury completed the sale of 8,000 shares of First Western Financial, Inc. preferred stock at $775.00 per share (less a placement agent fee) for net proceeds of $6,138,000.00, pursuant to a placement agency agreement executed on 7/23/2012.
115
   	On 7/13/2012, Glasgow Savings Bank, Glasgow, MO, the banking subsidiary of Gregg Bancshares, Inc. , was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
116
   	On 7/27/2012, Treasury entered into an agreement with Pinnacle Bank Holding Company, Inc. (“Pinnacle”) pursuant to which Treasury agreed to sell its CPP preferred stock back to Pinnacle at a discount subject to the satisfaction of the conditions specified in the agreement.
117
   	On 8/1/2012, Treasury completed the sale of all VIST Financial Corp. (“VIST”) preferred stock and the related warrant held by Treasury to Tompkins Financial Corporation (“Tompkins”) for an aggregate purchase price equal to (i) the par amount of the preferred stock ($25,000,000) plus accrued and unpaid
     dividends thereon and (ii) $1,189,813 for the warrant, pursuant to the terms of the agreement by and among Treasury, VIST, and Tompkins entered into on 8/1/2012.
118
   	On 8/20/2012, Treasury completed the sale of 5,738,637 split adjusted shares of Sterling Financial Corporation common stock at $20.00 per share (less underwriting discounts) for net proceeds of $113,338,080.75, pursuant to an underwriting agreement executed on 8/14/2012.
119
   	On 8/21/2012, Treasury completed the sale of 230,000 shares of M&T Bank Corporation Series A Preferred Shares and 151,500 shares of M&T Bank Corporation Series C Preferred Shares at $1,000.00 per share plus accrued dividends for proceeds of $381,500,000.00 plus accrued dividends, pursuant
     to an underwriting agreement executed on 8/17/2012.
120
   	On 8/29/2012, Treasury completed the sale of 31,260 shares of BNC Bancorp preferred stock at $921.23 per share (less underwriting discounts) for net proceeds of $28,365,685.05 plus accrued dividends, pursuant to an underwriting agreement executed on 8/23/2012.
121
   	On 8/29/2012, Treasury completed the sale of 11,000 shares of Mackinac Financial Corporation preferred stock at $958.09 per share (less underwriting discounts) for net proceeds of $10,380,905.15 plus accrued dividends, pursuant to an underwriting agreement executed on 8/23/2012.
122
   	On 8/29/2012, Treasury completed the sale of 11,350 shares of First Community Corporation preferred stock at $982.83 per share (less underwriting discounts) for net proceeds of $10,987,793.69 plus accrued dividends, pursuant to an underwriting agreement executed on 8/23/2012.
123
   	On 8/29/2012, Treasury completed the sale of 13,900 shares of First National Corporation preferred stock at $882.50 per share (less underwriting discounts) for net proceeds of $12,082,748.75 plus accrued dividends and 695 shares of First National Corporation preferred stock (held as a result of
     warrant exercise) at $912.50 per share (less underwriting discounts) for net proceeds of $624,674.69 plus accrued dividends, pursuant to an underwriting agreement executed on 8/23/2012.
124
   	On 9/18/2012, Treasury completed the sale of 36,000 shares of Yadkin Valley Financial Corporation Series T preferred stock at $884.82 per share (less underwriting discounts) for net proceeds of $31,843,080.00 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on
     9/12/2012.
125
   	On 9/18/2012, Treasury completed the sale of 13,312 shares of Yadkin Valley Financial Corporation Series T-ACB preferred stock at $880.00 per share (less underwriting discounts) for net proceeds of $11,643,740.16 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed
     on 9/12/2012.
126
   	On 9/20/2012, Treasury completed the sale of 17,000 shares of F&M Financial Corporation (NC) preferred stock at $950.00 per share (less a placement agent fee) for net proceeds of $15,988,500.00 and 850 shares of F&M Financial Corporation (NC) preferred stock received upon the exercise of
     warrants at $921.30 per share (less a placement agent fee) for net proceeds of $775,273.95, pursuant to a placement agency agreement executed on 9/12/2012.
127
   	On 9/21/2012, Treasury completed the sale of 17,243 shares of F&M Financial Corporation (TN) preferred stock at $787.50 per share (less a placement agent fee) for net proceeds of $13,443,073.87 and 862 shares of F&M Financial Corporation (TN) preferred stock received upon the exercise of
     warrants at $870.00 per share (less a placement agent fee) for net proceeds of $742,440.60, pursuant to a placement agency agreement executed on 9/12/2012.
128
   	On 9/20/2012, Treasury completed the sale of 70,000 shares of Alpine Banks of Colorado preferred stock at $814.29 per share (less a placement agent fee) for net proceeds of $56,430,297.00 and 3,500 shares of Alpine Banks of Colorado preferred stock received upon the exercise of warrants at
     $950.00 per share (less a placement agent fee) for net proceeds of $3,291,750.00, pursuant to a placement agency agreement executed on 9/12/2012.
129
   	On 9/21/2012, Treasury completed the sale of 22,000 shares of First Community Financial Partners, Inc. preferred stock at $652.50 per share (less a placement agent fee) for net proceeds of $14,211,450.00, pursuant to a placement agency agreement executed on 9/12/2012
130
   	On 9/26/2012, Treasury completed the sale of all Central Federal Corporation preferred stock and the related warrant held by UST for an aggregate purchase price of $3,000,000, pursuant to the terms of the agreement entered into on 9/12/2012.
131
   	On 10/1/2012, Treasury completed the sale of all Southern Community Financial Corp. preferred stock and the related warrant held by UST for an aggregate purchase price of $42,750,000, plus accrued and unpaid dividends, pursuant to the terms of the agreement entered into on 10/1/2012.
132
   	On 10/19/2012, GulfSouth Private Bank, Destin, Florida, was closed by the Florida Office of Financial Regulation, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
133
   	On 10/19/2012, Excel Bank, Sedalia, Missouri, the banking subsidiary of Investors Financial Corporation of Pettis County, Inc., was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
134
   	On 10/31/2012, Treasury completed the sale of 12,000 shares of Blue Ridge Bancshares, Inc. preferred stock at $755.00 per share (less a placement agent fee) for net proceeds of $8,969,400.00 and 600 shares of Blue Ridge Bancshares, Inc. preferred stock received upon the exercise of warrants at
     $912.11 per share (less a placement agent fee) for net proceeds of $541,793.34, pursuant to a placement agency agreement executed on 10/22/2012.
135
   	On 10/31/2012, Treasury completed the sale of 7,570 shares of First Gothenburg Bancshares, Inc. preferred stock at $910.31 per share (less a placement agent fee) for net proceeds of $6,822,136.23 and 379 shares of First Gothenburg Bancshares, Inc. preferred stock received upon the exercise of
     warrants at $965.11 per share (less a placement agent fee) for net proceeds of $362,118.92, pursuant to a placement agency agreement executed on 10/22/2012.
136
   	On 10/31/2012, Treasury completed the sale of 10,000 shares of Blackhawk Bancorp Inc. preferred stock at $910.00 per share (less a placement agent fee) for net proceeds of $9,009,000.00 and 500 shares of Blackhawk Bancorp Inc. preferred stock received upon the exercise of warrants at $950.00
     per share (less a placement agent fee) for net proceeds of $470,250.00, pursuant to a placement agency agreement executed on 10/22/2012.
137
   	On 10/31/2012, Treasury completed the sale of 4,967 shares of Germantown Capital Corporation, Inc. preferred stock at $910.13 per share (less a placement agent fee) for net proceeds of $4,495,615.71 and 248 shares of Germantown Capital Corporation, Inc. preferred stock received upon the
     exercise of warrants at $966.11 per share (less a placement agent fee) for net proceeds of $214,595.28, pursuant to a placement agency agreement executed on 10/22/2012.
138
   	On 10/31/2012, Treasury completed the sale of 2,250 shares of CenterBank preferred stock at $825.00 per share (less a placement agent fee) for net proceeds of $1,831,250.00 and 113 shares of CenterBank preferred stock received upon the exercise of warrants at $965.11 per share (less a
     placement agent fee) for net proceeds of $84,057.43, pursuant to a placement agency agreement executed on 10/22/2012.
139
   	On 10/31/2012, Treasury completed the sale of 7,700 shares of Oak Ridge Financial Services, Inc. preferred stock at $921.50 per share (less a placement agent fee) for net proceeds of $7,024,594.50, pursuant to a placement agency agreement executed on 10/22/2012.
140
   	On 10/31/2012, Treasury completed the sale of 3,285 shares of Congaree Bancshares Inc. preferred stock at $825.26 per share (less a placement agent fee) for net proceeds of $2,685,979.10 and 164 shares of Congaree Bancshares Inc. preferred stock received upon the exercise of warrants at
     $801.00 per share (less a placement agent fee) for net proceeds of $106,364.00, pursuant to a placement agency agreement executed on 10/22/2012.
141
   	On 10/31/2012, Treasury completed the sale of 7,700 shares of Metro City Bank preferred stock at $900.10 per share (less a placement agent fee) for net proceeds of $6,861,462.30 and 385 shares of Metro City Bank preferred stock received upon the exercise of warrants at $970.61 per share (less a
     placement agent fee) for net proceeds of $369,948.00, pursuant to a placement agency agreement executed on 10/22/2012.
142
   	On 10/31/2012, Treasury completed the sale of 3,900 shares of Peoples Bancshares of TN, Inc. preferred stock at $755.00 per share (less a placement agent fee) for net proceeds of $2,919,500.00 and 195 shares of Peoples Bancshares of TN, Inc. preferred stock received upon the exercise of
     warrants at $755.00 per share (less a placement agent fee) for net proceeds of $122,225.00, pursuant to a placement agency agreement executed on 10/22/2012.
143
   	On 10/31/2012, Treasury completed the sale of 7,500 shares of The Little Bank, Incorporated preferred stock at $981.20 per share (less a placement agent fee) for net proceeds of $7,285,410.00 and 375 shares of The Little Bank, Incorporated preferred stock received upon the exercise of warrants at
     $1,000.00 per share (less a placement agent fee) for net proceeds of $371,250.00, pursuant to a placement agency agreement executed on 10/22/2012.
144
   	On 10/31/2012, Treasury completed the sale of 10,000 shares of HomeTown Bankshares Corporation preferred stock at $918.50 per share (less a placement agent fee) for net proceeds of $9,093,150.00 and 374 shares of HomeTown Bankshares Corporation preferred stock received upon the exercise
     of warrants at $852.00 per share (less a placement agent fee) for net proceeds of $315,461.52, pursuant to a placement agency agreement executed on 10/22/2012.
145
   	On 10/25/2012, pursuant to the terms of the merger of First Community Bancshares, Inc. (“First Community”) and Equity Bancshares, Inc. (“Equity”), Treasury received a like amount of preferred stock and exercised warrants from Equity in exchange for Treasury’s original investment in First Community, plus
     accrued and unpaid dividends, pursuant to a placement agency agreement executed on 10/23/2012.
146
   	On 10/29/2012, First Place Financial Corp. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the District of Delaware.
147
   	On 11/9/2012, Treasury completed the sale of 1,000 shares of BankGreenville Financial Corp. preferred stock at $900.00 per share (less a placement agent fee) for net proceeds of $891,000.00 and 50 shares of BankGreenville Financial Corp. preferred stock received upon the exercise of warrants at
     $937.61 per share (less a placement agent fee) for net proceeds of $46,411.70, pursuant to a placement agency agreement executed on 11/1/2012.
148
   	On 11/9/2012, Treasury completed the sale of 4,000 shares of Capital Pacific Bancorp preferred stock at $938.36 per share (less a placement agent fee) for net proceeds of $3,715,905.60 and 200 shares of Capital Pacific Bancorp preferred stock received upon the exercise of warrants at $970.21 per
     share (less a placement agent fee) for net proceeds of $192,101.58, pursuant to a placement agency agreement executed on 11/1/2012.
149
   	On 11/9/2012, Treasury completed the sale of 8,700 shares of First Freedom Bancshares, Inc. preferred stock at $922.50 per share (less a placement agent fee) for net proceeds of $7,945,492.50 and 261 shares of First Freedom Bancshares, Inc. preferred stock received upon the exercise of warrants
     at $991.21 per share (less a placement agent fee) for net proceeds of $256,118.75, pursuant to a placement agency agreement executed on 11/1/2012.
150
   	On 11/13/2012, Treasury completed the sale of 5,097 shares of Franklin Bancorp, Inc. preferred stock at $632.50 per share (less a placement agent fee) for net proceeds of $3,191,613.98 and 255 shares of Franklin Bancorp, Inc. preferred stock received upon the exercise of warrants at $772.50 per
     share (less a placement agent fee) for net proceeds of $195,017.63, pursuant to a placement agency agreement executed on 11/1/2012.
151
   	On 11/9/2012, Treasury completed the sale of 1,500 shares of Regional Bankshares Inc. preferred stock at $925.00 per share (less a placement agent fee) for net proceeds of $1,373,625.00 and 75 shares of Regional Bankshares Inc. preferred stock received upon the exercise of warrants at $1,000 per
     share (less a placement agent fee) for net proceeds of $74,250.00, pursuant to a placement agency agreement executed on 11/1/2012.
152
   	On 11/13/2012, Treasury completed the sale of 3,070 shares of Sound Banking Co. preferred stock at $922.61 per share (less a placement agent fee) for net proceeds of $2,804,088.57 and 154 shares of Sound Banking Co. preferred stock received upon the exercise of warrants at $970.21 per share
     (less a placement agent fee) for net proceeds of $147,918.22, pursuant to a placement agency agreement executed on 11/1/2012.
153
   	On 11/9/2012, Treasury completed the sale of 5,677 shares of Three Shores Bancorporation, Inc. preferred stock at $888.36 per share (less a placement agent fee) for net proceeds of $4,992,787.52 and 284 shares of Three Shores Bancorporation, Inc. preferred stock received upon the exercise of
     warrants at $1,004.00 per share (less a placement agent fee) for net proceeds of $282,284.64, pursuant to a placement agency agreement executed on 11/1/2012.
154
   	On 11/13/2012, Treasury completed the sale of 16,641 shares of Timberland Bancorp, Inc. preferred stock at $862.50 per share (less a placement agent fee) for net proceeds of $14,209,333.88, pursuant to a placement agency agreement executed on 11/1/2012.
155
   	On 11/9/2012, Treasury completed the sale of 6,855 shares of Western Illinois Bancshares, Inc. Series A preferred stock at $942.90 per share (less a placement agent fee) for net proceeds of $6,398,943.71; 4,567 shares of Western Illinois Bancshares, Inc. Series C preferred stock at $932.77 per
     share (less a placement agent fee) for net proceeds of $4,217,360.98; and 343 shares of Western Illinois Bancshares, Inc. preferred stock received upon the exercise of warrants at $987.77 per share (less a placement agent fee) for net proceeds of $335,417.06, pursuant to a placement agency
     agreement executed on 11/1/2012.
156
   	On 11/13/2012, Treasury completed the sale of its F&C Bancorp. Inc. subordinated debentures (less a placement agent fee) for net proceeds of $2,840,902.62 and its F&C Bancorp. Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for net proceeds of
     $148,500.00, pursuant to a placement agency agreement executed on 11/1/2012.
157
   	On 11/13/2012, Treasury completed the sale of its Farmers Enterprises, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $11,439,252.00 and its Farmers Enterprises, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for net
     proceeds of $590,323.14, pursuant to a placement agency agreement executed on 11/1/2012.
158
   	On 11/5/2012, Treasury entered into (i) an exchange agreement with Standard Bancshares, Inc. pursuant to which Treasury agreed to exchange its preferred stock for common stock and (ii) securities purchase agreements with W Capital Partners II, L.P., Trident SBI Holdings, LLC, PEPI Capital, LP, LCB
     Investment, LLC, Cohesive Capital Partners, L.P., and Athena Select Private Investment Fund LLC, pursuant to which Treasury agreed to sell such common stock to such parties.
159
   	On 11/2/2012, Citizens First National Bank, Princeton, IL, the banking subsidiary of Princeton National Bancorp, was closed by the Office of the Comptroller of the Currency, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
160
   	On 11/13/2012, Treasury entered into an agreement with Community Financial Shares, Inc. (“CFS”) pursuant to which Treasury agreed to sell its CPP preferred stock back to CFS at a discount subject to the satisfaction of the conditions specified in the agreement.
161
   	On 11/29/2012, Treasury completed the sale of 4,781 shares of Alaska Pacific Bancshares, Inc. preferred stock at $892.61 per share (less a placement agent fee) for net proceeds of $4,217,568.41, pursuant to a placement agency agreement executed on 11/19/2012.
162
   	On 11/30/2012, Treasury completed the sale of 3,000 shares of Bank of Commerce preferred stock at $834.00 per share (less a placement agent fee) for net proceeds of $2,477,000.00 and 150 shares of Bank of Commerce preferred stock received upon the exercise of warrants at $834.00 per share
     (less a placement agent fee) for net proceeds of $100,100.00, pursuant to a placement agency agreement executed on 11/19/2012.
163
   	On 11/30/2012, Treasury completed the sale of 4,000 shares of Carolina Trust Bank preferred stock at $853.00 per share (less a placement agent fee) for net proceeds of $3,362,000.00, pursuant to a placement agency agreement executed on 11/19/2012.
164
   	On 11/29/2012, Treasury completed the sale of 2,644 shares of CBB Bancorp Series A preferred stock at $934.10 per share (less a placement agent fee) for net proceeds of $2,453,093; 1,753 shares of CBB Bancorp Series C preferred stock at $930.02 per share (less a placement agent fee) for net
     proceeds of $1,613,658.39; and 132 shares of CBB Bancorp Series B preferred stock received upon the exercise of warrants at $1,004.00 per share (less a placement agent fee) for net proceeds of $115,861.33, pursuant to a placement agency agreement executed on 11/19/2012.
165
   	On 11/29/2012, Treasury completed the sale of 3,000 shares of Clover Community Bankshares, Inc. preferred stock at $872.90 per share (less a placement agent fee) for net proceeds of $2,593,700.00 and 150 shares of Clover Community Bankshares, Inc. preferred stock received upon the exercise of
     warrants at $926.81 per share (less a placement agent fee) for net proceeds of $114,021.50, pursuant to a placement agency agreement executed on 11/19/2012.
166
   	On 11/30/2012, Treasury completed the sale of 105 shares of Community Bancshares of Mississippi, Inc. preferred stock at $9,550.00 per share (less a placement agent fee) for net proceeds of $977,750.00 and 5 shares of Community Bancshares of Mississippi, Inc. preferred stock received upon the
     exercise of warrants at $10,000.00 per share (less a placement agent fee) for net proceeds of $25,000.00, pursuant to a placement agency agreement executed on 11/19/2012.
167
   	On 11/30/2012, Treasury completed the sale of 3,976 shares of Community Business Bank preferred stock at $935.00 per share (less a placement agent fee) for net proceeds of $3,692,560.00 and 199 shares of Community Business Bank preferred stock received upon the exercise of warrants at
                                                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




     $965.00 per share (less a placement agent fee) for net proceeds of $167,035.00, pursuant to a placement agency agreement executed on 11/19/2012.
168
   	On 11/30/2012, Treasury completed the sale of 638 shares of Corning Savings and Loan Association preferred stock at $860.00 per share (less a placement agent fee) for net proceeds of $523,680.00 and 32 shares of Corning Savings and Loan Association preferred stock received upon the exercise of
     warrants at $905.00 per share (less a placement agent fee) for net proceeds of $3,960.00, pursuant to a placement agency agreement executed on 11/19/2012.
169
   	On 11/29/2012, Treasury completed the sale of 7,525 shares of Country Bank Shares, Inc. preferred stock at $917.90 per share (less a placement agent fee) for net proceeds of $6,838,125.53 and 376 shares of Country Bank Shares, Inc. preferred stock received upon the exercise of warrants at
     $1,000.00 per share (less a placement agent fee) for net proceeds of $372,240.00, pursuant to a placement agency agreement executed on 11/19/2012.
                                                                                                                                                                                                                                                                                                                        257
                                                                                                                                                                                                                                                                                                                         258
170
   	On 11/30/2012, Treasury completed the sale of 7,289 shares of FFW Corporation preferred stock at $902.90 per share (less a placement agent fee) for net proceeds of $6,515,425.72 and 364 shares of FFW Corporation preferred stock received upon the exercise of warrants at $995.00 per share (less
     a placement agent fee) for net proceeds of $358,558.20, pursuant to a placement agency agreement executed on 11/19/2012.
171
   	On 11/30/2012, Treasury completed the sale of 1,900 shares of Hometown Bancshares, Inc. preferred stock at $942.90 per share (less a placement agent fee) for net proceeds of $1,766,510.00 and 95 shares of Hometown Bancshares, Inc. preferred stock received upon the exercise of warrants at
     $1,001.00 per share (less a placement agent fee) for net proceeds of $70,095.00, pursuant to a placement agency agreement executed on 11/19/2012.
172
   	On 11/30/2012, Treasury completed the sale of 4,000 shares of KS Bancorp, Inc. preferred stock at $827.00 per share (less a placement agent fee) for net proceeds of $3,283,000 and 200 shares of KS Bancorp, Inc. preferred stock received upon the exercise of warrants at $827.00 per share (less a
     placement agent fee) for net proceeds of $140,400.00, pursuant to a placement agency agreement executed on 11/19/2012.
173
   	On 11/29/2012, Treasury completed the sale of 3,000 shares of Layton Park Financial Group, Inc. preferred stock at $790.31 per share (less a placement agent fee) for net proceeds of $2,345,930.00 and 150 shares of Layton Park Financial Group, Inc. preferred stock received upon the exercise of
     warrants at $862.50 per share (less a placement agent fee) for net proceeds of $104,375.00, pursuant to a placement agency agreement executed on 11/19/2012.
174
   	On 11/29/2012, Treasury completed the sale of 16,288 shares of Parke Bancorp, Inc. preferred stock at $719.11 per share (less a placement agent fee) for net proceeds of $11,595,735.04, pursuant to a placement agency agreement executed on 11/19/2012.
175
   	On 11/29/2012, Treasury completed the sale of 2,765 shares of TriSummit Bank Series B preferred stock at $750.00 per share (less a placement agent fee) for net proceeds of $2,053,012.50; 4,237 shares of TriSummit Bank Series D preferred stock at $750.00 per share (less a placement agent fee)
     for net proceeds of $3,145,972.50; and 138 shares of TriSummit Bank Series C preferred stock received upon the exercise of warrants at $912.50 per share (less a placement agent fee) for net proceeds of $124,665.75, pursuant to a placement agency agreement executed on 11/19/2012.
176
   	In connection with the merger of Fidelity Bancorp, Inc. (“Fidelity”) and WesBanco, Inc. (“WesBanco”) effective 01/01/2012, Treasury (i) sold to WesBanco all of the preferred stock that had been issued by Fidelity to Treasury for a purchase price of $7,000,000 plus accrued dividends and (ii) exchanged the
     Fidelity warrant held by Treasury for a like WesBanco warrant, pursuant to the terms of an agreement among Treasury and WesBanco entered into on 11/28/2012.
177
   	On 11/30/12, Western Reserve Bancorp, Inc. was acquired by an affiliate of Westfield Bancorp, Inc. Pursuant to the terms of the merger, each outstanding share of Series A and Series B preferred stock issued to Treasury was redeemed for the respective principal amount together with accrued and unpaid
     dividends thereon.
178
   	On 11/30/12, Treasury entered into an agreement with First Sound Bank (“First Sound”) pursuant to which Treasury agreed to sell its CPP preferred stock and warrant back to First Sound at a discount subject to the satisfaction of the conditions specified in the agreement.
179
   	On 12/11/2012, Treasury completed the sale of 20,749 shares of The Baraboo Bancorporation, Inc. preferred stock at $652.30 per share (less a placement agent fee) for net proceeds of $13,399,226.97 and 1,037 shares of The Baraboo Bancorporation, Inc. preferred stock received upon the exercise
     of warrants at $836.21 per share (less a placement agent fee) for net proceeds of $858,478.27, pursuant to a placement agency agreement executed on 12/3/2012.
180
   	On 12/11/2012, Treasury completed the sale of 22,000 shares of Central Community Corporation preferred stock at $926.20 per share (less a placement agent fee) for net proceeds of $20,172,636.00 and 1,100 shares of Central Community Corporation preferred stock received upon the exercise of
     warrants at $972.20 per share (less a placement agent fee) for net proceeds of $1,058,725.80, pursuant to a placement agency agreement executed on 12/3/2012.
181
   	On 12/11/2012, Treasury completed the sale of 15,600 shares of Community West Bancshares, Inc. preferred stock at $724.00 per share (less a placement agent fee) for net proceeds of $11,181,456.00, pursuant to a placement agency agreement executed on 12/3/2012.
182
   	On 12/11/2012, Treasury completed the sale of 1,177 shares of First Advantage Bancshares, Inc. preferred stock at $898.21 per share (less a placement agent fee) for net proceeds of $1,046,621.24 and 59 shares of First Advantage Bancshares, Inc. preferred stock received upon the exercise of
     warrants at $920.31 per share (less a placement agent fee) for net proceeds of $53,755.31, pursuant to a placement agency agreement executed on 12/3/2012.
183
   	On 12/11/2012, Treasury completed the sale of its Manhattan Bancshares, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $2,560,540.68 and its Manhattan Bancshares, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for
     net proceeds of $131,021.07, pursuant to a placement agency agreement executed on 12/3/2012.
184
   	On 12/11/2012, Treasury completed the sale of 10,800 shares of Presidio Bank preferred stock at $847.21 per share (less a placement agent fee) for net proceeds of $9,058,369.32 and 325 shares of Presidio Bank preferred stock received upon the exercise of warrants at $865.21 per share (less a
     placement agent fee) for net proceeds of $278,381.32, pursuant to a placement agency agreement executed on 12/3/2012.
185
   	On 12/11/2012, Treasury completed the sale of 2,152 shares of Security Bancshares of Pulaski County, Inc. preferred stock at $692.61 per share (less a placement agent fee) for net proceeds of $1,475,591.75 and 108 shares of Security Bancshares of Pulaski County, Inc. preferred stock received upon
     the exercise of warrants at $872.10 per share (less a placement agent fee) for net proceeds of $93,244.93, pursuant to a placement agency agreement executed on 12/3/2012.
186
   	On 12/11/12, Treasury entered into a securities purchase agreement with PremierWest Bancorp (PremierWest) and Starbuck Bancshares, Inc. (Starbuck) pursuant to which Treasury agreed to sell its CPP preferred and warrant in PremierWest to Starbuck subject to certain conditions.
187
   	On 12/20/2012, Treasury completed the sale of 1,004 shares of Bank Financial Services, Inc. preferred stock at $929.22 per share (less a placement agent fee) for net proceeds of $907,936.88 and 50 shares of Bank Financial Services, Inc. preferred stock received upon the exercise of warrants at
     $970.00 per share (less a placement agent fee) for net proceeds of $23,500.00, pursuant to a placement agency agreement executed on 12/11/2012.
188
   	On 12/20/2012, Treasury completed the sale of 2,211 shares of Bank of Southern California, N.A. Series A preferred stock at $920.00 per share (less a placement agent fee) for net proceeds of $2,017,453.33; 2,032 shares of Bank of Southern California, N.A. Series C preferred stock at $910.12
     per share (less a placement agent fee) for net proceeds of $1,832,697.18; and 111 shares of Bank of Southern California, N.A. preferred stock received upon the exercise of warrants at $965.12 per share (less a placement agent fee) for net proceeds of $90,461.65, pursuant to a placement agency
                                                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




     agreement executed on 12/11/2012.
189
   	On 12/20/2012, Treasury completed the sale of 2,600 shares of Community Investors Bancorp, Inc. preferred stock at $950.00 per share (less a placement agent fee) for net proceeds of $2,445,000.00 and 130 shares of Community Investors Bancorp, Inc. preferred stock received upon the exercise of
     warrants at $1,000.00 per share (less a placement agent fee) for net proceeds of $105,000.00, pursuant to a placement agency agreement executed on 12/11/2012.
190
   	On 12/20/2012, Treasury completed the sale of 3,422 shares of First Alliance Bancshares, Inc. preferred stock at $700.10 per share (less a placement agent fee) for net proceeds of $2,370,742.20 and 171 shares of First Alliance Bancshares, Inc. preferred stock received upon the exercise of warrants
     at $700.01 per share (less a placement agent fee) for net proceeds of $94,701.71, pursuant to a placement agency agreement executed on 12/11/2012.
191
   	On 12/20/2012, Treasury completed the sale of 3,223 shares of First Independence Corporation preferred stock at $725.00 per share (less a placement agent fee) for net proceeds of $2,286,675.00, pursuant to a placement agency agreement executed on 12/11/2012.
192
   	On 12/20/2012, Treasury completed the sale of 1,552 shares of Hyperion Bank preferred stock at $650.00 per share (less a placement agent fee) for net proceeds of $983,800.00 and 78 shares of Hyperion Bank preferred stock received upon the exercise of warrants at $650.00 per share (less a
     placement agent fee) for net proceeds of $25,700.00, pursuant to a placement agency agreement executed on 12/11/2012.
193
   	On 12/20/2012, Treasury completed the sale of its Century Financial Services Corporation subordinated debentures (less a placement agent fee) for net proceeds of $9,751,500.00 and its Century Financial Services Corporation subordinated debentures received upon the exercise of warrants (less a
     placement agent fee) for net proceeds of $496,588.95, pursuant to a placement agency agreement executed on 12/11/2012.

Sources: Treasury, Transactions Report, 12/28/2012; Dividends and Interest Report, 1/10/2013; Treasury, response SIGTARP data call, 1/11/2013; Bloomberg, LP, accessed 1/9/2013.




TABLE D.2
 CPP – CITIGROUP, INC. COMMON STOCK DISPOSITION, AS OF 12/31/2012
      Note   Date                                           Pricing Mechanism6                       Number of Shares                                   Proceeds7
       1     4/26/2010 – 5/26/2010                                          $4.12                        1,500,000,000                            $6,182,493,158
       2     5/26/2010 – 6/30/2010                                          $3.90                        1,108,971,857                            $4,322,726,825
       3     7/23/2010 – 9/30/2010                                          $3.91                        1,500,000,000                            $5,863,489,587
       4     10/19/2010 – 12/6/2010                                         $4.26                        1,165,928,228                            $4,967,921,811
       5     12/6/2010                                                      $4.35                        2,417,407,607                           $10,515,723,090
                                                                                                        Total Proceeds:                        $31,852,354,471
 Notes: Numbers may not total due to rounding. Data as of 12/31/2012. Numbered notes taken verbatim from 12/28/2012, Transactions Report.
 1	
    On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
    parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
    Completion of the sale under this authority occurred on 5/26/2010.
 2	
    On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
    parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
    Completion of the sale under this authority occurred on 6/30/2010.
 3	
    On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
    parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of the sale).
    Completion of the sale under this authority occured on 9/30/2010.
 4	
    On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
    parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale), which
    plan was terminated on 12/6/2010.
 5	
    On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the
    fulfillment of certain closing conditions.
 6	
    The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding period.
 7	
    Amount represents the gross proceeds to Treasury.

 Source: Treasury, Transactions Report, 12/28/2012.
TABLE D.3
CDCI PROGRAM TRANSACTION DETAIL, AS OF 12/31/2012
                                                           Seller                                                                      Purchase Details                                                            Disposition Details

                                                                                                                                                                                         Pricing                         Remaining       Dividend/Interest
 Note   Purchase Date   Name of Institution                                                Investment Description    Amount from CPP      Additional Investment   Investment Amount   Mechanism          Date    Investment Amount        Paid to Treasury
        9/24/2010       Alternatives Federal Credit Union, Ithaca, NY                      Subordinated Debentures               $—                        $—            $2,234,000          Par                                               $95,689.67
        9/17/2010       American Bancorp of Illinois, Inc., Oak Brook, IL                  Subordinated Debentures               $—                        $—            $5,457,000          Par                                              $365,588.68
        9/24/2010       Atlantic City Federal Credit Union, Lander, WY                     Subordinated Debentures               $—                        $—            $2,500,000          Par    9/26/20126                  $—            $100,277.77
        9/24/2010       Bainbridge Bancshares, Inc., Bainbridge, GA                        Preferred Stock                       $—                        $—            $3,372,000          Par                                              $144,434.00
        9/29/2010       Bancorp of Okolona, Inc., Okolona, MS                              Subordinated Debentures               $—                        $—            $3,297,000          Par                                              $217,473.78
 1, 2   9/29/2010       BancPlus Corporation, Ridgeland, MS                                Preferred Stock               $50,400,000              $30,514,000           $80,914,000          Par                                            $3,443,340.22
        9/29/2010       BankAsiana, Palisades Park, NJ                                     Preferred Stock                       $—                        $—            $5,250,000          Par                                              $223,416.67
        9/29/2010       Bethex Federal Credit Union, Bronx, NY                             Subordinated Debentures               $—                        $—             $502,000           Par                                               $21,362.89
        9/29/2010       Border Federal Credit Union, Del Rio, TX                           Subordinated Debentures               $—                        $—            $3,260,000          Par                                              $138,731.11
        9/24/2010       Brewery Credit Union, Milwaukee, WI                                Subordinated Debentures               $—                        $—            $1,096,000          Par    10/3/20126                  $—             $44,388.00
        9/30/2010       Brooklyn Cooperative Federal Credit Union, Brooklyn, NY            Subordinated Debentures               $—                        $—             $300,000           Par                                               $12,750.00
        9/24/2010       Buffalo Cooperative Federal Credit Union, Buffalo, NY              Subordinated Debentures               $—                        $—             $145,000           Par                                                $6,210.83
        9/24/2010       Butte Federal Credit Union, Biggs, CA                              Subordinated Debentures               $—                        $—            $1,000,000          Par                                               $42,833.33
        9/29/2010       Carter Federal Credit Union, Springhill, LA                        Subordinated Debentures               $—                        $—            $6,300,000          Par                                              $268,100.00
 1, 3   8/27/2010       Carver Bancorp, Inc, New York, NY                                  Common Stock                  $18,980,000                       $—           $18,980,000          Par                                              $446,507.39
        9/17/2010       CFBanc Corporation, Washington, DC                                 Preferred Stock                       $—                        $—            $5,781,000          Par                                              $249,867.67
  1     8/13/2010                                                                          Preferred Stock                $7,462,000                       $—                   $—           Par
                        Citizens Bancshares Corporation, Atlanta, GA                                                                                                                                                                          $525,889.22
  2a    9/17/2010                                                                          Preferred Stock                       $—                 $4,379,000          $11,841,000          Par
  1     9/29/2010       Community Bancshares of Mississippi, Inc., Brandon, MS             Preferred Stock               $54,600,000                       $—           $54,600,000          Par                                            $2,323,533.33
 1, 2   9/29/2010       Community Bank of the Bay, Oakland, CA                             Preferred Stock                $1,747,000                $2,313,000           $4,060,000          Par                                              $152,475.56
        9/24/2010       Community First Guam Federal Credit Union, Hagatna, GU             Subordinated Debentures               $—                        $—            $2,650,000          Par                                              $113,508.33
        9/29/2010       Community Plus Federal Credit Union, Rantoul, IL                   Subordinated Debentures               $—                        $—             $450,000           Par                                               $19,150.00
        9/24/2010       Cooperative Center Federal Credit Union, Berkeley, CA              Subordinated Debentures               $—                        $—            $2,799,000          Par                                              $119,890.50
        9/29/2010       D.C. Federal Credit Union, Washington, DC                          Subordinated Debentures               $—                        $—            $1,522,000          Par                                               $64,769.56
        9/29/2010       East End Baptist Tabernacle Federal Credit Union, Bridgeport, CT   Subordinated Debentures               $—                        $—               $7,000           Par                                                  $297.89
        9/29/2010       Episcopal Community Federal Credit Union, Los Angeles, CA          Subordinated Debentures               $—                        $—             $100,000           Par                                                $4,255.56
        9/24/2010       Fairfax County Federal Credit Union, Fairfax, VA                   Subordinated Debentures               $—                        $—            $8,044,000          Par                                              $344,551.33
        9/29/2010       Faith Based Federal Credit Union, Oceanside, CA                    Subordinated Debentures               $—                        $—              $30,000           Par                                                $1,276.67
        9/29/2010       Fidelis Federal Credit Union, New York, NY                         Subordinated Debentures               $—                        $—              $14,000           Par                                                  $595.78
  1     8/13/2010       First American International Corp., Brooklyn, NY                   Preferred Stock               $17,000,000                       $—           $17,000,000          Par                                              $171,888.89
  1     9/24/2010       First Choice Bank, Cerritos, CA                                    Preferred Stock                $5,146,000                       $—            $5,146,000          Par                                              $220,420.33
  1     9/17/2010       First Eagle Bancshares, Inc., Hanover Park, IL                     Subordinated Debentures        $7,875,000                       $—            $7,875,000          Par                                              $527,581.25
        9/29/2010       First Legacy Community Credit Union, Charlotte, NC                 Subordinated Debentures               $—                        $—            $1,000,000          Par                                               $42,555.56
  1     9/29/2010       First M&F Corporation, Kosciusko, MS                               Preferred Stock               $30,000,000                       $—           $30,000,000          Par                                            $1,276,666.67
  1     9/29/2010       First Vernon Bancshares, Inc., Vernon, AL                          Preferred Stock                $6,245,000                       $—            $6,245,000          Par                                               $15,959.44
        9/29/2010       Freedom First Federal Credit Union, Roanoke, VA                    Subordinated Debentures               $—                        $—            $9,278,000          Par                                              $394,830.44
        9/24/2010       Gateway Community Federal Credit Union, Missoula, MT               Subordinated Debentures               $—                        $—            $1,657,000          Par   10/17/20126                  $—             $68,397.27
        9/17/2010       Genesee Co-op Federal Credit Union, Rochester, NY                  Subordinated Debentures               $—                        $—             $300,000           Par                                               $12,966.67
  5     9/29/2010       Greater Kinston Credit Union, Kinston, NC                          Subordinated Debentures               $—                        $—             $350,000           Par    4/10/20125                  $—             $10,714.44
  1     7/30/2010       Guaranty Capital Corporation, Belzoni, MS                          Subordinated Debentures       $14,000,000                       $—           $14,000,000          Par                                              $994,583.33
        9/29/2010       Hill District Federal Credit Union, Pittsburgh, PA                 Subordinated Debentures               $—                        $—             $100,000           Par                                                $4,255.56
        9/17/2010       Hope Federal Credit Union, Jackson, MS                             Subordinated Debentures               $—                        $—            $4,520,000          Par                                              $195,364.44
 1, 2   9/10/2010       IBC Bancorp, Inc., Chicago, IL                                     Subordinated Debentures        $4,205,000                $3,881,000           $8,086,000          Par                                              $546,591.14
                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




  1     9/3/2010        IBW Financial Corporation, Washington, DC                          Preferred Stock                $6,000,000                       $—            $6,000,000          Par                                              $264,000.00
        9/29/2010       Independent Employers Group Federal Credit Union, Hilo, HI         Subordinated Debentures               $—                        $—             $698,000           Par                                               $29,703.78
        9/3/2010        Kilmichael Bancorp, Inc., Kilmichael, MS                           Subordinated Debentures               $—                        $—            $3,154,000          Par                                              $215,102.80
  1     9/29/2010       Lafayette Bancorp, Inc., Oxford, MS                                Preferred Stock                $4,551,000                       $—            $4,551,000          Par                                              $193,670.33
        9/24/2010       Liberty County Teachers Federal Credit Union, Liberty, TX          Subordinated Debentures               $—                        $—             $435,000           Par                                               $18,632.50
                                                                                                                                                                                                                                                              259




                                                                                                                                                                                                                                     Continued on next page
CDCI PROGRAM TRANSACTION DETAIL, AS OF 12/31/2012                                                                   (CONTINUED)                                                                                                                                                                260
                                                                Seller                                                                                  Purchase Details                                                                          Disposition Details
                                                                                                                                                                                                                Pricing                                Remaining          Dividend/Interest
 Note     Purchase Date      Name of Institution                                                      Investment Description        Amount from CPP        Additional Investment     Investment Amount       Mechanism                Date     Investment Amount           Paid to Treasury
 1, 2     9/24/2010          Liberty Financial Services, Inc., New Orleans, LA                        Preferred Stock                      $5,645,000                $5,689,000             $11,334,000               Par                                                      $485,473.00
          9/24/2010          Lower East Side People’s Federal Credit Union, New York, NY              Subordinated Debentures                      $—                        $—                $898,000               Par                                                       $38,464.33
   1      8/20/2010          M&F Bancorp, Inc., Durham, NC                                            Preferred Stock                     $11,735,000                        $—             $11,735,000               Par                                                      $524,815.28
   1      8/20/2010                                                                                   Preferred Stock                      $5,500,000                        $—                       $—              Par
                             Mission Valley Bancorp, Sun Valley, CA                                                                                                                                                                                                            $453,114.22
  2a      9/24/2010                                                                                   Preferred Stock                              $—                $4,836,000             $10,336,000               Par
          9/24/2010          Neighborhood Trust Federal Credit Union, New York, NY                    Subordinated Debentures                      $—                        $—                $283,000               Par                                                       $12,121.83
          9/29/2010          North Side Community Federal Credit Union, Chicago, IL                   Subordinated Debentures                      $—                        $—                $325,000               Par                                                       $13,830.56
          9/24/2010          Northeast Community Federal Credit Union, San Francisco, CA              Subordinated Debentures                      $—                        $—                $350,000               Par                                                       $14,991.67
          9/29/2010          Opportunities Credit Union, Burlington, VT                               Subordinated Debentures                      $—                        $—               $1,091,000              Par                                                       $46,428.11
   1      8/13/2010          PGB Holdings, Inc., Chicago, IL                                          Preferred Stock                      $3,000,000                        $—               $3,000,000              Par                                                       $30,333.33
          9/24/2010          Phenix Pride Federal Credit Union, Phenix City, AL                       Subordinated Debentures                      $—                        $—                $153,000               Par                                                         $6,553.50
 1, 4     8/13/2010          Premier Bancorp, Inc., Wilmette, IL                                      Subordinated Debentures              $6,784,000                        $—               $6,784,000              Par                                                               $—
          9/24/2010          Prince Kuhio Federal Credit Union, Honolulu, HI                          Subordinated Debentures                      $—                        $—                $273,000               Par                                                       $11,693.50
   1      9/29/2010          PSB Financial Corporation, Many, LA                                      Preferred Stock                      $9,734,000                        $—               $9,734,000              Par    12/28/20126                        $—             $437,489.22
          9/24/2010          Pyramid Federal Credit Union, Tucson, AZ                                 Subordinated Debentures                      $—                        $—               $2,500,000              Par                                                      $107,083.33
          9/29/2010          Renaissance Community Development Credit Union, Somerset, NJ             Subordinated Debentures                      $—                        $—                  $31,000              Par                                                         $1,319.22
          9/24/2010          Santa Cruz Community Credit Union, Santa Cruz, CA                        Subordinated Debentures                      $—                        $—               $2,828,000              Par                                                      $121,132.67
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




   1      9/29/2010          Security Capital Corporation, Batesville, MS                             Preferred Stock                     $17,910,000                        $—             $17,910,000               Par                                                      $762,170.00
 1, 2     9/29/2010          Security Federal Corporation, Aiken, SC                                  Preferred Stock                     $18,000,000                $4,000,000             $22,000,000               Par                                                      $936,222.22
          9/29/2010          Shreveport Federal Credit Union, Shreveport, LA                          Subordinated Debentures                      $—                        $—               $2,646,000              Par                                                      $112,602.00
 1, 2     8/6/2010           Southern Bancorp, Inc., Arkadelphia, AR                                  Preferred Stock                     $11,000,000               $22,800,000             $33,800,000               Par                                                    $1,537,900.00
          9/29/2010          Southern Chautauqua Federal Credit Union, Lakewood, NY                   Subordinated Debentures                      $—                        $—               $1,709,000              Par                                                       $72,726.64
          9/29/2010          Southside Credit Union, San Antonio, TX                                  Subordinated Debentures                      $—                        $—               $1,100,000              Par                                                       $46,811.11
   1      9/29/2010          State Capital Corporation, Greenwood, MS                                 Preferred Stock                     $15,750,000                        $—             $15,750,000               Par                                                      $670,250.00
 1, 2     9/29/2010          The First Bancshares, Inc., Hattiesburg, MS                              Preferred Stock                      $5,000,000               $12,123,000             $17,123,000               Par                                                      $728,678.78
          9/29/2010          The Magnolia State Corporation, Bay Springs, MS                          Subordinated Debentures                      $—                        $—               $7,922,000              Par                                                      $522,543.92
                             Thurston Union of Low-Income People (TULIP) Cooperative Credit Union,
          9/24/2010                                                                                   Subordinated Debentures                      $—                        $—                  $75,000              Par                                                         $3,212.50
                             Olympia, WA
          9/24/2010          Tongass Federal Credit Union, Ketchikan, AK                              Subordinated Debentures                      $—                        $—               $1,600,000              Par                                                       $68,533.33
   1      8/13/2010          Tri-State Bank of Memphis, Memphis, TN                                   Preferred Stock                      $2,795,000                        $—               $2,795,000              Par                                                      $126,085.56
          9/24/2010          Tulane-Loyola Federal Credit Union, New Orleans, LA                      Subordinated Debentures                      $—                        $—                $424,000               Par                                                       $18,161.33
          9/24/2010          Union Baptist Church Federal Credit Union, Fort Wayne, IN                Subordinated Debentures                      $—                        $—                  $10,000              Par                                                          $428.33
          9/29/2010          Union Settlement Federal Credit Union, New York, NY                      Subordinated Debentures                      $—                        $—                $295,000               Par                                                       $12,553.89
   1      9/3/2010           United Bancorporation of Alabama, Inc., Atmore, AL                       Preferred Stock                     $10,300,000                        $—             $10,300,000               Par                                                      $453,200.00
                             UNITEHERE Federal Credit Union, (Workers United Federal Credit Union),
          9/29/2010                                                                                   Subordinated Debentures                      $—                        $—                  $57,000              Par                                                         $2,425.67
                             New York, NY
 1, 2     7/30/2010          University Financial Corp, Inc., St. Paul, MN                            Subordinated Debentures             $11,926,000               $10,189,000             $22,115,000               Par    11/28/20126                        $—           $1,595,842.97
          9/24/2010          UNO Federal Credit Union, New Orleans, LA                                Subordinated Debentures                      $—                        $—                $743,000               Par                                                       $31,825.17
          9/29/2010          Vigo County Federal Credit Union, Terre Haute, IN                        Subordinated Debentures                      $—                        $—               $1,229,000              Par                                                       $52,300.78
          9/24/2010          Virginia Community Capital, Inc., Christiansburg, VA                     Subordinated Debentures                      $—                        $—               $1,915,000              Par                                                       $82,025.83
                                                                                                                                                                                                                 Total Capital Repayment
                                                                                                                                                         Total Purchase Amount            $570,073,000                                               $37,452,000
                                                                                                                                                                                                                                  Amount
                                                                                                                                            TOTAL TREASURY COMMUNITY DEVELOPMENT INITIATIVE (CDCI) INVESTMENT AMOUNT                                $532,621,000
Notes: Numbers may not total due to rounding. Data as of 12/31/2012. Numbered notes are taken verbatim from Treasury’s 12/28/2012, Transactions Report.
1	
    This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2	
    Treasury made an additional investment in this institution at the time it entered the CDCI program.
2a	
    Treasury made an additional investment in this institution after the time it entered the CDCI program.
3	
    On 10/28/2011, Treasury completed the exchange of all Carver Bancorp, Inc. (“Carver”) preferred stock held by Treasury for 2,321,286 shares of Carver common stock, pursuant to the terms of the agreement between Treasury and Carver entered into on 6/29/2011. Accrued and previously
    unpaid dividends were paid on the date of the exchange.
4	
    On 3/23/2012, Premier Bank, Wilmette, IL, the banking subsidiary of Premier Bancorp, Inc., was closed by the Illinois Department of Financial and Professional Regulation – Division of Banking, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
5	
    Repayment pursuant to Section 5.2 of the CDCI Securities Purchase Agreement.
6	
    Repayment pursuant to Section 6.10 of the CDCI Securities Purchase Agreement.

Sources: Treasury, Transactions Report, 12/28/2012; Treasury, Dividends and Interest Report, 1/10/2013.
TABLE D.4
 AIFP TRANSACTION DETAIL, AS OF 12/31/2012
                                                                                                                                        Treasury Investment After Exchange/
                                          Initial Investment                         Exchange/Transfer/Other Details                    Transfer/Other                                                         Payment or Disposition1
                                                                                                                                                                                                                                                Remaining
                        Trans-                                                                                                                                                                                                 Remaining       Investment       Dividend/
                        action                                                                                                                                           Amount/                                      Amount/ Investment         Amount / Interest Paid to
              Date      Type     Seller          Description           Amount Note Date          Type                    Amount Note Obligor     Note Description        Equity %         Date         Type           Proceeds Description        Equity %       Treasury
                                                 Preferred                                     Exchange for
                                                 Stock w/                                      convertible                                              Convertible
              12/29/2008 Purchase GMAC                          $5,000,000,000      12/30/2009                    $5,000,000,000        GMAC      21,
                                                 Exercised                                     preferred                                                 Preferred $5,937,500,000
                                                 Warrants                                      stock                                    (Ally)    22
                                                                                                                                                            Stock
                                                                                               Partial
                                                 Convertible
                                                                                               conversion
                                                 Preferred
                                                                                               of preferred
              5/21/2009 Purchase GMAC            Stock w/       $7,500,000,000   22 12/30/2009                    $3,000,000,000
                                                                                               stock for
                                                 Exercised
                                                                                               common
                                                 Warrants
GMAC                                                                                           stock
                                                                                                                                                   3,
(Ally),                                                                                                                                 GMAC              Common                                                                                           $3,138,096,882
                                                                                              Partial                                             26,                         73.8%
Detroit, MI                                      Convertible                                                                            (Ally)              Stock
                                                                                              conversion                                          32
                                                 Preferred
                                                                               22,            of preferred
              12/30/2009 Purchase GMAC           Stock w/       $1,250,000,000     12/30/2010                     $5,500,000,000   26
                                                                               26             stock for
                                                 Exercised
                                                                                              common
                                                 Warrants
                                                                                              stock
                                                 Trust                                           Exchange for
                                                 Preferred                                       amended and                                                 Trust
                                                                                                                                        GMAC
              12/30/2009 Purchase GMAC           Securities     $2,540,000,000      3/1/2011     restated Trust   $2,670,000,000   27             27     Preferred $2,670,000,000     3/2/2011 Disposition28    $2,667,000,000           N/A          $—
                                                                                                                                        (Ally)
                                                 w/ Exercised                                    Preferred                                               Securities
                                                 Warrants                                        Securities
                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013
                                                                                                                                                                                                                                                                              261
 AIFP TRANSACTION DETAIL, AS OF 12/31/2012                                                  (CONTINUED)                                                                                                                                                                                  262
                                                                                                                                             Treasury Investment After Exchange/
                                            Initial Investment                         Exchange/Transfer/Other Details                                  Transfer/Other                                               Payment or Disposition1
                                                                                                                                                                                                                                                           Remaining
                         Trans-                                                                                                                                                                                                      Remaining            Investment       Dividend/
                         action                                                                                                                                              Amount/                                        Amount/ Investment              Amount / Interest Paid to
              Date       Type      Seller       Description              Amount Note Date          Type                     Amount Note Obligor      Note Description        Equity %          Date         Type            Proceeds Description             Equity %       Treasury
                                  General                                                          Exchange for
                                                Debt
              12/29/2008 Purchase Motors                           $884,024,131    2   5/29/2009   equity interest    $884,024,131    3
                                                Obligation
                                  Corporation                                                      in GMAC
                                                Debt                                               Exchange for
                                  General
                                                Obligation                                         preferred and
              12/31/2008 Purchase Motors                         $13,400,000,000       7/10/2009                 $13,400,000,000      7
                                                w/ Additional                                      common stock
                                  Corporation
                                                Note                                               in New GM
                                                Debt                                               Exchange for
                                 General                                                                                                  General    10,
                                                Obligation                                         preferred and                                             Preferred
              4/22/2009 Purchase Motors                           $2,000,000,000   4   7/10/2009                     $2,000,000,000   7   Motors     11,               $2,100,000,000 12/15/2010 Repayment            $2,139,406,778           N/A               $—
                                                w/ Additional                                      common stock                                                 Stock
                                 Corporation                                                                                              Company    24
                                                Note                                               in New GM
                                                                                                                                                                                                            Partial                       Common
                                                                                                                                                                                        11/18/2010                  $11,743,303,903                           36.9%
                                                                                                                                                                                                      Disposition25                         Stock
                                                Debt                                               Exchange for
                                 General                                                                                                  General    10,
                                                Obligation                                         preferred and                                             Common                                   Partial                             Common
              5/20/2009 Purchase Motors                           $4,000,000,000   5   7/10/2009                     $4,000,000,000   7   Motors     11,                       60.8% 11/26/2010                       $1,761,495,577                         32.04%
                                                w/ Additional                                      common stock                                                Stock                            Disposition25                               Stock
                                 Corporation                                                                                              Company    25
                                                Note                                               in New GM
                                                                                                                                                                                                         Partial                          Common
                                                                                                                                                                                        12/21/2012                    $5,500,000,000                         21.97%
                                                                                                                                                                                                   Disposition33                            Stock
                                                                                                                                                                                                       Partial                                Debt
                                                                                                                                                                                         7/10/2009                      $360,624,198                  $6,711,864,407
                                                                                                                                                                                                   Repayment                             Obligation
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                                                                                                       Partial                                Debt
                                                                                                                                                                                        12/18/2009                    $1,000,000,000                  $5,711,864,407   $756,714,508
                                                Debt                                               Exchange for                           General                                                  Repayment                             Obligation
                                 General
                                                Obligation                                         preferred and                          Motors     11,         Debt
              5/27/2009 Purchase Motors                            $360,624,198    6   7/10/2009                      $360,624,198    7                                $7,072,488,605                      Partial                            Debt
                                                w/ Additional                                      common stock                           Holdings   12     Obligation                1/21/2010                          $35,084,421                  $5,676,779,986
                                 Corporation                                                                                                                                                           Repayment                         Obligation
                                                Note                                               in New GM                              LLC
General                                                                                                                                                                                                    Partial                            Debt
Motorsb,c,                                                                                                                                                                               3/31/2010                    $1,000,000,000                  $4,676,779,986
                                                                                                                                                                                                       Repayment                         Obligation
Detroit, MI
                                                                                                                                                                                         4/20/2010 Repayment          $4,676,779,986           N/A               $—
                                                Debt                                               Exchange for
                                  General
                                                Obligation                                         preferred and
              6/3/2009   Purchase Motors                         $30,100,000,000   8   7/10/2009                 $22,041,706,310      9
                                                w/ Additional                                      common stock
                                  Corporation
                                                Note                                               in New GM
                                                                                                   Transfer of
                                                                                       7/10/2009   debt to New       $7,072,488,605   9
                                                                                                   GM
                                                                                                                                          Motors
                                                                                                   Debt left at                                                  Debt                                      Partial                            Debt
                                                                                       7/10/2009                      $985,805,085    9   Liquidation 29                 $985,805,085 3/31/2011                          $50,000,000                   $935,805,085
                                                                                                   Old GM                                                   Obligation                                 Repayment                         Obligation
                                                                                                                                          Company
                                                                                                                                                                                                           Partial                            Debt
                                                                                                                                                                                          4/5/2011                       $45,000,000                   $890,805,085
                                                                                                                                                                                                       Repayment                         Obligation
                                                                                                                                                                                                       Partial                                Debt
                                                                                                                                                                                          5/3/2011                       $15,887,795                   $874,917,290
                                                                                                                                                                                                   Repayment                             Obligation
                                                                                                                                                                                                       Partial                                Debt
                                                                                                                                                                                        12/16/2011                          $144,444                   $874,772,846
                                                                                                                                                                                                   Repayment                             Obligation
                                                                                                                                                                                                       Partial                                Debt
                                                                                                                                                                                        12/23/2011                       $18,890,294                   $855,882,552
                                                                                                                                                                                                   Repayment                             Obligation
                                                                                                                                                                                                       Partial                                Debt
                                                                                                                                                                                         1/11/2012                        $6,713,489                   $849,169,063
                                                                                                                                                                                                   Repayment                             Obligation
                                                                                                                                                                                                       Partial                                Debt
                                                                                                                                                                                        10/23/2012                          $435,097                   $848,733,966
                                                                                                                                                                                                   Repayment                             Obligation
                                                                                                                                                                                                                                                                Continued on next page
AIFP TRANSACTION DETAIL, AS OF 12/31/2012                                                    (CONTINUED)
                                                                                                                                                Treasury Investment After Exchange/
                                              Initial Investment                         Exchange/Transfer/Other Details                                   Transfer/Other                                               Payment or Disposition1
                                                                                                                                                                                                                                                               Remaining
                        Trans-                                                                                                                                                                                                          Remaining             Investment       Dividend/
                        action                                                                                                                                                  Amount/                                        Amount/ Investment               Amount / Interest Paid to
             Date       Type       Seller         Description             Amount Note Date           Type                    Amount Note Obligor        Note Description        Equity %          Date         Type            Proceeds Description              Equity %       Treasury
                                                  Debt                                                                                                                                                                                            Debt
                                   Chrysler       Obligation                                                                                                                                                  Partial                        Obligation
             1/16/2009 Purchase                                    $1,500,000,000   13                                                                                                      3/17/2009                        $3,499,055                   $1,496,500,945
                                   FinCo          w/ Additional                                                                                                                                           Repayment                       w/ Additional
                                                  Note                                                                                                                                                                                            Note
                                                                                                                                                                                                                                                  Debt
                                                                                                                                                                                                              Partial                        Obligation
                                                                                                                                                                                            4/17/2009                       $31,810,122                   $1,464,690,823
                                                                                                                                                                                                          Repayment                       w/ Additional
                                                                                                                                                                                                                                                  Note
Chrysler                                                                                                                                                                                                                                          Debt
FinCo,                                                                                                                                                                                                        Partial                        Obligation
                                                                                                                                                                                            5/18/2009                       $51,136,084                   $1,413,554,739      $7,405,894
Farmington                                                                                                                                                                                                Repayment                       w/ Additional
Hills, MI                                                                                                                                                                                                                                         Note
                                                                                                                                                                                                                                                  Debt
                                                                                                                                                                                                              Partial                        Obligation
                                                                                                                                                                                            6/17/2009                       $44,357,710                   $1,369,197,029
                                                                                                                                                                                                          Repayment                       w/ Additional
                                                                                                                                                                                                                                                  Note
                                                                                                                                                                                                                                             Additional
                                                                                                                                                                                            7/14/2009 Repayment          $1,369,197,029                              $—
                                                                                                                                                                                                                                                  Note
                                                                                                                                                                                            7/14/2009 Repayment*            $15,000,000            N/A               $—
                                                  Debt                                                                                                                Debt
                                                                                                     Transfer of
                                   Chrysler       Obligation                                                                                 Chrysler            obligation
             1/2/2009   Purchase                                   $4,000,000,000        6/10/2009   debt to New       $500,000,000     19               20                 $3,500,000,000 5/14/2010                     $1,900,000,000            N/A               $—
                                   Holding        w/ Additional                                                                              Holding          w/ additional                          Termination
                                                                                                     Chrysler
                                                  Note                                                                                                                note                                   and
                                                  Debt                                                                                                                                                settlement
                                   Chrysler       Obligation                                                                                                                                          payment20
             4/29/2009 Purchase                                              $—     14
                                   Holding        w/ Additional
                                                  Note
                                                  Debt
                                   Chrysler       Obligation
             4/29/2009 Purchase                                     $280,130,642    15                                                                                                      7/10/2009 Repayment            $280,130,642            N/A               $—
                                   Holding        w/ Additional
                                                  Note
                                                  Debt                                               Completion                              Old Carco           Right to                              Proceeds                               Right to
                                                  Obligation                                         of bankruptcy
             5/1/2009   Purchase Old Chrysler                      $1,888,153,580   16 4/30/2010                     ($1,888,153,580)   23   Liquidation 23       recover             N/A 5/10/2010 from sale of            $30,544,528        recover               N/A
                                                  w/ Additional                                      proceeding;                             Trust              proceeds                               collateral                            proceeds
                                                  Note                                               transfer of
                                                  Debt                                               collateral
                                                                                                     security to                                                                                         Proceeds                             Right to
                                                  Obligation
             5/20/2009 Purchase Old Chrysler                                 $—     17               liquidation                                                                             9/9/2010 from sale of           $9,666,784        recover               N/A
                                                  w/ Additional
                                                                                                     trust                                                                                               collateral                          proceeds
                                                  Note
                                                                                                                                                                                                         Proceeds                             Right to
Chrysler,                                                                                                                                                                                  12/29/2010 from sale of           $7,844,409        recover               N/A
Auburn                                                                                                                                                                                                   collateral                          proceeds                      $1,171,263,942
Hills, MI                                                                                                                                                                                                Proceeds                             Right to
                                                                                                                                                                                            4/30/2012 from sale of           $9,302,185        recover               N/A
                                                                                                                                                                                                         collateral                          proceeds
                                                  Debt
                                                                                                                                                                    Debt
                                                  Obligation
                                                                                                     Issuance of                             Chrysler          obligation
                                New               w/ Additional                                                                                         19,                                        Repayment -
             5/27/2009 Purchase                                    $6,642,000,000   18 6/10/2009     equity in New               $—          Group          w/ additional $7,142,000,000 5/24/2011                       $5,076,460,000
                                Chrysler          Note, Zero                                                                                            31                                            Principal
                                                                                                     Chrysler                                LLC             note & zero
                                                  Coupon
                                                                                                                                                            coupon note
                                                  Note, Equity
                                                                                                                                                                                                      Termination
                                                                                                                                                                                            5/24/2011 of undrawn         $2,065,540,000
                                                                                                                                                                                                         facility31                                N/A               $—

                                                                                                                                                                                                      Repayment*
                                                                                                                                                                                            5/24/2011 – Additional         $288,000,000
                                                                                                                                                                                                             Note
                                                                                                                                                                                                         Repayment*
                                                                                                                                                                                                              – Zero
                                                                                                                                                                                            5/24/2011                      $100,000,000
                                                                                                                                                                                                             Coupon
                                                                                                                                                                                                                Note
                                                                                                                                             Chrysler
                                                                                                                                                                 Common
                                                                                                                                             Group       30                         6.6% 7/21/2011        Disposition      $560,000,000            N/A               $—
                                                                                                                                                                   equity
                                                                                                                                             LLC
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             263
 AIFP TRANSACTION DETAIL, AS OF 12/31/2012                                                            (CONTINUED)                                                                                                                                                                                                          264
                                                                                                                                                               Treasury Investment After Exchange/
                                                Initial Investment                              Exchange/Transfer/Other Details                                           Transfer/Other                                                     Payment or Disposition1
                                                                                                                                                                                                                                                                                         Remaining
                           Trans-                                                                                                                                                                                                                             Remaining                 Investment       Dividend/
                           action                                                                                                                                                                    Amount/                                         Amount/ Investment                   Amount / Interest Paid to
             Date          Type        Seller        Description               Amount Note Date               Type                        Amount Note Obligor          Note Description              Equity %           Date         Type            Proceeds Description                  Equity %       Treasury
                                                                                                                                                                                                                                                       Additional Proceeds*         $403,000,000
                  Total Initial Investment Amount                    $81,344,932,551                                                                                                                                                                         Total Payments $40,394,714,530
                                                                                                                                                                                                                                       Total Treasury Investment Amount $35,396,524,442
Notes: Numbers may not total due to rounding. Data as of 12/31/2012. Numbered notes were taken verbatim from Treasury’s 12/28/2012 Transactions Report.

GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.

1	
    Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2	
    Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3	
    Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on
    12/30/2009. (See transactions market by orange line in the table above and footnote 22.)
4	
    This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5	
    This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6	
    This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM. On 7/10/2009, the principal amount was included in the $7.07
    billion of debt assumed by the new GM, as explained in footnote 10.
7	
    On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
                                                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




8	
    Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/9/2009, $30.1 billion
    of funds had been disbursed by Treasury.
9	
    On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation
    under the terms of a separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10	
    In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11	
    Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed
    “General Motors Company” on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors
    Company.
12	
    Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13	
    The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14	
    This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15	
    The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16	
    This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP
    Loan”). As of 6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.
17	
    This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount of $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the
    Chrysler DIP Loan had terminated.
18	
    This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler
    of up to $6.642 billion. The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the
    assets of New Chrysler. When the sale to new Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19	
    Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20	
    Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept
    a settlement payment of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.
21	
    Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.
22	
    Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23	
    On 4/30/2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler
    were transferred to a liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24	
    On 10/27/2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s
    common stock. The repurchase was completed on 12/15/2010.
25	
    On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were
    $11,743,303,903. On 11/26/2010, the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common
    stock pursuant to the underwriting agreement total $13,504,799,480.
26	
    On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred
    stock.
27	
    On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and
    restatement, Treasury received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.
28	
    On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount
    does not include the accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.
29	
    On 3/31/2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the
    loan, were transferred to liquidation trusts. On 12/15/2011, Old GM was dissolved, as required by the Plan of Liquidation. Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.
30	
    In June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related milestones. As a result, Fiat’s ownership
    automatically increased from 20% to 30%, and Treasury’s ownership was reduced to 8.6%. On 5/24/2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion, reducing Treasury’s ownership to 6.6% (or 6.0%
    on a fully diluted basis). On 7/21/2011, Fiat, through the exercise of an equity call option, purchased Treasury’s ownership interest for $500 million. In addition, Fiat paid $60 million to Treasury for its rights under an agreement with the UAW retirement trust pertaining to the trust’s shares in Chrysler.
31	
    On 5/24/2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.
32	
    On 11/1/2011, Treasury received a $201,345.42 pro-rata tax distribution on its common stock from Ally Financial, Inc. pursuant to the terms of the Sixth Amended and Restated Limited Liability Company Operating Agreement of GMAC LLC dated 5/22/2009.
33	
    On 12/21/2012, Treasury sold 200,000,000 shares of common stock at $27.50 per share pursuant to a letter agreement. Following settlement, the net proceeds to Treasury were $5,500,000,000.

a	
     For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b	
     According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c	
     This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 12/28/2012; Treasury, Dividends and Interest Report, 1/10/2013.
TABLE D.5
ASSP TRANSACTION DETAIL, AS OF 12/31/2012
                       Seller                                                                                                                                  Adjustment Details                                                            Repayment4
                                                                                                                                                                                           Adjusted                                                Remaining
                                                             Transaction     Investment                                       Pricing         Adjustment           Adjustment            Investment                                               Investment                                    Dividend/Interest
Note       Date        Institution Name                      Type            Description            Investment Amount      Mechanism                Date              Amount                Amount        Date                     Type           Description                    Amount          Paid to Treasury
                                                                                                                                                                                                                                  Partial   Debt Obligation w/
                                                                                                                                     N/A                                                                  11/20/2009                                                        $140,000,000
                                                                                                                                                                                                                              repayment        Additional Note
                                                                                                                                                          3
                       GM Supplier Receivables LLC                           Debt Obligation w/                                                7/8/2009       ($1,000,000,000)      $2,500,000,000                                Partial   Debt Obligation w/
1          4/9/2009                                          Purchase                                  $3,500,000,000                                                                                     2/11/2010                                                         $100,000,000              $9,087,808
                       Wilmington, DE                                        Additional Note                                                                                                                                  repayment        Additional Note
                                                                                                                                                                                                          3/4/2010        Repayment5           Additional Note               $50,000,000
                                                                                                                                                                                      $290,000,000        4/5/2010             Payment6                 None                 $56,541,893

                       Chrysler Receivables SPV LLC                          Debt Obligation w/        $1,500,000,000                N/A       7/8/20093        ($500,000,000)      $1,000,000,000        3/9/2010        Repayment5           Additional Note              $123,076,735
2          4/9/2009                                          Purchase                                                                                                                                                                                                                                 $5,787,176
                       Wilmington, DE                                        Additional Note                                                                                          $123,076,735        4/7/2010             Payment7                 None                 $44,533,054
Initial Total          $5,000,000,000                                                                                                      Adjusted Total       $413,076,735                                                                Total Repayments            $413,076,735
                                                                                                                 Total Proceeds from Additional Notes           $101,074,947
Notes: Numbers may not total due to rounding. Data as of 12/31/2012. Numbered notes were taken verbatim from Treasury’s 12/28/2012 Transactions Report.
1	
   The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was
   made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2	
   The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made effective as
   of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3	
   Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4	
   Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5	
   All outstanding principal drawn under the credit agreement was repaid.
	
   Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all
   of which have been repaid.
7	
   Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
   which have been repaid.

Sources: Treasury, Transactions Report, 12/28/2012; Treasury, Dividends and Interest Report, 1/10/2013.




TABLE D.6
TIP TRANSACTION DETAIL, AS OF 12/31/2012
                                                                                                                                                                            Treasury Investment
                                                                                                                                                                            Remaining After Capital
                       Seller                                                                                                        Capital Repayment Details              Repayment                                         Final Disposition                               Market and Warrant Data
                                                                                                                                                Capital          Capital    Remaining      Remaining              Final         Final                      Final                                      Dividends/
                       Institution         Transaction                                                 Investment        Pricing             Repayment        Repayment       Capital         Capital       Disposition         Disposition          Disposition   Stock          Outstanding    Interest Paid to
Note    Date           Name                Type           Investment Description                          Amount      Mechanism                 Amount             Date2      Amount       Description           Date3          Description           Proceeds     Price       Warrant Shares           Treasury
                                                          Trust Preferred Securities
    1   12/31/2008     Citigroup Inc.      Purchase                                               $20,000,000,000              Par     $20,000,000,000        12/23/2009            $—         Warrants     1/25/2011     A     Warrants          $190,386,428     $39.56                        $1,568,888,889
                                                           w/ Warrants
                       Bank of America
        1/16/2009                          Purchase       Preferred Stock w/ Warrants             $20,000,000,000              Par     $20,000,000,000         12/9/2009            $—         Warrants      3/3/2010     A     Warrants        $1,236,804,513     $11.61                        $1,435,555,556
                       Corporation
                                                                                                                           Total
                                                          Total Investment                    $40,000,000,000            Capital      $40,000,000,000
                                                                                                                      Repayment
                                                                                         Total Treasury TIP Investment Amount                        $—                                                                                           Total Warrant Proceeds      $1,427,190,941
Notes: Numbers may not total due to rounding. Data as of 12/31/2012. Numbered notes were taken verbatim from Treasury’s 12/28/2012 Transactions Report.
1	
   Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2	
   Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
3	
   For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.

Sources: Treasury, Transactions Report, 12/28/2012; Treasury, Dividends and Interest Report, 1/10/2013; Bloomberg LP, accessed 1/9/2013.
                                                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013
                                                                                                                                                                                                                                                                                                                     265
                                                                                                                                                                                                                                                                                                                              266
TABLE D.7
AGP TRANSACTION DETAIL, AS OF 12/31/2012
                       Initial Investment                                                                 Premium                               Exchange/Transfer/Other Details                                             Payment or Disposition                                       Market and Warrant Data
                                                                                                                                                                                                                                                Remaining             Remaining Outstanding                      Dividends/
                     Institution       Transaction                                                                                                                                                             Payment             Payment        Premium              Premium Warrant              Stock     Interest Paid
Note Date            Name              Type        Description Guarantee Limit          Description             Amount           Date               Type     Description           Amount            Date         Type              Amount      Description             Amount Shares               Price       to Treasury
                                                                                                                                              Exchange                                                             Partial
                                                                                                                                                                   Trust                                                                                 Trust
                                                                                                                                               preferred                                                     cancellation
                                                                                                                                                               Preferred                                                                           Preferred
                                                                                                                            6/9/2009      stock for trust                   $4,034,000,000 12/23/2009            for early ($1,800,000,000)                      $2,234,000,000
                                                                                                                                                               Securities                                                                       Securities w/
                                                                                                                                               preferred                                                      termination
                                                                                        Preferred                                                            w/ Warrants                                                                           Warrants
1,2,3,               Citigroup Inc.,                 Master                                                                                   securities                                                    of guarantee
       1/16/2009                       Guarantee                    $5,000,000,000      Stock w/       $4,034,000,000                                                                                                                                                                              $39.56    $625,718,857
4,5                  New York, NY                    Agreement                                                                                 Exchange                                       9/30/2010       Disposition   $2,246,000,000          Warrants                  $—
                                                                                        Warrants                                                                   Trust
                                                                                                                                          trust preferred
                                                                                                                                                               Preferred
                                                                                                                           9/29/2010        securities for                  $2,246,000,000                       Warrant
                                                                                                                                                               Securities                     1/25/2011                        $67,197,045              None                  $—
                                                                                                                                          trust preferred                                                        Auction
                                                                                                                                                             w/ Warrants
                                                                                                                                               securities
                                                     Termination
3       12/23/2009   Citigroup Inc.    Termination                  ($5,000,000,000)
                                                     Agreement
                                                                                                                                         Trust preferred
                                                                                                                                                                   Trust
                                                                                                                                              securities
6                                                                                                                        12/28/2012                            Preferred     $800,000,000
                                                                                                                                          received from
                                                                                                                                                               Securities
                                                                                                                                                the FDIC
                                                            Total                 $—                                                                                                                    Total Proceeds $2,313,197,045
Notes: Numbers may not total due to rounding. Data as of 12/31/2012. Numbered notes were taken verbatim from Treasury’s 12/28/2012 Transactions Report.
1
 	In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
 	Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual
                                                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




   Preferred Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3
 	On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion of
   the AGP Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the FDIC’s
   Temporary Liquidity Guarantee Program.
4
 	On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of exchange,
   Citigroup Inc. paid the outstanding accrued and unpaid dividends.
5
 	 On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.
6
 	12/28/2012, as contemplated by the Termination Agreement and the Letter Agreement dated 12/23/2009, between Treasury and the Federal Deposit Insurance Corporation (FDIC), Treasury received from the FDIC, Citigroup Inc. trust preferred securities in aggregate liquidation preference equal to $800 million
   and approximately $183 million in dividend and interest payments from those securities.

Sources: Treasury, Transactions Report, 12/28/2012; Treasury, Dividends and Interest Report, 1/10/2013; Bloomberg LP, accessed 1/9/2013.




TABLE D.8
TALF TRANSACTION DETAIL, AS OF 12/31/2012
                        Seller
                                                       Transaction                                                                            Pricing             Adjusted                     Adjusted Investment
Note      Date          Institution                    Type              Investment Description                       Investment Amount       Mechanism           Investment Date                          Amount
                                                                                                                                                                  7/19/2010                         $4,300,000,000
1,2,3     3/3/2009      TALF LLC, Wilmington, DE       Purchase          Debt Obligation w/ Additional Note              $20,000,000,000      N/A
                                                                                                                                                                  6/28/2012                         $1,400,000,000
                                                                                                        Total            $1,400,000,000
Notes: Numbers may not total due to rounding. Data as of 12/31/2012. Numbered notes were taken verbatim from Treasury’s 12/28/2012 Transactions Report.
1
 	The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan amount. The loan
   will be incrementally funded.
2
 	On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan amount to
   $4,300,000,000.
3
 	On 6/28/2012, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously amended 7/19/2010, which reduced Treasury’s maximum loan amount to $1,400,000,000.

Sources: Treasury, Transactions Report, 12/28/2012.
TABLE D.9
SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 12/31/2012
                     Seller                Purchase Details                                                    Exchange/Transfer Details
                     Name of               Transaction    Investment               Investment   Pricing                                         Transaction                                                                    Pricing                    Outstanding Warrant   Dividends/Interest
Note    Date         Institution           Type           Description                 Amount    Mechanism       Date                            Type                Investment Description                       Amount     Mechanism     Stock Price                  Shares     Paid to Treasury
                                                          Preferred Stock
                                                                                                                                                                    Preferred Stock w/
1       11/25/2008   AIG, New York, NY     Purchase       w/ Warrants         $40,000,000,000   Par            4/17/2009                        Exchange                                                 $40,000,000,000            Par          $35.30            2,689,938                  $—
                                                                                                                                                                    Warrants (Series E)
                                                          (Series D)
                                                                                                               See table below for exchange/
                                                          Preferred Stock
                                                                                                               transfer details in connection
2, 3    4/17/2009    AIG, New York, NY     Purchase       w/ Warrants         $29,835,000,000   Par                                                                                                                                              $35.30                  150        $641,275,676
                                                                                                               with the recapitalization
                                                          (Series F)
                                                                                                               conducted on 1/14/2011.
                                                          Initial Total     $69,835,000,000
                                                                                                                                                Final Disposition
                                                                                                                                                                                          Transaction                          Pricing
                                                                                                                                                Date                Investment                                 Proceeds
                                                                                                                                                                                          Type                              Mechanism
                                                                                                                                                                    Warrants
                                                                                                                                                                    (Series E)
                                                                                                                                                                    Warrants
                                                                                                                                                                    (Series F)
                                       Recapitalization                                                    Treasury Holdings Post Recapitalization                                                                           Final Disposition
                                                                                                                                                                                                                                                            Remaining Recap
                     Investment            Transaction            Pricing                                                                       Amount /                                  Transaction                                        Pricing      Investment Amount,
Note    Date         Description           Type                   Mechanism                     Investment Description                          Shares              Date                  Type                                Proceeds8   Mechanism       Shares, or Equity %
                                           Exchange               Par                           Preferred Stock (Series G)                      $2,000,000,000      5/27/2011             Cancellation                              $—             N/A                  $­—10
                                                                                                                                                                    2/14/2011             Payment                          $185,726,192             Par
                                                                                                                                                                    3/8/2011              Payment                     $5,511,067,614                Par
                                                                                                                                                                    3/15/2011             Payment                           $55,833,333             Par
                                                                                                                                                                    8/17/2011             Payment                           $97,008,351             Par
                                                                                                                                                                    8/18/2011             Payment                     $2,153,520,000                Par
                                                                                                AIA Preferred Units                             $16,916,603,568                                                                                                          $—
                                                                                                                                                                    9/2/2011              Payment                           $55,885,302             Par

                     Preferred Stock       Exchange               N/A                                                                                               11/1/2011             Payment                          $971,506,765             Par
4,7,8   1/14/2011
                     (Series F)                                                                                                                                     3/8/2012              Payment                     $5,576,121,382                Par
                                                                                                                                                                    3/15/2012             Payment                     $1,521,632,096                Par
                                                                                                                                                                    3/22/2012             Payment                     $1,493,250,339                Par
                                                                                                                                                                    2/14/2011             Payment                     $2,009,932,072                Par
                                                                                                ALICO Junior Preferred Interests                $3,375,328,432      3/8/2011              Payment                     $1,383,888,037                Par                  $—
                                                                                                                                                                    3/15/2012             Payment                           $44,941,843             Par

                                                                                                                                                                                          Partial                                                              1,455,037,9629
                                           Exchange                                                                                             $167,623,733        5/24/2011                                         $5,800,000,000               N/A
                                                                                                                                                                                          Disposition                                                                    77%

                                                                                                                                                                                          Partial                                                             1,248,141,41011
                                                                                                                                                                    3/8/2012                                          $6,000,000,008               N/A
                                                                                                                                                                                          Disposition                                                                    70%

                                                                                                                                                                                          Partial                                                             1,084,206,98412
                     Preferred Stock                                                                                                                                5/6/2012                                          $4,999,999,993               N/A
5       1/14/2011                          Exchange               N/A                                                                           $924,546,133                              Disposition                                                                    63%
                     (Series E)
                                                                                                                                                                                          Partial                                                             1,059,616,82112
                                                                                                                                                                    5/7/2012                                               $749,999,972            N/A
                                                                                                                                                                                          Disposition                                                                    61%

                                                                                                                                                                                          Partial                                                               895,682,39513
                                                                                                Common Stock                                                        8/3/2012                                          $4,999,999,993               N/A
                                                                                                                                                                                          Disposition                                                                    55%

                                                                                                                                                                                          Partial                                                               871,092,23113
                                                                                                                                                                    8/6/2012                                               $750,000,002            N/A
                                                                                                                                                                                          Disposition                                                                    53%

                                                                                                                                                                                          Partial                                                               317,246,07814
                     Common Stock                                                                                                                                   9/10/2012                                        $17,999,999,973               N/A
6       1/14/2011                          Transfer                                                                                             $562,868,096                              Disposition                                                                    22%
                     (non-TARP)
                                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                                                                                                                                                          Partial                                                               234,169,15614
                                                                                                                                                                    9/11/2012                                         $2,699,999,965               N/A
                                                                                                                                                                                          Disposition                                                                    16%

                                                                                                                                                                                          Final                                                                 234,169,15615
                                                                                                                                                                    12/14/2012                                        $7,610,497,570               N/A
                                                                                                                                                                                          Disposition                                                                     0%
                                                                                                                                                                    Total                                           $72,670,810,802
                                                                                                                                                                                                                                                                                                     267
Notes: Numbers may not total due to rounding. Data as of 12/31/2012. Numbered notes were taken verbatim from the Treasury’s 12/28/2012 Transactions Report, and Treasury’s 1/10/2013 Dividends and Interest Report.
1
 	On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it had an additional obligation to
                                                                                                                                                                                                                                                                                                                          268
    Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2
 	 The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
 	 This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on 12/17/2010. The remaining $110 million payment was received by Treasury on 5/27/2011.
4
 	On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred
    interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to draw up to
    $2,000,000,000.
5
 	 On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
6
 	On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal Reserve Bank of New York. This credit facility was repaid and terminated pursuant to this recapitalization
    transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7
 	 The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8
 	 Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
9
 	 On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for total proceeds of $5,800,000,000, pursuant to an underwriting agreement executed on 5/24/2011.
10
  	 On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $0 as a result of AIG’s primary offering of its common stock and the Preferred Stock (Series G) was cancelled.
11
  	 On 3/13/2012, Treasury completed the sale of 206,896,552 shares of common stock at $29.00 per share for total proceeds of $6,000,000,008, pursuant to an underwriting agreement executed on 3/8/2012.
12
  	 On 5/10/2012, Treasury completed the sale of 188,524,589 shares of common stock at $30.50 per share for total proceeds of $5,749,999,965, pursuant to an underwriting agreement executed on 5/6/2012.
13
  	 On 8/8/2012, Treasury completed the sale of 188,524,590 shares of common stock at $30.50 per share for total proceeds of $5,749,999,995, pursuant to an underwriting agreement executed on 8/3/2012.
14
  	 On 9/14/2012, Treasury completed the sale of 636,923,075 shares of common stock at $32.50 per share for total proceeds of $20,699,999,938, pursuant to an underwriting agreement executed on 9/10/2012.
15
  	 On 12/14/2012, Treasury completed the sale of 234,169,156 shares of common stock at $32.50 per share for total proceeds of $7,610,497,570, pursuant to an underwriting agreement executed on 12/10/2012.

Sources: Treasury, Transactions Report, 12/28/2012; Treasury, Dividends and Interest Report, 1/10/2013; Bloomberg LP, accessed 1/9/2013.




TABLE D.10
UCSB TRANSACTION DETAIL, AS OF 12/31/2012
                                                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




Purchase Details1                                                                                                                            Settlement Details                                                 Final Disposition
                                                                                                                                                                                                                                      Life-to-date
Purchase                                                                                            Purchase          Pricing      TBA or    Settlement           Investment     TBA or     Senior Security                              Principal     Current Face           Disposition
Date          Investment Description                      Institution Name      CUSIP           Face Amount3       Mechanism        PMF3     Date                   Amount2,3     PMF3           Proceeds4       Trade Date           Received1,8         Amount6,8            Amount5,6      Interest Paid to Treasury
3/19/2010     Floating Rate SBA 7a security due 2025      Coastal Securities    83164KYN7          $4,070,000           107.75       —       3/24/2010            $4,377,249        —                 $2,184     6/21/2011               $902,633        $3,151,186           $3,457,746                      $169,441
3/19/2010     Floating Rate SBA 7a security due 2022      Coastal Securities    83165ADC5          $7,617,617              109       —       3/24/2010            $8,279,156        —                 $4,130    10/19/2011             $1,685,710        $5,891,602           $6,462,972                      $449,518
3/19/2010     Floating Rate SBA 7a security due 2022      Coastal Securities    83165ADE1          $8,030,000          108.875       —       3/24/2010            $8,716,265        —                 $4,348     6/21/2011             $2,022,652        $5,964,013           $6,555,383                      $371,355
4/8/2010      Floating Rate SBA 7a security due 2034      Coastal Securities    83165AD84         $23,500,000          110.502       —       5/28/2010          $26,041,643         —               $12,983        6/7/2011            $1,149,633       $22,350,367          $25,039,989                    $1,089,741
4/8/2010      Floating Rate SBA 7a security due 2016      Coastal Securities    83164KZH9          $8,900,014            107.5       —       4/30/2010            $9,598,523        —                 $4,783       6/7/2011            $2,357,796        $6,542,218           $7,045,774                      $414,561
5/11/2010     Floating Rate SBA 7a security due 2020      Coastal Securities    83165AEE0         $10,751,382          106.806       —       6/30/2010          $11,511,052         —                 $5,741       6/7/2011              $932,112        $9,819,270          $10,550,917                      $348,599
5/11/2010     Floating Rate SBA 7a security due 2035      Coastal Securities    83164K2Q5         $12,898,996           109.42       —       6/30/2010          $14,151,229         —                 $7,057       6/7/2011              $328,604       $12,570,392          $13,886,504                      $479,508
5/11/2010     Floating Rate SBA 7a security due 2033      Coastal Securities    83165AED2          $8,744,333          110.798       —       6/30/2010            $9,717,173        —                 $4,844       6/7/2011              $261,145        $8,483,188           $9,482,247                      $368,608
5/25/2010     Floating Rate SBA 7a security due 2029      Coastal Securities    83164K3B7          $8,417,817          110.125       —       7/30/2010            $9,294,363        —                 $4,635       6/7/2011              $246,658        $8,171,159           $8,985,818                      $287,624
5/25/2010     Floating Rate SBA 7a security due 2033      Coastal Securities    83165AEK6         $17,119,972          109.553       —       7/30/2010          $18,801,712         —                 $9,377     9/20/2011             $2,089,260       $15,030,712          $16,658,561                      $657,863
6/17/2010     Floating Rate SBA 7a security due 2020      Coastal Securities    83165AEQ3         $34,441,059          110.785       —       8/30/2010          $38,273,995         —               $19,077      6/21/2011             $1,784,934       $32,656,125          $36,072,056                    $1,286,450
6/17/2010     Floating Rate SBA 7a security due 2034      Coastal Securities    83165AEP5         $28,209,085          112.028       —       8/30/2010          $31,693,810         —               $15,801      9/20/2011             $2,278,652       $25,930,433          $29,142,474                    $1,254,222
7/14/2010     Floating Rate SBA 7a security due 2020      Coastal Securities    83164K3Y7          $6,004,156          106.625       —       9/30/2010            $6,416,804        —                 $3,200     6/21/2011               $348,107        $5,656,049           $6,051,772                      $146,030
7/14/2010     Floating Rate SBA 7a security due 2025      Shay Financial        83164K4J9          $6,860,835          108.505       —       9/30/2010            $7,462,726        —                 $3,722    10/19/2011               $339,960        $6,520,875           $7,105,304                      $255,370
7/14/2010     Floating Rate SBA 7a security due 2034      Shay Financial        83165AE42         $13,183,361           111.86       —       9/30/2010          $14,789,302         —                 $7,373     6/21/2011               $478,520       $12,704,841          $14,182,379                      $423,725
7/29/2010     Floating Rate SBA 7a security due 2017      Coastal Securities    83164K4E0          $2,598,386          108.438       —       9/30/2010            $2,826,678        —                 $1,408     1/24/2012               $694,979        $1,903,407           $2,052,702                      $140,130
7/29/2010     Floating Rate SBA 7a security due 2034      Shay Financial        83164K4M2          $9,719,455           106.75       —       10/29/2010         $10,394,984         —                 $5,187     6/21/2011               $188,009        $9,531,446          $10,223,264                      $181,124
8/17/2010     Floating Rate SBA 7a security due 2020      Shay Financial        83165AEZ3          $8,279,048          110.198       —       9/30/2010            $9,150,989        —                 $4,561     9/20/2011             $1,853,831        $6,425,217           $7,078,089                      $335,082
8/17/2010     Floating Rate SBA 7a security due 2019      Coastal Securities    83165AFB5          $5,000,000          110.088       —       10/29/2010           $5,520,652        —                 $2,752    10/19/2011               $419,457        $4,580,543           $5,029,356                      $213,319
8/17/2010     Floating Rate SBA 7a security due 2020      Coastal Securities    83165AE91         $10,000,000          110.821       —       10/29/2010         $11,115,031         —                 $5,541    10/19/2011               $969,461        $9,030,539           $9,994,806                      $433,852
8/31/2010     Floating Rate SBA 7a security due 2020      Shay Financial        83165AEW0          $9,272,482          110.515       —       9/29/2010          $10,277,319         —                 $5,123     9/20/2011               $868,636        $8,403,846           $9,230,008                      $386,326
8/31/2010     Floating Rate SBA 7a security due 2024      Shay Financial        83165AFA7         $10,350,000          112.476       —       10/29/2010         $11,672,766         —                 $5,820    10/19/2011               $250,445       $10,099,555          $11,314,651                      $425,545
8/31/2010     Floating Rate SBA 7a security due 2020      Coastal Securities    83164K5H2          $6,900,000          105.875       —       11/30/2010           $7,319,688        —                 $3,652     1/24/2012               $663,200        $6,236,800           $6,556,341                      $209,956
9/14/2010     Floating Rate SBA 7a security due 2020      Shay Financial        83165AFC3          $8,902,230          111.584       —       10/29/2010           $9,962,039        —                 $4,966     1/24/2012             $1,398,549        $7,503,681           $8,269,277                      $447,356
9/14/2010     Floating Rate SBA 7a security due 2021      Shay Financial        83165AFK5          $8,050,000          110.759       —       11/30/2010           $8,940,780        —                 $4,458     1/24/2012               $996,133        $7,053,867           $7,703,610                      $354,302
9/14/2010     Floating Rate SBA 7a security due 2029      Coastal Securities    83164K5F6          $5,750,000            106.5       —       11/30/2010           $6,134,172        —                 $3,061     1/24/2012               $276,276        $5,473,724           $5,764,858                      $156,481
9/14/2010     Floating Rate SBA 7a security due 2026      Coastal Securities    83164K5L3          $5,741,753            110.5       —       11/30/2010           $6,361,173        —                 $3,172     1/24/2012             $1,433,872        $4,307,881           $4,693,918                      $239,527
9/28/2010     Floating Rate SBA 7a security due 2035      Coastal Securities    83164K5M1          $3,450,000          110.875       —       11/30/2010           $3,834,428        —                 $1,912    10/19/2011                $82,832        $3,367,168           $3,698,411                      $111,165
9/28/2010     Floating Rate SBA 7a security due 2034      Coastal Securities    83165AFT6         $11,482,421          113.838       —       12/30/2010         $13,109,070         —                 $6,535     1/24/2012               $889,646       $10,592,775          $11,818,944                      $512,131
                                                                                                                                                                                                                                                                                                 Continued on next page
             UCSB TRANSACTION DETAIL, AS OF 12/31/2012                                                            (CONTINUED)
                                1
             Purchase Details                                                                                                                                Settlement Details                                                  Final Disposition
                                                                                                                                                                                                                                                        Life-to-date
             Purchase                                                                                              Purchase            Pricing    TBA or     Settlement           Investment      TBA or     Senior Security                               Principal         Current Face          Disposition
             Date           Investment Description                      Institution Name      CUSIP            Face Amount3         Mechanism      PMF3      Date                   Amount2,3      PMF3           Proceeds4       Trade Date            Received1,8             Amount6,8           Amount5,6     Interest Paid to Treasury
             9/28/2010      Floating Rate SBA 7a security due 2034      Shay Financial        83165AFM1          $13,402,491             113.9       —       11/30/2010         $15,308,612          —                 $7,632    10/19/2011               $438,754           $12,963,737         $14,433,039                        $516,624
             9/28/2010      Floating Rate SBA 7a security due 2035      Shay Financial        83165AFQ2          $14,950,000          114.006        —       12/30/2010         $17,092,069          —                 $8,521      1/24/2012              $387,839           $14,562,161         $16,383,544                        $681,819
                                                                                                                                                                                            Total
                                                                                                                                                          Total Investment                 Senior
                                                                        Total Purchase Face Amount             $332,596,893                                                $368,145,452                             $183,555                               Total Disposition Proceeds          $334,924,711                    $13,347,352
                                                                                                                                                                  Amount*                Security
                                                                                                                                                                                        Proceeds
             Notes: Numbers affected by rounding. Data as of 12/31/2012. Numbered notes were taken verbatim from Treasury’s 12/28/2012 Transactions Report.

             *Subject to adjustment

             1
              	 The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
             2
              	 Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.
             3
              	If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is
                listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable
                month’s factor (on or about the 11th business day of each month).
             4
              	In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to
                the product of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the
                Master Purchase Agreement.
             5
              	Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
             6
              	If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the
                11th business day of each month).
             7
              	 Total Program Proceeds To Date includes life-to-date disposition proceeds, life-to-date principal received, life-to-date interest received, and senior security proceeds (excluding accruals).
             8
              	 The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount for CUSIPs that were originally purchased as TBAs only after the applicable month’s factor has been published and trailing principal & interest payments have been received.

             Source: Treasury, Transactions Report, 12/28/2012, Treasury, Dividends and Interest Report, 1/10/2013.




TABLE D.11
PPIP TRANSACTION DETAIL, AS OF 12/31/2012
                                                                                                                                                                                                 Final
                                                                                                                                                                                           Investment                                          Investment After Capital
                                                         Seller                                                          Adjusted Investment3         Final Commitment Amount7                Amount9      Capital Repayment Details                 Repayment                              Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                         Interest/
                                                                                                                                                                                                                                                                                                                                     Distributions
                                                         Transaction Investment           Investment   Pricing                                                                                         Repayment             Repayment                                                                                                     Paid to
Note Date         Institution         City         State Type        Description             Amount Mechanism                Date           Amount Date                     Amount              Amount      Date                Amount               Amount Description          Date           Description           Proceeds           Treasury
                  UST/TCW                                             Debt
                                                                                                                                                                                                                                                           Debt Obligation
2,4,              Senior Mortgage                                     Obligation w/
     9/30/2009                     Wilmington       DE     Purchase                 $2,222,222,222               Par   1/4/2010       $200,000,000 1/4/2010          $200,000,000       $200,000,000       1/11/2010        $34,000,000       $166,000,000 w/ Contingent
5                 Securities Fund,                                    Contingent
                                                                                                                                                                                                                                                           Proceeds
                  L.P.                                                Proceeds
                                                                                                                                                                                                                                                                                 1/29/2010      Distribution          $502,302
                                                                                                                                                                                                                                                                Contingent
                                                                                                                                                                                                           1/12/2010       $166,000,000                    $0                                   Final
                                                                                                                                                                                                                                                                Proceeds         2/24/2010                                 $1,223
                                                                                                                                                                                                                                                                                                Distribution                            $342,176
                  UST/TCW
1,4,              Senior Mortgage                                     Membership
     9/30/2009                     Wilmington       DE     Purchase                  $1,111,111,111              Par   1/4/2010       $156,250,000 1/4/2010          $156,250,000       $156,250,000                                                                             1/29/2010      Distribution      $20,091,872
5                 Securities Fund,                                    Interest                                                                                                                                                                                  Membership
                  L.P.                                                                                                                                                                                     1/15/2010       $156,250,000                    $0
                                                                                                                                                                                                                                                                Interest
                                                                                                                                                                                                                                                                                                Final
                                                                                                                                                                                                                                                                                 2/24/2010                                $48,922
                                                                                                                                                                                                                                                                                                Distribution
                  Invesco Legacy
                  Securities                                          Membership                                                                                                                                                                                Membership
1,6   9/30/2009                       Wilmington    DE     Purchase                  $1,111,111,111              Par 3/22/2010 $1,244,437,500 7/16/2010              $856,000,000       $580,960,000       2/18/2010          $2,444,347      $578,515,653
                  Master Fund,                                        Interest                                                                                                                                                                                  Interest10
                  L.P.
                                                                                                                                                                                                                                                                Membership
                                                                                                                                                                                                           4/15/2010          $3,533,199      $574,982,454
                                                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                                                Membership
                                                                                                                                                                                                           9/15/2010        $30,011,187       $544,971,267
                                                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                                                                                                                     $99,764,742
                                                                                                                                                                                                                                                                Membership
                                                                                                                                                                                                         11/15/2010         $66,463,982       $478,507,285
                                                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                                                                                                                                                                                                                                Membership
                                                                                                                                                                                                         12/14/2010         $15,844,536       $462,662,749
                                                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                                                Membership
                                                                                                                                                                                                           1/14/2011        $13,677,726       $448,985,023
                                                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                                                Membership
                                                                                                                                                                                                           2/14/2011        $48,523,845       $400,461,178
                                                                                                                                                                                                                                                                Interest10
                                                                                                                                                                                                                                                                                                                                                     269




                                                                                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                                          270
PPIP TRANSACTION DETAIL, AS OF 12/31/2012                                                 (CONTINUED)
                                                                                                                                                                    Final
                                                                                                                                                              Investment                                   Investment After Capital
                                                     Seller                                                   Adjusted Investment3 Final Commitment Amount7      Amount9     Capital Repayment Details           Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                             Interest/
                                                                                                                                                                                                                                                                                         Distributions
                                                     Transaction Investment        Investment   Pricing                                                                 Repayment            Repayment                                                                                         Paid to
Note Date        Institution      City         State Type        Description          Amount Mechanism       Date        Amount Date               Amount        Amount      Date               Amount          Amount Description        Date        Description          Proceeds          Treasury
                                                                                                                                                                                                                          Membership
                                                                                                                                                                             3/14/2011      $68,765,544    $331,695,634
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                             4/14/2011      $77,704,254    $253,991,380
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                             5/20/2011      $28,883,733    $225,107,647
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                             6/14/2011       $9,129,709    $215,977,938
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                             7/15/2011      $31,061,747    $184,916,192
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                             8/12/2011      $10,381,214    $174,534,977
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                            10/17/2011       $6,230,731    $168,304,246
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                            12/14/2011       $1,183,959    $167,120,288
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                             1/17/2012       $1,096,185    $166,024,103
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                                                                             2/14/2012       $1,601,688    $164,422,415
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                             3/14/2012       $3,035,546    $161,386,870
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                                          3/29/2012   Distribution5    $56,390,209
                                                                                                                                                                                                                         Membership       8/9/2012    Distribution5      $1,056,751
                                                                                                                                                                             3/29/2012    $161,386,870                $0
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                                      Final
                                                                                                                                                                                                                                          9/28/2012                            $18,772
                                                                                                                                                                                                                                                      Distribution5
                 Invesco Legacy                                   Debt
                                                                                                                                                                                                                       Debt Obligation
2,6,             Securities                                       Obligation w/
     9/30/2009                    Wilmington    DE     Purchase                 $2,222,222,222      Par 3/22/2010 $2,488,875,000 9/26/2011 $1,161,920,000 $1,161,920,000     2/18/2010       $4,888,718 $1,157,031,282 w/ Contingent
8                Master Fund,                                     Contingent
                                                                                                                                                                                                                       Proceeds
                 L.P.                                             Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                             4/15/2010       $7,066,434 $1,149,964,848 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                             9/15/2010      $60,022,674 $1,089,942,174 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                            11/15/2010    $132,928,628     $957,013,546 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                            12/14/2010      $31,689,230    $925,324,316 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                             1/14/2010      $27,355,590    $897,968,726 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                             2/14/2011      $92,300,138    $805,668,588 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                             3/14/2011    $128,027,536     $677,641,052 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                             4/14/2011    $155,409,286     $522,231,766 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                             5/20/2011      $75,085,485    $447,146,281 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                             6/14/2011      $18,259,513    $428,886,768 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                                                                 Continued on next page
PPIP TRANSACTION DETAIL, AS OF 12/31/2012                                                 (CONTINUED)
                                                                                                                                                                    Final
                                                                                                                                                              Investment                                   Investment After Capital
                                                     Seller                                                   Adjusted Investment3 Final Commitment Amount7      Amount9     Capital Repayment Details           Repayment                      Distribution or Disposition
                                                                                                                                                                                                                                                                                             Interest/
                                                                                                                                                                                                                                                                                         Distributions
                                                     Transaction Investment        Investment   Pricing                                                                 Repayment            Repayment                                                                                         Paid to
Note Date         Institution     City         State Type        Description          Amount Mechanism       Date        Amount Date               Amount        Amount      Date               Amount          Amount Description       Date        Description          Proceeds           Treasury
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                             7/15/2011      $62,979,809   $365,906,960 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                             8/12/2011      $20,762,532   $345,144,428 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                            10/17/2011      $37,384,574   $307,759,854 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                            12/14/2011       $7,103,787   $300,656,067 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                             1/17/2012       $6,577,144   $294,078,924 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                             2/14/2012       $9,610,173   $284,468,750 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                                         3/29/2012   Distribution5      $3,434,460
                                                                                                                                                                                                                          Contingent     8/9/2012    Distribution5            $40,556
                                                                                                                                                                             3/14/2012    $284,468,750               $0
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                                                     Final
                                                                                                                                                                                                                                         9/28/2012                              $469
                                                                                                                                                                                                                                                     Distribution5
                  Wellington
                                                                  Debt
                  Management                                                                                                                                                                                          Debt Obligation
                                                                  Obligation w/
2,6   10/1/2009   Legacy          Wilmington    DE     Purchase                 $2,222,222,222      Par 3/22/2010 $2,524,075,000 7/16/2010 $2,298,974,000 $2,298,974,000     6/26/2012    $125,000,000 $2,173,974,000 w/ Contingent
                                                                  Contingent
                  Securities PPIF                                                                                                                                                                                     Proceeds
                                                                  Proceeds
                  Master Fund, LP
                                                                                                                                                                                                                      Debt Obligation
                                                                                                                                                                             9/17/2012    $305,000,000 $1,868,974,000 w/ Contingent
                                                                                                                                                                                                                      Proceeds
                                                                                                                                                                                                                      Debt Obligation
                                                                                                                                                                             12/6/2012    $800,000,000 $1,068,974,000 w/ Contingent
                                                                                                                                                                                                                      Proceeds                                                          $217,021,948
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                            12/21/2012    $630,000,000    $438,974,000 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                  Wellington
                  Management
                                                                  Membership                                                                                                                                              Membership
1,6   10/1/2009   Legacy          Wilmington    DE     Purchase                $1,111,111,111       Par 3/22/2010 $1,262,037,500 7/16/2010 $1,149,487,000 $1,149,487,000     7/16/2012      $62,499,688 $1,086,987,313
                                                                  Interest                                                                                                                                                Interest10
                  Securities PPIF
                  Master Fund, LP
                                                                                                                                                                                                                          Membership
                                                                                                                                                                             9/17/2012    $152,499,238    $934,488,075
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013
                                                                                                                                                                                                                                                                                                         271
                                                                                                                                                                                                                                                                                                             272
PPIP TRANSACTION DETAIL, AS OF 12/31/2012                                                   (CONTINUED)
                                                                                                                                                                      Final
                                                                                                                                                                Investment                                  Investment After Capital
                                                       Seller                                                   Adjusted Investment3 Final Commitment Amount7      Amount9    Capital Repayment Details           Repayment                         Distribution or Disposition
                                                                                                                                                                                                                                                                                                 Interest/
                                                                                                                                                                                                                                                                                             Distributions
                                                       Transaction Investment        Investment   Pricing                                                                 Repayment           Repayment                                                                                            Paid to
Note Date         Institution      City          State Type        Description          Amount Mechanism       Date        Amount Date               Amount        Amount      Date              Amount          Amount Description        Date         Description           Proceeds           Treasury
                  AllianceBernstein
                                                                    Debt
                  Legacy                                                                                                                                                                                                Debt Obligation
2,6,                                                                Obligation w/
     10/2/2009    Securities        Wilmington    DE     Purchase                 $2,222,222,222      Par 3/22/2010 $2,488,875,000 7/16/2010 $2,300,847,000 $2,128,000,000    5/16/2011      $30,244,575 $2,097,755,425 w/ Contingent
12                                                                  Contingent
                  Master Fund,                                                                                                                                                                                          Proceeds
                                                                    Proceeds
                  L.P.
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              6/14/2011          $88,087 $2,097,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               5/3/2012      $80,000,000 $2,017,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              5/14/2012      $30,000,000 $1,987,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              5/23/2012    $500,000,000 $1,487,667,339 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                                                                              6/14/2012      $44,200,000 $1,443,467,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              6/25/2012    $120,000,000 $1,323,467,339 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              7/16/2012      $17,500,000 $1,305,967,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                              7/27/2012    $450,000,000     $855,967,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                              8/14/2012    $272,500,000     $583,467,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds                                                           $252,394,561

                                                                                                                                                                                                                          Debt Obligation 10/3/2012 Distribution5,11        $12,012,957
                                                                                                                                                                              8/22/2012    $583,467,339                $0 w/ Contingent
                                                                                                                                                                                                                          Proceeds        12/21/2012 Distribution5,11             $16,967

                  AllianceBernstein
                  Legacy
                                                                    Membership                                                                                                                                              Membership
1,6   10/2/2009   Securities        Wilmington    DE     Purchase                $1,111,111,111       Par 3/22/2010 $1,244,437,500 7/16/2010 $1,150,423,500 $1,064,141,738    1/15/2010          $44,043 $1,064,097,694
                                                                    Interest                                                                                                                                                Interest10
                  Master Fund,
                  L.P.
                                                                                                                                                                                                                            Membership
                                                                                                                                                                              2/14/2011        $712,284 $1,063,385,410
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                              3/14/2011       $6,716,327 $1,056,669,083
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                              4/14/2011       $7,118,388 $1,049,550,694
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                              5/14/2012      $39,999,800 $1,009,550,894
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                              6/14/2012    $287,098,565     $722,452,330
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                              7/16/2012      $68,749,656    $653,702,674
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                              8/14/2012    $361,248,194     $292,454,480
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                           8/30/2012    Distribution5,11    $75,278,664
                                                                                                                                                                                                                                           9/12/2012    Distribution5,11    $79,071,633
                                                                                                                                                                                                                            Membership
                                                                                                                                                                              8/30/2012    $292,454,480                $0                  9/19/2012    Distribution5,11   $106,300,357
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                           10/1/2012    Distribution5,11    $25,909,972
                                                                                                                                                                                                                                           12/21/2012 Distribution5,11        $678,683
                                                                                                                                                                                                                                                                                    Continued on next page
PPIP TRANSACTION DETAIL, AS OF 12/31/2012                                                   (CONTINUED)
                                                                                                                                                                        Final
                                                                                                                                                                  Investment                                  Investment After Capital
                                                       Seller                                                   Adjusted Investment3 Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                               Interest/
                                                                                                                                                                                                                                                                                           Distributions
                                                       Transaction Investment        Investment   Pricing                                                                   Repayment            Repayment                                                                                       Paid to
Note Date         Institution       City         State Type        Description          Amount Mechanism       Date        Amount Date               Amount          Amount      Date               Amount         Amount Description        Date        Description           Proceeds        Treasury
                                                                    Debt
                                                                                                                                                                                                                           Debt Obligation
                  Blackrock PPIF,                                   Obligation w/
2,6   10/2/2009                     Wilmington    DE     Purchase                 $2,222,222,222      Par 3/22/2010 $2,488,875,000 7/16/2010 $1,389,960,000 $1,053,000,000       7/31/2012    $175,000,000    $878,000,000 w/ Contingent
                  L.P.                                              Contingent
                                                                                                                                                                                                                           Proceeds
                                                                    Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 8/14/2012       $5,539,055   $872,460,945 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 8/31/2012      $16,000,000   $856,460,945 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 9/17/2012       $1,667,352   $854,793,592 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 9/28/2012      $35,000,000   $819,793,592 w/ Contingent
                                                                                                                                                                                                                           Proceeds                                                        $72,435,724
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                10/15/2012      $25,334,218   $794,459,374 w/ Contingent
                                                                                                                                                                                                                           Proceeds

                                                                                                                                                                                                                              Contingent     11/5/2012   Distribution5,11     $8,289,431
                                                                                                                                                                                10/18/2012    $794,459,374               $0
                                                                                                                                                                                                                              Proceeds       12/5/2012   Distribution5,11     $1,433,088
                  Blackrock PPIF,                                   Membership                                                                                                                                                Membership
1,6   10/2/2009                     Wilmington    DE     Purchase                $1,111,111,111       Par 3/22/2010 $1,244,437,500 7/16/2010    $694,980,000    $528,184,800     8/14/2012      $90,269,076   $437,915,724
                  L.P.                                              Interest                                                                                                                                                  Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                 9/17/2012       $8,833,632   $429,082,092
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                10/15/2012      $10,055,653   $419,026,439
                                                                                                                                                                                                                              Interest10

                                                                                                                                                                                                                              Membership     11/5/2012   Distribution5,11   $297,511,708
                                                                                                                                                                                 11/5/2012    $419,026,439               $0
                                                                                                                                                                                                                              Interest10     12/5/2012   Distribution5,11    $57,378,964
                                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013
                                                                                                                                                                                                                                                                                                            273
PPIP TRANSACTION DETAIL, AS OF 12/31/2012                                                     (CONTINUED)                                                                                                                                                                                                   274
                                                                                                                                                                        Final
                                                                                                                                                                  Investment                                   Investment After Capital
                                                         Seller                                                   Adjusted Investment3 Final Commitment Amount7      Amount9     Capital Repayment Details           Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                               Interest/
                                                                                                                                                                                                                                                                                           Distributions
                                                         Transaction Investment        Investment   Pricing                                                                 Repayment            Repayment                                                                                       Paid to
Note Date           Institution       City         State Type        Description          Amount Mechanism       Date        Amount Date               Amount        Amount      Date               Amount          Amount Description        Date       Description           Proceeds        Treasury
                                                                      Debt
                 AG GECC PPIF                                                                                                                                                                                             Debt Obligation
                                                                      Obligation w/
2,6   10/30/2009 Master Fund,         Wilmington    DE     Purchase                 $2,222,222,222      Par 3/22/2010 $2,542,675,000 7/16/2010 $2,486,550,000 $2,234,798,340     2/14/2012    $174,200,000 $2,060,598,340 w/ Contingent
                                                                      Contingent
                 L.P.                                                                                                                                                                                                     Proceeds
                                                                      Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                 3/14/2012    $198,925,000 $1,861,673,340 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                 5/14/2012    $150,000,000 $1,711,673,340 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 7/16/2012      $37,500,000 $1,674,173,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                 8/14/2012    $136,800,000 $1,537,373,340 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                 9/17/2012    $250,000,000 $1,287,373,340 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                10/15/2012    $481,350,000     $806,023,340 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                11/15/2012    $274,590,324     $531,433,016 w/ Contingent
                                                                                                                                                                                                                            Proceeds                                                      $262,393,606

                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                12/14/2012    $147,534,295     $383,898,721 w/ Contingent
                                                                                                                                                                                                                            Proceeds
                 AG GECC PPIF
                                                                      Membership                                                                                                                                              Membership
1,6   10/30/2009 Master Fund,              Wilmington DE Purchase                  $1,111,111,111       Par 3/22/2010 $1,271,337,500 7/16/2010 $1,243,275,000 $1,117,399,170     2/14/2012      $87,099,565 $1,030,299,606
                                                                      Interest                                                                                                                                                Interest10
                 L.P.                                              
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                 3/14/2012      $99,462,003    $930,837,603
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                 5/14/2012      $74,999,625    $855,837,978
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                 7/16/2012      $18,749,906    $837,088,072
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                 8/14/2012      $68,399,658    $768,688,414
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                 9/17/2012    $124,999,375     $643,689,039
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                10/15/2012    $240,673,797     $403,015,242
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                11/15/2012      $45,764,825    $357,250,417
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                12/14/2012      $24,588,926    $332,661,491
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                                                                                   Continued on next page
PPIP TRANSACTION DETAIL, AS OF 12/31/2012                                                  (CONTINUED)
                                                                                                                                                                       Final
                                                                                                                                                                 Investment                                   Investment After Capital
                                                      Seller                                                   Adjusted Investment3 Final Commitment Amount7        Amount9     Capital Repayment Details           Repayment                         Distribution or Disposition
                                                                                                                                                                                                                                                                                                   Interest/
                                                                                                                                                                                                                                                                                               Distributions
                                                      Transaction Investment        Investment   Pricing                                                                   Repayment            Repayment                                                                                            Paid to
Note Date         Institution      City         State Type        Description          Amount Mechanism       Date        Amount Date               Amount          Amount      Date               Amount          Amount Description        Date         Description           Proceeds           Treasury
                  RLJ Western                                      Debt
                                                                                                                                                                                                                          Debt Obligation
                  Asset Public/                                    Obligation w/
2,6   11/4/2009                    Wilmington    DE     Purchase                 $2,222,222,222      Par 3/22/2010 $2,488,875,000 7/16/2010 $1,241,156,516 $1,241,000,000       5/13/2011      $13,531,530 $1,227,468,470 w/ Contingent
                  Private Master                                   Contingent
                                                                                                                                                                                                                          Proceeds
                  Fund, L.P.                                       Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                7/31/2012    $618,750,000     $608,718,470 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 8/9/2012    $151,006,173     $457,712,297 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                8/14/2012      $11,008,652    $446,703,645 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                8/23/2012    $160,493,230     $286,210,415 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                8/29/2012    $103,706,836     $182,503,579 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                9/17/2012      $20,637,410    $161,866,170 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                            10/19/2012 Distribution5,11        $6,789,287     $161,505,775
                                                                                                                                                                                                                            Debt Obligation
                                                                                                                                                                                9/21/2012    $161,866,170                $0 w/ Contingent 11/2/2012 Distribution5,11           $3,718,769
                                                                                                                                                                                                                            Proceeds
                                                                                                                                                                                                                                            12/21/2012 Distribution5,11             $13,750
                  RLJ Western
                  Asset Public/                                    Membership                                                                                                                                                 Membership
1,6   11/4/2009                    Wilmington    DE     Purchase                $1,111,111,111       Par 3/22/2010 $1,244,437,500 7/16/2010    $620,578,258    $620,578,258     3/14/2011       $1,202,957    $619,375,301
                  Private Master                                   Interest                                                                                                                                                   Interest10
                  Fund, L.P.
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                4/14/2011       $3,521,835    $615,853,465
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                8/14/2012    $104,959,251     $510,894,215
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                9/17/2012      $72,640,245    $438,253,970
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                                9/28/2012    $180,999,095     $257,254,875
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                              Membership
                                                                                                                                                                               10/15/2012    $134,999,325     $122,255,550
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                                             10/19/2012 Distribution5,11     $147,464,888
                                                                                                                                                                                                                              Membership
                                                                                                                                                                               10/19/2012    $122,255,550                $0                  11/2/2012    Distribution5,11   $148,749,256
                                                                                                                                                                                                                              Interest10
                                                                                                                                                                                                                                             12/21/2012 Distribution5,11        $549,997
                                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013
                                                                                                                                                                                                                                                                                                               275
PPIP TRANSACTION DETAIL, AS OF 12/31/2012                                                  (CONTINUED)                                                                                                                                                                                                    276
                                                                                                                                                                       Final
                                                                                                                                                                 Investment                                  Investment After Capital
                                                      Seller                                                   Adjusted Investment3 Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                             Interest/
                                                                                                                                                                                                                                                                                         Distributions
                                                      Transaction Investment        Investment   Pricing                                                                   Repayment            Repayment                                                                                      Paid to
Note Date         Institution      City         State Type        Description          Amount Mechanism       Date        Amount Date               Amount          Amount      Date               Amount         Amount Description        Date       Description           Proceeds        Treasury
                 Marathon Legacy
                                                                   Debt
                 Securities                                                                                                                                                                                               Debt Obligation
                                                                   Obligation w/
2,6   11/25/2009 Public-Private    Wilmington    DE     Purchase                 $2,222,222,222      Par 3/22/2010 $2,488,875,000 7/16/2010    $949,100,000    $949,000,000     9/17/2012    $149,000,000    $800,000,000 w/ Contingent
                                                                   Contingent
                 Investment                                                                                                                                                                                               Proceeds
                                                                   Proceeds
                 Partnership, L.P.
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                               11/15/2012    $119,575,516    $680,424,484 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                               11/20/2012    $195,000,000    $485,424,484 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation                                                $75,803,153
                                                                                                                                                                               12/14/2012      $47,755,767   $437,668,717 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                 Marathon Legacy
                 Securities
                                                                   Membership                                                                                                                                               Membership
1,6   11/25/2009 Public-Private    Wilmington    DE     Purchase                $1,111,111,111       Par 3/22/2010 $1,244,437,500 7/16/2010    $474,550,000    $474,550,000     9/17/2012      $74,499,628   $400,050,373
                                                                   Interest                                                                                                                                                 Interest10
                 Investment
                 Partnership, L.P.
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                                                                               11/15/2012      $59,787,459   $340,262,914
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                               12/14/2012      $40,459,092   $299,803,821
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                                                                 Continued on next page
PPIP TRANSACTION DETAIL, AS OF 12/31/2012                                                            (CONTINUED)
                                                                                                                                                                                                     Final
                                                                                                                                                                                               Investment                                           Investment After Capital
                                                          Seller                                                                  Adjusted Investment3 Final Commitment Amount7                   Amount9      Capital Repayment Details                  Repayment                            Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                             Interest/
                                                                                                                                                                                                                                                                                                                                         Distributions
                                                          Transaction Investment             Investment   Pricing                                                                                         Repayment               Repayment                                                                                                    Paid to
Note Date           Institution        City         State Type        Description               Amount Mechanism                Date            Amount Date                      Amount            Amount      Date                  Amount               Amount Description         Date          Description             Proceeds          Treasury
                                                                         Debt
                                                                                                                                                                                                                                                            Debt Obligation
                 Oaktree PPIP                                            Obligation w/
2,6   12/18/2009                       Wilmington    DE     Purchase                   $2,222,222,222                Par 3/22/2010 $2,488,875,000 7/16/2010 $2,321,568,200 $1,111,000,000                      7/15/2011         $79,000,000 $1,032,000,000 w/ Contingent
                 Fund, L.P.                                              Contingent
                                                                                                                                                                                                                                                            Proceeds
                                                                         Proceeds
                                                                                                                                                                                                                                                                Debt Obligation
                                                                                                                                                                                                               3/14/2012         $78,775,901       $953,224,099 w/ Contingent
                                                                                                                                                                                                                                                                Proceeds
                                                                                                                                                                                                                                                                Debt Obligation
                                                                                                                                                                                                               9/17/2012         $44,224,144       $908,999,956 w/ Contingent
                                                                                                                                                                                                                                                                Proceeds
                                                                                                                                                                                                                                                                Debt Obligation
                                                                                                                                                                                                             10/15/2012          $64,994,269       $844,005,687 w/ Contingent
                                                                                                                                                                                                                                                                Proceeds
                                                                                                                                                                                                                                                                Debt Obligation
                                                                                                                                                                                                             11/15/2012         $223,080,187       $620,925,500 w/ Contingent
                                                                                                                                                                                                                                                                Proceeds
                                                                                                                                                                                                                                                                                                                                         $51,075,029
                                                                                                                                                                                                                                                                Debt Obligation
                                                                                                                                                                                                             12/14/2012         $111,080,608       $509,844,892 w/ Contingent
                                                                                                                                                                                                                                                                Proceeds
                    Oaktree PPIP                                         Membership                                                                                                                                                                                 Membership
1,6   12/18/2009                       Wilmington    DE     Purchase                    $1,111,111,111               Par 3/22/2010 $1,244,437,500 7/16/2010 $1,160,784,100                  $555,904,633       7/15/2011         $39,499,803       $516,404,830
                    Fund, L.P.                                           Interest                                                                                                                                                                                   Interest10
                                                                                                                                                                                                                                                                    Membership
                                                                                                                                                                                                               3/14/2012         $39,387,753       $477,017,077
                                                                                                                                                                                                                                                                    Interest10
                                                                                                                                                                                                                                                                    Membership
                                                                                                                                                                                                               9/17/2012         $22,111,961       $454,905,116
                                                                                                                                                                                                                                                                    Interest10
                                                                                                                                                                                                                                                                    Membership
                                                                                                                                                                                                             10/15/2012          $32,496,972       $422,408,144
                                                                                                                                                                                                                                                                    Interest10
                                                                                                                                                                                                                                                                    Membership
                                                                                                                                                                                                             11/15/2012         $111,539,536       $310,868,608
                                                                                                                                                                                                                                                                    Interest10
                                                                                                                                                                                                                                                                    Membership
                                                                                                                                                                                                             12/14/2012          $55,540,026       $255,328,581
                                                                                                                                                                                                                                                                    Interest10
                                           Initial Investment Amount                  $30,000,000,000                         Final Investment Amount                $21,856,403,574           Total Capital Repayment $15,032,479,640                                                          Total Proceeds5 $1,052,753,910
Notes: Numbers may not total due to rounding. Data as of 12/31/2012. Numbered notes were taken verbatim from Treasury’s 12/28/2012 Transactions Report.
1
 	 The equity amount may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2
 	 The loan may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3
 	 Adjusted to show Treasury’s maximum obligations to a fund.
4
 	 On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5
 	Distributions after capital repayments will be considered profit and are paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in proportion to their membership interests. These figures exclude pro-rata distributions to Treasury of gross investment proceeds (reported on
    the Dividends & Interest report), which may be made from time to time in accordance with the terms of the fund’s Limited Partnership Agreement.
6
 	Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment for
    the $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7
 	Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.
8
 	 On 9/26/2011, the General Partner notified Treasury that the Investment Period was terminated in accordance with the Limited Partnership Agreement. As a result, the Final Investment Amount, representing Treasury’s debt obligation, has been reduced to the cumulative amount of debt funded.
9
 	 Cumulative capital drawn at end of the Investment Period.
10
  	 The Amount is adjusted to reflect pro-rata equity distributions that have been deemed to be capital repayments to Treasury.
11
  	 Distribution represents a gain on funded capital and is subject to revision pending any additional fundings of the outstanding commitment.
12
  	 On 8/23/2012, AllianceBernstein agreed to de-obligate its unused debt commitment. The Final Investment Amount represents the cumulative capital drawn as of the de-obligation.

Sources: Treasury, Transactions Report, 12/28/2012; Treasury, Dividends and Interest Report, 1/10/2013.
                                                                                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013
                                                                                                                                                                                                                                                                                                                                                           277
TABLE D.12                                                                                                                                                                                                                                                                                    278

HAMP TRANSACTION DETAIL, AS OF 12/31/2012
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                              TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                                Lenders/                           Total TARP
                                          Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                                Borrower’s      Investors        Servicers           Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                      Incentives     Incentives       Incentives          Payments
                                                                                                                   6/12/2009    $284,590,000      $660,590,000    Updated portfolio data from servicer
                                                                                                                   9/30/2009    $121,910,000      $782,500,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                                  12/30/2009    $131,340,000      $913,840,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010   ($355,530,000)     $558,310,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010    $128,690,000      $687,000,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010       $4,000,000     $691,000,000    Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                                   9/30/2010      $59,807,784     $750,807,784    Updated portfolio data from servicer
                                                                                                                  11/16/2010       ($700,000)     $750,107,784    Transfer of cap due to servicing transfer
                                                                                                                  12/15/2010      $64,400,000     $814,507,784    Updated portfolio data from servicer
                                                                                                                    1/6/2011            ($639)    $814,507,145    Updated portfolio data from servicer
                                                                                                                   1/13/2011      ($2,300,000)    $812,207,145    Transfer of cap due to servicing transfer
                                                                                                                   2/16/2011        $100,000      $812,307,145    Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011       $3,600,000     $815,907,145    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                   3/30/2011            ($735)    $815,906,410    Updated due to quarterly assessment and reallocation
                                                                                                                   4/13/2011       ($100,000)     $815,806,410    Transfer of cap due to servicing transfer
                                                                                                                   5/13/2011        $400,000      $816,206,410    Transfer of cap due to servicing transfer

                                                        Financial                                                  6/16/2011       ($100,000)     $816,106,410    Transfer of cap due to servicing transfer
            Select Portfolio Servicing,                 Instrument for
4/13/2009                                 Purchase                             $376,000,000 N/A                    6/29/2011          ($6,805)    $816,099,605    Updated due to quarterly assessment and reallocation      $47,860,325   $93,836,832      $74,487,793      $216,184,949
            Salt Lake City, UT                          Home Loan
                                                        Modifications                                              8/16/2011       ($100,000)     $815,999,605    Transfer of cap due to servicing transfer
                                                                                                                   9/15/2011       ($200,000)     $815,799,605    Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011       ($100,000)     $815,699,605    Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011       ($100,000)     $815,599,605    Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012        $200,000      $815,799,605    Transfer of cap due to servicing transfer
                                                                                                                   3/15/2012      $24,800,000     $840,599,605    Transfer of cap due to servicing transfer
                                                                                                                   4/16/2012       $1,900,000     $842,499,605    Transfer of cap due to servicing transfer
                                                                                                                   5/16/2012          $80,000     $842,579,605    Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012       $8,710,000     $851,289,605    Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012          ($5,176)    $851,284,429    Updated due to quarterly assessment and reallocation
                                                                                                                   7/16/2012       $2,430,000     $853,714,429    Transfer of cap due to servicing transfer
                                                                                                                   8/16/2012       $2,310,000     $856,024,429    Transfer of cap due to servicing transfer
                                                                                                                   9/27/2012         ($13,961)    $856,010,468    Updated due to quarterly assessment and reallocation
                                                                                                                  10/16/2012    $126,940,000      $982,950,468    Transfer of cap due to servicing transfer
                                                                                                                  11/15/2012       $9,990,000     $992,940,468    Transfer of cap due to servicing transfer
                                                                                                                  12/14/2012      $10,650,000    $1,003,590,468   Transfer of cap due to servicing transfer
                                                                                                                  12/27/2012          ($2,663)   $1,003,587,805   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                             (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                                             Adjustment Details                                                                               TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                 Lenders/                           Total TARP
                                     Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                                Borrower’s       Investors        Servicers           Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                      Incentives      Incentives       Incentives          Payments
                                                                                                              6/12/2009   ($991,580,000)    $1,079,420,000   Updated portfolio data from servicer
                                                                                                              9/30/2009   $1,010,180,000    $2,089,600,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009   ($105,410,000)    $1,984,190,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010   ($199,300,000)    $1,784,890,000   Updated portfolio data from servicer & 2MP initial cap
                                                                                                                                                             Transfer of cap to Service One, Inc. due to servicing
                                                                                                              4/19/2010       ($230,000)    $1,784,660,000
                                                                                                                                                             transfer
                                                                                                                                                             Transfer of cap to Specialized Loan Servicing, LLC
                                                                                                              5/14/2010      ($3,000,000)   $1,781,660,000
                                                                                                                                                             due to servicing transfer
                                                                                                                                                             Transfer of cap to multiple servicers due to servicing
                                                                                                              6/16/2010     ($12,280,000)   $1,769,380,000
                                                                                                                                                             transfer
                                                                                                              7/14/2010   ($757,680,000)    $1,011,700,000   Updated portfolio data from servicer
                                                                                                                                                             Transfer of cap to multiple servicers due to servicing
                                                                                                              7/16/2010      ($7,110,000)   $1,004,590,000
                                                                                                                                                             transfer
                                                                                                                                                             Transfer of cap to multiple servicers due to servicing
                                                                                                              8/13/2010      ($6,300,000)    $998,290,000
                                                                                                                                                             transfer
                                                                                                                                                             Transfer of cap to multiple servicers due to servicing
                                                                                                              9/15/2010      ($8,300,000)    $989,990,000
                                                                                                                                                             transfer
                                                                                                              9/30/2010      $32,400,000    $1,022,390,000   Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                              9/30/2010    $101,287,484     $1,123,677,484   Updated portfolio data from servicer
                                                                                                             10/15/2010      ($1,400,000)   $1,122,277,484   Transfer of cap due to servicing transfer
                                                                                                             11/16/2010      ($3,200,000)   $1,119,077,484   Transfer of cap due to servicing transfer
                                                                                                               1/6/2011            ($981)   $1,119,076,503   Updated portfolio data from servicer
                                                                                                              1/13/2011     ($10,500,000)   $1,108,576,503   Transfer of cap due to servicing transfer
                                                                                                              2/16/2011      ($4,600,000)   $1,103,976,503   Transfer of cap due to servicing transfer
                                                                                                              3/16/2011     ($30,500,000)   $1,073,476,503   Transfer of cap due to servicing transfer
                                                                                                              3/30/2011          ($1,031)   $1,073,475,472   Updated due to quarterly assessment and reallocation
                                                   Financial
            CitiMortgage, Inc.,                    Instrument for                                             4/13/2011         $100,000    $1,073,575,472   Transfer of cap due to servicing transfer
4/13/2009                            Purchase                            $2,071,000,000 N/A                                                                                                                            $48,887,008   $157,522,744      $87,412,679      $293,822,431
            O’Fallon, MO                           Home Loan
                                                   Modifications                                              5/13/2011      ($7,200,000)   $1,066,375,472   Transfer of cap due to servicing transfer
                                                                                                              6/16/2011       ($400,000)    $1,065,975,472   Transfer of cap due to servicing transfer
                                                                                                              6/29/2011          ($9,131)   $1,065,966,341   Updated due to quarterly assessment and reallocation
                                                                                                              7/14/2011     ($14,500,000)   $1,051,466,341   Transfer of cap due to servicing transfer
                                                                                                              8/16/2011      ($1,600,000)   $1,049,866,341   Transfer of cap due to servicing transfer
                                                                                                              9/15/2011         $700,000    $1,050,566,341   Transfer of cap due to servicing transfer
                                                                                                             10/14/2011      $15,200,000    $1,065,766,341   Transfer of cap due to servicing transfer
                                                                                                             11/16/2011      ($2,900,000)   $1,062,866,341   Transfer of cap due to servicing transfer
                                                                                                             12/15/2011      ($5,000,000)   $1,057,866,341   Transfer of cap due to servicing transfer
                                                                                                              1/13/2012       ($900,000)    $1,056,966,341   Transfer of cap due to servicing transfer
                                                                                                              2/16/2012      ($1,100,000)   $1,055,866,341   Transfer of cap due to servicing transfer
                                                                                                              3/15/2012      ($1,700,000)   $1,054,166,341   Transfer of cap due to servicing transfer
                                                                                                              4/16/2012       ($600,000)    $1,053,566,341   Transfer of cap due to servicing transfer
                                                                                                              5/16/2012       ($340,000)    $1,053,226,341   Transfer of cap due to servicing transfer
                                                                                                              6/14/2012      ($2,880,000)   $1,050,346,341   Transfer of cap due to servicing transfer
                                                                                                              6/28/2012          ($5,498)   $1,050,340,843   Updated due to quarterly assessment and reallocation
                                                                                                              7/16/2012   ($298,960,000)     $751,380,843    Transfer of cap due to servicing transfer
                                                                                                              7/27/2012    $263,550,000     $1,014,930,843   Transfer of cap due to servicing transfer
                                                                                                              8/16/2012          $30,000    $1,014,960,843   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                                                                              9/27/2012         ($12,722)   $1,014,948,121   Updated due to quarterly assessment and reallocation
                                                                                                             10/16/2012      ($4,020,000)   $1,010,928,121   Transfer of cap due to servicing transfer
                                                                                                             11/15/2012      ($1,460,000)   $1,009,468,121   Transfer of cap due to servicing transfer
                                                                                                             12/14/2012      ($6,000,000)   $1,003,468,121   Transfer of cap due to servicing transfer
                                                                                                             12/27/2012          ($1,916)   $1,003,466,205   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                          279




                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                             (CONTINUED)                                                                                                                                                                                          280
            Servicer Modifying Borrowers’ Loans                                                                                             Adjustment Details                                                                                TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                  Lenders/                           Total TARP
                                     Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                                 Borrower’s       Investors        Servicers           Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                       Incentives      Incentives       Incentives          Payments
                                                                                                              6/17/2009    ($462,990,000)   $2,410,010,000   Updated portfolio data from servicer
                                                                                                              9/30/2009      $65,070,000    $2,475,080,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009    $1,213,310,000   $3,688,390,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                              2/17/2010    $2,050,236,344   $5,738,626,344   Transfer of cap (from Wachovia) due to merger
                                                                                                              3/12/2010          $54,767    $5,738,681,110   Transfer of cap (from Wachovia) due to merger
                                                                                                              3/19/2010     $668,108,890    $6,406,790,000   Initial 2MP cap
                                                                                                              3/26/2010     $683,130,000    $7,089,920,000   Updated portfolio data from servicer
                                                                                                              7/14/2010   ($2,038,220,000) $5,051,700,000    Updated portfolio data from servicer
                                                                                                              9/30/2010    ($287,348,828)   $4,764,351,172   Updated portfolio data from servicer
                                                                                                                                                             Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                              9/30/2010     $344,000,000    $5,108,351,172
                                                                                                                                                             RD-HAMP
                                                                                                              12/3/2010       $8,413,225    $5,116,764,397   Transfer of cap (from Wachovia) due to merger
                                                                                                             12/15/2010      $22,200,000    $5,138,964,397   Updated portfolio data from servicer
                                                                                                               1/6/2011          ($6,312)   $5,138,958,085   Updated portfolio data from servicer
                                                                                                              1/13/2011        ($100,000)   $5,138,858,085   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                              3/16/2011        ($100,000)   $5,138,758,085   Transfer of cap due to servicing transfer
                                                                                                              3/30/2011          ($7,171)   $5,138,750,914   Updated due to quarterly assessment and reallocation
                                                                                                              4/13/2011      ($9,800,000)   $5,128,950,914   Transfer of cap due to servicing transfer
                                                                                                              5/13/2011         $100,000    $5,129,050,914   Transfer of cap due to servicing transfer
                                                   Financial                                                  6/16/2011        ($600,000)   $5,128,450,914   Transfer of cap due to servicing transfer
            Wells Fargo Bank, NA,                  Instrument for
4/13/2009                            Purchase                            $2,873,000,000 N/A                                                                                                                            $134,246,898   $315,371,492     $215,204,143      $664,822,533
            Des Moines, IA                         Home Loan                                                  6/29/2011         ($63,856)   $5,128,387,058   Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                              7/14/2011      ($2,300,000)   $5,126,087,058   Transfer of cap due to servicing transfer
                                                                                                              8/16/2011      ($1,100,000)   $5,124,987,058   Transfer of cap due to servicing transfer
                                                                                                              9/15/2011       $1,400,000    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                             10/14/2011         $200,000    $5,126,587,058   Transfer of cap due to servicing transfer
                                                                                                             11/16/2011        ($200,000)   $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                             12/15/2011        ($200,000)   $5,126,187,058   Transfer of cap due to servicing transfer
                                                                                                              1/13/2012        ($300,000)   $5,125,887,058   Transfer of cap due to servicing transfer
                                                                                                              2/16/2012        ($200,000)   $5,125,687,058   Transfer of cap due to servicing transfer
                                                                                                              3/15/2012      ($1,000,000)   $5,124,687,058   Transfer of cap due to servicing transfer
                                                                                                              4/16/2012        ($800,000)   $5,123,887,058   Transfer of cap due to servicing transfer
                                                                                                              5/16/2012        ($610,000)   $5,123,277,058   Transfer of cap due to servicing transfer
                                                                                                              6/14/2012      ($2,040,000)   $5,121,237,058   Transfer of cap due to servicing transfer
                                                                                                              6/28/2012         ($39,923)   $5,121,197,135   Updated due to quarterly assessment and reallocation
                                                                                                              8/16/2012        ($120,000)   $5,121,077,135   Transfer of cap due to servicing transfer
                                                                                                              9/27/2012        ($104,111)   $5,120,973,024   Updated due to quarterly assessment and reallocation
                                                                                                             10/16/2012      ($1,590,000)   $5,119,383,024   Transfer of cap due to servicing transfer
                                                                                                             11/15/2012      ($2,910,000)   $5,116,473,024   Transfer of cap due to servicing transfer
                                                                                                             12/14/2012      ($1,150,000)   $5,115,323,024   Transfer of cap due to servicing transfer
                                                                                                             12/27/2012         ($16,392)   $5,115,306,632   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                             (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                                             Adjustment Details                                                                               TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                 Lenders/                           Total TARP
                                     Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                                Borrower’s       Investors        Servicers           Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                      Incentives      Incentives       Incentives          Payments
                                                                                                              6/12/2009     $384,650,000    $1,017,650,000   Updated portfolio data from servicer
                                                                                                              9/30/2009    $2,537,240,000   $3,554,890,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009   ($1,679,520,000) $1,875,370,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010     $190,180,000    $2,065,550,000   Updated portfolio data from servicer
                                                                                                                                                             Transfer of cap from Wilshire Credit Corporation due
                                                                                                              5/14/2010       $1,880,000    $2,067,430,000
                                                                                                                                                             to servicing transfer
                                                                                                              7/14/2010    ($881,530,000)   $1,185,900,000   Updated portfolio data from servicer
                                                                                                              8/13/2010      ($3,700,000)   $1,182,200,000   Transfer of cap due to servicing transfer
                                                                                                                                                             Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                              9/30/2010     $119,200,000    $1,301,400,000
                                                                                                                                                             2MP cap
                                                                                                              9/30/2010     $216,998,139    $1,518,398,139   Updated portfolio data from servicer
                                                                                                             12/15/2010        ($500,000)   $1,517,898,139   Updated portfolio data from servicer
                                                                                                               1/6/2011          ($1,734)   $1,517,896,405   Updated portfolio data from servicer
                                                                                                              3/16/2011        ($100,000)   $1,517,796,405   Transfer of cap due to servicing transfer
                                                                                                              3/30/2011          ($2,024)   $1,517,794,381   Updated due to quarterly assessment and reallocation
                                                                                                              4/13/2011        ($800,000)   $1,516,994,381   Transfer of cap due to servicing transfer
                                                                                                              5/13/2011     ($17,900,000)   $1,499,094,381   Transfer of cap due to servicing transfer
                                                   Financial
            GMAC Mortgage, Inc.,                   Instrument for                                             6/29/2011         ($18,457)   $1,499,075,924   Updated due to quarterly assessment and reallocation
4/13/2009                            Purchase                             $633,000,000 N/A                                                                                                                             $40,574,764   $100,872,600      $69,884,162      $211,331,526
            Ft. Washington, PA                     Home Loan
                                                                                                              7/14/2011        ($200,000)   $1,498,875,924   Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                              8/16/2011       $3,400,000    $1,502,275,924   Transfer of cap due to servicing transfer
                                                                                                              9/15/2011         $200,000    $1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                             10/14/2011        ($800,000)   $1,501,675,924   Transfer of cap due to servicing transfer
                                                                                                             11/16/2011        ($200,000)   $1,501,475,924   Transfer of cap due to servicing transfer
                                                                                                             12/15/2011       $2,600,000    $1,504,075,924   Transfer of cap due to servicing transfer
                                                                                                              1/13/2012      ($1,600,000)   $1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                              3/15/2012        ($400,000)   $1,502,075,924   Transfer of cap due to servicing transfer
                                                                                                              4/16/2012        ($100,000)   $1,501,975,924   Transfer of cap due to servicing transfer
                                                                                                              5/16/2012        ($800,000)   $1,501,175,924   Transfer of cap due to servicing transfer
                                                                                                              6/14/2012        ($990,000)   $1,500,185,924   Transfer of cap due to servicing transfer
                                                                                                              6/28/2012         ($12,463)   $1,500,173,461   Updated due to quarterly assessment and reallocation
                                                                                                              8/16/2012          $10,000    $1,500,183,461   Transfer of cap due to servicing transfer
                                                                                                              9/27/2012         ($33,210)   $1,500,150,251   Updated due to quarterly assessment and reallocation
                                                                                                             11/15/2012      ($1,200,000)   $1,498,950,251   Transfer of cap due to servicing transfer
                                                                                                             12/14/2012          $40,000    $1,498,990,251   Transfer of cap due to servicing transfer
                                                                                                             12/27/2012          ($5,432)   $1,498,984,819   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013
                                                                                                                                                                                                                                                                                          281
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                               (CONTINUED)                                                                                                                                                                                         282
            Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                              TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                 Lenders/                           Total TARP
                                       Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                                 Borrower’s      Investors        Servicers           Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount        Adjusted Cap   Reason for Adjustment                                      Incentives     Incentives       Incentives          Payments
                                                                                                                6/17/2009     $225,040,000      $632,040,000    Updated portfolio data from servicer
                                                                                                                9/30/2009     $254,380,000      $886,420,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009     $355,710,000     $1,242,130,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010     ($57,720,000)    $1,184,410,000   Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap to Ocwen Financial Corporation, Inc.
                                                                                                                6/16/2010    ($156,050,000)    $1,028,360,000
                                                                                                                                                                due to servicing transfer
                                                                                                                7/14/2010    ($513,660,000)     $514,700,000    Updated portfolio data from servicer
                                                                                                                7/16/2010     ($22,980,000)     $491,720,000    Transfer of cap due to multiple servicing transfers
                                                                                                                9/15/2010        $1,800,000     $493,520,000    Transfer of cap due to servicing transfer
                                                                                                                9/30/2010        $9,800,000     $503,320,000    Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                                9/30/2010     $116,222,668      $619,542,668    Updated portfolio data from servicer
                                                                                                               10/15/2010          $100,000     $619,642,668    Transfer of cap due to servicing transfer
                                                                                                               12/15/2010        $8,900,000     $628,542,668    Updated portfolio data from servicer
                                                                                                                 1/6/2011             ($556)    $628,542,112    Updated portfolio data from servicer
                                                                                                                1/13/2011        $2,300,000     $630,842,112    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                3/16/2011          $700,000     $631,542,112    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011             ($654)    $631,541,458    Updated due to quarterly assessment and reallocation
                                                     Financial                                                  4/13/2011        $2,100,000     $633,641,458    Transfer of cap due to servicing transfer
            Saxon Mortgage Services,                 Instrument for
4/13/2009                              Purchase                             $407,000,000 N/A                                                                                                                              $19,655,991   $41,738,482      $39,415,515      $100,809,988
            Inc., Irving, TX                         Home Loan                                                  6/29/2011           ($6,144)    $633,635,314    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                7/14/2011          $200,000     $633,835,314    Transfer of cap due to servicing transfer
                                                                                                                8/16/2011        ($100,000)     $633,735,314    Transfer of cap due to servicing transfer
                                                                                                                9/15/2011        ($700,000)     $633,035,314    Transfer of cap due to servicing transfer
                                                                                                               12/15/2011       $17,500,000     $650,535,314    Transfer of cap due to servicing transfer
                                                                                                                2/16/2012        ($100,000)     $650,435,314    Transfer of cap due to servicing transfer
                                                                                                                3/15/2012          $100,000     $650,535,314    Transfer of cap due to servicing transfer
                                                                                                                4/16/2012     ($17,500,000)     $633,035,314    Transfer of cap due to servicing transfer
                                                                                                                5/16/2012        ($760,000)     $632,275,314    Transfer of cap due to servicing transfer
                                                                                                                6/14/2012    ($354,290,000)     $277,985,314    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012           ($1,831)    $277,983,483    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012     ($10,120,000)     $267,863,483    Transfer of cap due to servicing transfer
                                                                                                                8/16/2012          ($10,000)    $267,853,483    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012           ($4,701)    $267,848,782    Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012       ($9,220,000)    $258,628,782    Transfer of cap due to servicing transfer
                                                                                                               11/15/2012          ($30,000)    $258,598,782    Transfer of cap due to servicing transfer
                                                                                                               12/14/2012           $60,000     $258,658,782    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012             ($788)    $258,657,994    Updated due to quarterly assessment and reallocation
                                                     Financial
            Chase Home Finance, LLC,                 Instrument for
4/13/2009                              Purchase                            $3,552,000,000 N/A            2      7/31/2009   ($3,552,000,000)               $0   Termination of SPA                                                $0             $0               $0                  $0
            Iselin, NJ                               Home Loan
                                                     Modifications
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                              (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                                               TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                  Lenders/                           Total TARP
                                      Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                                 Borrower’s       Investors        Servicers           Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount        Adjusted Cap   Reason for Adjustment                                      Incentives      Incentives       Incentives          Payments
                                                                                                               6/12/2009    ($105,620,000)     $553,380,000    Updated portfolio data from servicer
                                                                                                               9/30/2009     $102,580,000      $655,960,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009     $277,640,000      $933,600,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010       $46,860,000     $980,460,000    Updated portfolio data from servicer
                                                                                                                                                               Transfer of cap from Saxon Mortgage Services, Inc.
                                                                                                               6/16/2010     $156,050,000     $1,136,510,000
                                                                                                                                                               due to servicing transfer
                                                                                                               7/14/2010    ($191,610,000)     $944,900,000    Updated portfolio data from servicer
                                                                                                                                                               Transfer of cap from Saxon Mortgage Services, Inc.
                                                                                                               7/16/2010       $23,710,000     $968,610,000
                                                                                                                                                               due to servicing transfer
                                                                                                               9/15/2010          $100,000     $968,710,000    Initial FHA-HAMP cap
                                                                                                               9/30/2010        $3,742,740     $972,452,740    Updated portfolio data from servicer
                                                                                                              10/15/2010     $170,800,000     $1,143,252,740   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011           ($1,020)   $1,143,251,720   Updated portfolio data from servicer
                                                                                                               2/16/2011          $900,000    $1,144,151,720   Transfer of cap due to servicing transfer
                                                    Financial                                                  3/30/2011           ($1,114)   $1,144,150,606   Updated due to quarterly assessment and reallocation
             Ocwen Financial
                                                    Instrument for
4/16/2009    Corporation, Inc.,       Purchase                             $659,000,000 N/A                    6/29/2011          ($10,044)   $1,144,140,562   Updated due to quarterly assessment and reallocation      $62,912,378   $166,083,615     $118,131,642      $347,127,635
                                                    Home Loan
             West Palm Beach, FL
                                                    Modifications                                             10/14/2011        ($100,000)    $1,144,040,562   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012     $194,800,000     $1,338,840,562   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012          $400,000    $1,339,240,562   Transfer of cap due to servicing transfer
                                                                                                               3/15/2012          $100,000    $1,339,340,562   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012     $123,530,000     $1,462,870,562   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012     $354,290,000     $1,817,160,562   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($6,308)   $1,817,154,254   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012       $10,080,000    $1,827,234,254   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012        $8,390,000    $1,835,624,254   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012          ($10,733)   $1,835,613,521   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012       $14,560,000    $1,850,173,521   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012       $13,240,000    $1,863,413,521   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012        $2,080,000    $1,865,493,521   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012           ($1,015)   $1,865,492,506   Updated due to quarterly assessment and reallocation
                                                                                                               6/12/2009        $5,540,000     $804,440,000    Updated portfolio data from servicer
                                                                                                               9/30/2009     $162,680,000      $967,120,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009     $665,510,000     $1,632,630,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                               1/26/2010     $800,390,000     $2,433,020,000   Initial 2MP cap
                                                                                                               3/26/2010    ($829,370,000)    $1,603,650,000   Updated portfolio data from servicer
                                                                                                               7/14/2010    ($366,750,000)    $1,236,900,000   Updated portfolio data from servicer
                                                                                                                                                               Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                               9/30/2010       $95,300,000    $1,332,200,000
                                                                                                                                                               RD-HAMP

4/17/2009                                           Financial                                                  9/30/2010     $222,941,084     $1,555,141,084   Updated portfolio data from servicer
as amended   Bank of America, N.A.,                 Instrument for
                                      Purchase                             $798,900,000 N/A            13       1/6/2011           ($2,199)   $1,555,138,885   Updated portfolio data from servicer                       $4,267,062    $17,852,012       $9,159,439        $31,278,513
on           Simi Valley, CA                        Home Loan
1/26/2010                                           Modifications                                              3/30/2011           ($2,548)   $1,555,136,337   Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011          ($23,337)   $1,555,113,000   Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2011        ($300,000)    $1,554,813,000   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011    ($120,700,000)    $1,434,113,000   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                                                                              11/16/2011        ($900,000)    $1,433,213,000   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012        ($200,000)    $1,433,013,000   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012          ($17,893)   $1,432,995,107   Updated due to quarterly assessment and reallocation
                                                                                                                                                               Update of cap due to termination of SPA and merger
                                                                                                               8/10/2012   ($1,401,716,594)     $31,278,513
                                                                                                                                                               with BAC Home Loans, LP
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            283
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                              (CONTINUED)                                                                                                                                                                                          284
             Servicer Modifying Borrowers’ Loans                                                                                             Adjustment Details                                                                                TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                  Lenders/                           Total TARP
                                      Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                                 Borrower’s       Investors        Servicers           Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                       Incentives      Incentives       Incentives          Payments
                                                                                                               6/12/2009    $3,318,840,000   $5,182,840,000   Updated portfolio data from servicer
                                                                                                               9/30/2009    ($717,420,000)   $4,465,420,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009    $2,290,780,000   $6,756,200,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                               1/26/2010     $450,100,000    $7,206,300,000   Initial 2MP cap
                                                                                                               3/26/2010     $905,010,000    $8,111,310,000   Updated portfolio data from servicer
                                                                                                                                                              Transfer of cap from Wilshire Credit Corporation due
                                                                                                               4/19/2010      $10,280,000    $8,121,590,000
                                                                                                                                                              to servicing transfer
                                                                                                                                                              Transfer of cap from Wilshire Credit Corporation due
                                                                                                               6/16/2010     $286,510,000    $8,408,100,000
                                                                                                                                                              to servicing transfer
                                                                                                               7/14/2010   ($1,787,300,000) $6,620,800,000    Updated portfolio data from servicer
                                                                                                                                                              Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                               9/30/2010     $105,500,000    $6,726,300,000
                                                                                                                                                              RD-HAMP
                                                                                                               9/30/2010    ($614,527,362)   $6,111,772,638   Updated portfolio data from servicer
                                                                                                              12/15/2010     $236,000,000    $6,347,772,638   Updated portfolio data from servicer
                                                                                                                1/6/2011          ($8,012)   $6,347,764,626   Updated portfolio data from servicer
                                                                                                               2/16/2011       $1,800,000    $6,349,564,626   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                               3/16/2011         $100,000    $6,349,664,626   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011          ($9,190)   $6,349,655,436   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011         $200,000    $6,349,855,436   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011         $300,000    $6,350,155,436   Transfer of cap due to servicing transfer
                                                                                                               6/16/2011      ($1,000,000)   $6,349,155,436   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011         ($82,347)   $6,349,073,089   Updated due to quarterly assessment and reallocation
4/17/2009    Countrywide Home Loans                 Financial
as amended   Servicing LP (BAC Home                 Instrument for                                             7/14/2011        ($200,000)   $6,348,873,089   Transfer of cap due to servicing transfer
                                      Purchase                            $1,864,000,000 N/A                                                                                                                            $179,103,082   $389,213,803     $252,653,774      $820,970,659
on           Loans Servicing, LP),                  Home Loan                                                  8/16/2011      ($3,400,000)   $6,345,473,089   Transfer of cap due to servicing transfer
1/26/2010    Simi Valley, CA                        Modifications
                                                                                                               9/15/2011      ($1,400,000)   $6,344,073,089   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011     $120,600,000    $6,464,673,089   Transfer of cap due to servicing transfer
                                                                                                                                                              Transfer of cap from Home Loan Services, Inc. and
                                                                                                              10/19/2011     $317,956,289    $6,782,629,378   Wilshire Credit Corporation due to merger.


                                                                                                              11/16/2011         $800,000    $6,783,429,378   Transfer of cap due to servicing transfer
                                                                                                              12/15/2011     ($17,600,000)   $6,765,829,378   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012      ($2,100,000)   $6,763,729,378   Transfer of cap due to servicing transfer
                                                                                                               3/15/2012     ($23,900,000)   $6,739,829,378   Transfer of cap due to servicing transfer
                                                                                                               4/16/2012     ($63,800,000)   $6,676,029,378   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012          $20,000    $6,676,049,378   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012      ($8,860,000)   $6,667,189,378   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012         ($58,550)   $6,667,130,828   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012      ($6,840,000)   $6,660,290,828   Transfer of cap due to servicing transfer
                                                                                                                                                              Transfer of cap (from Bank of America, N.A.) due
                                                                                                               8/10/2012    $1,401,716,594   $8,062,007,423
                                                                                                                                                              to merger
                                                                                                               8/16/2012      ($4,780,000)   $8,057,227,423   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012        ($205,946)   $8,057,021,476   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012    ($153,220,000)   $7,903,801,476   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012     ($27,300,000)   $7,876,501,476   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012     ($50,350,000)   $7,826,151,476   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012         ($33,515)   $7,826,117,961   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                           TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                             Lenders/                           Total TARP
                                        Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                               Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives       Incentives          Payments
                                                                                                                 6/12/2009    $128,300,000      $447,300,000    Updated portfolio data from servicer
                                                                                                                 9/30/2009      $46,730,000     $494,030,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009    $145,820,000      $639,850,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010     ($17,440,000)    $622,410,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010     ($73,010,000)    $549,400,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010       $6,700,000     $556,100,000    Initial FHA-2LP cap

                                                      Financial                                                  9/30/2010     ($77,126,410)    $478,973,590    Updated portfolio data from servicer
            Home Loan Services, Inc.,                 Instrument for
4/20/2009                               Purchase                             $319,000,000 N/A            13     12/15/2010   ($314,900,000)     $164,073,590    Updated portfolio data from servicer                       $169,858    $2,440,768      $3,698,607         $6,309,233
            Pittsburgh, PA                            Home Loan
                                                      Modifications                                               1/6/2011            ($233)    $164,073,357    Updated portfolio data from servicer
                                                                                                                 2/16/2011      ($1,900,000)    $162,173,357    Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011       ($400,000)     $161,773,357    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011            ($278)    $161,773,079    Updated due to quarterly assessment and reallocation
                                                                                                                 5/13/2011       ($400,000)     $161,373,079    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011          ($2,625)    $161,370,454    Updated due to quarterly assessment and reallocation
                                                                                                                10/19/2011   ($155,061,221)        $6,309,233   Termination of SPA
                                                                                                                 6/12/2009      $87,130,000     $453,130,000    Updated portfolio data from servicer
                                                                                                                 9/30/2009   ($249,670,000)     $203,460,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009    $119,700,000      $323,160,000    Updated portfolio data from servicer & HAFA initial cap

                                                                                                                 3/26/2010      $52,270,000     $375,430,000    Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap to Countrywide Home Loans due to
                                                                                                                 4/19/2010     ($10,280,000)    $365,150,000
                                                                                                                                                                servicing transfer
                                                                                                                                                                Transfer of cap to GMAC Mortgage, Inc. due to
                                                                                                                 5/14/2010      ($1,880,000)    $363,270,000
                                                                                                                                                                servicing transfer

                                                      Financial                                                                                                 Transfer of cap to Countrywide Home Loans due to
            Wilshire Credit                                                                                      6/16/2010   ($286,510,000)      $76,760,000
                                                      Instrument for                                                                                            servicing transfer
4/20/2009   Corporation,                Purchase                             $366,000,000 N/A            13                                                                                                                      $0     $490,394       $1,167,000         $1,657,394
                                                      Home Loan
            Beaverton, OR                                                                                        7/14/2010      $19,540,000      $96,300,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                                Transfer of cap to Green Tree Servicing LLC due to
                                                                                                                 7/16/2010       ($210,000)      $96,090,000
                                                                                                                                                                servicing transfer
                                                                                                                 8/13/2010       ($100,000)      $95,990,000    Transfer of cap due to servicing transfer
                                                                                                                 9/30/2010      $68,565,782     $164,555,782    Updated portfolio data from servicer
                                                                                                                  1/6/2011            ($247)    $164,555,535    Updated portfolio data from servicer
                                                                                                                 3/30/2011            ($294)    $164,555,241    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011          ($2,779)    $164,552,462    Updated due to quarterly assessment and reallocation
                                                                                                                10/19/2011   ($162,895,068)        $1,657,394   Termination of SPA
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013
                                                                                                                                                                                                                                                                                         285
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                (CONTINUED)                                                                                                                                                                                     286
            Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                           TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                             Lenders/                           Total TARP
                                        Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                               Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives       Incentives          Payments
                                                                                                                 6/17/2009     ($64,990,000)     $91,010,000    Updated portfolio data from servicer
                                                                                                                 9/30/2009    $130,780,000      $221,790,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                                12/30/2009   ($116,750,000)     $105,040,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010      $13,080,000     $118,120,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010     ($24,220,000)     $93,900,000    Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from Wilshire Credit Corporation due
                                                                                                                 7/16/2010         $210,000      $94,110,000
                                                                                                                                                                to servicing transfer
                                                                                                                 8/13/2010       $2,200,000      $96,310,000    Transfer of cap due to servicing transfer
                                                                                                                 9/10/2010      $34,600,000     $130,910,000    Initial 2MP cap
                                                                                                                 9/30/2010       $5,600,000     $136,510,000    Initial FHA-2LP cap and FHA-HAMP
                                                                                                                 9/30/2010      $10,185,090     $146,695,090    Updated portfolio data from servicer
                                                                                                                10/15/2010         $400,000     $147,095,090    Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011            ($213)    $147,094,877    Updated portfolio data from servicer
                                                                                                                 3/30/2011            ($250)    $147,094,627    Updated due to quarterly assessment and reallocation
                                                                                                                 5/13/2011       $1,200,000     $148,294,627    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                      Financial                                                  6/16/2011         $100,000     $148,394,627    Transfer of cap due to servicing transfer
            Green Tree Servicing LLC,                 Instrument for
4/24/2009                               Purchase                             $156,000,000 N/A                                                                                                                             $1,469,095   $4,617,345      $3,572,353         $9,658,793
            Saint Paul, MN                            Home Loan                                                  6/29/2011          ($2,302)    $148,392,325    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                 7/14/2011       $1,900,000     $150,292,325    Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011         $200,000     $150,492,325    Transfer of cap due to servicing transfer
                                                                                                                10/14/2011         $200,000     $150,692,325    Transfer of cap due to servicing transfer
                                                                                                                11/16/2011         $400,000     $151,092,325    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012         $900,000     $151,992,325    Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012         $100,000     $152,092,325    Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012       $3,260,000     $155,352,325    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012         $920,000     $156,272,325    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012          ($1,622)    $156,270,703    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012         $110,000     $156,380,703    Transfer of cap due to servicing transfer
                                                                                                                 8/16/2012       $5,120,000     $161,500,703    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012          ($4,509)    $161,496,194    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012       $8,810,000     $170,306,194    Transfer of cap due to servicing transfer
                                                                                                                11/15/2012       $2,910,000     $173,216,194    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012            ($802)    $173,215,392    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                             (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                                             Adjustment Details                                                                              TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                Lenders/                           Total TARP
                                     Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                                Borrower’s      Investors        Servicers           Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                      Incentives     Incentives       Incentives          Payments
                                                                                                              6/17/2009     ($63,980,000)    $131,020,000    Updated portfolio data from servicer
                                                                                                              9/30/2009      $90,990,000     $222,010,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009      $57,980,000     $279,990,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010      $74,520,000     $354,510,000    Updated portfolio data from servicer
                                                                                                              7/14/2010     ($75,610,000)    $278,900,000    Updated portfolio data from servicer
                                                                                                              8/13/2010       $1,100,000     $280,000,000    Transfer of cap due to servicing transfer
                                                                                                              9/30/2010       $3,763,685     $283,763,685    Updated portfolio data from servicer
                                                                                                             12/15/2010         $300,000     $284,063,685    Updated portfolio data from servicer
                                                                                                               1/6/2011            ($325)    $284,063,360    Updated portfolio data from servicer
                                                                                                              1/13/2011       $2,400,000     $286,463,360    Transfer of cap due to servicing transfer
                                                                                                              3/30/2011            ($384)    $286,462,976    Updated due to quarterly assessment and reallocation
                                                                                                              6/29/2011          ($3,592)    $286,459,384    Updated due to quarterly assessment and reallocation

                                                   Financial                                                  8/16/2011       $1,800,000     $288,259,384    Transfer of cap due to servicing transfer
            Carrington Mortgage
                                                   Instrument for
4/27/2009   Services, LLC,           Purchase                             $195,000,000 N/A                    9/15/2011         $100,000     $288,359,384    Transfer of cap due to servicing transfer                  $6,244,950   $17,759,753      $12,949,403        $36,954,106
                                                   Home Loan
            Santa Ana, CA
                                                   Modifications                                             11/16/2011       $1,000,000     $289,359,384    Transfer of cap due to servicing transfer
                                                                                                              2/16/2012       $1,100,000     $290,459,384    Transfer of cap due to servicing transfer
                                                                                                              4/16/2012         $100,000     $290,559,384    Transfer of cap due to servicing transfer
                                                                                                              5/16/2012         $850,000     $291,409,384    Transfer of cap due to servicing transfer
                                                                                                              6/14/2012       $2,240,000     $293,649,384    Transfer of cap due to servicing transfer
                                                                                                              6/28/2012          ($2,520)    $293,646,864    Updated due to quarterly assessment and reallocation
                                                                                                              7/16/2012       $1,690,000     $295,336,864    Transfer of cap due to servicing transfer
                                                                                                              8/16/2012         ($30,000)    $295,306,864    Transfer of cap due to servicing transfer
                                                                                                              9/27/2012          ($6,632)    $295,300,232    Updated due to quarterly assessment and reallocation
                                                                                                             10/16/2012       $2,880,000     $298,180,232    Transfer of cap due to servicing transfer
                                                                                                             11/15/2012       $1,500,000     $299,680,232    Transfer of cap due to servicing transfer
                                                                                                             12/14/2012       $2,040,000     $301,720,232    Transfer of cap due to servicing transfer
                                                                                                             12/27/2012          ($1,103)    $301,719,129    Updated due to quarterly assessment and reallocation
                                                                                                              6/17/2009   ($338,450,000)     $459,550,000    Updated portfolio data from servicer
                                                                                                              9/30/2009     ($11,860,000)    $447,690,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009      $21,330,000     $469,020,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010       $9,150,000     $478,170,000    Updated portfolio data from servicer
                                                                                                              7/14/2010     ($76,870,000)    $401,300,000    Updated portfolio data from servicer
                                                                                                               9/1/2010         $400,000     $401,700,000    Initial FHA-HAMP cap
                                                                                                              9/30/2010      ($8,454,269)    $393,245,731    Updated portfolio data from servicer
                                                                                                               1/6/2011            ($342)    $393,245,389    Updated portfolio data from servicer
                                                                                                              3/30/2011            ($374)    $393,245,015    Updated due to quarterly assessment and reallocation
                                                   Financial
            Aurora Loan Services,                  Instrument for                                             5/13/2011      $18,000,000     $411,245,015    Transfer of cap due to servicing transfer
5/1/2009                             Purchase                             $798,000,000 N/A                                                                                                                             $15,997,418   $41,236,850      $28,629,251        $85,863,519
            LLC, Littleton, CO                     Home Loan                                                  6/29/2011          ($3,273)    $411,241,742    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                             10/14/2011       ($200,000)     $411,041,742    Transfer of cap due to servicing transfer
                                                                                                              3/15/2012         $100,000     $411,141,742    Transfer of cap due to servicing transfer
                                                                                                              4/16/2012       ($500,000)     $410,641,742    Transfer of cap due to servicing transfer
                                                                                                              6/28/2012          ($1,768)    $410,639,974    Updated due to quarterly assessment and reallocation
                                                                                                              7/16/2012         ($90,000)    $410,549,974    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                                                                              8/16/2012   ($134,230,000)     $276,319,974    Transfer of cap due to servicing transfer
                                                                                                              8/23/2012   ($166,976,849)     $109,343,125    Transfer of cap due to servicing transfer
                                                                                                              9/27/2012               $1     $109,343,126    Updated due to quarterly assessment and reallocation
                                                                                                             11/15/2012       ($230,000)     $109,113,126    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         287
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                               (CONTINUED)                                                                                                                                                                                        288
            Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                                              TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                Lenders/                           Total TARP
                                       Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                                Borrower’s      Investors        Servicers           Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                      Incentives     Incentives       Incentives          Payments
                                                                                                                6/12/2009      $16,140,000     $117,140,000    Updated portfolio data from servicer
                                                                                                                9/30/2009    $134,560,000      $251,700,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009      $80,250,000     $331,950,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010      $67,250,000     $399,200,000    Updated portfolio data from servicer
                                                                                                                7/14/2010     ($85,900,000)    $313,300,000    Updated portfolio data from servicer
                                                                                                                8/13/2010         $100,000     $313,400,000    Transfer of cap due to servicing transfer
                                                                                                                                                               Initial FHA-HAMP cap, initial FHA-2LP cap, initial RD-
                                                                                                                9/30/2010       $2,900,000     $316,300,000
                                                                                                                                                               HAMP, and initial 2MP cap
                                                                                                                9/30/2010      $33,801,486     $350,101,486    Updated portfolio data from servicer
                                                                                                               11/16/2010         $700,000     $350,801,486    Transfer of cap due to servicing transfer
                                                                                                               12/15/2010       $1,700,000     $352,501,486    Updated portfolio data from servicer
                                                                                                                 1/6/2011            ($363)    $352,501,123    Updated portfolio data from servicer
                                                                                                                2/16/2011         $900,000     $353,401,123    Transfer of cap due to servicing transfer
                                                                                                                3/16/2011      $29,800,000     $383,201,123    Transfer of cap due to servicing transfer
                                                     Financial
            Nationstar Mortgage LLC,                 Instrument for                                             3/30/2011            ($428)    $383,200,695    Updated due to quarterly assessment and reallocation
5/28/2009                              Purchase                             $101,000,000 N/A                                                                                                                             $19,939,608   $40,185,389      $30,829,201        $90,954,198
            Lewisville, TX                           Home Loan
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                     Modifications                                              5/26/2011      $20,077,503     $403,278,198    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011          ($4,248)    $403,273,950    Updated due to quarterly assessment and reallocation
                                                                                                               11/16/2011         $100,000     $403,373,950    Transfer of cap due to servicing transfer
                                                                                                                3/15/2012       ($100,000)     $403,273,950    Transfer of cap due to servicing transfer
                                                                                                                5/16/2012          $90,000     $403,363,950    Transfer of cap due to servicing transfer
                                                                                                                6/14/2012      ($2,380,000)    $400,983,950    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012          ($2,957)    $400,980,993    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012      ($2,580,000)    $398,400,993    Transfer of cap due to servicing transfer
                                                                                                                8/16/2012    $131,450,000      $529,850,993    Transfer of cap due to servicing transfer
                                                                                                                8/23/2012    $166,976,849      $696,827,842    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012         ($12,806)    $696,815,036    Updated due to quarterly assessment and reallocation
                                                                                                               11/15/2012         $160,000     $696,975,036    Transfer of cap due to servicing transfer
                                                                                                               12/14/2012          $50,000     $697,025,036    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012          ($1,882)    $697,023,154    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                               (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                                           TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                             Lenders/                           Total TARP
                                       Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                               Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives       Incentives          Payments
                                                                                                                9/30/2009      ($1,860,000)     $17,540,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009      $27,920,000      $45,460,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010      ($1,390,000)     $44,070,000    Updated portfolio data from servicer
                                                                                                                7/14/2010     ($13,870,000)     $30,200,000    Updated portfolio data from servicer
                                                                                                                                                               Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                                9/30/2010         $400,000      $30,600,000
                                                                                                                                                               2MP cap
                                                                                                                9/30/2010         $586,954      $31,186,954    Updated portfolio data from servicer
                                                                                                                 1/6/2011             ($34)     $31,186,920    Updated portfolio data from servicer
                                                                                                                3/30/2011             ($37)     $31,186,883    Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011         $100,000      $31,286,883    Transfer of cap due to servicing transfer
                                                     Financial
            Residential Credit                       Instrument for                                             6/29/2011            ($329)     $31,286,554    Updated due to quarterly assessment and reallocation
6/12/2009                              Purchase                               $19,400,000 N/A                                                                                                                             $921,597    $2,569,742      $1,741,850         $5,233,190
            Solutions, Fort Worth,TX                 Home Loan
                                                     Modifications                                              9/15/2011      ($1,900,000)     $29,386,554    Transfer of cap due to servicing transfer
                                                                                                               11/16/2011       $2,800,000      $32,186,554    Transfer of cap due to servicing transfer
                                                                                                                5/16/2012         $420,000      $32,606,554    Transfer of cap due to servicing transfer
                                                                                                                6/14/2012       $8,060,000      $40,666,554    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012            ($313)     $40,666,241    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012       $2,160,000      $42,826,241    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012            ($911)     $42,825,330    Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012       $5,690,000      $48,515,330    Transfer of cap due to servicing transfer
                                                                                                               11/15/2012          $20,000      $48,535,330    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012            ($178)     $48,535,152    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2009      $13,070,000      $29,590,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009    $145,510,000      $175,100,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010   ($116,950,000)      $58,150,000    Updated portfolio data from servicer
                                                                                                                7/14/2010     ($23,350,000)     $34,800,000    Updated portfolio data from servicer

                                                     Financial                                                  9/30/2010       $7,846,346      $42,646,346    Updated portfolio data from servicer
            CCO Mortgage,                            Instrument for
6/17/2009                              Purchase                               $16,520,000 N/A                    1/6/2011             ($46)     $42,646,300    Updated portfolio data from servicer                      $1,364,012   $3,421,911      $2,559,442         $7,345,365
            Glen Allen, VA                           Home Loan
                                                     Modifications                                              3/30/2011             ($55)     $42,646,245    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011            ($452)     $42,645,793    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012            ($309)     $42,645,484    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012            ($807)     $42,644,677    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012            ($131)     $42,644,546    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2009     ($11,300,000)     $45,700,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009     ($42,210,000)       $3,490,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010      $65,640,000      $69,130,000    Updated portfolio data from servicer
                                                                                                                 4/9/2010     ($14,470,000)     $54,660,000    Updated portfolio data from servicer
                                                                                                                7/14/2010      ($8,860,000)     $45,800,000    Updated portfolio data from servicer

                                                     Financial                                                  9/30/2010      ($4,459,154)     $41,340,846    Updated portfolio data from servicer
            RG Mortgage Corporation,                 Instrument for
6/17/2009                              Purchase                               $57,000,000 N/A                  12/15/2010      ($4,300,000)     $37,040,846    Updated portfolio data from servicer                       $164,853     $227,582         $401,334           $793,769
            San Juan, PR                             Home Loan
                                                     Modifications                                               1/6/2011             ($51)     $37,040,795    Updated portfolio data from servicer
                                                                                                                3/30/2011             ($65)     $37,040,730    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011            ($616)     $37,040,114    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012            ($462)     $37,039,652    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012          ($1,270)     $37,038,382    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                                                                               12/27/2012            ($214)     $37,038,168    Updated due to quarterly assessment and reallocation

                                                     Financial                                                 12/30/2009       $2,020,000        $2,790,000   Updated portfolio data from servicer & HAFA initial cap
            First Federal Savings
                                                     Instrument for
6/19/2009   and Loan,                  Purchase                                 $770,000 N/A                    3/26/2010      $11,370,000      $14,160,000    Updated portfolio data from servicer                             $0           $0               $0                  $0
                                                     Home Loan
            Port Angeles, WA
                                                     Modifications                                              5/26/2010     ($14,160,000)               $0   Termination of SPA
                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                        289
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                               (CONTINUED)                                                                                                                                                                                     290
            Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                                           TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                             Lenders/                           Total TARP
                                       Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                               Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives       Incentives          Payments
                                                                                                                9/30/2009         $330,000         $870,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009      $16,490,000      $17,360,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010     ($14,260,000)       $3,100,000   Updated portfolio data from servicer
                                                                                                                7/14/2010      ($1,800,000)       $1,300,000   Updated portfolio data from servicer
                                                                                                                7/30/2010       $1,500,000        $2,800,000   Updated portfolio data from servicer
                                                     Financial
            Wescom Central Credit                    Instrument for                                             9/30/2010       $1,551,668        $4,351,668   Updated portfolio data from servicer
6/19/2009                              Purchase                                 $540,000 N/A            9,12                                                                                                              $166,522    $509,586          $289,225           $965,334
            Union, Anaheim, CA                       Home Loan                                                   1/6/2011              ($2)       $4,351,666   Updated portfolio data from servicer
                                                     Modifications
                                                                                                                3/30/2011              ($2)       $4,351,664   Updated due to quarterly assessment and reallocation
                                                                                                                5/13/2011      ($1,800,000)       $2,551,664   Transfer of cap due to servicing transfer
                                                                                                                 6/3/2011      ($1,872,787)        $678,877    Termination of SPA
                                                                                                                6/14/2012         $990,000        $1,668,877   Transfer of cap due to servicing transfer
                                                                                                                9/27/2012         $372,177        $2,041,054   Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2009         ($10,000)          $20,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009         $590,000         $610,000    Updated portfolio data from servicer & HAFA initial cap
                                                     Financial
            Citizens First Wholesale                                                                            3/26/2010       ($580,000)           $30,000   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                     Instrument for
6/26/2009   Mortgage Company,          Purchase                                  $30,000 N/A                                                                                                                                    $0           $0               $0                  $0
                                                     Home Loan                                                  7/14/2010          $70,000         $100,000    Updated portfolio data from servicer
            The Villages, FL
                                                     Modifications
                                                                                                                9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
                                                                                                                2/17/2011       ($145,056)                $0   Termination of SPA
                                                                                                               12/30/2009       $2,180,000        $2,250,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010       ($720,000)        $1,530,000   Updated portfolio data from servicer
                                                                                                                7/14/2010       ($430,000)        $1,100,000   Updated portfolio data from servicer
                                                                                                                9/30/2010          $60,445        $1,160,445   Updated portfolio data from servicer
                                                     Financial
            Technology Credit Union,                 Instrument for                                              1/6/2011              ($1)       $1,160,444   Updated portfolio data from servicer
6/26/2009                              Purchase                                  $70,000 N/A                                                                                                                               $30,250    $126,699           $50,017           $206,965
            San Jose, CA                             Home Loan                                                  3/30/2011              ($1)       $1,160,443   Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                6/29/2011             ($12)       $1,160,431   Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($9)       $1,160,422   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012             ($23)       $1,160,399   Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012              ($4)       $1,160,395   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                               Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                                           TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                              Lenders/                           Total TARP
                                      Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                                Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount        Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives       Incentives          Payments
                                                                                                               9/30/2009     $315,170,000      $610,150,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009       $90,280,000     $700,430,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010     ($18,690,000)     $681,740,000    Updated portfolio data from servicer
                                                                                                               7/14/2010    ($272,640,000)     $409,100,000    Updated portfolio data from servicer
                                                                                                                                                               Initial FHA-HAMP cap, Initial FHA-2LP cap, and initial
                                                                                                               9/30/2010       $80,600,000     $489,700,000
                                                                                                                                                               2MP cap
                                                                                                               9/30/2010       $71,230,004     $560,930,004    Updated portfolio data from servicer
                                                                                                                1/6/2011             ($828)    $560,929,176    Updated portfolio data from servicer
                                                                                                               2/16/2011          $200,000     $561,129,176    Transfer of cap due to servicing transfer
                                                                                                               3/16/2011        ($100,000)     $561,029,176    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011             ($981)    $561,028,195    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011       ($2,300,000)    $558,728,195    Transfer of cap due to servicing transfer
                                                    Financial
            National City Bank,                     Instrument for                                             5/13/2011        ($200,000)     $558,528,195    Transfer of cap due to servicing transfer
6/26/2009                             Purchase                             $294,980,000 N/A                                                                                                                              $1,745,833   $5,959,692      $3,627,953        $11,333,479
            Miamisburg, OH                          Home Loan
                                                    Modifications                                              6/16/2011        ($200,000)     $558,328,195    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011           ($9,197)    $558,318,998    Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2011                $0     $558,318,998    Transfer of cap due to servicing transfer
                                                                                                              10/14/2011          $300,000     $558,618,998    Transfer of cap due to servicing transfer
                                                                                                              11/16/2011        ($300,000)     $558,318,998    Transfer of cap due to servicing transfer
                                                                                                               1/13/2012          $200,000     $558,518,998    Transfer of cap due to servicing transfer
                                                                                                               2/16/2012        ($100,000)     $558,418,998    Transfer of cap due to servicing transfer
                                                                                                               3/15/2012          $200,000     $558,618,998    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012          ($10,000)    $558,608,998    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($6,771)    $558,602,227    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012          ($18,467)    $558,583,760    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012           ($3,105)    $558,580,655    Updated due to quarterly assessment and reallocation
                                                                                                               9/30/2009     $723,880,000     $1,357,890,000   Updated portfolio data from servicer & HPDP initial cap
                                                    Financial
            Wachovia Mortgage, FSB,                 Instrument for                                            12/30/2009     $692,640,000     $2,050,530,000   Updated portfolio data from servicer & HAFA initial cap
7/1/2009                              Purchase                             $634,010,000 N/A             3                                                                                                                       $0      $76,890         $162,000           $238,890
            Des Moines, IA                          Home Loan                                                  2/17/2010   ($2,050,236,344)        $293,656    Transfer of cap (to Wells Fargo Bank) due to merger
                                                    Modifications
                                                                                                               3/12/2010          ($54,767)        $238,890    Transfer of cap (to Wells Fargo Bank) due to merger
                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013
                                                                                                                                                                                                                                                                                        291
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                               (CONTINUED)                                                                                                                                                                                     292
            Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                                           TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                             Lenders/                           Total TARP
                                       Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                               Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives       Incentives          Payments
                                                                                                                9/30/2009      $23,850,000      $68,110,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009      $43,590,000     $111,700,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010      $34,540,000     $146,240,000    Updated portfolio data from servicer
                                                                                                                 5/7/2010       $1,010,000     $147,250,000    Initial 2MP cap
                                                                                                                7/14/2010     ($34,250,000)    $113,000,000    Updated portfolio data from servicer
                                                                                                                9/30/2010         $600,000     $113,600,000    Initial FHA-2LP cap
                                                                                                                9/30/2010     ($15,252,303)     $98,347,697    Updated portfolio data from servicer
                                                                                                                 1/6/2011             ($70)     $98,347,627    Updated portfolio data from servicer
                                                                                                                3/30/2011             ($86)     $98,347,541    Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011         $400,000      $98,747,541    Transfer of cap due to servicing transfer
                                                                                                                5/13/2011         $100,000      $98,847,541    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011            ($771)     $98,846,770    Updated due to quarterly assessment and reallocation

                                                     Financial                                                  9/15/2011         $600,000      $99,446,770    Transfer of cap due to servicing transfer
            Bayview Loan Servicing,                  Instrument for
7/1/2009                               Purchase                               $44,260,000 N/A                  10/14/2011     ($18,900,000)     $80,546,770    Transfer of cap due to servicing transfer                 $5,332,505   $9,568,412      $8,068,815        $22,969,732
            LLC, Coral Gables, FL                    Home Loan
                                                     Modifications                                              1/13/2012         $900,000      $81,446,770    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                2/16/2012       $2,400,000      $83,846,770    Transfer of cap due to servicing transfer
                                                                                                                3/15/2012       ($100,000)      $83,746,770    Transfer of cap due to servicing transfer
                                                                                                                4/16/2012         $200,000      $83,946,770    Transfer of cap due to servicing transfer
                                                                                                                5/16/2012          $30,000      $83,976,770    Transfer of cap due to servicing transfer
                                                                                                                6/14/2012       $1,810,000      $85,786,770    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012            ($508)     $85,786,262    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012       $2,660,000      $88,446,262    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012          ($1,249)     $88,445,013    Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012         $160,000      $88,605,013    Transfer of cap due to servicing transfer
                                                                                                               11/15/2012       $6,970,000      $95,575,013    Transfer of cap due to servicing transfer
                                                                                                               12/14/2012      $13,590,000     $109,165,013    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012            ($298)    $109,164,715    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2009         $150,000         $250,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009         $130,000         $380,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010          $50,000         $430,000    Updated portfolio data from servicer
                                                                                                                7/14/2010         ($30,000)        $400,000    Updated portfolio data from servicer
                                                     Financial
            Lake National Bank,                      Instrument for                                             9/30/2010          $35,167         $435,167    Updated portfolio data from servicer
7/10/2009                              Purchase                                 $100,000 N/A            12                                                                                                                  $3,000       $3,651           $4,000            $10,651
            Mentor, OH                               Home Loan                                                   1/6/2011              ($1)        $435,166    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                3/30/2011              ($1)        $435,165    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($6)        $435,159    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($4)        $435,155    Updated due to quarterly assessment and reallocation
                                                                                                                8/23/2012       ($424,504)           $10,651   Termination of SPA
                                                                                                                9/30/2009         ($10,000)        $860,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                               12/30/2009         $250,000        $1,110,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                3/26/2010         ($10,000)       $1,100,000   Updated portfolio data from servicer
                                                                                                                7/14/2010       ($400,000)         $700,000    Updated portfolio data from servicer
                                                     Financial
            IBM Southeast Employees’                                                                            9/30/2010         $170,334         $870,334    Updated portfolio data from servicer
                                                     Instrument for
7/10/2009   Federal Credit Union,      Purchase                                 $870,000 N/A            12                                                                                                                  $9,000      $23,589          $16,000            $48,589
                                                     Home Loan                                                   1/6/2011              ($1)        $870,333    Updated portfolio data from servicer
            Delray Beach, FL
                                                     Modifications
                                                                                                                3/30/2011              ($1)        $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011             ($12)        $870,320    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($9)        $870,311    Updated due to quarterly assessment and reallocation
                                                                                                                9/14/2012       ($821,722)           $48,589   Termination of SPA
                                                                                                                                                                                                                                                               Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                             (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                                             Adjustment Details                                                                           TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                             Lenders/                           Total TARP
                                     Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                               Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives       Incentives          Payments
                                                                                                              9/30/2009      $18,530,000      $42,010,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009      $24,510,000      $66,520,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010      $18,360,000      $84,880,000    Updated portfolio data from servicer
                                                                                                              7/14/2010     ($22,580,000)     $62,300,000    Updated portfolio data from servicer
                                                   Financial
            MorEquity, Inc.,                       Instrument for                                             9/30/2010      ($8,194,261)     $54,105,739    Updated portfolio data from servicer
7/17/2009                            Purchase                               $23,480,000 N/A           11                                                                                                                $345,841    $2,305,003      $1,977,321         $4,628,165
            Evansville, IN                         Home Loan
                                                   Modifications                                               1/6/2011             ($37)     $54,105,702    Updated portfolio data from servicer
                                                                                                              3/16/2011     ($29,400,000)     $24,705,702    Transfer of cap due to servicing transfer
                                                                                                              3/30/2011             ($34)     $24,705,668    Updated due to quarterly assessment and reallocation
                                                                                                                                                             Termination of SPA
                                                                                                              5/26/2011     ($20,077,503)       $4,628,165
                                                                                                                                                             (remaining cap equals distribution amount)
                                                                                                                                                             Updated portfolio data from servicer & HPDP initial
                                                                                                              9/30/2009     ($36,240,000)     $18,230,000
                                                                                                                                                             cap
                                                                                                                                                             Updated portfolio data from servicer & HAFA initial
                                                                                                             12/30/2009      $19,280,000      $37,510,000
                                                                                                                                                             cap
                                                                                                              3/26/2010       $2,470,000      $39,980,000    Updated portfolio data from servicer
                                                                                                              7/14/2010     ($17,180,000)     $22,800,000    Updated portfolio data from servicer
                                                                                                              9/30/2010      $35,500,000      $58,300,000    Initial FHA-2LP cap and initial 2MP cap
                                                   Financial                                                  9/30/2010      $23,076,191      $81,376,191    Updated portfolio data from servicer
            PNC Bank, National
                                                   Instrument for
7/17/2009   Association,             Purchase                               $54,470,000 N/A                    1/6/2011            ($123)     $81,376,068    Updated portfolio data from servicer                        $63,354     $441,700         $320,000           $825,054
                                                   Home Loan
            Pittsburgh, PA
                                                   Modifications                                              3/30/2011            ($147)     $81,375,921    Updated due to quarterly assessment and reallocation
                                                                                                              5/13/2011       ($100,000)      $81,275,921    Transfer of cap due to servicing transfer
                                                                                                              6/29/2011          ($1,382)     $81,274,539    Updated due to quarterly assessment and reallocation
                                                                                                             10/14/2011       ($300,000)      $80,974,539    Transfer of cap due to servicing transfer
                                                                                                              6/28/2012          ($1,003)     $80,973,536    Updated due to quarterly assessment and reallocation
                                                                                                              9/27/2012          ($2,745)     $80,970,791    Updated due to quarterly assessment and reallocation
                                                                                                             12/27/2012            ($460)     $80,970,331    Updated due to quarterly assessment and reallocation
                                                                                                              9/30/2009         ($90,000)          $80,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009          $50,000         $130,000    Updated portfolio data from servicer & HAFA initial cap
                                                   Financial
            Farmers State Bank,                    Instrument for                                             3/26/2010         $100,000         $230,000    Updated portfolio data from servicer
7/17/2009                            Purchase                                 $170,000 N/A                                                                                                                                    $0           $0               $0                  $0
            West Salem, OH                         Home Loan                                                  7/14/2010       ($130,000)         $100,000    Updated portfolio data from servicer
                                                   Modifications
                                                                                                              9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
                                                                                                              5/20/2011       ($145,056)                $0   Termination of SPA
                                                                                                              9/30/2009         $890,000        $2,300,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009       $1,260,000        $3,560,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010         ($20,000)       $3,540,000   Updated portfolio data from servicer
                                                                                                              7/14/2010       ($240,000)        $3,300,000   Updated portfolio data from servicer
                                                                                                              9/30/2010         $471,446        $3,771,446   Updated portfolio data from servicer
                                                   Financial
            ShoreBank,                             Instrument for                                              1/6/2011              ($3)       $3,771,443   Updated portfolio data from servicer
7/17/2009                            Purchase                                $1,410,000 N/A                                                                                                                              $49,915     $153,906         $143,165           $346,986
            Chicago, IL                            Home Loan                                                  3/30/2011              ($4)       $3,771,439   Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                              4/13/2011      ($1,100,000)       $2,671,439   Transfer of cap due to servicing transfer
                                                                                                              6/29/2011             ($38)       $2,671,401   Updated due to quarterly assessment and reallocation
                                                                                                              6/28/2012             ($29)       $2,671,372   Updated due to quarterly assessment and reallocation
                                                                                                              9/27/2012             ($79)       $2,671,293   Updated due to quarterly assessment and reallocation
                                                                                                             12/27/2012             ($13)       $2,671,280   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                      293
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                              (CONTINUED)                                                                                                                                                                                         294
            Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                                               TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                 Lenders/                           Total TARP
                                      Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                                Borrower’s       Investors        Servicers           Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                      Incentives      Incentives       Incentives          Payments
                                                                                                               9/30/2009     ($53,670,000)   $1,218,820,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009    $250,450,000     $1,469,270,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010    $124,820,000     $1,594,090,000   Updated portfolio data from servicer
                                                                                                               7/14/2010   ($289,990,000)    $1,304,100,000   Updated portfolio data from servicer
                                                                                                               9/30/2010       $1,690,508    $1,305,790,508   Updated portfolio data from servicer
                                                                                                              10/15/2010         $300,000    $1,306,090,508   Transfer of cap due to servicing transfer
                                                                                                              11/16/2010       ($100,000)    $1,305,990,508   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011          ($1,173)   $1,305,989,335   Updated portfolio data from servicer
                                                                                                               2/16/2011       ($500,000)    $1,305,489,335   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011          ($1,400)   $1,305,487,935   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011       $3,100,000    $1,308,587,935   Transfer of cap due to servicing transfer
            American Home                           Financial
            Mortgage Servicing, Inc                 Instrument for                                             6/29/2011         ($12,883)   $1,308,575,052   Updated due to quarterly assessment and reallocation
7/22/2009                             Purchase                            $1,272,490,000 N/A                                                                                                                            $45,640,240   $122,754,916      $87,503,935      $255,899,091
            (Homeward Residential),                 Home Loan                                                  9/15/2011      ($1,000,000)   $1,307,575,052   Transfer of cap due to servicing transfer
            Coppell, TX                             Modifications
                                                                                                              10/14/2011       ($100,000)    $1,307,475,052   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011      ($1,100,000)   $1,306,375,052   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                               5/16/2012         ($10,000)   $1,306,365,052   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012          ($8,378)   $1,306,356,674   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012       ($470,000)    $1,305,886,674   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012         ($80,000)   $1,305,806,674   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012         ($22,494)   $1,305,784,180   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012       ($260,000)    $1,305,524,180   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012         ($30,000)   $1,305,494,180   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012         ($50,000)   $1,305,444,180   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012          ($3,676)   $1,305,440,504   Updated due to quarterly assessment and reallocation
                                                                                                               9/30/2009       $1,780,000        $5,990,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009       $2,840,000        $8,830,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010       $2,800,000      $11,630,000    Updated portfolio data from servicer
                                                                                                               7/14/2010      ($5,730,000)       $5,900,000   Updated portfolio data from servicer

                                                    Financial                                                  9/30/2010       $2,658,280        $8,558,280   Updated portfolio data from servicer
            Mortgage Center, LLC,                   Instrument for
7/22/2009                             Purchase                                $4,210,000 N/A                    1/6/2011             ($12)       $8,558,268   Updated portfolio data from servicer                         $90,482       $180,568          $200,246           $471,296
            Southfield, MI                          Home Loan
                                                    Modifications                                              3/30/2011             ($14)       $8,558,254   Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011            ($129)       $8,558,125   Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012             ($94)       $8,558,031   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012            ($256)       $8,557,775   Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012             ($43)       $8,557,732   Updated due to quarterly assessment and reallocation
                                                                                                               9/30/2009       ($490,000)         $370,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009       $6,750,000        $7,120,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010      ($6,340,000)        $780,000    Updated portfolio data from servicer

                                                    Financial                                                  7/14/2010       ($180,000)         $600,000    Updated portfolio data from servicer
            Mission Federal Credit                  Instrument for
7/22/2009                             Purchase                                 $860,000 N/A                    9/30/2010         $125,278         $725,278    Updated portfolio data from servicer                         $41,422       $116,627           $78,072           $236,120
            Union, San Diego, CA                    Home Loan
                                                    Modifications                                              3/30/2011              ($1)        $725,277    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011              ($4)        $725,273    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012              ($1)        $725,272    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012              ($1)        $725,271    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                             (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                                             Adjustment Details                                                                           TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                             Lenders/                           Total TARP
                                     Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                               Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives       Incentives          Payments
                                                                                                              9/30/2009      ($1,530,000)       $4,930,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009         $680,000        $5,610,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010       $2,460,000        $8,070,000   Updated portfolio data from servicer
                                                                                                              7/14/2010      ($2,470,000)       $5,600,000   Updated portfolio data from servicer

                                                   Financial                                                  9/30/2010       $2,523,114        $8,123,114   Updated portfolio data from servicer
            First Bank,                            Instrument for
7/29/2009                            Purchase                                $6,460,000 N/A                    1/6/2011              ($2)       $8,123,112   Updated portfolio data from servicer                       $617,119    $1,435,499      $1,119,399         $3,172,017
            St. Louis, MO                          Home Loan
                                                   Modifications                                              3/30/2011              ($2)       $8,123,110   Updated due to quarterly assessment and reallocation
                                                                                                              6/29/2011             ($15)       $8,123,095   Updated due to quarterly assessment and reallocation
                                                                                                              6/28/2012              ($3)       $8,123,092   Updated due to quarterly assessment and reallocation
                                                                                                              9/27/2012              ($5)       $8,123,087   Updated due to quarterly assessment and reallocation
                                                                                                             12/27/2012              ($1)       $8,123,086   Updated due to quarterly assessment and reallocation
                                                                                                              9/30/2009         ($60,000)       $1,030,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009       $1,260,000        $2,290,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010       $2,070,000        $4,360,000   Updated portfolio data from servicer
                                                                                                              7/14/2010      ($3,960,000)        $400,000    Updated portfolio data from servicer

                                                   Financial                                                  9/30/2010         $180,222         $580,222    Updated portfolio data from servicer
            Purdue Employees
                                                   Instrument for
7/29/2009   Federal Credit Union,    Purchase                                $1,090,000 N/A                    1/6/2011              ($1)        $580,221    Updated portfolio data from servicer                         $1,000         $795           $2,000             $3,795
                                                   Home Loan
            West Lafayette, IN
                                                   Modifications                                              3/30/2011              ($1)        $580,220    Updated due to quarterly assessment and reallocation
                                                                                                              6/29/2011              ($8)        $580,212    Updated due to quarterly assessment and reallocation
                                                                                                              6/28/2012              ($6)        $580,206    Updated due to quarterly assessment and reallocation
                                                                                                              9/27/2012             ($17)        $580,189    Updated due to quarterly assessment and reallocation
                                                                                                             12/27/2012              ($3)        $580,186    Updated due to quarterly assessment and reallocation
                                                                                                              9/30/2009     ($37,700,000)     $47,320,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009      $26,160,000      $73,480,000    Updated portfolio data from servicer & HAFA initial cap
                                                   Financial
            Wachovia Bank, N.A.,                   Instrument for                                             3/26/2010       $9,820,000      $83,300,000    Updated portfolio data from servicer
7/29/2009                            Purchase                               $85,020,000 N/A                                                                                                                                   $0           $0               $0                  $0
            Charlotte, NC                          Home Loan                                                  7/14/2010     ($46,200,000)     $37,100,000    Updated portfolio data from servicer
                                                   Modifications
                                                                                                              9/30/2010     ($28,686,775)       $8,413,225   Updated portfolio data from servicer
                                                                                                              12/3/2010      ($8,413,225)               $0   Termination of SPA
                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013
                                                                                                                                                                                                                                                                                      295
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                              (CONTINUED)                                                                                                                                                                                          296
            Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                                                TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                  Lenders/                           Total TARP
                                      Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                                 Borrower’s       Investors        Servicers           Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                       Incentives      Incentives       Incentives          Payments
                                                                                                               9/30/2009     ($14,850,000)   $2,684,870,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009    $1,178,180,000   $3,863,050,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010    $1,006,580,000   $4,869,630,000   Updated portfolio data from servicer & 2MP initial cap
                                                                                                               7/14/2010   ($1,934,230,000) $2,935,400,000    Updated portfolio data from servicer
                                                                                                                                                              Initial FHA-HAMP cap, Initial FHA-2LP cap, and initial
                                                                                                               9/30/2010      $72,400,000    $3,007,800,000
                                                                                                                                                              RD-HAMP
                                                                                                               9/30/2010     $215,625,536    $3,223,425,536   Updated portfolio data from servicer
                                                                                                                1/6/2011          ($3,636)   $3,223,421,900   Updated portfolio data from servicer
                                                                                                               3/16/2011        ($100,000)   $3,223,321,900   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011          ($3,999)   $3,223,317,901   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        ($200,000)   $3,223,117,901   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011     $122,700,000    $3,345,817,901   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011         ($34,606)   $3,345,783,295   Updated due to quarterly assessment and reallocation
                                                                                                               7/14/2011         $600,000    $3,346,383,295   Transfer of cap due to servicing transfer
                                                                                                               8/16/2011        ($400,000)   $3,345,983,295   Transfer of cap due to servicing transfer
                                                    Financial
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




            J.P. Morgan Chase Bank,                 Instrument for                                             9/15/2011        ($100,000)   $3,345,883,295   Transfer of cap due to servicing transfer
7/31/2009                             Purchase                            $2,699,720,000 N/A                                                                                                                            $197,875,457   $391,256,915     $280,474,527      $869,606,899
            NA, Lewisville, TX                      Home Loan
                                                    Modifications                                             10/14/2011         $200,000    $3,346,083,295   Transfer of cap due to servicing transfer
                                                                                                              10/19/2011     $519,211,309    $3,865,294,604   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011      ($2,800,000)   $3,862,494,604   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012        ($100,000)   $3,862,394,604   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012        ($100,000)   $3,862,294,604   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012    ($126,080,000)   $3,736,214,604   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012      ($1,620,000)   $3,734,594,604   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012         ($16,192)   $3,734,578,412   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012      ($2,300,000)   $3,732,278,412   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012         ($20,000)   $3,732,258,412   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012         ($37,341)   $3,732,221,071   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012      ($1,130,000)   $3,731,091,071   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012      ($3,770,000)   $3,727,321,071   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012        ($180,000)   $3,727,141,071   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012          ($4,535)   $3,727,136,536   Updated due to quarterly assessment and reallocation
                                                                                                               9/30/2009         ($10,000)    $707,370,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009     $502,430,000    $1,209,800,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010    ($134,560,000)   $1,075,240,000   Updated portfolio data from servicer & 2MP initial cap
                                                                                                               7/14/2010    ($392,140,000)    $683,100,000    Updated portfolio data from servicer
                                                                                                               7/16/2010        ($630,000)    $682,470,000    Transfer of cap to Saxon Mortgage Services, Inc.
                                                                                                               9/30/2010      $13,100,000     $695,570,000    Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                               9/30/2010      ($8,006,457)    $687,563,543    Updated portfolio data from servicer

                                                    Financial                                                 10/15/2010        ($100,000)    $687,463,543    Transfer of cap due to servicing transfer
            EMC Mortgage
                                                    Instrument for
7/31/2009   Corporation,              Purchase                             $707,380,000 N/A            14     12/15/2010      ($4,400,000)    $683,063,543    Updated portfolio data from servicer                        $7,569,459    $11,592,937      $16,279,383        $35,441,779
                                                    Home Loan
            Lewisville, TX
                                                    Modifications                                               1/6/2011            ($802)    $683,062,741    Updated portfolio data from servicer
                                                                                                               2/16/2011        ($900,000)    $682,162,741    Transfer of cap due to servicing transfer
                                                                                                               3/16/2011      ($4,000,000)    $678,162,741    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011            ($925)    $678,161,816    Updated due to quarterly assessment and reallocation
                                                                                                               5/13/2011    ($122,900,000)    $555,261,816    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011          ($8,728)    $555,253,088    Updated due to quarterly assessment and reallocation
                                                                                                               7/14/2011        ($600,000)    $554,653,088    Transfer of cap due to servicing transfer
                                                                                                              10/19/2011    ($519,211,309)     $35,441,779    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                              (CONTINUED)
           Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                                           TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                             Lenders/                           Total TARP
                                      Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                               Borrower’s    Investors        Servicers           Incentive
Date       Name of Institution        Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives       Incentives          Payments
                                                                                                               9/30/2009         $180,000         $600,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009       ($350,000)         $250,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010          $20,000         $270,000    Updated portfolio data from servicer

                                                    Financial                                                  7/14/2010         ($70,000)        $200,000    Updated portfolio data from servicer
           Lake City Bank,                          Instrument for
8/5/2009                              Purchase                                 $420,000 N/A                    9/30/2010          $90,111         $290,111    Updated portfolio data from servicer                         $4,244       $4,783          $13,635            $22,661
           Warsaw, IN                               Home Loan
                                                    Modifications                                              6/29/2011              ($3)        $290,108    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012              ($2)        $290,106    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012              ($7)        $290,099    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012              ($1)        $290,098    Updated due to quarterly assessment and reallocation
                                                                                                               9/30/2009         $290,000         $430,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009         $210,000         $640,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010         $170,000         $810,000    Updated portfolio data from servicer
                                                                                                               7/14/2010         ($10,000)        $800,000    Updated portfolio data from servicer
                                                    Financial
           Oakland Municipal Credit                 Instrument for                                             9/30/2010         ($74,722)        $725,278    Updated portfolio data from servicer
8/5/2009                              Purchase                                 $140,000 N/A            12                                                                                                                      $0       $3,568           $6,500            $10,068
           Union, Oakland, CA                       Home Loan                                                   1/6/2011              ($1)        $725,277    Updated portfolio data from servicer
                                                    Modifications
                                                                                                               3/30/2011              ($1)        $725,276    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011       ($200,000)         $525,276    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011              ($7)        $525,269    Updated due to quarterly assessment and reallocation
                                                                                                               7/22/2011       ($515,201)           $10,068   Termination of SPA
                                                                                                               9/30/2009   ($121,190,000)     $552,810,000    Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009     ($36,290,000)    $516,520,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010    $199,320,000      $715,840,000    Updated portfolio data from servicer
                                                                                                               7/14/2010   ($189,040,000)     $526,800,000    Updated portfolio data from servicer
                                                                                                               9/30/2010      $38,626,728     $565,426,728    Updated portfolio data from servicer
                                                                                                              10/15/2010   ($170,800,000)     $394,626,728    Transfer of cap due to servicing transfer
                                                                                                              12/15/2010     ($22,200,000)    $372,426,728    Updated portfolio data from servicer
                                                    Financial
           HomEq Servicing,                         Instrument for                                              1/6/2011            ($549)    $372,426,179    Updated portfolio data from servicer
8/5/2009                              Purchase                             $674,000,000 N/A                                                                                                                                    $0    $3,036,319      $5,272,500         $8,308,819
           North Highlands, CA                      Home Loan                                                  2/16/2011       ($900,000)     $371,526,179    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                               3/30/2011            ($653)    $371,525,526    Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011          ($6,168)    $371,519,358    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012          ($4,634)    $371,514,724    Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2012       ($430,000)     $371,084,724    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012         ($12,728)    $371,071,996    Updated due to quarterly assessment and reallocation
                                                                                                              12/14/2012         ($20,000)    $371,051,996    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012          ($2,148)    $371,049,848    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013
                                                                                                                                                                                                                                                                                       297
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                (CONTINUED)                                                                                                                                                                                     298
            Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                           TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                             Lenders/                           Total TARP
                                        Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                             Borrower’s      Investors        Servicers           Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives       Incentives          Payments
                                                                                                                                                                Updated portfolio data from servicer & HPDP initial
                                                                                                                 9/30/2009    $313,050,000     $1,087,950,000
                                                                                                                                                                cap
                                                                                                                                                                Updated portfolio data from servicer & HAFA initial
                                                                                                                12/30/2009    $275,370,000     $1,363,320,000
                                                                                                                                                                cap
                                                                                                                 3/26/2010    $278,910,000     $1,642,230,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010   ($474,730,000)    $1,167,500,000   Updated portfolio data from servicer
                                                                                                                 8/13/2010       ($700,000)    $1,166,800,000   Transfer of cap to due to servicing transfer
                                                                                                                 9/15/2010      ($1,000,000)   $1,165,800,000   Transfer of cap to due to servicing transfer
                                                                                                                 9/30/2010   ($115,017,236)    $1,050,782,764   Updated portfolio data from servicer
                                                                                                                10/15/2010       ($800,000)    $1,049,982,764   Transfer of cap due to servicing transfer
                                                                                                                12/15/2010        $800,000     $1,050,782,764   Updated portfolio data from servicer
                                                                                                                  1/6/2011          ($1,286)   $1,050,781,478   Updated portfolio data from servicer
                                                                                                                 3/16/2011       $8,800,000    $1,059,581,478   Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011          ($1,470)   $1,059,580,008   Updated due to quarterly assessment and reallocation
                                                      Financial
            Litton Loan Servicing LP,                 Instrument for                                             4/13/2011      ($3,300,000)   $1,056,280,008   Transfer of cap due to servicing transfer
8/12/2009                               Purchase                             $774,900,000 N/A                                                                                                                          $13,441,220   $35,353,126      $27,530,414        $76,324,760
            Houston, TX                               Home Loan
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                 5/13/2011       ($300,000)    $1,055,980,008   Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                 6/16/2011       ($700,000)    $1,055,280,008   Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011         ($13,097)   $1,055,266,911   Updated due to quarterly assessment and reallocation
                                                                                                                 7/14/2011       ($200,000)    $1,055,066,911   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011      ($2,900,000)   $1,052,166,911   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011       ($300,000)    $1,051,866,911   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011       ($500,000)    $1,051,366,911   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011      ($2,600,000)   $1,048,766,911   Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012   ($194,800,000)     $853,966,911    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012       ($400,000)     $853,566,911    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012          ($9,728)    $853,557,183    Updated due to quarterly assessment and reallocation
                                                                                                                 8/16/2012      ($7,990,000)    $845,567,183    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012         ($26,467)    $845,540,716    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012          ($4,466)    $845,536,250    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                                           TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                             Lenders/                           Total TARP
                                      Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                               Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives       Incentives          Payments
                                                                                                               9/30/2009      ($1,200,000)       $5,010,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                              12/30/2009      $30,800,000      $35,810,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010      $23,200,000      $59,010,000    Updated portfolio data from servicer
                                                                                                                                                              Transfer of cap from CitiMortgage, Inc. due to
                                                                                                               6/16/2010       $2,710,000      $61,720,000
                                                                                                                                                              servicing transfer
                                                                                                               7/14/2010     ($18,020,000)     $43,700,000    Updated portfolio data from servicer
                                                                                                                                                              Transfer of cap from CitiMortgage, Inc. due to
                                                                                                               7/16/2010       $6,680,000      $50,380,000
                                                                                                                                                              servicing transfer
                                                                                                               8/13/2010       $2,600,000      $52,980,000    Transfer of cap to due to servicing transfer
                                                                                                               9/15/2010       ($100,000)      $52,880,000    Transfer of cap to due to servicing transfer
                                                                                                               9/30/2010         $200,000      $53,080,000    Initial FHA-HAMP cap and 2MP initial cap
                                                                                                               9/30/2010      ($1,423,197)     $51,656,803    Updated portfolio data from servicer
                                                                                                              11/16/2010       $1,400,000      $53,056,803    Transfer of cap due to servicing transfer
                                                                                                              12/15/2010       ($100,000)      $52,956,803    Updated portfolio data from servicer
                                                                                                                1/6/2011             ($72)     $52,956,731    Updated portfolio data from servicer
                                                                                                               1/13/2011       $4,100,000      $57,056,731    Transfer of cap due to servicing transfer
                                                                                                               2/16/2011       ($100,000)      $56,956,731    Transfer of cap due to servicing transfer
                                                                                                               3/16/2011       $4,000,000      $60,956,731    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011             ($94)     $60,956,637    Updated due to quarterly assessment and reallocation
                                                    Financial
            PennyMac Loan Services,                 Instrument for                                             4/13/2011       ($100,000)      $60,856,637    Transfer of cap due to servicing transfer
8/12/2009                             Purchase                                $6,210,000 N/A                                                                                                                            $3,913,598   $6,624,112      $4,804,211        $15,341,921
            LLC, Calasbasa, CA                      Home Loan
                                                                                                               5/13/2011       $5,800,000      $66,656,637    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                               6/16/2011         $600,000      $67,256,637    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011            ($812)     $67,255,825    Updated due to quarterly assessment and reallocation
                                                                                                               7/14/2011       $2,500,000      $69,755,825    Transfer of cap due to servicing transfer
                                                                                                               9/15/2011       $2,800,000      $72,555,825    Transfer of cap due to servicing transfer
                                                                                                              10/14/2011         $300,000      $72,855,825    Transfer of cap due to servicing transfer
                                                                                                              11/16/2011         $900,000      $73,755,825    Transfer of cap due to servicing transfer
                                                                                                              12/15/2011         $800,000      $74,555,825    Transfer of cap due to servicing transfer
                                                                                                               1/13/2012         $200,000      $74,755,825    Transfer of cap due to servicing transfer
                                                                                                               3/15/2012       $1,900,000      $76,655,825    Transfer of cap due to servicing transfer
                                                                                                               4/16/2012         $200,000      $76,855,825    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012       $1,340,000      $78,195,825    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012            ($340)     $78,195,485    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012       $2,930,000      $81,125,485    Transfer of cap due to servicing transfer
                                                                                                               8/16/2012         $890,000      $82,015,485    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012            ($974)     $82,014,511    Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012       $1,800,000      $83,814,511    Transfer of cap due to servicing transfer
                                                                                                              12/14/2012       $3,860,000      $87,674,511    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012            ($154)     $87,674,357    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013
                                                                                                                                                                                                                                                                                       299
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                             (CONTINUED)                                                                                                                                                                                     300
            Servicer Modifying Borrowers’ Loans                                                                                             Adjustment Details                                                                           TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                             Lenders/                           Total TARP
                                     Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                               Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives       Incentives          Payments
                                                                                                              9/30/2009     ($25,510,000)       $4,220,000   Updated portfolio data from servicer & HPDP initial cap
                                                                                                             12/30/2009         $520,000        $4,740,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                              3/26/2010       $4,330,000        $9,070,000   Updated portfolio data from servicer
                                                                                                                                                             Transfer of cap from CitiMortgage, Inc. due to
                                                                                                              4/19/2010         $230,000        $9,300,000
                                                                                                                                                             servicing transfer
                                                                                                              5/19/2010         $850,000      $10,150,000    Initial 2MP cap
                                                                                                              7/14/2010       ($850,000)        $9,300,000   Updated portfolio data from servicer
                                                                                                              9/15/2010         $100,000        $9,400,000   Transfer of cap to due to servicing transfer
                                                                                                              9/30/2010         $100,000        $9,500,000   Initial FHA-HAMP cap
                                                                                                              9/30/2010      $16,755,064      $26,255,064    Updated portfolio data from servicer
                                                                                                             10/15/2010         $100,000      $26,355,064    Transfer of cap due to servicing transfer
                                                                                                             12/15/2010         $100,000      $26,455,064    Updated portfolio data from servicer
                                                                                                               1/6/2011             ($40)     $26,455,024    Updated portfolio data from servicer
                                                                                                              1/13/2011         $300,000      $26,755,024    Transfer of cap due to servicing transfer
                                                                                                              2/16/2011         $100,000      $26,855,024    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                              3/16/2011       $2,200,000      $29,055,024    Transfer of cap due to servicing transfer
                                                                                                              3/30/2011             ($52)     $29,054,972    Updated due to quarterly assessment and reallocation
                                                                                                              4/13/2011       $1,500,000      $30,554,972    Transfer of cap due to servicing transfer
                                                                                                              5/13/2011       $1,000,000      $31,554,972    Transfer of cap due to servicing transfer
                                                   Financial                                                  6/16/2011         $100,000      $31,654,972    Transfer of cap due to servicing transfer
            Servis One, Inc.,                      Instrument for
8/12/2009                            Purchase                               $29,730,000 N/A                                                                                                                             $285,248    $611,683          $390,981         $1,287,912
            Titusville, PA                         Home Loan                                                  6/29/2011            ($534)     $31,654,438    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                              8/16/2011         $700,000      $32,354,438    Transfer of cap due to servicing transfer
                                                                                                              9/15/2011       ($600,000)      $31,754,438    Transfer of cap due to servicing transfer
                                                                                                             10/14/2011       $4,000,000      $35,754,438    Transfer of cap due to servicing transfer
                                                                                                             11/16/2011         $600,000      $36,354,438    Transfer of cap due to servicing transfer
                                                                                                             12/15/2011         $200,000      $36,554,438    Transfer of cap due to servicing transfer
                                                                                                              1/13/2012         $100,000      $36,654,438    Transfer of cap due to servicing transfer
                                                                                                              2/16/2012       $1,300,000      $37,954,438    Transfer of cap due to servicing transfer
                                                                                                              3/15/2012       $1,100,000      $39,054,438    Transfer of cap due to servicing transfer
                                                                                                              4/16/2012         $800,000      $39,854,438    Transfer of cap due to servicing transfer
                                                                                                              5/16/2012      ($1,080,000)     $38,774,438    Transfer of cap due to servicing transfer
                                                                                                              6/14/2012       $1,560,000      $40,334,438    Transfer of cap due to servicing transfer
                                                                                                              6/28/2012            ($465)     $40,333,973    Updated due to quarterly assessment and reallocation
                                                                                                              7/16/2012               $0      $40,333,973    Transfer of cap due to servicing transfer
                                                                                                              8/16/2012          $70,000      $40,403,973    Transfer of cap due to servicing transfer
                                                                                                              9/27/2012          ($1,272)     $40,402,701    Updated due to quarterly assessment and reallocation
                                                                                                             10/16/2012       $2,100,000      $42,502,701    Transfer of cap due to servicing transfer
                                                                                                             11/15/2012       $1,340,000      $43,842,701    Transfer of cap due to servicing transfer
                                                                                                             12/14/2012       $1,160,000      $45,002,701    Transfer of cap due to servicing transfer
                                                                                                             12/27/2012            ($239)     $45,002,462    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                             Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                              (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                                               TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                 Lenders/                           Total TARP
                                      Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                                Borrower’s       Investors        Servicers           Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                      Incentives      Incentives       Incentives          Payments
                                                                                                               10/2/2009    $145,800,000      $814,240,000    HPDP initial cap
                                                                                                              12/30/2009   $1,355,930,000    $2,170,170,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010    $121,180,000     $2,291,350,000   Updated portfolio data from servicer
                                                                                                               7/14/2010   ($408,850,000)    $1,882,500,000   Updated portfolio data from servicer
                                                                                                               9/30/2010       $5,500,000    $1,888,000,000   2MP initial cap
                                                    Financial
            OneWest Bank,                           Instrument for                                             9/30/2010     ($51,741,163)   $1,836,258,837   Updated portfolio data from servicer
8/28/2009                             Purchase                             $668,440,000 N/A                                                                                                                             $38,066,337   $121,193,438      $61,471,211      $220,730,986
            Pasadena, CA                            Home Loan                                                   1/6/2011          ($2,282)   $1,836,256,555   Updated portfolio data from servicer
                                                    Modifications
                                                                                                               3/30/2011          ($2,674)   $1,836,253,881   Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011         ($24,616)   $1,836,229,265   Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012         ($15,481)   $1,836,213,784   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012         ($40,606)   $1,836,173,178   Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012          ($6,688)   $1,836,166,490   Updated due to quarterly assessment and reallocation
                                                                                                               10/2/2009          $70,000         $370,000    HPDP initial cap
                                                                                                              12/30/2009       $2,680,000        $3,050,000   Updated portfolio data from servicer & HAFA initial cap
                                                    Financial
            Stanford Federal Credit                 Instrument for                                             3/26/2010         $350,000        $3,400,000   Updated portfolio data from servicer
8/28/2009                             Purchase                                 $300,000 N/A                                                                                                                                     $0              $0               $0                  $0
            Union, Palo Alto, CA                    Home Loan                                                  7/14/2010      ($1,900,000)       $1,500,000   Updated portfolio data from servicer
                                                    Modifications
                                                                                                               9/30/2010      ($1,209,889)        $290,111    Updated portfolio data from servicer
                                                                                                               3/23/2010       ($290,111)                $0   Termination of SPA
                                                                                                               10/2/2009         $130,000         $700,000    HPDP initial cap
                                                                                                              12/30/2009       ($310,000)         $390,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010       $2,110,000        $2,500,000   Updated portfolio data from servicer
                                                                                                               7/14/2010       $8,300,000      $10,800,000    Updated portfolio data from servicer
                                                                                                               9/30/2010       $5,301,172      $16,101,172    Updated portfolio data from servicer
                                                                                                                1/6/2011             ($22)     $16,101,150    Updated portfolio data from servicer
                                                    Financial
            RoundPoint Mortgage                                                                                3/16/2011       ($400,000)      $15,701,150    Transfer of cap due to servicing transfer
                                                    Instrument for
8/28/2009   Servicing Corporation,    Purchase                                 $570,000 N/A                                                                                                                               $111,126       $298,973          $229,067           $639,167
                                                    Home Loan                                                  3/30/2011             ($25)     $15,701,125    Updated due to quarterly assessment and reallocation
            Charlotte, NC
                                                    Modifications
                                                                                                               4/13/2011               $0      $15,701,125    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011            ($232)     $15,700,893    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012            ($174)     $15,700,719    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012            ($479)     $15,700,240    Updated due to quarterly assessment and reallocation
                                                                                                              11/15/2012       ($350,000)      $15,350,240    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012             ($82)     $15,350,158    Updated due to quarterly assessment and reallocation
                                                                                                               10/2/2009         $130,000         $690,000    HPDP initial cap
                                                                                                              12/30/2009       $1,040,000        $1,730,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                               3/26/2010      ($1,680,000)          $50,000   Updated portfolio data from servicer
                                                                                                               5/12/2010       $1,260,000        $1,310,000   Updated portfolio data from servicer

                                                    Financial                                                  7/14/2010      ($1,110,000)        $200,000    Updated portfolio data from servicer
            Horicon Bank,                           Instrument for
9/2/2009                              Purchase                                 $560,000 N/A                    9/30/2010         $100,000         $300,000    Initial RD-HAMP                                               $4,348        $12,693            $9,170            $26,211
            Horicon, WI                             Home Loan
                                                    Modifications                                              9/30/2010          ($9,889)        $290,111    Updated portfolio data from servicer
                                                                                                               6/29/2011              ($3)        $290,108    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012              ($2)        $290,106    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012              ($7)        $290,099    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012              ($1)        $290,098    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           301
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                  (CONTINUED)                                                                                                                                                                                       302
              Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                             TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                               Lenders/                           Total TARP
                                          Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                               Borrower’s      Investors        Servicers           Incentive
Date          Name of Institution         Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                     Incentives     Incentives       Incentives          Payments
                                                                                                                   10/2/2009       $1,310,000        $7,310,000   HPDP initial cap
                                                                                                                  12/30/2009      ($3,390,000)       $3,920,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010         $410,000        $4,330,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($730,000)        $3,600,000   Updated portfolio data from servicer
                                                                                                                   9/15/2010       $4,700,000        $8,300,000   Transfer of cap due to servicing transfer
                                                                                                                   9/30/2010         $117,764        $8,417,764   Updated portfolio data from servicer
                                                                                                                  11/16/2010         $800,000        $9,217,764   Transfer of cap due to servicing transfer
                                                                                                                  12/15/2010       $2,700,000      $11,917,764    Updated portfolio data from servicer
                                                                                                                    1/6/2011             ($17)     $11,917,747    Updated portfolio data from servicer
                                                                                                                   1/13/2011         $700,000      $12,617,747    Transfer of cap due to servicing transfer
                                                        Financial
9/2/2009 as Vantium Capital, Inc.dba                                                                               2/16/2011       $1,800,000      $14,417,747    Transfer of cap due to servicing transfer
                                                        Instrument for
amended on Acqura Loan Services,          Purchase                                $6,000,000 N/A           10                                                                                                                $223,669      $457,867          $369,070         $1,050,606
                                                        Home Loan                                                  3/30/2011             ($19)     $14,417,728    Updated due to quarterly assessment and reallocation
8/27/2010   Plano, TX
                                                        Modifications
                                                                                                                   4/13/2011         $300,000      $14,717,728    Transfer of cap due to servicing transfer
                                                                                                                   6/29/2011            ($189)     $14,717,539    Updated due to quarterly assessment and reallocation
                                                                                                                   8/16/2011         $300,000      $15,017,539    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                   9/15/2011         $100,000      $15,117,539    Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011         $100,000      $15,217,539    Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012            ($147)     $15,217,392    Updated due to quarterly assessment and reallocation
                                                                                                                   7/16/2012         ($10,000)     $15,207,392    Transfer of cap due to servicing transfer
                                                                                                                   9/27/2012            ($413)     $15,206,979    Updated due to quarterly assessment and reallocation
                                                                                                                  11/15/2012         ($40,000)     $15,166,979    Transfer of cap due to servicing transfer
                                                                                                                  12/27/2012             ($71)     $15,166,908    Updated due to quarterly assessment and reallocation
                                                                                                                   10/2/2009         $280,000        $1,530,000   HPDP initial cap
                                                                                                                  12/30/2009       ($750,000)         $780,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010         $120,000         $900,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($300,000)         $600,000    Updated portfolio data from servicer

                                                        Financial                                                  9/30/2010         $270,334         $870,334    Updated portfolio data from servicer
              Central Florida Educators
                                                        Instrument for
9/9/2009      Federal Credit Union,       Purchase                                $1,250,000 N/A                    1/6/2011              ($1)        $870,333    Updated portfolio data from servicer                        $62,853      $116,795          $150,896           $330,543
                                                        Home Loan
              Lake May, FL
                                                        Modifications                                              3/30/2011              ($1)        $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011              ($5)        $870,327    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012          $21,717         $892,044    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012         $190,077        $1,082,121   Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012          $35,966        $1,118,087   Updated due to quarterly assessment and reallocation
                                                                                                                   10/2/2009      $24,920,000     $139,140,000    HPDP initial cap
                                                                                                                  12/30/2009      $49,410,000     $188,550,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010      $41,830,000     $230,380,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010     ($85,780,000)    $144,600,000    Updated portfolio data from servicer

              U.S. Bank National                        Financial                                                  9/30/2010      $36,574,444     $181,174,444    Updated portfolio data from servicer
              Association,                              Instrument for
9/9/2009                                  Purchase                             $114,220,000 N/A                     1/6/2011            ($160)    $181,174,284    Updated portfolio data from servicer                      $7,788,889   $20,845,162      $16,034,097        $44,668,149
              Owensboro, KY                             Home Loan
                                                        Modifications                                              3/30/2011            ($172)    $181,174,112    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011          ($1,431)    $181,172,681    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012            ($746)    $181,171,935    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012          ($1,926)    $181,170,009    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012            ($308)    $181,169,701    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                  (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                           TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                             Lenders/                           Total TARP
                                          Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                               Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives       Incentives          Payments
                                                                                                                   10/2/2009         $950,000        $5,300,000   HPDP initial cap
                                                                                                                  12/30/2009       $5,700,000      $11,000,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010         $740,000      $11,740,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010      ($1,440,000)     $10,300,000    Updated portfolio data from servicer

                                                        Financial                                                  9/30/2010      ($6,673,610)       $3,626,390   Updated portfolio data from servicer
            CUC Mortgage
                                                        Instrument for
9/9/2009    Corporation,                  Purchase                                $4,350,000 N/A                    1/6/2011              ($5)       $3,626,385   Updated portfolio data from servicer                        $37,826    $101,674           $76,458           $215,957
                                                        Home Loan
            Albany, NY
                                                        Modifications                                              3/30/2011              ($6)       $3,626,379   Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011             ($52)       $3,626,327   Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012             ($38)       $3,626,289   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012            ($107)       $3,626,182   Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012             ($18)       $3,626,164   Updated due to quarterly assessment and reallocation
                                                                                                                   10/2/2009         $460,000        $2,530,000   HPDP initial cap
                                                                                                                  12/30/2009       $2,730,000        $5,260,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010      $13,280,000      $18,540,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010     ($13,540,000)       $5,000,000   Updated portfolio data from servicer

                                                        Financial                                                  9/30/2010       $1,817,613        $6,817,613   Updated portfolio data from servicer
            ORNL Federal Credit Union,                  Instrument for
9/11/2009                                 Purchase                                $2,070,000 N/A                    1/6/2011             ($10)       $6,817,603   Updated portfolio data from servicer                         $7,951     $16,046           $21,451            $45,448
            Oak Ridge, TN                               Home Loan
                                                        Modifications                                              3/30/2011             ($12)       $6,817,591   Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011            ($115)       $6,817,476   Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012             ($86)       $6,817,390   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012            ($236)       $6,817,154   Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012             ($40)       $6,817,114   Updated due to quarterly assessment and reallocation
                                                                                                                   10/2/2009          $60,000         $310,000    HPDP initial cap
                                                                                                                  12/30/2009         ($80,000)        $230,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                   3/26/2010         $280,000         $510,000    Updated portfolio data from servicer
                                                        Financial
            Allstate Mortgage Loans                                                                                7/14/2010       ($410,000)         $100,000    Updated portfolio data from servicer
                                                        Instrument for
9/11/2009   & Investments, Inc.,          Purchase                                 $250,000 N/A                                                                                                                                $5,036       $8,302           $8,036            $21,373
                                                        Home Loan                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
            Ocala, FL
                                                        Modifications
                                                                                                                   6/29/2011              ($1)        $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012              ($1)        $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012              ($2)        $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                   10/2/2009          $70,000         $350,000    HPDP initial cap
                                                                                                                  12/30/2009         $620,000         $970,000    Updated portfolio data from servicer & HAFA initial cap

                                                        Financial                                                  3/26/2010         $100,000        $1,070,000   Updated portfolio data from servicer
            Metropolitan National Bank,
                                                        Instrument for
9/11/2009   Little Rock, AR               Purchase                                 $280,000 N/A                    7/14/2010       ($670,000)         $400,000    Updated portfolio data from servicer                             $0           $0               $0                  $0
                                                        Home Loan
                                                        Modifications                                              9/30/2010          $35,167         $435,167    Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($1)        $435,166    Updated portfolio data from servicer
                                                                                                                   1/26/2011       ($435,166)                $0   Termination of SPA
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013
                                                                                                                                                                                                                                                                                           303
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                (CONTINUED)                                                                                                                                                                                     304
            Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                           TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                             Lenders/                           Total TARP
                                        Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                               Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives       Incentives          Payments
                                                                                                                 10/2/2009       $6,010,000      $33,520,000    HPDP initial cap
                                                                                                                12/30/2009     ($19,750,000)     $13,770,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010      ($4,780,000)       $8,990,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010      ($2,390,000)       $6,600,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010       $2,973,670        $9,573,670   Updated portfolio data from servicer

                                                      Financial                                                   1/6/2011              ($3)       $9,573,667   Updated portfolio data from servicer
            Franklin Credit
                                                      Instrument for
9/11/2009   Management Corporation,     Purchase                               $27,510,000 N/A                   2/16/2011      ($1,800,000)       $7,773,667   Transfer of cap due to servicing transfer                  $277,513    $567,892          $660,320         $1,505,725
                                                      Home Loan
            Jersey City, NJ
                                                      Modifications                                              3/30/2011              ($6)       $7,773,661   Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011             ($61)       $7,773,600   Updated due to quarterly assessment and reallocation
                                                                                                                10/14/2011       ($100,000)        $7,673,600   Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012             ($58)       $7,673,542   Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012            ($164)       $7,673,378   Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012             ($29)       $7,673,349   Updated due to quarterly assessment and reallocation
                                                                                                                 10/2/2009          $90,000         $500,000    HPDP initial cap
                                                                                                                12/30/2009       $1,460,000        $1,960,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                 3/26/2010         $160,000        $2,120,000   Updated portfolio data from servicer

                                                      Financial                                                  7/14/2010       ($120,000)        $2,000,000   Updated portfolio data from servicer
            Bay Federal Credit Union,                 Instrument for
9/16/2009                               Purchase                                 $410,000 N/A                    9/30/2010      ($1,419,778)        $580,222    Updated portfolio data from servicer                             $0           $0               $0                  $0
            Capitola, CA                              Home Loan
                                                      Modifications                                               1/6/2011              ($1)        $580,221    Updated portfolio data from servicer
                                                                                                                 3/30/2011              ($1)        $580,220    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011              ($8)        $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                 1/25/2012       ($580,212)                $0   Termination of SPA
                                                                                                                 10/2/2009         $960,000        $5,350,000   HPDP initial cap
                                                                                                                12/30/2009      ($3,090,000)       $2,260,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010         $230,000        $2,490,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010       $5,310,000        $7,800,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010         $323,114        $8,123,114   Updated portfolio data from servicer
                                                                                                                  1/6/2011             ($12)       $8,123,102   Updated portfolio data from servicer
                                                                                                                 3/16/2011         $600,000        $8,723,102   Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011             ($16)       $8,723,086   Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011         $200,000        $8,923,086   Transfer of cap due to servicing transfer

                                                      Financial                                                  5/13/2011         $100,000        $9,023,086   Transfer of cap due to servicing transfer
            AMS Servicing, LLC,                       Instrument for
9/23/2009                               Purchase                                $4,390,000 N/A                   6/29/2011            ($153)       $9,022,933   Updated due to quarterly assessment and reallocation         $2,833     $28,487           $29,000            $60,320
            Buffalo, NY                               Home Loan
                                                      Modifications                                              9/15/2011         $100,000        $9,122,933   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011         $100,000        $9,222,933   Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012       $1,100,000      $10,322,933    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012         $650,000      $10,972,933    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012            ($136)     $10,972,797    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012            ($347)     $10,972,450    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012         $250,000      $11,222,450    Transfer of cap due to servicing transfer
                                                                                                                11/15/2012          $30,000      $11,252,450    Transfer of cap due to servicing transfer
                                                                                                                12/14/2012         ($10,000)     $11,242,450    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012             ($59)     $11,242,391    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                           TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                             Lenders/                           Total TARP
                                        Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                               Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                     Incentives   Incentives       Incentives          Payments
                                                                                                                 10/2/2009          $90,000         $480,000    HPDP initial cap
                                                                                                                12/30/2009        $940,000         $1,420,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010       ($980,000)         $440,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($140,000)         $300,000    Updated portfolio data from servicer

                                                      Financial                                                  9/30/2010       $1,150,556        $1,450,556   Updated portfolio data from servicer
            Schools Financial Credit                  Instrument for
9/23/2009                               Purchase                                 $390,000 N/A                     1/6/2011              ($2)       $1,450,554   Updated portfolio data from servicer                        $13,833     $43,568           $27,500            $84,901
            Union, Sacramento, CA                     Home Loan
                                                      Modifications                                              3/30/2011              ($2)       $1,450,552   Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011             ($22)       $1,450,530   Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012             ($16)       $1,450,514   Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012             ($44)       $1,450,470   Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012              ($7)       $1,450,463   Updated due to quarterly assessment and reallocation
                                                                                                                 10/2/2009          $60,000         $290,000    HPDP initial cap
                                                                                                                12/30/2009         ($10,000)        $280,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010        $130,000          $410,000    Updated portfolio data from servicer

                                                      Financial                                                  7/14/2010       ($110,000)         $300,000    Updated portfolio data from servicer
            Glass City Federal Credit                 Instrument for
9/23/2009                               Purchase                                 $230,000 N/A                    9/30/2010          ($9,889)        $290,111    Updated portfolio data from servicer                         $4,000       $2,360           $6,000            $12,360
            Union, Maumee, OH                         Home Loan
                                                      Modifications                                              6/29/2011              ($3)        $290,108    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012              ($2)        $290,106    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012              ($7)        $290,099    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012              ($1)        $290,098    Updated due to quarterly assessment and reallocation
                                                                                                                 10/2/2009          $10,000           $40,000   HPDP initial cap
                                                                                                                12/30/2009        $120,000          $160,000    Updated portfolio data from servicer & HAFA initial cap
                                                      Financial
            Central Jersey Federal                                                                               3/26/2010          $10,000         $170,000    Updated portfolio data from servicer
                                                      Instrument for
9/23/2009   Credit Union,               Purchase                                   30,000 N/A                                                                                                                                    $0           $0               $0                  $0
                                                      Home Loan                                                  7/14/2010         ($70,000)        $100,000    Updated portfolio data from servicer
            Woodbridge, NJ
                                                      Modifications
                                                                                                                 9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
                                                                                                                10/29/2010       ($145,056)                $0   Termination of SPA
                                                                                                                 10/2/2009          $60,000         $300,000    HPDP initial cap
                                                                                                                12/30/2009        $350,000          $650,000    Updated portfolio data from servicer & HAFA initial cap
                                                                                                                 3/26/2010       $1,360,000        $2,010,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010      ($1,810,000)        $200,000    Updated portfolio data from servicer
                                                      Financial
            Yadkin Valley Bank,                       Instrument for                                             9/30/2010        $235,167          $435,167    Updated portfolio data from servicer
9/23/2009                               Purchase                                 $240,000 N/A                                                                                                                               $17,580     $20,018           $36,430            $74,028
            Elkin, NC                                 Home Loan                                                   1/6/2011              ($1)        $435,166    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                 6/29/2011              ($4)        $435,162    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012              ($3)        $435,159    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012              ($7)        $435,152    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012              ($1)        $435,151    Updated due to quarterly assessment and reallocation
                                                                                                                 10/2/2009        $100,000          $540,000    HPDP initial cap
                                                                                                                12/30/2009          $20,000         $560,000    Updated portfolio data from servicer & HAFA initial cap

                                                      Financial                                                  3/26/2010       ($290,000)         $270,000    Updated portfolio data from servicer
                                                      Instrument for
9/25/2009   SEFCU, Albany, NY           Purchase                                 $440,000 N/A                    7/14/2010         ($70,000)        $200,000    Updated portfolio data from servicer                             $0           $0               $0                  $0
                                                      Home Loan
                                                      Modifications                                              9/30/2010         ($54,944)        $145,056    Updated portfolio data from servicer
                                                                                                                 6/29/2011                          $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                 4/11/2012       ($145,055)                $0   Termination of SPA
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         305
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                 (CONTINUED)                                                                                                                                                                                       306
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                             TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                               Lenders/                           Total TARP
                                         Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                               Borrower’s      Investors        Servicers           Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                     Incentives     Incentives       Incentives          Payments
                                                                                                                 12/30/2009       $1,030,000        $1,600,000   Updated portfolio data from servicer & HAFA initial cap
                                                                                                                  3/26/2010       ($880,000)         $720,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($320,000)         $400,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010         $180,222         $580,222    Updated portfolio data from servicer
                                                       Financial
             Great Lakes Credit Union,                 Instrument for                                              1/6/2011              ($1)        $580,221    Updated portfolio data from servicer
10/14/2009                               Purchase                                 $570,000 N/A                                                                                                                                $6,917       $12,165           $10,100            $29,182
             North Chicago, IL                         Home Loan                                                  3/30/2011              ($1)        $580,220    Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                  6/29/2011              ($8)        $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012              ($6)        $580,206    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012             ($17)        $580,189    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012              ($3)        $580,186    Updated due to quarterly assessment and reallocation
                                                                                                                 12/30/2009      ($2,900,000)       $1,960,000   Updated portfolio data from servicer & HAFA initial cap

                                                       Financial                                                  3/26/2010      ($1,600,000)        $360,000    Updated portfolio data from servicer
             Mortgage Clearing                         Instrument for
10/14/2009                               Purchase                                $4,860,000 N/A                   7/14/2010       ($260,000)         $100,000    Updated portfolio data from servicer                             $0             $0               $0                  $0
             Corporation, Tulsa, OK                    Home Loan
                                                       Modifications                                              9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
                                                                                                                   3/9/2011       ($145,056)                $0   Termination of SPA
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                  1/22/2010          $20,000         $430,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010         $400,000         $830,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($430,000)         $400,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010         $180,222         $580,222    Updated portfolio data from servicer
                                                       Financial
             United Bank Mortgage                                                                                  1/6/2011              ($1)        $580,221    Updated portfolio data from servicer
                                                       Instrument for
10/21/2009   Corporation,                Purchase                                 $410,000 N/A                                                                                                                               $27,762       $54,802           $50,350           $132,914
                                                       Home Loan                                                  3/30/2011              ($1)        $580,220    Updated due to quarterly assessment and reallocation
             Grand Rapids, MI
                                                       Modifications
                                                                                                                  6/29/2011              ($5)        $580,215    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012              ($4)        $580,211    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012             ($11)        $580,200    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012              ($2)        $580,198    Updated due to quarterly assessment and reallocation
                                                                                                                  1/22/2010       $4,370,000      $98,030,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010      $23,880,000     $121,910,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($16,610,000)    $105,300,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010       $1,751,033     $107,051,033    Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($77)    $107,050,956    Updated portfolio data from servicer
                                                       Financial
             Bank United,                              Instrument for                                             3/16/2011      ($9,900,000)     $97,150,956    Transfer of cap due to servicing transfer
10/23/2009                               Purchase                               $93,660,000 N/A                                                                                                                            $5,336,021   $13,846,939       $8,896,290        $28,079,250
             Miami Lakes, FL                           Home Loan                                                  3/30/2011             ($88)     $97,150,868    Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                  6/29/2011            ($773)     $97,150,095    Updated due to quarterly assessment and reallocation
                                                                                                                  3/15/2012      ($1,400,000)     $95,750,095    Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012            ($277)     $95,749,818    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012            ($549)     $95,749,269    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012             ($65)     $95,749,204    Updated due to quarterly assessment and reallocation
                                                                                                                  1/22/2010          $40,000         $800,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010       ($760,000)           $40,000   Updated portfolio data from servicer
                                                                                                                  5/12/2010       $2,630,000        $2,670,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($770,000)        $1,900,000   Updated portfolio data from servicer

                                                       Financial                                                  9/30/2010         $565,945        $2,465,945   Updated portfolio data from servicer
             IC Federal Credit Union,                  Instrument for
10/23/2009                               Purchase                                 $760,000 N/A                     1/6/2011              ($4)       $2,465,941   Updated portfolio data from servicer                        $12,417       $28,054           $24,000            $64,471
             Fitchburg, MA                             Home Loan
                                                       Modifications                                              3/30/2011              ($4)       $2,465,937   Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011             ($40)       $2,465,897   Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012             ($29)       $2,465,868   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012             ($80)       $2,465,788   Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012             ($14)       $2,465,774   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                 (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                          Lenders/                           Total TARP
                                         Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                            Borrower’s    Investors        Servicers           Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments
                                                       Financial
             Harleysville National
                                                       Instrument for
10/28/2009   Bank & Trust Company,       Purchase                                $1,070,000 N/A                   4/21/2010      ($1,070,000)               $0   Termination of SPA                                            $0           $0               $0                  $0
                                                       Home Loan
             Harleysville, PA
                                                       Modifications
                                                       Financial
             Members Mortgage                          Instrument for
10/28/2009                               Purchase                                 $510,000 N/A                    4/21/2010       ($510,000)                $0   Termination of SPA                                            $0           $0               $0                  $0
             Company, Inc, Woburn, MA                  Home Loan
                                                       Modifications
                                                                                                                  1/22/2010          $10,000           $80,000   Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010          $10,000           $90,000   Updated portfolio data from servicer
                                                       Financial
             DuPage Credit Union,                      Instrument for                                             7/14/2010          $10,000         $100,000    Updated portfolio data from servicer
10/30/2009                               Purchase                                  $70,000 N/A                                                                                                                             $4,514     $21,701            $9,814            $36,029
             Naperville, IL                            Home Loan                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                  6/29/2011              ($1)        $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012              ($1)        $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                  1/22/2010          $40,000         $740,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010          $50,000         $790,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010       $1,310,000        $2,100,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010          $75,834        $2,175,834   Updated portfolio data from servicer
                                                       Financial
             Los Alamos National Bank,                 Instrument for                                              1/6/2011              ($3)       $2,175,831   Updated portfolio data from servicer
11/6/2009                                Purchase                                 $700,000 N/A                                                                                                                            $13,638     $22,501           $28,751            $64,889
             Los Alamos, NM                            Home Loan                                                  3/30/2011              ($4)       $2,175,827   Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                  6/29/2011             ($35)       $2,175,792   Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012             ($26)       $2,175,766   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012             ($70)       $2,175,696   Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012             ($12)       $2,175,684   Updated due to quarterly assessment and reallocation
                                                                                                                  1/22/2010        $890,000       $19,850,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010       $3,840,000      $23,690,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($2,890,000)     $20,800,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010       $9,661,676      $30,461,676    Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($46)     $30,461,630    Updated portfolio data from servicer
                                                                                                                  1/13/2011       $1,600,000      $32,061,630    Transfer of cap due to servicing transfer
                                                                                                                  2/16/2011       $1,400,000      $33,461,630    Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011             ($58)     $33,461,572    Updated due to quarterly assessment and reallocation
                                                                                                                  4/13/2011        $100,000       $33,561,572    Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011        $100,000       $33,661,572    Transfer of cap due to servicing transfer
                                                       Financial
             Quantum Servicing                         Instrument for                                             6/16/2011        $800,000       $34,461,572    Transfer of cap due to servicing transfer
11/18/2009                               Purchase                               $18,960,000 N/A                                                                                                                          $134,393    $335,508          $183,984           $653,885
             Corporation, Tampa, FL                    Home Loan                                                  6/29/2011            ($559)     $34,461,013    Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                  7/14/2011        $300,000       $34,761,013    Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011        $200,000       $34,961,013    Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011        $100,000       $35,061,013    Transfer of cap due to servicing transfer
                                                                                                                  1/13/2012        $100,000       $35,161,013    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012        $330,000       $35,491,013    Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012            ($428)     $35,490,585    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012          ($1,184)     $35,489,401    Updated due to quarterly assessment and reallocation
                                                                                                                 10/16/2012      ($1,910,000)     $33,579,401    Transfer of cap due to servicing transfer
                                                                                                                 11/15/2012       ($980,000)      $32,599,401    Transfer of cap due to servicing transfer
                                                                                                                 12/27/2012            ($187)     $32,599,214    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                       307
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                 (CONTINUED)                                                                                                                                                                                  308
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                          Lenders/                           Total TARP
                                         Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                            Borrower’s    Investors        Servicers           Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments
                                                                                                                  1/22/2010          $80,000        $1,750,000   Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010         $330,000        $2,080,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($1,080,000)       $1,000,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010         $160,445        $1,160,445   Updated portfolio data from servicer
                                                       Financial
             Hillsdale County National                 Instrument for                                              1/6/2011              ($1)       $1,160,444   Updated portfolio data from servicer
11/18/2009                               Purchase                                $1,670,000 N/A                                                                                                                           $18,110     $28,011           $40,529            $86,650
             Bank, Hillsdale, MI                       Home Loan                                                  3/30/2011              ($2)       $1,160,442   Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                  6/29/2011             ($16)       $1,160,426   Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012             ($12)       $1,160,414   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012             ($33)       $1,160,381   Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012              ($6)       $1,160,375   Updated due to quarterly assessment and reallocation
                                                                                                                  1/22/2010               $0           $20,000   Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010         ($10,000)          $10,000   Updated portfolio data from servicer

                                                       Financial                                                  7/14/2010          $90,000         $100,000    Updated portfolio data from servicer
             QLending, Inc.,                           Instrument for
11/18/2009                               Purchase                                  $20,000 N/A                    9/30/2010          $45,056         $145,056    Updated portfolio data from servicer                          $0           $0               $0                  $0
             Coral Gables, FL                          Home Loan
                                                       Modifications                                              6/29/2011              ($1)        $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                  6/28/2012              ($1)        $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012              ($2)        $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                  1/22/2010         $950,000      $21,310,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010     ($17,880,000)       $3,430,000   Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                  6/16/2010       $1,030,000        $4,460,000
                                                                                                                                                                 servicing transfer
                                                                                                                  7/14/2010      ($1,160,000)       $3,300,000   Updated portfolio data from servicer
                                                                                                                  8/13/2010         $800,000        $4,100,000   Transfer of cap due to servicing transfer
                                                                                                                  9/30/2010         $200,000        $4,300,000   Initial FHA-HAMP cap and initial RD-HAMP
                                                                                                                  9/30/2010       $1,357,168        $5,657,168   Updated portfolio data from servicer
                                                                                                                   1/6/2011              ($1)       $5,657,167   Updated portfolio data from servicer
                                                                                                                  3/16/2011       $5,700,000      $11,357,167    Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011              ($6)     $11,357,161    Updated due to quarterly assessment and reallocation
                                                                                                                  4/13/2011       $7,300,000      $18,657,161    Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011         $300,000      $18,957,161    Transfer of cap due to servicing transfer
                                                       Financial
             Marix Servicing, LLC,                     Instrument for                                             6/16/2011         $900,000      $19,857,161    Transfer of cap due to servicing transfer
11/25/2009                               Purchase                               $20,360,000 N/A                                                                                                                          $352,196    $970,197          $839,633         $2,162,025
             Phoenix, AZ                               Home Loan
                                                       Modifications                                              6/29/2011            ($154)     $19,857,007    Updated due to quarterly assessment and reallocation
                                                                                                                  7/14/2011         $100,000      $19,957,007    Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011         $300,000      $20,257,007    Transfer of cap due to servicing transfer
                                                                                                                  1/13/2012      ($1,500,000)     $18,757,007    Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012      ($2,100,000)     $16,657,007    Transfer of cap due to servicing transfer
                                                                                                                  4/16/2012      ($1,300,000)     $15,357,007    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012      ($8,350,000)       $7,007,007   Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012             ($38)       $7,006,969   Updated due to quarterly assessment and reallocation
                                                                                                                  8/16/2012         ($90,000)       $6,916,969   Transfer of cap due to servicing transfer
                                                                                                                  9/27/2012            ($103)       $6,916,866   Updated due to quarterly assessment and reallocation
                                                                                                                 10/16/2012      ($1,020,000)       $5,896,866   Transfer of cap due to servicing transfer
                                                                                                                 11/15/2012         $170,000        $6,066,866   Transfer of cap due to servicing transfer
                                                                                                                 12/27/2012             ($15)       $6,066,851   Updated due to quarterly assessment and reallocation
                                                       Financial
             Home Financing Center,                    Instrument for
11/25/2009                               Purchase                                 $230,000 N/A                    4/21/2010       ($230,000)                $0   Termination of SPA                                            $0           $0               $0                  $0
             Inc, Coral Gables FL                      Home Loan
                                                       Modifications
                                                                                                                                                                                                                                                              Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                   (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                        TARP Incentive Payments
                                                                               Cap of Incentive
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                          Lenders/                           Total TARP
                                           Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                            Borrower’s    Investors        Servicers           Incentive
Date         Name of Institution           Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments
                                                                                                                    1/22/2010          $50,000        $1,330,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010       $1,020,000        $2,350,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($950,000)        $1,400,000   Updated portfolio data from servicer

                                                         Financial                                                  9/30/2010          $50,556        $1,450,556   Updated portfolio data from servicer
             First Keystone Bank,                        Instrument for
11/25/2009                                 Purchase                                $1,280,000 N/A           12       1/6/2011              ($2)       $1,450,554   Updated portfolio data from servicer                      $2,776       $3,423           $8,718            $14,917
             Media, PA                                   Home Loan
                                                         Modifications                                              3/30/2011              ($2)       $1,450,552   Updated due to quarterly assessment and reallocation
                                                                                                                    6/16/2011       ($100,000)        $1,350,552   Transfer of cap due to servicing transfer
                                                                                                                    6/29/2011             ($21)       $1,350,531   Updated due to quarterly assessment and reallocation
                                                                                                                    7/22/2011      ($1,335,614)          $14,917   Termination of SPA
                                                                                                                    1/22/2010          $10,000         $390,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010         $520,000         $910,000    Updated portfolio data from servicer

                                                         Financial                                                  7/14/2010       ($810,000)         $100,000    Updated portfolio data from servicer
             Community Bank &
                                                         Instrument for
12/4/2009    Trust Company, Clarks         Purchase                                 $380,000 N/A                    9/30/2010          $45,056         $145,056    Updated portfolio data from servicer                          $0           $0               $0                  $0
                                                         Home Loan
             Summit, PA
                                                         Modifications                                              6/29/2011              ($1)        $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                    6/28/2012              ($1)        $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012              ($2)        $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                    1/22/2010         $440,000        $9,870,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010      $14,480,000      $24,350,000    Updated portfolio data from servicer
                                                                                                                    5/26/2010     ($24,200,000)        $150,000    Updated portfolio data from servicer

                                                         Financial                                                  7/14/2010         $150,000         $300,000    Updated portfolio data from servicer
             Idaho Housing and Finance                   Instrument for
12/4/2009                                  Purchase                                $9,430,000 N/A                   9/30/2010          ($9,889)        $290,111    Updated portfolio data from servicer                     $15,489     $16,527           $22,739            $54,755
             Association, Boise, ID                      Home Loan
                                                         Modifications                                              6/29/2011              ($3)        $290,108    Updated due to quarterly assessment and reallocation
                                                                                                                    6/28/2012              ($2)        $290,106    Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012              ($6)        $290,100    Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012              ($1)        $290,099    Updated due to quarterly assessment and reallocation
                                                                                                                    1/22/2010          $10,000         $370,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010         $850,000        $1,220,000   Updated portfolio data from servicer

                                                         Financial                                                  7/14/2010       ($120,000)        $1,100,000   Updated portfolio data from servicer
             Spirit of Alaska Federal                    Instrument for
12/9/2009                                  Purchase                                 $360,000 N/A                    9/30/2010         $100,000        $1,200,000   Initial FHA-HAMP cap                                          $0           $0               $0                  $0
             Credit Union, Fairbanks, AK                 Home Loan
                                                         Modifications                                              9/30/2010         $105,500        $1,305,500   Updated portfolio data from servicer
                                                                                                                     1/6/2011              ($2)       $1,305,498   Updated portfolio data from servicer
                                                                                                                    2/17/2011      ($1,305,498)               $0   Termination of SPA
                                                                                                                    1/22/2010          $70,000        $1,660,000   Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010       ($290,000)        $1,370,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($570,000)         $800,000    Updated portfolio data from servicer
                                                         Financial
             American Eagle Federal                                                                                 9/30/2010          $70,334         $870,334    Updated portfolio data from servicer
                                                         Instrument for
12/9/2009    Credit Union, East            Purchase                                $1,590,000 N/A                                                                                                                                $0           $0               $0                  $0
                                                         Home Loan                                                   1/6/2011              ($1)        $870,333    Updated portfolio data from servicer
             Hartford, CT
                                                         Modifications
                                                                                                                    3/30/2011              ($1)        $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                    6/29/2011             ($13)        $870,319    Updated due to quarterly assessment and reallocation
                                                                                                                    1/25/2012       ($870,319)                $0   Termination of SPA
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013
                                                                                                                                                                                                                                                                                         309
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                  (CONTINUED)                                                                                                                                                                                  310
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                        TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                          Lenders/                           Total TARP
                                          Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                            Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments
                                                                                                                   1/22/2010          $90,000        $1,970,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010       $1,110,000        $3,080,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010      ($1,180,000)       $1,900,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010        $275,834         $2,175,834   Updated portfolio data from servicer
                                                        Financial
            Silver State Schools Credit                 Instrument for                                              1/6/2011              ($2)       $2,175,832   Updated portfolio data from servicer
12/9/2009                                 Purchase                                $1,880,000 N/A                                                                                                                           $40,356    $174,377           $69,189           $283,921
            Union, Las Vegas, NV                        Home Loan                                                  3/30/2011              ($3)       $2,175,829   Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                   6/29/2011             ($26)       $2,175,803   Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012             ($21)       $2,175,782   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012             ($57)       $2,175,725   Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012             ($10)       $2,175,715   Updated due to quarterly assessment and reallocation
                                                                                                                   1/22/2010        $140,000         $3,080,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010       $6,300,000        $9,380,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010      ($1,980,000)       $7,400,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010      ($6,384,611)       $1,015,389   Updated portfolio data from servicer
                                                        Financial
            Fidelity Homestead                                                                                      1/6/2011              ($1)       $1,015,388   Updated portfolio data from servicer
                                                        Instrument for
                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




12/9/2009   Savings Bank, New             Purchase                                $2,940,000 N/A                                                                                                                                $0           $0               $0                  $0
                                                        Home Loan                                                  3/30/2011              ($2)       $1,015,386   Updated due to quarterly assessment and reallocation
            Orleans, LA
                                                        Modifications
                                                                                                                   6/29/2011             ($16)       $1,015,370   Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012             ($12)       $1,015,358   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012             ($32)       $1,015,326   Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012              ($5)       $1,015,321   Updated due to quarterly assessment and reallocation
                                                                                                                   1/22/2010          $10,000         $240,000    Updated HPDP cap & HAFA initial cap

                                                        Financial                                                  3/26/2010        $440,000          $680,000    Updated portfolio data from servicer
            Bay Gulf Credit Union,                      Instrument for
12/9/2009                                 Purchase                                 $230,000 N/A                    7/14/2010         ($80,000)        $600,000    Updated portfolio data from servicer                          $0           $0               $0                  $0
            Tampa, FL                                   Home Loan
                                                        Modifications                                              9/30/2010         ($19,778)        $580,222    Updated portfolio data from servicer
                                                                                                                  10/15/2010       ($580,222)                $0   Termination of SPA
                                                                                                                   1/22/2010        $290,000         $6,450,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010          $40,000        $6,490,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010      ($2,890,000)       $3,600,000   Updated portfolio data from servicer
                                                                                                                   9/30/2010        $606,612         $4,206,612   Updated portfolio data from servicer
                                                        Financial
            The Golden 1 Credit Union,                  Instrument for                                              1/6/2011              ($4)       $4,206,608   Updated portfolio data from servicer
12/9/2009                                 Purchase                                $6,160,000 N/A                                                                                                                          $159,833    $592,253          $373,664         $1,125,750
            Sacramento, CA                              Home Loan                                                  3/30/2011              ($4)       $4,206,604   Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                   6/29/2011             ($35)       $4,206,569   Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012              ($9)       $4,206,560   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012             ($14)       $4,206,546   Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012              ($2)       $4,206,544   Updated due to quarterly assessment and reallocation
                                                                                                                   1/22/2010        $100,000         $2,350,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010       ($740,000)        $1,610,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($710,000)         $900,000    Updated portfolio data from servicer

                                                        Financial                                                  9/30/2010        $550,556         $1,450,556   Updated portfolio data from servicer
            Sterling Savings Bank,                      Instrument for
12/9/2009                                 Purchase                                $2,250,000 N/A                    1/6/2011              ($1)       $1,450,555   Updated portfolio data from servicer                     $83,595    $207,073          $173,160           $463,828
            Spokane, WA                                 Home Loan
                                                        Modifications                                              3/30/2011              ($1)       $1,450,554   Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011             ($11)       $1,450,543   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012          $30,907        $1,481,450   Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012          $58,688        $1,540,138   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                               Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                   (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                        TARP Incentive Payments
                                                                               Cap of Incentive
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                          Lenders/                           Total TARP
                                           Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                            Borrower’s    Investors        Servicers           Incentive
Date         Name of Institution           Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments
                                                                                                                    1/22/2010          $20,000         $330,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $820,000         $1,150,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($350,000)         $800,000    Updated portfolio data from servicer

                                                         Financial                                                  9/30/2010          $70,334         $870,334    Updated portfolio data from servicer
             HomeStar Bank & Financial                   Instrument for
12/11/2009                                 Purchase                                 $310,000 N/A            12       1/6/2011              ($1)        $870,333    Updated portfolio data from servicer                      $1,917       $5,573           $5,833            $13,323
             Services, Manteno, IL                       Home Loan
                                                         Modifications                                              3/30/2011              ($1)        $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                    6/29/2011             ($13)        $870,319    Updated due to quarterly assessment and reallocation
                                                                                                                    6/28/2012             ($10)        $870,309    Updated due to quarterly assessment and reallocation
                                                                                                                     7/6/2012       ($856,986)           $13,323   Termination of SPA

                                                         Financial                                                  1/22/2010          $20,000         $390,000    Updated HPDP cap & HAFA initial cap
             Glenview State Bank,                        Instrument for
12/11/2009                                 Purchase                                 $370,000 N/A                    3/26/2010       $1,250,000        $1,640,000   Updated portfolio data from servicer                          $0           $0               $0                  $0
             Glenview, IL                                Home Loan
                                                         Modifications                                              5/26/2010      ($1,640,000)               $0   Termination of SPA
                                                                                                                    1/22/2010          $30,000         $630,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $400,000         $1,030,000   Updated portfolio data from servicer
                                                         Financial
             Verity Credit Union,                        Instrument for                                             7/14/2010       ($330,000)         $700,000    Updated portfolio data from servicer
12/11/2009                                 Purchase                                 $600,000 N/A                                                                                                                                 $0           $0               $0                  $0
             Seatle, WA                                  Home Loan                                                  9/30/2010          $25,278         $725,278    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                     1/6/2011              ($1)        $725,277    Updated portfolio data from servicer
                                                                                                                    2/17/2011       ($725,277)                $0   Termination of SPA
                                                                                                                    1/22/2010          $30,000         $660,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $800,000         $1,460,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($360,000)        $1,100,000   Updated portfolio data from servicer
                                                                                                                    9/30/2010          $60,445        $1,160,445   Updated portfolio data from servicer
                                                         Financial
             Hartford Savings Bank,                      Instrument for                                              1/6/2011              ($2)       $1,160,443   Updated portfolio data from servicer
12/11/2009                                 Purchase                                 $630,000 N/A                                                                                                                                 $0           $0               $0                  $0
             Hartford, WI                                Home Loan                                                  3/30/2011              ($2)       $1,160,441   Updated due to quarterly assessment and reallocation
                                                         Modifications
                                                                                                                    6/29/2011             ($18)       $1,160,423   Updated due to quarterly assessment and reallocation
                                                                                                                    6/28/2012             ($14)       $1,160,409   Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012             ($37)       $1,160,372   Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012              ($6)       $1,160,366   Updated due to quarterly assessment and reallocation

                                                         Financial                                                  4/21/2010       ($150,000)                $0   Termination of SPA
             The Bryn Mawr Trust Co.,                    Instrument for
12/11/2009                                 Purchase                                 $150,000 N/A             9                                                                                                               $7,137       $9,621           $7,436            $24,194
             Bryn Mawr, PA                               Home Loan
                                                         Modifications                                              6/16/2011        $100,000          $100,000    Transfer of cap due to servicing transfer

                                                                                                                    1/22/2010          $30,000         $650,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010       ($580,000)           $70,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010       $1,430,000        $1,500,000   Updated portfolio data from servicer
                                                                                                                    9/30/2010          $95,612        $1,595,612   Updated portfolio data from servicer
                                                         Financial
             Citizens 1st National Bank,                 Instrument for                                              1/6/2011              ($2)       $1,595,610   Updated portfolio data from servicer
12/16/2009                                 Purchase                                 $620,000 N/A                                                                                                                            $12,417     $36,827           $30,317            $79,560
             Spring Valley, IL                           Home Loan                                                  3/30/2011              ($3)       $1,595,607   Updated due to quarterly assessment and reallocation
                                                         Modifications
                                                                                                                    6/29/2011             ($24)       $1,595,583   Updated due to quarterly assessment and reallocation
                                                                                                                    6/28/2012             ($16)       $1,595,567   Updated due to quarterly assessment and reallocation
                                                                                                                    9/27/2012             ($45)       $1,595,522   Updated due to quarterly assessment and reallocation
                                                                                                                   12/27/2012              ($8)       $1,595,514   Updated due to quarterly assessment and reallocation
                                                                                                                    1/22/2010          $10,000         $180,000    Updated HPDP cap & HAFA initial cap

                                                         Financial                                                  3/26/2010          $30,000         $210,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




             Golden Plains Credit Union,                 Instrument for
12/16/2009                                 Purchase                                 $170,000 N/A                    7/14/2010         ($10,000)        $200,000    Updated portfolio data from servicer                          $0           $0               $0                  $0
             Garden City, KS                             Home Loan
                                                         Modifications                                              9/30/2010          $90,111         $290,111    Updated portfolio data from servicer
                                                                                                                    2/17/2011       ($290,111)                $0   Termination of SPA
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         311
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                   (CONTINUED)                                                                                                                                                                                  312
             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                        TARP Incentive Payments
                                                                               Cap of Incentive
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                          Lenders/                           Total TARP
                                           Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                            Borrower’s    Investors        Servicers           Incentive
Date         Name of Institution           Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments
                                                         Financial                                                 1/22/2010         $160,000         $3,620,000   Updated HPDP cap & HAFA initial cap
             First Federal Savings
                                                         Instrument for
12/16/2009   and Loan Association of       Purchase                                $3,460,000 N/A                                                                                                                                $0           $0               $0                  $0
                                                         Home Loan
             Lakewood, Lakewood, OH                                                                                4/21/2010       ($3,620,000)               $0   Termination of SPA
                                                         Modifications
                                                                                                                   1/22/2010           $20,000         $460,000    Updated HPDP cap & HAFA initial cap
                                                         Financial
             Sound Community Bank,                       Instrument for                                            3/26/2010        $1,430,000        $1,890,000   Updated portfolio data from servicer
12/16/2009                                 Purchase                                 $440,000 N/A                                                                                                                                 $0           $0               $0                  $0
             Seatle, WA                                  Home Loan                                                 7/14/2010        ($390,000)        $1,500,000   Updated portfolio data from servicer
                                                         Modifications
                                                                                                                    9/8/2010       ($1,500,000)               $0   Termination of SPA
                                                                                                                   1/22/2010           $30,000         $730,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010        $1,740,000        $2,470,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,870,000)        $600,000    Updated portfolio data from servicer

                                                         Financial                                                 9/30/2010         $850,556         $1,450,556   Updated portfolio data from servicer
             Horizon Bank, NA,                           Instrument for
12/16/2009                                 Purchase                                 $700,000 N/A                    1/6/2011               ($2)       $1,450,554   Updated portfolio data from servicer                          $0           $0               $0                  $0
             Michigan City, IN                           Home Loan
                                                         Modifications                                             3/30/2011               ($2)       $1,450,552   Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011              ($23)       $1,450,529   Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012              ($17)       $1,450,512   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                   9/21/2012       ($1,450,512)               $0   Termination of SPA
                                                                                                                   1/22/2010           $40,000         $800,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010         $140,000          $940,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($140,000)         $800,000    Updated portfolio data from servicer

                                                         Financial                                                 9/30/2010           $70,334         $870,334    Updated portfolio data from servicer
             Park View Federal Savings                   Instrument for
12/16/2009                                 Purchase                                 $760,000 N/A            12      1/6/2011               ($1)        $870,333    Updated portfolio data from servicer                     $11,000     $23,937           $19,000            $53,937
             Bank, Solon, OH                             Home Loan
                                                         Modifications                                             3/30/2011               ($1)        $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011              ($12)        $870,320    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012              ($10)        $870,310    Updated due to quarterly assessment and reallocation
                                                                                                                   9/14/2012        ($816,373)           $53,937   Termination of SPA
                                                                                                                   1/22/2010         $200,000         $4,430,000   Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010       ($1,470,000)       $2,960,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,560,000)       $1,400,000   Updated portfolio data from servicer
                                                         Financial
                                                         Instrument for                                            9/30/2010        $5,852,780        $7,252,780   Updated portfolio data from servicer
12/23/2009   Iberiabank, Sarasota, FL      Purchase                                $4,230,000 N/A           12                                                                                                                   $0     $10,502           $15,000            $25,502
                                                         Home Loan                                                  1/6/2011              ($11)       $7,252,769   Updated portfolio data from servicer
                                                         Modifications
                                                                                                                   3/30/2011              ($13)       $7,252,756   Updated due to quarterly assessment and reallocation
                                                                                                                   4/13/2011        ($300,000)        $6,952,756   Transfer of cap due to servicing transfer
                                                                                                                    6/3/2011       ($6,927,254)          $25,502   Termination of SPA
                                                                                                                   1/22/2010           $20,000         $360,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010        ($320,000)           $40,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010         $760,000          $800,000    Updated portfolio data from servicer
                                                         Financial
             Grafton Suburban Credit                     Instrument for                                            9/30/2010          ($74,722)        $725,278    Updated portfolio data from servicer
12/23/2009                                 Purchase                                 $340,000 N/A                                                                                                                                 $0           $0               $0                  $0
             Union, North Grafton, MA                    Home Loan                                                  1/6/2011               ($1)        $725,277    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                   3/30/2011               ($1)        $725,276    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011              ($11)        $725,265    Updated due to quarterly assessment and reallocation
                                                                                                                   1/25/2012        ($725,265)                $0   Termination of SPA
                                                                                                                   1/22/2010                $0           $60,000   Updated HPDP cap & HAFA initial cap

                                                         Financial                                                 3/26/2010           $90,000         $150,000    Updated portfolio data from servicer
             Eaton National Bank & Trust                 Instrument for
12/23/2009                                 Purchase                                  $60,000 N/A                   7/14/2010           $50,000         $200,000    Updated portfolio data from servicer                          $0           $0               $0                  $0
             Company, Easton, OH                         Home Loan
                                                         Modifications                                             9/30/2010          ($54,944)        $145,056    Updated portfolio data from servicer
                                                                                                                   5/20/2011        ($145,056)                $0   Termination of SPA
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                  (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                                        TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                          Lenders/                           Total TARP
                                          Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                            Borrower’s    Investors        Servicers           Incentive
Date         Name of Institution          Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments
                                                                                                                  1/22/2010                $0         $110,000    Updated HPDP cap & HAFA initial cap

                                                        Financial                                                 3/26/2010         ($20,000)           $90,000   Updated portfolio data from servicer
             Tempe Schools Credit                       Instrument for
12/23/2009                                Purchase                                 $110,000 N/A                   7/14/2010          $10,000          $100,000    Updated portfolio data from servicer                          $0           $0               $0                  $0
             Union, Tempe, AZ                           Home Loan
                                                        Modifications                                             9/30/2010          $45,056          $145,056    Updated portfolio data from servicer
                                                                                                                  12/8/2010        ($145,056)                $0   Termination of SPA
                                                                                                                  3/26/2010         $480,000          $740,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010        ($140,000)         $600,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010         ($19,778)         $580,222    Updated portfolio data from servicer
                                                        Financial
             Fresno County Federal                      Instrument for                                             1/6/2011               ($1)        $580,221    Updated portfolio data from servicer
1/13/2010                                 Purchase                                 $260,000 N/A            12                                                                                                               $3,833     $13,204            $7,917            $24,954
             Credit Union, Fresno, CA                   Home Loan                                                 3/30/2011               ($1)        $580,220    Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                  6/29/2011               ($8)        $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012               ($6)        $580,206    Updated due to quarterly assessment and reallocation
                                                                                                                   7/6/2012        ($555,252)           $24,954   Termination of SPA
                                                                                                                  3/26/2010         $610,000          $850,000    Updated portfolio data from servicer

                                                        Financial                                                 7/14/2010          $50,000          $900,000    Updated portfolio data from servicer
             Roebling Bank,                             Instrument for
1/13/2010                                 Purchase                                 $240,000 N/A                   9/30/2010         ($29,666)         $870,334    Updated portfolio data from servicer                          $0           $0               $0                  $0
             Roebling, NJ                               Home Loan
                                                        Modifications                                              1/6/2011               ($1)        $870,333    Updated portfolio data from servicer
                                                                                                                  3/23/2011        ($870,333)                $0   Termination of SPA
                                                                                                                  3/26/2010         $150,000          $290,000    Updated portfolio data from servicer
                                                        Financial
             First National Bank of                     Instrument for                                            7/14/2010          $10,000          $300,000    Updated portfolio data from servicer
1/13/2010                                 Purchase                                 $140,000 N/A                                                                                                                                 $0           $0               $0                  $0
             Grant Park, Grant Park, IL                 Home Loan                                                 9/30/2010           ($9,889)        $290,111    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                  1/26/2011        ($290,111)                $0   Termination of SPA
                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013
                                                                                                                                                                                                                                                                                        313
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                (CONTINUED)                                                                                                                                                                                  314
            Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                          Lenders/                           Total TARP
                                        Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                            Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments
                                                                                                                 3/26/2010     ($51,240,000)     $12,910,000    Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                 5/14/2010       $3,000,000      $15,910,000
                                                                                                                                                                servicing transfer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                 6/16/2010       $4,860,000      $20,770,000
                                                                                                                                                                servicing transfer
                                                                                                                 7/14/2010       $3,630,000      $24,400,000    Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                 7/16/2010         $330,000      $24,730,000
                                                                                                                                                                servicing transfer
                                                                                                                 8/13/2010         $700,000      $25,430,000    Transfer of cap due to servicing transfer
                                                                                                                 9/15/2010         $200,000      $25,630,000    Transfer of cap due to servicing transfer
                                                                                                                 9/30/2010      ($1,695,826)     $23,934,174    Updated portfolio data from servicer
                                                                                                                11/16/2010         $200,000      $24,134,174    Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011             ($32)     $24,134,142    Updated portfolio data from servicer
                                                                                                                 1/13/2011       $1,500,000      $25,634,142    Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011       $7,100,000      $32,734,142    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011             ($36)     $32,734,106    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                 4/13/2011       $1,000,000      $33,734,106    Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011         $100,000      $33,834,106    Transfer of cap due to servicing transfer

                                                      Financial                                                  6/16/2011         $300,000      $34,134,106    Transfer of cap due to servicing transfer
            Specialized Loan
                                                      Instrument for                                             6/29/2011            ($332)     $34,133,774    Updated due to quarterly assessment and reallocation
1/13/2010   Servicing, LLC,             Purchase                               $64,150,000 N/A                                                                                                                         $1,884,175   $4,456,352      $3,735,003        $10,075,529
                                                      Home Loan
            Highland Ranch, CO
                                                      Modifications                                              8/16/2011         $100,000      $34,233,774    Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011         $300,000      $34,533,774    Transfer of cap due to servicing transfer
                                                                                                                10/14/2011         $300,000      $34,833,774    Transfer of cap due to servicing transfer
                                                                                                                12/15/2011      ($1,700,000)     $33,133,774    Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012       $1,600,000      $34,733,774    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012         $100,000      $34,833,774    Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012         $100,000      $34,933,774    Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012      $77,600,000     $112,533,774    Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012          $40,000     $112,573,774    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012       ($350,000)     $112,223,774    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012          ($1,058)    $112,222,716    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012       $4,430,000     $116,652,716    Transfer of cap due to servicing transfer
                                                                                                                 8/16/2012      ($1,280,000)    $115,372,716    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012          ($3,061)    $115,369,655    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012       $5,600,000     $120,969,655    Transfer of cap due to servicing transfer
                                                                                                                11/15/2012         $880,000     $121,849,655    Transfer of cap due to servicing transfer
                                                                                                                12/14/2012      $24,180,000     $146,029,655    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012            ($663)    $146,028,992    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2010       $8,680,000        $9,450,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010      ($8,750,000)        $700,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010         $170,334         $870,334    Updated portfolio data from servicer

                                                      Financial                                                   1/6/2011              ($1)        $870,333    Updated portfolio data from servicer
            Greater Nevada Mortgage                   Instrument for
1/13/2010                               Purchase                                 $770,000 N/A                    3/30/2011              ($1)        $870,332    Updated due to quarterly assessment and reallocation     $41,606     $104,416          $71,430           $217,452
            Services, Carson City, NV                 Home Loan
                                                      Modifications                                              6/29/2011              ($8)        $870,324    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012              ($4)        $870,320    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012             ($10)        $870,310    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012              ($2)        $870,308    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                             Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                  (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                        TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                          Lenders/                           Total TARP
                                          Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                            Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments
                                                        Financial                                                  3/26/2010      $12,190,000      $15,240,000    Updated portfolio data from servicer
            Digital Federal Credit                      Instrument for
1/15/2010                                 Purchase                                $3,050,000 N/A                                                                                                                                $0           $0               $0                  $0
            Union, Marlborough, MA                      Home Loan
                                                        Modifications                                              5/14/2010     ($15,240,000)               $0   Termination of SPA

                                                                                                                   3/26/2010       ($730,000)         $230,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010         $370,000         $600,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010         $200,000         $800,000    Initial FHA-HAMP cap and initial 2MP cap
                                                                                                                   9/30/2010       ($364,833)         $435,167    Updated portfolio data from servicer

                                                        Financial                                                 11/16/2010         $100,000         $535,167    Transfer of cap due to servicing transfer
            iServe Residential Lending,                 Instrument for
1/29/2010                                 Purchase                                 $960,000 N/A                     1/6/2011              ($1)        $535,166    Updated portfolio data from servicer                          $0           $0               $0                  $0
            LLC, San Diego, CA                          Home Loan
                                                        Modifications                                              3/30/2011              ($1)        $535,165    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011              ($7)        $535,158    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012              ($6)        $535,152    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012             ($15)        $535,137    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012              ($3)        $535,134    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2010         $160,000         $700,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010          $25,278         $725,278    Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($1)        $725,277    Updated portfolio data from servicer
                                                        Financial
                                                        Instrument for                                             3/30/2011              ($1)        $725,276    Updated due to quarterly assessment and reallocation
1/29/2010   United Bank, Griffin, GA      Purchase                                 $540,000 N/A                                                                                                                             $2,000       $1,472           $4,000             $7,472
                                                        Home Loan                                                  6/29/2011             ($11)        $725,265    Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                   6/28/2012              ($8)        $725,257    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012             ($22)        $725,235    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012              ($4)        $725,231    Updated due to quarterly assessment and reallocation
                                                        Financial                                                  7/14/2010       $4,440,000        $5,500,000   Updated portfolio data from servicer
            Urban Trust Bank,                           Instrument for
3/3/2010                                  Purchase                                $1,060,000 N/A                                                                                                                                $0           $0               $0                  $0
            Lake May, FL                                Home Loan
                                                        Modifications                                              9/24/2010      ($5,500,000)               $0   Termination of SPA

                                                                                                                   5/26/2010         $120,000      $28,160,000    Initial 2MP cap
                                                                                                                   7/14/2010     ($12,660,000)     $15,500,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010         $100,000      $15,600,000    Initial FHA-HAMP cap
                                                                                                                   9/30/2010      ($3,125,218)     $12,474,782    Updated portfolio data from servicer

                                                        Financial                                                 11/16/2010         $800,000      $13,274,782    Transfer of cap due to servicing transfer
            iServe Servicing, Inc.,                     Instrument for
3/5/2010                                  Purchase                               $28,040,000 N/A                    1/6/2011             ($20)     $13,274,762    Updated portfolio data from servicer                          $0           $0               $0                  $0
            Irving, TX                                  Home Loan
                                                        Modifications                                              3/30/2011             ($24)     $13,274,738    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011            ($221)     $13,274,517    Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012            ($169)     $13,274,348    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012            ($465)     $13,273,883    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012             ($78)     $13,273,805    Updated due to quarterly assessment and reallocation
                                                                                                                   7/14/2010     ($44,880,000)     $15,900,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010       $1,071,505      $16,971,505    Updated portfolio data from servicer
                                                                                                                    1/6/2011             ($23)     $16,971,482    Updated portfolio data from servicer
                                                        Financial
            Navy Federal Credit Union,                  Instrument for                                             3/30/2011             ($26)     $16,971,456    Updated due to quarterly assessment and reallocation
3/10/2010                                 Purchase                               $60,780,000 N/A                                                                                                                          $319,664    $732,350          $620,551         $1,672,566
            Vienna, VA                                  Home Loan                                                  6/29/2011            ($238)     $16,971,218    Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                   6/28/2012            ($145)     $16,971,073    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012            ($374)     $16,970,699    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012             ($58)     $16,970,641    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                        315
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                              (CONTINUED)                                                                                                                                                                                  316
            Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                          Lenders/                           Total TARP
                                      Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                            Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments
                                                                                                               7/14/2010        $400,000          $700,000    Updated portfolio data from servicer
                                                                                                               9/30/2010          $25,278         $725,278    Updated portfolio data from servicer
                                                                                                                1/6/2011              ($1)        $725,277    Updated portfolio data from servicer
                                                    Financial
            Vist Financial Corp,                    Instrument for                                             3/30/2011              ($1)        $725,276    Updated due to quarterly assessment and reallocation
3/10/2010                             Purchase                                 $300,000 N/A                                                                                                                                 $0           $0               $0                  $0
            Wyomissing, PA                          Home Loan                                                  6/29/2011             ($11)        $725,265    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                               6/28/2012              ($8)        $725,257    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012             ($22)        $725,235    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012              ($4)        $725,231    Updated due to quarterly assessment and reallocation
                                                                                                               7/14/2010        $300,000          $600,000    Updated portfolio data from servicer
                                                                                                               9/30/2010         ($19,778)        $580,222    Updated portfolio data from servicer
                                                    Financial
            Midwest Bank and Trust                  Instrument for                                              1/6/2011              ($1)        $580,221    Updated portfolio data from servicer
4/14/2010                             Purchase                                 $300,000 N/A                                                                                                                                 $0           $0               $0                  $0
            Co., Elmwood Park, IL                   Home Loan                                                  3/30/2011              ($1)        $580,220    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                               6/29/2011              ($8)        $580,212    Updated due to quarterly assessment and reallocation
                                                                                                               7/14/2011       ($580,212)                $0   Termination of SPA
                                                                                                               7/14/2010       ($150,000)        $6,400,000   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                               9/15/2010       $1,600,000        $8,000,000   Transfer of cap due to servicing transfer
                                                                                                               9/30/2010      ($4,352,173)       $3,647,827   Updated portfolio data from servicer
                                                                                                                1/6/2011              ($5)       $3,647,822   Updated portfolio data from servicer
                                                    Financial
            Wealthbridge Mortgage                   Instrument for                                             3/30/2011              ($6)       $3,647,816   Updated due to quarterly assessment and reallocation
4/14/2010                             Purchase                                $6,550,000 N/A                                                                                                                                $0           $0               $0                  $0
            Corp, Beaverton, OR                     Home Loan                                                  4/13/2011      ($3,000,000)        $647,816    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                               6/29/2011              ($9)        $647,807    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012              ($7)        $647,800    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012             ($19)        $647,781    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012              ($3)        $647,778    Updated due to quarterly assessment and reallocation
                                                                                                               5/26/2010          $30,000           $40,000   Updated FHA-HAMP cap
                                                                                                               9/30/2010        $250,111          $290,111    Updated portfolio data from servicer
                                                    Financial
            Aurora Financial Group,                 Instrument for                                             6/29/2011          $59,889         $350,000    Updated due to quarterly assessment and reallocation
5/21/2010                             Purchase                                  $10,000 N/A            4, 8                                                                                                            $24,689           $0          $27,844            $52,533
            Inc., Marlton, NJ                       Home Loan                                                  6/28/2012              ($2)        $349,998    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                               9/27/2012              ($5)        $349,993    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012              ($1)        $349,992    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                           Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                  (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                        TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                          Lenders/                           Total TARP
                                          Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                            Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments
                                                                                                                                                                  Transfer of cap from CitiMortgage, Inc. due to
                                                                                                                   6/16/2010       $3,680,000        $3,680,000
                                                                                                                                                                  servicing transfer
                                                                                                                   8/13/2010       $3,300,000        $6,980,000   Transfer of cap due to servicing transfer
                                                                                                                   9/30/2010       $3,043,831      $10,023,831    Updated portfolio data from servicer
                                                                                                                  10/15/2010       $1,400,000      $11,423,831    Transfer of cap due to servicing transfer
                                                                                                                    1/6/2011             ($17)     $11,423,814    Updated portfolio data from servicer
                                                                                                                   3/16/2011       $2,100,000      $13,523,814    Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011             ($24)     $13,523,790    Updated due to quarterly assessment and reallocation
                                                                                                                   4/13/2011       $2,900,000      $16,423,790    Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011       ($200,000)      $16,223,790    Transfer of cap due to servicing transfer
                                                        Financial                                                  6/29/2011            ($273)     $16,223,517    Updated due to quarterly assessment and reallocation
            Selene Finance LP,                          Instrument for
6/16/2010                                 Purchase                                       $0 N/A             9                                                                                                              $34,886    $101,675           $50,138           $186,699
            Houston, TX                                 Home Loan                                                 10/14/2011        $100,000       $16,323,517    Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                                  11/16/2011       $1,100,000      $17,423,517    Transfer of cap due to servicing transfer
                                                                                                                   4/16/2012        $200,000       $17,623,517    Transfer of cap due to servicing transfer
                                                                                                                   5/16/2012          $10,000      $17,633,517    Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012       ($300,000)      $17,333,517    Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012            ($218)     $17,333,299    Updated due to quarterly assessment and reallocation
                                                                                                                   7/16/2012          $40,000      $17,373,299    Transfer of cap due to servicing transfer
                                                                                                                   8/16/2012        $480,000       $17,853,299    Transfer of cap due to servicing transfer
                                                                                                                   9/27/2012            ($600)     $17,852,699    Updated due to quarterly assessment and reallocation
                                                                                                                  11/15/2012          $70,000      $17,922,699    Transfer of cap due to servicing transfer
                                                                                                                  12/27/2012            ($102)     $17,922,597    Updated due to quarterly assessment and reallocation
                                                                                                                   9/30/2010       $1,585,945        $2,465,945   Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($4)       $2,465,941   Updated portfolio data from servicer
                                                        Financial
            Suburban Mortgage                                                                                      3/30/2011              ($4)       $2,465,937   Updated due to quarterly assessment and reallocation
                                                        Instrument for
8/4/2010    Company of New Mexico,        Purchase                                 $880,000 N/A                                                                                                                                 $0           $0               $0                  $0
                                                        Home Loan                                                  6/29/2011             ($40)       $2,465,897   Updated due to quarterly assessment and reallocation
            Albuquerque, MN
                                                        Modifications
                                                                                                                   6/28/2012             ($30)       $2,465,867   Updated due to quarterly assessment and reallocation
                                                                                                                   8/10/2012      ($2,465,867)               $0   Termination of SPA
                                                                                                                   9/30/2010       $1,040,667        $1,740,667   Updated portfolio data from servicer

                                                        Financial                                                   1/6/2011              ($2)       $1,740,665   Updated portfolio data from servicer
            Bramble Savings Bank,                       Instrument for
8/20/2010                                 Purchase                                 $700,000 N/A                    3/30/2011              ($3)       $1,740,662   Updated due to quarterly assessment and reallocation          $0           $0               $0                  $0
            Cincinnati, OH                              Home Loan
                                                        Modifications                                              6/29/2011             ($28)       $1,740,634   Updated due to quarterly assessment and reallocation
                                                                                                                   8/10/2011      ($1,740,634)               $0   Termination of SPA
                                                                                                                   9/30/2010       $2,181,334        $3,481,334   Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($5)       $3,481,329   Updated portfolio data from servicer

                                                        Financial                                                  3/30/2011              ($6)       $3,481,323   Updated due to quarterly assessment and reallocation
            Pathfinder Bank,                            Instrument for
8/25/2010                                 Purchase                                $1,300,000 N/A                   6/29/2011             ($58)       $3,481,265   Updated due to quarterly assessment and reallocation      $2,750       $4,014           $7,033            $13,797
            Oswego, NY                                  Home Loan
                                                        Modifications                                              6/28/2012             ($43)       $3,481,222   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012            ($119)       $3,481,103   Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012             ($20)       $3,481,083   Updated due to quarterly assessment and reallocation
                                                                                                                   9/30/2010       $7,014,337      $11,314,337    Updated portfolio data from servicer
                                                                                                                    1/6/2011             ($17)     $11,314,320    Updated portfolio data from servicer

                                                        Financial                                                  3/30/2011             ($20)     $11,314,300    Updated due to quarterly assessment and reallocation
            First Financial Bank, N.A.,                 Instrument for
8/27/2010                                 Purchase                                $4,300,000 N/A                   6/29/2011            ($192)     $11,314,108    Updated due to quarterly assessment and reallocation          $0           $0               $0                  $0
                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




            Terre Haute, ID                             Home Loan
                                                        Modifications                                              6/28/2012            ($144)     $11,313,964    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012            ($396)     $11,313,568    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012             ($67)     $11,313,501    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                        317
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                 (CONTINUED)                                                                                                                                                                                 318
            Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                         Lenders/                           Total TARP
                                         Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                           Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments
                                                                                                                  9/30/2010         $45,056         $145,056    Updated portfolio data from servicer
                                                                                                                   1/6/2011         $34,944         $180,000    Updated portfolio data from servicer
                                                       Financial
            RBC Bank (USA),                            Instrument for                                             3/30/2011         $40,000         $220,000    Updated due to quarterly assessment and reallocation
9/1/2010                                 Purchase                                 $100,000 N/A            4, 8                                                                                                                $0           $0               $0                  $0
            Raleigh, NC                                Home Loan                                                  6/29/2011         $50,000         $270,000    Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                  3/15/2012       ($200,000)          $70,000   Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012        ($10,000)          $60,000   Transfer of cap due to servicing transfer
                                                                                                                  9/30/2010       $5,168,169       $8,268,169   Updated portfolio data from servicer
                                                                                                                   1/6/2011            ($12)       $8,268,157   Updated portfolio data from servicer
                                                                                                                  3/30/2011            ($15)       $8,268,142   Updated due to quarterly assessment and reallocation
                                                                                                                  4/13/2011        $400,000        $8,668,142   Transfer of cap due to servicing transfer
                                                                                                                  6/29/2011           ($143)       $8,667,999   Updated due to quarterly assessment and reallocation
                                                                                                                  9/15/2011        $700,000        $9,367,999   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011        $100,000        $9,467,999   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011        $200,000        $9,667,999   Transfer of cap due to servicing transfer
                                                       Financial
                                                                                                                 12/15/2011       $1,700,000     $11,367,999    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




            Fay Servicing, LLC,                        Instrument for
9/3/2010                                 Purchase                                $3,100,000 N/A                                                                                                                         $318,426     $668,423         $329,009         $1,315,858
            Chicago, IL                                Home Loan                                                  4/16/2012       $1,600,000     $12,967,999    Transfer of cap due to servicing transfer
                                                       Modifications
                                                                                                                  5/16/2012         $40,000      $13,007,999    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012       ($210,000)     $12,797,999    Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012           ($105)     $12,797,894    Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2012         $50,000      $12,847,894    Transfer of cap due to servicing transfer
                                                                                                                  8/16/2012         $90,000      $12,937,894    Transfer of cap due to servicing transfer
                                                                                                                  9/27/2012           ($294)     $12,937,600    Updated due to quarterly assessment and reallocation
                                                                                                                 10/16/2012       $1,810,000     $14,747,600    Transfer of cap due to servicing transfer
                                                                                                                 12/27/2012            ($61)     $14,747,539    Updated due to quarterly assessment and reallocation
                                                                                                                  9/15/2010       $1,000,000       $1,000,000   Transfer of cap due to servicing transfer
                                                                                                                  9/30/2010        $450,556        $1,450,556   Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($2)       $1,450,554   Updated portfolio data from servicer
                                                                                                                  2/16/2011       $3,000,000       $4,450,554   Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011      $10,200,000     $14,650,554    Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011            ($24)     $14,650,530    Updated due to quarterly assessment and reallocation

                                                       Financial                                                  6/29/2011           ($227)     $14,650,303    Updated due to quarterly assessment and reallocation
            Vericrest Financial, Inc.,                 Instrument for
9/15/2010                                Purchase                                       $0 N/A             9      7/14/2011      $12,000,000     $26,650,303    Transfer of cap due to servicing transfer               $458,332    $1,280,492      $1,243,798         $2,982,622
            Oklahoma City, OK                          Home Loan
                                                       Modifications                                             12/15/2011       $4,100,000     $30,750,303    Transfer of cap due to servicing transfer
                                                                                                                  1/13/2012        $900,000      $31,650,303    Transfer of cap due to servicing transfer
                                                                                                                  4/16/2012        $300,000      $31,950,303    Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012           ($266)     $31,950,037    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012           ($689)     $31,949,348    Updated due to quarterly assessment and reallocation
                                                                                                                 11/15/2012        $720,000      $32,669,348    Transfer of cap due to servicing transfer
                                                                                                                 12/27/2012           ($114)     $32,669,234    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010        $180,222         $580,222    Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($1)        $580,221    Updated portfolio data from servicer

                                                       Financial                                                  3/30/2011             ($1)        $580,220    Updated due to quarterly assessment and reallocation
            Midwest Community Bank,                    Instrument for
9/15/2010                                Purchase                                 $400,000 N/A                    6/29/2011             ($8)        $580,212    Updated due to quarterly assessment and reallocation      $1,000       $1,727           $2,000             $4,727
            Freeport, IL                               Home Loan
                                                       Modifications                                              6/28/2012             ($6)        $580,206    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012            ($17)        $580,189    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012             ($3)        $580,186    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                             Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                           Total TARP
                                        Transaction   Investment       Servicers & Lenders/ Pricing              Adjustment   Cap Adjustment                                                                            Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1 Mechanism   Note          Date          Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments

                                                      Financial                                                   9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
            American Finance House                    Instrument for
9/24/2010                               Purchase                                 $100,000 N/A                                                                                                                                  $0           $0               $0                  $0
            LARIBA, Pasadena, CA                      Home Loan
                                                      Modifications                                                2/2/2011       ($145,056)                $0   Termination of SPA

                                                      Financial                                                   9/30/2010        $856,056         $2,756,056   Updated portfolio data from servicer
                                                      Instrument for
9/24/2010   Centrue Bank, Ottawa, CA    Purchase                                $1,900,000 N/A                     1/6/2011              ($4)       $2,756,052   Updated portfolio data from servicer                          $0           $0               $0                  $0
                                                      Home Loan
                                                      Modifications                                                3/9/2011      ($2,756,052)               $0   Termination of SPA
                                                      Financial                                                   9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
            AgFirst Farm Credit Bank,                 Instrument for
9/30/2010                               Purchase                                 $100,000 N/A                                                                                                                                  $0           $0               $0                  $0
            Columbia, SC                              Home Loan
                                                                                                                  3/23/2011       ($145,056)                $0   Termination of SPA
                                                      Modifications
                                                                                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
                                                      Financial
            Amarillo National Bank,                   Instrument for                                              6/29/2011              ($1)        $145,055    Updated due to quarterly assessment and reallocation
9/30/2010                               Purchase                                 $100,000 N/A            4, 8                                                                                                                  $0           $0               $0                  $0
            Amarillo, TX                              Home Loan                                                   6/28/2012              ($1)        $145,054    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                  9/27/2012              ($2)        $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
                                                      Financial
            American Financial                                                                                    6/29/2011              ($1)        $145,055    Updated due to quarterly assessment and reallocation
                                                      Instrument for
9/30/2010   Resources Inc.,             Purchase                                 $100,000 N/A            4, 8                                                                                                                  $0           $0               $0                  $0
                                                      Home Loan                                                   6/28/2012              ($1)        $145,054    Updated due to quarterly assessment and reallocation
            Parsippany, NJ
                                                      Modifications
                                                                                                                  9/27/2012              ($2)        $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010        $765,945         $2,465,945   Updated portfolio data from servicer
                                                                                                                   1/6/2011              ($3)       $2,465,942   Updated portfolio data from servicer

                                                      Financial                                                   3/30/2011              ($4)       $2,465,938   Updated due to quarterly assessment and reallocation
            Banco Popular de Puerto                   Instrument for                                      4,
9/30/2010                               Purchase                                $1,700,000 N/A                    6/29/2011             ($36)       $2,465,902   Updated due to quarterly assessment and reallocation          $0           $0               $0                  $0
            Rico, San Juan, PR                        Home Loan                                          5, 8
                                                      Modifications                                               6/28/2012             ($30)       $2,465,872   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012             ($83)       $2,465,789   Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012             ($14)       $2,465,775   Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
                                                      Financial
            Capital International                                                                                 6/29/2011              ($1)        $145,055    Updated due to quarterly assessment and reallocation
                                                      Instrument for
9/30/2010   Financial, Inc.,            Purchase                                 $100,000 N/A            4, 8                                                                                                                  $0           $0               $0                  $0
                                                      Home Loan                                                   6/28/2012              ($1)        $145,054    Updated due to quarterly assessment and reallocation
            Coral Gables, FL
                                                      Modifications
                                                                                                                  9/27/2012              ($2)        $145,052    Updated due to quarterly assessment and reallocation

                                                      Financial                                                   9/30/2010        $360,445         $1,160,445   Updated portfolio data from servicer
            Citizens Community Bank,                  Instrument for
9/24/2010                               Purchase                                 $800,000 N/A                      1/6/2011              ($2)       $1,160,443   Updated portfolio data from servicer                          $0           $0               $0                  $0
            Freeburg, IL                              Home Loan
                                                      Modifications                                               3/23/2011      ($1,160,443)               $0   Termination of SPA
                                                                                                                  9/30/2010        $901,112         $2,901,112   Updated portfolio data from servicer
                                                                                                                   1/6/2011              ($4)       $2,901,108   Updated portfolio data from servicer
                                                      Financial
            Community Credit Union of                 Instrument for                                              3/30/2011              ($5)       $2,901,103   Updated due to quarterly assessment and reallocation
9/30/2010                               Purchase                                $2,000,000 N/A           6, 12                                                                                                             $3,000       $4,632           $5,000            $12,632
            Florida, Rockledge, FL                    Home Loan                                                   6/29/2011             ($48)       $2,901,055   Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                  6/28/2012             ($36)       $2,901,019   Updated due to quarterly assessment and reallocation
                                                                                                                  9/14/2012      ($2,888,387)          $12,632   Termination of SPA
                                                                                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
                                                      Financial
            CU Mortgage Services,                     Instrument for                                              6/29/2011              ($1)        $145,055    Updated due to quarterly assessment and reallocation
9/30/2010                               Purchase                                 $100,000 N/A            4, 8                                                                                                                  $0           $0               $0                  $0
            Inc., New Brighton, MN                    Home Loan                                                   6/28/2012              ($1)        $145,054    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                  9/27/2012              ($2)        $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
                                                      Financial
            First Federal Bank of                     Instrument for                                              6/29/2011              ($1)        $145,055    Updated due to quarterly assessment and reallocation
9/30/2010                               Purchase                                 $100,000 N/A            4, 8                                                                                                                  $0           $0               $0                  $0
            Florida, Lake City, FL                    Home Loan
                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                                                                                  6/28/2012              ($1)        $145,054    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                  9/27/2012              ($2)        $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                       319
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                 (CONTINUED)                                                                                                                                                                                 320
            Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                         Lenders/                           Total TARP
                                         Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                           Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments
                                                                                                                  9/30/2010         $45,056         $145,056    Updated portfolio data from servicer
                                                       Financial
            First Mortgage                                                                                        6/29/2011             ($1)        $145,055    Updated due to quarterly assessment and reallocation
                                                       Instrument for
9/30/2010   Corporation,                 Purchase                                 $100,000 N/A            4, 8                                                                                                            $1,000           $0           $1,000             $2,000
                                                       Home Loan                                                  6/28/2012             ($1)        $145,054    Updated due to quarterly assessment and reallocation
            Diamond Bar, CA
                                                       Modifications
                                                                                                                  9/27/2012             ($2)        $145,052    Updated due to quarterly assessment and reallocation

                                                       Financial                                                  9/30/2010        $180,222         $580,222    Updated portfolio data from servicer
            First Safety Bank,                         Instrument for
9/30/2010                                Purchase                                 $400,000 N/A                     1/6/2011             ($1)        $580,221    Updated portfolio data from servicer                          $0           $0               $0                  $0
            Cincinati, OH                              Home Loan
                                                       Modifications                                              3/23/2011       ($580,221)               $0   Termination of SPA
                                                                                                                  9/30/2010        $360,445        $1,160,445   Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($2)       $1,160,443   Updated portfolio data from servicer

                                                       Financial                                                  3/30/2011             ($2)       $1,160,441   Updated due to quarterly assessment and reallocation
            Flagstar Capital Markets                   Instrument for
9/30/2010                                Purchase                                 $800,000 N/A            7, 8    6/29/2011            ($18)       $1,160,423   Updated due to quarterly assessment and reallocation          $0           $0               $0                  $0
            Corporation, Troy, MI                      Home Loan
                                                       Modifications                                              6/28/2012            ($14)       $1,160,409   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012            ($37)       $1,160,372   Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012             ($6)       $1,160,366   Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010        $765,945        $2,465,945   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                   1/6/2011             ($4)       $2,465,941   Updated portfolio data from servicer

                                                       Financial                                                  3/30/2011             ($4)       $2,465,937   Updated due to quarterly assessment and reallocation
            Franklin Savings,                          Instrument for
9/30/2010                                Purchase                                $1,700,000 N/A            4      6/29/2011            ($40)       $2,465,897   Updated due to quarterly assessment and reallocation        $750       $2,713           $3,000             $6,463
            Cincinnati, OH                             Home Loan
                                                       Modifications                                              6/28/2012            ($30)       $2,465,867   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012            ($83)       $2,465,784   Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012            ($14)       $2,465,770   Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010         $45,056         $145,056    Updated portfolio data from servicer
                                                       Financial
            Gateway Mortgage Group,                    Instrument for                                             6/29/2011             ($1)        $145,055    Updated due to quarterly assessment and reallocation
9/30/2010                                Purchase                                 $100,000 N/A            4, 8                                                                                                                $0           $0               $0                  $0
            LLC, Tulsa, OK                             Home Loan                                                  6/28/2012             ($1)        $145,054    Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                  9/27/2012             ($2)        $145,052    Updated due to quarterly assessment and reallocation
                                                       Financial                                                  9/30/2010         $45,056         $145,056    Updated portfolio data from servicer
            GFA Federal Credit Union,                  Instrument for
9/30/2010                                Purchase                                 $100,000 N/A                                                                                                                                $0           $0               $0                  $0
            Gardner, MA                                Home Loan
                                                                                                                  3/23/2011       ($145,056)               $0   Termination of SPA
                                                       Modifications
                                                                                                                  9/30/2010         $45,056         $145,056    Updated portfolio data from servicer
                                                       Financial
            Guaranty Bank,                             Instrument for                                             6/29/2011             ($1)        $145,055    Updated due to quarterly assessment and reallocation
9/30/2010                                Purchase                                 $100,000 N/A            4, 8                                                                                                              $917           $0           $1,000             $1,917
            Saint Paul, MN                             Home Loan                                                  6/28/2012             ($1)        $145,054    Updated due to quarterly assessment and reallocation
                                                       Modifications
                                                                                                                  9/27/2012             ($2)        $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010        $135,167         $435,167    Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($1)        $435,166    Updated portfolio data from servicer

                                                       Financial                                                  3/30/2011             ($1)        $435,165    Updated due to quarterly assessment and reallocation
            James B. Nutter &                          Instrument for
9/24/2010                                Purchase                                 $300,000 N/A            4, 8    6/29/2011             ($6)        $435,159    Updated due to quarterly assessment and reallocation      $3,492           $0           $3,742             $7,234
            Company, Kansas City, MO                   Home Loan
                                                       Modifications                                              6/28/2012             ($4)        $435,155    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012            ($12)        $435,143    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012             ($2)        $435,141    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010        $450,556        $1,450,556   Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($2)       $1,450,554   Updated portfolio data from servicer

                                                       Financial                                                  3/30/2011             ($2)       $1,450,552   Updated due to quarterly assessment and reallocation
            Liberty Bank and Trust Co,                 Instrument for
9/30/2010                                Purchase                                $1,000,000 N/A                   6/29/2011            ($23)       $1,450,529   Updated due to quarterly assessment and reallocation          $0           $0               $0                  $0
            New Orleans, LA                            Home Loan
                                                       Modifications                                              6/28/2012            ($17)       $1,450,512   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012            ($48)       $1,450,464   Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012             ($8)       $1,450,456   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                             Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                               (CONTINUED)
            Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                          Lenders/                           Total TARP
                                       Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                            Borrower’s    Investors        Servicers           Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments
                                                                                                                9/30/2010        $315,389         $1,015,389   Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($1)       $1,015,388   Updated portfolio data from servicer

                                                     Financial                                                  3/30/2011              ($1)       $1,015,387   Updated due to quarterly assessment and reallocation
                                                     Instrument for
9/30/2010   M&T Bank, Buffalo, NY      Purchase                                 $700,000 N/A            4, 8    6/29/2011             ($11)       $1,015,376   Updated due to quarterly assessment and reallocation     $34,524           $0          $37,587            $72,111
                                                     Home Loan
                                                     Modifications                                              6/28/2012             ($11)       $1,015,365   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012             ($30)       $1,015,335   Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012              ($5)       $1,015,330   Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2010        $630,778         $2,030,778   Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($3)       $2,030,775   Updated portfolio data from servicer

                                                     Financial                                                  3/30/2011              ($3)       $2,030,772   Updated due to quarterly assessment and reallocation
            Magna Bank,                              Instrument for
9/30/2010                              Purchase                                $1,400,000 N/A            5      6/29/2011             ($33)       $2,030,739   Updated due to quarterly assessment and reallocation          $0           $0               $0                  $0
            Germanton, TN                            Home Loan
                                                     Modifications                                              6/28/2012             ($25)       $2,030,714   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012             ($68)       $2,030,646   Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012             ($11)       $2,030,635   Updated due to quarterly assessment and reallocation

                                                     Financial                                                  9/30/2010        $225,278          $725,278    Updated portfolio data from servicer
            Mainstreet Credit Union,                 Instrument for
9/30/2010                              Purchase                                 $500,000 N/A                     1/6/2011              ($1)        $725,277    Updated portfolio data from servicer                          $0           $0               $0                  $0
            Lexena, KS                               Home Loan
                                                     Modifications                                               3/9/2011       ($725,277)                $0   Termination of SPA
                                                                                                                9/30/2010         $45,056          $145,056    Updated portfolio data from servicer
                                                     Financial
            Marsh Associates, Inc.,                  Instrument for                                             6/29/2011              ($1)        $145,055    Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                 $100,000 N/A            4, 8                                                                                                             $4,274           $0           $4,622             $8,897
            Charlotte, NC                            Home Loan                                                  6/28/2012              ($1)        $145,054    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                9/27/2012              ($1)        $145,053    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2010      $49,915,806      $93,415,806    Updated portfolio data from servicer
                                                                                                                 1/6/2011           ($125)      $93,415,681    Updated portfolio data from servicer
                                                                                                                3/30/2011           ($139)      $93,415,542    Updated due to quarterly assessment and reallocation

                                                     Financial                                                  6/29/2011          ($1,223)     $93,414,319    Updated due to quarterly assessment and reallocation
            Midland Mortgage
                                                     Instrument for
9/30/2010   Company,                   Purchase                               $43,500,000 N/A           4, 5    6/28/2012           ($797)      $93,413,522    Updated due to quarterly assessment and reallocation   $2,313,672   $449,671        $2,941,280         $5,704,623
                                                     Home Loan
            Oklahoma City, OK
                                                     Modifications                                              7/16/2012    $294,540,000      $387,953,522    Transfer of cap due to servicing transfer
                                                                                                                7/27/2012   ($263,550,000)     $124,403,522    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012          ($3,170)    $124,400,352    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012           ($507)     $124,399,845    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2010         $45,056          $145,056    Updated portfolio data from servicer
                                                     Financial
            Schmidt Mortgage                         Instrument for                                             6/29/2011              ($1)        $145,055    Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                 $100,000 N/A            4, 8                                                                                                                 $0           $0               $0                  $0
            Company, Rocky River, OH                 Home Loan                                                  6/28/2012              ($1)        $145,054    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                9/27/2012              ($2)        $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2010         $45,056          $145,056    Updated portfolio data from servicer
                                                     Financial
            Stockman Bank of                         Instrument for                                             6/29/2011              ($1)        $145,055    Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                 $100,000 N/A            4, 8                                                                                                                 $0           $0               $0                  $0
            Montana, Miles City, MT                  Home Loan                                                  6/28/2012              ($1)        $145,054    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                9/27/2012              ($2)        $145,052    Updated due to quarterly assessment and reallocation

            University First Federal                 Financial                                                  9/30/2010        $270,334          $870,334    Updated portfolio data from servicer
            Credit Union,                            Instrument for
9/30/2010                              Purchase                                 $600,000 N/A                     1/6/2011              ($1)        $870,333    Updated portfolio data from servicer                          $0           $0               $0                  $0
            Salt Lake City, UT                       Home Loan
                                                     Modifications                                              2/17/2011       ($870,333)                $0   Termination of SPA
                                                                                                                9/30/2010         $45,056          $145,056    Updated portfolio data from servicer
                                                     Financial
            Weststar Mortgage, Inc.,                 Instrument for                                             6/29/2011              ($1)        $145,055    Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                 $100,000 N/A            4, 8                                                                                                                 $0           $0               $0                  $0
                                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




            Woodbridge, VA                           Home Loan                                                  6/28/2012              ($1)        $145,054    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                9/27/2012              ($2)        $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                     321
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                  (CONTINUED)                                                                                                                                                                                  322
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                                        TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                          Lenders/                           Total TARP
                                          Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                            Borrower’s    Investors        Servicers           Incentive
Date         Name of Institution          Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount       Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments
                                                                                                                  12/15/2010       $5,000,000        $5,000,000   Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($7)       $4,999,993   Updated portfolio data from servicer
                                                                                                                   2/16/2011        $500,000         $5,499,993   Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011        $100,000         $5,599,993   Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011              ($9)       $5,599,984   Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011             ($85)       $5,599,899   Updated due to quarterly assessment and reallocation
                                                        Financial
             Statebridge Company,                       Instrument for                                            11/16/2011      ($2,500,000)       $3,099,899   Transfer of cap due to servicing transfer
12/15/2010                                Purchase                                       $0 N/A             9                                                                                                               $9,536     $31,825            $9,643            $51,004
             LLC, Denver, CO                            Home Loan                                                  3/15/2012        $200,000         $3,299,899   Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                                   6/28/2012             ($40)       $3,299,859   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012            ($100)       $3,299,759   Updated due to quarterly assessment and reallocation
                                                                                                                  10/16/2012        $170,000         $3,469,759   Transfer of cap due to servicing transfer
                                                                                                                  11/15/2012         ($30,000)       $3,439,759   Transfer of cap due to servicing transfer
                                                                                                                  12/14/2012         ($80,000)       $3,359,759   Transfer of cap due to servicing transfer
                                                                                                                  12/27/2012             ($17)       $3,359,742   Updated due to quarterly assessment and reallocation
                                                                                                                  12/15/2010       $4,300,000        $4,300,000   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                    1/6/2011              ($4)       $4,299,996   Updated portfolio data from servicer
                                                        Financial
             Scotiabank de Puerto Rico,                 Instrument for                                             6/29/2011              ($5)       $4,299,991   Updated due to quarterly assessment and reallocation
12/15/2010                                Purchase                                       $0 N/A             9                                                                                                             $343,683    $454,923          $392,272         $1,190,877
             San Juan, PR                               Home Loan                                                  6/28/2012             ($23)       $4,299,968   Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                   9/27/2012             ($63)       $4,299,905   Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012             ($11)       $4,299,894   Updated due to quarterly assessment and reallocation
                                                                                                                   4/13/2011        $200,000          $200,000    Transfer of cap due to servicing transfer
                                                                                                                   5/13/2011        $100,000          $300,000    Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011        $300,000          $600,000    Transfer of cap due to servicing transfer
                                                        Financial
             AmTrust Bank, A Division                                                                              6/29/2011              ($9)        $599,991    Updated due to quarterly assessment and reallocation
                                                        Instrument for
4/13/2011    of New York Community        Purchase                                       $0 N/A             9                                                                                                              $12,344     $31,779           $20,604            $64,727
                                                        Home Loan                                                  8/16/2011        $200,000          $799,991    Transfer of cap due to servicing transfer
             Bank, Cleveland, OH
                                                        Modifications
                                                                                                                   6/28/2012              ($7)        $799,984    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012             ($19)        $799,965    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012              ($3)        $799,962    Updated due to quarterly assessment and reallocation
                                                        Financial
             SunTrust Mortgage, Inc.,                   Instrument for
4/13/2011                                 Purchase                                       $0 N/A             9      4/13/2011        $100,000          $100,000    Transfer of cap due to servicing transfer                     $0           $0               $0                  $0
             Richmond, VA                               Home Loan
                                                        Modifications
                                                                                                                   4/13/2011       $1,000,000        $1,000,000   Transfer of cap due to servicing transfer
                                                                                                                   6/29/2011        $233,268         $1,233,268   Updated due to quarterly assessment and reallocation
                                                        Financial
             Urban Partnership Bank,                    Instrument for                                            11/16/2011        $100,000         $1,333,268   Transfer of cap due to servicing transfer
4/13/2011                                 Purchase                                       $0 N/A             9                                                                                                             $102,938    $214,804          $111,245           $428,987
             Chicago, IL                                Home Loan                                                  6/28/2012              ($3)       $1,333,265   Updated due to quarterly assessment and reallocation
                                                        Modifications
                                                                                                                   9/27/2012             ($10)       $1,333,255   Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012              ($2)       $1,333,253   Updated due to quarterly assessment and reallocation

                                                        Financial                                                  4/13/2011        $200,000          $200,000    Transfer of cap due to servicing transfer
             Western Federal Credit                     Instrument for
4/13/2011                                 Purchase                                       $0 N/A             9      6/29/2011          $17,687         $217,687    Updated due to quarterly assessment and reallocation     $11,417     $32,547           $14,917            $58,881
             Union, Hawthorne, CA                       Home Loan
                                                        Modifications                                              9/27/2012              ($1)        $217,686    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                               Continued on next page
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                   (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                                        TARP Incentive Payments
                                                                               Cap of Incentive
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                         Lenders/                           Total TARP
                                           Transaction   Investment       Servicers & Lenders/ Pricing             Adjustment   Cap Adjustment                                                                           Borrower’s    Investors        Servicers           Incentive
Date         Name of Institution           Type          Description           Investors (Cap)1 Mechanism   Note         Date          Amount      Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives       Incentives          Payments
                                                                                                                    5/13/2011        $500,000         $500,000    Transfer of cap due to servicing transfer
                                                                                                                    6/16/2011        $100,000         $600,000    Transfer of cap due to servicing transfer
                                                                                                                    6/29/2011             ($9)        $599,991    Updated due to quarterly assessment and reallocation
                                                                                                                    7/14/2011        $200,000         $799,991    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011        $100,000         $899,991    Transfer of cap due to servicing transfer
                                                                                                                   11/16/2011       $2,500,000       $3,399,991   Transfer of cap due to servicing transfer
                                                                                                                    5/16/2012       $1,510,000       $4,909,991   Transfer of cap due to servicing transfer
                                                         Financial
             FCI Lender Services, Inc.,                  Instrument for                                             6/14/2012        $450,000        $5,359,991   Transfer of cap due to servicing transfer
5/13/2011                                  Purchase                                       $0 N/A             9                                                                                                             $18,874     $34,439           $21,416            $74,729
             Anaheim Hills, CA                           Home Loan                                                  6/28/2012            ($66)       $5,359,925   Updated due to quarterly assessment and reallocation
                                                         Modifications
                                                                                                                    7/16/2012        $250,000        $5,609,925   Transfer of cap due to servicing transfer
                                                                                                                    8/16/2012         $90,000        $5,699,925   Transfer of cap due to servicing transfer
                                                                                                                    9/27/2012           ($191)       $5,699,734   Updated due to quarterly assessment and reallocation
                                                                                                                   10/16/2012        $140,000        $5,839,734   Transfer of cap due to servicing transfer
                                                                                                                   11/15/2012         $70,000        $5,909,734   Transfer of cap due to servicing transfer
                                                                                                                   12/14/2012         $40,000        $5,949,734   Transfer of cap due to servicing transfer
                                                                                                                   12/27/2012            ($34)       $5,949,700   Updated due to quarterly assessment and reallocation
                                                                                                                    7/14/2011        $200,000         $200,000    Transfer of cap due to servicing transfer
                                                                                                                   11/16/2011        $900,000        $1,100,000   Transfer of cap due to servicing transfer
                                                                                                                    1/13/2012        $100,000        $1,200,000   Transfer of cap due to servicing transfer

                                                         Financial                                                  6/28/2012             ($9)       $1,199,991   Updated due to quarterly assessment and reallocation
             Gregory Funding, LLC,                       Instrument for
7/14/2011                                  Purchase                                       $0 N/A             9      8/16/2012         $20,000        $1,219,991   Transfer of cap due to servicing transfer                $36,743     $76,611           $39,391           $152,745
             Beaverton, OR                               Home Loan
                                                         Modifications                                              9/27/2012            ($26)       $1,219,965   Updated due to quarterly assessment and reallocation
                                                                                                                   10/16/2012         $50,000        $1,269,965   Transfer of cap due to servicing transfer
                                                                                                                   12/14/2012         $10,000        $1,279,965   Transfer of cap due to servicing transfer
                                                                                                                   12/27/2012             ($5)       $1,279,960   Updated due to quarterly assessment and reallocation
                                                         Financial
             Bangor Savings Bank,                        Instrument for
9/15/2011                                  Purchase                                       $0 N/A             9      9/15/2011        $100,000         $100,000    Transfer of cap due to servicing transfer                     $0           $0               $0                  $0
             Bangor, ME                                  Home Loan
                                                         Modifications
                                                                                                                    9/15/2011       $1,300,000       $1,300,000   Transfer of cap due to servicing transfer

                                                         Financial                                                  6/28/2012            ($15)       $1,299,985   Updated due to quarterly assessment and reallocation
             PHH Mortgage                                Instrument for
9/15/2011                                  Purchase                                       $0 N/A             9      9/27/2012            ($42)       $1,299,943   Updated due to quarterly assessment and reallocation          $0           $0               $0                  $0
             Corporation, Mt. Laurel, NJ                 Home Loan
                                                         Modifications                                             10/16/2012        $140,000        $1,439,943   Transfer of cap due to servicing transfer
                                                                                                                   12/27/2012             ($8)       $1,439,935   Updated due to quarterly assessment and reallocation
                                                                                                                   12/15/2011        $200,000         $200,000    Transfer of cap due to servicing transfer
                                                                                                                    4/16/2012        $600,000         $800,000    Transfer of cap due to servicing transfer
                                                                                                                    6/28/2012             ($3)        $799,997    Updated due to quarterly assessment and reallocation
                                                         Financial
             Rushmore Loan                                                                                          8/16/2012        $110,000         $909,997    Transfer of cap due to servicing transfer
                                                         Instrument for
12/15/2011   Management Services           Purchase                                       $0 N/A             9                                                                                                             $33,000    $136,877           $45,167           $215,044
                                                         Home Loan                                                  9/27/2012            ($13)        $909,984    Updated due to quarterly assessment and reallocation
             LLC, Irvine, CA
                                                         Modifications
                                                                                                                   10/16/2012       $1,270,000       $2,179,984   Transfer of cap due to servicing transfer
                                                                                                                   11/15/2012        $230,000        $2,409,984   Transfer of cap due to servicing transfer
                                                                                                                   12/27/2012             ($5)       $2,409,979   Updated due to quarterly assessment and reallocation
                                                         Financial
             Sun West Mortgage                           Instrument for
1/13/2012                                  Purchase                                       $0 N/A             9      1/13/2012        $100,000         $100,000    Transfer of cap due to servicing transfer                     $0           $0               $0                  $0
             Company, Inc, Cerritos, CA                  Home Loan
                                                         Modifications
                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




                                                         Financial
             PrimeWest Mortgage                          Instrument for
3/15/2012                                  Purchase                                       $0 N/A             9      3/15/2012        $100,000         $100,000    Transfer of cap due to servicing transfer                     $0           $0               $0                  $0
             Corporation, Lubbock, TX                    Home Loan
                                                         Modifications
                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                        323
HAMP TRANSACTION DETAIL, AS OF 12/31/2012                                                          (CONTINUED)                                                                                                                                                                                                                       324
               Servicer Modifying Borrowers’ Loans                                                                                                                  Adjustment Details                                                                                             TARP Incentive Payments
                                                                                   Cap of Incentive
                                                                               Payments on Behalf
                                                                               of Borrowers and to                                                                                                                                                                            Lenders/                                 Total TARP
                                            Transaction     Investment        Servicers & Lenders/ Pricing                     Adjustment       Cap Adjustment                                                                                         Borrower’s             Investors            Servicers             Incentive
Date           Name of Institution          Type            Description            Investors (Cap)1 Mechanism        Note            Date              Amount         Adjusted Cap     Reason for Adjustment                                           Incentives            Incentives           Incentives            Payments
                                                                                                                                6/14/2012              $940,000           $940,000     Transfer of cap due to servicing transfer
                                                            Financial
               Resurgent Capital                                                                                                6/28/2012              $205,242         $1,145,242     Updated due to quarterly assessment and reallocation
                                                            Instrument for
6/14/2012      Solutions, LP,               Purchase                                             $0 N/A                9
                                                            Home Loan                                                           9/27/2012                    ($3)       $1,145,239     Updated due to quarterly assessment and reallocation
               Greenville, SC
                                                            Modifications
                                                                                                                              12/27/2012                     ($1)       $1,145,238     Updated due to quarterly assessment and reallocation
                                                            Financial                                                         11/15/2012                $30,000             $30,000    Transfer of cap due to servicing transfer                          $50,636               $84,661              $56,136             $191,433
               Kondaur Capital                              Instrument for
11/15/2012                                  Purchase                                             $0 N/A                9
               Corporation, Orange, CA                      Home Loan
                                                            Modifications                                                     12/14/2012                $70,000           $100,000     Transfer of cap due to servicing transfer

                                                            Financial
               Quicken Loans Inc,                           Instrument for
12/14/2012                                  Purchase                                             $0 N/A                9      12/14/2012                $10,000             $10,000    Transfer of cap due to servicing transfer
               Detroit, MI                                  Home Loan
                                                            Modifications
                                                          Total Initial Cap      $23,831,570,000                   Total Cap Adjustments       $6,039,454,004                                                                         Totals       $919,941,051       $2,156,615,160       $1,489,975,841        $4,566,532,053
                                                                                                                                 Total Cap    $29,871,024,004
Notes: Numbers may be affected by rounding. Data as of 12/31/2012. Numbered notes are taken verbatim from Treasury’s 12/27/2012, Transactions Report–Housing Programs.
1
 	The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated to the program and
    individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
 	 On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
3
 	 Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.  
                                                                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




4
 	 Initial cap amount includes FHA-HAMP.
5
 	 Initial cap amount includes RD-HAMP.
6
 	 Initial cap amount includes 2MP.
7
 	 Initial cap amount includes FHA-2LP.
8
 	 Initial cap does not include HAMP.
9
 	 This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
10
  	 The amendment reflects a change in the legal name of the institution.
11
  	 MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 02/01/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the amount previously paid to MorEquity, Inc. prior to such agreement.  
12
  	 The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.  
13
  	 Bank of America, N.A., Home Loan Services, Inc. and Wilshire Credit Corporation were merged into BAC Home Loans Servicing, LP. and the remaining Adjusted Cap stated above represents the amount previously paid to each servicer prior to such merger.
14
  	 In April 2011, EMC Mortgage, an indirect subsidiary of JP Morgan Chase & Co, transferred the servicing of all loans to JP Morgan Chase Bank, NA. The remaining Adjusted Cap stated above represents the amount previously paid to EMC Mortgage prior to such transfer.

As used in this table:
“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.
“RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
“FHA-2LP” means the FHA Second Lien Program

Source: Treasury, Transactions Report–Housing Programs, 12/27/2012.
TABLE D.13
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 12/31/2012
                    Seller
                                                                                               Transaction                                          Initial Investment           Additional       Investment   Pricing
Note   Trade Date   Name of Institution                                                        Type          Investment Description                            Amount    Investment Amount           Amount1   Mechanism
       6/23/2010                                                                                             Financial Instrument for HHF Program      $102,800,000                     —                      N/A
2      9/23/2010    Nevada Affordable Housing Assistance Corporation, Reno, NV                 Purchase      Financial Instrument for HHF Program                  —           $34,056,581     $194,026,240    N/A
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —           $57,169,659                     N/A
       6/23/2010                                                                                             Financial Instrument for HHF Program      $699,600,000                     —                      N/A
2      9/23/2010    CalHFA Mortgage Assistance Corporation, Sacramento, CA                     Purchase      Financial Instrument for HHF Program                  —          $476,257,070    $1,975,334,096   N/A
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —          $799,477,026                     N/A
       6/23/2010                                                                                             Financial Instrument for HHF Program      $418,000,000                     —                      N/A
2      9/23/2010    Florida Housing Finance Corporation, Tallahassee, FL                       Purchase      Financial Instrument for HHF Program                  —          $238,864,755    $1,057,839,136   N/A
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —          $400,974,381                     N/A
       6/23/2010                                                                                             Financial Instrument for HHF Program      $125,100,000                     —                      N/A
                    Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ     Purchase                                                                                        $267,766,006
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —          $142,666,006                     N/A
       6/23/2010                                                                                             Financial Instrument for HHF Program      $154,500,000                     —                      N/A
2      9/23/2010    Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI   Purchase      Financial Instrument for HHF Program                  —          $128,461,559     $498,605,738    N/A
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —          $215,644,179                     N/A
       8/3/2010                                                                                              Financial Instrument for HHF Program      $159,000,000                     —                      N/A
                                                                                               Purchase
2      9/23/2010    North Carolina Housing Finance Agency, Raleigh, NC                                       Financial Instrument for HHF Program                  —          $120,874,221     $482,781,786    N/A
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —          $202,907,565                     N/A
       8/3/2010                                                                                              Financial Instrument for HHF Program      $172,000,000                     —                      N/A
                                                                                               Purchase
2      9/23/2010    Ohio Homeowner Assistance LLC, Columbus, OH                                              Financial Instrument for HHF Program                  —          $148,728,864     $570,395,099    N/A
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —          $249,666,235                     N/A
       8/3/2010                                                                                              Financial Instrument for HHF Program       $88,000,000                     —                      N/A
2      9/23/2010    Oregon Affordable Housing Assistance Corporation, Salem, OR                Purchase      Financial Instrument for HHF Program                  —           $49,294,215     $220,042,786    N/A
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —           $82,748,571                     N/A
       8/3/2010                                                                                              Financial Instrument for HHF Program       $43,000,000                     —                      N/A
                                                                                               Purchase
2      9/23/2010    Rhode Island Housing and Mortgage Finance Corporation, Providence, RI                    Financial Instrument for HHF Program                  —           $13,570,770      $79,351,573    N/A
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —           $22,780,803                     N/A
       8/3/2010                                                                                              Financial Instrument for HHF Program      $138,000,000                     —                      N/A
2      9/23/2010    SC Housing Corp, Columbia, SC                                              Purchase      Financial Instrument for HHF Program                  —           $58,772,347     $295,431,547    N/A
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —           $98,659,200                     N/A
       9/23/2010                                                                                             Financial Instrument for HHF Program       $60,672,471                     —                      N/A
                    Alabama Housing Finance Authority, Montgomery, AL                          Purchase                                                                                        $162,521,345
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —          $101,848,874                     N/A
       9/23/2010                                                                                             Financial Instrument for HHF Program       $55,588,050                     —                      N/A
                    Kentucky Housing Corporation, Frankfort, KY                                Purchase                                                                                        $148,901,875
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —           $93,313,825                     N/A
       9/23/2010                                                                                             Financial Instrument for HHF Program       $38,036,950                     —                      N/A
                    Mississippi Home Corporation, Jackson, MS                                  Purchase                                                                                        $101,888,323
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —           $63,851,373                     N/A
       9/23/2010                                                                                             Financial Instrument for HHF Program      $126,650,987                     —                      N/A
                    GHFA Affordable Housing, Inc., Atlanta, GA                                 Purchase                                                                                        $339,255,819
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —          $212,604,832                     N/A
       9/23/2010                                                                                             Financial Instrument for HHF Program       $82,762,859                     —                      N/A
                    Indiana Housing and Community Development Authority, Indianapolis, IN      Purchase                                                                                        $221,694,139
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —          $138,931,280                     N/A
       9/23/2010                                                                                             Financial Instrument for HHF Program      $166,352,726                     —                      N/A
                    Illinois Housing Development Authority, Chicago, IL                        Purchase                                                                                        $445,603,557
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —          $279,250,831                     N/A
       9/23/2010                                                                                             Financial Instrument for HHF Program      $112,200,637                     —                      N/A
                    New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                Purchase                                                                                        $300,548,144
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —          $188,347,507                     N/A
                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I JANUARY 30, 2013




       9/23/2010                                                                                             Financial Instrument for HHF Program         $7,726,678                    —                      N/A
                    District of Columbia Housing Finance Agency, Washington, DC                Purchase                                                                                         $20,697,198
3      9/29/2010                                                                                             Financial Instrument for HHF Program                  —           $12,970,520                     N/A
                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                               325
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 12/31/2012                                                                                                   (CONTINUED)                                                                                326
                         Seller
                                                                                                         Transaction                                                    Initial Investment              Additional              Investment     Pricing
Note     Trade Date      Name of Institution                                                             Type            Investment Description                                    Amount       Investment Amount                  Amount1     Mechanism
         9/23/2010                                                                                                       Financial Instrument for HHF Program                $81,128,260                           —                           N/A
                         Tennessee Housing Development Agency, Nashville, TN                             Purchase                                                                                                            $217,315,593
3        9/29/2010                                                                                                       Financial Instrument for HHF Program                           —             $136,187,333                             N/A
                                                                                                                                                                                          Total Investment Amount        $7,600,000,000
Notes: Numbers may be affected by rounding. Data as of 12/31/2012. Numbered notes are taken verbatim from Treasury’s 12/27/2012, Transactions Report–Housing Programs.
1
 	 The purchase will be incrementally funded up to the investment amount.
2
 	 On 9/23/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3
 	 On 9/29/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report–Housing Programs, 12/27/2012.




TABLE D.14
FHA SHORT REFINANCE PROGRAM, AS OF 12/31/2012
                                                                                                                                                                                                                                                Pricing
Note     Trade Date      Seller Name                      Transaction Type        Investment Description                                                                                                               Investment Amount        Mechanism
1        9/3/2010        Citigroup, Inc., New York, NY    Purchase                Facility Purchase Agreement, dated as of September 3, 2010, between the U.S. Department of the Treasury and Citibank, N.A                $8,117,000,000       N/A
                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I JANUARY 30, 2013




                                                                                                                                                                                        Total Investment Amount           $8,117,000,000
Notes: Numbers may be affected by rounding. Data as of 12/31/2012. Numbered notes are taken verbatim from Treasury’s 12/27/2012, Transactions Report–Housing Programs.
1
 	On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issuance of an up to $8 billion,
   10-year letter of credit (the “L/C”). Treasury will increase availability under the L/C incrementally in proportion to the dollar value of mortgages refinanced under the FHA Short Refinance program from time to time during the first 2.5 years. At that
   time, the amount of the L/C will be capped at the then-current level. Under the terms of the L/C Facility Agreement, Treasury will incur fees for the availability and usage of the L/C up to a maximum amount of $117 million.

Source: Treasury, Transactions Report–Housing Programs, 12/27/2012.
                                                       DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APPENDIX E I JANUARY 30, 2013                                             327




DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/
INTEREST PAYMENTS
DEBT AGREEMENTS, AS OF 12/31/2012
TARP                              Date of               Cost                Description of                                                           Interest/                     Term of
Program        Company            Agreement             Assigned            Investment                 Investment Information                        Dividends                     Agreement
                                                                                                       Each QFI may issue senior
                                                                            Senior                     securities with an aggregate                  7.7% for first 5
                                                                            Subordinated               principal amount of 1%–3% of its              years; 13.8%                  30 years
                                                                            Securities                 risk-weighted assets, but not to              thereafter
CPP –          Originally                                                                              exceed $25 billion.
                                  1/14/2009a            $0.5 billion
S-Corps        52 QFIs                                                      Senior                     Treasury will receive warrants
                                                                            Subordinated               to purchase an amount equal
                                                                            Security Warrants          to 5% of the senior securities                13.8%                         30 years
                                                                            that are exercised         purchased on the date of
                                                                            immediately                investment.
                                                                                                       Each QCU may issue CDCI
                                                                                                       Senior Securities with an
CDCI –                                                                      Subordinated               aggregate principal amount equal
                                                                                                                                          2% for first 8 years,                    CDCI – Credit
Credit         All                                                          Debt for Credit            to not more than 3.5% of its total
                                                                                                                                          9% thereafter                            Unions
Unions                                                                      Unions                     assets and not more than 50%
                                                                                                       of the capital and surplus of the
                                                                                                       QCU.
                                                                                                       Each QFI may issue CDCI Senior
                                                                                                       Securities with an aggregate
                                                                                                       principal amount equal to not
                                                                                                       more than 5% of (i), if the QFI is a
                                                                                                       Certified Entity the risk-weighted
                                                                                                       assets of the QFI, or (ii), if the            3.1% for first 8
CDCI –                                                                      Subordinated                                                                                           CDCI –
                                                                                                       QFI is not a Certified Entity, the            years, 13.8%
S-Corps                                                                     Debt for S-Corps                                                                                       S-Corps
                                                                                                       sum of the RWAs of each of the                thereafter
                                                                                                       Certified Entities, in each case
                                                                                                       less the aggregate capital or,
                                                                                                       as the case may be, principal
                                                                                                       amount of any outstanding TARP
                                                                                                       assistance of the QFI.
                                                                                                                                                                                   The debt
                                                                                                                                                                                   obligation for
                                                                                                                                                                                   each fund
                                                                            Debt Obligation
                                                                                                       Each of the loans will be funded                                            matures at
                                  9/30/2009                                 with Contingent
PPIP           All                                      $20 billion                                    incrementally, upon demand by                 LIBOR + 1%                    the earlier
                                  and later                                 Interest
                                                                                                       the fund manager.                                                           of the
                                                                            Promissory Note
                                                                                                                                                                                   dissolution of
                                                                                                                                                                                   the fund or
                                                                                                                                                                                   10 years.
Notes: Numbers may be affected due to rounding.
a
  Announcement date of CPP S-Corporation Term Sheet.

Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
12/31/2008; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community
Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury’s “TARP Community Development Capital
Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation
Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indicative Terms and Conditions,” 7/8/2009.
328             APPENDIX E I DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I JANUARY 30, 2013




      EQUITY AGREEMENTS, AS OF 12/31/2012
      TARP                          Date of           Cost           Description                                                            Term of
      Program       Company         Agreement         Assigned       of Investment    Investment Information            Dividends           Agreement
                                                                     Senior           1–3% of risk-weighted assets,     5% for first
                                                                     Preferred        not to exceed $25 billion for     5 years, 9%         Perpetual
                                                                     Equity           each QFI                          thereafter
      CPP –         Originally      10/14/2008   a
                                                      $200.1
      Public        286 QFIs        and later         billion        Common
                                                                     Stock            15% of senior preferred
                                                                                                                        —                   Up to 10 years
                                                                     Purchase         amount
                                                                     Warrants
                                                                                      1–3% of risk-weighted assets,     5% for first
                                                                     Preferred
                                                                                      not to exceed $25 billion for     5 years, 9%         Perpetual
                                                                     Equity
                                                                                      each QFI                          thereafter

      CPP –         Originally      11/17/2008b                      Preferred
                                                      $4 billion     Stock
      Private       369 QFIs        and later
                                                                     Purchase
                                                                                      5% of preferred amount            9%                  Perpetual
                                                                     Warrants that
                                                                     are exercised
                                                                     immediately
                                                                     Preferred
                                                                                      5% of risk-weighted assets        2% for first
                                                      $780.2         Equity for
      CDCI          All                                                               for banks and bank holding        eight years, 9%     Perpetual
                                                      million        banks & thrift
                                                                                      companies.                        thereafter
                                                                     institutions
                                                                     Non-
                                                                     Cumulative       $41.6 billion aggregate
                                                                                                                        10%                 Perpetual
                                                                     Preferred        liquidation preference
                                                                     Equity
                                                                                      2% of issued and outstanding
                    American                                                          common stock on investment
                                                      $41.6
      SSFI          International   4/17/2009                                         date of 11/25/08; the warrant
                                                      billionc       Common
                    Group, Inc.                                                       was originally for 53,798,766
                                                                     Stock
                                                                                      shares and had a $2.50            —                   Up to 10 years
                                                                     Purchase
                                                                                      exercise price, but after
                                                                     Warrants
                                                                                      the 6/30/09 split, it is for
                                                                                      2,689,938.30 shares and has
                                                                                      an exercise price of $50.
                                                                                      Up to $29.8 billion aggregate
                                                                     Non-
                                                                                      liquidation preference. As                            Perpetual (life of
                                                                     Cumulative
                                                                                      of 9/30/09, the aggregate         10%                 the facility is 5
                                                                     Preferred
                    American                                                          liquidation preference was $3.2                       years)
                                                      $29.8          Equity
      SSFI          International   4/17/2009                                         billion.
                                                      billiond
                    Group, Inc.                                      Common
                                                                                      150 common stock warrants
                                                                     Stock
                                                                                      outstanding; $0.0002 exercise     —                   Up to 10 years
                                                                     Purchase
                                                                                      price
                                                                     Warrants
                                                                                                                                       Continued on next page
                                       DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APPENDIX E I JANUARY 30, 2013              329




EQUITY AGREEMENTS, AS OF 12/31/2012                 (CONTINUED)

TARP                       Date of           Cost             Description                                                          Term of
Program   Company          Agreement         Assigned         of Investment   Investment Information              Dividends        Agreement
                                                                              Exchanged preferred Series F
                                                                              shares for $16.9 billion of AIA
                                                                              Preferred Units, $3.4 billion
                                                                              in ALICO Junior Preferred
                                                                              Interests, and 167.6 million
                                                              AIA Preferred   shares of Common stock at
                                                              units, ALICO    an exercise price of $43.53.
                                                              Junior          Following the repayments to
                                             $29.8
                                                              Preferred       Treasury on March 8, 2012,          —                Up to 10 years
                                             billione
                                                              Interests,      for $6 billion, March 15,
                                                              Common          2012, for $1.5 billion, March
                                                              Stock           22, 2012, for $1.5 billion,
                                                                              and May 6, 2012, for $5.8
                                                                              billion, AIG successfully retired
                                                                              the remainder if Treasury’s
                                                                              preferred equity interests in the
          American                                                            AIA SPV.
SSFI      International    1/14/2011                                          Exchanged preferred Series
          Group, Inc.                                                         D shares for 924.5 million
                                                                              shares of common stock at
                                                                              an exercise price of $45. On
                                                                              August 3, 2012, Treasury sold
                                                                              approximately 188.5 million
                                                                              shares of AIG’s common stock
                                                                              for $5.8 billion in proceeds. On
                                                              Common          September 10, 2012, Treasury
                                             $41.6 billionf                                                       —                Perpetual
                                                              Stock           sold approximately 636.9
                                                                              million shares of AIG’s common
                                                                              stock for approximately
                                                                              $20.7 billion in proceeds.
                                                                              On December 14, 2012,
                                                                              Treasury sold approximately
                                                                              234.2 million shares of AIG’s
                                                                              common stock for $7.6 billion
                                                                              in proceeds.
                                                                                                                                   8 years with the
                                                              Membership      Each membership interest will
                           9/30/2009 and                                                                                           possibility of
PPIP      All                                $10 billion      interest in a   be funded upon demand from          —
                           later                                                                                                   extension for 2
                                                              partnership     the fund manager.
                                                                                                                                   additional years
                                                              Mandatorily                                                          Converts to
                                                              Convertible                                                          common equity
                                                                              $5 billion                          9%
                                                              Preferred                                                            interest after 7
                                                              Stock                                                                years
          Ally Financial
AIFP      Inc. (formerly   12/29/2008        $5 billion       Preferred
          GMAC)                                               Stock                                                                Converts to
                                                              Purchase                                                             common equity
                                                                              5% of original preferred amount     9%
                                                              Warrants that                                                        interest after 7
                                                              are exercised                                                        years
                                                              immediately
                                                                                                                              Continued on next page
330          APPENDIX E I DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I JANUARY 30, 2013




      EQUITY AGREEMENTS, AS OF 12/31/2012                (CONTINUED)

      TARP                        Date of          Cost           Description                                                           Term of
      Program    Company          Agreement        Assigned       of Investment      Investment Information            Dividends        Agreement
                                                                  Mandatorily                                                           Converts to
                                                                  Convertible                                                           common equity
                                                                                     $4.5 billion                      9%
                                                                  Preferred                                                             interest after 7
                                                                  Stockg                                                                years
                                                                  Preferred
                 Ally Financial
                                                                  Stock                                                                 Converts to
      AIFP       Inc. (formerly   5/21/2009        $7.5 billion
                                                                  Purchase                                                              common equity
                 GMAC)                                                               5% of original preferred amount   9%
                                                                  Warrants that                                                         interest after 7
                                                                  are exercised                                                         years
                                                                  immediately
                                                                  Common
                                                                                     $3 billion                        —                Perpetual
                                                                  Equity Interesth
                                                                                     This equity interest was
                                                                                     obtained by exchanging a
                 Ally Financial
                                                                  Common             prior debt obligation with
      AIFP       Inc. (formerly   5/29/2009        $0.9 billion                                                        —                Perpetual
                                                                  Equity Interest    General Motors. See “Debt
                 GMAC)
                                                                                     Agreements” table for more
                                                                                     information.
                                                                  Trust Preferred
                                                                                     $2.5 billion                      8%
                                                                  Securities
                 Ally Financial                                   Trust Preferred                                                       Redeemable upon
      AIFP       Inc. (formerly   12/30/2009       $2.5 billion   purchase                                                              the repayment of
                 GMAC)                                            warrants that      5% of trust preferred amount      —                the debenture
                                                                  are exercised
                                                                  immediately
                                                                  Mandatorily
                                                                  Convertible
                                                                                     $1.3 billion                      9%
                                                                  Preferred
                                                                  Stock                                                                 Converts to
                 Ally Financial
                                                                  Preferred                                                             common equity
      AIFP       Inc. (formerly   12/30/2009       $1.3 billion
                                                                  Stock                                                                 interest after 7
                 GMAC)
                                                                  Purchase                                                              years
                                                                                     5% of preferred amount            —
                                                                  Warrants that
                                                                  are exercised
                                                                  immediately

                 Ally Financial
                                                                  Common
      AIFP       Inc. (formerly   12/30/2009       $5.5 billion                      $5.5 billion                      —                Perpetual
                                                                  Equity Interesth
                 GMAC)

                                                                                                                                   Continued on next page
                                                          DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APPENDIX E I JANUARY 30, 2013                                                       331




EQUITY AGREEMENTS, AS OF 12/31/2012                                       (CONTINUED)
Notes: Numbers may be affected due to rounding.
a
    Announcement date of CPP Public Term Sheet.
b
     Announcement date of CPP Private Term Sheet.
c
    AIG exchanged Treasury’s $40 billion investment in cumulative preferred stock (obtained on 11/25/2008) for non-cumulative preferred stock, effectively cancelling the original $40 billion investment.
d
     The Equity Capital Facility was announced as a $30 billion commitment, but Treasury reduced this amount by the value of the AIGFP Retention Payment amount of $165 million.
e
    On 1/14/2011, (A) Treasury exchanged $27.84 billion of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including
    amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2 billion
    of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to draw up to $2
    billion. The Series G equity capital facility was subsequently terminated without drawdown.
f
  On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative
  Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
g
     On 12/31/2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred stock (“MCP”).
h
   On 12/31/2010, Treasury converted $5.5 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of Ally Financial Inc. (formerly GMAC) increased
    from 56% to 74% due to this conversion.

Sources: Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program
Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of
November 25, 2008 between American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG SSFI Investment, Senior Preferred Stock and Warrant,
Summary of Senior Preferred Terms,” 11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Citigroup, Inc. and United States Department of Treasury,”
1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase Agreement dated as of January 15, 2009 between Bank of America Corporation
and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing
Program, Preferred Membership Interests, Summary of Preferred Terms,” 12/29/2008; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 10/7/2010; Treasury,
“TARP Community Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury, “TARP Community
Development Capital Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “TARP’s Community Development Capital Initiative CDFI Subchapter
S Corporation Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010; Ally
Financial Inc. (GOM), 8−K, 12/30/2010; Treasury, Transactions Report, 9/28/2012; Treasury, “Master Transaction Agreement for American International Group. INC, ALICO Holdings LLC, AIA Aurora LLC,
Federal Reserve Bank of New York, United States Treasury, and AIG Credit Facility Trust,” 12/8/2010; Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indictive Terms and
Conditions,” 7/8/2009.




DIVIDENDS, INTEREST, DISTRIBUTIONS, AND OTHER INCOME PAYMENTS, AS OF 12/31/2012
                                                 Dividends                              Interest                    Distributionsa                    Other Incomeb                                     Total
CPP   c
                                       $11,714,155,950                         $115,982,885                                        $—             $14,645,968,650                     $26,476,107,485
CDCI                                           16,797,801                            8,038,593                                      —                                   —                      24,836,394
SSFI   d
                                                             —                                  —                                   —                    457,105,652                         457,105,652
TIP                                       3,004,444,444                                         —                                   —                 1,427,190,941                       4,431,635,385
AGP                                          625,718,857                                        —                                   —                 2,589,197,045                       3,214,915,902
PPIP                                                         —                   316,028,497                         876,708,217                      1,051,552,997                       2,241,826,614
UCSB                                                         —                     13,347,352                                       —                      29,201,848                          42,549,200
AIFP  e
                                          3,408,144,551                       1,665,336,675                                         —                    530,000,000                      5,603,481,226
ASSP                                                         —                     31,949,931                                       —                      84,000,000                        115,949,931
Total                                $18,769,261,603                       $2,150,683,933                         $876,708,217                  $20,814,217,133                     $42,608,407,789
Notes: Numbers may not total due to rounding.
a
  Distributions are gross income from PPIF trading activity and do not include return of equity capital to Treasury.
b
   Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, warrant sales, additional note proceeds from the auto programs and the Consumer and Business Lending
   Initiative/SBA 7(a) programs, principal repayments on the SBA 7(a) program, and repayments associated with capital gains and warrant proceeds in PPIP as PPIFs are liquidated.
c
  Includes $13 million fee received as part of the Popular exchange.
d
  Pursuant to the recapitalization plan on 1/14/2011, AIG had an additional obligation to Treasury of $641,275,676 to reflect the cumulative unpaid interest which further converted into AIG common stock.
   Other income from SSFI includes $165 million in fees and approximately $292.1 million representing return on securities held in the AIA and ALICO SPVs.
e
  Includes AWCP.

Sources: Treasury, Transactions Report, 12/28/2012; Treasury, Section 105(a) Report, 1/10/2013; Treasury, Dividends and Interest Report, 1/10/2013; Treasury, response to SIGTARP data call,
1/16/2013.
332              APPENDIX F I CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL ACT OF 1978 | JANUARY 30, 2013




      CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL
      ACT OF 1978
      This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
      (P.L. 95-452), as amended, 5 U.S.C. APP.

      Section      Statute (Inspector General Act of 1978)                 SIGTARP Action                              Report Reference

      Section      “Description of significant problems, abuses, and       List problems, abuses, and deficiencies     Section 1: “The Office of the SIGTARP”
      5(a)(1)      deficiencies...”                                        from SIGTARP audits and investigations.     Section 5: “SIGTARP Recommendations”
                   “Description of recommendations for corrective                                                      Section 1: “The Office of the SIGTARP”
      Section                                                              List recommendations from SIGTARP
                   action…with respect to significant problems,
      5(a)(2)                                                              audits and investigations.                  Section 5: “SIGTARP Recommendations”
                   abuses, or deficiencies...”
                   “Identification of each significant recommendation      List all instances of incomplete
      Section
                   described in previous semiannual reports on which       corrective action from previous             Section 5: “SIGTARP Recommendations”
      5(a)(3)
                   corrective action has not been completed...”            semiannual reports.
                   “A summary of matters referred to prosecutive
      Section                                                              List status of SIGTARP investigations
                   authorities and the prosecutions and convictions                                                    Section 1: “The Office of the SIGTARP”
      5(a)(4)                                                              referred to prosecutive authorities.
                   which have resulted...”
                   “A summary of each report made to the [Treasury
      Section      Secretary] under section 6(b)(2)...” (instances         List TARP oversight reports by Treasury,    Appendix H: “Key Oversight Reports and
      5(a)(5)      where information requested was refused or not          GAO, and SIGTARP.                           Testimony”
                   provided).
                   “A listing, subdivided according to subject matter,
      Section      of each audit report issued...” showing dollar value
                                                                           List SIGTARP audits.                        Section 1: “The Office of the SIGTARP”
      5(a)(6)      of questioned costs and recommendations that
                   funds be put to better use.
      Section      “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                       Section 1: “The Office of the SIGTARP”
      5(a)(7)      report...”                                              SIGTARP audits.
                   “Statistical tables showing the total number of audit   Provide statistical tables showing dollar   Section 1: “The Office of the SIGTARP”
      Section
                   reports and the total dollar value of questioned        value of questioned costs from SIGTARP
      5(a)(8)                                                                                                          Section 5: “SIGTARP Recommendations”
                   costs...”                                               audits.
                                                                                                                       As detailed in Section 1: “The Office of the
                   “Statistical tables showing the total number of audit   Provide statistical tables showing dollar   SIGTARP,” SIGTARP has made important
      Section
                   reports and the dollar value of recommendations         value of funds put to better use by         findings in its audit reports. However, to date
      5(a)(9)
                   that funds be put to better use by management...”       management from SIGTARP audits.             SIGTARP’s audits have not included funds put
                                                                                                                       to better use findings.
                   “A summary of each audit report issued before
                   the commencement of the reporting period for
                                                                           Provide a synopsis of significant
                   which no management decision has been made by                                                       Section 1: “The Office of the SIGTARP”
      Section                                                              SIGTARP audit reports in which
                   the end of reporting period, an explanation of the
      5(a)(10)                                                             recommendations by SIGTARP are              Section 5: “SIGTARP Recommendations”
                   reasons such management decision has not been
                                                                           still open.
                   made, and a statement concerning the desired
                   timetable for achieving a management decision...”
                                                                           Explain audit reports in which              Section 1: “The Office of the SIGTARP”
      Section      “A description and explanation of the reasons for
                                                                           significant revisions have been made to
      5(a)(11)     any significant revised management decision...”                                                     Section 5: “SIGTARP Recommendations”
                                                                           management decisions.
                   “Information concerning any significant                                                             Section 1: “The Office of the SIGTARP”
      Section                                                              Provide information where management
                   management decision with which the Inspector
      5(a)(12)                                                             disagreed with a SIGTARP audit finding.     Section 5: “SIGTARP Recommendations”
                   General is in disagreement...”
                                                                  PUBLIC ANNOUNCEMENTS OF AUDITS I APPENDIX G I JANUARY 30, 2013   333




PUBLIC ANNOUNCEMENTS OF AUDITS
This appendix provides an announcement of new and              GAO3
ongoing public audits by the agencies listed below, as of      Ongoing Audits
December 31, 2012. See Appendix G: “Key Oversight Reports      •	 Troubled Asset Relief Program: Treasury Sees Some Returns
and Testimony” for a listing of published reports. Italic         As it Exits Programs and Continues to Fund Mortgage
style indicates narrative taken verbatim from the agencies’       Programs. GAO-13-192, January 7, 2013.
responses to SIGTARP’s data call.                              •	 For March a recommendation follow up report.
•	 U.S. Department of Treasury Office of Inspector General     •	 For May probably an AIG status report.
    (“Treasury OIG”)
•	 Federal Reserve Board Office of Inspector General           FDIC OIG4
    (“Federal Reserve OIG”)                                    Ongoing Audits
•	 Government Accountability Office (“GAO”)                    •	 None
•	 Federal Deposit Insurance Corporation Office of Inspector
    General (“FDIC OIG”)                                       Endnotes
                                                               1
                                                                 Treasury OIG, response to SIGTARP data call, 12/21/2012.
                                                               2
                                                                 Federal Reserve OIG, response to SIGTARP data call, 1/3/2013.
Treasury OIG1                                                  3
                                                                 GAO, response to SIGTARP data call, 1/3/2013.
Ongoing Audits
                                                               4
                                                                 FDIC OIG, response to SIGTARP data call, 1/2/2013.

•	 None

Federal Reserve OIG2
Ongoing Audits
•	 None
334              APPENDIX H I KEY OVERSIGHT REPORTS AND TESTIMONY I JANUARY 30, 2013




      KEY OVERSIGHT REPORTS AND TESTIMONY
      This list reflects TARP-related reports and testimony published in the quarter ended December 31, 2012.
      See previous SIGTARP quarterly reports for lists of prior oversight reports and testimony.

      U.S. DEPARTMENT OF THE TREASURY (TREASURY)
      ROLES AND MISSION

      The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. Government’s finances effectively;
      promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury
      advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial
      institutions.

      OVERSIGHT REPORTS

      Treasury, Office of Financial Stability Agency Financial Report — Fiscal Year 2012, 11/9/2012, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/2012_OFS_AFR_Final_11-9-12.pdf, accessed 1/14/2013.

      Treasury, Transactions Report, 9/28/2012 – 12/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Pages/TARP-Investment-Program-
      Transaction-Reports.aspx, accessed 1/3/2013. (released weekly)

      Treasury, Daily TARP Update, 10/1/2012 – 1/2/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/Daily-TARP-Reports.aspx,
      accessed 1/3/2013.

      Treasury, TARP Monthly 105(a) Report, 10/10/2012 – 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/Monthly-Report-to-
      Congress.aspx, accessed 1/14/2013.

      Treasury, Dividends and Interest Report, 10/10/2012 – 1/10/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/Dividends-and-
      Interest-Reports.aspx, accessed 1/14/2013. (released monthly)

      Treasury, Making Home Affordable Program Report, 10/5/2012 – 1/11/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/
      Making-Home-Affordable-Program-Performance-Report.aspx, accessed 1/14/2013. (released monthly)

      Treasury, HAMP Activity by Metropolitan Statistical Area, 10/5/2012 – 1/11/2013, www.treasury.gov/initiatives/financial-stability/reports/Pages/
      HAMP-Report.aspx, accessed 1/14/2013. (released monthly)


      GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
      ROLES AND MISSION

      GAO is tasked with performing ongoing oversight of TARP’s performance, including:

      •	   evaluating the characteristics of asset purchases and the disposition of assets acquired
      •	   assessing TARP’s efficiency in using the funds
      •	   evaluating compliance with applicable laws and regulations
      •	   assessing the efficiency of contracting procedures
      •	   auditing TARP’s annual financial statements and internal controls
      •	   submitting reports to Congress at least every 60 days.


      OVERSIGHT REPORTS

      GAO, “Financial Audit: Office of Financial Stability (Troubled Asset Relief Program) Fiscal Years 2012 and 2011 Financial Statements.” GAO-13-126R,
      November 9, 2012, www.gao.gov/assets/650/649913.pdf, accessed 1/3/2013.
                                                                                         KEY OVERSIGHT REPORTS AND TESTIMONY I APPENDIX H I JANUARY 30, 2013                      335




SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
ROLES AND MISSION

Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of
the purchase, management, and sale of assets under the Troubled Asset Relief Program (“TARP”).
SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.

OVERSIGHT REPORTS

SIGTARP, “Quarterly Report to Congress,” 10/25/2012,
www.sigtarp.gov/Quarterly%20Reports/October_25_2012_Report_to_Congress.pdf, accessed 1/3/2013.

RECORDED TESTIMONY
SIGTARP, Written Testimony of the Honorable Christy Romero, Special Inspector General for the Troubled Asset Relief Program (SIGTARP), Submitted
to the New Jersey State Assembly Financial Institutions and Insurance Committee Housing and Local Government Committee, 10/10/2012,
www.sigtarp.gov/Testimony/SIGTARP_Testimony_NJ_HHF.pdf, accessed 1/3/2013.
Notes: Italic style indicates verbatim narrative taken from source documents.

Sources: Treasury, www.treasury.gov, accessed 1/3/2013; GAO, www.gao.gov, accessed 1/3/2013; OMB, www.whitehouse.gov/omb, accessed 1/3/2013; SIGTARP, www.sigtarp.gov, accessed
1/3/2013; GAO, response to SIGTARP data call, 1/3/2013.
336           APPENDIX I I PEER REVIEW RESULTS I JANUARY 30, 2013




      PEER REVIEW RESULTS
      Peer Review of SIGTARP’s Audit Division
      In September 2012, SIGTARP’s Audit Division passed its mandated external peer review with the highest rating possible, a
      peer review rating of pass. Government Auditing Standards requires Federal Offices of Inspector General that perform audits
      or attestations in accordance with generally accepted government auditing standards to have an appropriate system of quality
      control and to undergo external peer reviews at least once every three years. The SIGTARP Audit Division began operating in
      early 2009, and this was its first peer review.
          The Railroad Retirement Board Office of Inspector General (“RRB OIG”) conducted a comprehensive peer review of the
      SIGTARP Audit Division’s system of quality control in accordance with Government Auditing Standards and guidelines estab-
      lished by the Council of the Inspectors General on Integrity and Efficiency (“CIGIE”). On September 4, 2012, the RRB OIG
      issued its System Review Report on the operations of SIGTARP’s Audit Division. The report noted that “the system of quality
      control for SIGTARP in effect for the year ended March 31, 2012, has been suitably designed and complied with to provide
      SIGTARP with reasonable assurance of performing and reporting in conformity with applicable professional standards in all
      material respects.”
          The report is available on SIGTARP’s website at www.SIGTARP.gov, under “Audit and Other Reports.”

      Peer Review of SIGTARP’s Investigations Division
      In August 2012, SIGTARP’s Investigations Division also passed its mandated external peer review with the highest rating
      possible, a peer review rating of compliance with the quality standards established by CIGIE and the applicable Attorney
      General guidelines. The Department of Education Office of Inspector General (“DE OIG”) conducted a comprehensive peer
      review of the SIGTARP Investigations Division’s system of internal safeguards and management procedures.
          On August 29, 2012, the DE OIG’s report concluded that SIGTARP’s system of internal safeguards and management pro-
      cedures for its investigative functions in effect for the period ending May 2012 was in compliance with the quality standards
      established by CIGIE and the applicable Attorney General guidelines. These safeguards and procedures provide reasonable
      assurance of conforming with professional standards in the planning, execution, and reporting of SIGTARP’s investigations.
          The report is available on SIGTARP’s website at www.SIGTARP.gov, under “Audit and Other Reports.”
ORGANIZATIONAL CHART

                                                                                                                               Special Inspector General
                                                                                                                                   Christy Romero

                                                                                                                                                                                                          EEO Program
                                                                                                                                                                                                            Manager
                                                                                                                                                                                                         Raymond Campbell
                                                                                                                                       Deputy Special
                                                                                                                                     Inspector General
                                                                                                                                           Peggy Ellen
                                                                          Senior Policy Advisor                                                                                     Chief of Staff
                                                                               Brian Sano                                                                                               Vacant


                          Deputy SIG –                  Deputy SIG –                        General Counsel                                Deputy SIG –                                Deputy                          Deputy SIG –
                         Investigations                  Reporting                                                                          Audit and                               Chief of Staff                      Operations
                                                                                            Roderick Fillinger                             Evaluations
                         Scott Rebein                    Mia Levine                                                                                                                     Vacant                             Cathy Alix
                                                                                                                                             Vacant


 Chief Investigative         ADSIG                     Managing Editor         Director of                 Director of                      Assistant                  Director of Policy       ADSIG − Support            ADSIG − HR    ADSIG − CIO      ADSIG − CFO
      Counsel                                                                                                                              Deputy SIG –
                                                                             Communications             Legislative Affairs                                           and Administration           Services
                          Thomas Kelly                 Maryann Haggerty                                                                                                                                                    Sally Ruble   Sangeeta Saraf   Deborah Mathis
   Michael Rivera                                                              Troy Gravitt             Joseph Cwiklinski                   Audit and                     Judith Grady           Lynn Perkoski
                                                                                                                                           Evaluations

                          Investigative                                                                                            Bruce Gimbel (Acting)
Investigative Counsel
                           Operations




                            HQ Operations



                                Hotline
                                                                               Director                Director                 Director                  Director                  Director                Director
                                                                           Leslye Burgess           Brenda James              Craig Meklir               Eric Mader               Joan Becker           Danial Olberding
                          Computer Forensics


                                                                          Auditors & Analysts     Auditors & Analysts   Auditors & Analysts        Auditors & Analysts         Auditors & Analysts     Auditors & Analysts




       Note: SIGTARP organizational chart as of 1/28/2013.
                                                                                                                                                                                                                                                                           ORGANIZATIONAL CHART I APPENDIX J I JANUARY 30, 2013
                                                                                                                                                                                                                                                                           337
